No.
IN THE
SUPREME COURT OF THE UNITED STATES
♦
A.S. a 9-year old child with Autism Spectrum Disorder (ASD) entitled
to Special Education and Related services per IDEA
represented by his parents R.S. Pro se and E.S. Pro se

Plaintiffs-Petitioners

PETITION FOR A WRIT
OF CERTIORARI

Board of Education Shenendehowa Central School District,
Interim Commissioner Betty Rosa, of The University of the State of New York
Defendants-Respondents
•
On Petition for a Writ of Certiorari
To the U.S. Court of Appeals for the

2nd

Circuit

♦
TABLE OF CONTENTS FOR
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI

Appendix 1, Lee Jones, N., CRS Reports of Congress to Analyze, Intent The
Individuals with Disabilities Education Act: Congressional Intent (Dated: May 19,
1995)

App 1

Appendix 2, Grant to Reopen the Time to File an Appeal U.S. District Court
N.D.N.Y., dated March 16, 2020

App 12

ii
Appendix 3, Notice of Appeal to the U.S. Court of Appeals 2nd Circuit (April 2, 2020)
App 20
Appendix 4, Cohen, H., Amerine-Dickens, M., & Smith, T. (2006). Early intensive
behavioral treatment: Replication of the UCLA model in a community setting.
Developmental and Behavioral Pediatrics, 27, S145—S155

App 21

Appendix 5, Howard, J. S., Stanislaw, H., Green, G., Sparkman, C. R., & Cohen, H.
(2014). Comparison of behavior analytic and eclectic early interventions for young
children with autism after three years. Research in Developmental Disabilities, 35
(12), 3326-3344

App 32

Appendix 6, SRO Decision 17-008, Dated April 4, 2017

App 51

Appendix 7, Howard, J. S., Sparkman, C. R., Cohen, H. G., Green, G., & Stanislaw,
(2005). A comparison of intensive behavior analytic and eclectic treatments for
young children with autism. Research in Developmental Disabilities, 26, 359-383.
App 94
Appendix 8, Koegel, R. L., Werner, G. A., Vismara, L. A., & Koegel, L. K. (2005). The
effectiveness of contextually supported play date interactions between children with
autism and typically developing peers. Research and Practice for Persons with Severe
Disabilities, 30 (2), 93-102

App 119

Appendix 9, Lee, P. F., Thomas, R. E., & Lee, P. A. (2015). Approach to autism
spectrum disorder: Using the new DSM-V diagnostic criteria and the Can MEDS-FM
framework. Canadian family physician Medecin de famille canadien, 61(5), 421-424.
App 129

iii
Appendix 10, Sallows, G. 0., & Graupner, T. D. (2005). Intensive behavioral
treatment for children with autism: Four-year outcome and predictors. AJMR, 110,
417-438.

App 139

Appendix 11, Lovaas, 0. I. (1987). Behavioral treatment and normal educational
and intellectual functioning in young autistic children. Journal of Consulting and
Clinical Psychology, 55 (1), 3-9.

App 161

Appendix 12, Opinion of the U.S. District Court N.D.N.Y., dated February 20, 2020.
App 168
Appendix 13, Order from the U.S. Court of Appeals 2nd Circuit sue sponte dismissal
Dated May 8, 2020

App 196

Appendix 14, Second Amended Complaint to U.S. District Court N.D.N.Y. Dated
July 7, 2017.
Appendix 15,

App 197
IHO Decision Case Number 98880, Dated December 30,

2016
Appendix 16,

App 304
Federal Rules of Appellate Procedure Rules 4(a)(6) and

26(c)

App 321

Appendix 17, McEachin, J.J., Smith, T., Lovaas, O.I. (1993) Long-term outcome for
children with autism who received early intensive behavioral treatment. AJMR, 97,
4, 359 — 372

App 323

Appendix 18, Letter for U.S. District Court Regarding Case 1:17 CV-501-LEK/CFH
Dated October 20, 2020

App 337

iv
Appendix 19, Reply to U.S. District Court's October 20, 2020 letter with record from
filing (dated October 15, 2020) with Supreme Court of the United
States

App 339

App 1

95-669 A

CRS Report for Congress

The Individuals with Disabilities
Education Act: Congressional Intent

Nancy Lee Jones
Legislative Attorney
American Law Division

May 19, 1995

CRS
Congressional Research Service • The Library of Congress

Ill lfl l 1111111111411.11

App 2

THE INDIVIDUALS WITH DISABILITIES EDUCATION ACT:
CONGRESSIONAL INTENT
SUMMARY
The Individuals with Disabilities Education Act (IDEA), 20 U.S.C. §§, 1400
et seq., mandates the provision of a free appropriate public education for
children with disabilities and provides for Federal funding to assist States and
localities in meeting this goal. IDEA is currently up for reauthorization
although it may be subject to a one year extension. When IDEA is reauthorized,
Congress may consider amendments to the act. In light of the reauthorization
issues, questions have arisen concerning the original intent of Congress in
enacting the legislation. This report will examine the legislative history of P.L.
94-142 to determine the rationale for its enactment.
An examination of the legislative history of the original act indicates that
there were four main reasons advanced for its enactment. These reasons were
(1) an increased awareness of the needs of children with disabilities, (2) judicial
decisions that found constitutional requirements for the education of children
with disabilities, (3) the inability of states and localities to fund education for
children with disabilities, and (4) the theory that educating children with
disabilities will result in these children becoming more productive members of
society and thus lessening the burden on taxpayers to support nonproductive
persons.

App 3
TABLE OF CONTENTS
INTRODUCTION

1

INCREASED AWARENESS OF THE EDUCATIONAL NEED OF CHILDREN
WITH DISABILITIES
2
JUDICIAL DECISIONS FINDING CONSTITUTIONAL REQUIREMENT FOR
THE EDUCATION OF CHILDREN WITH DISABILITIES
3
INABILITY OF STATES AND LOCALITIES TO FUND EDUCATION FOR
CHILDREN WITH DISABILITIES
5
LONG TERM BENEFITS OF. EDUCATING CHILDREN WITH
DISABILITIES
7
CONCLUSION

8

App 4

THE INDIVIDUALS WITH DISABILITIES
EDUCATION ACT: CONGRESSIONAL INTENT
INTRODUCTION
The Individuals with Disabilities Education Act (IDEA),1 20 U.S.C. §§ 1400
et seq., mandates the provision of a free appropriate public education for
children with disabilities and provides for Federal funding to assist States and
localities in meeting this goal.' IDEA is currently up for reauthorization
although it may be subject to a one year extension.3 When IDEA is
reauthorized, Congress may consider amendments to the act.4 In light of the
reauthorization issues, questions have arisen concerning the original intent of
Congress in enacting the legislation. This report will examine the legislative
history of P.L. 94-142 to determine the rationale for its enactment.
An examination of the legislative history of the original ace indicates that
there were four main reasons advanced for its enactment. These reasons were
(1) an increased awareness of the needs of children with disabilities, (2) judicial
decisions that found constitutional requirements for the education of children
with disabilities, (3) the inability of states and localities to fund education for

1 This act was formerly referred to as the Education for All Handicapped Children
Act. The name was changed by P.L. 101-476. This public law also substituted the phrase
"children with disabilities" for the phrase "handicapped children" throughout the statute.
2 As was stated in the act, its purpose was "to assure that all children with
disabilities have available to them....free appropriate public education which emphasizes
special education and related services designed to meet their unique needs, to assure that
the rights of children with disabilities and their parents or guardians are protected, to
assist States and localities to provide for the education of all children with disabilities,
and to assags and assure the effectiveness of efforts to educate children with disabilities."
20 U.S.C. § 1400(c).
3 See "Subcommittee Plans to Extend IDEA Provisions for One Year," 18 Rep. on
Disability Programs 45 (March 16, 1995).
4 Various issues have arisen concerning IDEA. For a discussion of these see Aleman,
Steven, "Special Education: Issues in the State Grant Program of the Individuals with
Disabilities Education Act," CRS Rep. No. 95-438 EPW (March 20, 1995); Jones, Nancy,
"The Individuals with Disabilities Education Act (IDEA): Legal Issues Surrounding the
Least Restrictive Environment," CRS Rep. No. 95-286 A (Feb. 13, 1995); Jones, Nancy,
"Violence in Schools and the Individuals with Disabilities Education Act," CRS Rep. No.
95-107 A (Jan. 3, 1995).
5 The House and Senate Reports, the House and Senate Conference Reports and the
House and Senate debates were examined. H.Rep. No. 332, 94th Cong., 1st Sess. (1975);
S.Rep. No. 168, 94th Cong., 1st Sess. (1975), reprinted in [1975) U.S.Code Cong. & Ad.
News 1425; H.Conf. Rep. No. 664, 94th Cong., 1st Sess. (1975); S. Conf. Rep. No. 455,
94th Cong., 1st Sess. (1975), reprinted in [1975) U.S.Code Cong. & Ad. News 1480
(1975); 121 Cong. Rec. 19482 et seq. (1975); 121 Cong. Rec. 23701 et seq. (1975); and 121
Cong. Rec. 25534 et seq.

App 5
CRS-2
children with disabilities, and (4) the theory that educating children with
disabilities will result in these children becoming more productive members of
society and thus lessening the burden on taxpayers to support nonproductive
persons.
INCREASED AWARENESS OF THE EDUCATIONAL NEED OF
CHILDREN WITH DISABILITIES
The legislative history of P.L. 94-142 emphasized the increased
congressional awareness of the need to educate children with disabilities. For
example, the Senate report stated: "(i)ncreased awareness of the educational
needs of handicapped children and landmark court decisions establishing the
right to education for handicapped children pointed to the necessity of an
expanded Federal fiscal role."' More specifically, both the House and Senate
reports noted that statistics provided by the Bureau for the Education of the
Handicapped in the then Department of Health, Education and Welfare
indicated that of the more than eight million children with disabilities in the
country, "only 3.9 million such children are receiving an appropriate education
and 1.75 million handicapped children are receiving no educational services at
all, and 2.5 million handicapped children are receiving an inappropriate
education."'
The congressional debate on P.L. 94-142 also discussed the statistics
relating to the provision of education for children with disabilities. It was stated
in the House debate that "the need for a strong measure like the Education for
all Handicapped Children Act of 1975 is made evident by ... (these) grim and
depressing fact."' The statistics concerning the education of children with
disabilities were discussed in detail in the Senate debates where a table
indicating the estimated number of children with disabilities served and
unserved by type of disability was inserted.' In addition, a report on the status
of state education programs for children with disabilities in a state-by-state
format was included.1"
The Senate report discussed the philosophical concept behind a right to
education for children with disabilities. The report stated:

6 S. Rep. No. 168, 94th Cong., 1st Sess., reprinted in [19751 U.S.Code Cong. & Ad.
News 1425, 1429.
7 H. Rep. No. 332, 94th Cong., 1st Sess. 11 (1975). See also S. Rep. 168, 94th Cong.,
1st Sess., reprinted in [1975) U.S. Code Cong. & Ad. News 1425, 1432.
8

121 Cong. Rec. 25537 (1975) (Remarks of Rep. Ford).

9

121 Cong. Rec. 19487 (1975).

19

Id. at 19487-19492.

App 6
CRS-3
This Nation has long embraced a philosophy that
the right to a free appropriate public education is
basic to equal opportunity and is vital to secure the
future and prosperity of our people.
It is
contradictory to that philosophy when that right is
not assured equally to all groups of people within
the Nation. Certainly the failure to provide a right
to education to handicapped children cannot be
allowed to continue."
JUDICIAL DECISIONS FINDING CONSTITUTIONAL REQUIREMENT
FOR THE EDUCATION OF CHILDREN WITH DISABILITIES
The legislative history of P.L. 94-142 indicates in numerous places that the
act was a response to lower court decisions, notably PARC v. State of
Pennsylvania, 343 F.Supp. 279 (ED. Pa. 1972), and Mills v. Board of Education
of the District of Columbia, 348 F.Supp. 866 (D.D.C. 1972). For example, the
Senate report stated that the legislation as originally introduced "...followed a
series of landmark cases establishing in law the right to education for all
handicapped children."12
PARC was a class action suit by a state association and parents of certain
children with mental disabilities. The suit alleged that the state statutes which
excluded these children from education in the public schools were
unconstitutional but was settled when the parties joined in a joint consent
decree. The decree stated in part that all these children must have access to a
free public program of education, each of these children must receive education
and training appropriate to his or her capacity and, if possible, receive
instruction in a class with children who are not disabled. While it was not
required to comment on the constitutional issues, the PARC court did address
the equal protection claim, noting that the court "was satisfied that the
plaintiffs have established a colorable constitutional claim...." At 282. This
language provided support for later cases.
One of those later cases was Mills v. Board of Education, supra. Mills was
an action brought on behalf of seven school age children who had been excluded
from the District of Columbia public school system after being labeled as
behavioral problems, mentally retarded, emotionally disturbed, or hyperactive.
These children had received no hearings or review of the decision to exclude.
The court in Mills held that this denial of an education violated certain statutes
and regulations and was a denial of constitutional due process. In addition, the
court found that it was a denial of due process to suspend or expel a child
without a prior hearing. The court also discussed the defendant's contention

II S.Rep. No. 168, 94th Cong., 1st Sess., reprinted in [1975) U.S. Code Cong. & Ad.
News 1425, 1433.
12 S.Rep. No. 168, 94th Cong., lst Sess., reprinted in [1975] U.S. Code Cong. & Ad.
News 1425, 1430.

App 7
CRS-4
that the relief requested was not financially feasible and made the following
comment.
The defendants are required by the Constitution of
the United States, the District of Columbia Code,
and their own regulations to provide a publicly
supported education for these "exceptional"
children. Their failure to fulfill this clear duty to
include and retain these children in the public
school system or otherwise provide them with
publicly-supported education and their failure to
afford them due process hearings and periodical
review, cannot be excused by the claim that there
are insufficient funds. At 876. 18
To the extent that current funding could not finance all the required services
and programs, the court found that the funds "must be expended equitably in
such a manner that no child is entirely excluded from a publicly supported
education consistent with his needs and ability to benefit therefrom." Id.
The House Report noted that since the decisions in PARC and Mills, "there
have been 46 cases which are completed or still pending in 28 States."14 These
decisions were described as "a nationwide movement in both State and Federal
courts to establish that all handicapped children have a constitutional right to
a public education."' The legislative history of P.L. 94-142 also indicated that
parents should not be forced to rely upon time-consuming judicial action to
obtain a public education for their children with disabilities. The Senate report
specifically stated:
It is this Committee's belief that the Congress must
take a more active role under its responsibility for
equal protection of the laws to guarantee that
handicapped children are provided equal
educational opportunity. It can no longer be the
policy of the Government to merely establish an
unenforceable goal requiring all children to be in
school. S. 6 takes positive necessary steps to

13 For a more detailed discussion of PARC and Mills and the constitutional issues
they present see Tucker and Goldstein, Legal Rights of Persons with Disabilities: An
Analysis of Federal Law 2:7 - 2:12 (1992). See also Board of Education of the Hendrick
Hudson Center School District v. Rowley, 458 U.S. 176 (1982), where the Supreme Court
noted the importance attached to PARC and Mills and found that the principles they
established were the principles that guided the drafters of the legislation.
14

H.Rep.No. 332, 94th Cong., 1st Sess. 3 (1975).

16

Id. at 10.

App 8
CRS-5
ensure that the rights of children and their families
are protected."
INABILITY OF STATES AND LOCALITIES TO FUND EDUCATION
FOR CHILDREN WITH DISABILITIES
Another reason advanced for the enactment of P.L. 94-142 was the inability
of states and localities to fund education for children with disabilities. In the
Senate report it was observed that states had made an effort to comply with the
judicial decisions mandating a right to education but that "lack of financial
resources have prevented the implementation of the various decisions which
have been rendered."17 The Senate report further noted that this was true
despite the fact that courts had stated that the lack of funding may not be used
as an excuse for failing to provide educational services."
The debates on P.L. 94-142 also discussed the inability of the States to fund
education for children with disabilities. In the Senate debate it was observed
that the enactment of P.L. 94-142 would "greatly change the Federal role in the
education of handicapped children since historically the States have had the
primary responsibility for education."19 In addition, it was noted that during
the hearings on the legislation, "State representatives stressed that a strong
supportive Federal role was necessary if States were to meet their
responsibilities to handicapped children."20 Similarly, in the House debate it
was stated that State and local educational agencies have a responsibility to
provide education but their financial resources were inadequate.' The House
debates also indicate that the Federal money was to be used for the excess cost
of educating children with disabilities and "in no way would the Federal funds
be used to supplant State and local funds unless every handicapped child within
that State is receiving a free public education."'

16

S.Rep. No. 168, 9th Cong., 1st Sess. (1975), reprinted in [1975] U.S. Code Cong.
& Ad. News 1425, 1433. This language was echoed in the Senate debate during a
discussion by Senator Williams, the chairman of the Committee considering the
legislation. "It is time that Congress took strong and forceful action. It is time for
Congress to assure equal protection of the laws and to provide to all handicapped children
their right to education." 121 Cong. Rec. 19485 (1975)(remarks of Sen. Williams).
17 S.Rep.No. 168, 94th Cong., 1st Sess. (1975), reprinted in [1975] U.S. Code Cong.
& Ad. News 1425, 1431.
18

Id. at 1432.

19

121 Cong. Rec. 19498 (1975)(remarks of Sen. Dole).

20 121 Cong. Rec. 19482 (1975)(remarks of Sen. Randolph).
21 121
22

Cong. Rec. 23702 (1975)(remarks of Rep. Madden).

121 Cong.Rec. 23704 (1975)(statement of Rep. Brademas).

App 9
CRS-6
At several points during the House debate it was noted that an argument
could be made that the fiscal burden of educating children with disabilities
should remain where it has traditionally been -- that it, with the States and
localities." In support of this argument, it can be observed that the judicial
decisions mandating education for children with disabilities did not place any
requirement on the federal government. However, this argument was criticized
in debate.
Some people feel very strongly....that the burden
ought to be where the educational burdens have
been in the past, that is with the local and State
governments. Others, and I fall in this category,
believe that, because of the extreme burden placed
upon the real estate taxes of this country which
have been used fundamentally to provide education
and because of the financial straits in which our
States find themselves, it is essential that we
change our Federal priorities. New areas of
education which must be funded, such as we have
here, should be absorbed and taken up within the
Federal priorities.'
It was further observed that this issue goes to the basic philosophical
dispute of who ought to bear the costs.
An appropriate education has been mandated by
the courts. This is not some new program
springing out of the imagination or the desires of
Congress, starting as something completely new.
This is something that is going to be required in
educational systems; so regardless of who funds it,
if we talk about inflation, of course, there is going
to be an increase in expenditures. I would agree it
might be more likely that on the State or local level
that the budget would be balanced than on the
Federal level, but there is no question somebody
has to provide for this education."

23 See
24

e.g., 121 Cong.Rec. 23705 (1975); 121 Cong. Rec. 25535 (1975).

121 Cong.Rec. 23705 (1975) (remarks of Rep. Jeffords).

25 Id.

App 10
CRS-7
LONG TERM BENEFITS OF EDUCATING CHILDREN WITH
DISABILITIES
Practical rationales were also offered as support for the enactment of P.L.
94-142. Following a discussion of the statistics showing the number of children
with disabilities who were not receiving an appropriate education, the Senate
report discussed the practical implications of these facts.
The long range implications of these statistics are
that public agencies and taxpayers will spend
billions of dollars over the lifetimes of these
individuals to maintain such persons as dependents
and in a minimally acceptable lifestyle. With
proper education services, many would be able to
become productive citizens, contributing to society
instead of being forced to remain burdens. Others,
through such services, would increase their
independence, thus reducing their dependence on
society.'
The Senate report also noted that providing educational services would help to
decrease the number of persons in institutions. "One need only look at public
institutions to find thousands of persons whose families are no longer able to
care for them and who themselves have received no educational services.
Billions of dollars are expended each year to maintain persons in these
subhuman conditions.""
The House report echoed this language and after a discussion of the
statistics concerning the education of children with disabilities stated that these
figures have long-range implications as well as the short-range implication of
the denial of educational opportunity. "The long-range implications are that
taxpayers will spend many billions of dollars over the lifetime of these
handicapped individuals simply to maintain such persons as dependents on
welfare and often in institutions."" This argument was made in the House
debates on P.L. 94-142 as well. Representative Brademas, the Chairman of the
Subcommittee on Select Education, stated:
It is a shameful exercise of the principles on which
this country was conceived and developed that our
educational system completely excluded 1.75 million
of these handicapped children and provides
inadequate educational opportunities to over half
the total population of handicapped children. This

26 S.Rep.No. 168, 94th Cong., 1st Sess. (1975), reprinted in [19751 U.S.Code Cong.
& Ad. News 1425, 1433.
21

Id.

26

H.Rep.No. 332, 94th Cong., 1st Sess. 11 (1975).

App 11
CRS-8
is a waste of one of our most valuable resources,
our young people and the potential they possess to
become contributing and self-sufficient members of
society."
Similarly, in the Senate debates, Senator Williams stated:
Failure to provide appropriate educational services
for all handicapped children results in public
agencies and taxpayers spending billions of dollars
over the lifetime of these individuals to maintain
them as dependents in minimally acceptable
lifestyles. Yet, providing appropriate educational
services now means that many of these individuals
will be able to become a contributing part of our
society, and they will not have to depend on
subsistence payments from public funds. The time,
I hope, has come when we look no longer upon
persons with disabilities as charitable objects,
unable to make significant contributions. Action
on this legislation will establish a public policy
which will break the chains of ignorance once and
for all.30
CONCLUSION
An examination of the legislative history of the Education for all
Handicapped Children Act, P.L. 94-142, indicates that there were four main
reasons advanced for its enactment. These reasons were (1) the increased
awareness of the educational needs of children with disabilities, (2) the judicial
decisions finding constitutional requirements for the education of children with
disabilities, (3) the inability of states and localities to fund education for
children with disabilities, and (4) the long-term benefits of educating children.

29 121 Cong.Rec. 23703 (1975)(remarks of Rep. Brademas). See also 121 Cong.Rec.
25538 (1975)(remarks of Rep. Ford).
30

121 Cong. Rec. 19492 (1975)(remarks of Sen. Williams).

4MSERS OF

E, KAHN

tfuler
03/16/2020
US POSTAGE

--RICT JUDGE

UNrrED STATSDISTRICT COURT
JAMES T. FOLEY u,S , COURTHOUSE

445 0R0ApiAy — ROOM 422
AL ANY,

$00.652
ZIP 12207
0110106113317

yorm 12207

LW ?OR PRIV

Finza-c4Ass Abu.

P41,11
USE $300

Clifton Park, NY 12065

1

•

Case 1:17-cv-00501-LEK-CFH Document 106 Filed 03/16/20 Page 1 of 7
App 13

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
A.S., et al.,
Plaintiffs,
-against-

1:17-CV-0501 (LEK/CFH)

BOARD OF EDUCATION
SHENENDEHOWA CENTRAL SCHOOL
DISTRICT, et aL,
Defendants.

DECISION AND ORDER
I.

INTRODUCTION
Pro se plaintiffs R.S. and E.S. have brought this action individually and on behalf of their

son, A.S., against Shenendehowa Central School District Board of Education ("District") and
MaryEllen Elia, commissioner of the State University of New York (collectively, "Defendants").
Dkt. Nos. 1 ("Complaint"); 10 ("First Amended Complaint"); 76 ("Second Amended
Complaint"). On February 20, 2019, the Court granted summary judgment to Defendants on all
of Plaintiffs' claims and dismissed the action. Dkt. No. 95 ("2019 Memorandum-Decision and
Order"). The Clerk of the Court entered judgment in favor of Defendants and dismissed the case
that same day. Dkt. No. 96 ("Judgment"). The period in which to file a timely appeal expired
thirty days later. On June 20, 2019, E.S. moved the Court to reopen the time to appeal pursuant to
Federal Rule of Appellate Procedure ("FRAP") 4(a)(6). Dkt. Nos. 97 ("Motion to Reopen"); 97-1
("E.S.'s Memorandum"); 97-2 ("Pro Se CM/ECF Registration Form"); 104 ("E.S. Declaration");

Case 1:17-cv-00501-LEK-CFH Document 106 Filed 03/16/20 Page 2 of 7
App 14

105 ("R.S. Declaration").' E.S. asserts she did not receive notice of the 2019 MemorandumDecision and Order and the Judgment until June 14, 2019 when she obtained copies of them
from the courthouse. E.S.'s Mem. at 10; E.S. Decl. ¶ 11. And, for his part, R.S. affirms he never
provided E.S. notice or copies of the 2019 Memorandum-Decision and Order and the Judgment
even though he received notice and copies of them. R.S. Decl. ¶¶ 8-9. Defendants oppose E.S.'s
Motion to Reopen. Dkt. Nos. 98 ("Elia Opposition"); 99 ("District Opposition").
For the reasons that follow, E.S.'s Motion to Reopen is granted.
II.

DISCUSSION
As another Court in this district has observed: "Rule 4(a)(1) of the Federal Rules of

Appellate Procedure provides . . . that a notice of appeal in a civil action must be filed with the
district court clerk within 30 days 'after entry of the judgment or order appealed from.'
Dickinson v. New York State Comm'n of Correction, No. 16-CV-898, 2017 WL 2493446, at *1
(N.D.N.Y. June 9, 2017) (quoting Fed. R. App. P. 4(a)(1)). FRAP 4(a)(6), which provides an
exception to this requirement, states:
The district court may reopen the time to file an appeal for a period
of 14 days after the date when its order to reopen is entered, but only
if all the following conditions are satisfied:
the court finds that the moving party did not receive notice
under Federal Rule of Civil Procedure 77(d) of the entry of the
judgment or order sought to be appealed within 21 days after
entry;
the motion is filed within 180 days after the judgment or order
is entered or within 14 days after the moving party receives notice

While R.S. also signed E.S.'s Memorandum, the Court construes the brief to pertain
only to E.S. since, as described in more detail below, R.S.—rather than E.S.—received timely
notice of the 2019 Memorandum-Decision and Order.
2

Case 1:17-cv-00501-LEK-CFH Document 106 Filed 03/16/20 Page 3 of 7
App 15

under Federal Rule of Civil Procedure 77(d) of the entry,

whichever is earlier; and
(C) the court finds that no party would be prejudiced.
Fed. R. App. P. 4(a)(6)(A)—(C).
Defendants claim E.S. received timely notice of the 2019 Memorandum-Decision and
Order and the Judgment when the Clerk of the Court emailed those items to
"motherandfatherobochild@gmail.com." Elia Opp'n at 1; District Opp'n at 1. This is an email
address R.S. created on May 31, 2017 to receive CM/ECF2 notifications pertaining to this action.
See Pro Se CM/ECF Registration Form. E.S. does not dispute that the Clerk of the Court emailed
notice of the 2019 Memorandum-Decision and Order and the Judgment to
motherandfatherobochild@gmail.com once they were docketed. Rather, E.S. attests she did not
have access to the motherandfatherobochild@gmail.com account and so did not receive notice of
those docket entries. E.S. Decl. ¶ 5. She also affirms that, unlike R.S., she never consented to
receiving electronic notifications from the Court. See id. ¶¶ 3-4, 6-9.
To determine whether E.S. did receive timely notice of the 2019 Memorandum-Decision
and Order and the Judgment, the Court must first determine whether she received notice in
accordance with Federal Rule of Civil Procedure ("FRCP") 77(d). FRCP 77(d) provides in
pertinent part that "immediately after entering an order or judgment, the clerk must serve notice
of the entry, as provided in Rule 5(b), on each party who is not in default for failing to appear."
Fed. R. Civ. P. 77(d)(1). FRCP 5(b) in turn states that a paper may be served by "sending it to a
registered user by filing it with the court's electronic-filing system or sending it by other

2

CM/ECF refers to the Court's electronic filing system.
3

Case 1:17-cv-00501-LEK-CFH Document 106 Filed 03/16/20 Page 4 of 7
App 16

electronic means that the person consented to in writing." Fed. R. Civ. P 5(b)(2)(E). Because E.S.
never registered for CM/ECF, never consented to receiving court filings through other electronic
means, and did not receive notice of the 2019 Memorandum-Decision and Order and the
Judgment until nearly four months after they were issued, E.S. did not receive timely notice of
those items for the purposes of FRAP 4(a)(6)(A).
The District argues that the Court should presume E.S. received notice of the 2019
Memorandum-Decision and Order and the Judgment because "[p]apers filed on behalf of
Plaintiffs throughout and in connection with this action have been filed by the two parents, as
joint plaintiffs on behalf of their infant child" through motherandfatherobochild@gmail.com.
District Opp'n at 2. But even if one could infer from E.S. and R.S.s' joint filings that E.S. should
have received timely notice of the 2019 Memorandum-Decision and Order and the Judgment,
"this presumption of receipt can be rebutted by a 'specific factual denial of receipt."' See Bourgal
v. Robco Contracting Enters., Ltd., 17 F. Supp. 2d 129, 132 (E.D.N.Y. 1998) (quoting Nunley v.
City of Los Angeles, 52 F.3d 792, 796 (9th Cir. 1995)). Here, E.S. has rebutted the presumption
that she received notice of the 2019 Memorandum-Decision and Order by attesting to the fact
that she did not have access to the motherandfatherobochild@gmail.com account. Consequently,
the Court still finds E.S. has satisfied the first prong of the FRAP 4(a)(6) analysis.
Regarding FRAP 4(a)(6)(B), E.S. filed her Motion to Reopen on June 20, 2019, which
was within fourteen days of receiving notice of the 2019 Memorandum-Decision and Order and
the Judgment. Mot. to Reopen. E.S. also filed her Motion to Reopen within one-hundred-andeighty days after the 2019 Memorandum-Decision and Order and the Judgment were entered. Id.
Thus, E.S. has satisfied the second prong of FRAP 4(a)(6).
4

Case 1:17-cv-00501-LEK-CFH Document 106 Filed 03/16/20 Page 5 of 7
App 17

As for FRAP 4(a)(6)(C), the District argues it "would be prejudiced in this matter, having
to spend the time and expense of continuing to litigate this matter." District Opp'n at 2. Yet when
"there is no prejudice [to a party] beyond the normal risks and costs of opposing an appeal,"
FRAP 4(a)(6)(C) is satisfied. King v. Fox, No. 97-CV-4134, 2000 WL 1876904, at *2 (S.D.N.Y.
Dec. 22, 2000) ("By 'prejudice' the Committee means some adverse consequence other than the
cost of having to oppose the appeal and encounter the risk of reversal, consequences that are
present in every appeal." (quoting 1991 Note of the Advisory Committee on Appellate Rules)).
Hence, the Court finds E.S. has satisfied the third prong of the FRAP 4(a)(6) analysis since
Defendants have not identified any prejudice they may suffer beyond the usual risks and costs of
opposing E.S.'s appeal.
The Second Circuit has observed that a district court may still deny relief under FRAP
4(a)(6) "even if the requirements [of the rule] are met." Zavalidroga v. Cuomo, 588 F. App'x 61,
62 (2d Cir. 2014) (internal quotation marks omitted). Elia argues that even if E.S. satisfied the
three requirements of FRAP 4(a)(6), the Court should still deny E.S.'s Motion to Reopen because
"the fault of E.S in not receiving notice of the Decision and Judgment in this case lies with her
and with her husband . . . . Plaintiffs make no attempt whatsoever to explain why R.S. did not tell
E.S. about the Court's Decision and Judgment." Elia Opp'n at 1-2 (citing WorldCom, Inc., 708
F.3d at 336). While WorldCom did hold that "at a minimum, a district court exercising discretion
under Rule 4(a)(6) should give substantial weight to indications that the failure of receipt was the
litigant's fault," 708 F.3d at 338, the case is not applicable to the facts of this case. In
WorldCom, the attorney for the party moving under FRAP 4(a)(6) had failed to update his
contact information. 708 F.3d at 340. The court held that party's "failure to receive Civil Rule
5

Case 1:17-cv-00501-LEK-CFH Document 106 Filed 03/16/20 Page 6 of 7
App 18

77(d) notice was entirely and indefensibly a problem of its counsel's making, and Rule 4(a)(6)
was not designed to reward such negligence." Id. at 340. Unlike the attorney in WorldCom,
however, E.S. is a pro se, rather than professional, litigant. While E.S. should have updated her
contact information with the Court so that she could receive timely notice of docket entries, her
transgression does not warrant denial of her Motion to Reopen. See Marks v. Askew, No.
11-CV-3851, 2013 WL 772657, at *2 (N.D. Cal. Feb. 28, 2013) (concluding that a pro se
plaintiffs failure to update her address per the court's local rules is "an insufficient basis" to
deny the plaintiffs FRAP 4(a)(6) motion); see also LeSane v. Hall's Sec. Analyst, Inc., 239 F.3d
206, 209 (2d Cir. 2001) ("[P]ro se plaintiffs should be granted special leniency regarding
procedural matters.") Furthermore, Elia does not cite to any case law or rule indicating R.S. was
required to tell E.S. about the 2019 Memorandum-Decision and Order and the Judgment.
Therefore, the Court does not find Elia has adequately explained why E.S. and R.S. were at fault
for E.S. not receiving notice of the 2019 Memorandum-Decision and Order and the Judgment.
III. CONCLUSION
Accordingly, it is hereby:
ORDERED, that E.S.'s Motion to Reopen (Dkt. No. 97) is GRANTED; and it is further
ORDERED, that, pursuant to FRAP 4(a)(6), E.S. must file her appeal of the 2019
Memorandum-Decision and Order and the Judgment with the Court within fourteen days of this
Decision and Order; and it is further
ORDERED, that the Clerk of the Court send notice of this Decision and Order and all
future docket entries to E.S. at her address on file with the Court. The Clerk shall serve a copy of
this Decision and Order on all other parties in accordance with the Local Rules; and it is further
6

Case 1:17-cv-00501-LEK-CFH Document 106 Filed 03/16/20 Page 7 of 7
App 19

ORDERED, that if E.S. would like to change the way she receives docket notifications in
this case then she should promptly so notify the Court in writing.
IT IS SO ORDERED.

DATED:

March 16, 2020
Albany, New York

Lawrie ise E. Kahn
U.S. District Judge.

7

Case 1:17-cv-00501-LEK-CFH Document 109 Filed 04/02/20 Page 1 of 1
20

UNITED STATES DISTRICT COURTS
NORTHERN DISTRICT OF NEW YORK
A.S. a 9-year old child with Autism Spectrum Disorder (ASD) entitled
to Special Education and Related services per IDEA
represented by his parents R.S. Pro se and E.S. Pro se
Plaintiffs-Appellants

NOTICE OF
APPEAL

-against-

Case No. 1:17-CV501 (LEK/CFH)

Board of Education Shenendehowa Central School District,
Interim Commissioner Shannon Tahoe, of The University of the State of New York
Defendants-Appellees

Notice hereby given that, plaintiffs-appellants E.S. Pro Se and R.S. Pro Se on behalf
of A.S. in the above-named Case No. 1:17-CV-501 (LEK/CFH) hereby appeal to the
United States Court of Appeals for the Second Circuit from the February 2019
Memorandum-Decision and Order (Dkt. Nos. 95 and 96) that dismissed plaintiffs
claim in their entirety. Motion to Reopen Granted (Dkt. No. 107) on March 16, 2020
and sent via USPS mail on March 16, 2020 considered received on March 19, 2020 in
Action No. 1 :17-CV-501-LEK/CFH.

Respectfully Submitted April 2, 2020
s/ E.S. Pro se and R.S. Pro se on behalf of A.S.
Motherandfatherobochild@gmail.com

App 21
0196-206X/06/2702-0145
DEVELOPMENTAL AND BEHAVIORAL PEDIATRICS

Vol. 27, No. 2, April 2006

Printed in U.S.A.

Copyright 2006 by Lippincott Williams & Wilkins, Inc.

Treatment

Early Intensive Behavioral Treatment: Replication of
the UCLA Model in a Community Setting
HOWARD COHEN, PH.D.
Valley Mountain Regional Center, Stockton, CA

MILA AMERINE-DICKENS, M.S.
Central Valley Autism Project, Modesto, CA

TRISTRAM SMITH, PH.D.
Department of Pediatrics, University of Rochester Medical Center, Rochester, NY

ABSTRACT. Although previous studies have shown favorable results with early intensive behavioral
treatment (EIBT) for children with autism, it remains important to replicate these findings, particularly in
community settings. The authors conducted a 3-year prospective outcome study that compared 2 groups: (1)
21 children who received 35 to 40 hours per week of EIBT from a community agency that replicated Lovaas'
model of EIBT and (2) 21 age- and IQ-matched children in special education classes at local public schools.
A quasi-experimental design was used, with assignment to groups based on parental preference.
Assessments were conducted by independent examiners for IQ (Bayley Scales of Infant Development or
Wechsler Preschool and Primary Scales of Intelligence), language (Reynell Developmental Language
Scales), nonverbal skill (Merrill-Palmer Scale of Mental Tests), and adaptive behavior (Vineland Adaptive
Behavior Scales). Analyses of covariance, with baseline scores as covariates and Year 1-3 assessments as
repeated measures, revealed that, with treatment, the EIBT group obtained significantly higher IQ (F = 5.21,
p = .03) and adaptive behavior scores (F = 7.84, p = .01) than did the comparison group. No difference
between groups was found in either language comprehension (F = 3.82, p = .06) or nonverbal skill. Six of the
21 EIBT children were fully included into regular education without assistance at Year 3, and 11 others were
included with support; in contrast, only 1 comparison child was placed primarily in regular education.
Although the study was limited by the nonrandom assignment to groups, it does provide evidence that EIBT
can be successfully implemented in a community setting. J Dev Behav Pediatr 27:145-155, 2006. Index
terms: autism, early intervention, applied behavior analysis, behavioral treatment.

The design and implementation of methodologically
rigorous treatment studies are daunting tasks and, in
the area of treatment for autism spectrum disorders,
often emotionally charged and publicly vetted as well.
Matching groups on a variety of important measures,
including severity of disability, individual characteristics of the child, multiple important socio-familial and
environmental factors, as well as controlling multiple
treatment issues such as fidelity, intensity and length
of treatment and pre-determining appropriate outcome
measures are all challenging (and expensive). Moving
treatment studies from the laboratory setting into the
community presents additional hurtles, yet this is
ultimately the setting in which the efficacy of treatment
models needs to be evaluated. Cohen and colleagues

are to be commended for implementing a communitybased treatment study with matched samples, documentation of treatment fidelity, and comprehensive
3-year follow-up. However, the setting was based in
a community program that is mandated to provide
treatment to families of children with autism spectrum
disorders who are then free to accept a plan or not,
which prohibited random assignment to treatment. This
introduced potential bias in their groups, with more
educated and dual parent families in the EIBT group.
There are strengths as well as limitations in this study.
Although it does not resolve the controversies that
continue regarding the "best" treatments for young
children with ASD, we include it because of the critical
need for evaluation of treatment approaches. The
reviewers pointed out the limitations in this community
approach as well as its strengths. The reader is
encouraged to look at both in reviewing this article.
We hope that it will inspire others to do these vitally
needed treatment effectiveness studies. —Editor

Received September 2005; accepted February 2006.
Address for reprints: Mila Amerine-Dickens, M.S., 1317 Oakdale Rd.,
Suite 800, Modesto, CA 95355; e-mail: mamerine-dickens@cvap.org.

S145

Copyright© Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

App 22
S146

AMERINE-DICKENS ET AL

In an era when Autistic Spectrum Disorder (ASD) was
viewed as largely untreatable,' Ivar Lovaas' 1987 outcome
study2 became a pivotal event that provided optimism about
behavioral interventions for ASD. Almost half (9 of 19) of
the children with autism who began intensive behavioral
treatment prior to the age of 4 years from the UCLA/Lovaas
clinic (40 hours per week for 2 or more years) were fully
included into regular education and showed significant gains
in intellectual achievement. A follow-up study of the same
children showed sustained gains.3 This finding, coupled with
a general trend toward earlier diagnosis of ASD (under 3
years of age)4 and the recent exponential increase in
documented cases of ASD,5 made Lovaas' results even more
influential and replication of his research more compelling.
Replication of the UCLA/Lovaas Model involves the
following key elements6: (1) clinical internship and training on the UCLAJLovaas Model of intervention under the
direction of qualified supervisors; (2) implementation of
the model for 35 to 40 hours per week throughout the year,
including one-to-one instruction, peer play training sessions, inclusion into regular education classrooms, and
generalization activities; (3) parent training to foster the
child's acquisition and generalization of skills; and (4)
annual outcome measures.
Several studies have partially replicated the UCLAJLovaas
Model. In the only randomized clinical trial, 28 children with
ASD received either intensive behavioral treatment or parent
training.7 The intensive treatment group averaged 25 hours
per week in the first year which faded over the next 1 to 2
years. The comparison group participated in 10 to 15 hours
per week of special education classes and received 5 hours
per week of parent training for 3 to 9 months. The intensive
children outperformed the comparison children on intellectual, visual-spatial, and academic measures. However, gains
were substantially smaller than in Lovaas' original study.
For example, the between-group IQ difference at follow-up
was 16 points compared to the 31 reported by Lovaas. In
other partial replications of the UCLA model, children with
ASD obtained 15 to 35 hours per week of treatment and
obtained results similar to those reported in the randomized
clinical trials"; similar results also have been reported for
other early intensive behavioral treatment (EIBT) models
with about 25 hours per week of treatment.1°1
Concerns have been expressed about the difficulty of
offering treatment at this level of intensity to community
samples,12 and mixed results of EIBT in community
settings have been reported. One investigation indicated
a lack of significant improvements in a sample of 66
children with ASD.13 A multiple baseline study of 6
children found clear short-term gains but equivocal longterm effects.14 However, a third study reported that an
EIBT group (n = 29) in a community agency made
statistically significant gains in all areas of development
except motor skills, relative to 2 comparison groups.15
Moreover, 13 of the 29 EIBT children (45%) achieved IQs
in the average to above average range. In the first
replication of the UCLA Model that included all of the
elements identified by Lovaas, 11 of 23 children with ASD
(48%) achieved full inclusion into regular education and

JDBP/April, Vol. 27, No. 2

IQ scores greater than 85.16 However, the study did not
have a comparison group.
Although these studies generally confirm that EIBT is
effective, differing results across studies and methodological limitations such as the absence of comparison groups
in many reports weaken the ability to truly validate the
optimism generated by the initial Lovaas study. Accordingly, the present study was an attempt to fully replicate
that study in a community setting. Research questions
included the following: (1) Can the LovaasfUCLA model
be replicated in a community setting? (2) What outcomes
do children with ASD achieve with this intervention?
METHODS
Participants
Participants were 42 children in 2 groups: The early
intensive behavioral treatment (EIBT) group (n = 21)
received 35 to 40 hours of behavioral intervention, 47
weeks per year, for 3 or more years. The comparison group
(n = 21) received services from local public schools. In
accord with the UCLA Young Autism Project multisite
research replication protocol, participation criteria for both
groups included (1) primary diagnosis of autistic disorder
or pervasive developmental disorder not otherwise specified based on an evaluation by an independent licensed
psychologist and confirmed by the Autism Diagnostic
Interview—Revised,17 (2) pretreatment IQ above 35 on the
Bayley Scales of Infant Development—Revised (BSIDR), rs (3) chronological age between 18 and 42 months at
diagnosis and under 48 months at treatment onset, (4) no
severe medical limitation or illness including motor or
sensory deficits that would preclude a child from participating in 30 hours per week of treatment, (5) residence
within 60 km of the treatment agency, (6) no more than
400 hours of behavioral intervention prior to intake, and
(7) parent's agreement to participate actively in parent
training and generalization and to have an adult present
during home intervention hours.
In addition to the 21 participants in each group, there
were 5 dropouts who were excluded from the data analyses
(3 in the EIBT group and 2 in the comparison group). One
EIBT participant moved out of the area at 17 months into
treatment and was unavailable for follow-up; 2 withdrew
their participation, 1 at 3 months and the other at 18
months. Dropouts were similar to completers with regard
to age of diagnosis (24, 36, and 22 months), baseline IQ
(42, 44, and 44), and 1-year IQ (58 and 61; score
unavailable for participant who dropped out after 3
months). Two comparison children were dropped because
parents either declined annual testing of their child or
could not be contacted. All other eligible referrals enrolled
in the study, completed yearly follow-up assessments, and
were included in the data analyses.
All treatment in both groups was provided at no cost to
families. Funding was split between 2 public agencies: (1)
the Valley Mountain Regional Center (VMRC; Stockton,
CA) and (2) the child's Special Education Local Planning
Area (SELPA) of residence. VMRC is contracted by the
California Department of Developmental Services to

Col:irk:Mt © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

App 23
Early Intensive Behavioral Treatment
identify and coordinate services for individuals with
developmental disabilities; its catchment area includes San
Joaquin, Stanislaus, Calaveras, Amador, and Tuolumne
Counties. SELPAs are contracted by the California Department of Education to provide special education instruction.
Design
Inasmuch as VRMC and SELPA had a mandate to
provide free and appropriate services, legal and ethical
considerations precluded random assignment of children to
groups. Therefore, a quasi-experimental design was used.
A comparison group was formed by identifying children
who met participation criteria for EIBT and whose parents
chose other services. Specifically, for each EIBT participant, a file review was initiated at VMRC to identify a
matching child who was not receiving EIBT; the first
identified child was then added to the comparison group.
Comparison children were followed prospectively and
received the same annual assessments as EIBT children.
To ensure that choices were available to families and that
families were aware of these choices, VMRC and SELPA 6,
along with nonpublic educational agencies and parents,
developed an ongoing collaborative program (Autism
Connection).19 The Early Autism Diagnostic Clinic
(EADC) was created by the Autism Connection (1) to
provide expert evaluations for autism and related disorders
(or referrals to other experts in the area) and (2) to bring
together local clinicians, VMRC, parents, school district
representatives, and advocates to communicate directly
with each other, at the EADC, rather than requiring the
parents to endure separate meetings. At the time of
diagnosis, an educational consultant from the EADC and
a representative from the school district of residence
presented the family, orally and in writing, a Matrix of
Educational Options developed by the Autism Connection.
This matrix delineates the service agencies in the child's
area of residence and their eligibility criteria, along with
the roles and responsibilities of parents, service providers,
and funding agencies in implementing interventions.
Options included special education settings, Autistic
Spectrum Disorder (ASD) classes, speech and language
services, occupational therapy, genetic counseling, behavior intervention services, grief counseling, Early Start
programs for children under 3 years old, and EIBT
Programs, including the agency in this study (Central
Valley Autism Project; CVAP) and other EIBT providers.
During the enrollment period (1995-2000), the number of
other EIBT providers ranged from 1 to 3. At times when
CVAP did not have openings, the education consultant and
school representative removed CVAP from the Matrix.
EADC educational consultant and school representatives
were otherwise independent of the study.
Treatment Procedures: EIBT Group
EIBT consisted of 35 to 40 hours per week of intervention based on Lovaas' UCLA treatment mode1.2'6'2°
Seventeen of the 21 participants remained in EIBT for 3
years. Four others ended EIBT prior to 3 years but

S147

completed follow-up assessments and are included in the
statistical analyses; 1 completed the intervention protocol
and was fully included in regular education at Year 2,
whereas 3 others were transferred to other services (2 after
6 months and 1 at Year 2) because their progress did not
meet specific, predetermined developmental markers for
continuing intervention. Markers at 6, 12, 24, and 36
months were identified collaboratively by Autism Connection.21 For example, at 24 months, the IEP team
considered whether the child showed one or more signs
of progress such as the following: (1) the child's standardized cognitive testing indicated steady growth or nearaverage functioning; (2) objective data collected on EIBT
instruction demonstrated that the child was mastering new
skills; (3) objective data revealed an increase in the child's
frequency of initiating language or peer interaction; or (4)
the child was included in a general education placement
with similar-aged peers for systematically increasing
increments of time and was acquiring age-appropriate
pre-academic skills.
The EIBT agency, CVAP, met all criteria for replication
of Lovaas' UCLA treatment model and participated in a
multicenter study supported by the National Institute of
Mental Health. The UCLA model relies exclusively on
behavioral techniques such as unambiguous instruction,
shaping through positive reinforcement of successive
approximations, systematic prompting and fading procedures, discrimination learning, and careful task analysis.
Positive reinforcers such as edibles, sensory and perceptual
objects are used initially but soon replaced by social
reinforcers such as praise, tickles, hugs, and kisses.
Ongoing data collection is performed to monitor skill
acquisition, generalization, and frequency of problem
behaviors. The intervention protocol consists of 3 primary
components: (1) In-home 1:1 instruction, (2) peer play
training, and (3) regular education classroom inclusion. No
aversive interventions were used throughout the study.
Initially, the In-Home 1:1 Intervention Component is
implemented 35 to 40 hours per week for children older than
3 years, and 20 to 30 hours per week for children younger
than 3 years. The focus is on establishing foundational and
spontaneous communication. The main teaching format is
discrete trials,22 but generalization activities and community outings are also part of the 35 to 40 hours per week of
instruction. In discrete trials, the tutor works individually
with a child in a distraction-free setting and administers 3
to 8 trials in a sitting, with 1- to 2-minute breaks between
sittings, for approximately 50 minutes each hour. The
remaining 10 minutes of each hour are devoted to
generalization activities. These activities include structured
play, in which the child has opportunities to apply skills
initially mastered in the 1:1 setting (e.g., labeling toys or
taking turns with the tutor during a game), and incidental
teaching, in which situations were arranged to encourage
initiation of language (e.g., placing preferred objects in
sight but out of reach). Skill mastery in discrete trials was
defined as 90% accuracy across 2 days of intervention,
across 2 or more tutors. Concept mastery was defined as
90% accuracy of 5 to 10 novel items probed and mastered
within a concept. After mastery, skills and concepts were

Coovrioht © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

App 24
S148

AMERINE-DI CKENS ET AL

systematically generalized to other more naturalistic settings and maintained by available contingencies in the
natural environment. To facilitate generalization, community outings occurred 3 to 5 times per week. The UCLA
curriculum was used for teaching the initial foundation
skills including compliance, imitation, early receptive and
expressive language, visual spatial skills, and self-help.6,20
At approximately 1 year into the behavioral intervention, the distribution of the 35 to 40 hours per week is
typically as follows: 26 to 31 of home instruction, 3 to 5
hours of peer play, and 6 to 9 hours at preschool.
Thereafter, the home component gradually decreases,
whereas other components gradually increase based upon
the child's inclusion in the classroom.
As part of the generalization of skills and behaviors to the
natural environment, the peer play component is initiated
3 to 5 sessions per week with a typically developing peer for
15 to 60 minutes per session when the child has mastered
prerequisite skills: verbal response to questions, on topic
statements, simple play skills, and turn taking.2'6'2° Skills
mastered in the 1:1 setting are systematically generalized
to a social/play setting with a peer of similar age. A trained
tutor facilitates mastered activities for the child and peer
(e.g., conversation, pretend play with toys, or turn-taking
games) and prompts the peer to engage the child with
subtle cues such as whispers in the peer's ear, visual
signals, or indirect questions. When the child is 90%
accurate initiating with peers across 3 or more peers for 18
to 24 months, additional children are presented at one time
to form a group play setting.
At about the time that peer play training is initiated, the
child enters a teacher-directed structured regular education
preschool setting.2 Initially, trained tutors accompany the
child to school to assist the teaching staff with gaining
instructional control, generalizing mastered skills to the
school setting, and learning classroom skills. The tutor
functions as a classroom aide and not as a 1:1 aide for the
child. Initial goals for inclusion center on generalizing
skills to a novel, yet structured environment. As the child
achieves independent responding during specific activities
(e.g. circle time, center time, and so forth), as determined
by data, the shadow tutor is faded. Activities requiring
social skills and behaviors are always the last to fade in
the process.
When children have achieved typical levels of academic
functioning in the classroom and participate without the
assistance of a shadow tutor during teacher-directed
activities, they still may require the assistance of the
shadow tutor during social opportunities throughout the
school day for an additional 2 to 3 years. Thus, an
intervention with reduced hours both at home and in
school may extend into the early primary grades. School
hours focus on generalization of social skills and friendship development. As the child's rate of independent social
interaction increases, the intervention hours are successively reduced to 0. Subsequently, consultation to the
family and the school setting continue 1 to 2 hours per
month for up to 1 to 2 years. Home hours focus on play
sessions with peers and gradually transition to typical play
dates with peers without the presence of a tutor. Periodic

JDBP/April, Vol. 27, No. 2

standardized assessments continue until the child is
18 years old.
During the course of the study, there was a growing
recognition that many children who made significant gains
in the first 2 years of treatment required training beyond
the UCLA curriculum to develop mutually satisfying
social relationships, enhance their understanding of social
meanings, understand and interpret other's perspectives/
knowledge/cognition/beliefs, and ultimately respond appropriately to social behaviors of peers and others. To address
this need, overt social behaviors were operationally defined,
both verbal (e.g., conversational skills, such as responding to
statements or questions asked by others, reciprocal statements, initiating conversation, inquiring about others,
remaining on topic, and sustaining conversation) and nonverbal (e.g., interpreting and responding to other's facial
expressions, emotional states, voice tone, or body language),
and initially taught in a discrete trial format, using the same
behavioral principles and methodology described above,
with an emphasis on a quick transition to generalized
teaching to a social context, using incidental teaching and
video modeling as tools for generalization.
Staff and Parent Training. To ensure proficiency in
implementing the UCLA model, 5 CVAP staff members
each completed 3- to 4-month internships at UCLA, and
consultants from UCLA made on-site visits 2 to 4 times
per year for the first 3 years of the study period, with
frequent telephone contacts between visits (typically once
per week). During this period, a random sample of 12
CVAP tutors were videotaped and scored by blind raters
for adherence to UCLA procedures. The level of adherence by CVAP tutors was found to be nonsignificantly
higher than adherence by tutors employed at UCLA.23
One UCLA-trained individual served as CVAP site
director, responsible for oversight of each child's intervention; she holds a master's degree in clinical psychology/applied behavior analysis and is a Board Certified
Behavior Analyst. Clinic supervisors trained and provided
ongoing performance feedback to tutors. Supervisors were
graduate students in behavior analysis or master's level
clinicians with 2 or more years of experience in providing
EIBT. Tutors were recruited from the community and were
the main providers of direct services. Supervisors and
tutors were assigned to each EIBT participant based on
openings in their schedule and geographic location.
To become a supervisor, individuals had to meet prespecified, objective criteria, including high ratings based on direct
observation of their implementation of EIBT interventions,
favorable evaluations from families and staff members, satisfactory performance on a test of skill at curriculum development, and
oral and written demonstration of their knowledge of applied
behavior analysis and ASD.24 Tutors had to pass a rigorous
behavior observation assessment of their accuracy in
conducting discrete trial training (DTT) and oral tests of
their knowledge of the UCLA treatment manual.
Parents were encouraged to be involved in all levels of
intervention. At the beginning of treatment, all parents
attended a 12- to 18-hour training workshop across 2 to 3
days on behavioral principles and intervention methods.
Thereafter, they participated in weekly training sessions to

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

App 25
Early Intensive Behavioral Treatment
generalize their child's newly established skills to the
natural environment. Parents provided ongoing information regarding their child's current level of functioning
both in and out of intervention sessions, and they were
asked to be active participants in their child's intervention,
although there was no requirement for parents to provide
any direct intervention hours.

S149

a participant performed at the ceiling of the BSID-R, this
test was replaced with the Wechsler Preschool and Primary
Scales of Intelligence.31 Follow-up evaluations were
conducted by an independent, self-employed, highlyskilled, licensed, child evaluator. VMRC made the referral
and funded the evaluations. The referral to the evaluator
consisted only of the name of the child, birth date, parent's
names, and telephone number.

Treatment Procedures: Comparison Group
Participants in the Comparison Group received community services that their families selected from the
Matrix of Educational Options. At intake, 1 comparison
child, under 3 years old, received an Early Start Autism
Intervention Program, which emphasized learning readiness skills with both the parent and child. This child
received less than 9 hours per week of a discrete trial
program in his or her home, until the age of 3. Two
comparison children received a home-based developmental intervention that ranged from 1 to 4 hours a week. At
age 3, these 3 children were enrolled in a public school
Special Day Class (SDC). Seventeen children who were 3
and above at intake were enrolled in SDC in the public
schools. No records were available for 1 child. The
instructional methodology in the SDC placements was
eclectic, the child/teacher ratios varied from 1:1 to 3:1, and
the classes operated for 3 to 5 days per week, for up to 5
hours per day. Related services such as speech, occupational, and behavioral therapy to these children varied
from approximately 0 to 5 hours per week Three of the
children spent brief sessions (up to 45 minutes per day)
mainstreamed in regular education. Due to the diverse
interventions provided to the comparison group, it was not
possible to monitor treatment fidelity for this group.
Assessment
At pretreatment, a licensed psychologist at EADC who
was independent of the study administered a standardized
behavior observation,25 parent interview, and developmental tests, including the BSID-R, Merrill-Palmer Scale of
Mental Tests,26 Reynell Developmental Language
Scales,27 and Vineland Adaptive Behavior Scales.28 The
BSID-R extrapolated table was used to generate a standard
score for children who obtained an IQ below 50.29
Administration of the BSID-R began at the starting point
for the child's chronological age (or at the highest starting
point for the test if the child was older than 42 months).
The examiner administered each successive item after the
starting point to establish a basal and ceiling; if the child
did not obtain a basal on these items, the examiner
administered each preceding item in succession until a
basal was achieved and then followed rules in the test
manual for establishing the ceiling.
From the evaluation, the psychologist made a DSM-IV
diagnosis of autism or Pervasive Disorder, Disorder Not
Otherwise Specified (PDDNOS).3° Subsequently, the diagnosis was confirmed by the Autism Diagnostic InterviewRevised (ADI-R),17 administered by a certified examiner
employed by CVAP. The developmental tests (but not the
ADI-R) were repeated in annual follow-up evaluations. If

Data Analysis
IQ was the main measure of treatment response in
previous EIBT studies6-16 and was designated as the
primary outcome measure in the present study. Secondary
outcome measures were the Merrill-Palmer Scale of
Mental Tests, Reynell Language Comprehension, Reynell
Expressive Language, Vineland Adaptive Behavior Scales,
and classroom placement.
To test our main hypothesis that the EIBT group would
differ from the comparison group on outcome measures,
we performed a repeated-measures analysis of covariance
(ANCOVA) for each measure, with pretreatment score as
the covariate and Year 1, Year 2, and Year 3 scores as the
repeated dependent measures. Consistent with standard
assumptions for an ANCOVA,32 analyses of skew and
kurtosis, as well as visual inspection, were consistent with
a normal distribution in our data. Hyunh-Feldt epsilon tests
confirmed that the data showed compound symmetry (E >
.90), unless otherwise noted in Results.
As is usual in outcome studies with repeated measures, a
few participants had missing data at one or more time
points. For each outcome measure, we employed the
standard procedure of removing participants with missing
data from the analysis.32 This procedure is appropriate
when missing data are random or unbiased. We used visual
inspection to confirm that the missing data were unbiased
(e.g., the data were not primarily from participants who
had unfavorable outcomes or who did not complete the full
3 years of intervention), and —Results— show the number of
participants retained for each analysis.
In as much as the EIBT and comparison groups differed
on several demographic variables (mother education,
father education, and diagnosis), we explored whether
adding these variables as covariates in the ANCOVA
model would change the interpretation of the results.
These analyses need to be interpreted with caution because
they involve a larger number of variables than is usually
considered appropriate for the relatively small sample size
in the present study. However, they provided some
information on whether or not the groups differed when
we statistically controlled for demographic variables.
When an ANCOVA revealed a between-group difference on an outcome measure, we hypothesized that the
EIBT group would show an increase in scores from Year 1
to Year 2 to Year 3, whereas scores in the comparison
group would remain stable. To test this hypothesis, we
examined whether the ANCOVA yielded a statistically
significant Group x Time interaction; if so, we performed
planned comparisons to test for an increase from Year 1 to
Year 3 in the EIBT group.

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

App 26
AMERINE-DICKENS ET AL

S150

Table 1. Background Information for the EIBT Group (n = 21)
and Comparison Group (n = 21)

Demographics
Male/Female
Diagnosis (Autism/PDDNOS)*
Age at diagnosis [(M(SD)]
Mother education, yr [(M(SD)]'
Father education, yr [(M(SD)]'
Two-parent household (yes/no)'
Pretreatment Test Scores [(M(SD)]
IQ
Merrill-Palmer
Reynell
Language Comprehension
Expressive Language
VABS
Composite
Communication
Daily Living
Socialization

EIBT

Comparison

18:3
20:1
30.2 (5.8)
15.3 (2.9)
15.8 (2.9)
21:0

17:4
15:6
33.2 (3.7)
13.1 (1.6)
11.8 (2.3)
14:7

61.6 (16.4)
82.4 (17.3)

59.4 (14.7)
73.4 (11.9)

51.7 (15.2)
52.9 (14.5)

52.7 (15.1)
52.8 (14.4)

69.8 (8.1)
69.4 (11.8)
73.2 (9.2)
70.3 (10.9)

70.6 (9.6)
65.0 (6.8)
72.7 (12.5)
75.1 (13.0)

EIBT indicates early intensive behavioral treatment; Reynell,
Reynell Developmental Language Scales; VABS, Vineland Adaptive
Behavior Scales; PDDNOS, Pervasive Disorder, Disorder Not
Otherwise Specified.
*Significant difference between EIBT and comparison group
(p< .05).

To examine the clinical significance of the results, we
ascertained the number of participants in each group who
achieved scores in the average range at follow-up on each
measure. We also sought to identify pretreatment measures
that were associated with later scores in the average range.
Therefore, for the EIBT group, we conducted t-tests to
compare pretreatment scores of participants who scored in
the average range across all measures to pretreatment
scores of the remaining participants.
RESULTS
Pretreatment

Table 1 summarizes the demographics and pretreatment scores of the early intensive behavioral treatment

JDBP/April, Vol. 27, No. 2

(EIBT) and comparison groups. The gender make-up
mirrors the 4:1 male to female ratio in Autistic
Spectrum Disorder (ASD).31 Twenty of 21 EIBT children
(95%) and 15 of 21 comparison children (71%) were
diagnosed with Autistic Disorder. This difference was
statistically significant, t(40) = 2.13, p < .05. The
remaining children were classified with Pervasive Disorder, Disorder Not Otherwise Specified (PDDNOS). Age of
diagnosis was 20 to 41 months, with the EIBT group
averaging 3 months younger than the comparison group
(a difference that was not statistically significant). Also, as
shown in Table 1, although not a requirement for
participation in the EIBT program, parents had significantly more education and were significantly more likely
to be married than comparison parents. IQ, Merrill-Palmer,
Reynell, and Vineland scores did not differ significantly
between groups; scores in both groups indicated developmental delays comparable to other samples of children
with ASD.3°

Outcome

Table 2 presents the results of the analysis of covariance
(ANCOVA) tests for each outcome measure, whereas
Figure 1 presents the means and 95% confidence intervals
for each group at intake, Year 1, Year 2, and Year 3. As
shown in Table 2, there was a significant difference
between groups on the primary outcome measure, IQ.
Figure 1 reveals that the mean IQ in the EIBT group
increased 25 points, from 62 at pretreatment to 87 at Year
3. Interestingly, the mean IQ in the comparison group also
increased, from 59 at pretreatment to 73 at Year 3.
The EIBT and comparison groups did not differ
significantly on the Merrill-Palmer. Both groups displayed
a mean increase of 13 points from intake to Year 3 on this
measure. Figure 1 suggests that the groups may not have
been matched at pretreatment, as the mean for the EIBT
was 82 compared to 73 in the comparison group. A post
hoc analysis indicated that this difference approached
statistical significance, t(35) = 1.87, p = .07. Also, the
assumption of compound symmetry was questionable for
this variable, with Hyunh-Feldt E = .85; because the

Table 2. Analyses of Covariance Testing for Differences Between the EIBT and Comparison Groups on Outcome Measures
N

Sums of Squares (Between Subjects)

Measure

E

C

Group

Covariate

Error

IQ
Merrill-Palmer
Reynell
Language Comprehension
Expressive Language
VABS
Composite
Communication
Daily Living
Socialization

21
21

19
16

4,229.91
246.27

12,046.14
15,613.74

30,042.41
20,657.91

811.96
626.00

21
20

19
19

3,750.25
3,413.57

17,523.60
13,590.90

36,312.08
52,495.66

981.41
1,458.21

20
20
20
20

20
20
20
20

3,897.52
3,937.71
2,527.14
1,857.84

1,589.31
2,937.53
2,229.25
21.66

18,385.69
25,994.10
14,207.49
16,130.41

496.91
722.06
394.65
460.87

MSE
5.21*
ns
3.82**
ns
7.84***
5.45*
6.40'
4.03**

N indicates number of participants included in the analysis; E, EIBT group; C, comparison group; ns, not statistically significant; MSE, mean
square of errors (between subjects); Reynell, Reynell Developmental Language Scales; VABS, Vineland Adaptive Behavior Scales.
* p< .05; **p< .10; "'p< .01.

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

App 27
Early Intensive Behavioral Treatment

S151

Treatment
Comparison
loo

110
Merrill-Palmer

n=21

_ n=21

n=21
n=20

100 -

n=20

n=21
IQ

n=21
n=21

90

n=21

n=19

90 -

80

n=18

n=21

80 -

70

70 -

60

n=20
n=19

n

60

0

50

3

1

2

90

100 90 -

Reynell (Receptive)

n=21

80 -

n=21

n=21

3

n=21

n=20

Reynell (Expressive)

80

n=21

n=21

n=21

70

70 -

n=19

n=21

n=21

60

n=19

60 -

-1

n=21

50

50 40

40

0
C.)
90

,
0

Vineland Composite

95

n =21

n=21

0

1

Vineland Communication

n=21
n=21

_n=21

n = 21

85 -

3

85
80 75 -

n = 20
n=2

n = 20

n=20

n=20

n=20

n=20

75

- n=20
n=21

70 65
65 60

55
0

90

0

3

2

n=21

95

n=21

Vineland Daily Living Skills

Vineland Socialization
90

n=21
n=21

85

n=21

3

n=21

n=21

n=21

n=21

n=21

80

n=20

n=20
75
70
65
60

Year
FIGURE 1. Mean and 95% confidence interval for pretreatment (Year 0) and follow-up (Years 1-3).

Copyriaht © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

App 28
S152

AMERINE-DICKENS ET AL

Table 3. Number of Children in the Average Range on each
Outcome Measure for the EIBT Group (n = 21) and Comparison
Group (n = 21)
Measure
IQ
Language Comprehension'
Expressive Language'
VABS Composite'
School Placement

EIBT

Comparison

12
8
9
8
6

7
4
6
3
0

ns
ns
ns
.10
.001

'Reynell Developmental Language Scales.
'Vineland Adaptive Behavior Scales.

ANCOVA did not approach statistical significance, alternate analyses were not attempted.
There was a trend toward a significant difference in
Reynell Language Comprehension (p = .06). The mean
score in the EIBT group increased 20 points, from 52 at
pretreatment to 72 at Year 3; the mean score in the
comparison group increased 9 points, from 53 at pretreatment to 62 at Year 3. The EIBT group also had a larger
increase from pretreatment to Year 3 in Reynell Expressive Language (53-78, compared to 51-66), but this
difference was not statistically significant (p = .13). The
failure to find a significant difference may indicate that
EIBT did not have a meaningful effect on expressive
language, or it may simply reflect low statistical power to
detect an effect.
The EIBT and comparison groups differed significantly
in the Vineland Adaptive Behavior Scales Composite.
Consistent with this finding, the EIBT group demonstrated
a mean increase of 9 points compared to a 4-point decline
in the comparison group, as shown in Figure 1. Inasmuch
as a difference was observed in the Composite, individual
scales were also analyzed. Significant differences between
groups were found in Communication and Daily Living
Skills, and a trend was found for Socialization (p = .05).
Figure 1 indicates that the changes in scores from
pretreatment to Year 3 for each scale were similar to the
change in Composite scores. These findings support the
inference that the EIBT group had more advanced adaptive
behavior skills than the comparison group at the time of
the outcome assessments.
An analysis of classroom placement at year 3, between
the 2 groups, revealed that 17 of the 21 EIBT children and
1 of the 21 comparison children were included into regular
education classroom settings. Of the 17 EIBT children, 6
were fully included without assistance, 4 were fading the
shadow tutor, and 7 required full shadows.
When mother' education, father's education, or diagnosis was added as a covariate to the ANCOVA model,
ANCOVA was unaltered, except in one instance: With the
father's education as a covariate, the difference between
groups in IQ was not statistically significant (p = .11). It is
unclear whether this finding indicates that father's education was a confound or reflects the limited statistical power
for the analysis. When mother's education, father's
education, and diagnosis were all added as covariates to
the ANCOVA model, IQ, Reynell Language Comprehen-

JDBP/April, Vol. 27, No. 2

sion, and Vineland Composite continued to show a trend
toward significance (p = .09 for all 3 outcome measures).
In sum, the possibility that father's education was a
confound in the analysis of IQ cannot be ruled out, but
the remaining analyses indicated that reliable differences
in outcome between groups remained after statistically
controlling for inequalities at pretreatment.
None of the analyses for group x time interactions were
statistically significant. Thus, we did not confirm our
hypothesis that the EIBT group would have increasing
scores from Year 1 to Year 2 to Year 3, whereas scores in
the comparison group would be stable. On the contrary,
Figures 1 and 2 illustrates that although the EIBT group
appeared to make larger increases than the comparison
group from pretreatment to Year 1, both groups exhibited
stable scores from Year 1 to Year 3 in IQ, Merrrill-Palmer,
and Vineland. Both groups may have exhibited similar
increases in scores in Reynell Language Comprehension
and Expressive Language from Year 1 to Year 3.
As shown in Table 3, more EIBT participants than
comparison participants achieved follow-up scores in the
average range for each measure, although this difference
was significant only for school placement and showed a
trend toward significance for the Vineland. Ten EIBT
participants scored in the average range on all measures
(6 of these 10 also were included in regular education
without assistance, whereas the remaining 4 continued to
receive shadowing in the regular education classroom). ttests did not reveal any significant differences in pretreatment test scores for these 10 participants compared to the
remaining 11 participants. For example, these 10 children
had a mean pretreatment IQ of 66.6 (SD = 12.4) compared
to 57.7 (SD = 19.0) for the remaining 11 children, t(19) =
1.28, ns. However, pretreatment Reynell Language Comprehension scores showed a trend toward a difference, with
a pretreatment mean of 58.1 for the participants with the
most favorable outcome compared to 45.9 for the other
participants, t(19) = 1.98, p = .06.

DISCUSSION
The present study suggests that the UCLA/Lovaas
Model of early intensive behavioral treatment (EIBT) can
be implemented in a nonuniversity community-based
setting. On the primary outcome measure of IQ, the
EIBT group showed a gain of 25 points, which was
statistically significant compared to the gain of 14 points
in the comparison group. Similar effects were found on
measures of adaptive behavior. Although language
comprehension showed a trend towards significance,
expressive language and nonverbal cognitive skill
revealed no difference between groups. The increases in
test scores are similar to those reported in Lovaas'
original EIBT study2'3 and in some recent investigations.15'16 However, the difference between the EIBT
group and the comparison group on outcome measures
was smaller than that in other studies, as the comparison
group also made gains.

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

App 29
Early Intensive Behavioral Treatment

An important limitation of the study is that, because
treatment was funded by public agencies that were
required to offer free and appropriate services, groups
could not be randomly assigned, and a quasi-experimental
design was used, with parents choosing which group their
child entered. Although pretreatment test scores did not
differ significantly between groups, other pretreatment
variables did differ. The EIBT group had more children
with autism and fewer with Pervasive Disorder, Disorder
Not Otherwise Specified (PDDNOS) than did the comparison group. To the extent that PDDNOS is a milder
diagnosis that may have a more favorable prognosis than
autism,7 this difference may have favored the comparison
group. However, the EIBT group also may have had an
advantage in that it had more 2-parent families and better
educated families than did the comparison group. These
family variables have not been associated with outcome in
previous studies,2'7 but they might have encouraged
families to select EIBT over other interventions in the
present study, even though all interventions were provided
at no cost to families. In addition, these variables might
have given the EIBT group an advantage by making it
easier for families to participate in treatment sessions and
facilitate generalization of skills outside of treatment.
After statistically controlling for family variables, outcome
analyses continued to show improved outcomes in the
EIBT group relative to the comparison group. Nevertheless, statistical controls are not a satisfactory solution
for preexisting group differences, especially given the
relatively small sample size in the present study. A design
with random assignment would have strengthened the
study and allowed for more clearcut conclusions about
whether EIBT is effective or not.
Further limitations pertain to the assessment protocol
in the study. As previously noted, the comparison group
received such diverse interventions that a measure of
treatment fidelity could not be applied. Also, outside
evaluators were employed by Valley Mountain Regional
Center (VMRC) for pretreatment and follow-up assessments of participants. The referrals to the evaluators did
not include information on group assignment or treatment
history. However, to ensure that evaluators remained
unaware of this information and to allow for checks on
the reliability of test administration and scoring, evaluators who were employed by the study and conducted
assessments at a research site (rather than in their clinical
offices) might have been preferable. Another limitation is
that the assessment protocol tested developmental level
more rigorously than did the features of Autistic
Spectrum Disorder (ASD). The inclusion of the Autism
Diagnostic Observation Schedule (ADOS),33 in addition
to the Autism Diagnostic Interview—Revised (ADI-R) and
clinical diagnosis, would have increased confidence in the
initial diagnosis. Including a measure such as the ADOS in
follow-up assessments would have indicated whether or
not children continued to display behaviors indicative of
ASD. Additional measures such as the Theory of Mind
Test34 also would help address this issue; Central Valley
Autism Project (CVAP) is currently involved in a study to
translate this test into English and standardize it in the

S153

United States. Without such measures, the present study
cannot address one of the most controversial issues raised
by previous EIBT research—whether some children become
indistinguishable from typically developing peers6 or
whether they continue to display characteristics of ASD.
An additional follow-up evaluation of study participants
with the ADOS and Theory of Mind (TOM) Test is
planned to fill in some of these gaps.
In this study, advanced behaviors associated with
friendship initiation and maintenance, social skills, understanding of social meaning, and response to social
behaviors were identified and treated, using the same
discrete trial methodology as other behaviors, which
consequently increased the duration of treatment beyond
3 years for many participants (usually for 2 additional
years). Although this expansion of the treatment protocol
reflects the contemporary view that the defining feature of
ASD is an impairment in social reciprocity, it raises the
question of whether the present study truly was a
replication of the UCLA model. The treatment site met
all of Lovaas' criteria for replication, and the first 2 years
of intervention followed the model as it has been
previously described.2 The third year also followed the
model, with the addition of the training in advanced social
skills. Thus, results from Years 1 and 2 are directly
comparable to those of previous studies, and results from
Year 3 also reflect mostly the same interventions.
Research on the specific effects of the additional social
skills training is warranted, as it is acknowledged that such
training was not included in previous studies. Also,
although discrete trial training is a common approach to
teaching social skills and has some empirical support,35'36
teaching methodologies other than discrete trials (e.g.
video modeling, incidental teaching) also have empirical
support and may have advantages such as eneralizing
more quickly to settings outside of treatment;g2 thus, the
question of how best to teach such skills may be another
area for research.
Interestingly, although the EIBT protocol lasted for 3
years and, in some cases, was continued beyond that time,
the nonsignificant group x time interactions in the
statistical analyses indicates that the EIBT group did not
show reliable IQ increases relative to the comparison
group after Year 1. A possible explanation is that most
gains occurred in the first year of intervention. Alternatively, however, it is also possible that gains took place
later in treatment but that the study measures were not
sensitive to them.
Potential evidence for the latter view comes from the
findings on classroom placement. A striking result was
that, despite IQ gains in the comparison group, all
participants but 1 remained primarily in a special education classroom setting, whereas most EIBT participants
were included in regular education at least part of the day.
Classroom placement is a controversial outcome measure
because of concerns that it may reflect factors such as
parent advocacy and school policy rather than the child's
functioning.I2 However, the measure also may be an index
of real-world academic and social competence.37 If so, the
differences between groups on this measure may be

Copvriaht © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

App 30
S154

AMERINE-DIC KENS ET AL

attributable at least in part to the social skills training that
EIBT participants received. In addition, it may suggest a
need for a high number of treatment hours. Dismantling
studies might help address these possibilities.
The initial collaborative funding efforts by VMRC and
Special Education Local Planning Areas (SELPAs)
resulted in a sustainable treatment environment. Stable
funding, effective guidelines and policies, and positive
communication and working relationships were primary
contributory variables to the feasibility of this study. Thus,
this collaboration may be a useful model for other regions
to employ. Other clinical strengths of this study included
rigorous treatment quality control criteria, stringent staff
training and evaluation standards, multiple internships at
UCLA by supervising clinicians, precise programming for
each individual child, advanced completion programming
and skilled generalization training, yearly follow-ups by an
independent evaluator using multiple outcome measures,

JDBP/April, Vol. 27, No. 2

and a centralized process and standardized protocol for
diagnosing children and informing families of EIBT and
other intervention options available to them. Without such
standards, outcomes may differ. Nevertheless, given the
methodological limitations of the present research, there is
a continued need for rigorous outcome studies comparing
EIBT to control conditions or other interventions.
Acknowledgments. Preparation of this manuscript was partially supported by NIMH grants RO1 MH 48663 (Multi-site Young Autism Project)
and U54 MH066397 (Genotype and Phenotype of Autism). The authors
thank Kym Cassaretto, M.S., CVAP Clinical Director, and CVAP staff for
their clinical contributions and committed efforts on behalf of children and
families. The authors also thank the following individuals for their
assistance with the research: Mieke San Julian, Chanti Fritzsching, M.S.,
BCBA, and Angela Castro from CVAP; Schelley McDonald and Marie
Overmyer from VMRC; and Suzannah Ferraioli from URMC. Preliminary
reports were presented at the California Association for Behavior Analysis
Conference in San Francisco, CA, February 20,2004, and at the International Meeting For Autism Research, Boston, MA, May 6,2005.

REFERENCES
DeMyer MK, Hingtgen JN, Jackson RK. Infantile autism: a decade
of research. Schizophr Bull. 1981;7:388-451.
Lovaas OI. Behavioral treatment and normal educational and
intellectual functioning in young autistic children. J Consult Clin
Psychol. 1987;55:3-9.
McEachin JJ, Smith T, Lovaas 01. Long-term outcome for children
with autism who received early intensive behavioral treatment. Am J
Ment Retard. 1993;97:359-372.
Zwaigenbaum L, Bryson S, Rogers T, et al. Behavioral manifestations of autism in the first year of life. Int J Dev Neurosci. 2005;
23:143-152.
California Department of Developmental Services. Department
of Developmental Services Fact Book, 7th ed. California Department of Developmental Disabilities website. December, 2004.
Available at www.dds.ca.gov/factsstats/factbook.cfm#pdf. Accessed
August 16,2005.
Lovaas OI. Teaching Individuals with Developmental Delays: Basic
Intervention Techniques. Austin, TX: PRO-ED; 2003.
Smith T, Groen AD, Wynn JW. Randomized trial of intensive early
intervention for children with pervasive developmental disorder. Am
J Ment Retard. 2000;105:269-285.
Anderson SR, Avery DL, DiPietro EK, et al. Intensive home-based
early intervention with autistic children. Educ Treat Child. 1987;
10:352-366.
Bimbrauer JS, Leach DJ. The Murdoch Early Intervention Program
after two years. Behav Change. 1993;10:63-74.
Harris SL, Handleman JS. Age and IQ at intake as predictors of
placement for young children with autism: a four- to six-year
follow-up study. J Autism Dev Disord. 2000;30:137-142.
Weiss M. Differential rates of skill acquisition and outcomes of
early intensive behavioral intervention for autism. Behav Interv.
1999;14:3-22.
Schopler E, Short A, Mesibov G. Relation of behavioral treatment to
"normal functioning": comment on Lovaas. J Consult Clin Psycho!.
1989;57:162-164.
Bibby P, Eikeseth S, Martin NT, et al. Progress and outcomes for
children with autism receiving parent-managed intensive interventions. Res Dev Disabil. 2002;23:81-104.

Smith T, Buch GA, Gamby TE. Parent-directed, intensive early
intervention for children with pervasive developmental disorder. Res
Dev Disabil. 2000;21:297-309.
Howard JS, Sparkman CR, Cohen HG, Green G, Sanislaw HA.
Comparison of intensive behavior analytic and eclectic treatments
for young children with autism. Res Dev Disabil. 2005;26:359-383.
Sallows GO, Graupner TD. Intensive behavioral treatment for
children with autism: four year outcome and predictors. Am J Ment
Retard. 2005;110:417-438.
Lord C. Follow-up of two-year-olds referred for possible autism. J
Child Psychol Psychiatry. 1995;36:1365-1382.
Bayley N. Bayley Scales of Infant Development, 2nd ed. San
Antonio, TX: The Psychological Corporation; 1993.
Cohen HG. Pyramid building: Partnership as an alternative to
litigation. In: Lovaas CH ed. Teaching Individuals with Developmental Delays: Basic Intervention Techniques. Austin, TX: PROED, 2003:375-386.
Lovaas OI. Teaching Developmentally Disabled Children: The ME
Book. Austin, TX: PRO-ED; 1981.
Region 6 Autism Connection. Early Intensive Behavioral Treatment
4-way Agreement. Stockton, CA: Region 6 Autism Connection;
2004.
Smith T. Discrete trial training in the treatment of autism. Focus
Autism Relat Disord. 2000;16:86-92.
Mortenson S, Smith T. Quality Control in the Multisite Young
Autism Project. Paper presented at: Annual Meeting of the
Association for Behavior Analysis; May 1996; San Francisco, CA.
Davis BJ, Smith T, Donahoe P. Evaluating supervisors in the UCLA
treatment model for children with autism: validation of an assessment procedure. Behav Ther. 2002;31:601-614.
California Department of Developmental Services. Best Practice
Guidelines for Screening, Diagnosis, and Assessment. Ethological
Observation Schedule (ETHOS). Sacramento, CA: California
Department of Developmental Services; 2002.
Stutsman R. Guide for Administering the Merrill-Palmer Scale of
Mental Tests. New York: Harcourt, Brace & World; 1948.
Reynell JK. Reynell Developmental Language Scales. Windsor,
England: Nfer-Nelson; 1990.

Copyright © Lippincott Williams & Wilkins. Unauthorized reproduction of this article is prohibited.

App 31
Early Intensive Behavioral Treatment
Sparrow SS, Balla DA, Cicchetti DV. Vineland Adaptive Behavior
Scales. Circle Pines, MN: American Guidance Service; 1984.
Robinson BF, Mervis CB. Extrapolated raw scores for the second
edition of the Bayley Scales of Infant Development. Am J Ment
Retard. 1996;100:666-671.
American Psychiatric Association. Diagnostic and Statistical Manual of Mental Disorders, 4th ed, Text Revision. Washington, DC:
American Psychiatric Association; 2000.
Wechsler D. Manual for the Wechsler Intelligence Scale for Children,
3rd ed. San Antonio, TX: Psychological Corporation; 1991.
Nich C, Carroll K. Now you see it, now you don't: a comparison of
traditional versus random-effects regression models in the analysis
of longitudinal follow-up data from a clinical trial. J Consult Clin
Psychol. 1997;65:252-261.

S155

Lord C, Rutter M, DiLavore PC, et al. Autism Diagnostic
Interview Schedule. Los Angeles: Western Psychological Services;
2001.
Steerneman P, Meesters C, Muris P. TOM-Test. Antwerpen-Appledoom: Garant; 2003.
Taylor BA, Jasper S. Teaching programs to increase peer interaction. In: Maurice C, Green G, Foxx M eds. Making a Difference:
Behavioral Intervention for Autism. Austin, TX: Pro-Ed; 2001:
97-162.
Weiss MJ, Harris SL. Reaching out, joining. In: Teaching Social
Skills to Young Children with Autism. Bethesda, MD: Woodbine
House; 2001.
Kazdin A. Replication and extension of behavioral treatment of
autistic disorder. Am J Ment Retard. 1993;97:382-383.

Copyright @ Lippincott Williams & Wilkins. UnaUthorized reproduction of this article is prohibited.

App 32

.esearch in DevelopmenfarDisabilities 35 (2014) 3321
Contents lists available at ScienceDirect
Research

Research in Developmental Disabilities

Developmental
Disabilities." •

ELSEVIER

Comparison of behavior analytic and eclectic early
interventions for young children with autism after three years

CrossMark

Jane S. Howard a 'b'", Harold Stanislaw a , Gina Green c, Coleen R. Sparkman b'l
Howard G. Cohen d
a California State University, Stanislaus, Psychology Department, 1 University Circle, Turlock, CA 95382, USA
b The Kendall Centers/Therapeutic Pathways, Modesto, CA 95354, USA

`Association of Professional Behavior Analysts, 6977 Navajo Road #176, San Diego, CA 92119, USA
° Valley Mountain Regional Center, 702 North Aurora St, Stockton, CA 95202, USA

ARTICLE INFO

ABSTRACT

Article history:

In a previous study, we compared the effects of just over one year of intensive behavior
analytic intervention (IBT) provided to 29 young children diagnosed with autism with two
eclectic (i.e., mixed-method) interventions (Howard, Sparkman, Cohen, Green, &
Stanislaw, 2005). One eclectic intervention (autism programming; AP) was designed
specifically for children with autism and was intensive in that it was delivered for an
average of 25-30 h per week (n =16). The other eclectic intervention (generic
programming; GP) was delivered to 16 children with a variety of diagnoses and needs
for an average of 15-17 h per week. This paper reports outcomes for children in all three
groups after two additional years of intervention. With few exceptions, the benefits of IBT
documented in our first study were sustained throughout Years 2 and 3. At their final
assessment, children who received IBT were more than twice as likely to score in the
normal range on measures of cognitive, language, and adaptive functioning than were
children who received either form of eclectic intervention. Significantly more children in
the IBT group than in the other two groups had IQ language, and adaptive behavior test
scores that increased by at least one standard deviation from intake to final assessment.
Although the largest improvements for children in the IBT group generally occurred during
Year 1, many children in that group whose scores were below the normal range after the
first year of intervention attained scores in the normal range of functioning with one or
two years of additional intervention. In contrast, children in the two eclectic treatment
groups were unlikely to attain scores in the normal range after the first year of intervention,
and many of those who had scores in the normal range in the first year fell out of the normal
range in subsequent years. There were no consistent differences in outcomes at Years 2 and
3 between the two groups who received eclectic interventions. These results provide
further evidence that intensive behavior analytic intervention delivered at an early age is
more likely to produce substantial improvements in young children with autism than
common eclectic interventions, even when the latter are intensive.
C 2014 The Authors. Published by Elsevier Ltd. This is an open access article under the CC
BY-NC-ND license (http://creativecommons.org/licenses/by-nc-nd/3.0/).

Received 16 June 2014
Received in revised form 6 August 2014
Accepted 12 August 2014
Available online
Keywords:
Autism

Early intervention
Applied behavior analysis
Eclectic treatment
Outcomes
Longitudinal studies

Corresponding author at: California State University, Stanislaus, Psychology Department, 1 University Circle, Turlock, CA 95382, USA.
Tel.: +1 209 667 3386; fax: +1 209 993 8192.
E-mail addresses: jhoward@csustan.edu, janeshoward@mac.com U.S. Howard), hstanislaw@csustan.edu (H. Stanislaw), ggreen@apbahome.net
(G. Green), csparkman@tpathways.org (C.R. Sparkman).
1 Address: PO Box 5157, Modesto, CA 95352, USA.
http://dx.doLorgi 1 0.1016/jsidd.2014.08.021
0891-4222/© 2014 The Authors. Published by Elsevier Ltd. This is an open access article under the CC BY-NC-ND license (http://creativecommons.org/
I icensesiby-nc- nd/3.0/ ).

J.S. F

App 33

1 at/Research in Developmental Disabilities 35 (2014)

344

3327

1. Introduction
The past two decades have seen increased interest in early intervention for children diagnosed with autism spectrum
disorder (hereafter, "autism") among researchers, policymakers, funding sources, and consumers. Following publication of
the Lovaas study in 1987, a number of researchers began evaluating the effects of intensive, comprehensive early
intervention using applied behavior analysis (ABA) methods. Various ABA models for treating children with autism have
been proposed, but many behavior analytic researchers agree that genuine early intensive ABA treatment programs have
certain key features in common: (a) individualized, comprehensive intervention that addresses all skill domains; (b) use of
multiple behavior analytic procedures (not just discrete-trial procedures or "naturalistic" techniques) to build new
repertoires and reduce behaviors that interfere with skill acquisition and effective functioning; (c) direction and oversight by
one or more professionals with advanced training in ABA and experience with young children with autism; (d) reliance on
typical developmental sequences to guide selection of treatment goals; (e) parents and other individuals trained by behavior
analysts to serve as active co-therapists; (f) intervention that is initially one-to-one, transitioning gradually to a group format
as warranted; (g) intervention that often begins in homes or specialized treatment centers but is also delivered in other
environments, with gradual, systematic transitions to regular schools when children develop the skills required to learn in
those settings; (h) planned, structured intervention provided for a minimum of 20-30 h per week with additional hours of
informal intervention provided throughout most other waking hours, year round; (i) intensive intervention beginning in the
preschool years and continuing for at least 2 years (Eldevik et al., 2010; Green, Brennan, & Fein, 2002).
Substantial research has documented the effectiveness of treatments that incorporate all of the foregoing features. Eight
prospective studies used comparison- or control-group designs to evaluate some variation of the Lovaas/UCLA model of early
intensive ABA intervention for children with autism (Cohen, Amerine-Dickens, & Smith, 2006; Eikeseth, Smith, Jahr, &
Eldevik, 2002; Eikeseth, Smith, Jahr, & Eldevik, 2007; Eldevik, Hastings, Jahr, & Hughes, 2012; Eldevik, Eikeseth, Jahr, & Smith,
2006; Lovaas, 1987; Sallows & Graupner, 2005; Smith, Groen, & Wynn, 2000). In another three studies, the ABA intervention
was designed and overseen by professional behavior analysts not affiliated with Lovaas, and the ABA intervention differed
somewhat from the Lovaas model (Howard, Sparkman, Cohen, Green, & Stanislaw, 2005; Remington et al., 2007; Zachor,
Ben-ltzchak, Rabinovitch, & Lahat, 2007). Outcomes from those 11 studies varied and some children had larger
improvements than others. In the large majority of cases, however, the mean change scores achieved by children receiving
intensive ABA treatment exceeded the mean change scores for similar children in control or comparison groups who
received less intensive ABA treatment, intensive or non-intensive treatment using a mixture of methods or therapies
("eclectic" treatment), or "treatment as usual" (i.e., standard early intervention or special education services). Additionally,
compared to children who received other types of treatment, children who received early intensive ABA treatment were
more likely to achieve post-treatment scores on one or more standardized measures that were in the normal range, and were
more often placed in regular classrooms (for reviews and analyses, see Eikeseth, 2009; Eldevik et al., 2009, 2010; Green,
2011; National Autism Center, 2009; Reichow & Wolery, 2009; Rogers & Vismara, 2008).
Despite the evidence from multiple studies and meta-analyses favoring intensive ABA treatment for autism over other
models of early intervention, a number of questions persist. One is whether other types of early intervention delivered with
comparable intensity and individualization can produce outcomes comparable to ABA. Perhaps the most common
alternative early intervention approach involves a mixture of methods drawn from ABA, speech-language pathology,
occupational therapy (especially sensory integration techniques), developmental psychology, and autism-specific
approaches. That model, which has been characterized as "eclectic" intervention, is widely available in the United States
and elsewhere.
At least three studies have compared eclectic and ABA interventions directly. Eikeseth et al. (2002) studied children with
autism who entered treatment at ages 4-7 years (M = 5.5 years), slightly older than children in most of the other studies of
early intensive behavioral intervention. One group (n = 13) received Lovaas-model ABA treatment for 28 h per week, while a
second group (n = 12) received eclectic intervention for 29 h per week. There were no significant differences between the
groups when treatment began. Both forms of treatment were delivered in public school classrooms. After 1 year, the ABA
treatment group had gained an average of 17 points on IQ test scores, 13 points on tests of language comprehension, 27
points on tests of expressive language, and 11 points on an adaptive behavior scale. The eclectic treatment group had average
gains of only 4 points on IQ tests and 1 point on language tests, and no change in adaptive behavior. A follow-up study
conducted when those children were 8 years old found that after about 3 years of treatment, the ABA treatment group had
gained an average of 25 IQ points and 9-20 points on adaptive behavior scales in comparison to baseline. The eclectic
intervention group had a mean gain of only 7 points on IQ tests, and declines of 6-12 points on adaptive behavior
assessments (Eikeseth et al., 2007).
A study we published previously involved a comparison of intensive ABA intervention with two different eclectic
intervention models (Howard et al., 2005). Twenty-nine preschool children with autism received early intensive behavior
analytic intervention (IBT), 16 received intensive eclectic intervention designed for children with autism (designated the
autism programming, or AP, group), and an additional 16 received typical non-intensive, eclectic early intervention services
(designated the generic programming, or GP, group). All children began intervention prior to 48 months of age and received
treatment for an average of 14 months. They were placed in treatment groups on the basis of parental preferences and
education team decisions, and evaluated pre-treatment and annually thereafter by professionals who were neither involved
in nor employed by any of the treatment programs. The three groups were shown to be similar on key variables when

3328

J.S.

App 34

et al./ Research in Developmental Disabilities 35 (2014

3344

treatment began. After 14 months of intervention, mean scores on standardized tests of intellectual, communication, and
adaptive skills were significantly higher for children in the IBT group than for children in the other two groups. Children in
the IBT group had an average standard IQ. score of 90, compared to 62 and 69 for children in the AP and GP groups,
respectively. Developmental trajectories for most measures accelerated markedly over the 14 months of treatment for
children in the IBT group, while the trajectories for children in the other two groups remained flat or declined.
For the present study, we followed children who participated in the 2005 study through an additional 2 years of
treatment. We focused on four questions: (a) did Year 1 differences in the cognitive, language, and adaptive behavior scores
of children in the three groups persist? (b) Did differences in the developmental trajectories of the three groups at Year 1
change during Years 2 and 3? (c) How many children in each group had standardized test scores in the normal range after 2
or 3 years of treatment? (d) To what extent were outcomes at Year 1 correlated with outcomes at Years 2 and 3?
2. Method
2.1. Participants
The same 61 children who participated in the Howard et al. (2005) study participated in this follow-up. Characteristics of
the groups at intake are reported in Howard et al. (2005).2
Assessments were conducted 1-3 years after treatment began, but not all skill domains were assessed each year with
every child. (See Section 3.1 for number of assessments available for each group at intake and at Years 1-3.) In particular, one
child in the GP group and one child in the IBT group did not receive any assessments after the first year of treatment.
Nonetheless, scores for all 61 children were retained for the present analyses to permit evaluations of outcomes that were
not included in our 2005 publication.
2.2. Treatments
Information about the treatments participants received, school placements, and number of hours and services authorized
during Years 2 and 3 was obtained through file review.
2.2.1. Intensive behavior analytic treatment (IBT)
This treatment was designed and delivered by personnel in a California non-public agency that provides ABA services to
children with autism. Treatment was directed by the first author, a Board Certified Behavior Analyst-Doctoral® (BCBA-D8)
and licensed psychologist, and the fourth author, a licensed speech-language pathologist. Programs were supervised by
Board Certified Behavior Analysts® (BCBAs®) and other staff with master's degrees in psychology or special education and
some training in ABA. They were supported by staff who were either Board Certified Assistant Behavior Analysts® (BCaBAs®)
or who had bachelors degrees, most of whom were enrolled in graduate programs in ABA and related areas. Treatments were
delivered to children by behavior technicians working under the supervision of the clinical staff. Behavior technicians began
delivering treatment only after they had passed competency-based performance evaluations; thereafter, they were directly
observed and received written or oral feedback on their implementation of behavior change protocols from their clinical
supervisors an average of once or twice each week.
To varying degrees, all parents helped support treatment outside of formal treatment hours. Parent training initially
focused on teaching instruction-following, promoting spontaneous language, re-directing nonfunctional repetitive behavior,
managing interfering behaviors, and building skills such as toileting, dressing, and independent play. Parents were also
trained to implement behavior analytic procedures that were designed to increase success in activities relevant to health and
self-care, such as cooperating with medical and dental care procedures and participating in sports and other community
activities.
Treatment was delivered in multiple settings, including homes, treatment centers, community settings, and regular
preschool and elementary school classrooms. Treatment protocols utilized the full range of behavior analytic procedures,
customized to each child's level of functioning, preferences, family circumstances, and treatment goals. Each child received
an average of 35-40 h of treatment per week. The adult:child ratio during Year 1 was 1:1, but during Years 2 and 3 the ratio
was gradually decreased (e.g., to 1:2 or 1:3, and then to one adult per small group of children), depending on progress and
treatment targets. For further details, see Howard et al. (2005).

2 While assembling the data for this study, we uncovered several errors in data reported in our 2005 paper. Most were minor (e.g., 1-month errors in the
child's age), but the baseline scores of one child in the GP group were reported incorrectly as Year 1 scores, and the Year 1 scores of another child in the GP
group were reported as baseline scores. Correcting those errors had virtually no impact on the conclusions that were drawn in the 2005 paper; all 107 of the
statistical tests reported as not significant in 2005 remained non-significant, and 40 of the 43 findings that were reported as statistically significant in 2005
remained so. The three exceptions were for group differences that were only marginally significant in the 2005 publication: the difference at intake between
the mean nonverbal age equivalents for the AP and GP groups changed from p = 0.04 to p = 0.07; the difference at follow-up between the mean motor
standard scores of the 1ST group and the two comparison groups changed from p = 0.04 to p = 0.06; and, when the mean self-help skills learning rates before
and after treatment were compared, the difference between the IBT group and the two comparison groups changed from p = 0.05 to p = 0.07. Revised tables
reporting all corrections are available as supplementary materials.

J.S. F

App 35

't al./Research in Developmental Disabilities 35 (2014)

344

3329

Data from standardized assessments as well as direct observation and measurement of target behaviors guided decisionmaking about the distribution of treatment hours across targets and settings. Initial treatment targets focused on
foundational repertoires (e.g., attending, imitating vocal and motor sequences, following spoken directions, receptive and
expressive labeling, initiating requests, tolerating change, etc.) that are often absent or at low levels in children with autism.
Treatment targets during Years 2 and 3 generally focused on advanced cognitive, social, play, self-care, academic, and
communication skills (for example, see Fischer, Howard, Sparkman, & Moore, 2009). More complex interactions involving
peers and siblings generally occurred during Years 2 and 3 than in Year 1. On average, children in the IBT group had more
than 200 goals on their annual individualized education programs (IEPs).
When children acquired the skills necessary to benefit from small group instruction (e.g., learning through observing the
behavior of others, language skills close to the level of instruction, low levels of problem behaviors, independent
communication of basic needs), they were placed in preschool or kindergarten programs for typically developing children for
up to 15 h per week. Each child was accompanied by a behavior technician who used a variety of behavior analytic
approaches, including self-management and behavioral contracting procedures, to arrange opportunities to prompt and
reinforce behavior targets in order to promote skill acquisition and generalization across settings. The clinical supervisor
directing the intervention also provided training and consultation to parents, teachers, and other professionals. Sample
behaviors targeted in the regular classrooms included following instructions from classroom teachers and aides, engaging in
classroom routines, and interacting with peers. Time spent with typically developing peers was gradually increased based on
skill acquisition, maintenance and generalization of skills, and level of problem behaviors. Most children did not enter
kindergarten until age 6.
2.2.2. Autism programming (AP) and generic programming (GP)
Brief descriptions of the AP and GP interventions are presented next; for details see Howard et al. (2005). The AP programs
were designed specifically for children with autism. Intervention procedures were drawn from the Training and Education of
Autistic and Related Communication Handicapped Children (TEACCH) approach, sensory integration therapy, commercially
available programs (e.g., the Picture Exchange Communication System; Bondy & Frost, 1994), and some behavior analytic
procedures, such as discrete-trial procedures. Children in this group received an average of 25-30 h of intervention per week
in public school classrooms with staffing ratios of 1:1 or 1:2. Thus, the AP programs provided eclectic intervention at an
intensity that was comparable to IBT.
The GP intervention was delivered in special education classrooms that served children with a variety of diagnoses and
educational needs. Programming that was described as "developmentally appropriate" and "language rich" was provided for
an average of 15-17 h per week, with slightly more hours as children approached age 6. Adult:child ratios averaged 1:6.
Approximately one third of the children in both the AP and GP treatment groups received "pull out" speech therapy
sessions of less than 30 minutes once or twice a week during Years 1 and 2. About 20% of the children in both groups received
some services in general education classrooms, which often included such activities as lunch, physical education, or recess.
On average, each child in the AP and GP groups had fewer than 15 goals on his/her annual IEP.
2.2.3. Summary
All of the children in the IBT group and the majority in the two eclectic treatment groups had similar placements and
programming during Years 2 and 3 as in Year 1. Some children changed from one eclectic treatment to the other after Year 1,
while the Year 2 and/or Year 3 intervention was not available for a few AP and GP children. This information is summarized in
Fig. 1, which is similar to a Sankey diagram. Sankey diagrams are used in engineering (see Schmidt, 2008, for an overview)
and vary the width of each arrow in proportion to the number represented by that arrow. Thus, in the GP treatment group,
the arrow leading from GP treatment in Year 1 to AP treatment in Year 2 (which represents n = 3 children) is three times as
wide as the arrow leading from AP treatment in Year 2 back to GP treatment in Year 3 (representing n =1 child).
2.3. Design
We utilized a between-groups design to compare performances of children in the IBT group with those of children in the
two eclectic treatment groups at intake and at followup assessments about 1-3 years later. As reported in Howard et al.
(2005), the three groups of children were substantially similar on most key variables at intake. The only significant
differences were in mean chronological ages and parents' education, which were controlled for statistically (see Section 2.3.2
below).
2.3.1. Dependent measures
The principal dependent measures in this study were scores on full-scale IQ tests (cognitive skills), measures of language
development, and adaptive behavior scales (composite scores as well as communication, self-help, and social skills scores).
Scores on nonverbal IQ tests, receptive and expressive communication skills assessments, and motor skills were also
analyzed. Since these latter skills were often not measured in Year 3, we report the Year 2 scores if Year 3 scores were not
available.
All intake and follow-up assessments were conducted by experienced, qualified examiners who were not involved in
treating any children in any of the groups. Assessments were conducted in the child's home, in the examiner's office, at a

3330

App 36

JS.

et at/Research in DeveTopmental Disabilities 35 (2014,
1st year

2nd year

3344
3rd year
AP
(n = 7)

AP
treatment
group

AP
(n =13)

AP
(n=16)

GP
(n S)

Unknown
(n = 4)

Unknown
(n = 3)

GP
treatment
group

GP
(n =10)

GP
(n = 10)

GP
=16)
AP
(n - 3)
Unknown
= 3)

1st year

Unknown
(n 6 S)

n63

2nd year

3rd year

Fig. 1. Movement of children between AP and GP treatments by year. Children in the IBT treatment group had the same treatment all three years. Agency
files did not report the type of treatment that was received during Years 2 and 3 for some of the children who initially received the AP or GP treatments.
Table 1
Age (in months) at each assessment, and interval between intake and each subsequent assessment.
Measure

Age at diagnosis
Age at intake testing
Age at Year 1 follow-up
Age at Year 2 follow-up
Age at Year 3 follow-up
Months between intake and Year 1
Months between intake and Year 2
Months between intake and Year 3

IBT

AP

GP

M

SD

M

SD

M

SD

30.07
30.86
45.24
57.64
69.24
14.31
27.05
37.90

5.30
5.16
5.84
5.30
5.01
2.22
1.91
2.98

39.31
37.44
50.69
63.21
74.33
13.25
25.36
37.13

5.52
5.68
5.64
5.86
5.98
2.84
1.82
2.36

34.94
34.75
49.06
62.23
73.46
1431
26.85
38.46

5.18
4.80
5.64
6.15
6.10
2.44
3.11
2.30

IBT mean minus
AP/GP mean

AP mean minus
GP mean

-7.06-

4.38"
2.69
1.63
0.98
0.87
-1.06
-1.49
-1.33

-5.23"

-4.63-4.690.53
0.97
0.15

p < 0.05.
p < 0.01.

school, or in the settings of local non-profit entities (Regional Centers) that contracted with the state to manage services to
persons with developmental disabilities. As reported in Howard et al. (2005), Year 1 testing occurred an average of 14.3
months after intake. Thereafter, parents of all children were contacted annually to determine if they were interested in
having their children participate in follow-up assessments. Table 1 shows the mean ages of the groups at each assessment
and the intervals between assessments. On average, Year 2 testing occurred 23-34 months after intake (M = 27.0 months),
and Year 3 assessments occurred 31-43 months after intake (M = 37.9 months).
The examiners selected standardized tests of cognitive skills, language skills, and adaptive behavior that were suited to
each child's age and level of functioning. Howard et al. (2005) described the instruments used at intake and at Year 1. After
Year 1, adaptive behavior was assessed using the Vineland Adaptive Behavior Scales (VABS). Nonverbal IQ was assessed
using the Merrill-Palmer Scales of Development (although the Leiter International Performance Scale was used for one child
in the IBT group in Year 3). Full-scale lQwas typically assessed after Year 1 using the developmentally appropriate Wechsler
instrument, either the Wechsler Preschool and Primary Scale of Intelligence (WPPSI-III or WPPSI-Revised) or the Wechsler
Intelligence Scale for Children (WISC-III or WISC-IV). However, one child in the IBT group was administered the StanfordBinet Intelligence Scale (the 4th edition in Year 2 and the 5th edition in Year 3), and in Year 3 two children in the IBT group
were administered the Differential Ability Scales, one IBT child was administered the Slosson Intelligence Test-Revised, and
one IBT child was administered the Woodcock-Johnson Tests of Cognitive Abilities III. Receptive and expressive language
skills were assessed using a variety of instruments. The most common was the Reynell Developmental Language Scales.
Others included the Receptive One-Word Picture Vocabulary Test, the Expressive One-Word Picture Vocabulary Test, the
Peabody Picture Vocabulary Test (3rd edition), the Expressive Vocabulary Test, and the Sequenced Inventory of
Communication Development-Revised.
Measures for which developmental equivalents were available were converted to developmental quotients (DQs) for
analysis using the formula DQ= 100 x developmental equivalent (months)/chronological age (months). When all children

J.S. H

App 37

1 all Research in Developmental Disabilities 35 (2014)

344

3331

are the same age, there is no statistical difference between analyzing standard scores (SSs), developmental equivalents, and
DQs. Unlike the other two measures, however, DQs allow valid comparisons to be made among children who have different
chronological ages at the same assessment time, and automatically compensate for different intervals between assessment
times (cf. Delmolino, 2006; Lord & Schopler, 1989).
2.3.2. Statistical analyses
As in our original study, statistical analyses focused on comparing the mean scores of children in the IBT group with those
of children in the AP and GP groups; comparing the mean scores of children in the AP group with those of children in the GP
group was of secondary interest. Accordingly, in this study we used the same multiple regression approach we employed in
Howard et al. (2005). One term in the regression equation was a contrast that compared mean scores of the children in the
IBT group with mean scores of the children in the AP and GP groups, while a second contrast term (orthogonal to the first)
compared the mean scores of children in the AP group with the mean scores of children in the GP group. Both contrasts were
tested simultaneously, together with two covariates (chronological age at diagnosis and parents' mean years of education) to
control for group differences in the covariates.
Separate multiple regression analyses were performed for each of the four assessment times (intake, Year 1, Year 2, and
Year 3). Repeated measures analyses examining all four assessment times at once were precluded because not all children
were assessed at every follow-up. Restricting the analyses to children with complete assessment records would have
eliminated more than half of the children from some analyses. Trends over the 3-year course of treatment were examined by
using paired t-tests to compare each child's score at one assessment with his or her score at the following assessment.
For every dependent measure, we also determined whether each child achieved a favorable outcome. This was defined as
a DQ or SS within the normal range of functioning (i.e., 85 or higher), or a DQ or SS that was at least 15 points (1 standard
deviation) higher at the final assessment (Year 2 or Year 3) than at intake. This definition is logically similar to the reliable
change index proposed by Jacobson and Truax (1991) for evaluating the effects of treatments. Chi-square tests were used to
determine whether the percentage of children with a favorable outcome differed by treatment group, with a separate
analysis conducted for each dependent measure.
3. Results
3.1. Ages and assessment times
The assessment chronology for all three groups is summarized in Table 1. Cells in the first five rows include descriptive
statistics on chronological ages at diagnosis and at each assessment time. Data in the bottom three rows describe elapsed
time between intake and later assessments. Data in the two rightmost columns represent comparisons of group means;
asterisks indicate statistically significant differences. These data indicate that, at diagnosis and every subsequent
assessment, the average child in the IBT group was younger than the average child in either comparison group; those
differences were statistically significant. There was also a statistically significant difference between the mean ages of the AP
and GP children at diagnosis, but not at any of the later assessments.
3.2. Analyses of standard scores and developmental quotients
Table 2 presents descriptive statistics and analyses of assessments of cognitive and adaptive skills for each group.
Adaptive behavior scores (communication, social, and self-help skills) are expressed as developmental quotients (DQs),
while cognitive skills scores and the composite adaptive behavior measure are expressed as standard scores (SSs). For each of
the five measures, cells in the first four rows under each group's column list descriptive statistics from each assessment time;
results of statistical comparisons of group means at each assessment time are shown in the two rightmost columns. All
comparisons controlled for the child's age at diagnosis and the parents' years of education. Asterisks indicate statistical
significance. As shown in the two rightmost columns, all Year 1 and Year 2 mean SSs and DQs were significantly higher for the
IBT group than for the two comparison groups combined. There were no other statistically significant between-group
differences; the mean scores for the IBT group and the two comparison groups combined did not differ significantly at intake,
and the mean scores of the AP and GP groups did not differ significantly from each other at intake or at any of the other
assessment times on any measure.
The cells in the bottom three rows for each of the five measures in Table 2 summarize changes in mean scores between
successive assessments (intake to Year 1, Year 1 to Year 2, and Year 2 to Year 3). Asterisks denote statistically significant
improvements (positive values) or declines (negative values) from one year to the next. The IBT group had statistically
significant improvements on all measures from intake to Year 1. The AP group had a statistically significant improvement on
the cognitive skills SS from intake to Year 1, and statistically significant declines in the self-help DQ and adaptive behavior
composite SS from Yearl to Year 2. The GP group had a statistically significant improvement on the social skills DQ from Year
1 to Year 2. No other changes were statistically significant.
The cells in the penultimate column in the bottom three rows for each measure in Table 2 represent comparisons of the
mean change scores of the IBT group and the AP and GP groups combined. Asterisks indicate statistically significant
differences in change scores between intake and Year 1 on all measures in favor of the IBT group. The cells in the rightmost

3332

App 38

3344

et al./ Research in Developmental Disabilities 35 (2014,

J.S.

Table 2
Cognitive and adaptive skills scores at intake and Years 1-3, changes between successive assessments, and differences between groups.
Measure

Cognitive (SS)

Communication (DQ)

Self-help (DQ)

Social (DQ)

Composite (SS)

Assessment

Intake
Year 1
Year 2
Year 3
Intake vs Year 1
Year 1 vs Year 2
Year 2 vs Year 3
Intake
Year 1
Year 2
Year 3
Intake vs Year 1
Year 1 vs Year 2
Year 2 vs Year 3
Intake
Year 1
Year 2
Year 3
Intake vs Year 1
Year 1 vs Year 2
Year 2 vs Year 3
Intake
Year 1
Year 2
Year 3
Intake vs Year 1
Year 1 vs Year 2
Year 2 vs Year 3'
Intake
Year 1
Year 2
Year 3
Intake vs Year 1
Year 1 vs Year 2
Year 2 vs Year 3

AP group

IBT group

GP group

n

M

SD

n

M

SD

n

M

SD

28
26
22
21
25
20
17
29
26
22
19
26
20
16
29
26
22
19
26
20
16
28
26
22
19
25
20
16
26
26
22
20
24
20
16

60.57
89.88
86.59
89.43
27.44-2.05
2.94
49.23
76.47
73.46
72.84
26.23-0.02
2.57
60.65
70.19
69.35
67.13
9.86'
0.68
-2.66
54.43
69.47
80.66
79.33
15.2111.85"
3.37
72.00
81.15
79.14
76.00
8.88-0.60
-431

17.48
20.87
20.47
23.99
14.18
6.89
9.06
14.77
22.48
28.93
29.46
21.27
21.08
21.79
16.59
16.39
16.99
15.78
21.24
17.85
8.33
18.00
19.05
26.60
27.48
22.99
17.14
14.81
7.73
10.95
12.06
15.94
10.94
10.75
8.25

16
16
13
14
16
13
11
16
16
13
14
16
13
11
16
16
13
14
16
13
11
16
16
13
14
16
13
11
16
16
13
14
16
13
11

53.69
62.13
5938
64.43
8.44
1.77
1.09
42.95
46.52
45.94
49.40
3.57
2.22
4.68
56.63
62.17
52.13
56.11
5.54
-8.53'
3.31
58.05
58.44
48.68
52.60
0.39
-7.93
1.57
69.81
69.25
61.08
58.07
-0.56
-6.54'
-4.09

13.50
19.63
1338
24.84
15.04
6.69
8.62
15.01
21.63
20.50
29.36
17.96
18.46
14.68
15.54
16.49
16.46
19.25
20.52
14.07
18.15
23.15
28.89
25.52
25.56
23.86
17.77
17.41
10.48
12.91
10.14
15.80
12.04
8.41
11.23

15
16
13
13
15
13
11
15
16
13
13
15
13
11
15
16
13
13
15
13
11
15
16
13
13
15
13
11
13
16
13
13
13
13
11

61.00
69.13
66.08
71.77
8.27
-1.69
6.55
47.22
52.38
51.26
57.68
4.82
4.33
5.68
60.30
56.39
60.68
61.92
-3.41
5.46
1.71
56.92
49.55
61.16
67.85
-7.47
15.68'
7.27
69.69
67.63
69.77
65.85
-1.31
4.54
-3.45

15.27
15.13
17.35
19.45
17.20
6.79
13.45
14.39
22.34
22.56
22.74
21.34
15.46
10.67
17.13
10.29
16.39
13.67
17.93
15.26
17.01
15.50
20.21
30.09
22.40
23.09
20.45
19.86
8.54
10.45
12.74
12.23
11.24
8.29
7.41

IBT mean
minus AP/GP
mean

AP mean
minus GP
mean

335
24.2623.8621.47
19.09-2.09
-0.88
4.22
27.02"
24.86'
19.45
22.05-3.29
-2.61
2.24
10.91'
12.958.22
8.65
2.22
-5.17
-3.07
15.47'
25.751939
18.62'
7.98
-1.05
2.24
12.7213.7114.19
9.77'
0.40
-0.54

-7.31
-7.00
-6.69
-7.34
0.17
3.46
-5.45
-4.27
-5.86
-5.33
-8.29
-1.25
-2.11
-1.00
-3.67
5.78
-8.55
-5.80
8.95
-13.99'
1.60
1.13
8.89
-12.48
-15.25
7.86
-23.61-5.70
0.12
1.63
-8.69
-7.77
0.75
-11.08-0.64

Age at diagnosis is a significant covariate (p < 0.05).
p < 0.05.
•• p < 0.01.

column in the bottom three rows for each measure represent comparisons of the mean change scores between the AP and GP
groups. Statistically significant differences were seen in the changes in self-help DQ social DQ and adaptive behavior
composite SS from Year 1 to Year 2; in each case, the mean score declined for the AP group but increased for the GP group.
Table 3, which is formatted similarly to Table 2, presents nonverbal IQ language, and motor skills DQs by group. Those
skills were not assessed consistently after Year 1; some children were reassessed only after 2 years of treatment, while others
were reassessed only after 3 years of treatment. Accordingly, Table 3 shows statistics for only three points in time: at intake;
one year after intake; and either three years after intake or - if no assessment was made at Year 3 - two years after intake. For
the IBT group, mean DQs on all measures except motor skills (which were in the normal range at intake) increased
significantly from intake to Year 1. Expressive language skills also improved significantly from Year 1 to Year 2/3, while the
motor skills mean DQshowed a decline over that same interval. For the AP group, the only statistically significant change was
a decline in the mean motor skills DQ from Year 1 to Year 2/3. Over that same interval the GP group's mean expressive
language DQ increased significantly, but no other statistically significant changes were found for that group. The penultimate
right-hand column of Table 3 again shows several statistically significant differences in change scores favoring the IBT group
over the two combined eclectic groups. As indicated in the final column, the only statistically significant difference between
the AP and GP groups was on the motor skills DQ assessment at Year 2/3, with children in the AP group scoring lower, on
average, than children in the GP group.
The group mean data described in Table 2 are represented graphically in Figs. 2-6, which also show individual scores and
the numbers of children in each group whose scores were in the normal range (85 and above) on each measure at each
assessment. Data from assessments conducted at intake and Year 1 mirror those reported in our previous paper (Howard
et al., 2005): Mean scores on all measures for all three groups were comparable at intake, and the IBT group had significantly
higher mean scores one year later than did the AP and GP groups. As discussed above, change scores indicated that, on
average, children in the IBT group improved more than children in the other two groups after one year of treatment.

App 39

J.S. I-.

344

4 al./Research in Developmental Disabilities 35 (2014).

3333

Table 3
Nonverbal IQ language, and motor skills scores at intake, Year 1, and Year 2 or 3, changes between assessments, and differences between groups.
Measure

Assessment

Non-verbal (DQ)

Receptive (DQ)

Expressive (DQ)

Motor (DQ)

b

IBT treatment group

Intake
Year 1b
Year 2/3
Intake vs Year 1
Year 1 vs Year 2/3
Intakeb
Year 1
Year 2/3
Intake vs Year 1
Year 1 vs Year 2/3
Intake
Year 1
Year 2/3
Intake vs Year 1
Year 1 vs Year 2/3
Intake
Year 1
Year 2/3
Intake vs Year 1
Year 1 vs Year 2/3

AP treatment group

GP treatment group

n

M

SD

n

M

SD

n

M

SD

20
24
24
20
21
29
26
25
26
24
29
26
26
26
24
28
26
25
25
23

80.44
101.04
98.05
20.31"
-2.20
48.79
71.23
74.46
22.53"
2.18
49.73
69.24
83.25
20.4610.40
94.65
97.30
90.17
0.63
-8.44"

12.06
18.27
17.92
14.97
8.65
20.87
21.97
25.08
18.31
12.39
16.34
23.20
29.88
22.36
17.11
17.50
14.74
12.64
18.23
18.05

16
16
15
16
15
16
15
15
15
14
16
15
15
15
14
16
16
12
16
12

67.00
73.60
6933
6.61
-2.10
45.44
51.39
49.53
5.27
-0.27
43.90
4731
47.98
3.42
1.51
89.55
85.08
74.00
-4.46
-9.82

17.13
24.79
22.08
18.56
13.63
15.23
22.44
24.61
13.12
20.81
5.80
24.42
27.25
22.68
16.47
13.09
12.24
13.24
12.82
13.54

11
15
14
11
13
15
14
13
13
12
15
14
13
13
12
14
16
14
14
14

76.65
81.08
82.20
2.42
2.78
47.29
51.95
6031
2.77
4.39
50.20
48.08
62.07
-2.84
12.34"
86.96
85.62
86.31
0.83
1.97

13.37
18.72
21.74
13.42
11.49
13.59
19.46
18.75
11.96
10.49
12.16
14:35
23.83
12.29
17.75
1334
13.62
15.83
18.18
20.57

IBT mean
minus AP/GP
mean

AP mean
minus GP
mean

9.51
23.82"
22.50"
15.41"
-2.36
2.45
19.57"
19.93
18.42"
0.31
2.78
21.56"
28.73"
19.95"
3.90
631
11.95"
9.54
2.63
-4.97

-9.65
-7.47
-12.87
4.19
-4.87
-1.85
-0.55
-10.78
2.50
-4.66
-630
-0.77
-14.10
6.26
-10.82
2.59
-0.54
-1230"
-5.29
-11.78

Mean parental years of education is a significant covariate (p < 0.05).
p < 0.05.
p < 0.01.
140

140

AP -

GP

120

120

•
•

100

80

:
60

•

40

Cognitive
(SS)

IBT

•
1

8

o
•

-80

111
,, I,,,,,,,,,,,

,,,,,,,,,,,1

•
•

-100

0

60

•

40

20

..

120

0

_
•
,
•
•
•

20

100

t
o
•
•
o
i
s
,,, @
.,,,,,,,,,,,,,,,,,,,

Meant 1 SEM

•

8

-120

I
IBT

•

-100

•
80

•

60

-80

I

0

•

•

•

I

1
,,,,,,,,,,,, I.„„,„„„,i,,,,,,,,,,,,

40

20

-60

Eclectic
-40

.
__ •

20

Intake Year 1 Year 2 Year 3

Intake Year 1 Year 2 Year 3

Assessment
Fig. 2. Cognitive SSs at intake and 1-3 years later. Each dot represents the score for an individual child at that assessment time. Black dots indicate children
who received their original treatment at the time of testing; white dots indicate children in the AP group who received GP treatment in the year preceding
assessment, or children in the GP group who received AP treatment prior to assessment. Gray dots indicate children whose treatment prior to assessment
was not recorded. Scores in the gray region of each panel are in the normal range (85 or higher). The lines in each panel connect the group mean scores at
each assessment. The vertical bars in the lower right panel extend ±1 standard error around each group mean.

3334

App 40

JS.

et al./Research in Developmental Disabilities 35 (2014.

.3344

150

150

AP

GP

130

130

•

110

110

O
•

90

o

: ' •
7/
• ......
•
I I

70
50
30

Communication
150
(DQ)

4

•
II
•

8

•,,,,,,,,,,,

E

i;

70

. ,,,,,,,
•

1

2
7

90

50
30

a
150

Mean ± 1 SEM

IBT

130

130

•
•

110

110

90

90

IBT

70

•

50
30
10

•

•
•

$

II
•

70
50

Eclectic

30

10

Intake Year 1 Year 2 Year 3

Intake Ye r 1 Year 2 Y ar 3

Assessment
Fig. 3. Communication DQs at intake and 1-3 years later. See Fig. 2 caption for details.

After the first year of treatment, the sharply accelerated trajectory for the IBT group relative to the two other groups did
not continue for any measure except the social skills DQ which increased again from Year 1 to Year 2 before leveling off
(Fig. 5). The mean cognitive skills SS for the IBT group remained stable from Year 1 to Year 3 (Fig.. 2), while the mean
communication skills DQ, self-help skills DQ and adaptive skills composite SS declined slightly (Figs. 3, 4 and 6,
respectively). The mean scores for the GP and AP groups either increased slightly or declined from Year 1 to Year 3 on all
measures except social skills DQs, which increased for the GP group (Fig. 5).
In general, the gaps that emerged between the means of the IBT group and the other two groups after one year of
treatment remained fairly constant or expanded in favor of the IBT group in Years 2 and 3 (see the lower right-hand panels of
Figs. 2-6). Although the mean scores for the children in the IBT group were higher than those of the children in the eclectic
treatment group three years after intake, those differences were not statistically significant (see Tables 2 and 3). With one
possible exception, that was not because children in the IBT group regressed or because those in the AP and GP groups
improved substantially; rather, it was because some children lacked 3-year followup assessments, reducing the Year 3
sample sizes and precluding the detection of statistically significant differences among the group mean scores. The exception
was the mean motor skills DQ for the IBT group, which declined slightly from intake to Year 2/3 but remained in the normal
range. The AP group's mean motor skills DQs also declined over the course of treatment; that decline was statistically
significant and resulted in a Year 3 mean that was below normal (see Table 3).
Given the large improvements in the IBT group after one year of treatment, it may seem surprising that continued
treatment did not produce further large gains on most measures; rather, most mean scores remained stable or declined
slightly in Years 2 and 3. That finding should be interpreted with caution, however, and in relation to the results for the other
two groups. For example, the mean cognitive skills SS for the IBT group was in the normal range after one year of treatment,
so further large increases were unlikely. The mean adaptive skills composite SS for the IBT group fell slightly over the course
of treatment, but the means for the two other groups fell even more. One plausible explanation for the apparent declines in
the mean VABS composite scores is that the programming for these young children emphasized skills other than those
assessed by the VABS.
3.3. Analyses of outcomes by type of treatment
Additional analyses were conducted to ascertain the proportions of children in each group who achieved clinically
important outcomes by the end of treatment, and the likelihood that each type of treatment would produce such outcomes.

App 41

.

't al./ Research in Developmental Disabilities 35 (2014) .

J.S. E.

344

3335

120

120

AP

GP

100

•

•
•

80

•

60

ii
• ,,,,,, !„,,,,
•

•

•

O
•

•

o
•

-80

o
I : 1
8
I•
„„„,„„„,8
,,,,,,,,,,,,
,,,,,,,,,,, I

8

40

:

•

1

Self-help
(Do)

20

IBT

•

100

•
•
•
i
I
Meant 1 SEM

80

60

-

H
I
•

•

60

•

40

i

20

•
I

100

•
•

40

:
th
i

100

i

80

1BT _____
I.........1
roA
60

•
I
•

•
•

Eclectic
-40

20

20
Intake Year 1 Year 2 Year 3

Intake Year 1 Year 2 Year 3

Assessment
Fig. 4. Self-help DQs at intake and 1-3 years later. See Fig. 2 caption for details.

Table 4 shows the percentage of children in each group who had final (Year 2 or 3) scores in the normal range (i.e., >85; third
column), final scores that were at least one standard deviation (>15 points) higher than their intake scores (fifth column),
and either of those favorable outcomes (penultimate column). Columns immediately to the right of each of those show odds
ratios and probability ratios. To illustrate the odds ratio statistic, consider the data in the fourth column for the cognitive SS.
For the IBT group, 61% had a final score >85 on that measure; the odds of achieving that favorable outcome were 0.607/
(1 — 0.607) = 1.545. For the children in the AP and GP groups combined, 25% had final scores >85; the odds of this outcome
were 0.250/(1 — 0.250) = 0.333. The ratio of those two odds is 1.545/0.333 = 4.64. This odds ratio of 4.64 is greater than the
"neutral" value of 1, indicating that a favorable outcome on the cognitive SS was attained more often by children in the IBT
group than by children in the two other groups combined. A likelihood ratio test, which is similar to a chi-square test,
confirmed this difference as statistically significant. An odds ratio of 4.64, however, does not signify that children in the IBT
group were 4.64 times more likely to have a favorable outcome than children in the AP and GP groups. Such an estimate is
better provided by the probability ratio, which is shown in parentheses below each odds ratio in Table 4. The probability ratio
for the cognitive SS example is 0.607 (the probability of a final score >85 for children in the IBT group) divided by 0.250 (the
probability of a final score >85 for children in the AP and GP groups combined) = 2.43, indicating that children in the IBT
group were 2.43 times more likely to achieve final cognitive SSs in the normal range than were children in the other two
groups combined. Probability ratios are more readily interpreted than odds ratios, but statistical tests for group differences
utilize odds ratios.
Table 4 shows that the overwhelming majority of the odds ratios and probability ratios favored IBT, indicating that
clinically important outcomes as defined here were far more likely to be attained by children who received IBT than by
children who received either of the other two treatments. The only exception was that final motor DQ scores were unlikely to
be at least one standard deviation above the intake scores. As noted previously, that was likely due to a ceiling effect, in that
the mean motor DQfor the IBT group was in the normal range at intake and stayed there over the course of treatment. Double
asterisks in Table 4 show that the advantage for IBT children was more likely to be statistically significant when a favorable
outcome was defined as a final score >85 than when it was defined as an increase of at least 15 points over intake.
Statistically significant differences between the AP and GP groups emerged only for an increase of 15 points or more over
intake for social, motor, and adaptive skills composite scores. For those three measures, the odds of a favorable outcome were
higher for the GP group than for the AP group. For the cognitive, receptive, and self-help measures, children in the AP group

App 42

3336

let al./Research in DeveTopmental Disabilities 35 (2014,

3344

130

130

AP

GP

110

•

90

2

70

•
•

•

50

30

Social
(DO) 10

1
i

110

•
$

•
•
o

.
•
•
0
:

i

8
oe
•
•
i
.

•
s

8
•

•
90

:
$
•

1
,,,,,,
•
•
•
•
8
o

70
:50
30
10

0

IBT

110

•

Meant 1 SEM
110

:
•

—90

90

70

•
•

•

50

30

$

1

•
•
•
:

IBT

•
•
I

_

,,,,,,,,, 1

70

,,,,,I
50

Eclectic
—30

•

10
Intake Year 1 Year 2 Year 3

I
I
I
Intake Year 1 Year 2 Year 3

10

Assessment
Fig. 5. Social DQs at intake and 1-3 years later. See Fig. 2 caption for details.

were more likely to have favorable outcomes than children in the GP group, though none of those differences was
statistically significant. Collectively, these analyses suggest that neither of the comparison treatments was likely to result in
favorable outcomes, and that combining the AP and GP groups did not mask any important group differences in outcomes.
Fig. 7 is a graphic representation of the percentages of children in the IBT group and the combined AP and GP groups who
had scores in the normal range at each assessment. At intake, those percentages were comparably small for both groups on
all measures except the motor skills DQ on which fairly large proportions of both groups (57% IBT, 47% AP/GP combined) had
scores in the normal range. By the end of treatment, a larger percentage of children in the IBT group than in the AP/GP group
had scores in the normal range on all measures except the self-help DQ.
Individuals with final scores that were in the normal range (>85) or at least one standard deviation above intake scores
can be readily identified in Fig. 8. In this figure, each child's score on each measure is plotted as a function of his or her score at
intake (on the x-axis) and the change from intake to the final assessment (on they-axis; the final assessment was made at
Year 2 if the child was not assessed at Year 3). Final scores in the normal range appear in the dark gray region of each panel,
and scores representing increases of at least one standard deviation over intake are in the light gray regions. Both regions are
populated by more children in the IBT group (closed circles) than by children in the other two groups (open symbols). That is,
more of the children who received IBT had final outcomes that constituted clinically important changes over baseline than
did children who received either of the other two treatments.
An important question is whether children in this study who attained normal levels of functioning at any point
maintained those levels over the course of treatment. That question is difficult to answer, because only a portion of the
children in each group had scores in the normal range at any assessment time, and not all children were assessed at both Year
2 and Year 3. Nevertheless, the question is sufficiently important to merit an attempt to answer it. For this analysis, children
were classified into four categories of outcomes: (a) scored <85 one year and remained <85 the next year; (b) scored <85
one year but scored >85 the next year (i.e., transitioned to a normal range of functioning); (c) scored >85 one year but scored
<85 the next year (i.e., regressed); and (d) scored >85 one year and remained >85 the following year. Those categories were
then combined across measures to calculate the probability of each of the four outcomes for each year-to-year assessment
transition. Separate calculations were made for children in the IBT group and for children in the combined AP and GP groups.
Results of these analyses are illustrated by the Sankey diagram shown in Fig. 9. In this figure, arrows are not just
proportional in width to the quantities the represent; they are also horizontal if they represent children who maintained

App 43

J.S. H

A al./Research in Developmental Disabilities 35 (2014).

3337

344

120

120

AP

GP

100

•
•
•

•
•

80

I....... —

•
°
m

•

o

o

j

•

Composite
(SS) 20

•
I

100

•
,,,,,,,,,,,,,,,,,,,,,, # ,,,,,,,,1

o

—80

ti
o

1

60

a

1

40

:

•

a

1,,,,,,,,,,,, 6

60

100

•

*

o

,
IBT

I
•

I
•

I
I
Meant 1 SEM

•

i

20

—100

•

80

60

40

IBT

I

S
•

,,,,,,,,,,,, 1 ,,,,,,,,,,,,
T
Eclectic ,,,,, ,,,,,,,1

:

—80

—60

8
40

40

20

20
Intlake Year 1 Year 2 Year 3

Intake Year 1 Year 2

Year 3

Assessment
Fig. 6. Composite adaptive skills SSs at intake and 1-3 years later. See Fig. 2 caption for details.

assessed levels of functioning, they slant upward for children who improved, and they slant downward for children who
regressed from one year to the next. The figure should be interpreted cautiously, because it represents data that were
collapsed across measures and is based upon other suboptimal manipulations. Nevertheless, several intriguing trends are
suggested. One is that most children who moved from below-normal to normal-range functioning did so after one year of
treatment. For both groups, the probability of moving into the normal range was higher from intake to Year 1 than from Year
1 to Year 2, or from Year 2 to Year 3 (indicated by the upward-slanting arrows in Fig. 9). Stated differently, the prospect of
achieving scores in the normal range diminished with each additional year of treatment, but the likelihood of scoring in the
normal range was substantially and consistently higher for children in the IBT group than for children in the AP/GP groups
combined at all three years post-intake (as shown by the percentages in the upward-slanting arrows). For children in the AP/
GP group, if a score >85 was not attained after one year of treatment, the prospects for attaining a normal score were
extremely dim.
A second general trend, confirming analyses presented in preceding tables and figures, is that children in the IBT group
were far more likely to score in the normal range at all three post-intake assessments than were children in the two
comparison groups. Further, percentages shown in the upward slanting arrows indicate that children in the IBT group were
more than three times as likely as children in the AP and GP groups to have scores that moved them from the below-normal
to the normal range at Years 1-3. That advantage was not limited to Year 1 scores; it remained relatively consistent
throughout all three years of the study.
A final trend, illustrated by the downward slanting arrows in Fig. 9, is that regressions from normal to below-normal
range scores were much more common for children in the AP/GP group than for children in the IBT group. In fact, children in
the AP/GP group were 3.45 times as likely to regress as to advance during the first year of treatment, 4.45 times more likely to
regress than advance during the second year of treatment, and 4.91 times more likely to regress than advance in the third
year of treatment. The opposite pattern was seen for children in the IBT group, where advancements were 2.48 times as likely
as regressions during the first year of treatment. Advancements and regressions occurred about equally often between Year 1
and Year 2 for the IBT group (the ratio was 1.08 in favor of advancements), but in the third year of treatment advancements
were 1.75 times as frequent as regressions. Collectively, these findings suggest that children who received IBT were much
more likely to attain and maintain normal levels of functioning than were children who received either of the other
treatments.

3338

J.S. Howard et al./ Research in Developmental Disabilities 35 (2014) 3326-3344

Table 4
Percent of children with favorable outcomes, and odds ratios and probability ratios for each measure.
Measure

Group

Final
score > 85

Odds ratio
(probability
ratio)

Final
score > 15
points above
intake

Odds ratio
(probability
ratio)

Either
desirable
outcome

Odds ratio
(probability
ratio)

Cognitive (SS)

IBT

61% (n =28)

4.64(2.43)

81% (n=27)

8.00(2.30)

82% (n =28)

8.78(2.39)

AP/GP combined
AP

25% (n =32)
25% (n =16)

GP
IBT

25% (n =16)
85% (n = 27)

AP/GP combined
AP

41% (n =32)
31% (n =16)

GP
IBT

50% (n =16)
26% (n = 27)

Non-verbal (DQ)

Receptive (DQ)

AP/GP combined
AP

Expressive (DQ)

Commun-ication (DQ)

Self-help (DQ)

GP
IBT

7% (n =15)
46% (n = 28)

AP/GP combined
AP

13% (n =31)
13% (n =16)

GP
IBT

13% (n =15)
36% (n =28)

AP/GP combined
AP

13% (n =32)
13% (n =16)

GP
IBT

13% (n =16)
11% (n=28)

AP/GP combined
AP
Social (DQ)

Motor (DQ)

Composite (SS)

6% (n = 31)
6% (n =16)

3% (n =32)
0% (n =16)

GP
IBT

6% (n =16)
54% (n =28)

AP/GP combined
AP

22% (n =32)
13% (n =16)

GP
IBT

31% (n =16)
57% (n =28)

AP/GP combined
AP

47% (n =32)
31% (n =16)

GP
IBT

63% (n =16)
36% (n =28)

AP/GP combined
AP
GP

6% (n =32)
0% (n =16)
13% (n =16)

1.00
(1.00)
8.40(2.10)
0.45
(0.63)
5.08
(4.02)
0.93
(0.94)
5.85(3.60)
0.93
(0.94)
3.89
(2.86)
1.00
(1.00)
3.72
(3.43)
0.00
(0.00)
4.12
(2.45)
0.31
(0.40)
1.51
(1.22)
0.27
(0.50)
833-(5.71)
0.00
(0.00)

35%(n=31)
38% (n=16)
33% (n=15)
60% (n = 20)
33% (n= 27)
31% (n= 16)
36% (n= 11)
78% (n = 27)
30% (n = 30)
31%(n=16)
29%(n=14)
82% (n = 28)
33% (n=30)
31% (n = 16)
36% (n = 14)
68% (n = 28)
48% (n=31)
38% (n = 16)
60%(n=15)
39% (n = 28)
32% (n =31)
38% (n = 16)
27% (n =15)
67% (n =27)
42% (n =31)
25% (n =16)
60% (n =15)
19% (n =27)
20% (n =30)
0% (n =16)
43% (n =14)
16% (n =25)
10% (n =29)
0% (n =16)
23% (n =13)

1.20
(1.13)
3.00
(1.80)
0.80
(0.86)
8.17(2.59)
1.14
(1.09)
9.20(2.46)
0.82
(0.88)
2.25
(1.40)
0.40
(0.63)
1.36
(1.22)
1.65
(1.41)
2.77
(1.59)
0.22
(0.42)
0.91
(0.93)
0.00(0.00)
1.65
(1.55)
0.00
(0.00)

34% (n =32)
38% (n =16)
31% (n =16)
85% (n = 27)
47% (n =32)
44% (n =16)
50% (n =16)
85% (n =27)
35% (n =31)
38% (n =16)
33% (n =15)
82% (n = 28)
32% (n =31)
31% (n =16)
33% (n =15)
75% (n =28)
50% (n =32)
38% (n =16)
63% (n =16)
43% (n =28)
31% (n =32)
38% (n =16)
25% (n =16)
71% (n =28)
41% (n =32)
25% (n =16)
56% (n =16)
57% (n =28)
47% (n =32)
31% (n =16)
63% (n =16)
36% (n =28)
9% (n =32)
0% (n =16)

1.32
(1.20)
6.52
(1.82)
0.78
(0.88)
10.45(2.40)
1.20
(1.13)
9.66(2.55)
0.91
(0.94)
3.00
(1.50)
036
(0.60)
1.65
-(137)
1.80
(1.50)
3.65(1.76)
0.26
(0.44)
1.51
(1.22)
0.27
(0.50)
5.37.
(3.81)
0.00
(0.00)

19% (n =16)

Odds ratio differs significantly from 1 (p <0.05).
Odds ratio differs significantly from 1 (p < 0.01).

4. Discussion
4.1. Differential treatment outcomes
Our 2005 study evaluated outcomes for 61 children with autism who received just over one year of either IBT or one of
two eclectic interventions. Although the three groups were similar at intake, children who received IBT had significantly
higher mean scores after one year of treatment than those who received eclectic interventions. The present study extended

App 45

J.S. F.
100%

et al./Research in Developmental Disabilities 35 (2014)

_ Cognitive SS
-

---7

3339

111 ''/0 scoring a 85 (IBT)

50%
0%

1344

,/

7

rd

ri

% scoring < 85 (IBT)

% scoring a 85 (AP/GP)

-50%

r A % scoring < 85 (AP/GP)

//
100%

100%

_ Non-verbal —
_ DQ

_ Communication DQ
50%

50%

0%

0%

-50%

-50%

100%

100%

- Self-Help DQ

- Receptive DQ

50%

50%

---#
_
0%

0%

.,
-50%
100%

7

.z ,
- Social DQ

,,

-50%
100%

_ Expressive DO

_

50%

7,
,.
..

50%

Nr

0%
-50%

0%
-50%

100%

100%

- Composite SS
50%
0%

y

--,
--7/

/

50%
0%

I1

-50%

-50%

- Motor DQ

-100%

None
(intake)

1 year 2 years 3 years

None
(intake)

1 year

2-3
years

Length of treatment
Fig. 7. Percent of children in each treatment group with a score in the normal range (SS or DQ >85) at intake and 1-3 years after intake.

those findings by showing that the largest gains generally occurred in the first year of treatment and in IBT children only, and
that the advantage experienced by IBT children after one year of treatment was maintained throughout the second and third
years of treatment. Indeed, three years after treatment began, mean scores on standardized assessments of cognitive,
language, adaptive, and motor skills were higher for children in the IBT group than they were for children in the eclectic
intervention groups.
At their final assessment, 61% of the children who received 1BT tested within the average range of cognitive functioning,
compared with only 25% of the children who received eclectic treatment. That is, children in the IBT group were more than
twice as likely to attain a cognitive skills score in the normal range as children in the two eclectic intervention groups. Final

3340

App 46

JS.

1 et all Research in Developmental Disabilities 35 (2014.

9'
7
6' , _
4 ,3
1

Change
in score
from
intake to
final
assessment

-

Cognitive _
•
•

A

••

Non-verbal_

Self-help _7!

•
•

•

a lipe

-3344

•

00,,Aetpcfs

—
IGO

••

a

,

.
An.,•••

Li".. 0

we%

—

—
—

—

;-4c
I '

N. •
0 littr3

Ha

413 A
A

.,;
., •••a s

—1!

•

Lc,

ill] 0
I
rip lose 0
A ek
-1
--1 5
A
Ei
.
0
6
-3 _
-30
o
91
1
I
1
1
1
1
I
I
I
I
I
9(
I
I
I °I °I
1• 1
Receptive _
Expressive_
7 ,-,....
Communication -7t
(DQ) _
•
(DQ) —
•
6 1- N..„,
,_
•
A
'•
_
4
-4;
•
—
4 ii
•
m
0
•
3 1-3(
r:48,-)V ••
— CiA ;ii144:
— no ‘,09A: •
1
1;
N4,t
,o
A A
oo N,4 •
❑0
.on
IVA 0
O
r—
-0
• oa A 1
A
6o
A 294.
=
-1 5
Act,
—60
o
❑
te
_
I_
-3
A
-30
0
AL.1
81
4
:
1
1
1
1
1
1
,
1
I
1
1
1
1 ' 1
1
•
Social ___
Composite _ 652'040 55 70 85 100 115
6 - ,..,
(SS) _ 50
(DO) _
51 - N4
•
w
A AP
•
_
__
3
'Nt S
-35
A a ia
t cat
CI
GP
21 r20
.0
ne...... 40
r
IBT
_
—
-5
gr!
4
A
•
%
-1
—10
•
TA A
A iA 0
•S,
71 Final score a 85
0
-2
❑
:r
atio,
ta
Nsr-25
n
A
p
A _
__40 N Score increased by a 15
-41 _

•

_

-5

4,...,

A
-55
10 25 40 55 70 85 100 1'5 25 40 55 70 85 100 115
Score at intake

Fig. 8. Scores for individual children on each measure, plotted as a function of the value at intake along the x-axis, and the change from intake to Year 3 (or
Year 2 if the child was not assessed at Year 3) along they-axis. Scores of children in the IBT group are shown as solid circles, scores of children in the AP group
are represented by open triangles, and scores of children in the GP group are shown as open squares. Final scores in the normal range (>85) appear in the
dark gray region of each panel, and final scores <85 but at least 15 points higher than at intake (i.e., above the dotted line in each panel) appear in the light
gray region of each panel.

assessment scores on other measures showed similar patterns. Compared to children who received eclectic interventions,
children who received IBT were twice as likely to score in the normal range on the final assessment of nonverbal skills,
approximately three times as likely to score in the normal range on the final assessments of communication and adaptive
skills, approximately four times as likely to score within the normal range on the final assessments of receptive and
expressive communication skills, and almost six times more likely to have a final adaptive behavior skills composite score
within the normal range.
As they were at Year 1, average outcomes at Years 2 and 3 were worse for children in the AP and GP groups than for
children in the IBT group, while average outcomes for the two eclectic intervention groups did not differ significantly from
each other. The mean score for the GP group was higher than the mean score for the AP group on some measures in some
years, but there were no statistically reliable differences between outcomes produced by the two eclectic treatments.
Additionally, both eclectic treatments performed substantially worse than IBT in producing standardized test scores in the
normal range of functioning, and neither eclectic treatment was more likely than the other to produce a favorable outcome.
The results for the AP intervention might be surprising to some readers because that intervention was intensive and designed
specifically for children with autism. Despite these features, no child from the AP group scored in the normal range on the
final assessment of adaptive functioning. In contrast, more than one-third of the children in the IBT group achieved a normalrange score on the final assessment of adaptive skills. These findings are especially important given the critical contribution
of adaptive skills to independent functioning throughout the lifespan.
Although scores in the normal range are certainly desirable outcomes, so are other clinically significant improvements.
Changes in test scores that do not reach the normal range may nonetheless reflect the acquisition of many skills that enhance
independent functioning, which in turn produces economic savings due to reduced need for specialized services (Jacobson,
Mulick, & Green, 1998; Motiwala, Gupta, Lilly, Ungar, & Coyte, 2006). About one-third of the children in this study who
received AP or GP interventions had final scores on tests of cognitive or adaptive skills that were at least 15 points higher than

J.S. h

App 47

et al. / Research in Developmental Disabilities 35 (2014)

Baseline

,344

Year 2

Year 3

47.7%

50.4%

52.3%

49.6%

3341

7.4%

IBT
children

92.6%

■
Score is 85
or higher

MEM

15.2%

15.0%

16.3%

Score is
below 85

AP and GP
children

92.9%

84.8%

85.0%

83.8%

Baseline

Year 1

Year 2

Year 3

Fig. 9. Percentages of children who scored in the normal range (gray region) or below 85 (white region) at each assessment time, and who transitioned from
one of those ranges to another on successive assessments. Horizontal arrows indicate maintenance of scores in the normal range (gray arrows) or in the
below-normal range (white arrows). Upward-slanting arrows indicate changes from below-normal to normal-range scores, and downward-slanting arrows
represent changes from normal to below-normal range scores.

their intake scores, suggesting that those interventions may produce some benefit for some children with autism. Children in
the IBT group, however, were more than twice as likely as children in the other two groups to show changes of that
magnitude over the course of treatment. Differences on most other measures were somewhat smaller but equally clear and
in the same direction. Motor skills scores were an exception, as they were somewhat more likely to increase by at least 15
points among children in the AP and GP groups than among children in the IBT group. However, that difference was not
statistically significant.
The multiple regression approach we used for most of our statistical analyses accommodated individual differences (e.g.,
in parental education and age at diagnosis), but of course those analyses focused on group data. Group comparisons are
appropriate for determining which of two or more treatments is generally most effective; however, we urge caution in
relying exclusively on group statistics to prognosticate about individual children. It is clear from the individual data
presented here (Figs. 2-6) that not all children within each treatment group responded similarly to that treatment. Research
correlating child characteristics with differential outcomes might help identify categories of children who are more or less
likely to respond well to a given treatment on average, but more precise information about the effects of treatments on
individuals with varying characteristics could be gleaned from studies using single-case research designs, perhaps in
combination with elements of between-groups designs (Green, 2008; Guyatt et al., 2008; Larson, 1990; Morgan & Morgan,
2001; Powers et al., 2006). Research methods that focus on changes in individual behavior with treatment could also enable
analyses of the differential effectiveness of elements of multicomponent treatments like IBT (e.g., Heyvaert, Maes, Van den
Noortgate, Kuppens, & Onghena, 2012) as well as treatment targets that function as behavioral cusps to bring the individual's
behavior into contact with new contingencies of reinforcement, thereby producing even more widespread behavior change
(Rosales-Ruiz & Baer, 1997).
4.2. Changes over the course of treatment

In this study, the changes that occurred during the first year of treatment were generally maintained throughout the
second and third years for children in all three groups. Group mean scores in Years 2 and 3 tended to remain within ±5 points
of the corresponding group means at the end of Year 1, with the large differences in favor of IBT after one year largely persisting
throughout Years 2 and 3. Other studies comparing IBT with eclectic treatment over similar time periods have produced similar
findings (Cohen et al., 2006; Eikeseth et al., 2007). One difference is that the 1BT advantage was larger after a mean of 31.4 months
of treatment than after one year of treatment in the study by Eikeseth et al. (2007). That may be related to the fact that the children
studied by Eikeseth et al. were older when they started treatment than the children in our study and the study by Cohen et al.

3342

App 48

' et al./Research in Developmental Disabilities 35 (2014.

3344

(2006), but it might also reflect differences in other child characteristics or the treatment packages (e.g., variations in targets,
priorities, procedures, etc.).
Measures of some skill domains in our study deviated from the trends just described. For instance, the mean motor and
self-help scores for the IBT group were higher than those for either eclectic intervention group at the end of Year 1, but the
differences between the final group means on those measures were not statistically significant. That was at least partly due
to reduced sample sizes at Year 3. It should also be reiterated that motor skills were not delayed substantially for any of the
groups at intake, and motor and self-help skills were not among the highest priority treatment targets for many of the
children who received IBT.
The fact that most of the largest improvements in the IBT group occurred after one year of treatment might lead some to
conclude that there is little benefit in extending treatment beyond the first year. Such a conclusion might be warranted if
there were compelling evidence to support predictions that improvements would persist if treatment were to end after one
year. Our study cannot speak to that hypothesis, because none of the children in the IBT group received just one year of
treatment. Nor are we aware of other studies that have tested that hypothesis directly. One group of researchers did,
however, evaluate the performances of 23 young children with autism two years after they had completed a 2-year course of
IBT (Kovshoff, Hastings, & Remington, 2011). They found that a subgroup of 9 children who had statistically significant
increases on tests of cognitive and adaptive skills during treatment maintained those gains after two years with no
treatment, but the scores of the other 14 children decreased significantly. Analyses showed that the first subgroup had
higher baseline scores and received more intensive treatment than did the second subgroup. Although limited, those
findings corroborate our clinical observations that terminating IBT prematurely can be detrimental to many children with
autism.
Ending IBT after one year might also be justified if it were reasonably certain that extending treatment would be unlikely
to produce further clinically significant gains. Again, we have found no compelling evidence to support that prediction. On
the contrary, some children in our IBT group made marked improvements in Years 2 and 3 (e.g., see the upward-pointing
arrows in Fig. 9). Other researchers have also documented meaningful improvements occurring in the second, third, and
fourth year of IBT (e.g., Cohen et al., 2006; Eikeseth et al., 2007; Sallows & Graupner, 2005). We speculate that given the
pervasive and substantial skill deficits exhibited by many young children with autism, one and even two years of IBT is not
likely to produce gains that will persist over long periods of time without specialized intervention. The first 1-2 years of IBT
are typically focused on building many basic, foundational skills. Further intensive treatment seems essential for solidifying
those repertoires and for building the more complex social, language, and academic skills required to function successfully in
regular school and community settings.
4.3. Limitations
Participants in this study were not randomly assigned to groups; instead, treatment assignments primarily reflected
parental preferences and education team decisions. In Howard et al. (2005), however, we demonstrated empirically that the
three groups were functionally equivalent at intake. The only statistically significant group differences were in parental
education (parents of children in the (BT group averaged one year more of education than parents of children in the AP and
GP groups) and age at diagnosis (children in the IBT group were diagnosed an average of 5 months earlier than children in the
GP group, who in turn were diagnosed an average of 4 months earlier than children in the AP group). Both variables were
controlled for statistically in subsequent data analyses, though control was rarely necessary because individual scores
almost never covaried with parental education or age at diagnosis.
Another limitation is that some children switched between the AP and GP treatments during Years 2 and 3. We have no
information about the reasons for those shifts, but it would be unusual for an education team to recommend moving a child
out of an effective program and for the child's family to approve such a change. Therefore, we speculate that the changes may
speak to the lack of efficacy of either eclectic approach. The data showed that neither eclectic treatment reliably produced
meaningful benefits, and when children switched from one eclectic treatment to the other, there was rarely any
improvement with the new treatment. These findings imply that the two eclectic treatments were essentially
indistinguishable in their efficacy, and that our analyses and conclusions were not compromised by the fact that some
children switched from one eclectic treatment to the other.
The impact of mortality on our findings should be considered. Virtually all children were assessed in all domains at intake
and Year 1, but participation rates were lower in subsequent years. The reduced sample sizes forced us to combine data from
Years 2 and 3 to analyze outcomes for the nonverbal intelligence, receptive language, expressive language, and motor skills
measures. That precluded mapping developmental trajectories for those domains as precisely as we did for other domains. It
is important to note, however, that mortality does not seem to have biased the overall findings. In fact, imputation analyses
suggest that the group differences we observed were not artifacts of mortality; if anything, the advantage of IBT over the
eclectic treatments would likely have been greater if more comprehensive assessment data were available for Years 2 and 3.
The primary limitation of our study may be that there were no measures of the integrity with which any of the treatments
was delivered, as we reported in Howard et al. (2005). Additionally, each treatment comprised a number of components, and
it was not feasible to parse out the contributions of individual components to the outcomes. Nonetheless, our findings
converge with those of other studies in which IBT and a comparison eclectic treatment program. had similar elements,
intensity, and duration (e.g., Cohen et al., 2006; Eikeseth et al., 2007). They add to the growing body of evidence that IBT

J.S.

E

App 49
tt al./ Research in Developmental Disabilities 35 (2014)

344

3343

produces significantly larger increases on standardized measures of cognitive and adaptive functioning than other
treatments. Although those measures do not capture all repertoires that may be influenced by intervention, they are
considered more objective than indices like classroom placement, and correlate positively with other measures of overall
and long-term functioning. Thus, there is general consensus among autism researchers that protocols for evaluating
treatment effects must include certain standardized instruments (e.g., Eldevik et al., 2009, 2010; Fein et al., 2013; Martin,
Bibby, Mudford, & Eikseth, 2003; Mundy, 1993; Wolery & Garfinkle, 2002), Collectively, this study and others that used such
protocols clearly indicate that IBT is an effective, evidence-based treatment for young children diagnosed with autism.
Acknowledgements
This study was supported in part by Valley Mountain Regional Center and California State University, Stanislaus. We also
wish to express our appreciation to Jessica Bailey for her assistance.
Appendix A. Supplementary data
Supplementary data associated with this article can be found, in the online version, at http://dx.doi.org/10.1016/
j.ridd.2014.08.021.
References
Bondy, A. S., & Frost, L A. (1994). The picture exchange communication system: Training manual. Cherry Hill, NJ: Pyramid.
Cohen, H., Amerine-Dickens, M., & Smith, T. (2006). Early intensive behavioral treatment: Replication of the UCLA model in a community setting. Developmental
and Behavioral Pediatrics, 27, S145-S155.
Delmolino, L M. (2006). Brief report: Use of DQ for estimating cognitive ability in young children with autism. foumal of Autism and Developmental Disorders, 36,
959-963.
Eikeseth, S. (2009). Outcome of comprehensive psycho-educational interventions for young children with autism. Research in Developmental Disabilities, 30,
158-178.
Eikeseth, S., Smith, T., Jahr, E., & Eldevik, S. (2002). Intensive behavioral treatment at school for 4- to 7-year-old children with autism: A 1-year comparison
controlled study. Behavior Modification, 2002, 49-68.
Eikeseth, S., Smith, T., Jahr, E., & Eldevik, S. (2007). Outcome for children with autism who began intensive behavioral treatment between ages 4 and 7: A
comparison controlled study. Behavior Modification, 31, 264-278.
Eldevik, S., Eikeseth, S.Jahr, E., & Smith, T. (2006). Effects of low-intensity behavioral treatment for children with autism and mental retardation.Journal of Autism
and Developmental Disorders, 36, 211-224.
Eldevik, S., Hastings, R. P., Hughes, J. C., Jahr, E., Eikeseth, S., & Cross, S. (2009). Meta-analysis of early intensive behavioral intervention for children with autism.
Joumal of Clinical Child Er Adolescent Psychology, 38, 439-450.
Eldevik, S., Hastings, R. P., Hughes, J. C., Jahr, E., Eikeseth, S., & Cross, S. (2010). Using participant data to extend the evidence base for intensive behavioral
intervention for children with autism. American Journal on Intellectual and Developmental Disabilities, 115, 381-405.
Eldevik, S., Hastings, R. P., Jahr, E., & Hughes, J. C. (2012). Outcomes of behavioral intervention for children with autism in mainstream pre-school settings. Journal
of Autism and Developmental Disorders, 42, 210-220.
Fein, D., Barton, M., Eigsti, I., Kelley, E., Naigles, L, Schultz, R T., & Tyson, K. (2013). Optimal outcome in individuals with a history of autism. Journal of Child
Psychology and Psychiatry, 54, 195-205.
Fischer, J. L, Howard, J. S., Sparkman, C. R., & Moore, A. G. (2009). Establishing generalized syntactical responding in young children with autism. Research in Autism
Spectrum Disorders, 4, 76-88.
Green, G. (2008). Single-case research methods for evaluating treatments for ASD. In S. C. Luce, D. S. Mandell, C. Mazefsky, & W. Seibert (Eds.), Autism in
Pennsylvania: A symposium issue of the Speaker's Journal of Pennsylvania Policy (pp. 119-132). Harrisburg, PA: Legislative Office for Research Liaison,
Pennsylvania House of Representatives.
Green, G. (2011). Early intensive behavior analytic intervention for autism spectrum disorders. In E. Mayville & J. Mulick (Eds.), Behavioral foundations of effective
autism treatment (pp. 183-199). Cornwall-on-Hudson, NY: Sloan Publishing.
Green, G., Brennan, L C., & Fein, D. (2002). Intensive behavioral treatment for a toddler at high risk for autism. Behavior Modification, 26, 69-102.
Guyatt, G., Rennie, D., Meade, M., & Cook, D. J. (2008). Users' guides to the medical literature: A manual for evidence-based clinical practice (2nd ed.). New York:
McGraw-Hill Professional.
Heyvaert, M., Maes, B., Van den Noortgate, W., Kuppens, S., & Onghena, P. (2012). A multilevel meta-analysis of single-case and small-n research on interventions
for reducing challenging behavior in persons with intellectual disabilities. Research in Developmental Disabilities, 33, 766-780.
Howard, J. S., Sparkman, C. R., Cohen, H. G., Green, G., & Stanislaw, H. (2005). A comparison of intensive behavior analytic and eclectic treatments for young
children with autism. Research in Developmental Disabilities, 26, 359-383.
Jacobson, J. W., Mulick, J. A., & Green, G. (1998). Cost-benefit estimates for early intensive behavioral intervention for young children with autism - General model
and single state case. Behavioral Interventions, 13, 201-226.
Jacobson, N. S., & Truax, P. (1991). Clinical significance: A statistical approach to defining meaningful change in psychotherapy research. Journal of Consulting and
Clinical Psychology, 59, 12-19.
Kovshoff, H., Hastings, R., & Remington, B. (2011). Two-year outcomes for children with autism after the cessation of early intensive behavioral intervention.
Behavior Modification, 35, 427-450.
Larson, E. B. (1990). N-of-1 clinical trials: A technique for improving medical therapeutics. Western Journal of Medicine, 152, 52-56.
Lord, C., & Schopler, E. (1989). The role of age at assessment, developmental level, and test in the stability of intelligence scores in young autistic chi ldren. Journal of
Autism and Developmental Disorders, 19, 483-499.
Lovaas, 0. I. (1987). Behavioral treatment and normal educational and intellectual functioning in young autistic children. Journal of Consulting and Clinical
Psychology, 55, 3-9.
Martin, N., Bibby, P., Mudford, 0. C., & Eikseth, S. (2003). Toward the use of a standardized assessment for young children with autism: Current assessment
practices in the UK. Autism, 7, 321-330.
Morgan, D. L, & Morgan, R. K. (2001). Single-participant research design: Bringing science to managed care. American Psychologist, 56, 119-127.
Motiwala, S. S., Gupta, S., Lilly, M. B., Ungar, W. J., & Coyte, P. C. (2006). The cost-effectiveness of expanding intensive behavioural intervention to all autistic
children in Ontario. Healthcare Policy, 1(2), 135-151.
Mundy, P. (1993). Normal versus high-functioning status in children with autism. American Journal on Mental Retardation, 97, 381-384.
National Autism Center (2009). National standards report. Randolph, MA: National Autism Center.

3344

J.S.

App 50

1 et all Research in DeveTopmental Disabilities 35 (2014,

3344

Powers, S. C., Piazza-Waggoner, C., Jones, J. S., Ferguson, K. S., Daines, C., & Acton, J. D. (2006). Examining clinical trial results with single-subject analysis: An
example involving behavioral and nutrition treatment for young children with cystic fibrosis. Journal of Pediatric Psychology, 31, 574-581.
Reichow, B., & Wolery, M. (2009). Comprehensive synthesis of early intensive behavioral interventions for young children with autism based on the UCLA Young
Autism Project Model. Journal of Autism and Developmental Disorders, 39, 23-41.
Remington, B., Hastings, R. P., Kovshoff, H., Espinosa, F., Jahr, E., Brown, T., & Ward, N. (2007). Early intensive behavioral intervention: Outcomes for children with
autism and their parents after two years. American Journal on Mental Retardation, 112, 418-438.
Rogers, S. J., & Vismara, L A. (2008). Evidence-based comprehensive treatments for early autism. Journal of Clinical Child and Adolescent Psychology, 37, 8-38.
Rosales-Ruiz, J., & Baer, D. M. (1997). Behavioral cusps: A developmental and pragmatic construct for behavioral analysis. Journal of Applied Behavior Analysis, 30,
533-544.
Sallows, G. 0., & Graupner, T. D. (2005). Intensive behavioral treatment for children with autism: Four-year outcome and predictors. American Journal on Mental
Retardation, 110, 417-438.
Schmidt, M. (2008). The Sankey diagram in energy and material flow management Part I: History. Journal of Industrial Ecology, 12, 82-94.
Smith, T., Groen, A. D., & Wynne, J. W. (2000). Randomized trial of intensive early intervention for children with pervasive developmental disorder. American
Journal on Mental Retardation, 105, 269-285.
Wolery, M., & Garfinkle, A. N. (2002). Measures in intervention research with young children who have autism. Journal of Autism and Developmental Disorders, 32,
463-478.
Zachor, D. A., Ben-Itzchak, E., Rabinovich, A., & Lahat, E. (2007). Change in autism core symptoms with intervention. Research in Autism Spectrum Disorders, 1,
304-307.

App 51

Ilititieniitp of the Mate of Retu pork
The State Education Department
State Review Officer
www.sro.nysed.gov

No. 17-008

Application of a STUDENT WITH A DISABILITY, by his
parents, for review of a determination of a hearing officer
relating to the provision of educational services by the Board of
Education of the Shenendehowa Central School District
Appearances:
Ferrara Fiorenza, PC, attorneys for respondent, Susan T. Johns, Esq., of counsel
DECISION
Introduction
This proceeding arises under the Individuals with Disabilities Education Act (IDEA) (20
U.S.C. §§ 1400-1482) and Article 89 of the New York State Education Law. Petitioners (the
parents) appeal from the decision of an impartial hearing officer (1110) which determined that the
educational program and related services recommended by respondent's (the district's) Committee
on Special Education (CSE) for their son for the 2016-17 school year were appropriate. The appeal
must be sustained in part.1
Overview—Administrative Procedures
When a student in New York is eligible for special education services, the IDEA calls for
the creation of an individualized education program (IEP), which is delegated to a local Committee
on Special Education (CSE) that includes, but is not limited to, parents, teachers, a school
psychologist, and a district representative (Educ. Law § 4402; see 20 U.S.C. § 1414[d] [1][A]-[B];
34 CFR 300.320, 300.321; 8 NYCRR 200.3, 200.4[d][2]). If disputes occur between parents and
1 In September 2016, Part 279 of the Practice Regulations were amended, which became effective January 1,
2017, and are applicable to all appeals served upon an opposing party on or after January 1, 2017 (see N.Y. Reg.,
Sept. 28, 2016, at pp. 37-38; N.Y. Reg., June 29, 2016, at pp. 49-52; N.Y. Reg., Jan. 27, 2016, at pp. 24-26).
Although the relevant events at issue in this appeal occurred before the effective date of the 2016 amendments,
the new provisions of Part 279 apply, as the request for review was served upon the opposing party after January
1, 2017; therefore, citations contained in this decision, are to the amended provisions of Part 279 unless otherwise
specified.

App 52

school districts, incorporated among the procedural protections is the opportunity to engage in
mediation, present State complaints, and initiate an impartial due process hearing (20 U.S.C.
§§ 1221e-3, 1415[e]-[f]; Educ. Law § 4404[1]; 34 CFR 300.151-300.152, 300.506, 300.511; 8
NYCRR 200.5[h]-[l]).
New York State has implemented a two-tiered system of administrative review to address
disputed matters between parents and school districts regarding "any matter relating to the
identification, evaluation or educational placement of a student with a disability, or a student
suspected of having a disability, or the provision of a free appropriate public education to such
student" (8 NYCRR 200.5[i][1]; see 20 U.S.C. § 1415[b][6]-[7]; 34 CFR 300.503[a][1]-[2],
300.507[a][1]). First, after an opportunity to engage in a resolution process, the parties appear at
an impartial hearing conducted at the local level before an IHO (Educ. Law § 4404[1][a]; 8
NYCRR 200.5[j]). An IHO typically conducts a trial-type hearing regarding the matters in dispute
in which the parties have the right to be accompanied and advised by counsel and certain other
individuals with special knowledge or training; present evidence and confront, cross-examine, and
compel the attendance of witnesses; prohibit the introduction of any evidence at the hearing that
has not been disclosed five business days before the hearing; and obtain a verbatim record of the
proceeding (20 U.S.C. § 1415[f][2][A], [h][1]-[3]; 34 CFR 300.512[a][1]-[4]; 8 NYCRR
200.5[j][3][v], [vii], [xii]). The IHO must render and transmit a final written decision in the matter
to the parties not later than 45 days after the expiration period or adjusted period for the resolution
process (34 CFR 300.510[b][2], [c], 300.515[a]; 8 NYCRR 200.5[j][5]). A party may seek a
specific extension of time of the 45-day timeline, which the IHO may grant in accordance with
State and federal regulations (34 CFR 300.515[c]; 8 NYCRR 200.5[j][5]). The decision of the
IHO is binding upon both parties unless appealed (Educ. Law § 4404[1]).
A party aggrieved by the decision of an IHO may subsequently appeal to a State Review
Officer (SRO) (Educ. Law § 4404[2]; see 20 U.S.C. § 1415[g][1]; 34 CFR 300.514[b][1]; 8
NYCRR 200.5[k]). The appealing party or parties must identify the findings, conclusions, and
orders of the IHO with which they disagree and indicate the relief that they would like the SRO to
grant (8 NYCRR 279.4[a]). The opposing party is entitled to respond to an appeal or cross-appeal
in an answer (8 NYCRR 279.5). The SRO conducts an impartial review of the IHO's findings,
conclusions, and decision and is required to examine the entire hearing record; ensure that the
procedures at the hearing were consistent with the requirements of due process; seek additional
evidence if necessary; and render an independent decision based upon the hearing record (34 CFR
300.514[b][2]; 8 NYCRR 279.12[a]). The SRO must ensure that a final decision is reached in the
review and that a copy of the decision is mailed to each of the parties not later than 30 days after
the receipt of a request for a review, except that a party may seek a specific extension of time of
the 30-day timeline, which the SRO may grant in accordance with State and federal regulations
(34 CFR 300.515[b], [c]; 8 NYCRR 200.5[k][2]).
III. Facts and Procedural History
In this case, the student first received special education and related services through Early
Intervention Program for approximately one month in late 2012 (see Dist. Ex. 3). The services
terminated because the student moved out of the country (id.). Upon his return to the United States
in February 2014, the parents referred the student to the Committee on Preschool Special

2

App 53

Education (CPSE) for an evaluation (id.; see Dist. Exs. 4; 6 at p. 1; 11 at p. 1).2 After receiving
the parents' consent to evaluate the student in May 2014, a CPSE convened in June 2014 for an
initial eligibility determination meeting and found the student eligible for special education and
related services as a preschool student with a disability (see Joint Ex. 2 at p. 1; Dist. Ex. 11 at pp.
2-4; see generally Dist. Exs. 5-9).3 The June 2014 CPSE recommended that the student receive
special education itinerant teacher (SETT) services and occupational therapy (OT) beginning in
July and August 2014, and recommended the same services for September 2014 through June 2015
(see Joint Ex. 2 at p. 1).4 In August 2014, a CPSE convened to review the student's program (see
Dist. Ex. 15 at p. 1; see generally Dist. Exs. 13-14). The August 2014 CPSE modified the student's
IEP by increasing the frequency of the student's SEIT services for September 2014 through June
2015; the CPSE also recommended a speech-language evaluation of the student (compare Dist.
Ex. 15 at p. 1, with Joint Ex. 2 at p. 1; see Dist. Ex. 16 at p. 1).
Following a speech-language evaluation in September 2014, the CPSE convened for a
reevaluation review (see Dist. 19 at p. 1; see generally Dist. Exs. 17-18). The September 2014
CPSE discontinued the SETT services previously recommended in the August 2014 IEP, and
instead, recommended a 12:1+2 special class placement in a non-integrated setting, speechlanguage therapy services, special transportation, and modified the location where the student
received OT services (compare Dist. Ex. 19 at p. 1, with Dist. Ex. 15 at p. 1; see generally Dist.
Exs. 20-21). Pursuant to the modifications, the student was placed in a State-approved nonintegrated preschool setting (preschool) on or about October 1, 2014 (see Tr. pp. 466-67; see
generally Dist. Ex. 23).
In March 2015, the CPSE convened for a program review (see Dist. Ex. 24 at p. 1). At that
time, the March 2015 CPSE modified the student's program from a 12:1+2 special class placement
in a non-integrated setting to a recommendation that the student attend a 12:1+2 special class
placement in an integrated setting beginning at the end of March 2015 (compare Dist. Ex. 24 at p.

2 The parents indicated that when the student returned to the United States, he did not understand English and the
"only language he c[ould] understand or express himself in" was his native language (Dist. Ex. 3). At that time,
the parents reported that the student could not, however, "say a full sentence" (k1.).
3 According to a May 2014 psychological evaluation report, at home, one parent spoke to the student primarily in
English, while the other parent spoke to the student primarily in his native language (see Dist. Ex. 6 at p. 1). In
addition, the student attended a daycare facility Monday through Friday where he was "exposed solely to English"

Shortly after the June 2014 CPSE convened, the student went to an appointment with a developmental
pediatrician (see Dist. Exs. 11 at p. 1; 12 at p. 1). In conjunction with the appointment, the parents received
"Patient Instructions," which "encouraged [the CPSE] to consider [the] diagnosis of autism spectrum disorder in
planning for educational supports" for the student (Dist. Ex. 12 at p. 1). The instructions sheet further noted that
"[c]onsideration for center-based programming [was] indicated in the Fall" (id ). The remainder of document
included information from the American Academy of Pediatrics; common questions about autism spectrum
disorders; internet website addresses; and information about a variety of intervention services available,
including: applied behavior analysis (ABA); "Early Start Denver Model"; "Treatment and Education of Autistic
and Related Communication Handicapped Children" (TEACCH); the "Developmental, Individual Difference,
Relationship-based" (DIR) model; the "Social Communication, Emotional Regulation, and Transactional
Support" (SCERTS) model; and the "Relationship Development Intervention" (RDI) model Gil at pp. 1-3).

3

App 54

1, with Dist. Ex. 19 at p. 1; see generally Dist. Exs. 23; 25-26).5 In the meeting minutes, the CPSE
noted that the student "had been visiting an integrated classroom" for approximately one month,
and he enjoyed "interacting with other students" and "produc[ed] more language in th[at] setting"
(Dist. Ex. 26 at pp. 1-2). The meeting minutes also reflected that the student would be referred to
the CSE and that he would receive a 12-month school year program for summer 2015 OA at pp.
1, 5-8; see also Dist. Ex. 25 at p. 1).
On May 19, 2015, a subcommittee of the CSE (CSE subcommittee) convened to conduct
a reevaluation of the student's transition from receiving CPSE (preschool) services to receiving
CSE (school-age) services and to develop an IEP for the 2015-16 school year (kindergarten) (see
Dist. Ex. 28 at p. 1; see generally Dist. Ex. 27). Finding the student eligible to receive special
education and related services as a student with autism, the May 2015 CSE recommended that, in
addition to participating with his nondisabled kindergarten peers in the "general education setting
as appropriate,"6 the student would attend a daily 12:1+1 special class placement ("Connections")
for English language arts (1.5 hours per day), mathematics (45 minutes per day), and "[a]ll [s]chool
settings" (15 minutes per day) (Dist. Ex. 28 at pp. 7, 9).7. 8 The May 2015 CSE also recommended
one 90-minute session per week of direct and indirect consultant teacher services for social studies
and science, as well as the following related services: six 30-minute sessions per month of speechlanguage therapy in a small group, three 30-minute sessions per month of individual speechlanguage therapy, three 30-minute sessions per month of OT in a small group, and three 30-minute
sessions per month of individual OT (id. at pp. 7-8). In addition, the May 2015 CSE recommended
supplementary aids and services, program modifications, and accommodations, such as a daily
sensory program, modified assignments, refocusing and redirection, and the services of a shared
aide (3:1, three hours per day) (iA at p. 8).9
In September 2015, the student began attending a morning kindergarten session and the
12:1+1 special class placement in the afternoon (see Tr. pp. 466-67; Dist. Ex. 51).1° By October
Although the meeting minutes indicated the CPSE recommended moving the student to an 8:1+1 special class
placement in an integrated setting, the March 2015 IEP and the corresponding prior written notice both reflected
a 12:1+2 special class placement recommendation (compare Dist. Ex. 26 at p. 1, with Dist. Ex. 24 at p. 1, and
Dist. Ex. 25 at p. 1).
5

6 Nondisabled students in the district's general education setting attended either a morning or afternoon
kindergarten session for approximately 2 hours and 40 minutes per day (see Tr. pp. 466, 517).
7 The student's eligibility for special education programs and related services as a student with autism is not in
dispute (see 34 CFR 300.8[c][1]; 8 NYCRR 200.1[zz][1]).
8 In

the hearing record and within the May 2015 IEP, the special class placement recommended in the May 2015
IEP was also referred to as "Connections" (Dist. Ex. 28 at p. 7; see, e.g., Tr. pp. 465-66).

A 2014-15 school year progress report reflected that by June 2015, the student achieved approximately 5 out of
the 9 total annual goals included on the September 2014 and March 2015 CPSE IEPs, and achieved approximately
8 out of the 10 total corresponding short-term objectives (see generally Dist. Ex. 29).

9

At the impartial hearing, the district special education teacher of the student's 12:1+1 special class placement
for the 2015-16 school year testified that the classroom was staffed with one teacher and four aides and contained
a total of four students (see Tr. pp. 201, 204, 207-08, 211).
10

4

App 55

13, 2015, the parents voiced concerns about the student's placement and requested a CSE meeting
(see Dist. Ex. 34 at p. 1).11 On October 19, 2015, the parents met with district staff for a "CSE
pre-meeting;" the next day, on October 20, 2015, the parents executed a due process complaint
notice (see Tr. pp. 217, 219, 224-25, 228-29; Dist. Exs. 30; 31 at pp. 1-7).
On October 22, 2015, a CSE subcommittee convened pursuant to the parents' request for a
meeting (see Dist. Ex. 32 at p. 1; see also Dist. Ex. 34 at p. 6). Although the CSE subcommittee
ultimately rejected the parents' request to enroll the student in his preschool program because the
student was "making progress in his current program," the CSE subcommittee agreed to "followup" with the student's preschool program and reconvene another meeting (Dist. Ex. 34 at pp. 6, 89, 11; see Dist. Exs. 30; 38 at pp. 1-7).12, 13
On or about November 10, 2015, the parents executed a second due process complaint
notice—similar to the due process compliant notice executed on October 20, 2015—that
documented their concerns about the student's program, and requested, as relief, that the district
enroll the student at his preschool program "under the CPSE" (compare Dist. Ex. 31 at pp. 1-3, 7,
with Dist. Ex. 37 at pp. 1-3, 7). On November 23, 2015, the parties met for a resolution meeting;
at that time, the parties resolved the parents' claims (see Dist. Ex. 39). According to the resolution
agreement, the district agreed to provide special education services to the student for the remainder
of the 2015-16 school year "as a student eligible to attend kindergarten [but] who [was] withheld
from kindergarten at the discretion of his parents" (Dist. Ex. 39; see Dist. Ex. 33 at p. 1).
Specifically, the district agreed to provide the student with the following special education services
beginning on November 30, 2015 at the student's preschool: five 30-minute sessions per week of
11 At the impartial hearing, the district director of special education (director) testified that in September or
October 2015, the parents approached her with concerns about the student's program (see Tr. pp. 463, 465-67).
She testified that the parents wanted the student to have an "ABA program" and to return to the preschool program
he attended during the 2014-15 school year (Tr. pp. 465-68).
12 The CSE subcommittee also recommended that the district administer the "NYSITELL" evaluation to the
student (Dist. Ex. 34 at p. 8). Although not explained in the hearing record, the acronym "NYSITELL" typically
refers to the "New York State Identification Test for English Language Learners"
(http://www.p12.nysed.gov/assessment/nysitell//). The NYSITELL evaluation assesses the "English language
level of new students whose home or primary language is other than English," and the evaluation results determine
if the student is "entitled to receive English Language Learner (ELL) services and will determine the level of
English language support" (http://www.nysed.gov/bilingual-ed/parents/nysitell-and-nyseslat-parent-guides). The
"New York State English as a Second Language Achievement Test" (NYSESLAT) annually assesses the "English
language proficiency level of ELLs" identified through the NYSITELL (id.). Upon review of the evidence in the
hearing record, it does not appear that the district followed through on the recommendation to conduct the
NYSITELL (see generally Tr. pp. 1-1442; Dist. Exs. 2-9; 11-51; Parent Exs. H; JJ; M-N; IHO Exs. 3-7; Joint
Exs. 1; 10).
13 At the impartial hearing, the director testified that the district could not legally agree to recommend returning
the student to his preschool program as a preschool student with a disability because, at that time, he was five
years old and thus, characterized as a school-aged student see Tr. pp. 467-68, 472-74). However, the district
also could not require the student to attend kindergarten because, as a five year old student, he was not yet
considered to be of compulsory school-age attendance under State law (see N.Y. Educ. Law § 3205[1][a]
[requiring students aged 6 through 16 to attend "full time instruction"]; see also N.Y. Educ. Law § 3202[1]
[entitling students aged 5 through 21, who have "not received a high school diploma," to attend public schools]).

5

App 56

resource room, two 30-minute sessions per week of speech-language therapy in a small group, one
30-minute session per week of individual speech-language therapy, one 30-minute session per
week of OT in a small group, one 30-minute session per week of individual OT, and transportation
services (id.).14 Beginning in December 2015, the student returned to the preschool, where he
remained for the rest of the 2015-16 school year and received special education services as agreed
upon by the parties at the resolution meeting (see generally Dist. Exs. 39-44).
On April 9, 2016, in preparation for the student's upcoming annual review, the district
special education teacher of the student's 12:1+1 special class placement for the 2015-16 school
year conducted a classroom observation of the student at his preschool along with the "school
psychologist and the speech therapist" (see Tr. pp. 238-39; Dist. Ex. 44 at p. 1).
On May 20, 2016, the parents returned to the student's developmental pediatrician to
discuss "options for programming" (see Parent Ex. JJ at p. 1). The report generated as a result of
that visit indicated that the student made "significant progress" in his preschool setting and that he
"responded to the [ABA] approach in a strong manner and improved in socialization and language
in particular" ad j. During the visit, the pediatrician discussed "general interventions for autism
in the academic arena" with the parents (A.). Given the student's continued difficulties in
communication and his "level of autism spectrum disorder," the report noted that "continued direct
services [were] important for him," and it was "highly appropriate that the central part of his
intervention should consider a comprehensive [ABA] approach," which "might include discrete
trial training and other documented methods using ABA" (id.). The report also noted that in light
of the student's "strong response to this approach in the past it [was] appropriate to consider this
as possibly his most successful intervention in the future" (id.).
On June 7, 2016, the parents sent an e-mail to the director, which inquired about whether
the director had an opportunity to review articles forwarded to her about interventions for students
with autism and which further indicated that the parents decided to enroll the student at his current
preschool for summer 2016 (see Joint Ex. 1 at pp. 6-7). In response, the director sent an e-mail on
June 13, 2016, noting that "[a]s with every methodology, there [was] not one single methodology
that me[t] the needs of every child. Each child, based on their development levels and individual
goals, require[d] an individualized approach to support their learning" (A at p. 7).
At the impartial hearing, the director testified that an initial CSE meeting had been held in
the "spring of 2016" to develop the student's IEP for the 2016-17 school year, but at that time, the
CSE could not reach a "consensus" (Tr. pp. 478-79; see also Dist. Ex. 46 at p. 8). On June 14,
2016, a CSE reconvened pursuant to the parents' request and to complete the student's annual
review and development of the IEP for the 2016-17 school year (kindergarten) (see Dist. Exs. 45
at pp. 1, 8; 46 at pp. 1, 6). Finding that the student remained eligible to receive special education
and related services as a student with autism, the June 2016 CSE recommended a 12-month school
year program, which consisted of a 12:1+1 special class placement in a non-integrated setting,
along with one 30-minute session per week of speech-language therapy, for the months of July
14 At the impartial hearing, the director testified that although the IEP entered into evidence as District Exhibit 33
indicated a meeting date of "October 22, 2015," the IEP was not generated on that date (compare Dist. Ex. 33 at
p. 1, with Tr. pp. 471-73). Rather, District Exhibit 33 represented the IEP agreed upon by the parties as a result
of the resolution meeting (compare Dist. Ex. 33 at p. 1, with Tr. p. 472, and Dist. Ex. 39).

6

App 57

and August 2016 (see Dist. Ex. 45 at pp. 1, 8-9). For September 2016 through June 2017, the CSE
recommended a 12:1 special class placement ("Connections" program, two hours per day), three
30-minute sessions per month of speech-language therapy in a small group (therapy room), three
30-minute sessions per month of individual speech-language therapy (therapy room), three 30minute sessions per month of OT in a small group (therapy room), one 30-minute session per
month of individual OT (therapy room), and three 30-minute sessions per month of speechlanguage therapy in a small group (classroom) (id. at pp. 1, 7). The June 2016 CSE also
recommended the following as supplementary aids and services, program modifications, and
accommodations: positive reinforcement, a visual schedule ("in kindergarten and special education
classes"), refocusing and redirection, and "parent training" (id. at pp. 7-8). In addition, the June
2016 CSE recommended the provision of an educational consultant as supports for school
personnel on behalf of the student, and further noted in the IEP that "[t]raining will be provided
on Autism and Applied Behavior Analysis to staff' (id. at p. 8).15
After the June 2016 CSE meeting, the parents continued to correspond with the director
about the student's IEP and program via e-mail, including inquiries into whether the new special
education teacher hired by the district would also be a Board Certified Behavior Analyst (BCBA),
and if so, whether that information would be documented in the student's IEP (see Joint Ex. 1 at
pp. 7-20). In addition, the parents forwarded specific language to the director for "proposed
management needs," which the parents wanted to be incorporated into the student's IEP (id. at pp.
8-18). The parents also provided the director with information regarding the organization and set
up of "comprehensive ABA classrooms at public schools" (id. at pp. 18-20).
A. Due Process Complaint Notice
By due process complaint notice dated August 5, 2016, the parents alleged that after the
student attended the district's recommended program in fall 2015, "it became completely clear that
[the student] could not take advantage of an education not grounded in the principles of [ABA]
[and] more specifically it was unconditionally clear that [the student] needed a comprehensive
ABA program in order to make progress" (Joint Ex. 1 at p. 2 [emphasis in original]). Next, the
parents described a "number of changes" they observed in the student while he attended the
district's recommended program in fall 2015, which the parents characterized as a "steady decline"
in the student's communication skills, levels of engagement, and behavior (id. at pp. 2-4).
According to the parents, the student only began to make steady progress after his reenrollment in
preschool as a general education student in December 2015 through August 2016 (id. at p. 5).
15 The director sent an e-mail to the parents on June 20, 2016, with an attached document that described the
"Connections" program (Joint Ex. 1 at pp. 7-8; see generally Parent Ex. H). The "Connections" program was
designed to provide "direct social skill instruction and academic instruction for students with Autism or social
delays" (Joint Ex. 1 at p. 8). Kindergarten students received a "full kindergarten program in the mainstream
setting, with reteaching, related services, and supplemental instruction in a small class in addition to the regular
[half] day kindergarten program" (id.). "Connections" included a "classroom behavior program" with "[b]uilt in
sensory breaks" and "[e]arned choice time"; in addition, the "Connections" program incorporated several "[blest
practices . . . in all instruction and support such as visual schedules, visual cues, reduced language demands, tasks
broken down into simple step-by-step directives, [and] direct instruction of social skills" (id.). At the impartial
hearing, the district entered District Exhibit 50 as a description of the "Connections K-5 Program," which differed
from the document forwarded to the parents via e-mail after the June 2016 CSE meeting (compare Dist. Ex. 50,
with Joint Ex. 1 at pp. 7-8).

7

App 58

More specifically, the parents attributed the student's progress to the "comprehensive ABA
program" offered at the preschool, as well as to their own provision of discrete trial training to the
student at home (id.).
Next, the parents incorporated several e-mail communications with the district to illustrate
more fully the "rationale and much of the research-backed explanations for why this due process
ha[d] become essential" and further, to demonstrate "how the solutions offered by the school
district f[ell] short of providing a complete solution to the problem" (Joint Ex. 1 at pp. 5-20). The
parents then specified what they hoped to accomplish, namely, that the district "set up a
comprehensive integrated [ABA] classroom (preferably an integrated one) and that this be written
in the Management Needs Section of [the student's] IEP" (id. at p. 6). Within the e-mail
communications with the district, the parents set forth specific language to be included in the
management needs section of the student's IEP, as well as specific instructions describing how to
set up and organize a comprehensive ABA classroom at the district OA at pp. 6-20, 23-26). The
parents also indicated that despite "months of discussions and requests," the district did not agree
to "include the essential elements of what [they] fe[lt] [was] necessary to put in [the student's] IEP"
(id. at p. 23). The parents then identified the following as the "most important" elements to include
in the student's IEP: "all people with regular (weekly) interaction with [the student] would be
trained in both Discrete Trial Training and Function Based Intervention," and the district use an
"established Behavioral Analysis Data Collection Platform with templates" for data analysis (iA
at pp. 23-26). The parents then indicated that placing "these elements in the IEP" afforded them
the opportunity to "hold [the district] [a]ccountable to deliver on [the student's] special education
needs" (id. at p. 23). The parents also indicated that, generally, the district responded to their
requests to incorporate particular "elements" into the student's IEP with statements that it did not
put "ABA terminology into IEP[s]" (id.; see Joint Ex. 1 at p. 7). Next, the parents then included
copies of several publications to further explain the "risks associated with having improperly
trained staff' (Joint Ex. 1 at pp. 26-50). Moreover, the parents articulated that the student's
"success at [the preschool] in an integrated ABA classroom and his success . . . in other settings
that include[d] typically developing children" indicated that the district was "trying to force fit an
inappropriate restrictive program . . . because [the district] d[id] not presently have an acceptable
program or solution" to meet the student's "developmental and behavioral needs" (id. at p. 44).
Finally, as their first proposed solution, the parents requested the following: classify the
student as "not being ready for Kindergarten," return the student to the preschool setting as a
general education student receiving services for the 2016-17 school year, and provide
transportation services similar to the manner they were provided to the student during the 2015-16
school year (Joint Ex. 1 at pp. 50-52). As a second proposed solution, the parents requested that
the district "establish an integrated ABA classroom, as modeled after the one provided by [the
preschool]," that would meet the specified requirements outlined thereafter (iA at pp. 52-53). For
example, the parents indicated that the proposed ABA classroom must offer a full-day program,
and that all therapists, special education teachers, and the school principal associated with the
proposed classroom must be trained in function based intervention and discrete trial training OA
at p. 52). The parents also required that the "lead teacher" of the proposed ABA classroom must
"at a minimum" hold BCBA credentials, and further, that all assistants and therapists receive
training in ABA interventions (i.e., function based intervention, discrete trial training, ignore and
redirect, data collection and entry into software platforms, and "3-Step Prompting to Achieve
Compliance") (id. at pp. 52-23). The parents further proposed that the district acquire "all
8

App 59

necessary items necessary to set up an ABA classroom" and that the district maintain a "minimum
budget" available to the classroom to acquire those items OA at p. 53).16
B. Impartial Hearing Officer Decision
On October 5, 2016, the parties proceeded to an impartial hearing, which concluded on
October 26, 2016 after five days of proceedings (see Tr. pp. 1-1442).17 In a decision dated
December 30, 2016, the IHO concluded that the district offered the student a FAPE for the 201617 school year (see IHO Decision at pp. 10-16).18 Initially, the IHO found that the parents did not
dispute either the student's eligibility category of autism or the June 2016 CSE's recommendation
of a general education kindergarten class placement (see IHO Decision at p. 10). The IHO
discerned, however, that the parents contested the June 2016 CSE's decision to recommend a 12:1
special class placement ("Connections"), and they preferred that the student attend a "[morning]
and [afternoon] kindergarten program with special education services [ABA]" (i). After reciting
the present levels of performance describing the student in the June 2016 IEP and the applicable
legal standards, the IHO found no procedural violations committed by the district (id. at pp. 1013). The 1110 noted that the parents attended all CPSE and CSE meetings, they had the opportunity
to participate in the decision-making process, and they contributed to the development of the
student's IEP (id. at p. 13). Additionally, the IHO indicated that the parents "influenced the CSE
in adding an ABA specialist to provide training and support to the Connections program" (id.).
Upon review of the information provided to the CSE to develop the June 2016 IEP, the IHO found
that the recommendations of a "general education kindergarten and the Connections program"
provided the student with "personalized instruction with sufficient support services to benefit
educationally from that instruction," which satisfied both the "Rowley requirement" and the "least
restrictive requirement [LRE] of IDEA" OA at p. 14).
Next, the IHO determined that the June 2016 IEP was "likely to produce progress, not
regression and afford[ed] the student with an opportunity for greater than trivial advancement"
(1110 Decision at pp. 14-15). In particular, the IHO found that the student would receive
"specialized instruction in the Connections program," and considering the student's "short attention
span and distractibility," the "Connections program" would also provide the student with the "best
environment for direct instruction" in mathematics, reading, and writing (id. at p. 15). In addition,
the IHO indicated that the district would implement discrete trial training with the student's annual
goals as the "focal point" and that "ABA techniques would be utilized in the classroom as well as
strategies from the National Autism Center" (id.). The 1110 also indicated that the parents'
In August 2016, the district contracted with a BCBA to provide the education consult services recommended
in the June 2016 IEP (see Tr. pp. 325-38; Dist. Ex. 45 at p. 8). On September 10, 2016, the BCBA visited the
district's recommended placement for the student for the 2016-17 school year and drafted a "Consult Report" with
detailed recommendations for the student's program (see generally Dist. Ex. 49).
16

" At the time of the impartial hearing, the student was not enrolled in either a public or nonpublic school; rather,
the parents provided "home schooling" to the student for approximately five hours per day during the week and
eight to nine hours per day on weekends, and the student attended "daycare" for approximately four hours per day
(Tr. pp. 20-22).
The cover page of the IHO's decision reflected a date of "December 30, 2016"; however, it appears that the
IHO mistakenly dated the final page of the decision as "December 30, 2015" (compare IHO Decision at p. 1, with
IHO Decision at p. 17).
18

9

App 60

"concerns with the use of ABA in the classroom should be alleviated by the use of an ABA
specialist" with "BCBA credentials," and by the district special education teacher's certification in
discrete trial training (id.). After noting that the student's "greatest gains" in preschool occurred in
the areas of pragmatic speech and social skills, the IHO indicated that the annual goals in the June
2016 IEP were "'reasonably calculated' to produce progress," as they related to, and addressed, the
student's needs (id.). The IHO further indicated that the student must receive "[p]ersonalized
instruction . . . to address his articulation, receptive and expressive deficits," and the student would
receive speech-language therapy services in both the "therapy room and in his classroom" (id.).
With regard to social skills, the IHO noted that the "speech therapist" took part in the social skills
training program offered to the student as part of the "Connections program" (11). Additionally,
the 1110 pointed out that the social skills training focused on "feelings, coping skills and social
problem solving," and the student had needs in all of these areas (i). Finally, turning to OT, the
IHO found that such services were necessary to address the student's "fine and gross motor
deficits," which affected the student's "writing skills and activities involving gross motor skills"
OA at p. 16).
As for the parents' requested relief, the IHO first acknowledged that the student was "now
of compulsory school age," and his parents decided to provide the student with home schooling
(1110 Decision at p. 16). The IHO then recognized that, based upon the evidence in the hearing
record, the preschool was "not licensed to offer a school age program"; therefore, the parents'
request for the student to continue at the preschool was not an "option" to be considered (1.). With
respect to the parents' second request—that is, for the district to "replicate the [preschool] program"
within the public school—the II-10 found that the CSE "integrated man[y] of the requests into the
kindergarten and Connections program" (.1.). Consequently, since the district's IEP was not
required to "'maximize' the potential of students," the IHO concluded that the June 2016 IEP was
appropriate and likely to produce progress (id.).
Finally, the 1110 conveyed that while "much of the parents' testimony and argument
focused on ABA as being the only method to instruct their son, there [was] strong judicial authority
in support of the legal proposition that IDEA d[id] not guarantee a right to a particular methodology
or personnel" (IHO Decision at p. 16). As such, these matters were "appropriately left within the
discretion of the local school authorities provided the method selected provide[d] FAPE" (id.).
Having dismissed the parents' complaint, the 1110 ordered that, "should the parents choose not to
appeal this decision," the district and the parents should "develop a plan with the necessary
supports to allow for the [student's] smooth transition to the program as outline[d] in the IEP" (id.
at p. 17).
IV. Appeal for State-Level Review
The parents appeal. Initially, the parents allege that the IHO's decision was biased, and
further assert that the IHO improperly precluded evidence and limited all questioning of witnesses
at the impartial hearing.19 Turning to the 1110's decision, the parents point to inaccuracies in the
"Preliminary Statement," the "Prior History," and within the "Discussion and Decision" sections,
and contend that the hearing record should not have included a behavior progress chart as evidence.
19 The parents submitted additional documentary evidence with the request for review for consideration on appeal
(see generally Req. for Rev. Exs. A-Z; AA-ZZ; AAA-777; AAAA-IIII).

10

App 61

With respect to the findings and facts portion of the II-10's decision, the parents allege that the 11-10
failed to correctly identify the issues in dispute, noting specifically that they disputed the June
2016 CSE's decision to recommend a general education kindergarten classroom for the student.
Next, the parents challenge the accuracy of the present levels of performance in the June 2016 IEP,
the management needs identified in the IEP, and the appropriateness of the annual goals in the
IEP. The parents also argue that, contrary to the II-10's decision, "many" procedural errors impeded
the student's right to a FAPE, and the district declined to incorporate their request for an "all day
ABA integrated environment" into the student's IEP. The parents further allege that the
"Connections program and kindergarten" did not satisfy either the FAPE requirement or the LRE
requirement, as the student had succeeded in an "all-day integrated setting."
Next, the parents fault the IHO for failing to address how the teachers in this case had the
"necessary training or record of success" in order to implement a "curriculum" with the student.
In addition, the parents allege that although the IHO discussed how "typical peers in the general
education class would demonstrate appropriate behavior," the hearing record lacked any
information about "how appropriate" those typical peers would be "for a[n] integrated class." The
parents noted that the student required a "5-hour integrated school day." Finally, the parents assert
that the HO failed to address or acknowledge their request for reimbursement for providing ABA
behavioral therapy and instruction to the student, equitable considerations, their request to
"observe [the student] receiving education in real time," or the parents' testimony that called into
question information provided to them by a teacher.
As relief, the parents seek, in part, an order directing the district to modify the management
needs section of the student's IEP and to place discrete trial training and ABA group therapy—as
specifically delineated in the request for review—in the student's IEP. With regard to the
management needs, the parents seek an order directing that the student receive "intensive ABA"
for 40 hours per week in a district elementary school and that the student continue to receive these
services until he achieves a particular standard score on identified assessments. Next, the parents
precisely describe the composition and size of the integrated classroom desired for the student,
including the number of typically developing peers and the "specific guidelines" the typically
developing peers must meet in order to be included within the proposed integrated classroom. In
addition, the parents request an order to fund a budget to be used by the classroom for
modifications to deliver the "integrated intensive ABA program." With respect to the proposed
integrated classroom, the parents indicate that for the remainder of the 2016-17 school year, the
"kindergarten classroom may have two different groups of typical peers" for the morning and
afternoon sessions; however, for the 2017-18 school year, the parents seek a "single group of
typical peers that meets for the entire school period" in the proposed integrated classroom. Next,
the parents seek an order directing that "every teacher, aid, therapist, professional . . . assigned to
work in the same classroom as [the student] or directly with [the student] . . . should be at 1
[standard deviation] above average in articulation and expressive language as estimated by a
speech therapist and that they have no documented nor previously documented behavioral disorder
of any kind."
The parents also seek an order finding that the annual goals in the student's IEP were not
appropriate and constituted a procedural violation that impeded the student's right to a FAPE,
significantly impeded the parents' opportunity to participate in the decision-making process, and
caused a deprivation of educational benefits. As further relief, the parents seek an order accepting
11

App 62

all of the additional evidence submitted with the request for review, removing specific district
exhibits from the evidence in the hearing record, and to find that the due process complaint notice
was "officially filed" on August 5, 2016. The parents also seek an order allowing them to have
"access to observe" the student in class, during discrete trial training, and in group therapy sessions
with other students upon request. Next, the parents request a central auditory processing
evaluation of the student at "public" expense, as well as an independent educational evaluation
(IEE) of the student's "present levels of performance" that includes a formal intelligence quotient
(IQ) test, an adaptive behavior test, and a "present level curriculum test." As a result of these
assessments, the parents also request a modification of the annual goals. The parents also request
an order directing the use of "formal measures" to assess "IEP success."
With regard to the program recommended in the June 2016 IEP, the parents seek an order
finding that the "Kindergarten and Connections Program" did not meet the requirements of FAPE
or the LRE. In addition, the parents seek an order declaring that the district's 2 hour 40 minute
school day does not constitute a FAPE, and further, that the "Connections" program is not peerreviewed. And finally, the parents request to "approve pendency for [the parents] to deliver an
ABA [] home based therapy and educational program" to the student at $32.50 per hour for 50
hours per week at district expense. Alternatively, the parents request that if the ABA therapy and
educational program delivered to the student by his parents constitutes a "unilateral placement,"
then they seek retroactive reimbursement at the same rate described above. Additionally, the
parents note that the 1110 failed to issue a pendency decision, and therefore, they seek an order
directing the district to reimburse them "immediately [within 72 hours of decision]" for the ABA
therapy and educational program they delivered to the student since August 29, 2016 (totaling 950
hours at $32.50 per hour). The parents also seek to be reimbursed for the continued delivery of
home-based ABA therapy and an educational program to the student (approximately 2300 hours)
"until the ordered program is successfully in place" at the district, as well as an award of fees and
expenses as the prevailing party.
In an answer, the district responds to the parents' allegations. The district asserts as an
affirmative defense that the parents did not raise any issues in the due process complaint notice
concerning the present levels of performance or the annual goals in the IEP, or with respect to any
procedural violations, and therefore, the parents cannot now raise such allegations on appeal and
the allegations must be wholly disregarded. Next, the district asserts as affirmative defenses that
the parents' request for review and memorandum of law fail to conform to practice regulations,
and finally, that the parents' request to submit additional documentary evidence for consideration
on appeal must be rejected because the parents failed to articulate any reason for its submission.
Turning to the question of the student's pendency placement, the district alleges that the special
education programs and related services in District Exhibit 33—generated as a result of a
resolution agreement between the parties—constitutes the student's last agreed upon IEP and
pendency placement. In its memorandum of law accompanying the answer, the district generally
argues to uphold the IHO's decision in its entirety."

The parents did not file a reply with the Office of State Review in response to the district's answer (see 8
NYCRR 279.6[a]-[b]).

20

12

App 63

V. Applicable Standards
Two purposes of the IDEA (20 U.S.C. §§ 1400-1482) are (1) to ensure that students with
disabilities have available to them a FAPE that emphasizes special education and related services
designed to meet their unique needs and prepare them for further education, employment, and
independent living; and (2) to ensure that the rights of students with disabilities and parents of such
students are protected (20 U.S.C. § 1400[d][1][A]-[B]; see generally Forest Grove Sch. Dist. v.
T.A., 557 U.S. 230, 239 [2009]; Bd. of Educ. v. Rowley, 458 U.S. 176, 180-83, 206-07 [1982]).
A FAPE is offered to a student when (a) the board of education complies with the
procedural requirements set forth in the IDEA, and (b) the IEP developed by its CSE through the
IDEA's procedures is reasonably calculated to enable the student to receive educational benefits
(Rowley, 458 U.S. at 206-07; R.E. v. New York City Dep't of Educ., 694 F.3d 167, 189-90 [2d
Cir. 2012]; M.H. v. New York City Dep't of Educ., 685 F.3d 217, 245 [2d Cir. 2012]; Cerra v.
Pawling Cent. Sch. Dist., 427 F.3d 186, 192 [2d Cir. 2005]). "'[A]dequate compliance with the
procedures prescribed would in most cases assure much if not all of what Congress wished in the
way of substantive content in an IEP'" (Walczak v. Florida Union Free Sch. Dist., 142 F.3d 119,
129 [2d Cir. 1998], quoting Rowley, 458 U.S. at 206; see T.P. v. Mamaroneck Union Free Sch.
Dist., 554 F.3d 247, 253 [2d Cir. 2009]). While the Second Circuit has emphasized that school
districts must comply with the checklist of procedures for developing a student's IEP and indicated
that "[m]ultiple procedural violations may cumulatively result in the denial of a FAPE even if the
violations considered individually do not" (R.E., 694 F.3d at 190-91), the Court has also explained
that not all procedural errors render an IEP legally inadequate under the IDEA (M.H., 685 F.3d at
245; A.C. v. Bd. of Educ., 553 F.3d 165, 172 [2d Cir. 2009]; Grim v. Rhinebeck Cent. Sch. Dist.,
346 F.3d 377, 381 [2d Cir. 2003]). Under the IDEA, if procedural violations are alleged, an
administrative officer may find that a student did not receive a FAPE only if the procedural
inadequacies (a) impeded the student's right to a FAPE, (b) significantly impeded the parents'
opportunity to participate in the decision-making process regarding the provision of a FAPE to the
student, or (c) caused a deprivation of educational benefits (20 U.S.C. § 1415 [f] [3] [E][ii]; 34 CFR
300.513[a][2]; 8 NYCRR 200.5[j][4][ii]; Winkelman v. Parma City Sch. Dist., 550 U.S. 516, 52526 [2007]; R.E., 694 F.3d at 190; M.H., 685 F.3d at 245).
The IDEA directs that, in general, an IHO's decision must be made on substantive grounds
based on a determination of whether the student received a FAPE (20 U.S.C. § 1415[f] [3] [E][i]).
A school district offers a FAPE "by providing personalized instruction with sufficient support
services to permit the child to benefit educationally from that instruction" (Rowley, 458 U.S. at
203). However, the "IDEA does not itself articulate any specific level of educational benefits that
must be provided through an IEP" (Walczak, 142 F.3d at 130; see Rowley, 458 U.S. at 189). The
statute ensures an "appropriate" education, "not one that provides everything that might be thought
desirable by loving parents" (Walczak, 142 F.3d at 132, quoting Tucker v. Bay Shore Union Free
Sch. Dist., 873 F.2d 563, 567 [2d Cir. 1989] [citations omitted]; see Grim, 346 F.3d at 379).
Additionally, school districts are not required to "maximize" the potential of students with
disabilities (Rowley, 458 U.S. at 189, 199; Grim, 346 F.3d at 379; Walczak, 142 F.3d at 132).
Nonetheless, a school district must provide "an IEP that is 'likely to produce progress, not
regression,' and .. . affords the student with an opportunity greater than mere 'trivial advancement"'
(Cerra, 427 F.3d at 195, quoting Walczak, 142 F.3d at 130 [citations omitted]; see T.P., 554 F.3d
at 254; P. v. Newington Bd. of Educ., 546 F.3d 111, 118-19 [2d Cir. 2008]). The IEP must be
13

App 64

"reasonably calculated to provide some 'meaningful' benefit" (Mrs. B. v. Milford Bd. of Educ., 103
F.3d 1114, 1120 [2d Cir. 1997]; see Endrew F. v. Douglas County Sch. Dist. RE-1, 580 U.S. ,
2017 WL 1066260, at *11-*12 [Mar. 22, 2017] [holding that the IDEA "requires an educational
program reasonably calculated to enable a child to make progress appropriate in light of the child's
circumstances"]; Rowley, 458 U.S. at 192). The student's recommended program must also be
provided in the LRE (20 U.S.C. § 1412[a][5][A]; 34 CFR 300.114[a][2][i], 300.116[a][2]; 8
NYCRR 200.1[cc], 200.6[a][1]; see Newington, 546 F.3d at 114; Gagliardo v. Arlington Cent.
Sch. Dist., 489 F.3d 105, 108 [2d Cir. 2007]; Walczak, 142 F.3d at 132]).
An appropriate educational program begins with an IEP that includes a statement of the
student's present levels of academic achievement and functional performance (see 34 CFR
300.320[a][1]; 8 NYCRR 200.4[d][2][i]), establishes annual goals designed to meet the student's
needs resulting from the student's disability and enable him or her to make progress in the general
education curriculum (see 34 CFR 300.320[a] [2][i], [2][i] [A]; 8 NYCRR 200.4[d][2][iii]), and
provides for the use of appropriate special education services (see 34 CFR 300.320[a][4]; 8
NYCRR 200.4[d] [2] [v]).
The burden of proof is on the school district during an impartial hearing, except that a
parent seeking tuition reimbursement for a unilateral placement has the burden of proof regarding
the appropriateness of such placement (Educ. Law § 4404[1][c]; see R.E., 694 F.3d at 184-85).
VI. Discussion
A. Preliminary Matters
1. IHO Bias and Conduct of the Impartial Hearing
First, the parents assert that the IHO's decision was biased and "one sided in its entirety."
The parents further assert that the IHO's refusal to "accept nearly all" of their proffered exhibits as
evidence at the impartial hearing precluded the IHO from considering the same in the decision and
similarly precluded the parents from using the exhibits to question witnesses and to inform their
briefs. Additionally, the parents contend that the HO "significantly limited all questions to
witnesses to be specific to [the student] or a class [the student] was a part of," which ultimately
prevented the parents from obtaining "more details regarding many different matters" during the
impartial hearing. In response, the district argues that many of the parents' exhibits offered at the
impartial hearing consisted primarily of "articles written for various publications not related to the
[s]tudent herein," and thus, the HO properly excluded such evidence as irrelevant, immaterial,
unreliable, or unduly repetitious. Moreover, the district acknowledges that although the HO
limited questions "to some extent" at the impartial hearing, the IHO's limitations focused the
questions as "relevant to the [s]tudent and the issues presented." Upon a careful and complete
review of the hearing record, neither the IHO's management of the impartial due process hearing

14

App 65

nor his decision manifested bias or prejudice against—or in favor of—either party. Therefore, the
parents' contentions must be dismissed.21
It is well settled that an IHO must be fair and impartial and must avoid even the appearance
of impropriety or prejudice (see, e.g., Application of a Student with a Disability, Appeal No. 12066; Application of a Student with a Disability, Appeal No. 11-144; Application of the Bd. of
Educ., Appeal No. 10-097; Application of a Student with a Disability, Appeal No. 10-018). An
IHO must also render a decision based on the hearing record (see Application of a Student with a
Disability, Appeal No. 09-058; Application of a Student with a Disability, Appeal No. 08-036).
Moreover, an IHO, like a judge, must be patient, dignified and courteous in dealings with litigants
and others with whom the IHO interacts in an official capacity and must perform all duties without
bias or prejudice against or in favor of any person, and shall not, by words or conduct, manifest
bias or prejudice, according each party the right to be heard (Application of a Student with a
Disability, Appeal No. 12-064; Application of a Student with a Disability, Appeal No. 07-090;
Application of a Student with a Disability, Appeal No. 07-075; see Y.A. v. N.Y. City Dep't of
Educ., No. 2016 WL 5811843, at *19 [S.D.N.Y. Sept. 21, 2016]; J.E. & C.E. v. Chappaqua Cent.
Sch. Dist., 2016 WL 3636677, at *8 [S.D.N.Y. June 28, 2016]).
Here, the parents—as the party bearing the burden to provide evidence with respect to the
II-10's alleged bias—level nothing more than bald, conclusory assertions without any explanation
to support those assertions. The parents do not cite to or point to any specific instances in the
hearing record as evidence of how the [HO's discretion to preclude evidence constituted bias or
how the IHO's actions interfered with their ability to present their case. Instead, the parents cite
generally to the transcript corresponding to their proffer of exhibits at the impartial hearing (see
Req. for Rev. (1[ 1). Moreover, while impartial hearing rights include the right of both a parent and
a district to "[p]resent evidence and confront, cross-examine, and compel the attendance of
witnesses" (34 CFR 300.512[a][2]; see 8 NYCRR 200.5[j][3][xii]), State regulation requires that
an 1110 "exclude evidence that he or she determines to be irrelevant, immaterial, unreliable or
unduly repetitious" (8 NYCRR 200.5 [j][3] [xii][c]). Consistent with State regulation, a review of
the transcript cited by the parents reveals that the parents presented each and every exhibit for the
IHO's consideration, that in many instances the district's attorney voiced objections to the exhibits,
and the II-10 explained the rationale underlying his decision to ultimately sustain the district's
objections to preclude the parents' evidence (see Tr. pp. 56-108). A review of the same portions
of the transcript also reveals that the IHO made considerable efforts to assist the parents throughout
their evidentiary submissions by explaining the role of evidence and by indicating that, subject to
a proper foundation elicited from a witness, some of the parents' evidence (i.e., articles or
publications) might then be entered in the hearing record as evidence (see, e.g., Tr. pp. 56-60, 6467, 71-72, 92, 97-98).

21 To

the extent that the parents also assert inaccuracies within the IHO's decision, these contentions generally
reflect a disagreement with the IHO's characterizations and do not present issues regarding the accuracy of the
decision. For example, in the "Preliminary Statement" the IHO indicated that the student "benefit[ted]" from an
ABA environment; the parents assert in the request for review that this statement is inaccurate because the student
"significantly" benefitted from an "integrated intensive ABA environment" (compare IHO Decision at p. 2, with
Req. for Rev. 12).

15

App 66

With regard to the IHO's decision to limit questions of witnesses, the parents do not cite to
or point to any specific instances in the hearing record as evidence of how the IHO's actions
constituted bias or how the IHO's actions interfered with their ability to present their case. Rather,
the parents cite to nearly the entire transcript to support their assertion (see Req. for Rev. 9C 2).
Like above, State regulation specifically empowers an IHO with the discretion to "limit
examination of a witness by either party whose testimony the [IHO] determines to be irrelevant,
immaterial or unduly repetitious" (8 NYCRR 200.5[j] [3] [xii] [d]). State regulation also authorizes
an IHO "to ask questions of counsel or witnesses for the purpose of clarification or completeness
of the record" (8 NYCRR 200.2[j] [3[vii]). Consistent with State regulations, on review—and as
acknowledged by the district—the impartial hearing transcript does reveal that, at times, the IHO
narrowed or circumscribed questions asked by the parents during the direct or cross-examination
of witnesses to focus specifically on the student or the student's program at the heart of this dispute
(see, e.g., Tr. pp. 175-77, 269, 273, 286-87, 291, 294-96, 372-75, 496-97, 512-13). The impartial
hearing transcript also reveals that the IHO assisted the parents throughout the questioning of
witnesses, which either clarified questions posed to the witnesses or assisted in the completeness
of the hearing record (see, e.g., Tr. pp. 141-43, 147-48, 150, 192-95, 292-93, 372, 387-89, 51415).
Thus, while the parents may not be in agreement with the IHO's decision and may have the
opinion that the IHO improperly precluded evidence or limited questioning of witnesses that the
parents deemed to be persuasive and relevant, this, alone, does not establish that the IHO
manifested a bias or improperly exercised his discretion in conducting the impartial due process
hearing. Overall, an independent review of the hearing record demonstrates that the parents had
the opportunity to present their case at the impartial hearing and that the impartial hearing was
conducted in a manner consistent with the requirements of due process (see Educ. Law § 4404[2];
34 CFR 300.514[b][2][i], [ii]; 8 NYCRR 200.5[j]; see generally Tr. pp. 1-1442).
2. Scope of Impartial Hearing and Review
Next, a determination must be made regarding which claims are properly before me on
appeal. On appeal, the parents challenge the accuracy of the present levels of performance in the
June 2016 IEP and the appropriateness of the annual goals in the IEP. The parents further allege
that, contrary to the IHO's decision, "many" procedural errors impeded the student's right to a
FAPE. In response, the district asserts that the parents' failure to raise these issues in the due
process complaint notice precludes the parents from raising such allegations on appeal.
Generally, the party requesting an impartial hearing has the first opportunity to identify the
range of issues to be addressed at the hearing (see 20 U.S.C. § 1415[b][7][A]; 34 CFR 300.507[a][b], 300.508[a]; 8 NYCRR 200.5[j][1]; Application of a Student with a Disability, Appeal No. 13151; Application of a Student with a Disability, Appeal No. 09-141). However, a party requesting
an impartial hearing may not raise issues at the impartial hearing that were not raised in its due
process complaint notice unless the other party agrees (20 U.S.C. § 1415[f][3][B]; 34 CFR
300.508[d][3][i], 300.511[d]; 8 NYCRR 200.5[j][1][ii]), or the original due process complaint is
amended prior to the impartial hearing per permission given by the IHO at least five days prior to
the impartial hearing (20 U.S.C. § 1415[c][2][E][i][11]; 34 CFR 300.508[d][3][ii]; 8 NYCRR
200.5[i][7][b]; see, e.g., N.K. v. New York City Dep't of Educ., 961 F. Supp. 2d 577, 584-86
[S.D.N.Y. 2013]; J.C.S. v Blind Brook-Rye Union Free Sch. Dist., 2013 WL 3975942, at *8-*9

16

App 67

[S.D.N.Y. Aug. 5, 2013]; B.M. v. New York City Dep't of Educ., 2013 WL 1972144, at *6
[S.D.N.Y. May 14, 2013]; C.H. v. Goshen Cent. Sch. Dist., 2013 WL 1285387, at *9 [S.D.N.Y.
Mar. 28, 2013]; S.M. v. Taconic Hills Cent. Sch. Dist., 2013 WL 773098, at *4 [N.D.N.Y. Feb.
28, 2013]; DiRocco v. Bd. of Educ., 2013 WL 25959, at *23 [S.D.N.Y. Jan. 2, 2013]).
In this instance, the parents—as the party requesting the impartial hearing—had the first
opportunity to identify the range of issues to be addressed at the impartial hearing. Upon review,
I find that the parents' due process complaint notice cannot reasonably be read to include the
accuracy of the present levels of performance or whether the district committed any procedural
violations as issues to be resolved at the impartial hearing (see generally Joint Ex. 1). Moreover,
a review of the hearing record shows that the district did not agree to expand the scope of the
impartial hearing, and the parents did not amend the due process complaint notice or seek
permission from the IHO to amend the due process complaint notice prior to the impartial hearing
to include the accuracy of the present levels of performance or whether the district committed any
procedural violations as issues to be resolved at the impartial hearing (see Tr. pp. 1-1442; Dist.
Exs. 2-9; 11-51; Parent Exs. H; JJ; M-N; IHO Exs. 3-7; Joint Exs. 1; 10). In contrast, however, I
find that the due process complaint notice can reasonably be read to include an issue regarding the
annual goals in the June 2016 IEP (see Joint Ex. 1 at pp. 12-13).22
Turning to the issues addressed in the IHO's decision, the IHO initially included brief
descriptions of the present levels of performance, the management needs, and the annual goals
from the June 2016 IEP within the "Findings and Facts" section of the decision (compare IHO
Decision at pp. 10-11, with Dist. Ex. 45 at pp. 3-6). However, those portions of the decision were
contextual only and the IHO did not actually make any findings or conclusions about the accuracy
of the present levels of performance anywhere within the decision (compare IHO Decision at pp.
10-11, with IHO Decision at pp. 10-16). Therefore, since the parents did not raise any issue about
the present levels of performance in the due process complaint notice and the IHO did not make
any findings related to the present levels of performance in the June 2016 IEP, the parents cannot
now raise this as an issue to be resolved in the request for review for the first time on appeal
(compare Req. for Rev. IT 11-12, 14, 21, with Joint Ex. 1 at pp. 1-54, and IHO Decision at pp. 117). Where, as here, the parents did not seek the district's agreement to expand the scope of the
impartial hearing to include this issue or seek to include this issue in an amended due process
complaint notice, the issue is not properly subject to review. To hold otherwise would inhibit the
development of the hearing record for the IHO's consideration, and render the IDEA's statutory
and regulatory provisions meaningless (see 20 U.S.C. § 1415[f] [3] [B]; 34 CFR 300.511[d],
300.508[d][3][i]; 8 NYCRR 200.5[j] [1][ii]; see also B.P. v. New York City Dep't of Educ., 841 F.
Supp. 2d 605, 611 [E.D.N.Y. 2012] [explaining that "[t]he scope of the inquiry of the IHO, and
therefore the SRO . . . , is limited to matters either raised in the . . . impartial hearing request or
agreed to by [the opposing party]]"); M.R. v. S. Orangetown Cent. Sch. Dist., 2011 WL 6307563,
With respect to the annual goals, the parents can and do point to a specific portion of the due process complaint
notice as a basis for concluding that they raised annual goals as an issue to be resolved at the impartial hearing
(see Parent Mem. of Law at p. 24 [citing Joint Ex. 1 at p. 12]; see also Req. for Rev. ¶91 16). However, the parents
do not (and a reasonable person cannot) point to any specific portions of the due process complaint notice as a
basis for concluding that the parents raised either the present levels of performance or procedural violations as
issues to be resolved at the impartial hearing in either the request for review or within the memorandum of law
(see generally Req. for Rev.; Parent Mem. of Law).
22

17

App 68

at *13 [S.D.N.Y. Dec. 16, 2011]). "By requiring parties to raise all issues at the lowest
administrative level, IDEA affords full exploration of technical educational issues, furthers
development of a complete factual record and promotes judicial efficiency by giving these
agencies the first opportunity to correct shortcomings in their educational programs for disabled
children" (R.B. v. Dep't of Educ., 2011 WL 4375694, at *6-*7 [S.D.N.Y. Sept. 16, 2011] [internal
quotations omitted]; see C.D. v. Bedford Cent. Sch. Dist., 2011 WL 4914722, at *13 [S.D.N.Y.
Sept. 22, 2011] [holding that a transportation issue was not properly preserved for review by the
SRO because it was not raised in the party's due process complaint notice]). Consequently, the
allegations pertaining to the present levels of performance in the June 2016 IEP raised now, for
the first time by the parents on appeal, are outside the scope of my review, and therefore, these
allegations will not be considered (see N.K., 961 F. Supp. 2d at 584-86; B.M., 2013 WL 1972144,
at *6; C.H., 2013 WL 1285387, at *9; Snyder v. Montgomery County Pub. Schs., 2009 WL
3246579, at *7 [D. Md. Sept. 29, 2009]).23
With respect to the annual goals, as noted above, I find that the parents did raise this as an
issue in the due process complaint notice, which the 1140 addressed (see Joint Ex. 1 at p. 12; IHO
Decision at p. 15). In the decision, the IHO concluded that the annual goals were "related to [the
student's] needs and address[ed] them specifically" and that the annual goals were "'reasonably
calculated' to produce progress" (IHO Decision at pp. 11, 15). The parents' challenge to the IHO's
finding about the annual goals will, therefore, be addressed, and this will necessitate some
discussion of the procedures by which the goals were developed.
Finally, in addition to rendering a determination about the annual goals, the IHO also found
that the district did not commit any procedural violations and that the parents had "ongoing
'opportunities to participate in the decision making process regarding the provision of a FAPE' for
their child" (IHO Decision at p. 13). Since the 1110 drew conclusions on these issues
notwithstanding the fact that the parents' due process complaint notice cannot reasonably be read
to include these issues, the next inquiry focuses on whether the IHO properly reached
determinations on the issues because the district "open[ed] the door" under the holding of M.H. v.
New York City Dep't of Educ. (685 F.3d 217, 250-51 [2d Cir. 2012]; see also D.B. v. New York
City Dep't of Educ., 966 F. Supp. 2d 315, 327-28 [S.D.N.Y. 2013]; N.K., 961 F. Supp. 2d at 58486; A.M. v. New York City Dep't of Educ., 964 F. Supp. 2d 270, 282-84 [S.D.N.Y. 2013]; J.C.S.,
2013 WL 3975942, *9; B.M., 2013 WL 1972144, at *5-*6).
Scrutinizing the hearing record, it does not appear that the 11-10 conducted a prehearing
conference, but on the first day of the impartial hearing the 1110 inquired about the basis for the
parents' due process complaint notice (see Tr. p. 5).24 During this colloquy, neither party identified
23 To be clear, any additional arguments the parents asserted in the memorandum of law about the present levels
of performance will also not be considered, including the argument that the student requires a central auditory
processing disorder assessment at district expense (i.e., an independent educational evaluation or IEE) in order to
determine the student's present levels of performance upon which to develop appropriate annual goals (see Parent
Mem. of Law at pp. 24-28).
24 While not mandatory, State regulation authorizes an IHO to conduct a prehearing conference with the parties
for, in pertinent part, the purpose of "simplifying or clarifying the issues" to be resolved (8 NYCRR
200.501[3][xi]).

18

App 69

any procedural issues to be resolved at the impartial hearing; similarly, neither party identified any
procedural issues in their respective opening statements, other than a general statement made by
the district's attorney indicating that the "IEP was developed in conjunction with the parents" (see
Tr. pp. 5, 15-20).
In their list of issues on appeal, the parents do not specify in their request for review what
procedural violations occurred that they allege impeded the student's right to a FAPE (see Req. for
Rev. (1[ 17).25 Instead, the parents allege in the memorandum of law a list of factors that they
characterize as "procedural violations" impeding the student's right to a FAPE, and in support of
each factor, the parents primarily cite to testimonial evidence elicited either through crossexamination of district witnesses or direct examination of their own witnesses at the impartial
hearing (see Parent Mem. of Law at p. 28). Such testimonial evidence elicited by the parents in
no way constitutes the district "open[ing] the door" to these issues under M.H. Consequently,
however correct or incorrect the IHO's findings may have been, the only conclusion that may be
permissibly drawn is that the IHO exceeded his jurisdiction by sua sponte raising and concluding
that the district did not commit any procedural violations in the development of the June 2016 IEP,
and accordingly, the IHO's finding must be annulled.26
3. Additional Evidence
Tethered closely to the argument pertaining to IHO's refusal to enter evidence in the
hearing record, the parents submit additional documentary evidence for consideration on appeal
(see generally Req. for Rev. Exs. A-Z; AA-ZZ; AAA-ZZZ; AAAA-IIII). The district objects to
the consideration of the parents' additional documentary evidence, arguing, as above, that the 1110
properly excluded such evidence at the impartial hearing as irrelevant, immaterial, unreliable, or
unduly repetitious. The district further argues that the parents do not now assert any reason for its
consideration on appeal.
Generally, documentary evidence not presented at an impartial hearing may be considered
in an appeal from an IHO's decision only if such additional evidence could not have been offered
at the time of the impartial hearing and the evidence is necessary in order to render a decision (see,
e.g., Application of a Student with a Disability, Appeal No. 08-030; Application of a Student with
a Disability, Appeal No. 08-003; see also 8 NYCRR 279.10[b]; L.K. v. Ne. Sch. Dist., 932 F.
Supp. 2d 467, 488-89 [S.D.N.Y. 2013] [holding that additional evidence is necessary only if,
without such evidence, the SRO is unable to render a decision]). In this case, the parents have
resubmitted all of the documentary evidence the IHO declined to enter into the hearing record as
25 As noted above, however, some discussion of the goal development procedures is necessary due to the parents'
challenges to the adequacy of the annual goals.

It is essential that the IHO disclose his or her intention to reach an issue which the parties have not raised as a
matter of basic fairness and due process of law (see John M. v. Bd. of Educ., 502 F.3d 708 [7th Cir. 2007]).
Although an IHO has the authority to ask questions of counsel or witnesses for the purposes of clarification or
completeness of the hearing record (8 NYCRR 200.5[j][3][vii]), or even inquire as to whether the parties agree
that an issue should be addressed, it is impermissible for the IHO to simply expand the scope of the issues raised
without the express consent of the parties and then base his or her determination on those issues (see Dep't of
Educ. v. C.B., 2012 WL 220517, at *7-*8 [D. Haw. Jan. 24, 2012] [finding that the administrative hearing officer
improperly considered an issue beyond the scope of the parents' due process complaint notice]).
26

19

App 70

evidence, as well as copies of documents the IHO already entered into the hearing record as
evidence or that were otherwise withdrawn at the impartial hearing (compare Req. for Rev. Exs.
A-Z; AA-WW, with Tr. pp. 56-108, 264). As these documents were available at the time of the
impartial hearing, the parents had the opportunity to present the documents for the IHO's
consideration at that time, and as the IHO—as noted above—did not abuse his discretion in
declining to enter such documents as evidence in the hearing record, I decline to exercise my
discretion to now admit such documents as evidence as they are also not necessary to render a
decision in this matter. Next, some of the parents' additional documentary evidence is already part
of the administrative hearing record, such as the "Parents' Brief" submitted to the IHO, the "Parents'
Reply Brief," and the "Parents' Memorandum of Law" submitted to the SRO; consequently, I
decline to exercise my discretion to now admit the parents' duplicative documents as evidence in
the hearing record (see Req. for Rev. Exs. YY; RRR;
With regard to the remaining additional documentary evidence, approximately 19 of the
documents are copies of court cases or SRO decisions, all of which were available at the time of
the impartial hearing but not offered for the IHO's consideration (see Req. for Rev. Exs. ZZ; AAAIII; TTT; WWW-ZZZ; AAAA; FFFF-HHHH). Legal authority, whether binding or persuasive, is
not evidence and need not be included in a hearing record to establish facts in an evidentiary
record. 27 Next, the parents' additional documentary evidence includes a copy of a letter from a
physician (dated September 28, 2016), a 2015-16 preschool update report, and copies of various
publications, which based upon the respective dates of publication, were available at the time of
the impartial hearing but not offered for the IHO's consideration (see Req. for Rev. Exs. XX; VVV;
BBBB-EEEE). In addition, the parents submit approximately six documents that are compilations
of documents that the parents submitted separately for consideration on appeal, which the IHO
already declined to enter as evidence in the hearing record and which I have also declined to enter
as evidence in the hearing record (see Req. for Rev. Exs. KKK-PPP). Therefore, I decline to
exercise my discretion to admit the court cases, SRO cases, the physician's letter, the 2015-16
preschool update report, the publications, and the compilations of publications as evidence in the
hearing record.
Finally, the parents offer two documents that, based upon the reported dates, were not
available at the time of the impartial hearing (or the June 2016 CSE meeting for that matter), as
well as an undated document describing the "Scerts Model" that is not at issue in this proceeding,
and an undated "Calendar" (the probative value and context of which is unclear) for consideration
on appeal (see Req. for Rev. Exs. JJJ; QQQ; SSS; UUU).28 Although these proffered documents
may not have been available at the time of the impartial hearing, the parents offer no rationale as
to why the documents are now necessary to consider to render a decision in this matter;

This distinction does not preclude an IHO, when necessary, from directing parties to submit copies of cases
that they are relying on to the IHO. Such directives stem from an IHO's need for hearing efficiency and
compliance with strict timelines.
27

28 The progress during a period post-dating both the June 2016 CSE meeting and the filing of the due process
complaint notice is irrelevant to a prospective determination of whether the' goals were appropriate to meet the
student's needs as of the time they were developed.

20

App 71

consequently, I decline to exercise my discretion to enter these documents as evidence in the
hearing record or consider the same on appeal.
B. June 2016 IEP
1. Annual Goals
The parents argue that the annual goals in the June 2016 IEP were not appropriate because
the student had "substantially surpassed" all of the annual goals listed in the IEP before they were
written. In addition, the parents contend that the June 2016 CSE ignored their request to include
annual goals "more consistent" with their own observations of the student's present levels, which
the parents describe as "more similar to that of a typically developing kindergarten student." The
parents also argue that although the student "significantly surpassed all of the goals set [forth] in
the IEP" at home, the annual goals in the IEP were not reasonably calculated to enable the student
to receive educational benefit. Additionally, the parents argue that the annual goals in the June
2016 IEP did not reflect the student's abilities in June 2016.
In response, the district initially asserts that the parents did not dispute the annual goals in
the due process complaint notice, and therefore, the parents are now precluded from raising the
annual goals as an issue in dispute on appeal. Alternatively, the district contends that the student's
then-current preschool providers generated the annual goals in the June 2016 IEP, which the CSE
then reviewed and revised with the parents' input.
An IEP must include a written statement of measurable annual goals, including academic
and functional goals designed to meet the student's needs that result from the student's disability
to enable the student to be involved in and make progress in the general education curriculum; and
meet each of the student's other educational needs that result from the student's disability (see 20
U.S.C. § 1414[d][1][A][i][H]; 34 CFR 300.320[a][2][i]; 8 NYCRR 200.4[d][2][iii]). Each annual
goal shall include the evaluative criteria, evaluation procedures and schedules to be used to
measure progress toward meeting the annual goal during the period beginning with placement and
ending with the next scheduled review by the committee (8 NYCRR 200.4[d][2][iii][b]; see 20
U.S.C. § 1414[d][1][A][i][111]; 34 CFR 300.320[a][3]).
As noted briefly above, the CSE convened on two dates to develop the June 2016 IEP; the
first CSE meeting, which occurred sometime in spring 2016, included, among others, three staff
members from the student's then-current preschool: the executive director, the student's speechlanguage pathologist, and the director of ABA services (see Tr. pp. 244, 478-79, 498-99, 660, 68586, 773-79, 1017, 1151-52, 1192-93; Dist. Ex. 46 at p. 8).29 When the CSE reconvened in June
2016 to finalize the IEP, it did not include any preschool staff as CSE members (see Tr. pp. 47879; Dist. Ex. 45 at p. 1). Overall, several witnesses at the impartial hearing testified that preschool
29 At the impartial hearing, the director of ABA services described her present role at the preschool at "one of the
directors" (Tr. p. 1017). She testified that upon the student's return to the preschool in November or December
2015 and through June 2016, she and two other staff members provided the student with five 30 minute sessions
per week of discrete trial training (see Tr. pp. 1023-24, 1079-81, 1183-85; see generally Dist. Ex. 40). The witness
also believed that the student received the same frequency and duration of discrete trial training during the 201415 school year (see Tr. pp. 1079-80); however, the student's mother testified that the student did not begin
receiving discrete trial training at the preschool until summer 2015 (see Tr. pp. 1369, 1376-77).

21

App 72

staff (although not necessarily those who attended the initial CSE meeting) created a draft IEP—
or at a minimum, input the student's present levels of performance into a draft through "IEP
Direct"—which both CSEs reviewed and revised to ultimately become the student's finalized June
2016 IEP (see Tr. pp. 238, 246, 478-79, 492, 498-502, 677-80, 779; compare Dist. Ex. 46 at pp. 816, with Dist. Ex. 45 at pp. 1-10).
However, contrary to the district's assertion, some confusion exists in the hearing record as
to whether the student's preschool providers created the annual goals in the IEP—for example, the
district's director of special education (director) testified that the student's then-current preschool
providers drafted the annual goals in the June 2016 IEP, which the CSE "reviewed as a committee
twice subsequent to them drafting it" (Tr. pp. 478-79). Yet a district speech-language pathologist
who provided speech-language therapy services to the student during the 2015-16 school year and
who attended the June 2016 CSE meeting testified that she wrote a "few [annual] goals" for the
student and that the CSE "did some revisions on the goals" (Tr. p. 609; see Tr. pp. 597-609; Dist.
Ex. 35 at p. 4). Next, the student's preschool speech-language pathologist who attended the initial
CSE meeting testified that although the preschool staff assisted in the preparation of the present
levels of performance in the student's IEP, neither she nor the preschool staff assisted in the
development of the annual goals in the student's IEP (see Tr. pp. 675-86, 688-89, 691; see generally
Dist. Ex. 41). The preschool director of ABA services also testified that the preschool staff did
not "write the goals for kindergarten" (Tr. pp. 1197-98). Finally, the preschool executive director
testified that at the initial CSE meeting, the preschool staff in attendance provided "input into
goals," but did not submit "something in writing" (Tr. pp. 775-76).3°
Regardless of this confusion, the hearing record contains sufficient evidence to conclude
that, contrary to the parents' assertions; the CSEs considered the parents' input into the formulation
of the annual goals, including their request to include annual goals "more consistent" with their
own observations of the student's present levels. Furthermore, the hearing record contains
sufficient evidence to conclude that the CSEs discussed, reviewed, and revised the annual goals
ultimately incorporated into the June 2016 IEP. On these points, the district special education
teacher who attended the June 2016 CSE meeting testified that when the CSE "started going
through the goals," the parents would indicate that the student could "already do these things" (Tr.
pp. 244-45). In consideration of the parents' input, the CSE then rewrote some of the annual goals
to be more consistent with what the parents indicated that the student "was capable of doing" (Tr.
p. 245; see Dist. Ex. 46 at pp. 1, 6). Similarly, the director recalled reviewing and discussing the
annual goals at the June 2016 CSE meeting—as well as the student's present levels of
performance—because "some disagreement" arose concerning "what [the student] could do at
3° The hearing record included a document drafted by the parents, which included a list of what appears to be
annual goals for the student (see Dist. Ex 46 at pp. 17-21; see also Joint Ex. 1 at pp. 10-14). At the impartial
hearing, the director testified that she did not recall when the parents provided this document to the district, that
is, whether it was before or after the June 2016 CSE meeting see Tr. pp. 487-88; Dist. Ex. 46 at pp. 17-21). In
the due process complaint notice, it appears that the parents forwarded a copy of this same document to the
director attached to an e-mail dated June 29, 2016, after the June 2016 CSE meeting see Joint Ex. 1 at pp. 8-14).
However, when reviewing the annual goals in the June 2016 IEP, it does appear that some of the annual goals
reflect concepts or language derived from the list of annual goals in this document, which suggests that the district
or the June 2016 CSE may have had a copy of the document at the time, the IEP was developed (compare Dist.
Ex. 46 at p. 19, with Dist. Ex. 46 at pp. 12-13, and Dist. Ex. 45 at pp. 5-6).

22

App 73

school and what was observed at home" (Tr. pp. 479-80). The director testified that the June 2016
CSE modified the present levels of performance to "include strategies that the parents believed to
be effective" for the student, and the CSE also reviewed the annual goals (Tr. p. 480; see Dist. Ex.
46 at pp. 1, 6).31 Finally, the preschool executive director confirmed in testimony that the CSE
"did talk about the goals" and the preschool staff "did make comments about the goals" (Tr. p.
776).
Turning to the parents' argument that the annual goals were not appropriate because the
student had "substantially surpassed" them at the time of development, the evidence in the hearing
record does not support this assertion, especially upon review of the student's present levels of
performance as reflected in the June 2016 IEP. Here, the IEP generally indicated that the student
exhibited delays in the areas of speech-language, pragmatic language, academic skills, cognitive
skills, social skills, and fine motor skills (see Dist. Ex. 45 at pp. 2-5). Specifically, the June 2016
IEP reflected that the student continued to exhibit "significantly delayed" receptive and expressive
language skills, "delayed" articulation skills in connected speech, "below age level" pragmatic
language skills, and his spontaneous speech continued to be a "combination of English and [his
native language]" (A at p. 3). According to the IEP, the student could "identify pictures of a
variety of nouns and actions in a structured activity," and he could produce "verb [and] noun
phrases more consistently to describe a picture" (id.). At that time, the student could answer "basic
'yes and no' factual questions in discrete trials," and produced one to four word "phrases to
comment" (i). It was also noted in the IEP that the student "spontaneously greet[ed] familiar
adults and peers with 'hi' and 'bye" (id.). With respect to the parents' concerns, the June 2016 CSE
denoted in the IEP that the student needed to improve his "articulation skills in connected speech,"
his ability to "respond to a variety of questions," and his pragmatic skills for a "variety of pragmatic
functions (requesting, commenting, verbal discourse, etc.)," and he needed to "expand vocabulary
skills to label" (id. at p. 4). To address the student's speech-language needs, the June 2016 IEP
included annual goals that targeted his ability to "describe actions in presented pictures with no
more than [three] cues" and to repeat a three-word to four-word sentence "using both intelligible
speech and appropriate voice level with no more than [one] model" (id. at p. 6).
In the present levels of performance section of the IEP, the June 2016 CSE described the
student's cognitive skills as "significantly below average" (Dist. Ex. 45 at p. 3). In addition, the
IEP reflected that the student could "count and identify numbers 1 [through] 10" and demonstrated
the ability to "write his first name when given a model" (id.). As of November 2015, the student
could "identify 18/26 letters" of the alphabet, and the IEP further noted that the student was "now
able to recognize the letters in his first name, identify parts of a book, answer social question and
sit and attend with a quiet body (including hands), when assessed in a 1:1 discrete trial format, 1:1,
with food reinforcers and no distractions" (id.). With respect to the parents' concerns, the June
2016 CSE identified in the IEP that the student needed to improve his ability to "[c]ount objects
to [up to] 20 using 1:1 correspondence" (id. at p. 4). To address the student's academic needs, the
June 2016 IEP contained an annual goal designed to improve the student's ability to "follow a onestep direction in the classroom," and specific to the area of mathematics, the IEP included an

31 The director also explained in testimony the general process used in writing annual goals and what factors a
CSE considered when writing annual goals for school-aged students as opposed to annual goals written for
preschool students (see Tr. pp. 500-03).

23

App 74

annual goal for the student to improve his ability to "identify numbers 1 [through] 20 presented in
any order" (id. at p. 6).
With regard to adaptive and daily living skills, the June 2016 IEP indicated that when the
student arrived at school he "complete[d] the morning routine independently" (Dist. Ex. 45 at p.
3). The June 2016 CSE further noted, however, that the student exhibited "difficulty attending
during small and large group activities" and "requir[ed] continuous modeling and prompts" (id.).
As described in the IEP, the student followed one-step directions, and he "respond[ed] to a 3-step
compliance routine (request-model-assist.)" (id.). However, the student continued to require "adult
support, modeling, and verbal prompts to follow multiple directions" (id.). The IEP further
reflected that the student was toilet trained and that he ate snack and lunch "independently" (i).
While not directly targeted with annual goals, the June 2016 CSE included several strategies to
address the student's needs described above within the management needs section of the IEP (i.e.,
recommending the use of a "3-step compliance approach (REQUEST-MODEL-ASSIST)") and
through recommendations for supplemental aids and services, program modifications, and
accommodations, including the use of a visual schedule and refocusing and redirection throughout
the school day
at pp. 5, 7-8).
In describing the student's present levels of social development, the June 2016 IEP reflected
the student's "interest [in] interacting with peers and adults"; however, the student continued "to
require adult support and modeling to initiate social interactions appropriately other than saying
hi" (see Dist. Ex. 45 at p. 4). Additionally, the June 2016 IEP indicated that the student
demonstrated "difficulty sharing with peers," explaining that while he "often expect[ed] [peers] to
share," he did not always "reciprocate[] without support" (i). The June 2016 IEP also reported
that, "[i]n the past, [the student] showed frustration by yelling or hitting"; however, at that time,
the student was "now spontaneously using his words to express distress when asked to comply
with demands," and furthermore, the student was beginning to independently stop himself when
he would start to exhibit aggression i(A
). The IEP noted that the student "continue[d] to work on
social skills goals" during discrete trial teaching and that he was "making slow progress with
initiating appropriate interactions with peers, inviting a peer to play and identifying facial
expressions" (id.). With respect to the parents' concerns, the June 2016 IEP indicated that the
student needed to "[i]nitiate appropriate verbal and social exchanges with peers" (id. at p. 4). To
address the student's social/emotional and behavior needs, the June 2016 IEP contained annual
goals designed to improve his ability to identify "12 different emotions" when shown photographs
of the same and to "engage in cooperative play skills (e.g., sharing, initiate and maintain play with
peers, demonstrate turn-taking, display appropriate response to winning/losing) for 10 minutes"
OA at p. 6).32
In the area of physical development, the June 2016 IEP indicated that the student
"present[ed] with delayed fine motor skills" and noted that "[Mint hypermobility within the hands
interfere[d] with his ability to use stable grasp postures on writing tools" (Dist. Ex. 45 at p. 4).
In addition to annual goals to address the student's social/emotional and behavior needs, the June 2016 CSE
included strategies to further address the student's needs within the management needs section of the IEP (i.e.,
recommending the use of "[m]odeling of appropriate social interaction," the use of "[p]ositive reinforcement for
compliance and prosocial behaviors," and "ignor[ing] and redirect[ing] undesired behaviors") (Dist. Ex. 45 at p.
5).
32

24

App 75

However, the IEP also noted that the student could "form most of the letters of his name," but he
continued to "need repetition and a multisensory approach to write these letters in correct order"
(id.). Furthermore, the June 2016 IEP described the student as "often distracted," and noted that
as a result, he would "miss salient features of a task" (id.). The June 2016 IEP also noted that the
student needed "additional cues [or] supports to use visual demonstrations," and he "often use[d]
inefficient movement patterns which result[ed] in him needing additional time to complete fine
motor tasks" (id.). Finally, the IEP reflected that the student "enjoy[ed] a variety of movement
experiences as well as opportunities to learn using a sensory motor approach" (id.). With respect
to the parents' concerns, the IEP indicated that the student needed to "correctly form letters and
numbers" (id. at p. 5). Here, the student's needs in the area of fine motor skills were addressed
with annual goals designed to improve his ability to "legibly form 20/26 alphabet letters with use
of a visual model" and to complete a "simple [three-]step fine motor activity with a visual model
with no more than [two] cues" (id. at p. 6).
As the discussion above demonstrates, the evidence in the hearing record leads me to the
overall conclusion that the annual goals in the June 2016 aligned with and targeted the student's
needs identified in the present levels of performance, appropriately addressed the student's needs,
and were sufficiently specific and measurable to guide instruction and to evaluate the student's
progress over the course of the school year (see D.A.B. v. New York City Dep't of Educ., 973 F.
Supp. 2d 344, 359-61 [S.D.N.Y. 2013]; E.F. v. New York City Dept. of Educ., 2013 WL 4495676,
at *18-*19 [E.D.N.Y. Aug. 19, 2013]; D.B., 966 F. Supp. 2d at 334-35; S.H. v. Eastchester Union
Free Sch. Dist., 2011 WL 6108523, at *8 [S.D.N.Y. Dec. 8, 2011]; W.T. v. Bd. of Educ., 716 F.
Supp. 2d 270, 288-89 [S.D.N.Y. 2010]; Tarlowe, 2008 WL 2736027, at *9; M.C. v. Rye Neck
Union Free Sch. Dist., 2008 WL 4449338, at *11 [S.D.N.Y. Sept. 29, 2008]; W.S. v. Rye City
Sch. Dist., 454 F. Supp. 2d 134, 146-47 [S.D.N.Y. 2006]; Application of the Dep't of Educ., Appeal
No. 12-108 [finding annual goals appropriate where the goals addressed the student's areas of need
reflected in the present levels of performance]).33
2. Educational Placement and LRE
Turning now to the crux of the parties' dispute, the parents allege that the "Connections
program and kindergarten" did not satisfy either the FAPE requirement or the LRE requirement,
as the student had succeeded in an "all-day integrated setting." The parents also argue that the
student required a "5-hour integrated school day." In response, the district asserts that the June
2016 IEP provided the student with the opportunity to attend a full-time, general education
kindergarten class with his nondisabled peers, together with the opportunity to receive special
education services in a special education classroom when the student's "nondisabled classmates
would not be in school."

33 A

comparison of the draft IEP with the finalized June 2016 IEP reveals that the draft IEP originally included at
least two annual goals addressing the student's speech-language needs, which appeared to target specific needs
identified by the parents as concerns in the present levels of performance (i.e., needs to "improve ability to respond
to a variety of questions" and to "expand vocabulary skills to label") but did not appear in the finalized IEP
(compare Dist. Ex. 46 at pp. 11, 13, with Dist. Ex. 45 at pp. 4, 6). The draft IEP also included a third annual goal
related to the student's articulation skills, which appeared as a modified version in the June 2016 IEP (compare
Dist. Ex. 46 at p. 13, with Dist. Ex. 45 at p. 6).

25

App 76

Before reaching an analysis of the LRE question, it is helpful to briefly review the special
education program recommended for the student in the June 2016 IEP. Initially, and using only
the June 2016 IEP as a reference, the CSE recommended that the student attend a 12-month school
year program (see Dist. Ex. 45 at pp. 1, 8-9). For the summer (July and August) portion of the
school year, the CSE recommended that the student attend a 12:1+1 special class placement in a
non-integrated setting (five days per week, five hours and 30 minutes per day), together with one
30-minute session per week of speech-language therapy in a small group in a non-integrated setting
(id.). According to the IEP, for September through June 2016, the CSE recommended that the
student attend a 12:1 special class placement ("Connections") in a "[s]pecial [c]lasses" setting (five
days per week, two hours per day), together with related services of speech-language therapy and
OT provided to the student either in a therapy room or in the classroom OA at pp. 1, 7). In that
portion of the IEP used to describe the student's "Participation with Students without Disabilities,"
the June 2016 CSE inserted "Not Applicable" (id. at pp. 9-10).34 At no point in the administrative
does either party seriously appear to contemplate that the student would not have attended the
morning kindergarten session in the general education setting, consequently this is probably little
more than a ministerial error to the extent that the IEP did not note that the student would attend
the general education environment.35
While not necessarily reflected in the June 2016 IEP, the evidence in the hearing record
demonstrates that the student's special education program consisted not only of the 12:1 special
class placement—or the "Connections" classroom—but also the "regular [half] day kindergarten
program" in the "mainstreamed setting" for five days per week, 2 hours 40 minutes per day

Significantly, although the June 2016 CSE recommended essentially the same "Connections" program for the
2016-17 school year as in the previous school year, for the 2015-16 school year the May 2015 CSE included the
following language in the IEP to describe the student's "Participation with Students without Disabilities": "Core
academic instruction will be provided in special education setting. Student will participate with Kindergarten
peers in the general education setting as appropriate" (compare Dist. Ex. 28 at pp. 9-10, with Dist. Ex. 45 at pp.
9-10). In fact, the only reference to the student attending a classroom setting other than the 12:1 special class
placement in the June 2016 IEP is found within the recommendation for the use of a visual schedule in the
"kindergarten and special education classes" (Dist. Ex. 45 at p. 7).
34

35 To be clear, certain additional instructional or supportive services may be available to special education students
and non-disabled students alike (e.g., academic intervention services (AIS) or "building level services"); however,
according to the State Education Department, such services should not be listed on a student's IEP (see "Academic
Intervention Services: Questions and Answers," at pp. 5, 20, Office of P-12 Mem. [Jan. 2000], available at
http://www.p12.nysed.gov/part100/pages/AISQAweb.pdf). On the other hand, services that clearly fall into the
realm of special education services are required to be listed on an IEP, at least according to United States
Department of Education guidance, which states that " [t]he IEP Team is responsible for determining what special
education and related services are needed to address the unique needs of the individual child with a disability. The
fact that some of those services may also be considered 'best teaching practices' or 'part of the district's regular
education program' does not preclude those services from meeting the definition of 'special education' or 'related
services' and being included in the child's IEP" (Letter to Chambers, 59 IDELR 170 [OSEP 2012]). In this case,
the only thing that should have been on the IEP is the extent to which any of the student's programing included
participation with his non-disabled peers.

26

App 77

(compare Dist. Ex. 45, with Joint Ex. 1 at pp. 7-8, and Dist. Ex. 50, and Tr. pp. 113-14, 466).36 At
the impartial hearing, the district special education teacher assigned to the 12:1 "Kindergarten
Connections" special class described the implementation of this particular program during the
2016-17 school year (see Tr. pp. 113-22). First, if the student had attended the district's
recommended program, he would have attended an integrated kindergarten classroom for the
morning portion of his school day (see Tr. pp. 113-15). The district special education teacher
testified that the "Connections" students attended the "regular mainstream kindergarten" in the
morning until the "mainstream kindergarten students ['] " dismissal time at approximately 10:40
a.m. (Tr. pp. 113-14).37 After dismissal, the "Connections" students went to lunch and recess (Tr.
p. 114). Following lunch and recess, the "Connections" students attended the 12:1 special class
placement for the remainder of the school day where they received "skill building and instruction"
for English language arts (ELA), mathematics, writing, and social skills (Tr. p. 113). At times, the
students in the "Connections" class received "one-on-one" instruction with the teacher or
participated in "small group" instruction (Tr. p. 114). For the 2016-17 school year, the
"Connections" special class placement had a total of four students in the class (il). All four
students in the "Connections" special class placement attended the same "general education
kindergarten class" in the morning (Tr. pp. 114-15). During the afternoon, the "Connections"
students also attended "specials" together, which the district special education teacher described
as "library, art, music," "computer class," and "gym" (Tr. pp. 120-21).
In finding that the district offered the student a FAPE in the LRE for the 2016-17 school
year, the IHO first noted that the student's kindergarten class consisted of both disabled and
nondisabled peers and support from "teacher aides" who would assist the student's ability to
"generalize the academic and social skills taught in the Connection Program" (IHO Decision at p.
14). Relying solely on the student's placement within this integrated kindergarten class—which,
as noted by the IHO, provided the student "with exposure to peers who demonstrate[d] appropriate
behavior"—but without undertaking an analysis of the two-prong test set forth in Newington to
determine whether the June 2016 IEP placed the student in the LRE, the II-10 concluded that the
placement satisfied the LRE requirement (id.). Similarly, the evidence in the hearing record
reveals that not only did the June 2016 CSE suffer from the same fatal flaw, but also that the June
2016 CSE, in making its placement recommendation for the 2016-17 school year, only considered
program options the district already had available rather than making its recommendations based
upon the student's needs, a consideration of the full continuum of alternative placements, and then
36 In support

of its assertion that the student's recommended placement in a "general education kindergarten class,
with supports form the Connections special class" constituted the student's LRE, the district argues that the
"special education class, therefore, [was] a special education support to enable the [s]tudent to continue to fully
participate in and to progress within the general education setting" (Dist. Mem. of Law at p. 9). A plain reading
of the June 2016 IEP does not support this assertion; instead, the June 2016 IEP indicates that the student would
attend a 12:1 special class placement five days per week for two hours per day (see generally Dist. Ex. 45).
The district special education teacher explained that within the kindergarten setting, the "Connections" students
received the support of "two special education aides," who assisted the students with "packing and unpacking
their belongings," helping the students "use their visual schedules and their 'first then' cards, and any sensory
breaks that [were] needed" (Tr. p. 115). She also testified that the two special education aides provided "small
group instruction along with the classroom teacher" (id.). The June 2016 IEP did not include any
recommendations for the services of an aide during any portion of the student's school day during the 2016-17
school year (see generally Dist. Ex. 45).

37

27

App 78

offering the student the least restrictive placement from that continuum that was appropriate for
his needs in contravention of T.M. v. Cornwall Cent. Sch. Dist., 752 F.3d 145, 165-67 (2d Cir.
2014). Consequently, the IHO's conclusion must be reversed.
The IDEA requires that a student's recommended program must be provided in the LRE
(20 U.S.C. § 1412[a][5][A]; 34 CFR 300. 107, 300.114[a][2][i], 300.116[a][2], 300.117; 8
NYCRR 200.1[cc], 200.6[a][1]; see T.M., 752 F.3d at 161-67; Newington, 546 F.3d at 111;
Gagliardo, 489 F.3d at 105; Walczak, 142 F.3d at 132; Patskin v. Bd. of Educ., 583 F. Supp. 2d
422, 428 [W.D.N.Y. 2008]). In determining an appropriate placement in the LRE, the IDEA
requires that students with disabilities be educated to the maximum extent appropriate with
students who are not disabled and that special classes, separate schooling or other removal of
students with disabilities from the general educational environment may occur only when the
nature or severity of the disability is such that education in regular classes with the use of
supplementary aids and services cannot be achieved satisfactorily (20 U.S.C. § 1412[a][5] [A]; see
34 CFR 300.114[a][2][i], 300.116[a][2]; 8 NYCRR 200.6[a][1]; Newington, 546 F.3d at 112, 12021; Oberti v. Bd. of Educ., 995 F.2d 1204, 1215 [3d Cir. 1993]; J.S. v. N. Colonie Cent. Sch. Dist.,
586 F. Supp. 2d 74, 82 [N.D.N.Y. 2008]; Patskin, 583 F. Supp. 2d at 430; Watson v. Kingston
City Sch. Dist., 325 F. Supp. 2d 141, 144 [N.D.N.Y. 2004]; Mavis v. Sobol, 839 F. Supp. 968, 982
[N.D.N.Y. 1993]). The placement of an individual student in the LRE shall "(1) provide the special
education needed by the student; (2) provide for education of the student to the maximum extent
appropriate to the needs of the student with other students who do not have disabilities; and (3) be
as close as possible to the student's home" (8 NYCRR 200.1[cc]; 8 NYCRR 200.4[d][4][ii][b]; see
34 CFR 300.116). Consideration is also given to any potential harmful effect on students or on
the quality of services that they need (34 CFR 300.116[d]; 8 NYCRR 200.4[d][4][ii] [c]). Federal
and State regulations also require that school districts ensure that a continuum of alternative
placements be available to meet the needs of students with disabilities for special education and
related services (34 CFR 300.115; 8 NYCRR 200.6). The continuum of alternative placements
includes instruction in regular classes, special classes, special schools, home instruction, and
instruction in hospitals and institutions; the continuum also makes provision for supplementary
services (such as resource room or itinerant instruction) to be provided in conjunction with regular
class placement (34 CFR 300.115[b]).
To apply the principles described above, the Second Circuit adopted a two-pronged test for
determining whether an IEP places a student in the LRE, considering (1) whether education in the
general classroom, with the use of supplemental aids and services, can be achieved satisfactorily
for a given student, and, if not, (2) whether the school has mainstreamed the student to the
maximum extent appropriate (T.M., 752 F.3d at 161-67 [applying Newington two-prong test];
Newington, 546 F.3d at 119-20; see N. Colonie, 586 F. Supp. 2d at 82; Patskin, 583 F. Supp. 2d
at 430; see also Oberti, 995 F.2d at 1217-18; Daniel R.R. v. State Bd. of Educ., 874 F.2d 1036,
1048-50 [5th Cir. 1989]). A determination regarding the first prong, (whether a student with a
disability can be educated satisfactorily in a general education class with supplemental aids and
services), is made through an examination of a non-exhaustive list of factors, including, but not
limited to
(1) whether the school district has made reasonable efforts to accommodate
the child in a regular classroom; (2) the educational benefits available to the
child in a regular class, with appropriate supplementary aids and services,
28

App 79

as compared to the benefits provided in a special education class; and (3)
the possible negative effects of the inclusion of the child on the education
of the other students in the class
(Newington, 546 F.3d at 120; see N. Colonie, 586 F. Supp. 2d at 82; Patskin, 583 F. Supp. 2d at
430; see also Oberti, 995 F.2d at 1217-18; Daniel R.R., 874 F.2d at 1048-50). The Court
recognized the tension that occurs at times between the objective of having a district provide an
education suited to a student's particular needs and the objective of educating that student with
nondisabled peers as much as circumstances allow (Newington, 546 F.3d at 119, citing Daniel
R.R., 874 F.2d at 1044). The Court explained that the inquiry is individualized and fact specific,
taking into account the nature of the student's condition and the school's particular efforts to
accommodate it (Newington, 546 F.3d at 120).38
If, after examining the factors under the first prong, it is determined that the district was
justified in removing the student from the general education classroom and placing the student in
a special class, the second prong requires consideration of whether the district has included the
student in school programs with nondisabled students to the maximum extent appropriate
(Newington, 546 F.3d at 120).
Overall, I infer from the hearing record before me and the development of the parties'
positions that the district and parents were undoubtedly aware of the global nature of the
"Connections" program for all of the students therein and its relationship to the general education
setting at the time of the June 2016 CSE meeting; however, the hearing record contains little, if
any, evidence to establish that the district engaged in any meaningful LRE considerations that
were individualized to this student when making its recommendation to remove the student from
his non-disabled peers for approximately half of the instructional time envisioned under this
student's plan for the 2016-17 school year. For example, unlike every other CPSE or CSE
subcommittee or CSE meeting held for the student since 2014, the hearing record does not include
any CSE meeting minutes or a prior written notice for the initial CSE meeting held in spring 2016
that would indicate what, if any, discussions took place about the recommended placement or the
student's placement in the LRE (see Dist. Exs. 11 at pp. 1-2, 4; 16 at p. 1; 20 at pp. 1-2; 21 at p. 1;
25 at p. 1; 26 at pp. 1-2, 4-8; 27 at p. 4; 34 at pp. 6-9; 46 at pp. 1, 6). At a minimum, the evidence
in the hearing record indicates that the spring 2016 CSE meeting was "very contentious," and a
"great deal of disagreement" existed about the "direction of the IEP" between the parents and a
district representative at the meeting (Tr. pp. 776-79). In addition, one witness testified that this
initial CSE meeting ended with a "disagreement" with the management needs section of the IEP,
which had been "discussed at length" (Tr. pp. 780-82). Next, while the hearing record included a
copy of the June 2016 CSE meeting minutes, the minutes do not reflect any discussions about the
student's placement or, more specifically, the two-prong Newington test: (1) whether education in
the general classroom, with the use of supplemental aids and services, could be achieved
satisfactorily for this student, and, if not, (2) whether the spring 2016 CSE or the June 2016 CSE
mainstreamed the student to the maximum extent appropriate (see Dist. Ex. 46 at p. 6). Moreover,
the July 2016 prior written notice related to the June 2016 CSE meeting indicated that, with regard
The Second Circuit left open the question of whether costs should be considered as one of the relevant factors
in the first prong of the LRE analysis (Newington,546 F.3d at 120 n.4).

38

29

App 80

to a description of "any other options considered and the reason why those options were rejected,"
the district inserted the following as a response: "There were no other options considered at this
time" (id. at p. 1). Finally, the June 2016 IEP, itself, failed to include any notations that would
document a discussion regarding the student's placement and LRE considerations (see generally
Dist. Ex. 45).
Testimonial evidence elicited at the impartial hearing, while providing some insight into
the CSEs' decision-making process when selecting the student's placement in the LRE, was also
insufficient to establish that the district appropriately considered or applied the two-prong
Newington test. For instance, the district's director of special education (director) initially testified
that the CSE believed the "Connections" program was appropriate for the student because he had
a "diagnosis of autism, and given his cognitive and language abilities, the team felt that a half-day
kindergarten program alone would not be sufficient to meet his educational needs" (Tr. pp. 48788). When directly questioned if the CSE considered less restrictive placements such as a "coteaching or consultant teacher model within a kindergarten class," the director offered two rather
nonresponsive answers (Tr. p. 488). First, the director testified that "[w]e always consider the
[LRE], and so that was certainly considered by the team who went to observe [the student] in
preschool, and then the team ma[de] a recommendation based on their observation and based on
their consultation with parents and staff' (i). Next, when pressed about why the CSE
recommended "something that was more intensive in terms of services . . . instead of co-teaching
or consultant teacher," the director essentially repeated her previous response: the student's
"language and cognitive profile plan demonstrate[d] that he struggle[d] greatly with language
processing and cognition; therefore, if he were solely in a two-and-a-half-hour day, the team
believe[d] that he would not get sufficient reteaching and repetition so that he could learn and have
access to the kindergarten curriculum" (id.).
Thus, to the extent that the director's testimony suggests that the CSEs recognized that the
student's needs required more supports and services than could be offered during the district's halfday integrated kindergarten classroom, this same testimony does not answer the question of why,
when providing additional supports to the student in the latter portion of the school day, did the
CSE believe that the student had to be removed from his non-disabled peers in order to receive
sufficient additional support. This is essentially the question that is always posed by the first prong
of the Newington test with respect to whether education in the general classroom, with the use of
supplemental aids and services, could be achieved satisfactorily for this student. Had the district
and IHO applied the Newington test more systematically throughout the administrative process,
they would have discovered that the facts in this case closely parallel those considered by the
Second Circuit in T.M. (752 F.3d at 154-55, 161-63). Notably, this student, as a preschool student
with a disability—similar to the student at issue in T.M.—attended "'mainstream' general
education classrooms with non-disabled students" (i.e., an integrated setting) for preschool from
approximately March 2015 through August 2015 as recommended in his March 2015 IEP, and
then again, from approximately December 2015 through August 2016 per agreement by the parties
(T.M., 752 F.3d at 153-54; see Tr. pp. 697-98, 710-11, 810-12, 836-37, 1065-68; Dist. Exs. 24 at
p. 1; 25 at p. 1; 26 at pp. 1-2; 27 at pp. 6, 13-14; 33 at p. 1; 39; see generally Dist. Exs. 23; 40-43).
In addition, it is undisputed that the student attended a full-day integrated preschool classroom,
meaning approximately four hours per day during the 2014-15 school year and approximately five
hours per day during the 2015-16 school year (see Tr. pp. 711, 761-62). Also, similar to the facts
weighed and considered by the Court in T.M., the evidence in the hearing record reflects that the
30

App 81

student made progress and "was able to achieve a satisfactory education" while attending the
integrated preschool classroom (T.M., 752 F.3d at 162-63; see generally Tr. p. 847; Dist. Exs. 2930; 40-43; 47). Therefore, as the Court concluded in T.M., the facts in this case "clearly
demonstrate[] that [the student] could succeed" in a full-day integrated setting (T.M., 752 F.3d at
162). In addition and also consistent with T.M., the hearing record does not contain evidence—
nor does the district point to any evidence—indicating that the student would "obtain greater
educational benefits from a more restrictive setting" (T.M., 752 F.3d at 162).39 In light of these
facts, it is reasonable to conclude from the first prong of the Newington test that a full-day
integrated setting should have been considered first as the least restrictive placement that could
address the student's needs (see T.M., 752 F.3d at 162), rather than immediately deciding to
remove the student from the general education setting and his non-disabled peers upon the
conclusion of the morning kindergarten session.4°
Instead, while the district recognized that the student required more support than a halfday general education setting and proceeded to consider a full-day program, the hearing record
thereafter lacks any evidence that the district considered the student's placement in a full-day
integrated setting for the 2016-17 school year. It appears that the reason for not considering such
a full-day integrated program was that essentially, such a program did not exist at the district. The
same reasoning, the nonexistence of an in-district integrated summer program, was advanced by
Cornwall before the Second Circuit and the Court resoundingly rejected that reasoning (T.M., 752
F.3d at 166). The Court instructed that if the Cornwall did not wish to create an integrated
program, it was not required to, but that it was required to place the student in an integrated public
program elsewhere (id.).41 Similarly, the evidence in the hearing record in this case demonstrates
that the district recommended the only full-day program it had already created: namely, a half-day
39 I have presided over many cases in which a party or an IHO equates the term "additional support" with "more
restrictive" as if the two phrases are synonymous and, for some disabled students, the type of additional supports
available in non-integrated settings are very clearly necessary to provide the student with educational benefits or
avoid unduly impinging upon the educational experience of other students in the general education setting.
However, it does not follow that "additional support" always means "more restrictive."

4° To be clear, in light of these facts, if the parents had specifically challenged the district's decision to recommend
a 12:1+1 special class placement in a non-integrated setting for summer 2016, the Court's holding in T.M. would
appear to require a finding, on this basis alone, that the district failed to offer the student a FAPE in the LRE for
the 2016-17 school year (see T.M., 752 F.3d at 162-65).
41 The Court held that "[wie therefore agree with both parties that the IDEA does not require a school district to
create a new mainstream summer program from scratch just to serve the needs of one disabled child. * * * Instead,
the school district may choose to place the—child in a private mainstream summer program, or a mainstream
summer program operated by another public entity" (T.M. 752 F.3d, at 166). Assuming that the parents are correct
and that the district should have offered the student a full-dy integrated setting with appropriate supports (a
contention that the district has not refuted in this case under a Newington analysis), it does not follow that the
district must be the entity that creates such a program or that it be created exactly as the parents wish. But the
district may be called on to find such an all-day integrated program. The Second Circuit went on to reject several
of Cornwall's additional arguments: "Cornwall responds that it had no way to offer T.M. a placement in a
mainstream ESY program operated by another entity, because (1) no public mainstream ESY programs existed
in the area and (2) New York law prohibited it from offering T.M. a placement in a private mainstream ESY
program. But even assuming those facts are true, they do not change Cornwall's obligation under the IDEA to
consider a full continuum of alternative placements and then offer T.M. the least restrictive placement from that
continuum that is appropriate for his needs" (T.M. 752 F.3d, at 166).

31

App 82

integrated kindergarten setting for the student, together with a 12:1 special class placement
("Connections") in a non-integrated setting for the remainder of his school day. During crossexamination, the parents continued to press the director about potential or even hypothetical
program options and LRE considerations for the student. Upon questioning, the director confirmed
that the district offered both a morning kindergarten and an afternoon kindergarten program (see
Tr. p. 517). When asked if the district or if the CSE considered an "integrated . . . all day" program
for the student, the director testified that the district did not "have an integrated all-day program,"
noting, again, that the district "only" had a "half-day kindergarten" program (Tr. pp. 517-18). The
director offered the same response when asked if a CSE had "ever considered providing" an
integrated all-day program for autistic students (Tr. pp. 518-19). The IHO also asked the director
whether the CSE considered the "possibility of a full day program in general" for the student, that
is, placing the student in both a morning kindergarten and in an afternoon kindergarten program
during the same day—and the director responded, "[n]o" (Tr. p. 519). Seeking further clarification
of the CSE's placement in the LRE determination, the parents asked the director: "Are you saying
that the reason you don't provide a full-day integrated environment for an autistic student is
because one . . . just simply doesn't exist right now?" (Tr. pp. 519-20). The director responded,
again, that the district had a "half-day kindergarten," and if a student functioned "at grade level
academically" and therefore did not need "any self-containment," the student would only attend
the "integrated portion of the day" (Tr. pp. 520-21). The director continued to explain, however,
that if a student needed "additional instruction, we have created essentially a full-day program" for
such students, adding that to have students "repeat the same exact content twice in a day . . . d[id]
not allow for specialized instruction" and students with a disability that "impacts their ability to
learn, . . . require specialized instruction" (Tr. p. 521).
Having created a full-day program that provided the student with access to his nondisabled
peers for half of his school day, it is understandable that both the district—and the IHO—believed
that the district's recommended placement satisfied its LRE obligation. But according to the Court
in T.M., the pervasiveness of the LRE requirement required the application of the two-prong
Newington test to the "entire proposed educational program" (see T.M., 752 F.3d at 162-65
[finding specifically that the LRE requirement applies to the summer component of the student's
recommended 12-month school year program]; see also 34 CFR 300.107; 300.114; 300.117; 8
NYCRR 200.4[d][2][v][a][1]-[3]). In T.M., the Court rejected the district's assertion that the "LRE
requirement [was] necessarily limited, in the ESY context, by what programs the school district
already offer[ed]" (T.M., 752 F.3d at 163). Significantly, the Court explained that a "disabled
child should not be forced into a special classroom if he or she can be appropriately educated in a
mainstream classroom" (T.M., 752 F.3d at 163).
Therefore, assuming for the sake of argument that the half-day integrated kindergarten
classroom component of the student's recommended placement met this inquiry, the hearing record
fails to contain any evidence to establish that either the spring 2016 CSE or the June 2016 CSE
undertook any analysis of the Newington factors to determine whether the 12:1 special class
placement (or the "Connections" program) recommended in the June 2016 IEP met these same
LRE requirements. It is undisputed that the district's recommended "Connections" classroom was
a 12:1 special class placement—a special education program "open only to students with
disabilities" (see T.M., 752 F.3d at 164; 8 NYCRR 200.6[h]). If the district did not have a less
restrictive placement available for the student in the latter portion of the school day, the district
was not required, as the parents suggest, to create a "new" program "just to serve the needs of one
32

App 83

disabled child" (T.M., 752 F.3d at 165-66). However, this does not absolve the district from
complying with the need to comply with the IDEA's LRE requirement, which the Court indicates
may be satisfied if the district "choose[s] to place the child in a private . . . program, or a . . .
program operated by another public entity" (T.M., 752 F.3d at 166).42
3. Management Needs and Methodology
The gravamen of the parties' dispute focuses on whether the June 2016 CSE's failure to
include a recommendation for ABA as a methodology in the management needs section of the
student's IEP resulted in a failure to offer the student a FAPE. The parents argue that the student
required a full-day, integrated intensive ABA program, modeled on the preschool program, and
that provided the student with 40 hours per week of intensive ABA. The parents also assert that
the management needs in the June 2016 IEP included only "trivial elements of a comprehensive
program requiring no training of staff." In response, the district admits that the June 2016 IEP did
not recommend a placement that utilized ABA methodology, but further responds that the district
hired a BCBA with "training and experience in the application of ABA."
State regulation and guidance documents define management needs as the "nature and
degree to which environmental modifications and human or material resources are required to
enable the student to benefit from instruction" (8 NYCRR 200.1[ww][3][i][d]; see "Guide to
Quality Individualized Education Program [IEP] Development and Implementation," at p. 20,
Office of Special Educ. [Dec. 2010], available at http://www.p12.nysed.gov/specialed/
publicationshepguidance/lEPguideDec2010.pdf [providing examples of environmental
modifications (i.e., consistency in routine, limited visual or auditory distractions, adaptive
furniture), human resources (i.e., assistance in locating classes, following schedules, and note

In determining a student's educational placement, State and federal regulations provide that a district must
"ensure" that a student attend a placement "as close as possible to the [student's] home" and "[u]nless the IEP of
a [student] with a disability requires some other arrangement, the [student] is educated in the school that he or she
would attend if nondisabled" (34 CFR 300.116[b][3], [c] [emphasis added]; see 8 NYCRR 200.1[cc],
200.4[d][4][ii]). Numerous courts have held that, while a district remains obligated to consider distance from
home as one factor in determining the school in which a student's IEP will be implemented, this provision does
not confer an absolute right or impose a presumption that a student's IEP will be implemented in the school closest
to his or her home or in his or her neighborhood school (see White v. Ascension Parish Sch. Bd., 343 F.3d 373,
380-82 [5th Cir. 2003]; Lebron v. N. Penn Sch. Dist., 769 F. Supp. 2d 788, 801 [E.D. Pa. 2011] [finding that
"though educational agencies should consider implementing a child's IEP at his or her neighborhood school when
possible, [the] IDEA does not create a right for a child to be educated there"]; Letter to Trigg, 50 IDELR 48
[OSEP 2007]; see also R.L. v. Miami-Dade Cnty. Sch. Bd., 757 F.3d 1173, 1191 n.10 [11th Cir. 2014]; A.W. v.
Fairfax Cnty. Sch. Bd., 372 F.3d 674, 682 [4th Cir. 2004]; McLaughlin v. Holt Pub. Sch. Bd. of Educ., 320 F.3d
663, 672 [6th Cir. 2003]; Kevin G. v. Cranston Sch. Comm., 130 F.3d 481, 482 [1st Cir. 1997]; Flour Bluff Ind.
Sch. Dist. v. Katherine M., 91 F.3d 689, 693-95 [5th Cir. 1996]; Urban v. Jefferson Cnty. Sch. Dist. R-1, 89 F.3d
720, 727 [10th Cir. 1996]; Poolaw v. Bishop, 67 F.3d 830, 837 [9th Cir. 1995]; Murray v. Montrose Cnty. Sch.
Dist. RE-1J, 51 F.3d 921, 929 [10th Cir. 1995]; Schuldt v. Mankato Indep. Sch. Dist. No. 77, 937 F.2d 1357,
1361-63 [8th Cir. 1991]; Barnett v. Fairfax Cnty. Sch. Bd., 927 F.2d 146, 152-53 [4th Cir. 1991] [holding that a
district must "take into account, as one factor, the geographical proximity of the placement in making these
decisions"]; H.D. v. Cent. Bucks Sch. Dist., 902 F. Supp. 2d 614, 626 [E.D. Pa. 2012]; Straube v. Florida Union
Free Sch. Dist., 801 F. Supp. 1164, 1177-79 [S.D.N.Y. 1992]).
42

33

App 84

taking), and material resources (i.e., instructional materials in alternative formats)]).43 A student's
management needs must be developed in accordance with the factors identified in the areas of
academic or educational achievement and learning characteristics, social development, and
physical development, and reported in the student's IEP (see 8 NYCRR 200.1[ww][3][i][d],
200.4[d] [2] [i]).
A review of the evidence in the hearing record establishes that the initial spring 2016
CSE—described as a "very contentious meeting"—ended with a "disagreement" about the
management needs section of the LEP, which had been "discussed at length" (Tr. pp. 780-82; see
Tr. pp. 776-79). According to the CSE meeting minutes and the prior written notice, the June 2016
CSE reconvened per the parents' request and, in particular, to discuss the parents' request for
"ABA" (Dist. Ex. 46 at pp. 1, 6)." At the impartial hearing, the district special education teacher
who attended the June 2016 CSE meeting testified that the parents raised concerns at the meeting,
and their "big concern" focused on the use of a "three-step approach" with the student (Tr. pp. 24445). It was also "very important" to the parents that the district use "ignoring and redirecting" with
the student as well (Tr. p. 245). The district special education teacher further testified that the June
2016 CSE discussed the parents' desire to put "ABA" and "discrete trials" in the IEP (id.).45 She
explained that although the director told the parents that the district "could not do that," the director
also told the parents that the district would "take some of the terminology used in conjunction with
discrete trials and kind of reword [it], [and] put that in the IEP so that those things could happen
for [the student]" (Tr. pp. 245-46).
In testimony, the director acknowledged that the June 2016 CSE did not agree to the
parents' request to specify ABA in the IEP (see Tr. p. 480). In reviewing the draft IEP used at the
meeting, the director confirmed that the "handwriting" represented the "parents' input" (Tr. p. 481).
She explained that "we had a lot of discussion about management needs" and "we were trying to
come up with language that could agree to put in [the student's] IEP"—and the handwritten
u Additional examples of management needs can be found in the general directions for the use of the State's
model IEP form (see "General Directions to Use the State's Model Individualized Education Program (IEP)
Form," Office of Special Educ. Mem. [Revised Mar. 2010], available at
http://www.p12.nysed.govispecialed/formsnotices/IEP/directions.htm).
" The meeting minutes and prior written notice reflected that the CSE was "not in agreement with adding ABA
to [the student's] IEP," but the CSE did review and modify the "language" in the present levels of performance to
"include strategies that [the] parents believe[d] [were] effective" (Dist. Ex. 46 at pp. 1, 6, 10, 12-15, 17-21). In
both the CSE meeting minutes and the prior written notice, the district indicated that the "CSE d[id] not specify
methodologies or programs in the IEP" as the reason the CSE declined to include ABA methodology in the June
2016 IEP (id. at pp. 1, 6). In addition, the district noted in the prior written notice that the student's preschool
program "provided no specific information regarding [his] progress in his current program" as another rationale
for rejecting the parents' request for ABA to be included in the IEP (i).
as In an e-mail to the parents on June 13, 2016—the day before the June 2016 CSE meeting—the director
explained to the parents that "[a]s with every methodology, there [was] not one single methodology that me[t] the
needs of every child. Each child, based on their development levels and individual goals, require[d] an
individualized approach to support their learning" (Joint Ex. 1 at p. 7). After the June 2016 CSE meeting, in an
e-mail dated July 5, 2016, the director noted that "[a]s I previously stated, the CSE will not specify and [sic]
methodology or program in the management needs section. I do not have any clear data or evidence from [the
preschool] about [the student's] progress, therefore I don't have much to support specific management needs other
than what our school staff knows about [the student]" (Joint Ex. 1 at p. 15).

34

App 85

notations on the draft IEP was the language that she and the parents agreed upon at that time to
include in the management needs (i; see Dist. Ex. 46 at p. 12). To address the parents' concern
about the student receiving "components of ABA," the June 2016 CSE agreed to provide a
"specialist who had experience with autism and ABA to support the staff in implementing" the
student's IEP and therefore, recommended an "Educational Consult" as a support for school
personnel (Tr. p. 485; Dist. Ex. 45 at p. 8). The director testified that she "agreed to that because
[she] thought it was a good compromise to not listing methodology on an IEP" and the "consultant"
would support the "team in carrying out the basic components of ABA" (Tr. p. 485). She also
testified that other than the parents, the "CSE did not believe that ABA was necessary for [the
student] to make progress" (Tr. p. 486). However, the June 2016 CSE agreed to add the
educational consult "because it was very important to the parents and [she] thought that it was a
fair compromise" (id.).
In addition, the director testified that the management needs section of the June 2016 IEP
included other language that addressed the "provision of instruction consistent with an ABA
model," such as "[m]odeling," the use of "simple direct language until generalization into a
naturalistic setting [was] established for a given task," "[t]asks need[ed] to be broken down into
sufficiently small steps," "[c]omplex tasks need[ed] to be separated into individual simplistic steps
that c[ould] be learned separately and later recombined," "[p]ositive reinforcement for compliance
and for social behaviors," "[i]gnore and redirect undesired behaviors," "[o]pportunities for
individual instruction when learning basic rote facts or behaviors," "[a]void negative feedback,"
and the use of "three-step compliance approach" (Tr. pp. 486-87; Dist. Ex. 45 at p. 5).46
During cross-examination, the parents asked the director whether the items she included
within the management needs section of the IEP were "more or less cherry-picking the things that
[she] wanted to put in and avoiding other things that [the parents] requested" (Tr. pp. 504-05). The
director responded that she "selected the items because those were general items that related to
[ABA] that were appropriate to implement in a school-aged program" (Tr. p. 505). She also
testified that the particular items selected to include in the management needs section of the IEP
had "nothing" to do with whether teachers would require further training in order to implement the
strategies recommended in the management needs (Tr. pp. 505-08).
Turning specifically to the question of methodology, the director initially stated that "[w]e
do not include methodology in the IEP" (Tr. p. 508). She explained that it was not included for a
"number of reasons," most significantly because when hiring "professionals to teach and provide
services to students, we rely on their expertise and their ability to carry out an IEP" (i). The
director also testified that placing a methodology on an IEP "pigeonhole[d] a staff member into
only utilizing one very specific tool that may or may not work for the student" and it provides the
teacher with "no flexibility to access their professional knowledge" (Tr. pp. 508-09).

The hearing record included a document drafted by the parents, which included proposed language to include
in the management needs section of the IEP (see Dist. Ex 46 at pp. 17-19; see also Joint Ex. 1 at pp. 10-12). As
noted previously, the director testified that she did not recall when the parents provided this document to the
district, that is, whether it was before or after the June 2014 CSE meeting (see Tr. pp. 487-88; Dist. Ex. 46 at pp.
17-21).

46

35

App 86

Generally, a CSE is not required to specify methodology on an IEP, and the precise
teaching methodology to be used by a student's teacher is usually a matter to be left to the teacher's
discretion—absent evidence that a specific methodology is necessary (Rowley, 458 U.S. at 204;
R.B. v. New York City Dep't of Educ., 589 Fed. App'x 572, 575-76 [2d Cir. Oct. 29, 2014]; A.S.
v. New York City Dep't of Educ., 573 Fed. App'x 63, 66 [2d Cir. July 29, 2014], affg 2011 WL
12882793, at *16 [E.D.N.Y. May 26, 2011] [noting the "broad methodological latitude" conferred
by the IDEA]; K.L. v. New York City Dep't of Educ., 530 Fed. App'x 81, 86 [2d Cir. July 24,
2013]; R.E., 694 F.3d at 192-94; M.H., 685 F.3d at 257 [indicating the district's "broad discretion
to adopt programs that, in its educational judgment, are most pedagogically effective"); see M.L.
v. New York City Dep't of Educ., 2014 WL 1301957, at *12 [S.D.N.Y. Mar. 31, 2014] [finding in
favor of a district where the hearing record did not "demonstrate[] that [the student] would not be
responsive to a different methodology"]; but see A.M. v. New York City Dep't of Educ., 845 F.3d
523, 541-45 [2d Cir. 2017] [holding that "when the reports and evaluative materials present at the
CSE meeting yield a clear consensus" regarding methodology, absent evidence to the contrary a
program that does not recommend the use of that methodology will not be reasonably calculated
to enable the student to receive educational benefits]).
Here, the hearing record fails to contains evidence to support the parents' contention that
the student required—in other words be exclusively limited to—an intensive ABA program;
instead, the evidence in the hearing record, as described more fully below, shows that the student
received instruction using both ABA and non-ABA methodologies, and he made progress in
individual and small group settings, as well as in larger group settings with adult support.
Therefore, the evidence in the hearing record does not support a conclusion that the student
required an intensive ABA program and that the IEP should be limited in that fashion in order to
provide the student with a FAPE.
Specifically, the hearing record indicated that from September 2015 through November
2015, the student attended the district's half-day integrated kindergarten classroom, and, for the
remainder of the school day, he attended a 12:1+1 special class placement ("Connections") (see
Tr. pp. 207-08, 211, 466; Dist. Ex. 28 at pp. 1, 7; see generally Dist. Exs. 30-38). At the impartial
hearing, the district special education teacher of the 12:1+1 special class placement for the 201516 school year (teacher) testified that the student attended her classroom, and he received direct
instruction for ELA and mathematics (see Tr. pp. 201, 207).
At the impartial hearing, the teacher testified that upon entering the 12:1+1 special class
placement in September 2015, the student was "very quiet " and "needed a lot of visual supports"
(Tr. pp. 207-08, 214). She used a "visual schedule" with the student, and she also testified that the
student "needed a lot of support and props [sic] to sit and attend in the kindergarten mainstream
classroom" (Tr. pp. 208, 211). The teacher noted that an aide would "modify any work for him by
highlighting it" and the student "was beginning to trace letters and complete the morning work"
(Tr. p. 211).
The evidence in the hearing record demonstrates that by mid-October 2015, the student
began performing his morning routine more independently, such as walking down the hall,
unpacking his bag with no prompts, going to the table to begin seat work, beginning to write his
name (whereas he did not write any letters independently in September 2015), getting his own
snack and requesting "'open please,'" sitting at the table and waiting for directions, waiting to be

36

App 87

called for lunch with no prompts, following the calendar routine, and counting to five on the
calendar and with popsicle sticks (Dist. Ex. 30; see Tr. pp. 211-12). In addition, the evidence
further indicated that the student made "slow progress in completing tasks independently" and had
shown "growth since September in a structured environment" (Dist. Ex. 30). The district special
education teacher who drafted the document also noted that the student's "language barrier [was]
slowing him down from making more progress" (id.).
In addition, the evidence in the hearing record included updates recorded in the present
levels of performance within the student's October 2015 IEP (compare Dist. Ex. 32 at pp. 3-4, with
Dist. Ex. 33 at pp. 3-4). According to a November 2015 speech-language update, the student made
"steady progress" since services began in September 2015, and specified that he was now "using
his words more to express himself' and had increased his "use of English words" throughout the
school day (Dist. Ex. 33 at p. 3). Additionally, as of November 2015, the student exhibited "some
progress with labeling school items, a variety of animals, action words and body parts, as well as
answering questions," with decreased echolalic or responses in his native language (iA).47
Next, a November 2015 adaptive skills update indicated that the student had "shown
progress since September adjusting to a new school and new routine" (Dist. Ex. 33 at p. 4). More
specifically, the update revealed that the student could "independently hang up his backpack,
unpack his binder, folder, [and] snack, and hang up his coat" (id.). Furthermore, the student was
"independently plac[ing] his binder into his bin and [went] to his Kindergarten room to begin his
day" (id.).
Finally, a November 2015 cognitive skills update reflected that the student had difficulty
"maintaining attention for more than a few minutes on any one specific task unless he [was] being
guided 1:1 with teacher prompts" (Dist. Ex. 33 at p. 4). It was also noted that the student exhibited
a "high level of distraction during . . . reading group time and require[d] 1:1 teacher assistance to
complete tasks during class lessons" (i). Additionally, the update indicated that the student
participated in calendar time by "counting the days of the month, dressing the weather frog
appropriately, and choosing the correct pictures to identify the weather" (id.).
Regarding behavior, the teacher testified at the impartial hearing that she disagreed with
the assertion in the parents' due process complaint notice, which stated that the student
"demonstrated extremely poor behavior in a number of public places" (Tr. p. 236; Joint Ex. 1 at p.
3). Instead, the teacher clarified that the student's behavior was "slightly improving" from
September to November (Tr. p. 236; see generally Dist. Ex. 38). In addition, the district speechlanguage pathologist who provided therapy services to the student in fall 2015 testified that, by
November 2015, the student was sitting and attending more, and he improved his attention and
listening skills and in his ability to follow more of the routines (Tr. pp. 591, 597, 603, 605). She
further testified that the student was making "some really nice progress" on his annual goal
identifying pictures, objects, and items, and the student was "really picking up on labels,
vocabulary, the names for items, [and] the names for animals" (Tr. pp. 606-07; see Dist. Ex. 35 at
p. 4). The speech-language pathologist also reported that the student made "slow" and "steady"
47 The hearing record also included a 2015-16 progress report about the student's annual goals, which indicated
that the student was "progressing satisfactorily" on all of his annual goals (study skills, reading, mathematics,
speech-language, and motor skills) (Dist. Ex. 35 at pp. 1-5).

37

App 88

progress on his annual goal answering "'yes, no, and what," questions, and his echolalia decreased
(Tr. p. 607; see Dist. Ex. 35 at p. 4).
At the impartial hearing, the speech-language pathologist who provided therapy services
to the student at preschool from December 2015 through June 2016 testified that she used both
"ABA and non-ABA" approaches with the student, and noted that the student "made progress in
both therapy strategies" (see Tr. pp. 660-63; see generally Dist. Ex. 41). She testified that the ABA
was "more structured" in a 1:1 setting with the student and while the student made progress, "it
was limited" (Tr. p. 661). The speech-language pathologist also testified that the student made the
"most progress" during group sessions of therapy (group of 2 students total), when the student
worked on his "pragmatic or social language skills" and had the "opportunity to generalize" the
skills he was learning (Tr. pp. 661-62).
In addition to the foregoing, the parents questioned the director about the "comprehensive"
ABA program the parents wanted for the student (see Tr. pp. 527-529). As part of this line of
questioning, the parents referred the director to a report from the student's developmental
pediatrician, dated May 2016 (see Tr. pp. 529-32; Parent Ex. JJ at p. 1; Joint Ex. 1 at p. 21). In
particular, the parents asked the director if she had seen the "statement" in the report from the
pediatrician "that a comprehensive [ABA] program [was] a highly, highly appropriate program for
[the student]" (Tr. p. 529; Parent Ex. JJ at p. 1; Joint Ex. 1 at p. 21). The director confirmed that
she recalled seeing the May 2016 report, but later clarified that she did not know whether the June
2016 CSE had the May 2016 report (see Tr. pp. 529-30, 572; Parent Ex. JJ at p. 1; Joint Ex. 1 at
p. 21). Returning to the May 2016 report, the parents read the sentence directly into the hearing
record: "It is highly appropriate that the central part of his intervention should consider a
comprehensive [ABA] approach," and then asked the director whether a "doctor might feel
uncomfortable about overstepping the boundary in saying that this [was] the program that has to
be provided . . . even though that's the appropriate course of action" for a student (Tr. p. 530; Parent
Ex. JJ at p. 1; Joint Ex. 1 at p. 21). The director responded "[a]bsolutely"—the parents agreed,
noting that this was "exactly the case, that the doctor feels that" and therefore, "he might not write"
it in the report, but then further indicated that the pediatrician had "already stated that to [them]"
(Tr. pp. 531-32).
However, although the parents believe that the pediatrician withheld a direct
recommendation that the student receive a comprehensive ABA program in the report because he
felt "uncomfortable," the pediatrician did not testify at the impartial hearing and no further points
of clarification were submitted into the hearing record, thus leaving their beliefs regarding the
pediatrician's motivations in the category of mere speculation. A review of the May 2016 report
reveals that, in addition to the statement reported above, the pediatrician suggested that "continued
direct services [were] important" for the student (Parent Ex. JJ at p. 1). In addition, the report
indicated that a "comprehensive [ABA] approach . . . might include discrete trial training and other
documented methods using ABA" (i).
Based upon the foregoing, the hearing record does not support the parents' contention that
the student needed either a comprehensive ABA program or that ABA should have been the
specified methodology for the student in the management section of the June 2016 IEP.

38

App 89

Finally, the parents assert that the district's recommended "Connections" placement—
which they characterized as an "eclectic program"—was not appropriate because it was not based
upon peer-reviewed research and relied on "IEP progress" to measure gains. State and federal
regulations require, in part, that an IEP must include a "statement of the special education and
related services and supplementary aids and services, based on peer-reviewed research to the
extent practicable, to be provided to the child, or on behalf of the child" (34 CFR 300.320[a][4];
see 8 NYCRR 200.4[d][2][v][b]). According to the Official Analysis of Comments to the federal
regulations, the IDEA
requires special education and related services, and supplementary
aids and services, to be based on peer-reviewed research to the
extent practicable. States, school districts, and school personnel
must, therefore, select and use methods that research has shown to
be effective, to the extent that methods based on peer-reviewed
research are available. This does not mean that the service with the
greatest body of research is the service necessarily required for a
child to receive FAPE. Likewise, there is nothing in the Act to
suggest that the failure of a public agency to provide services based
on peer-reviewed research would automatically result in a denial of
FAPE. The final decision about the special education and related
services, and supplementary aids and services that are to be provided
to a child must be made by the child's IEP Team based on the child's
individual needs.
(Statement of Special Education and Related Services, 71 Fed. Reg. 46664-65 [Aug. 14, 2006];
see 20 U.S.C. § 1414[d][1][A][i][IV]).
During the impartial hearing, the "Connections" program was, at times, referred to as an
"eclectic" program (Tr. pp. 457-58, 488-89, 528, 565-66). The director testified, however, that the
program "utilize[d] research-based strategies pulled from documents that indicate[d] these [were]
the best practices instructionally and socially to support students with autism in a school setting"
(Tr. p. 489). In particular, the director referenced the "Quality Indicators of Programming for
Students with Autism" and documents from the "National Center for Autism" (i). The director
also testified that the district hired teachers with "training and knowledge in working with student
with autism" and that those teachers brought their "own expertise in working with those students"
to the program (Tr. pp. 489-90). Similarly, the district school psychologist testified that the
"Connections" program was developed based upon "best practice" and meta-analysis research
from the "National Autism Center" (Tr. pp. 956-65; see Dist. Ex. 50).
While recognizing the IDEA's requirements regarding peer-reviewed research, courts have
generally declined to find an IEP or a recommended program was not appropriate on the sole basis
that it violated this provision of the IDEA (see Ridley Sch. Dist. v. M.R., 680 F.3d 260, 275-79
[3d Cir. 2012]; Joshua A. v. Rocklin Unified Sch. Dist., 319 Fed. App'x 692, 695 [9th Cir. Mar.
19, 2009] [finding that "[t]his eclectic approach, while not itself peer-reviewed, was based on 'peerreviewed research to the extent practicable"]; see also Pitchford v. Salem-Keizer Sch. Dist. No.
24.J, 155 F. Supp. 2d 1213, 1230-32 [D. Or. 2001] [rejecting an argument that a district's proposed
LEP was not appropriate because it provided for an eclectic program and holding that the district's

39

App 90

offer of FAPE was appropriate notwithstanding its refusal to offer an ABA approach]). I also find
that any lack of peer-reviewed research supporting the approaches used in the "Connections"
program is not a sufficient basis for finding a violation of the IDEA or attendant State regulations.
Consequently, the parents' argument must be dismissed.
C. Pendency
In conjunction with their request for relief, the parents point out that the IHO failed to issue
a pendency determination. To justify an award of tuition reimbursement, the parents argue that
the 50 to 60 hours per week of home-based ABA services the student received from August 29,
2016 through February 4, 2017—and where the parents, themselves, acted as the ABA providers—
constituted the student's pendency placement. As such, the parents seek a determination that the
home-based ABA services constituted the student's pendency placement and to be reimbursed for
providing those services to the student. In its answer, the district argued that the special education
services in District Exhibit 33 represented the student's pendency placement.
The IDEA and the New York State Education Law require that a student remain in his or
her then current educational placement, unless the student's parents and the board of education
otherwise agree, during the pendency of any proceedings relating to the identification, evaluation
or placement of the student (20 U.S.C. § 1415[j]; Educ. Law §§ 4404[4], 4410[7] [c]; 34 CFR
300.518[a]; 8 NYCRR 200.5[m]; see Student X v. New York City Dep't of Educ., 2008 WL
4890440, at *20 [E.D.N.Y. Oct. 30, 2008]; Bd. of Educ. of Poughkeepsie City Sch. Dist. v.
O'Shea, 353 F. Supp. 2d 449, 455-56 [S.D.N.Y. Jan. 18, 2005]). Pendency has the effect of an
automatic injunction, and the party requesting it need not meet the requirements for injunctive
relief such as irreparable harm, likelihood of success on the merits, and a balancing of the hardships
(Zvi D. v. Ambach, 694 F.2d 904, 906 [2d Cir. 1982]; see Wagner v. Bd. of Educ., 335 F.3d 297,
301 [4th Cir. 2003]; Drinker v. Colonial Sch. Dist., 78 F.3d 859, 864 [3d Cir. 1996]). The purpose
of the pendency provision is to provide stability and consistency in the education of a student with
a disability and "strip schools of the unilateral authority they had traditionally employed to exclude
disabled students . . . from school" (Honig v. Doe, 484 U.S. 305, 323 [1987]; Evans v. Bd. of
Educ., 921 F. Supp. 1184, 1187 [S.D.N.Y. 1996], citing Bd. of Educ. v. Ambach, 612 F. Supp.
230, 233 [E.D.N.Y. 1985]). The pendency provision does not mean that a student must remain in
a particular site or location (Concerned Parents and Citizens for the Continuing Educ. at Malcolm
X Pub. Sch. 79 v. New York City Bd. of Educ., 629 F.2d 751 [2d Cir. 1980]; Application of a
Student with a Disability, Appeal No. 08-107; Application of the Bd. of Educ., Appeal No. 07125; Application of a Child with a Disability, Appeal No. 07-076; Application of the Bd. of Educ.,
Appeal No. 05-006; Application of the Bd. of Educ., Appeal No. 99-90), or at a particular grade
level (Application of a Child with a Disability, Appeal No. 03-032; Application of a Child with a
Disability, Appeal No. 95-16).
Under the IDEA, the pendency inquiry focuses on identifying the student's then-current
educational placement (Mackey v. Bd. of Educ., 386 F.3d 158, 163 [2d Cir. 2004], citing Zvi D.,
694 F.2d at 906). Although not defined by statute, the phrase "then current placement" has been
found to mean the last agreed upon placement at the moment when the due process proceeding is
commenced (Murphy v. Bd. of Educ., 86 F. Supp. 2d 354, 359 [S.D.N.Y. 2000] affd, 297 F.3d
195 [2002]; Application of a Student with a Disability, Appeal No. 08-107; Application of a Child
with a Disability, Appeal No. 01-013; Application of the Bd. of Educ., Appeal No. 00-073). The

40

App 91

United States Department of Education has opined that a student's then current placement would
"generally be taken to mean current special education and related services provided in accordance
with a child's most recent [IEP]" (Letter to Baugh, 211 IDELR 481 [OSERS 1987]; see Susquenita
Sch. Dist. v. Raelee, 96 F.3d 78, 83 [3d Cir. 1996]). However, if there is an agreement between
the parties on placement during the proceedings, it need not be reduced to a new IEP, and it can
supersede the prior unchallenged IEP as the then-current placement (Evans, 921 F. Supp. at 1189
n.3; see Bd. of Educ. v. Schutz, 137 F. Supp. 2d 83 [N.D.N.Y. 2001] affd, 290 F.3d 476, 484 [2d
Cir. 2002]; see also Letter to Hampden, 49 IDELR 197 [OSEP 2007]). Moreover, a prior
unappealed IHO's decision may establish a student's current educational placement for purposes
of pendency (Student X, 2008 WL 4890440 at *23; Letter to Hampden, 49 IDELR 197;
Application of a Student with a Disability, Appeal No. 08-107; Application of a Student with a
Disability, Appeal No. 08-050; Application of the Dep't of Educ., Appeal No. 08-009; Application
of the Dep't of Educ., Appeal No. 07-140; Application of the Dep't of Educ., Appeal No. 07-134).
On the penultimate date of the impartial hearing, the HO asked the parties to present their
respective positions with respect to the student's pendency placement (see Tr. pp. 857, 859). The
district asserted that District Exhibit 33—which arose from a resolution agreement between the
parties—was the last-agreed upon IEP (see Tr. p. 859; Dist. Exs. 33; 39). The parents essentially
agreed, but further asserted that the "last-agreed upon IEP was a placement at [the preschool],"
and pointed to the contents of the resolution agreement to support their assertion (Tr. pp. 860-63;
see Dist. Ex. 39). The district's attorney noted, however, that the last-agreed upon IEP did not
"specify [the preschool]"; instead, the IEP "specified specialized services" (Tr. pp. 862-63).
As noted above; however, the parents now argue that the student's home-based ABA
services, which began on August 29, 2016, constitute the student's pendency placement. In this
case, focusing the inquiry on the last agreed upon placement at the moment when the due process
proceeding was commenced—here, August 5, 2016—leads to the conclusion that the student's
home-based ABA services, which began on August 29, 2016, cannot be the student's pendency
placement (see Murphy, 86 F. Supp. 2d at 359), and therefore, the parents are not entitled to
reimbursement for the ABA services they provided to the student on this basis. Instead, it appears
that the special education services set forth in the resolution agreement—and thereafter, reduced
to the IEP entered into the hearing record as District Exhibit 33—represents the student's last
agreed upon placement at the time the parents commenced the due process proceeding.
Consequently, the parents' request to be reimbursed for providing the student's home-based ABA
services must be dismissed.
D. Relief
Next, the parents argue that they are entitled to reimbursement for providing the student's
home-based ABA services because the ABA therapy and educational program delivered to the
student was a unilateral placement. In addition, the parents seek an order directing the district to
design and create a classroom with, not only specific teacher and provider qualifications, but also
with specific quality control measures for the classroom and for the other students expected to
populate the classroom. The district generally argues that there is no basis or authority for the
relief requested by the parents.

41

App 92

Initially, I decline to find on this record that the parents provided the student's home-based
ABA therapy and educational program as a unilateral placement for which they can receive
reimbursement. Rather, the evidence in the hearing record reveals that, at the time of the impartial
hearing, the parents elected to homeschool the student for approximately five hours per day during
the week and eight to nine hours per day on weekends, and the student was not enrolled in either
a public or nonpublic school (Tr. pp. 20-22). In addition, the parents had enrolled the student in a
"daycare" for approximately four hours per day (i). When the parents stated that they were
homeschooling the student, the district's attorney specifically asked whether parents had filed an
individualized home instruction plan (IHIP), and at that time, the parents responded that they had
not yet done so (see Tr. pp. 21-22). Upon learning that the parents were home schooling the student
and had failed to file an IHIP, the district's attorney told the parents that they needed to "do that
immediately" (Tr. p. 22).48 Moreover, the evidence in the hearing record does not include any
notification by the parents that they intended to withdraw the student from the district and seek
reimbursement for services, such as the 10-day notice of unilateral placement called for by the
IDEA (20 U.S.C. § 1412[a] [10] [C] [iii] [I]; see 34 CFR 300.148[d][1]). Thus, other than the parents
now requesting reimbursement for delivering the home-based ABA therapy and educational
program as a unilateral placement, the hearing record contains no evidence that I find is an
appropriate basis upon which to predicate an award of tuition reimbursement as envisioned under
Burlington/Carter.49
Next, the hearing record does not contain evidence to support the parents' request for an
order directing the district to design and create a classroom for the student with the requirements
proposed by the parents. Simply stated, as noted above, the Court in T.M. noted, the IDEA does
not require a district to create a "new" program "just to serve the needs of one disabled child"
(T.M., 752 F.3d at 165-66 [internal citations omitted]). Instead, a district "may choose to place
the child in a private . . . program, or a . . . program operated by another public entity" (T.M., 752
F.3d at 166). However, because the district failed to consider the extent to which the Connections
program was a removal from the general education setting that was inconsistent with the
requirement to place the student in the LRE, I will direct the CSE to reconvene to ensure that the
IEP programing offered to the student from this point forward is consistent with the LRE
requirements as set forth in Newington and Cornwal1.5°

48 Shortly after the parents filed this appeal with the Office of State Review, correspondence directed to this office
indicated that the parents were directed to enroll the student at the district's elementary school through a Family
Court order. Subsequent correspondence revealed that the parents opted to enroll the student in a nonpublic
school program.

To the extent that the parents point to authority outside this circuit to support their argument, it is not persuasive
under these facts (see Bucks County Dep't of Mental Health/Mental Retardation v. Pennsylvania, 379 F.3d 61,
66-75 [3d Cir. 2004] [holding that a parent was entitled to reimbursement for providing services to her disabled
daughter after the county refused to provide the therapy]).
49

5°

Even if the student must be removed from the general education setting for some portion of the school day in
order to receive sufficient educational benefits, the second factor of Newington requires the district to be able to
explain how it has ensured that the student is otherwise mainstreamed to the maximum extent appropriate.

42

App 93

VII. Conclusion
In summary, the evidence in the hearing record establishes that, contrary to the IHO's
determination, the district failed to offer the student a FAPE in the LRE for the 2016-17 school
year.
THE APPEAL IS SUSTAINED TO THE EXTENT INDICATED.
IT IS ORDERED that the IHO's decision, dated December 30, 2016, is modified by
reversing those portions which 1) ruled on the procedural adequacy for developing the IEP and 2)
substantively determined that the district's programing offered the student a FAPE in the LRE for
the 2016-17 school year; and
IT IS FURTHER ORDERED that the district shall reconvene the CSE within 30 days
from the date of this decision to consider the extent to which a Newington/Cornwall analysis
requires that the student be placed with non-disabled peers when receiving his special education
services in order to satisfy the IDEA's requirement for placement in the LRE.

Dated:

Albany, New York
April 3, 2017

JUSTYN P. BATES
STATE REVIEW OFFICER

43

App 94
Available online at www.sciencedirect.com
SCIENCE

ELSEVIER

DIRECT"

Research in Developmental Disabilities 26 (2005) 359-383

Research
in
Developmental
Disabilities

A comparison of intensive behavior analytic and
eclectic treatments for young children with autism
Jane S. Howard a'b'*, Coleen R. Sparkman b, Howard G. Cohen C,
Gina Green d, Harold Stanislaw a
California State University, Stanislaus, Psychology Department,
801 W. Monte Vista Avenue, Turlock, CA 95382, USA
b
The Kendall School, Modesto, CA 95354, USA
Valley Mountain Regional Center, Stockton, CA 95269, USA
University of North Texas and San Diego State University, San Diego, USA
a

Received 25 June 2004; received in revised form 5 September 2004; accepted 12 September 2004

Abstract
We compared the effects of three treatment approaches on preschool-age children with autism
spectrum disorders. Twenty-nine children received intensive behavior analytic intervention (IBT; 1:1
adult:child ratio, 25-40 h per week). A comparison group (n = 16) received intensive "eclectic"
intervention (a combination of methods, 1:1 or 1:2 ratio, 30 h per week) in public special education
classrooms (designated the AP group). A second comparison group (GP) comprised 16 children in
non-intensive public early intervention programs (a combination of methods, small groups, 15 h per
week). Independent examiners administered standardized tests of cognitive, language, and adaptive
skills to children in all three groups at intake and about 14 months after treatment began. The groups
were similar on key variables at intake. At follow-up, the IBT group had higher mean standard scores
in all skill domains than the AP and GP groups. The differences were statistically significant for all
domains except motor skills. There were no statistically significant differences between the mean
scores of the AP and GP groups. Learning rates at follow-up were also substantially higher for
children in the IBT group than for either of the other two groups. These findings are consistent with
other research showing that IBT is considerably more efficacious than "eclectic" intervention.
© 2005 Elsevier Ltd. All rights reserved.
Keywords: Autism; Early intervention; Applied behavior analysis, Eclectic treatment; Outcomes

* Corresponding author.
E-mail address: jhoward@athena.csustan.edu (J.S. Howard).
0891-4222/$ — see front matter © 2005 Elsevier Ltd. All rights reserved.
doi:10.1016/j.ridd.2004.09.005

App 95
360

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

1. Introduction
Early intervention targets differences between the skills of children who have or are at
risk for developmental delays and the skills of their typically developing peers. Those
discrepancies may be small initially but are generally acknowledged to increase with the
passage of time (e.g., Guralnick, 1998; Ramey & Ramey, 1998). Developmental
trajectories are not fixed, however, even for children with known risk factors or disabilities.
Instead, each child's progress can be influenced by many factors, such as experience. As
Ramey and Ramey (1998) noted, ".. . a widespread hope for early intervention (is) . .. that
children could be placed on a normative developmental trajectory and thus continue to
show optimal development after early intervention ends" (p. 113). Accordingly, they
posited a "zone of modifiability," a period of time during which the precise developmental
trajectory for children at risk is likely determined by the timing, intensity, and
appropriateness of treatment. Convergent evidence supporting this hypothesis has come
from a variety of sources. Longitudinal studies (e.g., the North Carolina Abecedarian
Project, Infant Health and Development Program) demonstrated that the effects of early
intervention on children at risk for developmental delay and mental retardation were
evident when the children were 3 years old, and some gains were maintained into
adolescence and adulthood (Campbell, Pungello, Miller-Johnson, Burchinal, & Ramey,
2001; Campbell, Ramey, Pungello, Sparling, & Miller-Johnson, 2002; for a review, see
Ramey & Ramey, 1999). The likelihood that effective early intervention can produce
lasting neurobiological as well as behavioral changes has been suggested by research
showing that early experiences play a critical role in shaping brain architecture as well as
brain function (Dawson & Fischer, 1994; Shore, 1997). Additionally, studies have shown
that specific types of interactions with the physical and social environment can remediate
some types of damage to the central nervous system (e.g., Hannigan & Berman, 2000). In a
series of studies using mouse models of some mental retardation syndromes and
neurological disorders, Schroeder, Tessel, and their colleagues demonstrated that behavior
analytic discrimination training reversed abnormalities in brain structures and
neurotransmitter levels as well as learning and behavior. Training was most effective
when it began early in development (Loupe, Schroeder, & Tessel, 1995; Stodgell,
Schroeder, & Tessel, 1996; Tessel, Schroeder, Loupe, & Stodgell, 1995; VanKeuren,
Stodgell, Schroeder, & Tessel, 1998).
Findings from early intervention research indicate that treatment that is intensive, long
in duration, and delivered directly to children (rather than just to their caregivers) produces
better outcomes than treatment that lacks those elements (Ramey & Ramey, 1998, 1999).
Few of those variables have been isolated and investigated in controlled studies, however.
For example, despite the apparent relationship between the intensity of early intervention
and outcome (e.g., Guralnick, 1998), there has been little experimental research on the
effects of treatment intensity or duration. Nor has there been much research on the relation
between type of early intervention and outcomes. Guralnick (1998) argued that the next
generation of research in early intervention must progress beyond basic demonstrations of
its effectiveness. There is a need for studies that delineate which aspects of early
intervention are most efficacious, and for which populations. A better understanding of the
optimal timing, intensity, duration, and type of intervention could benefit all children who

App 96
J.S. Howard et al. / Research in Developmental Disabilities 26 (2005) 359-383

361

have or are at risk for developmental delays. Given the reported recent increase in the
number of children diagnosed with autism spectrum disorders, such issues may be
particularly germane to this population (e.g., California Department of Developmental
Services, 2003a; Yeargin-Allsop et al., 2003; but see Fombonne, 2001, 2003 for critiques of
such reports). In addition, the cost of lifespan services for people with autism may be
disproportionately higher than the cost of serving individuals with other disabilities (e.g.,
California Department of Developmental Services, 2002, 2003b). Effective early
intervention can substantially reduce those costs (Jacobson, Mulick, & Green, 1998).
Therefore, there are several compelling reasons to examine outcomes produced by various
types of early intervention for children with autism.
There is considerable empirical evidence that early intensive behavior analytic
intervention produces large and lasting functional improvements in many children with
autism. Although a number of behavior analysts have been documenting the effectiveness
of behavior analytic intervention for individuals with autism since the early 1960s (e.g.,
Ferster & DeMyer, 1961; Wolf, Risley, & Mees, 1964; see also Matson, Benavidez,
Compton, Paclawskyj, & Baglio, 1996), a study by Lovaas (1987) was singular for
documenting substantially improved functioning in a sizeable proportion of children who
received comprehensive, intensive, long-duration behavior analytic intervention starting
before they reached 4 years of age. Nine of 19 children in that study who received early
intensive behavior analytic treatment for at least 2 years had cognitive and language test
scores in the normal range by the age of 6-7 years and completed first grade without special
instruction. In contrast, few gains were made by children with autism in two control groups
who received either 10 h of behavior analytic treatment per week or typically available
community services over the same time period. A follow-up study found that the "best
outcome" children from the Lovaas (1987) study continued to function normally into
adolescence (McEachin, Smith, & Lovaas, 1993).
Several studies of comprehensive, intensive behavior analytic treatment for young
children with autism spectrum disorders have been published prior to and since the Lovaas
(1987) study. Collectively, these studies have documented the efficacy of intensive
behavior analytic intervention, both center-based (e.g., Eikeseth, Smith, Jahr, & Eldevik,
2002; Fenske, Zalenski, Krantz, & McClannahan, 1985; Harris, Handleman, Gordon,
Kristoff, & Fuentes, 1991) and home-based (e.g., Anderson, Avery, DiPietro, Edwards, &
Christian, 1987; Birnbrauer & Leach, 1993; Smith, Groen, & Wynne, 2000; Weiss, 1999).
In several studies, standardized test data indicated that cognitive functioning, language
skills, and academic performance approached or exceeded normal levels in many children
who received at least 2 years of early intensive behavior analytic treatment (for a review,
see Green, 1996; Smith, 1999). Instruments such as the Vineland Adaptive Behavior Scales
also detected substantial improvements in adaptive functioning (Anderson et al., 1987;
Birnbrauer & Leach, 1993; Smith et al., 2000; Weiss, 1999). Similar outcomes have been
documented in systematic case studies in which independent evaluators used objective
measurement instruments to track children's progress (Green, Brennan, & Fein, 2002;
Perry, Cohen, & De Carlo, 1995). Finally, parents whose children received intensive
behavior analytic intervention showed high satisfaction and reduced stress over the course
of treatment in comparison to parents whose children did not receive intensive behavior
analytic intervention (Anderson et al., 1987; Birnbrauer & Leach, 1993; Smith et al., 2000).

App 97
362

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

Although all published studies of early intensive behavior analytic treatment
demonstrated that many children made substantial gains, outcomes varied within and
across studies. The proportions of intensively treated children who achieved normal or
near-normal functioning, more modest improvements, and relatively small improvements
varied from study to study (Green, 1996; Smith, 1999). For instance, a smaller percentage
of children in the Smith et al. (2000) study were able to function independently in regular
classrooms post-treatment than was reported by Lovaas (1987), and no children were
reported to be enrolled in general education settings without supports in the Anderson et al.
(1987) and Birnbrauer and Leach (1993) studies. Those studies differed in several
important ways from the Lovaas (1987) study, however. None involved the 40 h of
intensive treatment per week that was provided to the experimental group in the Lovaas
(1987) study. Additionally, participants in those studies had lower pre-treatment language
and IQ scores and received intervention for a shorter period of time than their counterparts
in the Lovaas (1987) study. There were also methodological differences across studies:
some were quasi-experimental while others used true experimental designs, and few
assigned participants to groups randomly (see Green, 1996; Kasari, 2002; Rogers, 1998;
Smith, 1999). Indeed, although some partial and systematic replications of the Lovaas
(1987) study have been published, so far no full replications (40 h of treatment per week for
a minimum of 2 years; multiple outcome measures; at least one control group) have
appeared in the literature. Nevertheless, as an aggregate, the published studies offer
compelling evidence that many children with autism who received early intensive behavior
analytic treatment made substantial gains.
In contrast, there is little objective empirical evidence regarding the efficacy of nonbehavior analytic intervention models such as Treatment and Education of Autistic and
Related Communication Handicapped Children (TEACCH; e.g., Schopler, 1997) or
developmental approaches, such as the Colorado Health Sciences Program (Rogers &
DiLalla, 1991; Rogers, Herbison, Lewis, Pantone, & Reis, 1986). Of the total of 15 early
autism intervention outcome studies evaluated in three separate reviews, only five were
evaluations of what the authors characterized as non-behavior analytic treatments.
Reported treatment effects consisted of small mean gains in standardized test scores
(e.g., IQ, language) or changes in developmental levels on measures not widely
employed to assess children with autism; all had serious methodological limitations.
Further, no studies comparing early intensive behavior analytic treatment directly with
TEACCH, Colorado Health Sciences, or any other comprehensive treatment model have
been published to date (Kasari, 2002; Rogers, 1998; Smith, 1999). Several studies,
however, have compared outcomes of intensive behavior analytic treatment with those
resulting from standard interventions that are typically provided to children with autism
through public early intervention and special education programs. In the Lovaas (1987)
study, the 41 participants in control groups 1 and 2 were described as receiving
treatments consisting of "resources in the community such as those provided by small
education classes." Control group 1 also received behavior analytic treatment for 10 h
per week. Few gains were documented for children in those groups over the course of 2
or more years of treatment. Similarly, a comparison group of children in the study by
Smith et al. (2000) who were enrolled in public schools for 10 to 15 h per week made
little improvement.

App 98
J.S. Howard et al./ Reseatrh in Developmental Disabilities 26 (2005) 359-383

363

Recently Eikeseth et al. (2002) compared the effects of intensive behavior analytic
treatment with equally intensive and relatively well-specified "eclectic" treatment that is
similar to the type of intervention that many children with autism receive in public schools
and some private programs. These investigators studied the effects of intervention provided
for 28 h per week for 1 year on children with autism who were 4-7 years of age when they
entered treatment. Thirteen children received behavior analytic intervention, while 12
other children received intensive treatment using a combination of methods including
discrete trial training, TEACCH-based procedures, and sensory integration therapy. All
children received 1:1 treatment from therapists who all had similar educational
backgrounds and training. Each therapist received weekly consultation from behavior
analysts. Additional training was provided to parents and therapists of children in the
intensive behavior analytic treatment group. After 1 year the children in the behavior
analytic treatment group performed substantially better on standardized measures of
cognitive, language, and adaptive functioning than the children in the intensive "eclectic"
treatment group. For example, children in the behavior analytic treatment group gained an
average of 17 points on standardized measures of cognitive functioning. At follow-up,
seven children in the behavior analytic treatment group achieved scores in the normal range
of functioning, while only two children in the "eclectic" treatment group produced scores
in the normal range. These results suggested that the type, rather than the intensity, of
treatment accounted for the outcomes produced by intensive behavior analytic treatment.
"Eclectic" intervention like that provided to children in the comparison group in
Eikeseth et al. (2002) study is widely available to children with autism enrolled in public
early intervention and special education programs. Yet little evidence about the efficacy of
that approach has appeared in the research literature to date. The study described here was a
prospective analysis of the effects of three different early intervention approaches on young
children with autism spectrum disorders. Interim (14 months) outcomes for children who
participated in an intensive behavior analytic treatment program were compared with those
of children who received intensive "eclectic" intervention in classrooms designed
exclusively for children with autism and children in non-intensive, generic early
intervention programs.

2. Method
2.1. Participants
2.1.1. Referral and selection
The participants were 61 children diagnosed with autistic disorder or pervasive
developmental disorder—not otherwise specified (PDD-NOS). Potential participants were
referred by non-profit agencies ("regional centers") under contract with the State of
California Department of Developmental Services to provide case management for
individuals with developmental disabilities. Referred children were screened for the
following eligibility criteria: (a) diagnosis of autistic disorder or PDD-NOS according. to
DSM-IV criteria by qualified independent examiners before the child was 48 months' of
age; (b) entry into an intervention program before 48 months of age; (c) English as the

App 99
364

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

primary language spoken in the child's home; (d) no significant medical condition other
than autistic disorder or PDD-NOS; and (e) no prior treatment of more than 100 h.
Under an existing collaborative funding agreement between public schools and regional
centers in the region where the study was conducted, individualized education plan (IEP) and
individualized family service plan (IFSP) teams for young children with autism spectrum
disorders routinely consider a range of educational options. These include but are not limited
to: early intensive behavior analytic treatment (IBT) from non-public agencies; autism
educational programming (AP) delivered in special education classrooms designed specifically for children with autism spectrum disorders; and generic educational programming
(GP) for children with various diagnoses. Auxiliary services, such as occupational therapy and
speech and language therapy, can also be considered and recommended by the IEP or IFSP
teams. Although educational placement decisions regarding participants in this study were
made by IEP or IFSP teams, parental preferences weighed heavily.
Eligibility criteria were met by 37 children who received IBT intervention from a nonpublic agency and 41 children who were enrolled in AP or GP programs operated by local
school districts and counties from 1996 through 2003. Four children who began in the IBT
group were excluded from analysis because they did not complete 7 months of intervention.
Two of those children were just 2 years old when intervention began. They acquired some
non-verbal skills, but their receptive and expressive language skills did not improve, and
behavioral difficulties increased when the full number of intervention hours was attempted.
This led their IFSP teams to recommend transition to less intensive school programs. The
third child left the IBT group because the child's parents were not able to accommodate an
intensive intervention program at home, and the fourth child moved out of the state. Four
children who were placed in either AP or GP were excluded because their parents could not be
contacted to arrange follow-up testing despite repeated attempts (3 children), or because the
parent did not allow the child to be tested at follow-up (1 child). Nine other children (4 in the
IBT group and 5 in the AP and GP groups) were excluded because more than 18 months
elapsed between intake and opportunity for follow-up. Because the follow-up testing did not
occur, it was not possible to confirm the treatment group placement (AP or GP) for those five
participants. Remaining for analysis were intake and follow-up data for 29 children who
received IBT, 16 children in AP, and 16 children in GP.
2.1.2. Characteristics
Table 1 summarizes the gender, ethnicity, diagnosis, and parents' marital status of the
participants. The three groups of children were very similar on all of those characteristics at
intake. Although the percentage of children with a given characteristic varied somewhat
from one group to another, none of the differences between group means was statistically
significant.
Table 2 summarizes the mean severity of autism (determined by the number of DSM-IV
criteria for autistic disorder met) and chronological age of the participants in each group,
and the mean educational levels of the participants' parents. Children in the IBT group
were diagnosed at a younger age than children in the autism program, who in turn were
diagnosed at a younger age than children in the generic program. Children in the IBT group
also began treatment earlier, and had earlier follow-up testing, than children in the AP and
GP groups. Parents of children in the IBT group averaged 1-2 more years of education than

App 100
J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

365

Table 1
Number of participants with each characteristic.
Characteristic

Treatment group
IBT

AP

GP

Gender
Male
Female

25 (86%)
4 (14%)

13 (81%)
3 (19%)

16 (100%)
0 (0%)

Ethnicity
Both parents Caucasian
One or both parents Hispanic
Other
Unknown

21 (72%)
4 (14%)
4 (14%)
0

6 (50%)
3 (25%)
3 (25%)
4

8 (57%)
4 (29%)
2 (14%)
2

Diagnosis
Autism
PDD-NOS

24 (83%)
5 (17%)

12 (75%)
4 (25%)

9 (56%)
7 (44%)

Parents' marital status
Married
Not married, divorced, or separated
Unknown

23 (79%)
6 (21%)
0

12 (80%)
3 (20%)
1

9 (56%)
7 (44%)
0

Note. Percentages are within each treatment group, excluding participants with unknown characteristics.

parents of children in the other two groups. All of those differences were statistically
significant, and were controlled for in subsequent analyses.
2.2. Interventions
Participants' files, including IFSP or IEP documents for the year following diagnosis,
were reviewed to determine services received, educational placement, and number of hours
Table 2
Mean severity of autism, age (months), and parents' education level
Measure

Severity (no. of DSM-IV criteria)
Age at diagnosis
Age at intake
Age at follow-up
Months between intake and
follow-up
Mother's years of education
Father's years of education
Parents' mean years of education

IBT

AP

GP

M

S.D.

M

S.D.

M

S.D.

7.55
30.48
30.86
45.66
14.21

1.39
5.96
5.16
6.24
2.24

7.27
39.31
37.44
50.69
13.25

1.56
5.52
5.68
5.64
2.84

7.33
34.94
34.56
49.25
14.75

2.02
5.18
6.53
6.81
1.88

14.10
14.62
14.36

2.34
2.77
2.22

13.00
13.13
13.06

1.83
2.56
1.82

13.00
13.00
12.97

1.41
1.81
1.36

IBT
mean minus
AP/GP mean
.25
-6.65**
-5.16**
-4.31*
.21
1.10*
1.56*
1.35**

AP
mean minus
GP mean
-.06
4.37*
2.84
1.44
1.50
.00
.13
.09

Note. For the IBT group n = 29, except for severity (n = 20). For the AP group n = 16, except for severity (n = 11)
and father's years of education (n = 15). For the GP group n = 16, except for severity (n = 12) and father's years of
education (n = 15).
* Difference between means is statistically significant (p < .05).
* Difference between means is statistically significant (p < .01).

App 101
366

J.S. Howard et al./Research in Developmental Disabilities 26 (2005) 359-383

of intervention per week for each child in the AP and GP groups. For those groups,
classroom and intervention descriptions were obtained through direct observation of the
programs, interviews with classroom and administrative staff of those programs, and
interviews with regional center staff familiar with the programs. The first two authors, who
directed the IBT program, provided information about that intervention.
2.2.1. Intensive behavior analytic treatment (IBT)
Children in the IBT group received intervention in multiple settings including home,
school, and the community. Intensive treatment was defined as 25-30 h per week of 1:1
intervention for children under 3 years of age and 35-40 h of 1:1 intervention for children
over 3 years of age. Children had 50-100 learning opportunities per hour presented via
discrete trial, incidental teaching, and other behavior analytic procedures (see Anderson &
Romanczyk, 1999; Green, 1996; Hall, 1997). Instruction occurred during formal,
structured sessions as well as less structured situations, such as supervised play dates with
typically developing peers.
Each child's program comprised individualized goals and objectives derived from
ongoing evaluations employing both standardized tests and direct observational
measurement. Programs similar to those described in several treatment manuals (e.g.,
Maurice, Green, & Foxx, 2001; Maurice, Green, & Luce, 1996) were delivered using a
combination of behavior analytic techniques, including general case programming to
maximize skill generalization and most-to-least prompt and prompt-fading procedures to
minimize errors during skill acquisition. Children were taught to select their own
reinforcers, record their own performances, and sequence their learning activities as
appropriate for each child. Direct observational data on each child's progress were
reviewed by program supervisors several times each week, and intervention procedures
(e.g., reinforcers, instructions, prompts, pacing of learning opportunities, etc.) were
modified as needed.
Each child's programming was delivered by a team of 4-5 instructional assistants, each
of whom worked 6-9 h per week with the child. Instructional assistants were employed
part-time while they attended college. They were trained and supervised by staff with
master's degrees in psychology or special education and coursework as well as supervised
practical experience in applied behavior analysis with children with autism. Some
supervisors were assisted by staff with bachelor's degrees and (typically) graduate
coursework in behavior analysis. Each supervisor was responsible for programming for 59 children and worked under the direction of a Board Certified Behavior Analyst who was
also a licensed psychologist (the first author) and a licensed speech and language
pathologist (the second author). Parents received training in basic behavior analytic
strategies, assisted in the collection of maintenance and generalization data, implemented
programs with their children outside of regularly scheduled intervention hours, and met
with agency staff one to two times a month. No additional services, such as occupational
therapy or individual or small group speech therapy, were provided to the children in the
IBT group. Although efforts were made to ensure treatment integrity (e.g., through
frequent direct observation and videotaping of staff implementing procedures with
children, and frequent feedback from supervisors), no formal measurement of treatment
integrity was undertaken.

App 102
J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

367

2.2.2. Autism educational programming (AP)
Children in the AP comparison group were enrolled in public school classrooms
designed for children with autism. The staff:child ratio was 1:1 or 1:2, depending on
individual needs and the structure of the particular program in which each child was
enrolled. A credentialed special education teacher supervised the work of 4-8
paraprofessional aides in each classroom. Staff provided 25-30 h of intervention each
week, utilizing a variety of methods designed primarily for children with autism spectrum
disorders. They included discrete trial training, Picture Exchange Communication System
(PECS ; Bondy & Frost, 1994), sensory integration therapy, and activities drawn from the
TEACCH model. In addition, other activities common to preschool programs for typically
developing children (e.g., "circle time" and music activities) were incorporated into daily
routines. Classroom teachers received consultation from staff with 1-2 years of graduatelevel coursework in behavior analysis but who had not yet completed masters' degrees.
Seven of the 16 children in the autism programs also received individual or small group
speech therapy sessions one to two times weekly from a certified speech and language
pathologist. No measures of the integrity of this treatment were available.
2.2.3. Generic educational programming (GP)
Children in the GP comparison group were enrolled in local community special
education classrooms identified as early intervention or communicatively handicapped
preschool programs. Those programs served children with a variety of disabilities, and
provided an average of 15 h of intervention per week, with a 1:6 adult:child ratio. Each
classroom was staffed by credentialed special education teachers or certified speech and
language pathologists who supervised 1-2 paraprofessional aides. Educational activities
were described as "developmentally appropriate," with an emphasis on exposure to
language, play activities, and a variety of sensory experiences. Thirteen of the 16 children
in this group also received individual or small group speech and language therapy sessions
one to two times weekly from a certified speech and language pathologist. No operational
definitions of this intervention were available, nor were measures of treatment integrity.
2.3. Dependent measures
Assessments were conducted by experienced psychologists and speech and language
pathologists who were independent contractors with the local regional center and who were
not involved in delivering treatment to any of the children in the study. A test battery
developed by regional center staff to measure intellectual, non-verbal problem solving,
language, and adaptive skills was administered annually to all children with autism
spectrum disorders below 6 years of age in the region. Assessments were conducted in the
child's home, in a clinician's office, or at the regional center as agreed to by the assessors
and the parents. Intake testing of participants in this study was conducted within 2 months
of treatment entry. Follow-up testing occurred an average of 14 months after treatment
entry. The previously described educational placement data were gathered concurrently
with follow-up testing. Some children did not complete the entire test battery at intake or
follow-up. Table 3 summarizes the numbers of children in each group for whom scores
were available at intake and follow-up for each dependent measure.

App 103
368

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

Table 3
Number of children for whom dependent measures were available at intake and follow-up
Measure

Intake/follow-up
IBT

AP

GP

Standard scores
Cognitive
Non-verbal
Receptive
Expressive
Communication
Self-help
Social
Motor
Composite

28/26
21/24
25/26
25/26
28/25
28/25
28/25
28/25
26/25

16/16
16/16
16/15
16/15
16/16
16/16
16/16
16/16
16/16

16/16
13/15
13/14
13/14
15/16
14/16
14/16
13/16
13/16

Age equivalents
Cognitive
Non-verbal
Receptive
Expressive
Communication
Self-help
Social
Motor

25/0
21/24
29/26
29/26
29/25
29/25
28/25
28/25

11/0
16/16
16/15
16/15
16/16
16/16
16/16
16/16

10/0
12/15
15/13
15/13
15/16
15/16
15/16
14/16

Learning rate
Non-verbal
Receptive
Expressive
Communication
Self-help
Social
Motor

21/21
29/26
29/26
29/25
29/25
28/24
28/24

16/16
16/15
16/15
16/16
16/16
16/16
16/16

12/12
15/12
15/12
15/15
15/15
15/15
14/14

2.3.1. Cognitive skills
The standard administration of the Bayley Scales of Infant Development-Second
Edition (BSID-II; Bayley, 1993) provided intake measures of intellectual functioning for
42 participants. The BSID-II is widely used with both typical children and children with
autism in the age group encompassed by this study (standard scores are available for ages
2-42 months). The BSID-II yields a mental development index (MDI), which was used as
the standard score for intellectual functioning in our analyses. Other tests of cognitive skills
administered at intake were the Wechsler Primary Preschool Scales of Intelligence—
Revised (WPPSI-R; Wechsler, 1989; 10 children), Developmental Profile-II (DP-II;
Alpern, Boll, & Shearer, 1986; 3 children), and the Stanford-Binet Intelligence Scale,
Fourth Edition (S-B; Thorndike, Hagen, & Sattler, 1986; 2 children). In addition, the
Differential Abilities Scale (DAS; Elliott, 1990), Developmental Assessment of Young
Children (DAYC; Voress and Maddox, 1998Voress & Maddox, 1998) and the
Psychoeducational Profile—Revised (PEP-R; Schopler, Reichler, Bashford, Lansing, &
Marcus, 1990) were administered to one child each. One 'child did not receive a test of
intellectual functioning at intake.

App 104
J.S. Howard et al./ Reseatrh in Developmental Disabilities 26 (2005) 359-383

369

The test used at follow-up varied with the chronological age of the child. Most children
received the WPPSI-R (47 children). For those children the full-scale IQ score represented
the standard score for cognitive functioning in our analyses. Other tests administered at
follow-up were the BSID-II (4 children), Stanford-Binet (3 children), and the DAS (2
children). Three children did not receive tests of intellectual functioning at follow-up, and 2
others (1 in the AP group and 1 in the IBT group) were deemed "untestable" by the
evaluators when the WPPSI-R was attempted.
2.3.2. Non-verbal skills
The Merrill-Palmer Scale of Mental Tests (Stutsman, 1948) was administered to 48
children at intake and 54 children at follow-up. It assesses visual-spatial skills and has
norms available for ages 18-78 months. The instrument is widely used due to its appealing
materials, "hands-on" nature, and minimal attention demand characteristics. There is also
evidence that it has predictive validity with non-verbal young children (Lord and Schopler,
1989Lord & Schopler, 1989). Test scores are expressed as standard scores and age
equivalents. Non-verbal skills for one child were assessed by the Stanford-Binet
Performance Test. One child received the Leiter International Performance Scale—
Revised (Leiter-R; Roid and Miller, 1997Roid & Miller, 1997) at follow-up.
2.3.3. Receptive and expressive language
The Reynell Developmental Language Scales (Reynell & Gruber, 1990) were used to
assess receptive and expressive language development for 46 children at intake and 47
children at follow-up. This instrument expresses scores in developmental ages, standard
scores, and percentiles relative to a normative group. It is also widely used to test young
children with autism due to its colorful materials, reliance on motor responses, and
minimal attention demand characteristics. Other tests of language functioning
administered at intake were the Rossetti Infant-Toddler Language Scale (Rossetti,
1990; 5 children), the Receptive-Expressive Emergent Language Scales—Revised (REEL2; Bzoch & League, 1991; 3 children) and the Preschool Language Scale-3 (PLS-3;
Zimmerman, Steiner, & Pond, 1992; 3 children). The Infant-Toddler Developmental
Assessment (Provence, Eriksen, Vater, & Palmeri, 1985), the Peabody Picture Vocabulary
Test-3rd edition (PPVT-III; Dunn & Dunn, 1997) in conjunction with the Expressive
Vocabulary Test (EVT; Williams, 1997), and the language scale of the DP-II were also used
to assess language development at intake (1 child each). Other tests administered at followup were the Sequenced Inventory of Communication Development—Revised Edition
(SICD-R; Hedrick, Prather, & Tobin, 1984; 3 children), the PLS, and the PPVT-III in
conjunction with the EVT (2 children each). One child was assessed at follow-up with both
the Expressive One-Word Picture Vocabulary Test (EOWPVT; Brownell, 2000a) and the
Receptive One-Word Picture Vocabulary Test (ROWPVT; Brownell, 2000b). One child did
not receive a language functioning test at intake, and six children did not receive follow-up
language tests.
2.3.4. Adaptive skills
The Vineland Adaptive Behavior Scales: Interview Edition (VABS; Sparrow, Balla, &
Cicchetti, 1984) was administered both at intake (54 children) and follow-up (56 children)

App 105
370

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

to the parents or primary caregivers of all participants in the study. The VABS is the most
widely used assessment of adaptive skills and is viewed as a valid measure of overall
adjustment in children with autism spectrum disorders (Klin, Carter, & Sparrow, 1997;
Newsom & Hovanitz, 1997). The VABS yields a composite score expressed as a standard
score and four domain scores (communication, daily living, socialization, and motor
skills), expressed either as standard scores or age equivalents. All were used in our
analyses. Other intake tests of adaptive skills were the personal adjustment or self-help
subscales of the Denver Developmental Screening Test II (Frankenburg, Dodds, Archer,
Shapiro, & Bresnick, 1992; 3 children), the DP-II (Alpern et al., 1986; 1 child), and the
Rockford Infant Development Evaluation Scales (RIDES; Project RHISE, 1979; 1 child
each). Two children did not receive tests of adaptive skills at intake, and 6 children did not
receive follow-up tests of adaptive skills.
2.4. Data analyses
In our statistical analyses we were primarily interested in comparing the test scores of
children in the IBT group with those of children in the AP and GP groups, to determine the
efficacy of IBT relative to the other forms of treatment. A secondary comparison of interest
(statistically orthogonal to the comparison of primary interest) was between the test scores
of children in the AP group and those of children in the GP group, to determine if the effects
of those two forms of treatment differed from each other. Several statistical approaches are
available to make these comparisons, including t tests and planned contrasts. We sought to
avoid approaches (such as t tests) that evaluate data at the group level, because they cannot
readily accommodate individual differences. This was a concern in our study, because the
average age at diagnosis differed between the three groups of children, and because parents
of children in the IBT group were more educated, on average, than parents of the children
in the other two groups. Accordingly, we used multiple regression to compare the three
groups of children while controlling for individual differences in age at diagnosis and
parental education.
For the multiple regression analyses, we created a variable that was used to compare the
children in the IBT group with the children in the AP and GP groups by assigning a numeric
code of 1 to children in the IBT group and a numeric code of —1 to children in the other
groups. Similarly, we created a variable that was used to compare the children in the AP
group with the children in the GP group by assigning a numeric code of 0 to children in the
IBT group, a numeric code of —1 to children in the AP group, and a numeric code of 1 to
children in the GP group. All analyses included both of these variables. All analyses also
included age at diagnosis and parents' mean level of education, to control for the potential
influence of those two variables. The parents' mean level of education was used instead of
entering maternal and paternal education levels as separate variables, because the maternal
and paternal years of education were highly correlated (r = .52).
The children in the IBT group were younger, on average, than the children in the other
two groups at both intake and follow-up testing. No specific correction was made for age at
testing, however. Such a correction could only have affected analyses of age equivalents;
standard scores and learning rates already correct for age at testing. Furthermore, by
controlling for age at diagnosis we essentially controlled for age at testing as well, because

App 106
J.S. Howard et al./Research in Developmental Disabilities 26 (2005) 359-383

371

age at diagnosis was highly correlated with age at intake testing (r = .78) and age at followup testing (r = .79).
Learning rates prior to intake were calculated for non-verbal, receptive language,
expressive language, communication, daily living, social, and motor skills by dividing the
age equivalent at intake by the child's chronological age in months. Non-verbal learning
rates were based on the age equivalent scores derived from the Merrill-Palmer. Receptive
and expressive language learning rates were calculated using age equivalents from
standardized language assessments. Communication, daily living, social, and motor
learning rates were derived from age equivalent scores on the VABS. Learning rates during
the intervention period were calculated by subtracting the intake age equivalent score on
the measure in question from the age equivalent score at follow-up, and then dividing by
the interval between intake and follow-up testing.

3. Results
3.1. Intake
At intake there was clear evidence of developmental delay in all three groups of
children. For most skill domains, the mean standard scores for all three groups were
substantially below 100, and the mean learning rates were well below the normal rate of 1
year of development per year of age (see Table 4). As might be expected, delays were most
prominent in receptive and expressive language skills, with mean standard scores in all
three groups close to 50, and mean learning rates of about .5 age equivalents per year (i.e.,
half the normal learning rate).
The mean scores of all three groups of children on all measures were similar at intake.
The only difference that reached statistical significance was in the non-verbal skills
domain, where the GP group had a significantly higher mean age equivalent score than the
AP group.
3.2. Follow-up
At follow-up, there were no statistically significant differences between the mean scores
of children in the AP and GP groups (see Table 5). In contrast, the IBT group had higher
mean scores in all domains than the other two groups combined. Those differences were
statistically significant. The only exception to this general finding was in the motor skills
domain, which yielded no statistically significant group differences when results were
expressed as learning rates. The IBT group had mean standard scores in the normal range
on cognitive, non-verbal, communication, and motor skills, whereas the only mean score in
the normal range for the AP and GP groups was in motor skills (which were not
substantially delayed at intake). Differential treatment effects were also reflected in
changes exhibited by individual children within the three groups. For example, the
cognitive (IQ) scores of 13 children in the IBT group increased from one standard deviation
or more below average (i.e., IQ of 85 or lower) at intake to within one standard deviation of
average or above (i.e., IQ of 86 or higher) at follow-up. Three children in that group had IQ

App 107
372

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

Table 4
Test scores and learning rates at intake

M

S.D.

M

S.D.

M

S.D.

IBT
mean minus
AP/GP mean

58.54
80.14
52.16
51.88
66.18
70.71
72.79
95.11
70.46

18.15
11.86
18.44
12.91
10.02
10.14
11.26
11.70
11.85

53.69
67.44
45.38
43.88
63.69
68.06
75.50
93.19
69.81

13.50
16.69
14.97
6.69
9.68
11.61
14.25
10.10
10.48

59.88
77.69
49.00
48.77
66.20
73.43
75.07
92.08
71.62

14.85
12.33
13.61
11.61
8.70
10.39
12.09
13.84
10.47

1.76
8.11
5.16
5.81
1.28
.14
-2.51
2.42
-.16

-6.19
-10.25
-3.62
-4.89
-2.51
-5.37
.43
1.11
-1.81

Age equivalents (months)
Cognitivea
17.04
24.43
Non-verbala
Receptive
14.57
Expressivea
14.76
Communicationa 14.90
Self-helps
18.24
Sociala
16.39
Motora
28.86

6.07
4.37
5.82
4.72
4.32
3.83
4.89
5.86

17.27
24.75
16.81
16.38
16.19
21.44
22.06
33.56

4.71
6.01
5.36
2.99
6.44
7.78
10.62
7.20

17.10
26.83
16.60
17.87
16.53
21.20
19.60
32.00

3.93
6.95
5.34
5.45
5.25
6.67
5.68
6.25

-.15
-1.21
-2.14
-2.34
-1.45
-3.08
-4.48
-3.97

.17
-2.08*
.21
-1.49
-.34
.24
2.46
1.56

Measure

Standard scores
Cognitive
Non-verbal
Receptive
Expressive
Communication
Self-help
Social
Motor
Compositea

AP

IBT

GP

AP
mean minus
GP mean

Learning rates prior to intake (age equivalents per year)
Non-verbal
.79
.14
.67
.17
.12
-.11
.78
.08
Receptive
.21
.45
.12
.48
.15
.48
.02
-.03
Expressive
.44
.49
.16
.06
.53
.17
.01
-.09
Communication
.15
.43
.15
.49
.49
.15
.04
-.06
Self-help
.61
.17
.57
.62
.18
.16
.01
-.06
Social
.54
.18
.58
.23
.58
.19
-.04
.00
Motor
.95
.18
.90
.13
.93
.18
.03
-.04
a Age at diagnosis is a significant covariate (p < .05).
Difference is statistically significant, after controlling for age at diagnosis and parents' level of education
(p < .05).

scores in or near the normal range at intake (84, 89, and 97); at follow-up their IQ scores
had increased to 122, 114, and 102, respectively. In the AP group, no children had IQ scores
in the normal range at intake; at follow-up, the IQ scores of two children had moved into the
normal range. Three children in the GP group had IQ scores that moved from one or more
standard deviations below average at intake to within the normal range at follow-up;
however, the two children in that group whose IQ scores were in the normal range at intake
actually had lower IQ scores at follow-up (from 91 to 77 and 89 to 85).
Table 5 also shows that IBT produced normal or above-normal mean learning rates in all
skill domains, although the learning rate for motor skills was near normal for this group as
well as the other two groups of children before intervention. In contrast, only non-verbal
skills were acquired at close to normal rates by children in the other two treatment groups
during the intervention period (means = .87 and .90, respectively). Differential treatment
effects were most evident when rates of acquisition of language skills were compared.

App 108
J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

373

Table 5
Test scores and learning rates at follow-up

M

S.D.

M

S.D.

M

S.D.

IBT
mean minus
AP/GP mean

89.88
101.67
71.31
70.46
85.44
76.56
82.08
98.16
81.32

20.87
19.14
22.72
22.88
14.73
11.59
11.73
12.01
11.14

62.13
73.56
49.93
47.67
64.13
70.00
75.00
88.06
69.25

19.63
24.94
19.62
23.39
14.18
11.92
18.01
13.43
12.91

68.81
82.53
49.21
46.79
68.69
65.19
70.56
89.50
68.25

15.32
16.76
16.08
12.81
14.18
8.84
11.77
10.06
9.86

24.42**
23.77**
21.73*
23.21*
19.03**
8.97**
9.30**
9.38*
12.57**

-6.68
-8.97
.72
.88
-4.56
4.81
444
-1.44
1.00

Age equivalents (months)
Non-verbalb
44.54
Receptive
32.23
Expressive
31.96
Communication
36.60
Se1f-helpb
31.88
Social
32.04
Motorb
44.16

8.76
10.04
12.00
12.23
8.74
10.23
8.22

37.38
26.27
24.00
23.88
31.75
30.06
43.00

13.14
11.56
12.02
11.82
9.75
16.10
7.28

40.80
25.38
23.31
26.13
27.81
24.81
42.25

9.97
10.00
7.36
8.74
5.75
7.23
6.58

5.51*
6.37*
8.28*
11.60**
2.10*
4.61*
1.54*

-3.42
.89
.69
-2.25
3.94
5.25
.75

.56**
.66**
.80**
.81**
.30*
.54*
.24

-.03
.16
.16
-.13
.26
.20
-.14

Measure

Standard scores
Cognitive
Non-verbala
Receptive
Expressivea
Communication
Self-help
Social
Motor
Composite

AP

IBT

GP

Learning rates between intake and follow-up (age equivalents per year)
Non-verbal
1.44
.52
.87
.74
.90
Receptive
1.23
.56
.65
.47
.48
Expressive
1.22
.73
.49
.78
.33
Communication
1.43
.72
.56
.76
.69
Self-help
.91
.58
.74
.80
.48
Social
1.04
.74
.60
.94
.40
Motor
.99
.45
.69
.49
.83

.39
.43
.45
.70
.49
.67
.59

AP
mean minus
GP mean

Parents' level of education is a significant covariate (p < .05).
Age at diagnosis is a significant covariate (p < .05).
* Difference is statistically significant, after controlling for age at diagnosis and parents' level of education
(p < .05).
** Difference is statistically significant, after controlling for age at diagnosis and parents' level of education
(p < .01).
a

b

Inspection of Figs. 1 and 2 reveals that those differences were not restricted to just a few
children. Prior to intake, children in all three groups exhibited similar, below-normal rates
of learning receptive language skills, although two children in the IBT group were
acquiring receptive language skills at a normal rate prior to intervention (Fig. 1). At followup, all but eight children in the IBT group were acquiring receptive language skills at a
normal rate, with several achieving at above-normal rates and two others at near-normal
rates. In contrast, learning rates at follow-up remained below normal for the large majority
of children in the AP and GP groups. A small number of children in all three groups,
however, appeared to have lower learning rates in this domain at follow-up than at intake.
Fig. 2 shows similar patterns for expressive language skills. At intake, all children in the
IBT group had expressive language learning rates that were below normal; at follow-up, all

App 109
374

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383
3.0

IBT

AP

GP

2.5

•
•
•
li

2.0
1.5
Learning rate
(age equivalents
per year)
1.0

•
•
•
o
o

I
0.5

1
0.0

I

I
•
••
8
•

8
o

1

••
II

•
I

-0.5

Intake Follow-up Intake Follow-up Intake Follow-up
Test
Fig. 1. Receptive language learning rates prior to intake (unfilled circles) and at follow-up, after about 14 months
of intervention (filled circles). The dashed line indicates the normal learning rate (1 year of development for each
year of age).

3.0

IBT

•

AP

•

2.5
2.0
1.5
Learning rate
(age equivalents
per year)
1.0

••
•
*

•

I

•
I ..

II
0.5

•
0.0
-0.5

GP

I

g

•
••
••I
••

o

o

i

•

••
II
$

•

Intake Follow-up Intake Follow-up Intake Follow-up
Test

Fig. 2. Expressive language learning rates prior to intake (unfilled circles) and at follow-up, after about 14 months
of intervention (filled circles). The dashed line indicates the normal learning rate (1 year of development for each
year of age).

App 110
375

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383
Table 6
Changes in test scores and learning rates
Measure

IBT
M

AP
S.D.

M

GP
S.D.

M

S.D.

IBT
AP
mean minus
mean minus
AP/GP mean GP mean

Standard scores at follow-up minus standard scores at intake
Cognitive
29.72 16.29 8.44 15.04 8.94 17.95 21.03**
Non-verbala
20.57 16.20
6.13 18.70
2.31 11.61 16.16**
Receptive
20.17 19.46 3.87 12.09 -4.82 14.81 19.97**
Expressivea
20.08 22.42 3.80 20.66 -4.45 17.25 19.78*
Communication 17.17 13.94 .44 12.47 2.20 14.08 15.88**
Self-help
5.92 13.60 1.94 15.29 -7.43 11.03 8.35*
Social
8.00 13.54 -.50 14.41 -4.64 15.16 10.43*
Motor
1.38 13.90 -5.13 14.47 -1.23 19.13 4.75
Composite
10.52 14.73 -.56 12.04 -2.77 14.01 12.07**

-.50
3.82
8.68
8.25
-1.76
9.37
4.14
-3.89
2.21

Age equivalents at follow-up minus age equivalents at intake (months)
Non-verbal
20.81
7.20
12.63 11.20
13.17
5.54
7.95**
Receptive
17.15
7.88
9.13
8.16
6.83
5.92
9.04**
Expressive
16.85 10.30
7.53 11.90
4.50
6.05 10.66**
Communication 21.00 10.88 7.69 9.73 9.53 8.87 12.42**
Self-help
13.44
8.13
10.31
9.90
6.93
6.84
4.76*
Social
15.46
9.89
8.00 11.99
5.27
9.11
8.78**
Motor
14.33
6.20
9.44
6.83
11.43
7.85
3.97

-.54
2.30
3.03
-1.85
3.38
2.73
-1.99

Learning rates between intake and follow-up minus learning rates prior to intake (age equivalents per year)
Non-verbal
.65
.53
.20
.12
.73
.38
.49*
.08
Receptive
.73
.61
.19
.42
-.02
.41
.64**
.21
Expressive
.72
.76
.05
.77
-.23
.54
.79**
.27
Communication
.92
.75
.13
.78
.21
.75
.76**
-.08
Self-help
.30
.68
.18
.90
-.14
.64
.28*
.32
.48
Social
.83
.02
.97
-.18
.78
.56*
.20
Motor
.01
.53
.55
-.11
-.21
.75
.17
-.10
a Parents' level of education is a significant covariate (p < .05).
* Difference is statistically significant, after controlling for age at diagnosis and parents' level of education
(p < .05).
** Difference is statistically significant, after controlling for age at diagnosis and parents' level of education
(p < .01).

but nine of those children were acquiring those skills at normal rates, with rates
accelerated to substantially above normal for several children. Two additional children in
this group had near-normal learning rates at follow-up. All children in the AP and GP
groups also had below-normal rates of acquisition of expressive language skills at intake.
At follow-up, although 1-2 children in each group exhibited normal or above-normal
learning rates, the rate of acquisition of expressive language skills actually declined over
the course of intervention for several children in both groups. Some of the factors that
contributed to these between-group and individual differences will be explored in a
subsequent paper.
Since the mean scores for all three groups of children on all dependent measures were
similar at intake, the analysis of change scores yielded results that were similar to those that
emerged from analyzing the follow-up scores (see Table 6). Some interesting additional

App 111
376

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

information was revealed by this analysis. Children in the IBT group exhibited statistically
significantly larger mean treatment gains in all domains than children in the AP and GP
groups combined, with the possible exception of the motor skills domain (which was
significant only when standard scores were used). Indeed, the IBT group had mean gains in
standard scores in all skill domains, ranging from 1.38 points in motor skills (which were
already near-normal at intake) to 29.72 points in cognitive skills. The AP group's change
scores ranged from —5.13 points in the motor skills domain to 8.44 points in cognitive
skills. Mean change scores for this group actually revealed losses in social and motor skills
as well as the VABS composite score, and negligible-to-small gains in the other domains.
For the GP group, mean change scores ranged from —7.43 in daily living skills to 8.94 in
cognitive skills, with losses in receptive language, expressive language, daily living, social,
and motor skills as well as the VABS composite score. Similar patterns emerged when age
equivalents were used in change score analyses: the IBT group made gains in all domains
(range = 13.44-20.81 months), gaining more than 14 months developmentally, on average,
in non-verbal, receptive language, expressive language, overall communication, social, and
motor skills over the 14-month intake-to-follow-up period. Mean age equivalent gains for
the AP and GP groups were much smaller and were less than 14 months in all domains
(ranges = 7.53-12.63 months and 4.5-13.17 months, respectively).

4. Discussion
Young children with autism or PDD-NOS who received intensive behavior analytic
treatment (IBT) for about 14 months outperformed comparable children who received
"eclectic" intervention services for the same period of time on virtually every follow-up
measure. In most cases the differences in mean scores were substantial and statistically
significant. Our analyses corrected for the parents' level of education and for the children's
ages at diagnosis. No direct correction was made for the age at testing, but children in the
IBT group had the highest mean age equivalents at follow-up (see Table 5), despite being
younger than the children in the other groups. Thus, our findings cannot be attributed to
differences in age at testing; if anything, they underestimate the effect of IBT on age
equivalents. These results are consistent with those reported by other investigators who
found that providing at least 30 h of competently delivered, intensive behavior analytic
intervention to preschool-age children with autism produced large improvements in
intellectual functioning, communication skills, and adaptive behavior. We reported gains
measured just 14 months into treatment, so it was not surprising that they were generally
smaller than gains that have been documented after 2-3 years of IBT (e.g., Green et al.,
2002; Lovaas, 1987; Perry et al., 1995; Weiss, 1999). The gains we observed, however,
were generally larger than gains reported by Anderson et al. (1987) for preschool children
with autism who received only 15-25 h of behavior analytic treatment for 1 year.
Analyses of learning rates (Table 5, Figs. 1 and 2) provided further evidence of the
efficacy of IBT for accelerating rates of skill acquisition. During 14 months of treatment,
children in the IBT group acquired skills in most domains at a rate that matched or
exceeded the normal rate of 1 year of development per year of age. That was not the case
for the children in the AP and GP groups; with very few exceptions, their learning rates

App 112
J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

377

remained well below normal. If children with autism are to have any chance to close the
gap between their skills and those of their typically developing peers, their developmental
trajectories must be increased sharply while they are young, before the gap widens even
further. That is, their learning rates need to exceed the normal rate for an extended period of
time. Of the early intervention approaches investigated in this study, only IBT had that
effect, producing above-normal mean learning rates in the non-verbal, receptive language,
expressive language, overall communication, and social skill domains. It is important to
note, however, that 14 months of accelerated development was not enough for the children
in the IBT group to make up all of the differences between their skills and those of typically
developing preschoolers. Previous research suggests that at least 1-2 additional years of
IBT will be required before some of those children will have the repertoires required to
learn effectively in typical classrooms without ongoing specialized intervention; some will
require more than that, and some will likely not reach that point even with additional IBT
(see Green, 1996; Smith, 1999). Projections based on the developmental trajectories
produced by IBT in our study suggest that most children will continue to make progress
toward catching up with their typically developing peers if they continue receiving
competently delivered IBT.
Our findings also shed some empirical light on the relation between the type and
intensity of early intervention and benefits for children with autism. "Eclectic" treatment
(a combination of TEACCH, sensory integration therapy, and some applied behavior
analysis methods) did not prove very effective for our AP comparison group, even though it
was provided intensively (i.e., for 30 h per week with adult:child ratios of 1:1 or 1:2) in
classrooms specifically designed for children with autism by staff with considerable
training and experience with the population. Mean change scores in all skill domains were
substantially lower for the AP group than for their counterparts who received IBT, in fact
reflecting losses rather than gains in some areas over 14 months of treatment (Table 6).
These findings are consistent with those reported by Eikeseth et al. (2002) for a group of
children with autism aged 4-7 years who received similarly intensive "eclectic" treatment
in special education classrooms for 1 year. Thus, the popular notion that virtually any
intervention can produce meaningful benefits for children with autism if it is provided
intensively has not been confirmed by two controlled studies that addressed that
hypothesis. Instead, IBT produced substantially larger improvements than intensive
"eclectic" treatment in both studies. The non-intensive "eclectic" treatment experienced
by our GP group (15 h per week of "developmentally appropriate" activities and sensory
experiences provided in a 1:6 adult:child ratio) was not just ineffective; it produced
negative mean change scores in multiple skill domains. In short, the effect of "eclectic"
treatment on both the AP and GP groups was to flatten or decrease rather than increase the
slopes of the developmental trajectories of most children. Based on these findings, we
would project that those children will lose more ground to their typically developing peers
the longer they remain in such intervention programs.
The ineffectiveness of the "eclectic" early intervention provided to children in the AP
and GP groups in this study should not be surprising. "Eclectic" intervention necessarily
involves multiple transitions per day from one activity or "therapy" to another, and a good
deal of variability in the way intervention is provided by the various adults involved.
Children with autism often do not respond well to changes in routines, have substantial

App 113
378

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

attentional difficulties, and learn best when instruction is consistent. It does not stand to
reason that typical "eclectic" programming provided in a group format is likely to produce
meaningful benefits for children with those characteristics. Nor does it follow logically that
combining several "therapies" or methods for which there is limited scientific evidence of
effectiveness (such as TEACCH, developmental models, and sensory integration therapy;
see Arendt, MacLean, & Baumeister, 1988; Dawson & Watling, 2000; Smith, 1999) is
likely to be beneficial for young children with autism. What is surprising is how few
scientific studies heretofore have evaluated the "eclectic" approach, and how many
prominent individuals and organizations in the autism community and the education
establishment endorse and promote it.
One interesting observation that was common to all three treatment groups in this study
was a change in the distributions of language learning rates from pre-treatment to followup (see Figs. 1 and 2). For all three groups, the spreads of the distributions were
considerably greater at follow-up than before treatment, and some modes shifted as well.
Those changes may have been due in part to sampling errors, which could have been
magnified in the follow-up data because the follow-up learning rates were based on a
shorter time period than were the pre-treatment learning rates (14 months versus 34
months, on average). It is likely that sampling errors affected all datasets equally, however,
so the relative between-group differences in learning rate distributions likely reflect
differential treatment effectiveness. Here again, the effects of IBT appeared to differ
substantially from the effects of the other two interventions. Fig. 1 shows that for the IBT
group, the mode of the distribution of learning rates for receptive language skills moved
from well below normal before treatment to above normal after 14 months of treatment,
with many more children achieving normal rates at follow-up than prior to intervention.
The mode of the distribution of receptive language learning rates for the intensive
"eclectic" intervention (AP) group was slightly higher but still well below normal at
follow-up, with three children acquiring receptive language skills at normal rates after 14
months. For the GP group, the mode of the distribution of receptive language learning rates
was lower at follow-up than pre-treatment, although two children in that group were
acquiring receptive language skills at normal rates at follow-up. With regard to rates of
acquiring expressive language skills (Fig. 2), the distribution spread markedly with IBT,
with a number of children in that group exhibiting learning rates that were well above
normal at follow-up. Prior to intervention, the modal learning rate for the IBT group was
well below normal; at follow-up a bimodal distribution was observed, with one mode
substantially above normal and the other just below normal. Intensive "eclectic" treatment
also appeared to produce greater spread in the distribution of expressive language learning
rates for the AP group, but only a slight upward shift in the mode. The non-intensive
"eclectic" intervention (GP) group showed a slightly increased spread in the distribution
of learning rates for expressive communication skills at follow-up, but the mode shifted
down rather than up.
Several limitations to this study constrain the interpretation of our results. First,
assignment to treatment groups was parent-determined rather than random; however, the
three groups were very similar on key dependent measures before treatment began, which
is the main purpose of random assignment (cf. Baer, 1993; Kasari, 2002). Thus, differences
in outcomes across the three groups were likely due to the treatments rather than to any

App 114
J.S. Howard et al./Research in Developmental Disabilities 26 (2005) 359-383

379

selection bias or pre-treatment differences among the groups. Second, the examiners who
conducted the assessments were not blind as to the children's group assignments at followup testing. They were, however, independent of the investigators as well as all three
intervention programs. It could be argued that some of the examiners were biased toward
IBT, which led them to overestimate the follow-up status of children in that group. Since
there were a large number of examiners, however, it is just as likely that some of them were
biased against IBT and toward the other interventions. Third, results were analyzed only in
terms of performances on standardized, norm-referenced assessments conducted in formal
testing situations, rather than the repeated direct observational measurement of behavior in
situ that characterizes applied behavior analysis. Additionally, the analyses compared
group mean scores statistically. Group mean scores may not accurately represent the actual
performance of any individual in the group, and between-groups statistical comparisons of
mean scores cannot reveal clinically significant changes in individual behavior over time
(Johnston & Pennypacker, 1993). Nonetheless, standardized instruments like IQ tests and
adaptive behavior scales are widely used in autism research, and scores on such tests have
been shown to correlate reasonably well with overall adjustment for individuals with
autism (e.g., Klin et al., 1997). Further, between-groups comparisons are helpful for
answering actuarial questions, such as the relative efficacy of interventions for groups of
children with autism. Finally, treatment integrity was not measured in this study. The
behavior analytic treatment was directed by individuals with documented training and
credentials in applied behavior analysis, and incorporated techniques that have been
operationally defined and tested in many previous studies (see Green, 1996, 2001; Matson
et al., 1996). Staff in that program were trained and supervised closely, but it cannot be
assumed that they implemented treatment procedures with fidelity and consistency
throughout the study. Even fewer assumptions can be made about the other interventions.
Indeed, measuring the integrity of those interventions would likely prove challenging,
because many of the techniques employed have not been operationally defined or
evaluated, and the skills required to implement them have not been well-specified.
As noted previously, we plan to conduct further analyses of child, family, and treatment
variables that were correlated with the differential outcomes reported here. Additional
research on the importance of such variables is needed to inform decision-making by
families and policymakers, and to aid in the development of new or modified interventions
for children with autism spectrum disorders who do not respond to IBT. Studies that further
investigate the short- and long-term effects of "eclectic" intervention are also needed,
given the widespread popularity and availability of that approach for children with autism
spectrum disorders. The same can be said of early intervention that is based primarily or
exclusively on models that have not yet been subjected to thorough scientific evaluations,
such as TEACCH, "developmentally appropriate" programming, "floor time," Relationship Development Intervention, and sensorimotor techniques.

Acknowledgements
The authors are grateful to Valley Mountain Regional Center Region 6 Autism
Connection, and California State University, Stanislaus for supporting this research; to

App 115
380

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

Shannon Brackett, Beth LeBrun, Schelley McDonald, Marie Overmyer, and Yasman Dianat
for assistance with data collection; and to the children and families who participated in the
study. Preliminary reports of this research were presented at the international conference of
the Association for Behavior Analysis, Venice, Italy, November 2001 and the annual
meeting of the California Association for Behavior Analysis, San Francisco, February 2003.

References
Alpern, G., Boll, T., & Shearer, M. (1986). Developmental profile II (DP-II). Los Angeles: Western Psychological
Services.
Anderson, S. R., Avery, D. L., DiPietro, E. K., Edwards, G. L., & Christian, W. P. (1987). Intensive home-based
early intervention with autistic children. Education and Treatment of Children, 10, 352-366.
Anderson, S. R., & Romanczyk, R. G. (1999). Early intervention for young children with autism: Continuumbased behavioral models. Journal of the Association for Persons with Severe Handicaps, 24, 162-173.
Arendt, R. E., MacLean, W. E., Jr., & Baumeister, A. A. (1988). Critique of sensory integration therapy and its
application in mental retardation. American Journal on Mental Retardation, 92, 401-411.
Baer, D. M. (1993). Quasi-random assignment can be as convincing as random assignment. American Journal on
Mental Retardation, 97(4), 373-375.
Bayley, N. (1993). Bayley Scales of Infant Development (2nd ed.). San Antonio, TX: The Psychological
Corporation.
Birnbrauer, J. S., & Leach, D. J. (1993). The Murdoch Early Intervention Program after 2 years. Behaviour
Change, 10(2), 63-74.
Bondy, A. S., & Frost, L. A. (1994). The picture exchange communication system: Training manual. Cherry Hill,
NJ: Pyramid.
Brownell, R. (Ed.). (2000). Expressive One-Word Picture Vocabulary Test-2000 (EOWPVT-2000). Novato, CA:
Academic Therapy Publications.
Brownell, R. (Ed.). (2000). Receptive One-Word Picture Vocabulary Test-2000 (ROWPVT-2000). Novato, CA:
Academic Therapy Publications.
Bzoch, K., & League, R. (1991). Receptive Expressive Emergent Language Scales-Revised (REEL-2) (2nd ed.).
Austin, TX: PRO-ED.
California Department of Developmental Services. (2002). Department of Developmental Services Fact Book (5th
ed.). Sacramento, CA: California Department of Developmental Services. http://www.dds.ca.gov/factsstats/
factbook.cfm#pdf
California Department of Developmental Services. (2003a). 2003 DDS autism report. Sacramento, CA: California
Department of Developmental Services. http://www.dds.ca.gov/autism/autism_main.cfm
California Department of Developmental Services. (2003b). Department of Developmental Services Fact Book
(6th ed.). Sacramento, CA: California Department of Developmental Services. http://www.dds.ca.gov/
factsstats/factbook.cfm#pdf
Campbell, F. A., Pungello, E. P., Miller-Johnson, S., Burchinal, M., & Ramey, C. T. (2001). The development of
cognitive and academic abilities: Growth curves from an early childhood educational experiment. Developmental Psychology, 37(2), 231-242.
Campbell, F. A., Ramey, C. T., Pungello, E. P., Sparling, J., & Miller-Johnson, S. (2002). Early childhood
education: Young adult outcomes from the Abecedarian Project. Applied Developmental Science, 6, 42-57.
Dawson, G., & Fischer, K. W. (Eds.). (1994). Human behavior and the developing brain. New York: Guilford.
Dawson, G., & Watling, R. (2000). Interventions to facilitate auditory, visual, and motor integration in autism: A
review of the evidence. Journal of Autism and Developmental Disorders, 30, 415-425.
Dunn, L. M., & Dunn, L. M. (1997). Peabody Picture Vocabulary Test (3rd ed.). Circle Pines, MN: American
Guidance Service Publishing.
Eikeseth, S., Smith, T., Jahr, E., & Eldevik, S. (2002). Intensive behavioral treatment at school for 4-7-year-old
children with autism: A 1-year comparison controlled study. Behavior Modification, 2002, 49-68.
Elliott, C. (1990). Differential ability scales. San Antonio, TX: The Psychological Corporation.

App 116
J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

381

Fenske, E. C., Zalenski, S., Krantz, P. J., & McClannahan, L. E. (1985). Age at intervention and treatment outcome
for autistic children in a comprehensive intervention program. Analysis and Intervention in Developmental
Disabilities, 5, 49-58.
Ferster, C. B., & DeMyer, M. K. (1961). The development of performances in autistic children in an automatically
controlled environment. Journal of Chronic Diseases, 13, 312-345.
Fombonne, E. (2001). Is there an epidemic of autism? Pediatrics, 107, 411-413.
Fombonne, E. (2003). The prevalence of autism. Journal of the American Medical Association, 289, 87-89.
Frankenburg, W. K., Dodds, J., Archer, P., Shapiro, H., & Bresnick, B. (1992). The Denver II: A major revision and
restandardization of the Denver Developmental Screening Test. Pediatrics, 89, 91-97.
Green, G. (1996). Early behavioral intervention for autism: What does research tell us? In C. Maurice (Ed.), G.
Green, & S. Luce (Co-Eds.), Behavioral intervention for young children with autism: A manual for parents and
professionals (pp. 29-44). Austin, TX: PRO-ED.
Green, G. (2001). Behavior analytic instruction for learners with autism: Advances in stimulus control technology.
Focus on Autism and Other Developmental Disabilities, 16, 72-85.
Green, G., Brennan, L. C., & Fein, D. (2002). Intensive behavioral treatment for a toddler at high risk for autism.
Behavior Modification, 26, 69-102.
Guralnick, M. J. (1998). Effectiveness of early intervention for vulnerable children: A developmental perspective.
American Journal on Mental Retardation, 102(4), 319-345.
Hall, L. J. (1997). Effective behavioural strategies for the defining characteristics of autism. Behaviour Change,
14, 139-154.
Hannigan, J. H., & Berman, R. F. (2000). Amelioration of fetal alcohol-related neurodevelopmental disorders
in rats: Exploring pharmacological and environmental treatments. Neurotoxicology and Teratology, 22,
103-111.
Harris, S. L., Handleman, J. S., Gordon, R., Kristoff, B., & Fuentes, F. (1991). Changes in cognitive and language
functioning of preschool children with autism. Journal of Autism and Developmental Disorders, 21(3), 281290.
Hedrick, D., Prather, E., & Tobin, A. (1984). Sequenced Inventory of Communication Development-Revised
Edition. Seattle, WA: University of Washington Press.
Jacobson, J. W., Mulick, J. A., & Green, G. (1998). Cost-benefit estimates for early intensive behavioral
intervention for young children with autism: General models and single state case. Behavioral Interventions,
13, 201-226.
Johnston, J. M., & Pennypacker, H. S. (1993). Strategies and tactics of behavioral research (2nd ed.). Hillsdale,
NJ: Erlbaum.
Kasari, C. (2002). Assessing change in early intervention programs for children with autism. Journal of Autism
and Developmental Disorders, 32(5), 447-461.
Klin, A., Carter, A., & Sparrow, S. S. (1997). Psychological assessment. In D. J. Cohen, & F. R. Volkmar (Eds.),
Handbook of autism and pervasive developmental disorders (2nd ed., pp. 418-427). New York: Wiley.
Lord, C., & Schopler, E. (1989). The role of age at assessment, developmental level, and test in the stability of
intelligence scores in young autistic children. Journal of Autism and Developmental Disorders, 19, 483-499.
Loupe, P. S., Schroeder, S. R., & Tessel, R. (1995). FR discrimination training effects in SHR and microencephalic
rats. Pharmacology, Biochemistry and Behavior; 51, 869-876.
Lovaas, 0. I. (1987). Behavioral treatment and normal educational and intellectual functioning in young autistic
children. Journal of Consulting and Clinical Psychology, 55, 3-9.
Matson, J., Benavidez, D., Compton, L., Paclawskyj, J., & Baglio, C. (1996). Behavioral treatment of autistic
persons: A review of research from 1980 to the present. Research in Developmental Disabilities, / 7,433-465.
Maurice, C., Green, G., & Foxx, R. M. (Eds.). (2001). Making a difference: Behavioral intervention for autism.
Austin, TX: PRO-ED.
Maurice, C. (Ed.), Green, G., & Luce, S. (Co-Eds.). (1996). Behavioral intervention for young children with
autism: A manual for parents and professionals. Austin, TX: PRO-ED.
McEachin, J. J., Smith, T., & Lovaas, 0. I. (1993). Long-term outcome for children with autism who received early
intensive behavioral treatment. American Journal on Mental Retardation, 97,359-372.
Newsom, C., & Hovanitz, C. A. (1997). Autistic disorder. In E. J. Mash & L. G. Terdal (Eds.), Assessment of
childhood disorders (3rd ed., pp. 408-452). New York, NY: Guilford Press.

App 117
382

J.S. Howard et al. /Research in Developmental Disabilities 26 (2005) 359-383

Perry, R., Cohen, I., & De Carlo, R. (1995). Case study: Deterioration, autism, and recovery in two siblings.
Journal of the American Academy of Child and Adolescent Psychiatry, 34, 232-237.
Project RHISE. (1979). Rockford Infant Development Evaluation Scales. Bensenville, IL: Scholastic Testing
Services Inc.
Provence, S., Eriksen, J., Vater, S., & Palmeri, S. (1985). Infant toddler developmental assessment. Chicago, IL:
The Riverside Publishing Co.
Ramey, C. T., & Ramey, S. L. (1998). Early intervention and early experience. American Psychologist, February,
109-120.
Ramey, S. L., & Ramey, C. T. (1999). Early experience and early intervention for children at risk for
developmental delay and mental retardation. Mental Retardation and Developmental Disabilities Research
Reviews, 5, 1-10.
Reynell, J. K., & Gruber, G. P. (1990). Reynell Developmental Language Scales. Los Angeles, CA: Western
Psychological Services.
Rogers, S. J. (1998). Empirically supported comprehensive treatments for young children with autism. Journal of
Clinical Child Psychology, 27(2), 167-178.
Rogers, S. J., & DiLalla, D. L. (1991). A comparative study of the effects of a developmentally based instructional
model on young children with autism an young children with other disorders of behavior and development.
Topics in Early Childhood Special Education, / / (2), 29-47.
Rogers, S. J., Herbison, J., Lewis, H., Pantone, J., & Reiss, K. (1986). An approach for enhancing the symbolic,
communicative, and interpersonal functioning of young children with autism and severe emotional handicaps.
Journal of the Division for Early Childhood, 10, 135-148.
Roid, G., & Miller, L. (1997). Leiter International Performance Scale-Revised. Wood Dale, IL: Stoelting.
Rossetti, L. (1990). The Rossetti Infant-Toddler Language Scale: A measure of communication and interaction.
East Moline, IL: Linguisystems.
Schopler, E. (1997). Implementation of TEACCH philosophy. In D. J. Cohen, & F. R. Volkmar (Eds.), Handbook
of autism and pervasive developmental disorders (2nd ed., pp. 767-795). New York: Wiley & Sons.
Schopler, E., Reichler, R. J., Bashford, A., Lansing, M. D., & Marcus, L. M. (1990). The Psychoeducational
Profile-Revised (PEP-R). Austin, TX: PRO-ED.
Shore, R. (1997). Rethinking the brain: New insights into early development. New York: Families and Work
Institute.
Smith, T. (1999). Outcome of early intervention for children with autism. Clinical Psychology: Science and
Practice, 6, 33-49.
Smith, T., Groen, A. D., & Wynne, J. W. (2000). Randomized trial of intensive early intervention for children with
pervasive developmental disorder. American Journal on Mental Retardation, 105(4), 269-285.
Sparrow, S. S., Balla, D. A., & Cicchetti, D. V. (1984). The 'Vineland Adaptive Behavior Scales-Interview Edition.
Circle Pines, MN: American Guidance Service.
Stodgell, C. J., Schroeder, S. R., & Tessel, R. E. (1996). FR discrimination training reverses 6-hydroxydopamine-induced striatal dopamine depletion in a rat model of Lesch-Nyhan syndrome. Brain Research, 713,
246-252.
Stutsman, R. (1948). Merrill Palmer Scale of Mental Tests. Wood Dale, IL: Stoelting.
Tessel, R. E., Schroeder, S. R., Loupe, P. S., & Stodgell, C. J. (1995). Reversal of 6HD-induced neonatal brain
catecholamine depletion after operant training. Pharmacology, Biochemistry & Behavior, 51, 861-867.
Thorndike, R. L., Hagen, E. P., & Sattler, J. M. (1986). The Stanford-Binet Intelligence Scale (4th ed.). Chicago:
Riverside.
VanKeuren, K. R., Stodgell, C. J., Schroeder, S. R., & Tessel, R. E. (1998). Fixed-ratio discrimination training as
replacement therapy in Parkinson's disease: Studies in a 6-hydroxydopamine-treated rat model. Brain
Research, 780, 56-66.
Voress, J. K., & Maddox, T. (1998). Developmental assessment of young children. Austin, TX: PRO-ED.
Wechsler, D. (1989). Wechsler Preschool and Primary Scale of Intelligence-Revised. San Antonio, TX: The
Psychological Corporation.
Weiss, M. (1999). Differential rates of skill acquisition and outcomes of early intensive behavioral intervention for
autism. Behavioral Interventions, 14, 3-22.
Williams, K. (1997). Expressive Vocabulary Test. Circle Pines, MN: AGS Publishing.

App 118
J.S. Howard et al. / Research in Developmental Disabilities 26 (2005) 359-383

383

Wolf, M. M., Risley, T., & Mees, H. (1964). Application of operant conditioning procedures to the behaviour
problems of an autistic child. Behaviour Research and Therapy, 1, 305-312.
Yeargin-Allsop, M., Rice, C., Karapurkar, T., Doernber, N., Boyle, C., & Murphy, C. (2003). Prevalence of autism
in a US metropolitan area. Journal of the American Medical Association, 289, 49-55.
Zimmerman, I. L., Steiner, V. G., & Pond, R. E. (1992). The Preschool Language Scale-3. San Antonio, TX: The
Psychological Corp.

App 119

Research & Practice for Persons with Severe Disabilities
2005, Vol. 30, No. 2, 93-102

copyright 2005 by
TASH

The Effectiveness of Contextually
Supported Play Date Interactions
Between Children With Autism and
Typically Developing Peers
Robert L. Koegel, Grace A. Werner, Laurie A. Vismara, and Lynn Kern Koegel
University of California, Santa Barbara
Difficulties with social interaction are characteristic of
autism. This study presents data illustrating the use of
motivational strategies in play dates to improve the quality of social interactions between children with autism
and their typically developing peers. Specifically, a multiple baseline design across participants shows how a
contextual support package implemented during play
dates can promote reciprocal interactions and improve
affect. These results support the use of intervention strategies that target the pivotal area of motivation and provide evidence for using play dates as a context for intervention. The findings are discussed in terms of promoting quality interactions and encouraging friendship
development.

Bates, Dodge, &. Lapp, 2002; Ladd, Kochenderfer, &
Coleman, 1997; Parker & Asher, 1993; Parker & Seal,
1996; Schwartz, Dodge, Pettit, & Bates, 2000). In addition, typically developing children who experience
higher levels of peer rejection may be at risk for lower
levels of adjustment and increased externalizing behavior (Dodge et al., 2003; Laird, Jordan, Dodge, Pettit, &
Bates, 2001). The characteristic social deficits found in
children with autism may place them at even higher risk
for loneliness, poor-quality friendships, and social isolation (Bauminger & Kasari, 2000; Falvey & Rosenberg, 1995; Frea, 1995; Howlin & Rutter, 1987; Mesibov, Shea, & Adams, 2001). Therefore, interventions
that increase opportunities for positive peer interactions may be critical to improve these children's social
outcomes.
Researchers have used a variety of strategies for increasing opportunities for peer interaction, including
the use of peer modeling and tutoring (Kamps et al.,
1992), peer buddies (Laushey & Heflin, 2000), play
groups (Wolfberg & Schuler, 1993), priming (Zanolli,
Daggett, & Adams, 1996), and peer networks (Kamps,
Potucek, Lopez, Kravits, & Kemmerer, 1997). These
social interventions have traditionally been implemented for children with autism in school settings, but
recent research has suggested arranging these social opportunities in other natural settings (Strain, Kohler,
Storey, & Danko, 1994; Wolfberg & Schuler, 1999;
Yang, Wolfberg, Wu, & Hwu, 2003) such as homes,
after-school programs, and parks. Indeed, the literature
reports that typically developing children regularly invite friends to play at their homes and that these social
opportunities help children practice appropriate social
skills and foster close friendships (Frankel & Myatt,
2003). Because of their role in promoting friendship
development, social interventions conducted during
play dates may benefit children who have difficulty with
peer social interactions.
In implementing social interventions during play
dates, several variables have been identified in the literature that may help promote successful play dates.

DESCRIPTORS: autism, social development, play,
inclusion
An extensive body of literature documents the significant role of peer relationships in the social development of typical children (Hartup, 1996; Newcomb,
Bukowski, & Bagwell, 1999; Rose & Asher, 2000).
Prior studies have shown the association between having high-quality peer relationships and a variety of developmental outcomes for these children (Hymel, Vaillancourt, McDougall, .& Renshaw, 2002; Parker &
Asher, 1993). For example, researchers have suggested
that peer-related school adjustment in middle-school
boys may be associated with lower rates of later arrest
(Walker, Stieber, Ramsey, & O'Neill, 1993) and that
peer acceptance and friendship may also protect against
loneliness and peer victimization for children at risk for
poor outcomes (Asher & Paquette, 2003; Criss, Pettit,
Preparation of this manuscript was supported in part by
U.S. Public Health Service Research Grant MH28210 from the
National Institute of Mental Health and U.S. Department of
Education Grant 5830-257-LO-B.
Global summaries of portions of the data from this study
are also discussed in Werner, Vismara, Koegel, & Koegel (in
press).
The authors wish to thank the families who participated in
this study, as well as Brandy Taylor and Angela Snyder for
their assistance with intervention and data analysis.
93

App 120

94

Koegel et al.

Several researchers have noted that environmental antecedents and contextual variables played a critical role
in controlling social behavior with peers (Sasso, Mundschenk, Melloy, & Casey, 1998; Zanolli, 1997). Additional research has suggested the importance of incorporating motivational variables in intervention for children with autism (Koegel, Dyer, & Bell, 1987; Koegel,
O'Dell, & Koegel, 1987). Similarly, researchers have
also emphasized the importance of participation in
meaningful choice-making (Brown, Belz, Corsi, &
,Wenig, 1993). This body of research suggests that incorporating mutually reinforcing activities during play
dates may promote reciprocal interactions by motivating both children to participate. Natural contingencies
and shared control of reinforcers can also ensure that
both children with disabilities and their typical peers
receive reinforcement from the activity (Kennedy &
Itkonen, 1996). When these cooperative arrangements
are used during play dates, the reinforcers become contingent on the children's interactions and thus may promote increased levels of interaction. In addition, support from a facilitator during these play activities may
help promote successful interactions (Wolfberg & Schuler, 1993), and this support can be faded systematically
as the children demonstrate improvements in reciprocal
social behaviors (Odom & Watts, 1991).
These strategies by themselves seem to have a positive impact on certain components of social interaction.
However, little information is available with respect to
the broader influence of these strategies on meaningful
peer relationships. Combining these individually successful strategies into an intervention package may provide even more promising outcomes in terms of highquality interaction and friendship development. In particular, the use of mutually reinforcing activities and
adult facilitation of cooperative arrangements may provide an effective play date intervention context and
promote clinically significant outcomes. The purpose of
this study was to evaluate:the effects of this contextual
support package during play dates on socially valid aspects of peer interaction, including reciprocal interactions, displays of positive affect, and peer acceptance
and friendship in the form of spontaneous invitations
for play dates from peers.

Method
Participants
Two children with autism participated in this study.
Both children were diagnosed according to the criteria
outlined in the Diagnostic and Statistical Manual of
Mental Disorders (DSM-IV; American Psychiatric Association, 1994) by two independent agencies. The participants, Megan and Kyle, were 8 and 9 years of age
respectively. Megan was of European American descent and from an upper-middle-class family. Kyle was
of European American and Persian descent•and from a
middle-class family. Megan and Kyle were both fully

included in typical classrooms with full-time aides. The
Vineland Adaptive Behavior Scales (VABS) (Sparrow,
Balla, & Cicchetti, 1984) and behavioral observations
suggested that Megan was approximately 4 years below
age level in socialization. Similarly, behavioral observations suggested that Kyle was also functioning approximately 4 years below age level in socialization.
Prior to the start of intervention, both Megan and
Kyle had some use of communicative speech, but both
children had severe difficulties with the pragmatic aspects of language. Specifically, both children rarely responded to their peers' questions and comments and
showed difficulty engaging in reciprocal conversations.
Megan and Kyle were specifically selected for participation in this study because they rarely engaged in social interaction with peers and had no consistent
friends. Without adult facilitation, both Megan and
Kyle were alone on the playground during their free
time and had infrequent peer interaction outside the
school setting; that is, these children were not involved
in any extracurricular or recreational activities (e.g.,
camps, sport activities, after-school clubs) and were not
invited by peers to participate in typical social activities,
such as play dates, birthday parties, and sleep-overs.
Design
A multiple baseline design across participants was
used to assess whether contextually supported play date
activities would result in increased levels of reciprocal
social interaction and higher affect between the participants and their peers relative to play dates without contextual support. Baseline data were collected over the
course of approximately 3 months before the start of
intervention for Megan and for approximately 8
months for Kyle. In addition, for Megan, a reversal to
play dates without contextual support was conducted
after the first two intervention probes and then the contextually supported intervention was reinstated and
continued over the following months (Fig. 1).
General Procedure
For both Megan and Kyle, play dates occurred in
natural settings (e.g., home, park, beach, zoo, bowling
alley), and probes were taken during play dates with
and without contextual support. In both conditions, social activities were arranged for the children with autism in which they were in proximity to typically developing peers. Therefore, both conditions presented opportunities for social interaction. Parents of the
children with autism consulted with teachers and classroom aides to select responsible peers with similar interests and positive social behaviors. Informal child observations were also conducted in natural settings (e.g.,
school parks, home) to provide additional information
about possible playmates. During both conditions, parents of the children with autism contacted the parents
of same-age peers from their child's classroom or neighborhood and invited the peers to participate in a play

App 121

95

Contextually Supported Play Dates

100

w/o CS

w/ CS w/o CS

With Contextual Support
(w/ CS)

80

60 -

Megan

Percent ofIntervals with
UnpromptedSynchronous Reciprocal
Interactions

40 -

20 -

4

6

10

11

12

100
Without Contextual Support
(w/o CS)

w/ CS

80

60

Kyle

40 -

20

1

2

3

4

5

6

7

8

9

10

11

Probes by Month
Figure 1. Percentage of intervals with unprompted synchronous reciprocal interaction during play dates with and without contextual
support.

date. Parents were asked to try to arrange play dates
approximately once per week. Over the course of play
dates both with and without support, there were between nine and five different peers (Table 1) invited to
participate in play dates for Megan and Kyle, respectively.
A graduate student who was unaware of the experimental hypothesis and had at least 3 years of experience working with children with autism served as a facilitator to promote successful social interactions.
These graduate students, in collaboration with the parents, arranged play date activities and facilitated social
interaction using the play date intervention strategies
described below (i.e., mutually reinforcing activities

and adult facilitation of cooperative arrangements).
Play dates were videotaped to assess the level of appropriate social interaction among the children, and
representative probes were randomly selected from
video tapes of the entire play date and scored by two
independent observers.
Play Dates Without Contextual Support
This condition consisted of play dates as described
above with no specific instructions provided, other than
for the children to play together on activities in which
they typically would engage. During these play dates,
the children were responsible for selecting play activities. Both indoor and outdoor activities were available

App 122

96

Koegel et al.

Child
Megan

Kyle

Table 1
Activities During Play Dates With and Without Contextural Support for Megan and Kyle
Peer
Setting
Probe
Activity
1 w/o CS
2 w/o CS
3 w/o CS
4 w/o CS
5 w/CS
6 w/CS
7 w/o CS
8 w/o CS
9 w/CS
10 w/CS
11 w/CS
12 w/CS

Peer 1
Peer 2
Peer 3
Peer 4
Peer 1
Peer 1
Peer 1
Peer 5
Peer 6
Peer 7
Peer 8
Peer 9

Megan's kitchen table
Megan's backyard
Neighborhood parking lot
Megan's bedroom
Megan's living room
Megan's kitchen table
Megan's patio
Neighborhood pool
Megan's kitchen
Megan's dining room
Megan's kitchen
Local bowling alley

Coloring
Chase w/silly string
Bicycle riding
Dolls
Game ("Candyland")
Craft (tissue flowers)
Dress up
Swimming
Baking cupcakes
Making necklaces
Cookie decorating
Bowling

1 w/o CS
2 w/o CS
3 w/o CS
4 w/o CS
5 w/CS
6 w/CS
7 w/CS
8 w/CS

Peer 1
Peer 2
Peer 3
Peer 4
Peer 4
Peer 4
Peer 5
Peer 3

Local park
Local park
Beach
Kyle's living room
Kyle's living room
Kyle's backyard
Kyle's living room
Kyle's driveway

Play with squirt guns
Collecting bugs
Surfing/swimming
Board game ("Sorry")
Pictionary
Painting
Board game ("Sorry")
Basketball

to the children. Examples of activities included board
games, dolls, painting, basketball, and riding bicycles.
An adult was present to ensure child safety at all times.
Play Dates With Contextual Support
The contextually supported intervention condition
was the same as the play dates without contextual support except that within the children's activities, the
adults ensured that two components were present: the
activities were selected so that they contained mutually
reinforcing properties for both the child with autism
and the typically developing peer, and the adult facilitator set up cooperative arrangements between the children within each activity. These components are described in detail below.
First, the activities were selected to be mutually reinforcing for both children. In particular, both children's interests were considered in selecting play date
activities. This was done by consulting with parents and
teachers to determine common interests between the
two children for use during play dates. As an example,
Table 1 provides examples of the mutually reinforcing
activities used during contextually supported play dates
for each of the two children in this study. These were
activities preferred by both the child with autism and
the individual peer invited to play during that play date.
Second, the adult facilitator (graduate student and/or
parent) set up cooperative arrangements within the
context of the play date activity. Cooperative arrangements consisted of structuring the play date activities in
such a way that the participation of each individual was
critical to the activity. For instance, when baking cookies, the adult facilitator might set up a cooperative arrangement by having one child hold the measuring cup
while the other child poured the ingredients. Another
example is when making a collage together, the adult

facilitator might have one child cut out the pictures
while the other child glued them on the background. In
this way, the facilitator ensured that access to the necessary materials for the activity was contingent upon
peer interaction, making the children's collaborative
participation required for a successful outcome.
Dependent Variables
The effectiveness of this intervention package was
analyzed by comparing the play dates with and without
contextual support on the basis of two dependent variables, synchronous reciprocal interaction and child affect. In addition, a supplemental measure of social validity was scored throughout all conditions.
Synchronous Reciprocal Interaction
Adapted from Siller and Sigman's (2002) definition
of caregiver synchronization, synchronous reciprocal
interaction was defined as both children engaging in
social communicative behaviors related to the other
child's current interest. These social communicative behaviors consisted of the children showing verbal initiations, verbal responses, nonverbal eye contact, facial
expressions, and/or gestures in relation to their engagement in a joint activity. Synchronous reciprocal interaction was scored in 30-second intervals for both the
target child and peer. Only intervals in which both children were engaging in unprompted synchronous interaction throughout the majority of the 30-second interval were scored as synchronous (typically, when the
children engaged in social interaction they did so
throughout the interval). For example, if one child was
drawing a picture, the other child might initiate by asking a question (e.g., "What are you drawing?"), making
a comment (e.g., "I like your picture"), handing a
marker to the child, or assisting the child in drawing the

App 123

Contextually Supported Play Dates
object, and then have these efforts be reciprocated by
the peer (e.g., peer responds to question, makes eye
contact, smiles, uses marker from peer). This would be
scored as synchronous reciprocal interaction because
both children's verbal and/or nonverbal behaviors were
directed toward one another within the social activity.
In contrast, while drawing, if one child made a verbal
initiation (e.g., "What are you drawing?") but the other
child did not reciprocate (e.g., child did not respond or
left activity) or was prompted by the adult to reciprocate, this would not be scored as a synchronous reciprocal interaction because only one child's behavior was
spontaneously directed toward the other child during
the activity. Also, intervals with no verbal or nonverbal
interaction between the children were scored as having
no synchronous reciprocal interaction.
Affect
To assess the quality of play interactions between the
target child and peer, play date probes were also scored
for child affect. Specifically, affect ratings were generated for the target child and peer during each play date
based on their overall affect during the probe. Adapted
from existing affect scales in the literature (Koegel,
Bimbela, & Schreibman, 1996; Koegel & Egel, 1979;
Schreibman, Kaneko, & Koegel, 1991), the study used a
6-point Likert scale to assess overall affect based upon
dimensions of enjoyment, interest, and comfort during
the play date interactions. This scale was divided into
three categories with negative affect assigned scores
ranging from 0 to 1, neutral affect given scores of 2 to
3, and positive affect scores ranging from 4 to 5 (Table 2).
Supplemental Measure of Social Validation
In addition to measures of synchronous reciprocal
interaction and affect during play dates, data were collected throughout the study on the frequency of peer
invitations. These data were based on parent report of
the number of times each month that Megan and Kyle
were invited over to play by another peer. Both participants' mothers were asked to keep track of the number of invitations their children received. The graduate
student clinicians also communicated regularly with the
parents to validate the frequency of these invitations.
Reliability
Interrater reliability was computed for 80% of sessions for both synchronous reciprocal interactions and

97

for affect. Two observers, one of whom was unaware of
the experimental hypothesis and conditions, independently scored these sessions, and their results were
compared with determine reliability. Reliability was
calculated as the number of agreements divided by the
number of agreements plus disagreements, times 100.
In scoring synchronous reciprocal interaction, the 30second intervals were coded as reciprocal, prompted
reciprocal, or not reciprocal. For the purpose of reliability calculations, an agreement consisted of both observers giving the same rating for the same 30-second
interval. For synchronous reciprocal interaction, the average percentage agreement was 87% (range 75%100%). For affect ratings, category agreement was defined as both observers rating the affect in the same
category (positive, neutral, or negative). For example, if
one rater gave the session a rating of 3 and the other
gave it a score of 2, this was considered to be category
agreement because both observers ranked affect in the
neutral range. Category agreement was 94%.

Results
Results for synchronous reciprocal interaction during
play dates with and without contextually supported activities are presented in Figure 1. The multiple baseline
design across participants showed that both Megan and
Kyle initially engaged in low levels of synchronous reciprocal interaction with peers during play dates without contextual support. Synchronous reciprocal interaction during this condition ranged from 30% to 40%
of intervals for Megan and from 0% to 15% of intervals
for Kyle, with no obvious trends. During play dates
with contextual support, both children showed immediate increases in the percentage of intervals containing
synchronous reciprocal interaction, ranging from 70%
to 85%. For Megan, a reversal was conducted after two
intervention points, and Figure 1 displays the return to
low rates of synchronous reciprocal interactions during
subsequent play dates without contextual support.
When contextually supported intervention was implemented again, the data showed a return to high levels of
synchronous reciprocal interaction that continued over
a period of several months. Overall, the results from
Figure 1 indicated that for both Megan and Kyle, the
play dates without contextual support were associated
with low levels of synchronous reciprocal interaction,

Table 2
Affect Rating Scale for Play Dates With and Without Contextual Support
Negative Affect (0-1)
Neutral Affect (2-3)
Positive Affect (4-5)
Within the interaction, child (target
child or peer) appears discontent
(e.g., frowns, cries), avoids social
participation (e.g., tantrums, leaves
activity, avoids others), and appears
not to be enjoying self (e.g., seems
frustrated, tense, impatient).

Within the interaction, child (target
child or peer) does not appear to be
either happy or unhappy, may engage
in the activity but does not show clear
interest or enthusiasm in social
participation, and does not seem
either stressed or relaxed.

Within the interaction, child (target
child or peer) appears to be enjoying
self (e.g., smiles, laughs, shows
humor), shows interest through
participation (e.g., actively involved
in the activity), and appears relaxed
and comfortable.

App 124

98

Koegel et al.

whereas contextually supported activities during play
dates were associated with high levels of synchronous
reciprocal interaction.
Affect ratings during these play dates are presented
in Figure 2. The multiple baseline design across participants showed primarily neutral affect during the play
dates without contextual support and positive affect
during play dates with contextual support for both
Megan and Kyle. In particular, affect ratings during
play dates without contextual support were all in the
neutral range, with ratings of either 3 or 2. Affect ratings during play dates with contextual support were in
the positive range, with ratings of 4 or 5. Affect ratings
for the participating peer showed the same pattern. In
fact, the target child and peer received equivalent affect
ratings in all but one probe. These data suggest that

w/o CS

w/o CS

contextually supported activities resulted not only in
increased levels of synchronous reciprocal interaction,
but also in higher affect for both the target child and the
peer.
Figure 3 shows data on one social validity outcome of
these play date interactions within the context of the
multiple baseline design. The figure shows the number
of invitations Megan and Kyle received from their
peers to come over and play across the course of both
the baseline sessions and the intervention period. The
data show that invitations from peers for both Megan
and Kyle did not occur during baseline sessions. However, during intervention, as synchronous reciprocal interactions improved, both children began receiving
more invitations from peers. Megan was receiving two
or three invitations per month at the end of the inter-

With Contextual Support (w/ CS)

Positive

Peer Affect

Megan
Neutral

Affect Ratings for Target Child and Peer

4—Megan's Affect

Negative

I/

0
1

5

2

5

10

11

12

w/ CS

Without Contextual Support
(w/o CS)

Positive

NEI El

[41

Kyle

Neutral

Negative

0

1,

2

4

5

6

7

9

10

11

Probes by Month

Figure 2. Overall affect ratings for target child and peer during play dates according to the following scale: negative affect (0-1),
neutral affect (2-3), and positive affect (4-5).

App 125

99

Contextually Supported Play Dates

6

a)

a

Without Contextual w/CS w/oCS
Support (w/o CS)

With Contextual Support (w/ CS)

0

/

2

0

Megan

13

14

0
O

C'
Without Contextual Support
(w/o CS)

With Contextual Support
(w/ CS)

Kyle

1,40

T 11,
0 T '?"
1 2 3 4 5 6 7

"ollo
8 9 10 11 12

Month

Figure 3. Number of play date invitations received from peers each month for Megan and Kyle.
vention, and these numbers continued to increase in the
months after the intervention. In Kyle's case, by the last
month of the intervention, the number of invitations
had increased to four. These data suggest that in addition to improved reciprocal interaction and higher affect, the play dates initiated by Megan and Kyle's mothers resulted in peers making efforts to seek additional
interaction with their children by inviting them over to
play more often.

Discussion
The results of this study suggest that the contextual
support intervention package consisting of mutually reinforcing activities, and adult facilitation of cooperative

arrangements, had a broad impact on reciprocal social
interaction and positive affect for both participants. In
both cases, though these results should be considered
preliminary, they were observable over an extended
period of time. Supplemental measures of social validity also showed more frequent invitations from peers
for both children.
Synchronous Reciprocal Interaction
Research on peer relationships during typical development has suggested that play dates at home are often
a regular occurrence and seem to be a critical component in the development of close friendships in childhood (Ladd & Hart, 1992; Newson & Newson, 1976).
Estimates of frequency differ among researchers, but

App 126

100

Koegel et al.

Frankel and Myatt (2003) suggested that children usually have one or two play dates per week. For children
with autism, though, play dates occur rarely, if ever,
which may have a negative effect on opportunities to
develop friendships.
This study provides a methodology for improving the
quality of interactions during play dates between children with and without disabilities. Specifically, the
study's use of a contextual support intervention package produced significant increases in unprompted synchronous reciprocal interaction for both the children
with autism and their peers. Despite the ample opportunity for peer interaction during play dates without the
contextual support intervention, the children did not
maintain social interactions until the contextual support
intervention package was implemented. With the
implementation of the intervention package, the children then showed that they were capable of high levels
of reciprocal interaction. These results provide evidence for the success of the contextual support intervention package in promoting high levels of reciprocal
interaction during play dates. Importantly, these reciprocal interactions were not directly prompted by the
facilitator; the data reported represent unprompted interactions only. This means that the intervention package consisting of mutually reinforcing activities and
adult facilitation of cooperative arrangements created a
context to support increases in spontaneous social interaction. Thus the antecedent manipulations involved
in the contextual support package were enough to promote high levels of synchronous reciprocal interaction
for these children, who had not shown these high levels
before.
The improvements in synchronous reciprocal interaction indicated that the children were capable of participating in reciprocal interactions but needed the contextual support package to engage in higher-quality social behaviors. These findings are consistent with the
research on the difference between acquisition, performance, and fluency deficits (Gresham, Sugai, & Horner, 2001) and on interventions for social skills, including scaffolding (Schuler & Wolfberg, 2000; Wolfberg &
Schuler, 1999). In Megan's case, the reversal to the condition involving play dates without contextual support
showed that the effect was dependent on the contextual
support intervention package and, at least at first, was
too fragile to be maintained without this support.
Affect
Affect ratings showed distinct differences between
the play dates with and without contextual support. The
data suggested that both the target child and peer
showed higher levels of enjoyment, interest, and comfort during contextually supported activities. Frankel
and Myatt (2003) proposed that continued mutually enjoyable interactions during play dates could be considered indicative of play date success. In this study, high

levels of affect during supported play interactions indicated mutual enjoyment and may therefore suggest that
play dates were being viewed as successful by the children. This provided some hope that these children
would want to participate in future play dates together.
Reciprocal Invitations
The data on peer invitations may have indicated increases in the peers' desire to spend additional time
with Megan and Kyle and may suggest that the play
date intervention influenced some aspects of friendship
development. However, whereas our study showed increases in peer invitations as a result of our intervention
package, we did not directly analyze the individual variables that may have contributed to these invitations.
For example, the increased frequency and success of
play dates may have improved the parents' skills at
facilitating positive interactions. In turn, these successful experiences could have had a positive impact on the
parents' confidence in interacting with parents of typically developing peers. Further research will be needed
to investigate additional variables that may influence
increases in invitations by peers. Indeed, in response to
the increasing interest in friendships as desired intervention outcomes for children with disabilities, Sasso et
al. (1998) suggested the need for including measures
more directly related to friendships in, reporting results
of intervention. Specifically, invitations to parties and
sleep-overs, as well as peer interest in interacting with
the target child after school, were suggested as socially
relevant measures. The increasing number of invitations from peers in this study represented the peers'
continued interest in interacting with both children
more frequently. Strain's (2001) article, emphasizing
the important role of reciprocal interaction in friendship development, suggested that the high levels of unprompted synchronous reciprocal interactions observed
in this study may have been influential in the increases
in peer invitations that were found.
The increases in peer invitations seemed particularly
important because friendship development and peer acceptance were main goals and had not been achieved
before the intervention. The fact that the frequency of
peer invitations increased from zero to more typical
levels, such as one or two per week, is promising for
these children's chances of continued friendship development and relates to the literature that emphasizes
friendship as an increasingly important developmental
goal and socially valid outcome for children with disabilities (Amado, 1993; Brown, Odom, & Conroy, 2001;
Freeman & Kasari, 2002; Gresham, et al., 2001; HurleyGeffner, 1995; McEvoy & Odom, 1987; Nickels, 1996;
Strain & Schwartz, 2001; Turnbull, Pereira, & BlueBanning, 1999).
Although this study showed promising outcomes resulting from the contextual support intervention package, these data should be considered preliminary in na-

App 127

Contextually Supported Play Dates

ture, given some of the following limitations. First, the
limited number of participants and similar participant
characteristics (e.g., age, functioning level, socioeconomic status) suggest the need for replication of these
results with varied populations. Refining this play date
package for use with children of varying ages and developmental levels will be important in further addressing the social intervention needs of children with autism. This type of information may advance our knowledge on teaching the use of reciprocal social behaviors
to help create meaningful relationships between children with and without disabilities (Apple, Billingsley, &
Schwartz, 2005). Also, the implementation of a reversal
design with one of the participants addresses some of
the concerns of using a multiple baseline design with
only two participants; however, future investigation is
needed to support these preliminary results.
Future research is also needed to examine additional
valid components for promoting effective play dates.
Further analysis of the possible influence of variables
such as setting and activity on child behavior will also
be helpful in interpreting the results. Lastly, the inclusion of measures of fidelity of implementation in future
studies will be important in further defining necessary
intervention components and in informing parents and
professionals of strategies for achieving meaningful
outcomes. Future replications of these findings, particularly the increased number of peer invitations, may further clarify critical areas for ongoing intervention. The
findings from this study provide initial information for
the development of effective social intervention packages to be implemented in the natural environment,
and suggest optimism that these interventions may have
socially significant influences on the development of
improved peer interactions and relationships for children with autism.

References
Amado, A. N. (1993). Friendships and community connections
between people with and without developmental disabilities.
Baltimore, MD: Paul H. Brookes.
American Psychiatric Association. (1994). Diagnostic and statistical manual of mental disorders (4th ed.). Washington,
DC: Author.
Apple, A. L., Billingsley, F., & Schwartz, I. S. (2005). Effects
of video modeling alone and with self-management on compliment-giving behaviors of children with high-functioning
autism spectrum disorders (ASD). Journal of Positive Behavior Interventions, 7,33-46.
Asher, S. R., & Paquette, J. A. (2003). Loneliness and peer
relations in childhood. Current Directions in Psychological
Science, 12, 75-78.
Bauminger, N., & Kasari, C. (2000). Loneliness and friendship
in high-functioning children with autism. Child Development, 71, 447-456.
Brown, F., Belz, P., Corsi, L., & Wenig, B. (1993). Choice
diversity for people with severe disabilities. Education and
Training of the Mentally Retarded, 28, 318-326.
Brown, W. H., Odom, S. L., & Conroy, M. A. (2001). An
intervention hierarchy for promoting young childrdn's peer

101

interactions in natural environments. Topics in Early Childhood Special Education, 21, 162-175.
Criss, M. M., Pettit, G. S., Bates, J. E., Dodge, K. A., & Lapp,
A. L. (2002). Family adversity, positive peer relationships,
and children's externalizing behavior: a longitudinal perspective on risk and resilience. Child Development, 73,

1220-1237.

Dodge, K. A., Lansford, J. E., Burks, V. S., Bates, J. E., Pettit,
G. S., Fontaine, R. et al. (2003). Peer rejection and social
information-processing factors in the development of aggressive behavior problems in children. Child Development,

74,374-393.
Falvey, M. A., & Rosenberg, R. L. (1995). Developing and
fostering friendships. In M. A. Falvey (Ed.), Inclusive and
heterogeneous schooling: assessment, curriculum, and instruction (pp. 267-283). Baltimore, MD: Paul H. Brookes.
Frankel, F., & Myatt, R. (2003). Children's friendship training.
New York: Brunner-Routledge..
Frea, W. D. (1995). Social-communicative skills in higherfunctioning children with autism. In R. L. Koegel & L. K.
Koegel (Eds.), Teaching children with autism (pp. 53-66).
Baltimore, MD: Paul H. Brookes.
Freeman, S. F. N., & Kasari, C. (2002). Characteristics and
qualities of the play dates of children with Down syndrome:
emerging or true friendships? American Journal of Mental
Retardation, 107, 16-31.
Gresham, F. M., Sugai, G., & Horner, R. H. (2001). Interpreting outcomes of social skills training for students with highincidence disabilities. Exceptional Children, 67, 331-344.
Hartup, W. W. (1996). The company they keep: friendships
and their developmental significance. Child Development,
67, 1-13.
Howlin, P., & Rutter, M. (1987). Treatment of autistic children.
Chichester, England: John Wiley & Sons.
Hurley-Geffner, C. M. (1995). Friendships between children
with and without developmental disabilities. In R. L. Koegel
& L. K. Koegel (Eds.), Teaching children with autism (pp.
105-125). Baltimore, MD: Paul H. Brookes.
Hymel, S., Vaillancourt, T., McDougall, P., & Renshaw, P. D.
(2002). Peer acceptance and rejection in childhood. In P. K.
Smith & C. H. Hart (Eds.), Blackwell handbook of childhood social development. Blackwell handbooks of developmental psychology (pp. 265-284). Malden, MA: Blackwell
Publishers.
Kamps, D. M., Leonard, B. R., Vernon, S., Dugan, E. P.,
Delquadri, J. C., Gershon, B., et al. (1992). Teaching social
skills to students with autism to increase peer interactions in
an integrated first-grade classroom. Journal of Applied Behavior Analysis, 25, 281-288.
Kamps, D. M., Potucek, J., Lopez, A. G., Kravits, T., & Kemmerer, K. (1997). The use of peer networks across multiple
settings to improve social interaction for students with autism. Journal of Behavioral Education, 7,335-357.
Kennedy, C. H., & Itkonen, T. (1996). Social relationships,
influential variables, and changes across the life span. In
L. K. Koegel, R. L. Koegel, & G. Dunlap (Eds.), Positive
behavioral support (pp. 287-304). Baltimore, MD: Paul H.
Brookes.
Koegel, R. L., Bimbela, A., & Schreibman, L. (1996). Collateral effects of parent training on family interactions. Journal
of Autism and Developmental Disorders, 26, 347-359.
Koegel, R. L., Dyer, K., & Bell, L. K. (1987). The influence of
child-preferred activities on autistic children's social behavior. Journal of Applied Behavior Analysis, 20, 243-252.
Koegel, R. L., & Egel, A. L. (1979). Motivating autistic children. Journal of Abnormal Psychology, 88, 418-426.
Koegel, R. L., O'Dell, M. C., & Koegel, L. K. (1987). A natural
language paradigm for teaching non-verbal autistic children.

App 128

102

Koegel et al.

Journal of Autism and Developmental Disorders, 17, 187199.
Ladd, G. W., & Hart, C. H. (1992). Creating informal play
opportunities: are parents' and preschoolers' initiations related to children's competence with peers? Developmental
Psychology, 28, 1179-1187.
Ladd, G. W., Kochenderfer, B. J., & Coleman, C. C. (1997).
Classroom peer acceptance, friendship, and victimization:
distinct relational systems that contribute uniquely to children's school adjustment? Child Development, 68, 11811197.
Laird, R. D., Jordan, K. Y., Dodge, K. A., Pettit, G. S., &
Bates, J. E. (2001). Peer rejection in childhood, involvement
with antisocial peers in early adolescence, and the development of externalizing behavior problems. Development and
Psychopathology, /3,337-354.
Laushey, K. M., & Heflin, L. J. (2000). Enhancing social skills
of kindergarten children with autism through the training of
multiple peers as tutors. Journal of Autism and Developmental Disorders, 30, 183-193.
McEvoy, M. A., & Odom, S. L. (1987). Social interaction training for preschool children with behavioral disorders. Behavioral Disorders, 12, 242-251.
Mesibov, G. B., Shea, V., & Adams, L. W. (2001). Understanding Asperger syndrome and high-functioning autism. New
York: Kluwer Academic/Plenum.
Newcomb, A. F., Bukowski, W. M., & Bagwell, C. L. (1999).
Knowing the sounds: friendship as a developmental context.
In W. A. Collins & B. Laursen (Eds.), Relationships as developmental contexts: Vol. 30. The Minnesota symposia on
child psychology (pp. 63-84). Mahwah, NJ: Lawrence
Erlbaum Associates.
Newson, J., & Newson, E. (1976).- Seven year olds in the home
environment. Oxford, England: John Wiley & Sons.
Nickels, C. (1996). A gift from Alex-The art of belonging:
strategies for academic and social inclusion. In L. K. Koegel,
R. L. Koegel, & G. Dunlap (Eds.), Positive behavioral support (pp. 123-144). Baltimore, MD: Paul H. Brookes.
Odom, S. L., & Watts, E. (1991). Reducing teacher prompts in
peer-mediated interventions for young children with autism.
Journal of Special Education, 25, 26-43.
Parker, J. G., & Asher, S. R. (1993). Friendship and friendship
quality in middle childhood: links with peer group acceptance and feelings of loneliness and social dissatisfaction.
Developmental Psychology, 29,611-621.
Parker, J. G., & Seal, J. (1996). Forming, losing, renewing, and
replacing friendships: applying temporal parameters to the
assessment of children's friendship experiences. Child Development, 67, 2248-2268.
Rose, A. J., & Asher, S. R. (2000). Children's friendships. In C.
Hendrick & S. S. Hendrick (Eds.), Close relationships: a
sourcebook (pp. 47-57). Thousand Oaks, CA: Sage Publications.
Sasso, G., Mundschenk, N. A., Melloy, K. J., & Casey, S. D.
(1998). A comparison of the effects of organismic and setting variables on the social interaction behavior of children
with developmental disabilities and autism. Focus on Autism & Other Developmental Disabilities, 13, 2-16.
Schreibman, L., Kaneko, W. M., & Koegel, R. L. (1991). Positive affect of parents of autistic children: a comparison
across two teaching techniques. Behavior Therapy, 22, 479490.
Schuler, A. L., & Wolfberg, P. J. (2000). Promoting peer play

and socialization: the art of scaffolding. In A. M. Wetherby
& B. M. Prizant (Eds.), Autism spectrum disorders: a transactional developmental perspective (pp. 251-277). Baltimore,
MD: Paul H. Brookes.
Schwartz, D., Dodge, K. A., Pettit, G. S., & Bates, J. E. (2000).
Friendship as a moderating factor in the pathway between
early harsh home environment and later victimization in the
peer group. Developmental Psychology, 36, 646-662.
Siller, M., & Sigman, M. (2002). The behaviors of parents of
children with autism predict the subsequent development of
their children's communication. Journal of Autism and Developmental Disorders, 32, 77-89.
Sparrow, S. S., Balla, D. A., & Cicchetti, D. V. (1984). Vineland Adaptive Behavior Scales. Circle Pines, MN: American
Guidance Service.
Strain, P. S. (2001). Empirically based social skill intervention:
a case for quality-of-life improvement. Behavioral Disorders, 27,30-36.
Strain, P. S., Kohler, F. W., Storey, K., & Danko, C. D. (1994).
Teaching preschoolers with autism to self-monitor their social interactions: an analysis of results in home and school
settings. Journal of Emotional & Behavioral Disorders, 2,
78-88.
Strain
, P. S., & Schwartz, I. (2001). ABA and the development
of meaningful social relations for young children with autism. Focus on Autism & Other Developmental Disabilities,
16, 120-128.
TurWP., Pereira, L., & Blue-Banning, M. J. (1999).
Parents' facilitation of friendships between their children
with a disability and friends without a-disability. Journal of
the Association for Persons with Severe Handicaps, 24, 8599.
Walker, H. M., Stieber, S., Ramsey, E., & O'Neill, R. (1993).
Fifth grade school adjustment and later arrest rate: a longitudinal study of middle school antisocial boys. Journal of
Child and Family Studies, 2, 295-315.
Werner, G. A., Vismara, L. A., Koegel, 12. L., & Koegel, L. K.
(in press). Play dates, social interactions, and friendships. In
R. L. Koegel & L. K. Koegel (Eds.), Pivotal response treatments for autism: communication, social, and academic development. Baltimore, MD: Paul H. Brookes.
Wolfberg, P. J., & Schuler, A. L. (1993). Integrated play
groups: a model for promoting the social and cognitive dimensions of play in children with autism. Journal of Autism
and Developmental Disorders, 23,467-489.
Wolfberg, P. J., & Schuler, A. L. (1999). Fostering peer interaction, imaginative play and spontaneous language in children with autism. Child Language Teaching and Therapy,
15, 41-52.
Yang, T., Wolfberg, P. J., Wu, S., & Hwu, P. (2003). Supporting children on the autism spectrum in peer play at home
and school. Autism, 7,437-453.
Zanolli, K. (1997). The environmental antecedents of spontaneous social behavior. In D. M. Baer & E. M. Pinkston
(Eds.), Environment and behavior (pp. 219-228). Boulder,
CO: Westview Press.
Zanolli, K., Daggett, J., & Adams, T. (1996). Teaching preschool age autistic children to make spontaneous initiations
to peers using priming. Journal of Autism and Developmental Disorders, 26, 407-422.
Received: April 5,2005
Final Acceptance: July 7,2005
Editor in Charge: Fredda Brown

App 129

Clinical Review

Approach to autism spectrum disorder
Using the new DSM-V diagnostic criteria and the CanMEDS-FM framework
Patrick F. Lee

MD CCFP FCFP

Roger E. Thomas

MD PhD CCFP MRCGP

Patricia A. Lee

MD

Abstract
Objective To review the diagnostic criteria for autism spectrum disorder (ASD) from the Diagnostic and Statistical
Manual of Mental Disorders, fifth edition (DSM-V), and to develop an approach to managing ASD using the CanMEDSFamily Medicine (CanMEDS-FM) framework.
Sources of information The DSM-V from the American Psychiatric Association, published in May 2013, provides new
diagnostic criteria for ASD. The College of Family Physicians of Canada's CanMEDS-FM framework provides a blueprint
that can guide the complex management of ASD. We used data from the Centers for Disease Control and Prevention
to determine the prevalence of ASD, and we used the comprehensive systematic review and meta-analysis completed
by the UK National Institute for Health and Care Excellence for their guidelines on ASD to assess the evidence for more
than 100 interventions.
Main message The prevalence of ASD was 1 in 88 in 2008 in the United States according to data from the Centers
for Disease Control and Prevention. The ASD classification in the fourth edition of the DSM included autism, Asperger
syndrome, pervasive developmental disorder, and childhood disintegrative disorder. The new DSM-V revision
incorporates all these disorders into one ASD umbrella term with
different severity levels. The management of ASD is complex and
requires a multidisciplinary team effort and continuity of care. The
EDITOR'S KEY POINTS
CanMEDS-FM
roles provide a framework for management.
The prevalence of autism spectrum disorder
(ASD) has risen dramatically, and ASD is now
commonly encountered by family physicians in
the clinical setting.
The new definition of ASD in the Diagnostic
and Statistical Manual of Mental Disorders,
fifth edition, includes 4 different domains with
subcriteria for diagnosis. It further classifies
ASD by levels 1 to 3 for mild, moderate, or
severe illness based on the degree of support
the patient requires. It uses the one umbrella
term ASD and no longer uses terms such as
Asperger syndrome, classic autism, or pervasive
developmental disorder.
Using the roles in the CanMEDS-Family
Medicine framework-communicator,
collaborator, professional, scholar, manager,
health advocate, and family medicine expert-as
a guide, family doctors can provide support and
advocate for families combating this challenging
lifelong condition.
This article is eligible for Mainpro-M1
credits. To earn credits, go to www.cfp.ca
and click on the Mainpro link.

0

This article has been peer reviewed.
Can Fam Physician 2015;61:421-4
Cet article se trouve aussi en francais a la page 425.

Conclusion Family physicians are the key leaders of the
multidisciplinary care team for ASD, and the CanMEDS-FM
framework provides a comprehensive guide to help manage a
child with ASD and to help the child's family.
he prevalence of autism spectrum disorder (ASD) in the
United States has risen more than 75% in the past decade—
from 1 in 150 in 2002 to 1 in 88 in 2008—according to data
from the Centers for Disease Control and Prevention (CDC).' The
CDC suggests that this increase is the result of a combination
of better recognition of the disorder, improved diagnosis, and
a true increase in prevalence. Only 10% of children with ASD
have identifiable genetic or neurologic conditions such as fragile X syndrome, Down syndrome, or tuberous sclerosis. Common
comorbidities include attention deficit hyperactivity disorder,
obsessive-compulsive disorder, seizure, and anxiety.2
Using the new criteria for ASD from the Diagnostic and Statistical
Manual of Mental Disorders, fifth edition (DSM-V),3 family physicians can make timely diagnoses, and they can play an important
role in the management and follow-up of these children using the
CanMEDS-Family Medicine (CanMEDS-FM) framework!'

T

Case
Mrs Smith brings her 2-year-old son, John, to see you for an
introductory visit. She moved into the city last year and this is
her first visit. John was born at 39 weeks after an uneventful
labour and delivery. His weight and height have been at the 55th
to 60th percentile and his immunizations are up to date. He has
VOL 61: MAY • MAI 2015 I Canadian Family Physician • Le Medecin de famille canadien

421

Clinical Review I Approach

App 130
,utism spectrum disorder

an older sister, aged 6 years, and no family history of
note. Mrs Smith has had concerns about John's development, especially after her daughter complained
about his lack of interest in their playing together.
She recalls that at age 2 her daughter had more social
and verbal interactions. She has noticed that John
seems to be in his own world more than other children his age are.
A focused history reveals more red flags: John only
says mama and dada and does not make eye contact.
He does not smile when others smile at him. He gestures toward objects he desires but does not make
eye contact while gesturing. He plays by himself, often
flaps his hands, loves watching spinning objects, and
always lines up his toys in a straight line. The physical examination shows no dysmorphic facial features
consistent with fragile X syndrome or Down syndrome.
John only responds to his name after multiple attempts
with you kneeling at his eye level. There is no vocalization, no joint attention (which is normal by 8 to 10
months' development), and no index finger pointing to
attract his mother's attention (which is normal by 14 to
16 months' development). What are the next steps?

Sources of information
Our main sources of information included the American
Psychiatric Association's DSM-V,3 the College of Family
Physicians of Canada's CanMEDS-FM framework' data
from the CDC,'•2 the M-CHAT (Modified Checklist for
Autism in Toddlers) screening tool ,s and the UK National
Institute for Health and Care Excellence (NICE) guideline for the management of ASD.6 The NICE guideline' is
based on the most comprehensive systematic review and
meta-analysis of the literature to date, and at 883 pages it
is probably the longest systematic review in existence. It
was conducted according to Cochrane Collaboration criteria and it analyzes each intervention in more than 100
forest plots. The authors preferred to treat each intervention separately, rather than using broader groupings, so
power is lost in drawing broader conclusions.
Main message
The previous ASD classification in the fourth edition,
text revision, of the DSM included autism, Asperger syndrome, pervasive developmental disorder (PDD), and
childhood disintegrative disorder.? The new DSM-V in
2013 incorporated autism, Asperger syndrome, PDD, and
childhood disintegrative disorder under the umbrella
term ASD and provided new diagnostic criteria for ASD,
with 4 domains and subcriteria in domains 1 and 2
(Table 1).3 Because ASD is a spectrum with mild, moderate, and severe illness, there are now 3 levels of severity in
the DSM-V.3 Level 1 indicates the ASD patient requires
support, level 2 requires substantial support, and level 3
requires very substantial support.3

The M-CHAT is a validated screening tool for ASD
with 23 yes-or-no questions (www.mchatscreen.com) .
Screening results are positive if the answer is no for any 3
of the 23 items or 2 of the 6 critical items (interest in other
children, using the index finger to point, bringing objects
to show parents, imitating, responding to one's name, and
using one's eyes to follow an object across the room).
A second-stage telephone follow-up to the M-CHAT can
reduce false-positive results and unnecessary referral.

Assessment, investigations, and diagnosis. In John's
case, even his 6-year-old sister has noticed he shows
impairment in social and emotional reciprocity, with
a lack of smiling and absence of joint attention. The
absence of index finger pointing shows impairment in
nonverbal communication. Hence, John meets the 3
subcriteria in domain 1 for impairment in social interaction and communication listed in the DSM-V (Table 1).3
John is also exhibiting stereotyped behaviour (flapping
his hands) and hypersensitivity to sensory input (loves
watching spinning objects), so he meets 2 of the 4 subcriteria in domain 2 for abnormal restrictive and repetitive
behaviour, activities, and interests' Because these impairments are also presenting in early childhood and affecting
and hindering his everyday activities, clinically John has a
suspected provisional diagnosis of ASD using the DSM-V
classification. A hearing test and a blood test for complete
blood count and ferritin, thyroid-stimulating hormone, and
thyroxine levels will be useful to rule out other causes of
developmental delay, and the M-CHAT screening questionnaires should be offered with a scheduled follow-up visit.

Management plan for ASD. You see John for followup, and results of both his hearing test and blood test
Table 1. Criteria for diagnosis of autism spectrum
disorder from the DSM-V
DOMAIN CRITERIA

1

Impairment in social interaction and
communication
Subcriteria (impairment in all 3 required)
social and emotional reciprocity
nonverbal communication
creating and maintaining relationships

2

Abnormal and repetitive behaviour, interests, and
activities
Subcriteria (2 of 4 required)
stereotyped speech and behaviour
resistance to change
fixated interests
hypersensitivity or hyposensitivity to sensory input

3

Presentation in early childhood development

4

Limited and hindered everyday activities

DSM-V—Diagnostic and Statistical Manual of Mental Disorders, 5th ed.
Data from the American Psychiatric Association.'

422 Canadian Family Physician • Le Medecin de famine canadien I VOL 61: MAY • MAI 2015

App 131
Approach to autism spec
are normal. His M-CHAT screening result is positive
(the answer was no for 5 out of 6 critical items), so he
has a provisional diagnosis of ASD. His treatment plan
includes the following.
Referral to a developmental pediatrician, child psychiatrist, or psychologist with experience in ASD to confirm
the diagnosis of ASD and to determine the level of severity: Arrange a referral to a developmental pediatrician.
Advise Mrs Smith to contact the local chapter of the
Autism Society (www.autismsocietycanada.ca) for peer
group support and resources. Additional support groups
for ASD include Autism Speaks (www.autismspeaks.ca).
An open discussion with John's parents about their concerns and feelings after receiving the diagnosis: Review
the prevalence of ASD and its multifactorial causes, both
genetic and nongenetic, with the Smiths. Order genetic
bloodwork, including DNA microarray and testing for
the FMR1 (fragile X mental retardation 1) gene. Screen
for and address other comorbidities including sleep disturbance and gastrointestinal problems such as constipation, gastroesophageal reflux, and celiac disease.
Tips for Mrs Smith: Advise Mrs Smith to hold John's
favourite snack or toy at eye level to encourage direct
eye contact, and to interact and communicate before giving him the snack or toy. This is a simplified version of
behavioural modification with stimulus, response, and
reward. Remind her that children with ASD might have
difficulties processing sensory input; she must be patient
and allow at least 10 seconds for a response to occur.
She can also try to download smartphone or tablet applications designed for children with ASD (who are frequently visual learners) to improve John's communication
skills (eg, www.autismspeaks.org/autism-apps).
Help for Mrs Smith to start the process of referrals: Direct
Mrs Smith to a social worker and applications for government funding to access speech therapy, occupational therapy,
physiotherapy, behavioural modification, and respite care.
Follow-up care. You see John for follow-up after his
consultation with the developmental pediatrician. It is
confirmed that he has ASD with level 2 severity, and
behavioural modification therapy is recommended. Mrs
Smith is devastated and her whole family feels overwhelmed. What can a family physician do to help the
Smith family in this difficult situation?
A useful approach for management of ASD is to use the
CanMEDS-FM framework,4 which includes the following
7 roles: communicator, collaborator, professional, scholar,
manager, health advocate, and family medicine expert.
Communicator: It is essential to show empathy and
support for Mrs Smith. Listen to her story and her concerns. Encourage her to view John as a child with a
different ability to learn rather than as a child with a
disability. Remind her to build on his strengths and work
on his weaknesses.

ri disorder I

Clinical Review

Collaborator: Autism spectrum disorder is a lifelong
illness. Treatment is aimed at improving communication
and social interaction while reducing abnormal restrictive
and repetitive behaviour, interests, and activities. There
is evidence that the prognosis is better when joint attention is present by age 4 and functional speech by age 5,
and there is better cognitive function if IQ is greater than
70 and the patient shows interest in interacting with typically developing peers.' This requires a multidisciplinary
team that might include an experienced developmental
pediatrician, a psychiatrist, a speech pathologist, a physiotherapist, an occupational therapist, a psychologist, and
a behavioural care consultant, with the family physician
being the main collaborator. Work with the social worker
and sign the necessary forms for Mrs Smith to apply for
government funding. When John reaches school age, collaborate with his teachers for individualized educational
plans and advocate for appropriate aide time in class.
Professional: Have a high index of suspicion for early
detection of ASD and provide timely referral and ongoing follow-up. It is important to discuss with Mrs Smith
that the recurrent risk of ASD in subsequent pregnancies could be as high as 18.7%.9 Arrange for peer group
support via local chapters of the Autism Society.
Scholar: Review the latest literature on ASD to offer
evidence-based treatment options. Myers and Johnson
from the American Academy of Pediatrics suggested
treatment tailored to the child's needs.'° Ospina et al
reviewed 101 studies of therapies for ASD and concluded that clinical management should be guided by
individual needs and available resources." The UK clinical guideline from NICE recommends the following:
Good communication between healthcare professionals and children and young people with autism and
their families and carers is essential. It should be supported by evidence-based written information tailored
to the person's needs.'
Box 1 provides a summary of the NICE 2013 recommendations relevant to searches for resources that
parents might initiate.' If Mrs Smith asks about proven
interventions, the NICE systematic review provides a
meta-analysis of all interventions to date.'
Manager: Offer to complete the Disability Tax Credit
form (T2201) so that Mrs Smith can apply for a tax
refund for John's impairment. Remind her to apply for
guardianship for John before he turns 18 years of age.
In terms of financial guidance, inform Mrs Smith to help
John set up a registered disability savings plan once he
is 18 years old. By contributing $1500 yearly to a registered disability savings plan, John could get up to $4500
from government matching grants and bonds.'2
Health advocate: Advocate for physical fitness and
social interaction using local resources.

VOL 61: MAY • MAI 2015

1 Canadian Family Physician • Le Medecin de famille canadien

423

Clinical Review I

Approach

App 132
autism spectrum disorder

Box 1. Summary of NICE 2013 recommendations relevant
to searches for resources that parents might initiate
Specific interventions for the core features of autism
Psychosocial interventions
Consider a specific social-communication intervention
for the core features of autism in children and young
people that includes play-based strategies with parents,
carers, and teachers to increase joint attention,
engagement, and reciprocal communication in the child
or young person. Strategies should
be adjusted to the child's or young person's
developmental level;
-aim to increase the parents', carers', teachers', or peers'
understanding of, and sensitivity and responsiveness to,
the child's or young person's patterns of communication
and interaction;
. -include techniques of therapist modeling and videointeraction feedback; and
include techniques to expand the child's or young
person's communication, interactive play, and social
routines.
The intervention should be delivered by a trained
professional. For preschool-aged children consider
parent, carer, or teacher mediation. For school-aged
children consider peer mediation.
'Interventions for challeiging behaviour
Anticipating and preventing challenging behaviour
Assess factors that might increase the risk of challenging
belfaviour in routine assessment and care planning in
children and young people with autism, including
____-_,impairments in communication that,might result in
difficulty understanding situations or in expressing
needs and wishes;
coexisting physical disorders, such as pain or
gastrointestinal disorders;
coexisting mental health problems, such as anxiety or
depression and other neurodevelopmental conditions
such as ADHD;
the physical environment, such as lighting and noise
levels;
the social environment, including home, school, and
leisure activities;
changes to routines or personal circumstances;
developmental change, including puberty;
exploitation or abuse by others;
inadvertent reinforcement of challenging behaviour;
and
the absence of predictability and structure.
Interventions for life skills
Offer children and young people with autism support in
developing coping strategies and accessing community
services, including developing skills to access public
transport, employment, and leisure facilities.
ADHD-attention deficit hyperactivity disorder, NICE-National
Institute for Health and Care Excellence.
Reproduced from NICE.6

424

Canadian Family Physician • Le Medecin de famine canadien

Family medicine expert: It is important to screen for
parental and sibling depression in Mrs Smith's family.
Encourage them to take advantage of respite care to avoid
burnout. Maintain continuity of care for the whole family.
Conclusion
Autism spectrum disorder, with its alarming rise in prevalence, is a common condition that family physicians will
encounter in the clinical setting. The new DSM-V definition of ASD has 4 different domains with subcriteria for
diagnosis. It uses one umbrella term of ASD with different levels of severity and no longer uses terms such as
Asperger syndrome, classic autism, or PDD. By using the
elements of the CanMEDS-FM framework, family doctors
Can provide support and advocate for families in combating this challenging lifelong condition.
Dr P.F. Lee is Assistant Professor of Family Medicine and Director of Student Affairs
in the Faculty of Medicine at the University of Calgary in Alberta. Dr Thomas is
Cochrane Collaboration Coordinator and Professor of Family Medicine in the Faculty
of Medicine at the University of Calgary. Dr P.A. Lee is a second-year resident in the
Emergency Medicine Residency Program at the University of Calgary.
Acknowledgment
Elements of this article were presented at the 51st Annual Scientific Assembly of the
Ontario College of Family Physicians in Toronto, Ont, on November 30, 2013. The
literature review has been updated and the article and advice have been expanded.

Contributors
All authors contributed to the literature review and analysis, and to preparing
the manuscript for submission.

Competing interests
None declared

Correspondence
Dr Patrick F. Lee; e-mail pflee@ucalgary.ca
References
I. Autism and Developmental Disabilities Monitoring Network Surveillance Year
2008 Principal Investigators; Centers for Disease Control and Prevention. Prevalence
of autism spectrum disorders-Autism and Developmental Disabilities Monitoring
Network, 14 sites, 2008. MMWR Surveil! Summ 2012;61(3):1-19.
Centers for Disease Control and Prevention Iwebsitel. Data and statistics. Atlanta,
GA: Centers for Disease Control and Prevention; 2012. Available from: www.cdc.
gov/ncbddd/autism/data.html. Accessed 2014 Feb 13.
American Psychiatric Association. Diagnostic and statistical manual of mental disorders. 5th ed. Arlington, VA: American Psychiatric Association; 2013.
Working Group on Curriculum Review. CanMEDS-Family Medicine: a framework of
competencies in family medicine. Mississauga, ON: College of Family Physicians of
Canada; 2009. Available from: www.cfpc.ca/ProjectAssets/Templates/Resource.
aspVid=3031. Accessed 2014 Feb 17.
Barton ML, Dumont-Mathieu T, Fein D. Screening young children for autism spectrum
disorders in primary practice. ] Autism Dev Disord 2012;42(6):1165-74.
National Institute for Health and Care Excellence. The management and support of
children and young people on the autism spectrum. Clinical guidance 170. London,
UK: National Institute for Health and Care Excellence; 2013. Available from: www.
nice.org.uk/guidance/cg I 70. Accessed 2014 Feb 13.
American Psychiatric Association. Diagnostic and statistical manual of mental disorders. 4th ed, text revision. Arlington, VA: American Psychiatric Association; 2000.
Gillberg C, Steffenbur S. Outcome and prognostic factors in infantile autism and
similar conditions: a population-based study of 46 cases followed through puberty.
Autism Dcv Disord 1987;17(2):273-87.
Ozonoff 5, Young GS, Carter A, Messinger D, Yirmiya N, Zwalgenbaum L, et al.
Recurrence risk for autism spectrum disorders: a Baby Siblings Research Consortium
study. Pediatrics 2011;128(3):e488-95.
Myers Sm, Johnson CP; American Academy of Pediatrics Council on Children with
Disabilities. Management of children with autism spectrum disorders. Pediatrics
2007;120(5):1162-82. Epub 2007 Oct 29.
1 I. Ospina MB, Krebs Seida J, Clark B, Karkhaneh M, Hartling L, Tjosvold L, et al.
Behavioural and developmental interventions for autism spectrum disorder: a clinical systematic review. PLoS ONE 2008;3(1 I ):e3755. Epub 2008 Nov 18.
12. Canada Revenue Agency Iwebsitel. Registemd disability savings plan (RDSP). Ottawa,
ON: Canada Revenue Agency; 2015. Available from: www.cra-arc.gc.ca/ba
ndvdls/tpcs/rdsp-reei/menu-eng.html. Accessed 2015 Mar 19.

I VOL 61: MAY • MAI 2015

App 133

Revision cliniq ue

Approche de prise en charge
du trouble du spectre de l'autisme
A ('aide des nouveaux criteres diagnostiques du DSM-V et du cadre CanMEDS-MF
Patrick F. Lee

MD CCFP FCFP

Roger E.

Thomas

MD PhD CCFP MRCGP

Patricia A. Lee MD

Resume
Objectif Se pencher sur les criteres diagnostiques du trouble du spectre de l'autisme (TSA) comme les definit le
Manuel diagnostique et statistique des troubles mentaux, cinquieme edition (DSM-V), et concevoir une approche de
prise en charge du TSA a 1'aide du cadre CanMEDS-Medecine familiale (CanMEDS-MF).
Sources d'information Le DSM-V, publie par 1'American Psychiatric Association en mai 2013, enonce de
nouveaux criteres diagnostiques du TSA. Le cadre CanMEDS-MF du College des medecins de famille du Canada
fournit un plan d'orientation pour la prise en charge complexe du TSA. Nous avons utilise des donnees recueillies
par le Centers for Disease Control and Prevention afin de determiner la prevalence du TSA, ainsi que la revue
systematique et meta-analyse detaillee effectuee par le National Institute for Health and Care Excellence du R.-U.
pour ses lignes directrices sur le TSA dans le but d'evaluer les
donnees probantes issues de plus de 100 interventions.
POINTS DE REPERE DU REDACTEUR
La prevalence du trouble du spectre de l'autisme
(TSA) a fait un bond spectaculaire, et ce trouble
est maintenant souvent rencontre en contexte
clinique par les medecins de famille.
La nouvelle definition du TSA dans le Manuel
diagnostique et statistique des troubles
mentaux, cinquieme edition, compte 4 domaines
diagnostiques differents, lesquels sont subdivises
en sous-domaines. Elle classifie le TSA selon les
niveaux 1 a 3 pour les cas legers, moderes et
severes en fonction du niveau de soutien exige
par le patient, abandonnant les appellations
syndrome d'Asperger, autisme classique et trouble
envahissant du developpement au profit du terme
generique TSA.
Avec pour guide les roles decrits dans le
cadre CanMEDS-Medecine familiale, snit
communicateur, collaborateur, professionnel,
erudit, gestionnaire, promoteur de la sante et
expert en medecine familiale, les medecins de
famille peuvent jouer un role de soutien et de
defense aupres des families aux prises pour la vie
avec cette affection difficile.
Cet article donne droit a des credits
Mainpro-M1. Pour obtenir des credits,
allez a www.cfp.ca et cliquez sur le lien
vers Mainpro.
Cet article fait ('objet d'une revision par des pairs.
Can Fam Physician 2015;61:425-9
This article is also in English on page 421.

Message principal Selon les donnees du Centers for Disease
Control and Prevention, la prevalence du TSA se chiffrait a 1 sur 88
en 2008 aux Etats-Unis. La classification du TSA dans la quatrieme
edition du DSM incluait l'autisme, le syndrome d'Asperger, le
trouble envahissant du developpement et le trouble desintegratif
de l'enfance. La demiere revision du DSM-V reunit tous ces
troubles sous la mention TSA, avec differents niveaux de severite.
La prise en charge du TSA est complexe; elle exige les efforts d'une
equipe multidisciplinaire ainsi que des soins continus. Les roles
CanMEDS-MF fournissent un cadre de prise en charge.
Conclusion Les medecins de famille sont au cceur de I'equipe
de soins multidisciplinaire pour le TSA, et le cadre CanMEDS-MF
tient lieu de plan detaille pour guider la prise en charge
d'un enfant atteint de TSA et aider la famille de cet enfant.

ux Etats-Unis, la prevalence du trouble du spectre de
l'autisme (TSA) a fait un bond de plus de 75 % dans les
10 demieres annees, pour passer de 1 cas sur 150 en
2002 a 1 cas sur 88 en 2008, selon les donnees du Centers for
Disease Control and Prevention (CDC)'. Le CDC laisse entendre
que cette hausse comporte trois volets : une meilleure reconnaissance du trouble, ('amelioration du diagnostic et la hausse
reelle de la prevalence. Seuls 10 % des enfants atteints du TSA
presentent une affection genetique ou neurologique identifiable,
comme le syndrome de 1'X fragile, la trisomie ou la sclerose tubereuse de Boumeville. Les comorbidites courantes sont le trouble
deficitaire de ('attention avec hyperactivite, le trouble obsessifcompulsif, les crises convulsives et l'anxiete2.
Grace aux nouveaux criteres diagnostiques du TSA tires
du Manuel diagnostique et statistique des troubles mentaux,

A

VOL 61: MAY • MAI 2015 I Canadian Family Physician . Le Medecin de famine ccinadien

425

Revision clinique

I Approci

App 134
prise en charge du trouble du spec„e l'autisme

cinquieme edition (DSM-V)3, les medecins de famille
peuvent poser un diagnostic ponctuel et jouer un role
important dans la prise en charge et le suivi de ces
enfants, a l'aide du cadre CanMEDS-Medecine familiale
(CanMEDS-MF)4.
Cas
Mme Samson amene son garcon de 2 ans vous voir
pour une visite initiale apres avoir emmenage en
ville Pan. demier. Jean est ne a 39 semaines apres un
travail et un accouchement sans histoire. Son poids
et sa taille se situent aux 55e et 60e percentiles, et son
immunisation est a jour. 11 a une sur ainee, Agee
de 6 ans, et ses antecedents familiaux sont normaux.
Mme Samson s'inquiete du developpement de Jean,
surtout apres que sa fille lui eat dit qu'il n'est pas int&
resse a jouer avec elle. Elle se rappelle qu'a Page de 2
ans, sa fille etait plus interactive sur les plans social et
verbal. Elle a remarque que Jean semble etre dans son
petit monde plus que les autres enfants de son age.
Une anamnese ciblee revele d'autres drapeaux
rouges : les seuls mots au vocabulaire de Jean sont
maman et papa et it n'etablit pas de contact visuel. 11 ne
sourit pas lorsque les autres lui sourient. Il pointe vers
les objets qu'il desire, mais it n'etablit pas de contact
visuel durant son geste. 11 s'amuse tout seul, bat souvent des mains, adore observer les objets qui toument
et organise toujours se jouets en ligne droite. ]:examen
physique ne revele aucune caracteristique polymorphique faciale annongant un syndrome de l'X fragile
ou une trisomie. Jean ne repond a son nom qu'apres
de multiples tentatives, agenouille a son niveau. Il n'y a
pas de vocalisation, pas d'attention conjointe (developpement normal a 8 a to mois) et it ne pointe pas avec
l'index pour attirer ]'attention de sa mere (developpement normal a 14 a 16 mois). Qu'allez-vous faire?
Sources d'information
Nos principales sources d'information etaient le DSMV3, publie par ]'American Psychiatric Association, le
cadre CanMEDS-MF4 du College des medecins de famille
du Canada, les donnees du CDCL2, l'outil de depistage
M-CHAT (Modified Checklist for Autism in Toddlers)5
et les lignes directrices de prise en charge du TSA6 du
National Institute for Health and Care Excellence (NICE)
au Royaume-Uni. Les lignes directrices de NICE6 s'appuient sur la revue systematique et meta-analyse la plus
detaillee de la litterature a ce jour, et avec ses 883 pages,
elle est probablement aussi la revue systematique la
plus longue qui ait jamais exist& Elle respecte les criteres de la Collaboration Cochrane et analyse chaque
intervention dans plus de 100 graphiques en for& Les
auteurs ont prefere traiter chaque intervention separement, plutot que de les regrouper, ce qui aurait affaibli
les donnees dans des conclusions plus larges.
426

Message principal
Dans la quatrieme edition, Text Revision, du DSM, la
classification du TSA incluait l'autisme, le syndrome
d'Asperger, le trouble envahissant du developpement
(TED) et le trouble desintegratif de l'enfance7. Le nouveau DSM-V publie en 2013 regroupait autisme, syndrome d'Asperger, TED et trouble desintegratif de
l'enfance sous le terme generique TSA, et fournissait
de nouveaux criteres diagnostiques du TSA, dont 4
domaines et des sous-domaines dans les domaines 1 et
2 (Tableau 1)3. Puisque le TSA peut etre leger, modere
ou severe, le DSM-V presente maintenant 3 niveaux de
severite3. Le niveau 1 indique que le patient atteint de
TSA exige du soutien, au niveau 2, le patient exige un
soutien substantiel et au niveau 3, le patient exige un
soutien tres substantiel3.
Le M-CHAT est un outil valide de depistage du TSA qui
compte 23 questions auxquelles on repond par oui ou
non (www.mchatscreen.com)5. Le depistage est positif
si la reponse est non a 3 des 23 items ou a 2 des 6 items
critiques (interet a l'egard des autres enfants, utilisation
de l'index pour pointer, apporter des objets a ses parents,
imitation, repondre a son nom et suivre des yeux un objet
a travers la piece). Un suivi telephonique au M-CHAT
recluit les faux positifs et les aiguillages inutiles.
EValuation, investigations et diagnostic. Dans le cas de
Jean, meme sa sceur de 6 ans a remarque des failles dans
sa reciprocite sociale et emotionnelle, dont ]'absence de
sourire et d'attention conjointe. Le fait que Jean ne pointe
pas avec son index montre un deficit de communication
non verbale. Ainsi, Jean repond aux 3 sous-groupes du
domaine 1 pour l'alteration de ]'interaction sociale et de
la communication, enoncee dans le DSM-V (Tableau 1)3.
Jean affiche egalement des comportements stereotypes (battement des mains) et une hypersensibilite a la
stimulation sensorielle (adore regarder les objets tourner);
it repond donc a 2 des 4 sous-groupes du domaine 2 des
comportements, activites et interets restreints et repetitifs anormaux3. Etant donne que ces deficits se presentent
durant la petite enfance et perturbent les activites quotidiennes de Jean, celui-ci regoit un diagnostic clinique
provisoire de TSA soupconne qui s'appuie sur la classification du DSM-V. Un test de ]'audition, une formule sanguine complete ainsi que ]'analyse du taux sanguin de
ferritine, de thyreostimuline et de thyroxine seront utiles
pour ecarter les autres causes de retard du developpement, et it faudrait administrer le questionnaire de depistage M-CHAT et prevoir une visite de suivi.
Plan de prise en charge du TSA. Vous voyez Jean
au suivi et les resultats de son test d'audition et de ses
analyses sanguines sont normaux. Les resultats du
M-CHAT sont positifs (la reponse etait non a 5 des 6
items critiques; it regoit donc un diagnostic provisoire de
TSA. Son traitement comprend ce qui suit.

Canadian Family Physician • Le Mddecin de famille canadien I VOL 61: MAY • MAI 2015

Approche L

App 135
ise en charge du trouble du spectre ,

Tableau 1. Criteres diagnostiques du trouble du spectre
, de l'autisme, selon le DSM-V
I DOMAINE CRITERE

1

Alteration de l'interaction sociale et de la
communication
Sous-domaines (alteration necessaire dans les 3
sous-domaines)
reciprocite sociale et emotionnelle
communication non verbale
creer et maintenir des relations

autisme I Revision clinique

10 secondes. Elle peut aussi telecharger des applications pour telephone intelligent ou tablette concues
pour les enfants atteints de TSA (qui sont souvent des
apprenants visuels) afin d'ameliorer les competences de
Jean en matiere de communication (p. ex. www.autism
spealcs.org/autism-apps).

Comportements, interets et activites anormaux et
repetitifs
Sous-domaines (2 exiges sur les 4)
comportement et parole stereotypes
resistance au changement
fixation
hypersensibilite ou hyposensibilite a la
stimulation sensorielle
3

Presentation durant le developpement de la petite
enfance

4

Activites quotidiennes limitees et genees

DSM-V—Diagnostic and Statistical Manual of Mental Disorders, 5' edition
Donnees obtenues aupres de ('American Psychiatric Association'.

Aiguillage a un pediatre du developpement, d un
pedopsychiatre ou a un pedopsychologue experiments dans
le TSA pour confirmer le diagnostic de 7SA et en determiner la severite : Obtenez un rendez-vous avec un pediatre
du developpement. Conseillez a Mme Samson d'entrer
en contact avec la section locale de Ia Societe canadienne de l'autisme (www.autismsocietycanada.ca)
pour obtenir des ressources et se joindre a un groupe
de soutien par les pairs. Autism Speaks (www.autism
speaks.ca) est un autre groupe de soutien pour le TSA.
Discussion ouverte avec les parents de Jean pour
connaftre leurs preoccupations et sentiments apres avoir
rep le diagnostic : Revoyez pour M. et Mme Samson la
prevalence du TSA et ses causes multifactorielles, tant
genetiques que non genetiques. Prescrivez des analyses sanguines genetiques, y compris des microreseaux
d'ADN et du gene FMR1 (retard mental avec X fragile
1). Effectuez un depistage pour d'autres comorbidites et
traitez-les, y compris troubles du sommeil ou troubles
gastro-intestinaux, tels que la constipation, le reflux gastro-cesophagien et la maladie cceliaque.
Conseils pour Mme Samson : Conseillez a We Samson
de tenir le jouet ou la collation prefer& de Jean a hauteur des yeux afin d'encourager le contact visuel, et
d'interagir et de communiquer avant de lui donner la
collation ou le jouet, une version simplifiee de I'approche de modification comportementale avec stimulus,
reponse et recompense. Rappelez-lui que les enfants
atteints de TSA pourraient avoir des difficultes a traiter
les stimulations sensorielles; elle doit donc faire preuve
de patience et attendre la reponse pendant au moins

Aider Mme Samson a entreprendre le processus d'aiguillage : Recommandez a Mme Samson de consulter un
travailleur social et de faire une demande de financement aupres du gouvernement afin d'obtenir des services d'orthophonie, d'ergotherapie, de physiotherapie,
de modification du comportement et de soins de releve.
Soins de suivi. Vous voyez Jean pour un suivi apres
sa consultation avec le pediatre du developpement. Son
diagnostic de TSA de niveau 2 est confirms et un traitement de modification du comportement est recommande.
We Samson est bouleversee et la famille en entier est
depassee. Que peut faire le medecin de famille pour aider
la famille Samson dans cette situation difficile?
Une approche utile de la prise en charge du TSA
consiste a utiliser le cadre CanMEDS-MP, lequel inclut
les 7 roles suivants : communicateur, collaborateur, professionnel, drudit, gestionnaire, promoteur de la sante et
expert en medecine familiale.
Communicateur : Essentiel pour faire preuve d'empathie et appuyer Mme Samson. Soyez a l'ecoute de
son histoire et de ses preoccupations. Encouragez-la
voir Jean comme un enfant qui apprend differemment
plutot que comme un enfant atteint d'une deficience.
Rappelez-lui de renforcer ses forces et de travailler sur
ses faiblesses.
Collaborateur : Le trouble du spectre de l'autisme
est une maladie qui persiste a vie. Le traitement vise
a ameliorer la communication et l'interaction sociale
tout en attenuant les comportements, activites et int&
rets restreints et repetitifs anormaux. Certaines don?lees indiquent que le pronostic s'ameliore lorsque
l'attention conjointe est presente a l'Age de 4 ans
et Ia parole fonctionnelle, a Page de 5 ans, et que la
fonction cognitive s'ameliore lorsque le Q1 &passe les
70 et que le patient est interesse a interagir avec ses
pairs au developpement normal8. Cela necessite une
equipe multidisciplinaire pouvant inclure un pediatre
du developpement experiment& un psychiatre, un
orthophoniste, un physiotherapeute, un ergotherapeute,
un psychologue et un conseiller en soins comportementaux, le medecin de famille &ant le collaborateur principal. Collaborez avec le travailleur social et
signez les formulaires necessaires pour permettre a
Mme Samson de faire une demande de financement
aupres du gouvemement. Lorsque Jean atteindra Page
scolaire, collaborez avec ses enseignants pour elaborer
un plan d'education individualise et recommander de
l'aide appropriee en classe.

VOL 61: MAY • MAI 2015 I Canadian Family Physician • Le Medecin de famille canadien

427

Revision clinique I Approc,

App 136
prise en charge du trouble du spec,

Professionnel : Maintenez un indite eleve de soupcon pour le depistage precoce du TSA et procedez
l'aiguillage ponctuel et au suivi continu. 11 est important
de souligner a Mme Samson que le risque de recidive du
TSA dans les grossesses subsequentes pourrait atteindre
18,7 % 9. Organisez un groupe de soutien par les pairs
par 1'entremise de la section locale de la Societe canadienne de l'autisme.
trudit : Etudiez les publications les plus recentes sur
le TSA afin d'offrir des options therapeutiques fondees
sur les donnees probantes. Myers et Johnson, de ]'American Academy of Pediatrics, ont propose que le traitement
s'adapte aux besoins de l'enfant'°. Ospina et coll. se sont
penches sur 101 etudes portant sur les traitements du
TSA et ont conclu que la prise en charge clinique doit etre
guidee par les besoins individuels et les ressources disponibles". Les lignes directrices de pratique clinique de NICE
au R.-U. recommandent ce qui suit :
Une bonne communication est essentielle entre les
professionnels de la sante, les enfants et adolescents
atteints d'autisme, et leurs families et soignants. Cela
doit etre corrobore par des renseignements ecrits
bases sur des donnees probantes et adaptes aux
besoins de la personne'.
L'encadre I resume les recommandations 2013 de
NICE qui sont pertinentes aux recherches eventuelles de
ressources entreprises par les parents'. Si Mme Samson
s'enquiert d'interventions eprouvees, la revue systematique de NICE fournit une meta-analyse de toutes les
interventions effectuees a ce jour'.
Gestionnaire : Offrez de remplir le formulaire T2201 - Certificat pour le credit d'impot pour personnes handicapees afin de permettre a Mme Samson de
faire une demande de remboursement d'impot pour l'invalidite de Jean. Rappelez-lui de faire une demande de
tutelle pour Jean avant qu'il atteigne rage de 18 ans. Sur
le plan financier, conseillez a Mme Samson d'aider Jean a
ouvrir un Regime enregistre d'epargne-invalidite (REEL)
des qu'il aura 18 ans. En contribuant 1500 $ par armee
a un REEL Jean pourrait recevoir jusqu'a 4500 $ en subventions et bons gouvemementaux12.
Promoteur de la sante : Promouvoir la bonne forme
physique et les interactions sociales a ['aide des ressources locales.
Expert en medecine familiale : Il importe de depister
la depression chez les parents, les freres et les sceurs
de la famille. Encouragez-les a beneficier des soins de
releve afin d'eviter Pepuisement. Maintenez la continuite des soins aupres de toute la famille.

Conclusion
Le trouble du spectre de l'autisme, dont la prevalence commit
une hausse alarmante, est une affection couramment
428

e l'autisme

Encadre 1. Résume des recommandations de NICE
pertinentes aux recherches eventuelles de ressources
entreprises par Ies parents
Interventions precises visant les caracteristiques fondamentales
de l'autisme
Interventions psychosociales
Envisager une intervention sociale-communication precise pour
les caracteristiques fondamentales de l'autisme chez les enfants
et adolescents, y compris des strategies par le jeu avec les
parents, les soignants et les enseignants, afin d'accroitre
['attention conjointe, ['engagement et la communication
reciproque chez l'enfant ou l'adolescent. Les strategies doivent :
-etre adaptees au niveau de developpement de l'enfant ou de
l'adolescent;
-viser a accroitre la comprehension, la sensibilite et Ia reactivite
des parents, des soignants, des enseignants ou des pairs a l'egard
du mode de communication et d'interaction de l'enfant ou de
l'adolescent;
-inclure des techniques d'exemple du therapeute et de
retroaction par interaction video;
-inclure des techniques visant a amplifier la communication, le
jeu interactif et les routines sociales de l'enfant ou de
('adolescent
L'intervention doit etre executee par un professionnel specialise.
Pour les enfants d'age prescolaire, envisager la mediation par les
parents, les soignants ou les enseignants. Pour les enfants d'age
scolaire, envisager la mediation par les pairs.
Interventions visant les comportements difficiles
Anticiper et prevenir les comportements difficiles
Dans revaluation de routine et la planification des soins des
enfants et adolescents autistes, evaluer les facteurs qui pourraient
accroitre le risque de comportements difficiles, y compris
-alteration de la communication pouvant causer une mauvaise
comprehension des situations ou une difficulte a exprimer les
besoins ou les souhaits;
-troubles physiques coexistants, comme la douleur ou les
troubles gastro-intestinaux;
-problemes de sante mentale coexistants, comme ranxiete ou Ia
depression et autres affections neurodeveloppementales, telles
que le TDAH;
-environnement physique, comme reclairage et le bruit;
environnement social, dont le domicile, recole et les activites de loisir;
modifications de la routine ou des circonstances personnelles;
changements developpementaux, y compris la puberte;
-exploitation ou violence par autrui;
renforcement accidentel du comportement difficile;
absence de previsibilite et de structure.
Interventions visant les competences de vie
0ffrir aux enfants et aux adolescents autistes un soutien pour les aider
a acquerir des strategies d'adaptation eta acceder aux services
communautaires, y compris ['acquisition de competences pour acceder
aux transports publics, a l'emploi et aux etablissements de loisir.
TDAH—trouble deficitaire de ['attention avec hyperactivite, NICE—
National Institute for Health and Care Excellence.
Reproduit de NICE6.

rencontree par les medecins de famille en contexte
clinique. La nouvelle definition du TSA proposee
par le DSM-V compte 4 domaines differents et des
sous-domaines diagnostiques. Elle et a laisse tomber les

Canadian Family Physician • Le Mr decin dc famille canadien I VOL 61: MAY • MAI 2015

App 137

appellations syndrome d'Asperger, autisme classique et trouble envahissant
du developpement au profit du terme generique TSA. En ayant recours aux
elements du cadre CanMEDS-MF, les medecins de famille peuvent jouer un
role de soutien et de defense aupres des families aux prises pour la vie avec
cette affection difficile.
Le D' P.F. Lee est professeur adjoint en medecine familiale et directeur des affaires etudiantes a la
Faculte de medecine de l'Universite de Calgary en Alberta. Le Dr Thomas est coordonnateur de la
Collaboration Cochrane et professeur de medecine familiale a la Faculte de medecine de l'Universite
de Calgary. La DR P.A. Lee est residente de deuxieme annee au programme de residence de medecine
d'urgence a l'Universite de Calgary.
Reconnaissance
Certains elements du present article ont ete presentes a Ia 51' Assemblee scientifique annuelle du
College des medecins de famille de )'Ontario, a Toronto (Ontario) le 30 novembre 2013. La revue de la
litterature a eta mise a jour, et radicle et les conseils ont ate elargis.
Collaborateurs
Tous les auteurs ont contribue a la revue et a l'analyse de la litterature, de meme qu'a Ia preparation du
manuscrit aux fins de soumission.
Interets concurrents
Aucun declare
Correspondance
Dr Patrick F. Lee; courriel pflee@ucalgary.ca
References
Autism and Developmental Disabilities Monitoring Network Surveillance Year 2008 Principal
Investigators; Centers for Disease Control and Prevention. Prevalence' of autism spectrum disordersAutism and Developmental Disabilities Monitoring Network, 14 sites, 2008. MMVVR Surveil' Summ
2012;61(3):1-19.
Centers for Disease Control and Prevention fwebsite]. Data and statistics. Atlanta, GA : Centers for
Disease Control and Prevention; 2012. Accessible a : www.cdc.govincbddd/autism/data.html. Ref.
du 13 fevr. 2014.
American Psychiatric Association. Diagnostic and statistical manual of mental disorders. 5th ed.
Arlington, VA: American Psychiatric Association; 2013.
Groupe de travail sur Ia revision du cursus. Roles CanMEDS - Medecine familiale - Cadre des
competences pour les medecins de famille. Mississauga, ON : College des medecins de famille
du Canada; 2009. Accessible a : http://www.cfpc.ca/ProjectAssets/Template/Resource.
aspx?id=3031&langType=3084. Ref. du 17 fevr. 2014.
Barton ML, Dumont-Mathieu T, Fein D. Screening young children for autism spectrum disorders in primary practice. J Autism Dev Disord 2012;42(6):1165-74.
National Institute for Health and Care Excellence. The management and support of children and young
people on the autism spectrum. Clinical guidance 170. London, UK : National Institute for Health and
Care Excellence; 2013. Accessible a : www.nice.org.uk/guidance/cg170. Ref. du 13 fevr. 2014.
American Psychiatric Association. Diagnostic and statistical manual of mental disorders. 4th ed, text
revision. Arlington,, VA: American Psychiatric Association; 2000.
Gillberg C, Steffenbur S. Outcome and prognostic factors in infantile autism and similar conditions: a
population-based study of 46 cases followed through puberty./ Autism Dev Disord 1987;17(2):273-87.
Ozonoff S, Young GS, Carter A, Messinger D, Yirmiya N, Zwaigenbaum L, et coll. Recurrence risk for
autism spectrum disorders: a Baby Siblings Research Consortium study. Pediatrics 2011;128(3):e488-95.
Myers SM, Johnson CP; American Academy of Pediatrics Council on Children with Disabilities.
Management of children with autism spectrum disorders. Pediatrics 2007;120(5):1162-82. Publication
en ligne du 29 oct. 2007.
Ospina MB, Krebs Seida J, Clark B, Karkhaneh M, Hartling L, Tjosvold L, et coll. Behavioural
and developmental interventions for autism spectrum disorder: a clinical systematic review. PLoS
ONE 2008;3(11):e3755. Publication en ligne du 18 nov. 2008.
Agence du revenu du Canada [site Web]. Regime enregistre d'epargne-invalidite (REEI). Ottawa, ON :
Agence du revenu du Canada; 2015. Accessible a : http://www.cra-arc.gc.ca/tx/ndvd1s/tpcs/
rdsp-reei/menu-fra.html Ref. du 19 mars 2015.
***

VOL 61: MAY • MAI 2015 I Canadian Family Physician . Le Medecin de famille canadien

429

App 138

Copyright of Canadian Family Physician is the property of College of Family Physicians and
its content may not be copied or emailed to multiple sites or posted to a listsery without the
copyright holder's express written permission. However, users may print, download, or email
articles for individual use.

VOLUME 110, NUMBER

6: 417

App 139

NOVEMBER L UOD

AMERICAN

AL ON MENTAL RETARDATION

Intensive Behavioral Treatment for Children With
Autism: Four-Year Outcome and Predictors
Glen 0. Sallows and Tamlynn D. Graupner
Wisconsin Early Autism Project (Madison)

Abstract

Twenty-four children with autism were randomly assigned to a clinic-directed group, replicating the parameters of the early intensive behavioral treatment developed at UCLA, or
to a parent-directed group that received intensive hours but less supervision by equally
well-trained supervisors. Outcome after 4 years of treatment, including cognitive, language,
adaptive, social, and academic measures, was similar for both groups. After combining
groups, we found that 48% of all children showed rapid learning, achieved average posttreatment scores, and at age 7, were succeeding in regular education classrooms. Treatment
outcome was best predicted by pretreatment imitation, language, and social responsiveness.
These results are consistent with those reported by Lovaas and colleagues (Lovaas, 1987;
McEachin, Smith, & Lovaas, 1993).

Behavioral approaches for addressing the delays and deficits common in autism have been
recognized by many as the most effective treatment methods to date (Green, 1996; Maine Administrators of Service for Children With Disabilities, 2000; New York State Department of
Health, 1999; Schreibman, 1988; Smith, 1993).
The intervention developed at UCLA in the
1960s and 1970s is perhaps the best known and
best documented (e.g., Dawson & Osterling,
1997; Green, 1996; Smith, 1993). Building on earlier research (e.g., Lovaas, Koegel, Simmons, &
Long, 1973), Lovaas and staff of the UCLA
Young Autism Project (1970 to 1984) began treatment with children under 4 years of age using a
curriculum emphasizing language development,
social interaction, and school integration skills.
After 2 to 3 years of treatment, 47% of the experimental group (9 of 19 children) versus 2% of the
comparison group (1 of 40 children) were reported to have achieved "normal functioning" (Lovaas, 1987; McEachin et al., 1993).
These findings demonstrated that many children with autism could make dramatic improvement, even achieve "normalcy," and many re0 American Association on Mental Retardation

searchers now agree that intensive behavioral
treatment can result in substantial gains for a large
proportion of children (e.g., Harris, Handleman,
Gordon, Kristoff, & Fuentes, 1991; Mundy, 1993).
However, the UCLA findings also created considerable controversy, and the studies were criticized
on methodological and other grounds (e.g.,
Gresham & MacMillan, 1998; Schopler, Short, &
Mesibov, 1989). One criticism was that the UCLA
group used the term recovered to describe children
who had achieved IQ in the average range and
placement in regular classrooms. Mundy (1993)
suggested that children diagnosed with high functioning autism might achieve similar outcomes
and pointed out that several of the recovered children in the follow-up study of the UCLA children
at age 13 (McEachin et al., 1993) had clinically
significant scores on some behavioral measures.
The UCLA team responded by noting that (a)
evaluators blind to background information had
not identified the recovered children as different
from neurotypical children and (b) a few elevated
scores may not imply abnormality because several
of the neurotypical peers had them as well (Smith,
McEachin, & Lovaas, 1993). Questions were also
417

VOLUME 110, NUMBER

6: 417-438

'EMBER 2005

Intensive behavioral treatment

raised regarding whether or not the UCLA results
could be fully replicated without the use of aversives, which were part of the UCLA protocol, but
are not acceptable in most communities (Schreibman, 1997). Some have questioned the feasibility
of implementing the program without the resources of a university research center to train and supervise treatment staff (Sheinkopf & Siegel, 1998)
and to help defray the cost of the program, which,
due to the many hours of weekly treatment, can
exceed $50,000 per year (although it has been argued that the cost of not providing treatment may
be much greater over time: Jacobson, Mulick, &
Green, 1998). Finally, because only about half of
the children showed marked gains, the need for
predictors to determine which children will benefit has been raised (Kazdin, 1993). Lovaas and
his colleagues responded to these and other criticisms (Lovaas, Smith, & McEachin, 1989; Smith
et al., 1993; Smith & Lovaas, 1997), but agreed
with others that replication and further research
were necessary.
There have now been several reports of partial
replication without using aversives (Anderson, Avery, Di Pietro, Edwards, & Christian, 1987; Birnbrauer & Leach, 1993; Eikeseth, Smith, Jahr, &
Eldevik, 2002; Smith, Groen, & Wynn, 2000).
Most found, as did Lovaas and his colleagues, that
a subset of children showed marked improvement
in IQ Although fewer children reached average
levels of functioning, the treatment provided in
these studies differed from the UCLA model in
several ways (e.g., lower intensity and duration of
treatment, different sample characteristics and curriculum, and less training and supervision of
staff).
Anderson et al. (1987) provided 15 hours per
week for 1 to 2 years (parents provided another 5
hours) and found that 4 of 14 children achieved
an IQover 80 and were in regular classes, but all
needed some support. Birnbrauer and Leach
(1993) provided 19 hours per week for 1.5 to 2
years and found that 4 of 9 children achieved an
IQover 80 (classroom placement was not reported), but all had poor play skills and self-stimulatory behaviors. The authors noted, however, that
their treatment program had not addressed these
areas. Smith et al. (2000) provided 25 hours per
week for 33 months and reported that 4 of 15
children achieved an IQover 85 and were in regular classes, but one had behavior problems. The
authors noted that their sample had an atypically
high number of mute children, 13 of 15, consid418

App 140

AMERICAN JOUP

N MENTAL RETARDATION

G. U. .,allows and T. D. Graupner

erably higher than the commonly cited figure of
50% (Smith & Lovaas, 1997), and they hypothesized that this was the reason for the relatively low
number of children functioning in the average
range following treatment. Eikeseth et al. (2002)
provided 28 hours per week for 1 year. In their
sample, 7 of 13 children with pretreatment IQ
over 50 achieved IQover 85 and were in regular
classes with some support. Data beyond the first
year have not yet been reported.
Four groups of investigators discussed results
based on behavioral treatment in classroom settings, which typically include a mix of 1:1 treatment and group activities, so that time in school
may not be comparable to hours reported in
home-based studies. Following 4 years of treatment, Fenske, Zalenski, Krantz, and McClannahan (1985) found that 4 of 9 children were
placed in regular classes. However, neither pre—
posttreatment test scores nor amount of support
in school were reported. Harris et al. (1991) provided 5.5 hours per day in class and instructed
parents to provide an additional 10 to 15 hours
at home (no data were collected on actual hours
parents provided). After 1 year of treatment, 6 of
9 children achieved IQover 85, but were still in
classes for students with learning disabilities. A later report (Harris & Handleman, 2000) found that
9 of 27 children achieved IQ over 85 and were
placed in regular classes (time in treatment was
not reported), but most required some support.
Meyer, Taylor, Levin, and Fisher (2001) provided
30 hours of class time per week for at least 2 years
and reported that 7 of 26 children were placed in
public schools after 3.5 years of treatment, but 5
required support services. Pre—post IQwas not reported. Romanczyk, Lockshin, and Matey (2001)
provided 30 hours of class time per week for 3.3
years and reported that 15% of the children were
discharged to regular classrooms. No information
on posttreatment test scores or the need for supports was provided.
In two studies researchers examined the effects of behavioral treatment for children with low
pretreatment IQ Smith, Eikeseth, Klevstrand, and
Lovaas (1997) provided children who had pretreatment IQ_less than 35 (M = 28) with 30 hours
per week for 35 months and reported an increase
in IQ of 8 points (3 of 11 children achieved increases of over 15 points) and 10 of 11 achieved
single-word expressive speech. Eldevik, Eikeseth,
Jahr, and Smith (in press) provided children who
had an average pretreatment IQ of 41 with 22
American Association on Mental Retardation

VOLUME 110, NUMBER 6: 417

,App 141

NOVEMBER 2OUJ

AMERICAN

Intensive behavioral treatm,...

hours per week of 1:1 treatment for 20 months
and reported an increase in IQof 8 points and an
increase in language standard scores of 11 points.
In three studies researchers examined results
of behavioral treatment provided by clinicians
working outside university settings in what has
been termed parent-managed treatment because parents implement treatment designed by a workshop
consultant, who supervises less frequently (e.g.,
once every 2 to 4 months) than the supervision
that occurs in programs supervised by a local autism treatment center (e.g., twice per week). Sheinkopf and Siegel (1998) reported results for children who received 19 hours of treatment per week
for 16 months supervised by three local providers.
Six of 11 children achieved IQover 90 and 5 were
in regular classes, but still had residual symptoms.
However, these children may not be comparable
to high achievers in other studies because intelligence tests included the Merrill-Palmer, a measure
of primarily nonverbal skills, known to yield
scores about 15 points higher than standard intelligence tests that include both verbal and nonverbal scales. In the second study, Bibby, Eikeseth, Martin, Mudford, and Reeves (2002) described results for children who received 30 hours
of treatment per week (range = 14 to 40) for 32
months (range = 17 to 43) supervised by 25 different consultants, who saw the children several
times per year (median = 4, range = 0 to 26).
Ten of 66 children achieved IQ over 85, and 4
were in regular classes without help. However, as
the authors noted, their sample was unlike
UCLA's in several ways: 15% had a pretreatment
IQ under 37, 57% were older than 48 months,
many received fewer than 20 hours per week, 80%
of the providers were not UCLA-trained, and no
child received weekly supervision. Weiss (1999) reported the results of a study in which children did
receive high hours: 40 hours of treatment per
week for 2 years. She saw each child every 4 to 6
weeks, reviewed videos of their performance every
2 to 3 weeks, and spoke with parents weekly. Following treatment, 9 of 20 children achieved scores
on the Vineland Applied Behavior Composite
(ABC) of over 90, were placed in regular classes,
and had scores on the Childhood Autism Rating
Scale in the nonautistic range (under 30). No preor posttreatment IQdata were reported.
Several researchers have described pretreatment variables that seem to predict (are highly
correlated with) later outcome. Although findings
have not always been consistent, the most comAmerican Association on Mental Retardation

AL ON MENTAL RETARDATION
J. Sallows and T. D. Graupner

monly noted predictors have been IQ (Bibby et
al., 2002; Eikeseth et al., 2002; Goldstein, 2002;
Lovaas, 1987; Newsom & Rincover, 1989), presence of imitation ability (Goldstein, 2002; Lovaas
& Smith, 1988; Newsom & Rincover, 1989;
Weiss, 1999), language (Lord & Paul, 1997; Venter, Lord, & Schopler, 1992), younger age at intervention (Bibby et al., 2002; Fenske et al., 1985;
Goldstein, 2002; Harris & Handleman, 2000), severity of symptoms (Venter et al., 1992), and social responsiveness or "joint attention" (Bono,
Daley, & Sigman, 2004; L. Koegel, Koegel, Shoshan, & McNerney, 1999; Lord & Paul, 1997).
Multiple regression has been used to determine combinations of pretreatment variables with
strong relationships with outcome. Goldstein
(2002) reported that verbal imitation plus IQplus
age resulted in an R2 of .78 with acquisition of
spoken language. Rapid leaming during the first 3
or 4 months of treatment has also been associated
with positive outcome (Lovaas & Smith, 1988;
Newsom & Rincover, 1989; Weiss, 1999). Weiss
reported that rapid acquisition of verbal imitation
plus nonverbal imitation plus receptive instructions resulted in an R2 of .71 with Vineland ABC
and .73 with Childhood Autism Rating Scale
scores 2 years later.
We designed the present study to examine
several questions. Can a community-based program operating without the resources, support, or
supervision of a university center, implement the
UCLA program with a similar population of children and achieve similar results without using aversives? Do significant residual symptoms of autism remain among children who achieve posttreatment test scores in the average range? Can
pretreatment variables be identified that accurately predict outcome? We also examined the comparative effectiveness of a less costly parent-directed treatment model.

Method
Participants
Researchers at the Wisconsin site worked in
collaboration with and observed the guidelines set
by the National Institutes of Mental Health
(NIMH) for Lovaas' Multi-Site Young Autism
Project. Children were recruited through local
birth to three (special education) programs. All
children were screened for eligibility according to
the following criteria: (a) age at intake between 24
and 42 months, (b) ratio estimate (mental age
419

VOLUME 110, NUMBER

6: 417-438

'EMBER

2005 App

142

AMERICAN JOUR

[MA] divided by chronological age [CA]) of the
Mental Development Index of 35 or higher (the
ratio estimate was used because almost all children
scored below the lowest Mental Development Index of 50 from the Bayley Scales of Infant Development Second Edition (Bayley, 1993), (c)
neurologically within "normal" limits (children
with abnormal EEGs or controlled seizures were
accepted) as determined by a pediatric neurologist
(no children were excluded based on this criterion), and (d) a diagnosis of autism by independent
child psychiatrists well known for their experience
and familiarity with autism. All children also met
the criteria for autism based on the Diagnostic
and Statistical Manual of Mental Disorders—
DSM-IV (American Psychiatric Association, 1994)
and the Autism Diagnostic Interview-Revised
(Lord, Rutter, & LeCouteur, 1994), both administered by a trained examiner. There were no parental criteria for involvement beyond agreeing to
the conditions in the informed consent document, one of which was accepting random assignment to treatment conditions. The parents of all
screened children agreed to participate, and none
dropped out upon learning of their group assignment, minimizing bias in selection of participants
and group composition.
Thirteen children began treatment in 1996,11
in 1997, and 14 in 1998-1999. The last group had
not completed treatment when the data from the
first two groups were analyzed, and their data will
be reported in a subsequent paper. The 24 children admitted during the first 2 years were 19
boys and 5 girls. One girl was placed in foster care
after 1 year of treatment, and the foster parents
did not wish to continue treatment for her. Her
data were, therefore, excluded from the analysis.
The remaining 23 children had completed 4 years
of treatment (or had "graduated" earlier) at the
time of this report, although 1 child switched to
another provider of behavioral treatment after 1
year.

Design
In accordance with the research protocol approved by NIMH, we matched children on pretreatment IQ(Bayley MA divided by CA). They
were randomly assigned by a UCLA statistician to
the clinic-directed group (n = 13), replicating the
parameters of the UCLA intensive behavioral
treatment (Lovaas, 1987) or to the parent-directed
group (n = 10), intended to be a less intensive
alternative treatment.
420

N MENTAL RETARDATION

G. G. -.flows and T. D. Graupner

Intensive behavioral treatment

All children received treatment based on the
UCLA model. Parents in both groups were instructed to attend weekly team meetings and were
encouraged to extend the impact of treatment by
practicing newly learned material with their child
throughout the day. Demographic information as
well as hours of treatment and supervision are
shown in Table 1. Children averaged 33 to 34
months of age at pretest and began treatment at
35 to 37 months. Children in the clinic-directed
Table 1. Demographic Information and Hours of
Service by Group
Descriptor

Clinic-directed

Boys, girls
One-parent
families

Parentdirected

11,2

8,2

0 of 13

1 of 10

Income
Median ($)
(Range)

62,000
(35-100+)

59,000
(30-100+)

Education (BA)
Mothers
9 of 12
Fathers
10 of 12
Siblings (mean)
2
No. nonverbal (%) 8/13 (62)

9 of 10
6 of 9
2
2/10 (20)

Age (months) (SD)
Pretest
Treatment
Posttest

33.23 (3.89)
35.00 (4.86)
83.23 (8.92)

34.20 (5.06)
37.10 (5.36)
82.50 (6.61)

1:1 hours per
week (SD)
Year 1
38.60 (2.91)
Year 2
36.55 (3.83)
Senior therapist 6-10 hrs
per week
3, 2- to 3-hr
sessions
Team meetings
1 hr per week
Progress review 1 hr per wk
for 1-2
years then
1 hr per 2
months

31.67 (5.81)
30.88 (4.04)
6 hrs
per month
1, 3-hr session
per 2 wks
1 hr per 1 or
2 weeks
1 hr every
other
month

Note. The 1:1 hours for parent-directed children excludes
one child who received 14 hours per week.

American Association on Mental Retardation

VOLUME 110, NUMBER

6: 417-

,„,App 143

NOVEMBER zutn

Intensive behavioral treatmt....

group were to receive 40 hours per week of direct
treatment. The actual average was 39 during Year
1 and 37 during Year 2, with gradually decreasing
hours thereafter as children entered school. Parents in the parent-directed group chose the number of weekly treatment hours provided by therapists. The average was 32 hours during Year 1
and 31 during Year 2, with the exception of one
family that chose to have 14 hours both years.
Because the parent-directed children as a group
received more intensive treatment than was provided in most previous studies, only 6 to 7 hours
less than the clinic-directed group, our ability to
examine the effect of differences in treatment intensity was limited.
The clinic-directed group received 6 to 10
hours per week of in-home supervision from a senior therapist and weekly consultation by the senior author or clinic supervisor. Parent-directed
children received 6 hours per month of in-home
supervision from a senior therapist (typically a 3hour session every other week) and consultation
every 2 months by the senior author or clinic supervisor.
Direct treatment staff, referred to as therapists,
were hired by Wisconsin Early Autism Project
staff members for both the clinic- and parent-directed groups. Funding for 35 hours of 1:1 treatment per week was provided through the Wisconsin Medical Assistance program. Treatment hours
in excess of 35 were funded through project funds.

Measures
We used the Bayley Scales of Infant Development, Second Edition, to determine pretreatment IQ In addition we used the Merrill-Palmer
Scale of Mental Tests (Stutsman, 1948), an older
test of intelligence recommended for use with
nonverbal children (Howlin, 1998), as a measure
of nonverbal intelligence but not pre- or posttreatment IQ We employed the Reynell Developmental Language Scales (Reynell & Gruber, 1990) to
assess language ability, because of its extensive
psychometric data for preschool-age children, and
the Vineland Adaptive Behavior Scales (Sparrow,
Balla, & Cicchetti, 1984) to measure adaptive
functioning. Subscales of the Vineland assess
Communication in Daily Life, Daily Living Skills,
and Social Skills. Information regarding developmental history (including loss of language and
other skills), use of supplemental treatments and
pretreatment presence of functional speech was
American Association on Mental Retardation

AMERICAN

AL ON MENTAL RETARDATION
J. Sallows

and T. D. Graupner

gathered from parent interviews, reports from other professionals, and direct observation.
Follow-up testing was administered annually
for 4 years. As children grew older or became too
advanced for the norms of pretreatment tests, we
used other age-appropriate tests. Cognitive functioning of older children was assessed using
Wechsler tests for 20 children—Wechsler Preschool and Primary Scale of Intelligence-RevisedWPPSI (Wechsler, 1989); Wechsler Intelligence
Scale for Children—WISC-III (Wechsler, 1991)—
and the Bayley II for 3 children. Although we assessed nonverbal cognitive functioning, it was not
used as a measure of posttreatment IQ we employed the Leiter-R for 11 children (Roid & Miller, 1995, 1997) and the Merrill-Palmer for 12 children. Language was measured using the Clinical
Evaluation of Language Fundamentals, Third
Edition—CELF III (Semel, Wiig, & Secord, 1995)
for 11 children and the Reynell for 12 children.
We administered the Vineland to all children for
assessment of adaptive functioning.
To assess posttreatment social functioning, we
readministered the Autism Diagnostic InterviewRevised and used the Personality Inventory for
Children (Wirt, Lachar, Klinedinst, & Seat, 1977),
which was completed by parents of all 23 children
after 3 years of treatment. After 4 years of treatment, when the children were approximately 7
years old, parents and teachers completed the
Child Behavior Checklist (Achenbach, 1991a,
1991b) and Vineland for all 23 children. Bierman
and Welsh (1997) noted that "teacher ratings are
superior to those of other informants and provide
information regarding peer interaction and group
acceptance that are closest to those of peers" (p.
348). Information was obtained from teachers on
classroom placement (regular, regular with modified curriculum, partial special education [e.g.,
pullout/resource room or full special education],
and supportive/therapeutic services [e.g., classroom aide, speech or occupational therapy]) when
the children were 7 years old. We used the Woodcock-Johnson III Tests of Achievement (Woodcock, McGrew, & Mather, 2001) to measure academic skills of children placed in regular education classes at age 7.
The second author administered the pretreatment assessment battery prior to children being
assigned to'ireatment groups. She received training in assessment at UCLA and met criterion for
satisfactory intertester reliability. One fourth of
the children in the current study were tested prior
421

VOLUME 110, NUMBER

6: 417-438

'EMBER 2005

Intensive behavioral treatment

to treatment by unaffiliated community psychologists. These children earned a ratio IQ of 50.3
on the Bayley administered by the independent
psychologists and 47.3 from the Wisconsin Project evaluator. The mean absolute difference was
three points, r = .83, indicating absence of bias
by the Wisconsin Project evaluator. Children who
achieved IQs of 85 or higher at annual follow-up
testing were thereafter referred for assessment by
psychologists who had extensive experience testing children with autism at hospital-based assessment clinics that were not affiliated with the Wisconsin Project. These psychologists, who were unaware of group assignment or length of time in
treatment, used the tests listed above. Follow-up
testing of most children whose IQremained delayed was conducted by the second author to reduce cost.
One experimental assessment procedure, the
Early Learning Measure developed at UCLA
(Smith, Buch, & Gamby, 2000) was administered
to measure the rate of acquisition of skills during
the first several months of treatment. Every 3
weeks for 3 months leading up to the beginning
of treatment and for 6 months after treatment
started, the same list of 40 items (10 each of verbal
imitation, nonverbal imitation, following verbal
instructions, and expressive object labeling),
which was known only to the experimenter, was
presented to the children. Two sets of scores were
obtained from the Early Learning Measure. The
first was the number of items the child performed
correctly prior to the onset of treatment. The second set of scores was the number of weeks required for the child to learn 90% of the verbal
imitation items once treatment had begun, thereby providing a measure of the child's rate of acquisition. This criterion was selected based on earlier research with the Early Learning Measure,
which suggested the predictive validity of rapid
acquisition of verbal imitation (Lovaas & Smith,
1988).
Treatment Procedure
The treatment procedure and curriculum were
those initially described by Lovaas (Lovaas et al.,
1981), except that no aversives were used, with the
addition of procedures supported by subsequent
research (e.g., R. Koegel & Koegel, 1995), which
have been widely disseminated (e.g., Maurice,
Green, & Luce, 1996). Positive interactions were
built by engaging in favorite activities and responding to the gestures used by each child to
422

App 144

AMERICAN JOUR

N MENTAL RETARDATION

G. C.. ,allows and T. D. Graupner

indicate desires. Anticipation of success and motivation to attend were increased by employing
brief, standard instructions and tasks requiring
only visual attending (e.g., matching), using familiar materials (e.g., the child's own ring stacker),
prompting success (physically assisting him or her
to place a ring on the pole if a demonstration was
not sufficient), presenting only two or three trials
at a time, and reinforcing each response immediately with powerful reinforcers (e.g., edibles, physical play, or enthusiastic proclamations of success
(such as "Fantastic!"). Between these brief (initially 30 seconds long) learning periods, staff
members played with the children to keep the
process more like play than work, generalize
learned material into more natural settings, and
continue to build social responsiveness.
Receptive language was generally targeted before expressive language. We used familiar instructions where success was easily prompted, such as
"sit down" or "come here." Expressive language
began with imitation training, first nonverbal then
vocal imitation, beginning with single sounds and
gradually progressing to words. Requesting was
taught as early as possible, initially using nonverbal
strategies if necessary (e.g., gesturing, signing, or the
Picture Exchange Communication System—PECS
(Bondy & Frost, 1994), in order to reduce frustration (Can & Durand, 1985) and increase the child's
frequency of communicative initiations (Hart &
Risley, 1975). Children who showed more modest
gains in treatment, referred to as visual learners by
the UCLA group, denoting difficulty in processing
language, took longer to acquire verbal imitation
and language.
Having learned many labels, children were
taught more complex concepts and skills, such as
categorization and speaking in full sentences. Social interaction and cooperative play were taught
as part of the in-home program, expanding from
playing with staff, to playing with siblings, and
then peers for up to 2 hours per day (this was
more successful with the subgroup of rapidly
learning children). As the children acquired social
skills, they began mainstream (as opposed to special education) preschool, usually for just 1 or 2
half-days (2.5 hours each) per week. A trained
shadow (one of the home treatment team members) initially accompanied the child to assist with
attending to the teacher's instructions, joining
others on the playground, and noting social errors
to be addressed in 1:1 sessions at home.
Those children who progressed at a rapid pace
American Association on Mental Retardation

6: 417
Intensive behavioral treatm,...

VOLUME 110, NUMBER

App 145

NOVEMBER LAW

were taught the beginnings of inferential thought
(e.g., "Why does he feel sad?"). Social and conversation skills, such as topic maintenance and
asking appropriate questions, were taught using
role-playing (e.g., Jahr, Eldevik, & Eikeseth, 2000),
video modeling (Charlop & Milstein, 1989), social
stories (Gray, 1994), straightforward discussion of
social rules and etiquette, and in-vivo prompting.
Academic skills were also targeted, raising the
level of proficiency of rapidly learning children to
first grade levels. Common classroom rules and
school "survival skills" (e.g., responding to group
instructions and raising one's hand to be called
on—Dawson & Osterling, 1997) were taught
through "mock school" exercises with several
peers at home.
Staff training. Therapists were at least 18 years
old, had completed a minimum of 1 year of college, and were screened for prior police contacts.
Therapists received 30 hours of training, which
included a minimum of 10 hours of one-to-one
training and feedback while working with their assigned child. Each therapist worked at least 6
hours per week (usually three 2-hour shifts) and
attended weekly or bi-weekly team meetings. Senior therapists had at least a 4-year college degree
and experience consisting of 1 year as a therapist
with at least two children, followed by an intensive 16-week internship program modeled after
that at UCLA, for a total of 2,000 hours.
Treatment fidelity. Senior therapists and clinicdirected therapists were required to meet quality
control criteria set at UCLA. This involved passing two tests. The first was a written test designed
to assess knowledge of basic behavioral principles
and treatment procedures described in The Me
Book (Lovaas et al., 1981). Second, they were required to pass a videotaped review of their work
(conducted by Tristram Smith, research director
of the Multi-Site Project, who used the protocol
described by R. Koegel, Russo, and Rincover,
1977). All senior therapists also received weekly
supervision by the senior author.
Progress reviews, which the child, parents, and
senior therapist attended, were held weekly for
clinic-directed children and every 2 months for
parent-directed children. At these reviews, the senior author or the UCLA-trained clinic supervisor
observed the child's performance and recommended appropriate changes in the program.
Both the senior author and clinic supervisor had
met the UCLA criteria for Level Two Therapist,
denoting sufficient experience and expertise in
American Association on Mental Retardation

AMERICAN

AL ON MENTAL RETARDATION

J. Sallows and T. D. Graupner

program implementation to work independent of
supervision. The senior author had directed a behaviorally oriented inpatient unit for children
with autism for 14 years and had trained at UCLA
for 6 months. The clinic supervisor had a BA in
psychology, 1 year of experience as a therapist, 2
years of full-time experience as a senior therapist,
and had completed a 9-month internship at
UCLA.

Data Analysis
Data analysis was carried out by a fourth year
graduate student from the University of Wisconsin Department of Statistics, with consultation
from a university research psychologist. We conducted an ANOVA with a least squares solution
for unequal group size, used to examine treatment
effects. To compare the clinic-directed and parentdirected groups, we used 2 X 2 ANOVAS (ClinicDirected vs. Parent-Directed X Pre- vs. Posttest
scores as repeated measures). An initial examination of pre—post IQ data showed that the distribution of scores was bimodal. As can be seen in
Figure 1, children showed either rapid progress or
more moderate progress, with no overlap between
outcome distributions. This is consistent with earlier research (Birnbrauer & Leach, 1993; Howard,
Sparkman, Cohen, Green, & Stanislaw, 2005; 0.
I. Lovaas, personal communication, August 27,
2003). Consequently, changes in scores for rapid
learners and moderate learners were analyzed separately.
130

a

BL

I
2
Years of Treatment

3

4

Figure 1. Changes in Full Scale IQduring 4 years
of behavioral treatment.

423

VOLUME 110, NUMBER

6: 417-43P

VEMBER 2005

Intensive behavioral treatment

In examining pretreatment scores of children
who would later be identified as rapid learners, we
found that those in the clinic-directed group had
higher mean IQ(60.40, standard deviation [SD]
= 8.31 compared to those in the parent-directed
group (51.00, SD = 7.02), t(9) =1.84,p < .05 (one
tailed), Vineland scores (clinic-directed = 64.8,
SD = 2.32; parent-directed = 59.83, SD =3.34),
t(9) = 2.31, p < .05 (one tailed), and Verbal Imitation (clinic-directed = 3.88; parent-directed =
1.67), W(4, 6) = 31, p = .03 (Wilcoxon test). Because these pretreatment differences would interfere with clear interpretation of posttreatment differences between subgroups (e.g., clinic-directed
vs. parent-directed rapid learners), these comparisons were omitted. We used linear and logistic
regression (best subset selection approach—Hosmer, Jovanovic, & Lemeshow, 1989) to develop
prediction models using pretreatment measures as
predictors of 3-year outcome.
Results
The average Full Scale IQfor all 23 children
increased from 51 to 76, a 25-point increase. Eight
of the children achieved IQs of 85 or higher after
1 year of treatment (5 clinic-directed and 3 parentdirected), and 3 more reached this level after 3 to
4 years (3 parent-directed) for a total of 11, or
48%, of the 23 children. Children with higher pretreatment IQs were more likely to reach 4-year
IQs in the average range (75% of children with
IQ§ between 55 and 64 versus 17%, 1 of 6 children with IQs between 35 and 44).
As shown in Table 2, there were no significant
differences between groups at pre- or posttest.
Combining children in both groups, we found
that pretest to posttest gains were significant for
Full Scale IQ F(1, 21) = 18.77, p < .01, Verbal
IQ F(1, 18) = 13.39, p < .01, Performance IQ
F(1, 18) = 46.79, p < .01, receptive language, F(1,
21) = 9.18, p < .01, Vineland Communication,
F(1, 21) = 7.57, p < .05, Vineland Socialization,
F(1, 21) = 10.30, p < .01, Autism Diagnostic Interview-Revised Social Skills, F(1, 18) = 19.15, p
.01, and Communication, F(1, 18) = 41.19, p
.01.
Rapid and Moderate Learners
A group of rapid learners showed much larger
improvements than did moderate learners (analogous to the terms best outcome and non-best outcome used in UCLA reports). Figure 1 shows Full
424

App 146

AMERICAN JOU1

)N MENTAL RETARDATION

G. C.,. wallows and T. D. Graupner

Scale IQ§ prior to treatment and over the next 4
years for all 23 children. Eleven of them (5 clinicdirected and 6 parent-directed) showed a large increase in IQ, from a mean of 55 prior to treatment
to 104 after 4 years. These rapid learners represented 48% of all 23 children. The IQ of the remaining 12 children (8 clinic-directed and 4 parent-directed) did not show a significant increase,
consistent with earlier UCLA reports (e.g., Smith
et al., 2000).
Pre- and posttreatment scores of rapid and
moderate learners are shown in Table 3. Rapid
learners showed significant gains in all areas measured (i.e., Full Scale IQ F(1, 21) = 143.19, p <
.01, Verbal IQ F(1, 18) = 70.76, p < .01, Performance IQ F(1, 18) = 165.27, p < .01, Nonverbal
IQ F(1, 19) = 16.69, p < .01, Receptive Language, F(1, 20) = 217.76,p < .01, Expressive Language, F(1, 20) = '77.76,p < .01, and all Vineland
subscales: Communication, F(1, 21) = 147.07, p
.01, Daily Living Skills (F(1,21) = 20.50, p <
.01), Socialization, F(1, 21) = 42.89, p < .01, and
Applied Behavior Composite, F(1, 21) = 54.17, p
.01). However, the rate of increase over time,
skill areas, and children was not uniform. As can
be seen in Figure 2, during the first year, Performance IQ of rapid learners rose to the average
range (a 40-point increase, WPPSI-R), whereas
Verbal IQand Vineland Socialization scores rose
to around 80 (a 25-point increase) and language
scores (Reynell and Clinical Evaluation of Language Fundamentals) rose only to the 60s. Changes during the second year of treatment were comparatively modest, perhaps reflecting the effect of
having acquired speech during the first year but
still lacking more complex language. The rate of
improvement increased again during the third and
fourth years, and all scores increased to the average range.
The gradual decrease in the slope of the
graphs in Years 3 and 4 is largely an artifact of
increasing age and does not reflect a decrease in
rate of MA growth, which, except for the large
increase during Year 1, averaged 18 months per
year throughout the study. This rate of growth in
skills is necessary for children with pretreatment
scores below 60 to "catch up" to peers. Although
some writers have noted a rate of growth among
treated children of 10 to 12 months per year, this
is not enough for them to reach scores in the average range within just a few years (Howard et al.,
2005), and the longer that children are delayed,
the more skills they must learn to catch up.
© American Association on Mental Retardation

VOLUME

110,

NUMBER

6: 417

App
NOVEMBER 2005

147

AMERICAN

Intensive behavioral treatm,....

TAL ON MENTAL RETARDATION

0. Sallows and T. D. Graupner

Table 2. Pretreatment and Outcome Scores of Clinic- (CD) and Parent-Directed (PD) Groups

Measure/'
Group
Full Scale IQ
CD
PD
Verbal IQ
CD
PD
Perform IQ
CD
PD
Nonverbal IQ
CD
PD
Rec Language
CD
PD
Exp Language
CD
PD
Vineland
Corn
CD
PD
DLSa
CD
PD
Soc
CD
PD
ABCb
CD
PD
ADI-Rc
Social
CD
PD
Com
CD
PD
Ritual
CD
PD

Pretreatment

Posttreatment

ANOVA, combined
groups, pre- vs.
posttreatment (di

Mean

SD

Mean

SD

50.85
52.10

10.57
8.98

73.08
79.60

33.08
21.80

18.77 (1,21)**

-

-

78.00
76.30

33.48
26.66

13.39 (1,18)**

-

84.90
90.70

25.86
20.72

46.79 (1,18)**

70.58
82.67

16.54
14.94

77.58
89.44

25.24
18.35

2.07 (1,21)

38.85
38.78

6.09
6.44

55.85
65.78

36.23
25.81

9.18 (1,21)**

47.92
48.44

6.17
6.96

53.38
59.22

31.91
25.13

1.30 (1,20)

57.46
63.20

4.97
5.58

73.69
81.40

32.32
24.33

7.57 (1,21)*

63.92
64.20

5.53
3.68

66.23
64.20

25.95
12.42

.11 (1,21)

58.38
60.30

6.17
5.76

73.92
68.90

23.49
10.11

10.30 (1,21)**

59.54
60.90

5.31
5.94

69.00
66.70

28.04
14.68

2.81 (1,21)

17.54
18.90

3.73
1.14

12.33
13.10

10.58
9.42

19.15 (1,18)**

12.85
12.90

2.44
1.22

8.08
8.80

6.91
7.43

41.19 (1,18)**

5.38
6.40

1.69
1.11

5.08
5.60

3.75
3.50

1.72 (1,18)

Note. CD n = 13; PD n = 10 except for Verbal IQand Performance IQ where n was 10 for both groups because 3
CD children had only Bayley tests. Neither the main effect of groups (CD vs. PD) nor the interaction of groups by time
was significant for any variable. Full scale IQ§ at pretreatment are Bayley scores.
'Daily living skills. bAdaptive Behavior Composite. cAutism Diagnostic Interview-Revised.
*p < .05. **p < .01.

© American Association on Mental Retardation

425

6: 417-438
Intensive behavioral treatment

VOLUME 110, NUMBER

Table

'EMBER

2005

App 148

AMERICAN JOUR

N MENTAL RETARDATION

G. (...,allows and T. D. Graupner

3. Pretreatment and Outcome Scores of Rapid (R) and Moderate (M) Learners

Measure/
Group
Full Scale IQ
R
M
Verbal IQ
R
M
Perform IQ
R
M
Nonverbal IQ
R
M
Rec Language
R
M
Exp Language
R
M
Vineland
Corn
R
M
DLSa
R
M
Soc
R
M
ABCb
R
M
ADI-Rc
Social
R
M
Corn
R
M
Ritual
R
M

Pretreatment

Posttreatment

Mean

SD

Mean

SD

ANOVA Pre-Post
comparisons

55.27
47.83

8.96
9.37

103.73
50.42

13.35
6.98

143.19 (1,21)**
0.45 (1,21)

-

-

101.45
47.44

18.72
2.06

70.76 (1,18)**
.02 (1,18)

-

-

107.55
63.67

9.44
8.43

165.27 (1,18)**
11.81 (1,18)**

83.56
69.83

14.84
15.93

108.78
67.70

10.96
12.35

16.69 (1,19)**
0.19 (1,19)

39.30
38.42

6.91
5.59

93.60
31.83

12.64
9.87

217.76 (1,20)**
3.84 (1,20)

49.90
47.50

7.75
6.54

85.70
30.83

15.07
5.89

77.76 (1,20)**
20.24 (1,20)**

60.82
59.17

4.02
7.22

105.09
51.33

12.83
10.94

147.07 (1,21)**
5.07 (1,21)*

66.45
61.83

4.25
4.20

82.27
49.83

16.34
10.61

20.50 (1,21)**
12.87 (1,21)**

61.55
57.08

6.58
4.63

87.73
57.08

14.94
6.40

42.89 (1,21)**
0.00 (1,21)

61.73
58.67

4.59
6.09

88.64
49.08

15.68
7.76

54.17 (1,21)**
7.51 (1,21)*

16.45
19.67

3.26
1.55

4.18
21.18

4.37
6.28

46.89 (1,21)**
0.43 (1,21)

11.00
13.75

3.54
0.60

2.00
14.81

2.73
3.59

52.04 (1,21)**
1.26 (1,21)

5.91
5.92

1.62
1.44

2.73
7.91

2.67
2.47

16.46 (1,21)**
4.87 (1,21)*

Note. R n = 11; M n = 12. Posttreatment language scores for moderate learners are Reynell ratio scores (AE/CA), which
are about 10 points lower than standard scores. Effect size expressed as proportion of variance was .88 for Full Scale IQ
.90 for receptive language, .84 for expressive language, and .73 for Vineland ABC, all quite large (Cohen, 1988). Full
Scale DO...s at pretreatment are Bayley scores.
'Daily living skills. bAdaptive Behavior Composite. 'Autism Diagnostic Interview-Revised.
"p < .05. **p < .01.

426

© American Association on Mental Retardation

VOLUME

110,

NUMBER

App 149

6: 417

NOVEMBER 2000

Intensive behavioral treatm,...

00
80
0

70

rn
60

50
— RL - - - ML
Performance IQ
e Verbal IQ
Rec Language
a Exp Language
+ Social Skill
.A. -------

30
Pre treatment

1yr

2 yr

AL ON MENTAL RETARDATION

J. Sallows and T. D. Graupner

100

40

AMERICAN

3 yr

------- A

4 yr

Year in treatment

Figure 2. Mean IQ language, and socialization
scores during treatment for rapid (RL) and moderate (ML) learners. Initial IQand language scores
are ratio scores as are all language scores of moderate learners.

Most parents waited until their children were
6 years old to enter kindergarten, per our recommendation, in order to allow them more time to
acquire social interaction skills. At an average age
of 7.67, the 11 rapidly learning children were succeeding in regular first or second grade classes following the regular curriculum. On the Woodcock
Johnson III Tests of Achievement, Oral Expression averaged 102 (SD = 11.9, 1 scored below 85),
Listening Comprehension averaged 101 (SD =
15.27, 2 scored below 85), Broad Reading averaged 105 (SD = 11.9, all scored over 85), Broad
Math averaged 104 (SD = 18.4, one scored below
85), Spelling averaged 112 (SD = 18.83, all scored
over 85) and general Academic Knowledge averaged 98 (SD = 18.1, 2 scored below 85). Three
children had aides because of inattentiveness and
3 received speech therapy, although all spoke fluently.
The 12 moderate learners showed a significant
improvement in Performance IQ F(1, 18) =
11.81, p < .01, as shown in Table 3, but the posttreatment mean score (63.67) was over two SDs
below the average range. Although these children
did not "catch up" to peers, they did show in© American Association on Mental Retardation

creases in developmental age equivalents. Cognitive skills increased from 16 to 44 months; adaptive skills, from 16 to 37 months; language skills,
from less than 12 months to 27 months; and social skills, from 10 to 31 months. At the end of
the study, these children were continuing to gain
skills at a rate of 3.4 to 4.3 months per year in
expressive language and social skills, respectively.
All but 2 of them acquired speech, allowing them
to communicate basic needs while also reducing
frustration. Two thirds learned to read simple stories (e.g., first grade level words with two sentences
per page). Most acquired the ability to relate to
others and to play with peers. Four of the children
were in regular classes with an aide, but all had a
modified curriculum. Six children had a mixture
of some time in regular class and some time in
special education, and 2 were in full-time special
education classes (one for students with cognitive
disabilities and the other for those with emotional
disturbances).

Assessment of Residual Symptoms in Rapidly
Learning Children
Parents completed the Personality Inventory
for Children for all 23 children. As shown in Table 4, rapidly learning children as a group scored
in the average range on all factor scales, although
2 scored in the clinically significant range on Factor III (they tended to worry). Moderate learners
were rated as having more tantrums (Factor I),
more difficulty interacting with others (Factor II),
and more learning problems (Factor IV).
Parents and teachers completed the Child Behavior Checklist for all 23 children. Results were
analyzed using 2 X 2 ANOVAS (Rapid Learners
vs. Moderate Learners X Parent vs. Teacher as repeated measures). As shown in Tables 4 and 5,
rapid learners as a group scored in the nonclinically significant range on all scales, although they
did score less normally than did moderate learners
on Scale 3 (they worried more). Moderate learners
were rated as less interactive (Scale 1), more preoccupied (Scale 5), less attentive (Scale 6), and
more easily frustrated (Scale 8).
The differences in Child Behavior Checklist
ratings between parents and teachers were small,
reaching significance on two scales (1 and 8).
However, these results largely reflected differences
within the average range. Parents did not rate any
children in the clinically significant range on either scale, and teachers rated only 2 children on
427

VOLUME 110, NUMBER

6: 417-438

'EMBER

2005

App 150

AMERICAN JOUR

Intensive behavioral treatment

G.

N MENTAL RETARDATION

-allows and T. D. Graupner

Table 4. Mean Scores of Rapid and Moderate Learners on Posttreatment Only Tests of Residual
Symptoms: Parent Ratings
PICa factor

I

Learner

II

III

Child Behavior Checklistb scale
IV

1

3

4

5

6

8

Rapid (R)
(n = 11)

(SD)

53.45
(9.38)

62.36
(8.34)

55.27
64.18
(13.90) (13.65)

59.09 55.40
(6.26) (6.14)

57.82 65.64 62.64
(7.49) (9.87) (9.12)

52.91
(4.98)

58.83 51.75
(6.27) (3.06)
0.01
1.80*

61.92 70.42 67.67
(7.35) (7.92) (8.17)
1.61
1.64
1.73*

53.33
(4.62)
0.08

Moderate (M)
(n = 12)

(SD)
R vs. Mc

66.83
(12.93)
3.43**

79.25
(9.42)
4.86**

49.73
97.55
(8.77) (18.77)
1.06
5.13**

'Personality Inventory for Children and Child Behavior Checklist scores a70 are clinically significant and scores a.67
are borderline. Scores below those levels are not reliably different from "normal" (Achenbach, 1991b; Lacher, 1982).
Factor I = Undisciplined/Poor Self Control, II = Social Incompetence, III = Internalizing/Somatic Symptoms, IV =
Cognitive Development. bScale I = Withdrawn, 3 = Anxious/Depressed, 4 = Social Problems, 5 = Thought Problems,
6 = Attention Problems, 8 = Aggression. 't tests are one-tailed, with a df of 19.
*p < .05. **p < .01.

Scale 1 (both moderate learners) and 3 on Scale
8 in the significant range (1 rapid and 2 moderate
learners).
Whereas checklists such as the Personality Inventory for Children and the Child Behavior
Checklist can be used to assess the presence of
problems, the Classroom Edition of the Vineland
is used to assess the presence of skills (e.g., "initiates conversation," "responds to hints or indirect cues in conversation"). Teachers completed
this measure for all 23 children except the 2 who
were among the highest functioning. As shown in
Table 5, teacher ratings of Communication and
Socialization for the remaining 9 rapid learners
were in the average range. Moderate learners were
rated as having deficiencies in both areas.

We examined changes in behavior related to
diagnosis by comparing the Autism Diagnostic Interview-Revised administered prior to and after 3
years of treatment using 2 X 2 ANOVAS (Rapid
Learners vs. Moderate Learners X Pretreatment vs.
Posttreatment as repeated measures). As shown in
Table 3, rapid learners as a group showed significant improvements on all three Autism Diagnostic Interview scales: Communication, F(1, 21) =
52.04, p < .01, Reciprocal Interaction, F(1, 21) =
46.89,p < .01, and stereotyped behaviors, F(1, 21)
= 16.46,p < .01. Eight of 11 rapid learners scored
in the nonautistic range in all three areas, and
many had their diagnoses removed by the referring child psychiatrists. Of the rapid learners who
had remaining problems, 1 still had some Ian-

Table 5. Mean Scores of Rapid and Moderate Learners on Posttreatment Only Tests of Residual
Symptoms: Teacher Ratings
Vineland
Learners
Rapid (R)
n = 11 (SD)
Moderate (M)
n = 12 (SD)
R vs. Mb

Child Behavior Checklist scalesa

Comm.

Social

1

3

4

5

6

8

94.44
(13.97)
58.58
(7.90)
6.84**

89.89
(18.36)
61.58
(6.02)
4.60**

57.00
(7.34)
64.33
(6.03)
2.93**

55.90
(6.93)
55.17
(6.56)
0.36

56.73
(6.30)
58.00
(5.57)
0.37

65.55
(11.37)
72.58
(7.06)
2.41*

59.36
(12.33)
63.25
(7.94)
1.33

57.60
(6.11)
61.25
(7.45)
2.86**

'Child Behavior Checklist scores a67 are borderline. Scores below these levels are not reliably different from "normal"
(Achenbach, 1991b; Lacher, 1982). t tests are one-tailed. Scale 1 = Withdrawn, 3 = Anxious/Depressed, 4 = Social
Problems, 5 = Thought Problems, 6 = Attention Problems, 8 = Aggression. bt tests are one-tailed, with a df of 19.
*p < .05. **p < .01.

428

© American Association on Mental Retardation

VOLUME 110, NUMBER

6: 417

App 151

NOVEMBER 2005

AMERICAN

AL ON MENTAL RETARDATION

-. J. Sallows and T. D. Graupner

Intensive behavioral treatm.....

Table 6. Combined Parents' and Teachers' Ratings of Residual Symptoms of Rapid Learners

Childa

Social Skills
VABSb
Isolates
Com, SocPICA 1&2

Not liked
CBC 1,4

Anxious
CBC 3, PIC 3

Inattntn
CBC 5,6

Moody CBC 8

47.7

50
50
55
79.5
62.5

50
50
50
65.5
53

54
67.5
64.8
70.8
67.8
65

54.5
54.5
61.5
58
51
55.5

CD
1
2
3
4
5

104
115.5
115
101.3
95.5

50
50
51
57.5
51

50
50
50
68.3
56.3

107.5
79.5
77.5
77.5
86.5
99.5

59
54.5
67.5
69
67
64

55.3
57.3
60
63.8
61.3
62.3

48.3
51.3
52
60

PD
1
2
3
4
5
6

68.3
46.3
51.3
63.7
67.0
51.3

'CD = clinic directed, PD = parent directed. bVineland Adaptive behavior Scales (VABS) scores below 85 are moderately
low and 116-130, moderately high. cPersonality Inventory for Children (PIC) and Child Behavior Checklist (CBC) scores
_:70 are clinically significant; and a-67, borderline; below these levels, are not reliably different from "normal" (Achenbach, 1991b; Lacher, 1982).

guage delays, 1 was rigid in play, and 1 was elevated in all three areas. The latter child had received treatment from a non-UCLA affiliated provider after the first year.
Combined measures of residual symptoms are
shown in Table 6. Eight of 11 rapid learners
showed increases in social skills to the adequate
range (above 85), although 3 had some borderline
problems, including 1 who had significant problems with Preoccupation/Inattention. The remaining 3 rapid learners showed moderately low social
skills (below 85), and 2 had problems with Preoccupation/Inattention, one of which was clinically significant. All 3 of these latter children were
in the parent-directed group and took longer than
2 years to achieve IQin the average range. These
results are similar to those described in UCLA reports, where 3 of 8 best outcome children scored
below 85 on Vineland Communication, 3 were
elevated on the Vineland Maladaptive Behavior
scale, and 5 had at least one significant elevation
on the Personality Inventory for Children. In interpreting these results, McEachin et al. (1993)
noted that 3 of their nonclinical children also had
significant Personality Inventory elevations.

Predicting Outcome
Early learning measure. Performance of rapid
and moderate learners on each of the four sub© American Association on Mental Retardation

scales of the Early Learning Measure is shown in
Figure 3. As can be seen, the difference in their
rates of learning was evident early in treatment.
Thirteen of 23 children passed the Early Learning
Measure (90% correct on verbal imitation). All 11
who later achieved scores in the average range
passed by 16 weeks of treatment (9 children) or
before reaching 42 months of age (2 children).
Pretreatment variables. Table 7 shows correlations between pretreatment variables and three
outcome variables following 3 years of treatment:
(a) Full Scale IQ (b) Language, defined as the
mean of three measures-Vineland Communication scores from parents and teachers representing
language usage at home and school and language
scores from the Reynell or Clinical Evaluation of
Language Fundamentals; (c) Social Skills, defined
as the mean of three measures-Vineland Socialization scores from parents and teachers and Factor II (Social Incompetence) from the Personality
Inventory for Children.
The ability to imitate on the Early Learning
Measure was highly correlated with outcome in
all three areas. Seven children were able to imitate
3 of 20 sounds prior to treatment (mean total
sounds imitated during the first three Early Learning Measures was 2.43, range - = 0 to 15, SD =
4.04), and all went on to achieve IQs in the average range.
429

VOLUME 110,

NUMBER 6: 417-438

'EMBER 200D

App 152

AMERICAN JOUR

Intensive behavioral treatment

N MENTAL RETARDATION

G. G. _allows and T. D. Graupner

Rapid Learners
A

Moderate Learners

Treatment

Baseline

12

Treabrent

Baseline
12

10

10

8-

8

6-

6

S

U

A
4.

4

2•

2

OS

III
I A
6 7 8 9 10 11 12 13
2 3 4 5

I 0/IIA"
A
1 2 3 4 5 6 7 8

Three Week Probes
Verbal irritation (90 % Correct)

Treatment

Baseline

12 -

10

10 •

8

8.

4

4•

2

2-

OS • • •• r AAA A
9

10 11 12 13

10

Three Week Probes
Receptive Instructions (80 %Correct)

Treatment

Eiaseline

12

1 2 3 4 5 6 7 8

9

Three Week Probes
Non Verbal Imitation (90% Correct)

CI •
1

•••• r

AA Al

2 3 4 5 6 7 8 9 10

11 12 13

Three Week Probes
Expressive Labels (60 % Correct)

Figure 3. Performance of rapid (RL) and moderate (ML) learners on the Early Learning Measure.

We used linear regression using the best subset approach (Hosmer et al., 1989) to select the
most powerful predictors for each outcome area.
Based on previous research, potential predictor
variables included IQ imitation, language, social
relatedness, and severity of symptoms. Posttreatment IQwas best predicted by the subset of variables including pretreatment Early Learning Mea430

sure (receptive language, nonverbal imitation, and
verbal imitation), pretreatment IQ Autism Diagnostic Interview Impairment in Social Interaction
(low social interest, unresponsive to others' approaches, lack of shared attention), and Autism
Diagnostic Interview Communication scores. This
set of variables yielded a correlation of .83 with
posttreatment IQ which is a strong relationship.
© American Association on Mental Retardation

VOLUME 110, NUMBER

6: 417-

NOVEMBER 2UUD

pp 153

AMERICAN 1

NI. ON MENTAL RETARDATION

J. Sallows and T. D. Graupner

Intensive behavioral treatm_

Table 7. Correlations Between Pretreatment and Posttreatment Measures
Follow-up
Three year

One year
Pretreatment measures

IQ

IQ change

IQ

Language

Social

.46*
.30

.37
.19

.35
.24

.41
.27

.45*
.31

.59**
.48*
.47*
.62**

.41
.54*
.27
.59**

.71**
.46*
.56**
.65**

.69**
.56**
.56**
.69**

.81**
.65**
.67**
.80**

Reynell
Expressive
Comprehension
ELM
Nonverbal Imitation
Exp. Labeling
Rec. Instructions
Verbal Imitation
VABS
Communication
DLSb
Motor
Socialization
Composite
Merrill-Palmer IQ
Bayley Ratio IQ

.49*
.57*
.36
.44*
.56*
.20
.51*

.35
.40
.16
.31
.32
-.01
-.01

.33
.57**
.17
.41*
.37
.08
.45*

.44*
.60**
.22
.43*
.43*
.06
.34

.41
.63**
.27
.47*
.46*
-.07
.28

-.49*
-.22
-.12
.86**

-.35
-.18
-.17

-.59**
-.63**
-.12
.87**
.75**

-.52*
-.50*
-.10
.92**
.84* *

-.57**
-.52*
-.10
.82**
.75**

ADI-R
Communication
Socialization
Ritualistic
First year IQ change
IQ at one year

.86**

'Reynell = Reynell Developmental Language Scales, ELM = Early Learning Measure, VABS = Vineland Adaptive
Behavior Scales, ADI-R = Autism Diagnostic Interview-Revised. bDaily Living Skills.
*p < .05. **p < .01.

The amount of variation in posttreatment IQexplained by this subset of pretreatment variables
was 70%.
Social skill acquisition was also predicted by
the pretreatment ability to imitate. The subset of
variables, including pretreatment Early Learning
Measure scores (receptive language, nonverbal imitation, and verbal imitation) and Autism Diagnostic Interview Communication yielded a correlation of .90 with posttreatment social skill
scores, a strong relationship. The amount of variance in posttreatment social skill scores explained
by this subset of pretreatment variables was 82%.
Finally, language skill acquisition was also predicted by the pretreatment ability to imitate. The
subset of variables including pretreatment Early
Learning Measure scores (receptive language, non© American Association on Mental Retardation

verbal imitation, and verbal imitation), Vineland
Daily Living Skills, and Autism Diagnostic Interview Communication yielded a correlation of .87
with posttreatment language scores, a strong relationship. The amount of variance in posttreatment language scores explained by this subset of
pretreatment variables was 75%.
Parents of 6 children (26%) reported acquisition of 5 to 25 words, all of which were later lost
between 15 and 26 months of age. Language regression in other studies has varied between 20%
and 50% (Howlin, 1998), with a mean near 30%
(Shinnar et al., 2001) and median age of 18
months (Tuchman & Rapin, 1997). Shinnar et al.
reported that among those children who regained
some language, only 8% achieved typical language. In the present study, loss of speech was not
431

VOLUME 110, NUMBER

6: 417-43P

App 154

VEMBER 2005

AMERICAN JOUI

)N MENTAL RETARDATION

G.

,allows and T. D. Graupner

Intensive behavioral treatment

related to outcome. Three rapid learners and 3
moderate learners had a clear loss, and 6 rapid
learners and 2 moderate learners had no loss (Rapid Learners vs. Moderate Learners X Pre- vs. Posttreatment, X2 (1, N =14) = .16, ns. Three of 6
children with clear regression (50%) achieved typical language. However, having no speech at the
start of treatment (age 36 months), whether from
earlier loss (and not having recovered any) or never having developed speech, was associated with
slower learning.
We used logistic regression to develop models
to predict the probability of achieving 3-year outcome scores in the average range based on pretreatment measures. The most accurate model for
the current set of data combined pretreatment
Verbal Imitation from the Early Learning Measure
and pretreatment Autism Diagnostic Interview
Communication as follows: p/(1-p) = e, where e
= (approximately) 2.718284 and y = [1.76 (total
verbal imitation items correct out of 20 trials from
standard set administered three times, 3 weeks
apart) —2.64 (Autism Diagnostic Interview-Communication score) + 32.57]. Using a score above
0.5 to classify children as potentially "best outcome," this model correctly predicted 10 of 11
such children (sensitivity = 10/11 = .91), with
one false positive and one false negative (specificity = 21/23 = .91). Predictive power was .91.
Hours of treatment. Table 8 shows the distri-

bution of direct intervention hours for rapid
learners during treatment. Most children received
predominantly 1:1 intervention during the first
year, and then gradually spent more time in
school. Once children were able to use language,
treatment was focused increasingly on building
the social skills necessary to function in school
and to interact with peers.
The number of weekly hours of treatment
seemed less related to outcome than did pretreatment variables. Rapid learners averaged 34 hours
per week during the first year (range = 25 to 40)
and 31 during the second year (range = 20 to 39).
Those who learned at a more moderate rate had
identical averages, although they had less peer
play due to limited play and language skills.
The hours shown in Table 8 do not include
time spent by parents generalizing gains made in
therapy, which they found quite difficult to estimate. In an effort to assess the impact of parental
involvement, senior therapists rated parents on
the percentage of involvement in their child's
treatment during the first year. Although the correlation with outcome, r = .32, was not significant, the real impact of parental involvement may
not be seen until formal treatment has ceased,
when parents who were more involved all along
and, therefore, acquired more skills, may be better
prepared to help their child deal with new challenges.

Table 8. Average Allocation of Treatment Hours Over Time for Rapid Learners
Years of treatment

Staffing
n

1:1
School
School shadow
Peer shadow
Total

.5

1

1.5

2

2.5

3

3.5

4

4.5

11
33
(15-40)
5
(0-12)
1
(0-5)
0
(0)
34
(25-40)

11
29
(16-35)
6
(0-12)
1
(0-5)
3
(0-5)
33
(26-40)

10
24
(10-33)
8
(0-25)
4
(0-15)
3
(0-5)
31
(20-37)

8
22
(15-31)
8
(0-16)
5
(0-15)
6
(2-9)
33
(20-39)

7
20
(10-27)
12
(8-20)
8
(3-15)
5
(0-9)
33
(25-37)

7
18
(5-28)
13
(8-25)
11
(6-18)
4
(0-8)
33
(20-40)

7
15
(0-25)
18
(8-30)
7
(0-18)
4
(2-8)
26
(7-40)

6
12
(4-25)
28
(15-35)
5
(0-12)
3
(0-6)
21
(6-31)

6
10
(0-15)
33
(25-35)
5
(2-15)
2
(0-4)
17
(12-20)

Note. Ranges are in parentheses. Total hours include school hours only when a shadow was present. Hours are for
children still in treatment at each point in time. One child transferred to another provider after 1 year. Children began
"graduating" from treatment after 2 years. Children who had difficulty learning complex material maintained full hours
longer, but treatment focused more on 1:1 hours to teach skills and less on peer interaction due to lower social interest
and language delays.
432

© American Association on Mental Retardation

VOLUME 110, NUMBER

6: 417

NOVEMBER 200

App 155

Intensive behavioral treatm--

Among rapid learners, the number of hours
of structured home-based peer play was significandy related to teachers' ratings of social skills at
4 years. Although most children began peer play
by 48 months of age, those who were subsequently rated by teachers as being within the average
range (Vineland Socialization score of at least 90,
and no Child Behavior Checklist scores over 65
on Scale 1 (Withdrawn) or Scale 4 (Social Problems), had several things in common. By age 54
months, they were all receiving at least 6 (mean
= 8) hours of supervised peer play per week with
at least two unfamiliar peers (i.e., not siblings or
cousins), and this continued for at least 6 months
(M = 13), p = .008 (Fisher Exact Test).
Supplemental treatments. Of the 23 children
participating, 22 received some type of supplemental treatment prior to or during the first year
of treatment (19 of 23 children). These services
consisted of special education (21), preschool (2),
and private therapies beyond what was offered in
school: speech (5), sensory integration (7), auditory integration training (2), music therapy (1),
and horseback riding (1). Hours per week of supplemental treatment ranged from 0 to 14 (average
= 6) prior to and 0 to 15 (average = 7) hours
during the first year of treatment. Between the
first and third year of treatment, biomedical management became more popular, and more parents
tried them. Nine children were on Gluten-Casein
free diets (for 1 month to 21 months), 10 received
mega-vitamins and/or dimethylglycine—DMG
(for 1 month to 3 years), 4 received Secretin (1 to
4 doses), 4 were given Nystatin (for 1 month to
12 months), and 1 received 20 doses of Intravenous Immune Globulin. However, the correlation
between hours of supplemental treatment and
outcome (—.335 with IQ —.384 with language,
and —.334 with socialization) and that between
the use of biomedical treatments and outcome
(—.050 with IQ —.108 with language, and —.141
with socialization) were low and not significant,
supporting the conclusion that the increases in
skills observed in this study were not the result of
these interventions.
Discussion
In the present study we demonstrated that the
UCLA early intensive behavioral treatment program could be implemented in a clinical setting
outside a university with a similar sample and that
the earlier findings by the UCLA group regarding
American Association on Mental Retardation

AMERICAN

AL ON MENTAL RETARDATION

J. Sallows and T. D. Graupner

favorable outcome (Lovaas, 1987; McEachin et
al., 1993) could in large part be replicated without
aversives. Following 2 to 4 years of treatment, 11
of 23 children (48%) achieved Full Scale IQs in
the average range, with IQ increases from 55 to
104, as well as increases in language and adaptive
areas comparable to data from the UCLA project.
At age 7, these rapid learners were succeeding in
regular first or second grade classes, demonstrated
generally average academic abilities, spoke fluently, and had peers with whom they played regularly.
Parent-directed children, who received 6
hours per month of supervision (usually 3 hours
every other week, which is much more than "parent-managed" or "workshop" supervision), did
about as well as clinic-directed children, although
they received much less supervision. This was unexpected, and it may have been due in part to
parent-directed parents taking on the senior therapist role, filling cancelled shifts themselves, actively targeting generalization, and pursuing
teachers and neighbors to find peers for daily play
dates with their children. Although many parentdirected parents initially made decisions regarding
treatment that resulted in their children progressing slowly (e.g., using their treatment hours for
ineffective interventions or pushing children to
learn advanced skills before they were ready), resulting in frustration and occasionally "shutting
down," many parents then sought input from
treatment supervisors and rapidly learned to avoid
making the same mistake twice, becoming quite
skillful after a few months.
Several measures were used to assess residual
symptoms of autism among rapid learners, and
while generally not clinically significant, some
were found, particularly among those children
who achieved average IQ after several years of
treatment. About one third of the rapid learners
were seen as having mild delays in social skills.
Seeming preoccupied was also a common problem for which 3 children were assigned classroom
aides because they "needed reminders to stay on
task." Lovaas (1987) did not mention that aides
were assigned to any of his "best outcome" children, and it is possible that our children were not
as "normal." However, McEachin et al. (1993)
found that in spite of scoring in the clinically significant range in one or two areas, children were
able to maintain their skills, scoring in the average
range on standardized tests of cognitive, emotional, and social variables and to succeed in regular
433

VOLUME 110, NUMBER

6: 417-438

'EMBER

2005

Intensive behavioral treatment

classes at follow-up 6 years after treatment was
stopped.
The strongest pretreatment predictors of outcome were imitation, language, daily living skills,
and socialization. Rapid acquisition of new material as measured by the Early Learning Measure,
first year IQ and change in IQafter 1 year were
also strong predictors. These findings are consistent with previous research. A model with 91%
accuracy was derived for predicting whether a
child in the present sample would be a rapid or
moderate learner. The usefulness of the model
must await validation with other similar samples.
We note that one of the two predictors in the
model was pretreatment verbal imitation, which is
not widespread among untreated 3-year-old children with autism. However, the model may not
discriminate among children above some as yet
undetermined age because they often acquire imitation by school age (Charman et al., 1997).
Because we used the Bayley to determine pretreatment IQ and Wechsler tests at follow-up,
there was a possibility that the observed increases
in IQmay have reflected the use of different tests
instead of treatment effects. To examine this, we
compared changes in scores over time from Bayley at Time 1 to Bayley at Time 2, with changes
from Bayley at Time 1 to Wechsler test at Time
2. One rapid learner was tested using the Bayley
at pretreatment and again after 1 year of treatment
because he was still only 3 years old. His score
increased from 44 to 97, similar to increases seen
in rapid learners tested with the Bayley at pretreatment and the WPPSI-R at 1 year. Ten moderate
learners were tested using the Bayley at pretreatment and again after 1 year of treatment, and with
Wechsler tests thereafter. For these children, Bayley to Bayley IQs increased from 47.2 to 54.3.
Bayley to Wechsler IQ§ increased from 53.7 to
54.6. Therefore, there did not seem to be an effect
on IQs attributable to using different tests.
Another possible confound was that most
pre- and posttesting of moderate learners was
done by the second author, perhaps introducing
bias. However, the correlation between scores obtained by the second author and unaffiliated community psychologists was high, and the finding of
little improvement over time on standardized tests
for children in this subgroup is consistent with
previous findings. A related question is whether
the positive findings among rapid learners were
due to treatment or maturation. Arguing against
the maturation hypothesis is the negligible im434

App 156

AMERICAN JOUR'

N MENTAL RETARDATION

G. L. _slows and T. D. Graupner

provement of children receiving community services found in several longitudinal studies (Eikeseth et al., 2002; Lord & Schopler, 1989; Lovaas,
1987; Sheinkopf & Siegel, 1998).
Although we matched on age and IC/and employed random assignment, this was not sufficient
to ensure equal samples. Other pretreatment variables, such as imitation, correlated even more
strongly with outcome and were not equal in the
two groups. As a result, we were unable to interpret treatment effects among subgroups of rapid
learners. Further, the small number of children in
the study limited the power of statistical tests to
detect differences, and the many tests on such a
small sample increased the likelihood of spurious
findings, thereby limiting the implications of results for the larger population of children with
autism. However, because some treatment effects
were so large and have been found in other studies (e.g., that a subset of the children do well), the
current results can be seen as supporting an existing body of research.
We found two interesting correlations that deserve further study. First, ratings of parental involvement were weakly related to outcome, suggesting that more overt efforts to increase parents
feeling capable of contributing to treatment planning may enhance treatment effects (Ramey et al.,
1992). Second, acquisition of social skills was positively related to amount and duration of supervised peer play. Some parents were uncomfortable
approaching other parents to set up play dates,
and problems doing so may provide a partial explanation for the lower social skills scores of their
children. Even so, amount and duration of supervised peer play are surely just a few of the variables
that affect acquisition of social skills. Although we
do have several powerful interventions, including
incidental teaching, role playing, and video modeling, to teach a curriculum of social conversation,
cooperative play, and understanding the nonverbal communication of others, building typical social skills remains a work in progress (McConnell,
2002).
Hours of treatment in this study came closer
than any previous replication to the intensity of
hours provided in the UCLA study (Lovaas,
1987), averaging 38 hours per week for 2 years in
the clinic-directed group, and the results were also
the most comparable. Forty-eight percent of the
children showed dramatic increases in cognitive
and social skills and were able to succeed in regular education classes. However, high hours and
© American Association on Mental Retardation

VOLUME 110, NUMBER

6: 417

App 157

NOVEMBER L UUD

AMERICAN

intensive supervision were not sufficient to make
up for low levels of pretreatment skills. Consistent
with previous studies, low IQ(below 44) and absence of language (no words at 36 months) predicted limited progress, whereas rate of learning,
imitation. and social relatedness predicted favorable outcomes (Lord, 1995). Although starting at
a disadvantage, children learning at a moderate
rate were still acquiring new skills after 4 years.
We intend to follow all of the children for several
more years to determine their outcome in adolescence and adulthood.

References
Achenbach, T. M. (1991a). Child Behavior Checklist. Burlington: University of Vermont Department of Psychiatry. (Available from ASEBA, 1 S. Prospect St., Burlington, VT
05401-3456 and online at http://checldist.
uvm.edu)
Achenbach, T. M. (1991b). Manual for the Teacher's Report Form and 1991 Profile. Burlington:
University of Vermont Department of Psychiatry. (Available from ASEBA, 1 S. Prospect
St., Burlington, VT 05401-3456, and online
at http://checklist.uvm.edu)
American Psychiatric Association. (1994). Diag-

nostic and statistical manual of mental disorders
(4th ed.). Washington, DC: American Psychiatric Association.
Anderson, S. R., Avery, D. L., DiPietro, E. K.,
Edwards, G. L., & Christian, W. P. (1987).
Intensive home-based intervention with autistic children. Education and Treatment of Children, 10, 352-366.
Bayley, N. (1993). Bayley Scales of Infant Development (2nd ed.). San Antonio: Psychological
Corp.
Bibby, P., Eikeseth, S., Martin, N. T., Mudford,
0. C., & Reeves, D. (2002). Progress and outcomes for children with autism receiving parent-managed intensive interventions. Research
in Developmental Disabilities, 23, 81-104.
Bierman, K. L., & Welsh, J. A. (1997). Social relationship deficits. In E. J. Mash & L. G. Terdal (Eds.), Assessment of childhood disorders (3rd
ed., pp. 328-365). New York: Guilford Press.
Birnbrauer, J. S., & Leach, D. J. (1993). The Murdoch Early Intervention Program after 2 years.
Behavior Change, 10, 63-74.
Bondy, A., & Frost, L. (1994). The Picture-ExAmerican Association on Mental Retardation

I AL ON MENTAL RETARDATION

0. Sallows and T. D. Graupner

Intensive behavioral treatm,...

change Communication System. Focus on Autistic Behavior, 9,1-19.
Bono, M. A., Daley, T., & Sigman, M. (2004).
Relations among joint attention, amount of
intervention and language gain in autism.

Journal of Autism and Developmental Disorders,
34, 495-505.
Carr, E. G., & Durand, V. M. (1985). Reducing
behavior problems through functional communication training. Journal of Applied Behavior Analysis, 18, 111-126.
Charlop, M. H., & Milstein, J. P. (1989). Teaching
autistic children conversational speech using
video modeling. Journal of Applied Behavior
Analysis, 22, 245-285.
Charman, T., Swettenham, J., Baron-Cohen, S.,
Cox, A., Baird, G., & Drew, A. (1997). Infants
with autism: An investigation of empathy,
pretend play, joint attention, and imitation.
Developmental Psychology, 33,781-789.
Dawson, G., & Osterling, J. (1997). Early intervention in autism. In M. Guralnick (Ed.), The
effectiveness of early intervention. Baltimore:
Brookes.
Eikeseth, S., Smith, T., Jahr, E., & Eldevik, S.
(2002). Intensive behavioral treatment at
school for 4- to 7-year-old children with autism: A one-year comparison controlled
study. Behavior Modification, 26, 49-68.
Eldevik, S., Eikeseth, S., Jahr, E., & Smith, T. (in
press). Effects of low-intensity behavioral
treatment for children with autism and mental retardation. Journal of Autism and Develop-

mental Disorders.
Fenske, B. C., Zalenski, S., Krantz, P. J., &
McClannahan, L. E. (1985). Age at intervention and treatment outcome for autistic children in a comprehensive intervention program. Analysis and Intervention in Developmental Disabilities, 5,49-58.
Gray, C. (1994). The social story book. Arlington,
TX: Future Horizons.
Green, G. (1996). Early behavioral intervention
for autism: What does research tell us? In C.
Maurice, G. Green, & S. C. Luce (Eds.), Be-

havioral intervention for young children with autism (pp. 29-44). Austin, TX: Pro-Ed.
Gresham, F. M., & MacMillan, D. L. (1998). Early
intervention project: Can its claims be substantiated and its effects replicated? Journal of
Autism and Developmental Disorders, 28, 5-13.
Harris, S. L., & Handleman, J. S. (2000). Age and
IQ at intake as predictors of placement for
435

VOLUME 110, NUMBER

6: 417-438

'EMBER

2005

Intensive behavioral treatment

App 158

AMERICAN JOUR

N MENTAL RETARDATION

G. G. „allows and T. D. Graupner

young children with autism: A four- to sixyear follow up. Journal of Autism and Developmental Disorders, 30, 137-142.
Harris, S. L., Handleman, J. S., Gordon, R., Kristoff, B., & Fuentes, F. (1991). Changes in cognitive and language functioning of preschool
children with autism. Journal of Autism and
Developmental Disorders, 21, 281-290.
Hart, B., & Risley, T. R. (1975). Incidental teaching of language in the preschool. Journal of
Applied Behavior Analysis, 8, 411-420.
Hosmer, D. W., Jovanovic, B., & Lemeshow, S.
(1989). Best subset logistic regression. Biometrics, 45, 1265-1270.
Howard, J. S., Sparkman, C. R., Cohen, H. G.,
Green, G., & Stanislaw, H. (2005). A comparison of intensive behavior analytic and eclectic treatments for young children with autism.
Research in Developmental Disabilities, 26, 359383.
Howlin, P. (1998). Children with autism and Asper-

munication in autism. In D. L. Cohen & F.
R. Volkmar (Eds.), Handbook of autism and pervasive developmental disorders (2nd ed., pp.
195-225). New York: Wiley.
Lord, C., Rutter, M., & LeCouteur, A. (1994). Autism Diagnostic Interview-Revised: A revised
version of a diagnostic interview for caregivers
of individuals with possible pervasive developmental disorders. Journal of Autism and Developmental Disorders, 23, 659-685.
Lord, C., & Schopler, E. (1989). The role of age
at assessment, developmental level, and test
in the stability of intelligence scores in young
autistic children. Journal of Autism and Developmental Disorders, 19, 483-499.
Lovaas, 0. I. (1987). Behavioral treatment and
normal educational and intellectual functioning in young autistic children. Journal of Consulting and Clinical Psychology, 55, 3-9.
Lovaas, 0. I., Ackerman, A. B., Alexander, D.,
Firestone, P., Perkins, J., & Young, D. (1981).

ger syndrome: A guide for practitioners and carers.

Teaching developmentally disabled children: The
me book. Austin, TX: Pro-Ed.

Chichester, West Sussex, England: Wiley.
Jacobson, J. W., Mulick, J. A., & Green, G. (1998).
Cost-benefit estimates for early intensive behavioral intervention for young children with
autism: General models and single state case.
Behavioral Interventions, 13, 201-226.
Jahr, E., Eldevik, S., & Eikeseth, S. (2000). Teaching autistic children to initiate and sustain cooperative play. Research in Developmental Disabilities, 21, 151-169.
Koegel, L. K., Koegel, R. L., Shoshan, Y., &
McNerney, E. (1999). Pivotal response intervention II: Preliminary long-term outcomes
data. Journal of the Association for Persons with
Severe Handicaps, 24, 186-198.
Koegel, R. L., & Koegel, L. K. (1995). Teaching

children with autism: Strategies for initiating positive interactions and improving learning opportunities. Baltimore: Brookes.
Koegel, R. L., Russo, D. C., & Rincover, A.
(1977). Assessing and training teachers in the
generalized use of behavioral modification
with autistic children. Journal of Applied Behavior Analysis, 10, 197-205.
Lachar, D. (1982). Personality Inventory for Children
(PIC): Revised format manual supplement. Los
Angeles: Western Psychological Services.
Lord, C. (1995). Follow-up of two-year-olds referred for possible autism. Journal of Child Psychology and Psychiatry, 36,1365-1382.
Lord, C., & Paul, R. (1997). Language and corn436

Lovaas, 0. I., Koegel, R. L., Simmons, J. Q, &
Long, J. S. (1973). Some generalization and
follow-up measures on autistic children in behavior therapy. Journal of Applied Behavior
Analysis, 6,131-166.
Lovaas, 0. I., & Smith, T. (1988). Intensive behavioral treatment for young children with
autism. In B. B. Lahey & A. E. Kazdin (Eds.),
Advances in clinical child psychology (Vol. 11,
pp. 285-324). New York: Plenum.
Lovaas, 0. I., Smith, T., & McEachin, J. J. (1989).
Clarifying comments on the young autism
study: Reply to Schopler, Short and Mesibov.

Journal of Consulting and Clinical Psychology,
57, 165-167.
Maine Administrators of Service for Children
with Disabilities. (2000). Report of the MADSEC autism task force. Manchester, ME: Author. (Available online at http://www.madex.
org)
Maurice, C., Green, G., & Luce, S. C. (Eds.).
(1996). Behavioral intervention foryoung children
with autism. Austin, TX: Pro-Ed.
McConnell, S. R. (2002). Interventions to facilitate social interaction for young children with
autism: Review of available research and recommendations for educational intervention
and future research. Journal of Autism andDevelopmental Disorders, 32, 351-372.
McEachin, J. J., Smith, T., & Lovaas, 0. I. (1993).
© American Association on Mental Retardation

VOLUME 110, NUMBER 6: 417

App 159

NOVEMBER 2005

Intensive behavioral treatn,

Long-term outcome for children with autism
who received early intensive behavioral treatment. American Journal on Mental Retardation,
97,359-372.
Meyer, L. S., Taylor, B. A., Levin, L., & Fisher, J.
R. (2001). Alpine Learning Group. In J. S.
Handleman & S. L. Harris (Eds.), Preschool education programs for children with autism (2nd
ed., pp. 135-155). Austin, TX: Pro-Ed.
Mundy, P. (1993). Normal versus high-functioning status in children with autism. American
Journal on Mental Retardation, 97,381-384.
Newsom, C., & Rincover, A. (1989). Autism. In
E. J. Mash & R. A. Barkley (Eds.), Treatment
of childhood disorders (pp. 286-346). New York:
Guilford.
New York State Department of Health, Early Intervention Program. (1999, May). Clinical

AMERICAN

AL ON MENTAL RETARDATION

J. Sallows and T. D. Graupner

practice guidelines: Autism/pervasive developmental disorders, assessment and intervention for
young children (ages 0-3 years). Albany: Author.

Sheinkopf, S. J., & Siegel, B. (1998). Home-based
behavioral treatment of young children with
autism. Journal of Autism and Developmental
Disorders, 28, 15-23.
Shinnar, S., Rapin, I., Arnold, S., Tuchman, R. F.,
Shulman, L., Ballaban-Gil, K., Maw, M.,
Deuel, R. K., & Volkmar, F. R. (2001). Language regression in childhood. Pediatric Neurology, 24, 183-189.
Smith, T. (1993). Autism. In T. R. Giles (Ed.),
Handbook of effective psychotherapy (pp. 107133). New York: Plenum.
Smith, T., Buch, G. A., & Gamby, T. E. (2000).
Parent-directed, intensive early intervention
for children with pervasive developmental disorder. Research in Developmental Disabilities, 21,
297-309.
Smith, T., Eikeseth, S., Klevstrand, M., & Lovaas,
0. I. (1997). Intensive behavioral treatment
for preschoolers with severe mental retardation and pervasive developmental disorder.

Ramey, C. T., Bryant, D. M., Wasik, B. H., Sparling, J. J., Fendt, K. H., & LaVange, L. M.
(1992). Infant health and development program for low birth weight, premature infants:
Program elements, family participation, and
child intelligence. Pediatrics, 3,454-465.
Reynell, J. K., & Gruber, G. P. (1990). Reynell Developmental Language Scales. Los Angeles:
Western Psychological Services.
Roid, G. H., & Miller, L. J. (1995, 1997). Leiter
International Performance Scale-Revised. Wood
Dale, IL: Stoelting.
Romanczyk, R. G., Lockshin, S. B., & Matey, L.
(2001). In J. S. Handleman & S. L. Harris
(Eds.), Preschool education programs for children
with autism (2nd ed., pp. 49-94). Austin, TX:
Pro-Ed.
Schopler, E., Short, A., & Mesibov, G. (1989). Relation of behavioral treatment to normal functioning: Comment on Lovaas. Journal of Consulting and Clinical Psychology, 57, 162-164.
Schreibman, L. (1997). Theoretical perspectives
on behavioral intervention for individuals
with autism. In D. L. Cohen & F. R. Volkmar
(Eds.), Handbook of autism and pervasive developmental disorders (2nd ed., pp. 920-933). New
York: Wiley.
Schreibman, L. (1988). Autism. Newbury Park,
CA: Sage.
Semel, E., Wiig, E. H., & Secord, W. A. (1995).
Clinical evaluation of language fundamentals (3rd
ed.). San Antonio: Psychological Corp.

238-249.
Smith, T., Groen, A., & Wynn, J. (2000). Randomized trial of intensive early intervention
for children with pervasive developmental disorder. American Journal on Mental Retardation,
105, 269-285.
Smith, T., & Lovaas, 0. I. (1997). The UCLA
Young Autism Project: A reply to Gresham
and McMillan. Behavioral Disorders, 22, 202218.
Smith, T., McEachin, J. J., & Lovaas, 0. I. (1993).
Comments on replication and evaluation of
outcome. American Journal on Mental Retardation, 97,385-391.
Sparrow, S. S., Balla, D. A., & Cicchetti, D. V.
(1984). Vineland Adaptive Behavior Scales (Interview Ed.). Circle Pines, MN: American
Guidance Service.
Stutsman, R. (1948). Merrill Palmer Scale of Mental
Tests. Wood Dale, IL: Stoelting.
Tuchman, R. F., & Rapin, I. (1997). Regression in
pervasive developmental disorders: Seizures
and epileptiform electroencephalogram correlates. Pediatrics, 99,560-566.
Venter, A., Lord, C., & Schopler, E. (1992). A follow-up study of high-functioning autistic children. Journal of Child Psychology and Psychiatry,
33, 489-507.
Wechsler, D. (1989). Wechsler Preschool and Primary Scale of Intelligence-Revised. San Antonio,
TX: Psychological Corp.

© American Association on Mental Retardation

American Journal on Mental Retardation, 102,

437

VOLUME 110, NUMBER

6: 417-438

'EMBER

2005

Intensive behavioral treatment

Wechsler, D. (1991). Manual for the Wechsler Intelligence Scale for Children: Third Edition. San Antonio: Psychological Corp.
Weiss, M. J. (1999). Differential rates of skill acquisition and outcomes of early intensive behavioral intervention for autism. Behavioral
Interventions, 14, 3-22.
Wirt, R. D., Lachar, D., Klinedinst, J. K., & Seat,
P. D. (1977): Multidimensional descriptions of
child personality: A manual for the Personality
Inventory for Children. Los Angeles: Western
Psychological Services.
Woodcock, R. W., McGrew, K. S., & Mather, N.
(2001). Woodcock-Johnson III Tests of Achievement. Itasca, IL: Riverside.

App 160

AMERICAN JOUR

N MENTAL RETARDATION

G. C.. _..Vows and T. D. Graupner

Received 7/22/04, accepted 7/20/05.
Editor-in-charge: William E. MacLean, Jr.
This research was supported in part by National
Institute of Mental Health Grant MH4886301A3, Multi-Site Young Autism Project. We
thank Crystal (Burns) Held, the UCLA-trained
clinic supervisor, for her efforts in carrying out
this study; Tristram Smith for reviewing the manuscript multiple times; Robyn Dawes and Shuangge Ma for consultation on data analysis; and 0.
Ivar Lovaas for the opportunity to train at UCLA,
his mentorship, and support. Requests for reprints
should be sent to either author at the Wisconsin
Early Autism Project, 6402 Odana Rd., Madison,
WI 53719. E-mail: weap@wiautism.com

Errata
Several errors occurred in the article "Support Needs and Adaptive Behaviors," by Julia Harries,
Roma Guscia, Neil Kirby, Ted Nettelbeck, and John Taplin (Vol. 110, No. 5, 393-404). On page 395,
in last line under Participants, the SD should be 3.2 years not 3.2 months.
In Table 4 on page 400, there should not be a superscript a next to the ICAP heading. Also, in
this table the coefficient for SIS Health and Safety subscale in Factor 3 should be -.16 not .16.
In the reference list, there should be reference to two versions of the Supports Intensity Scale (one
unpublished version and one published version) as follows:
Thompson, J. R., Bryant, B., Campbell, E. M., Craig, E. M., Hughes, C., Rotholz, D. A., Schalock, R.
L., Silverman, W., Tasse, M. J., & Wehmeyer, M. (2002). Supports Intensity Scale: Standardization
and users manual. Unpublished assessment scale, American Association on Mental Retardation.
Thompson, J. R., Bryant, B., Campbell, E. M., Craig, E. M., Hughes, C., Rotholz, D. A., Schalock, R.
L., Silverman, W., Tasse, M. J., & Wehmeyer, M. (2004). Supports Intensity Scale: Users manual.
Washington, DC: American Association on Mental Retardation.

438

American Association on Mental Retardation

App 161
Journal of Consulting and Clinical Psychology
1981, Vol. 55, No. 1, 3-9

1981 by the American Psychological Association, Inc.
0022-006X/87400.75

Behavioral Treatment and Normal Educational and Intellectual
Functioning in Young Autistic Children
0. Ivar Lovaas
University of California, Los Angeles
Autism is a serious psychological disorder with onset in early childhood. Autistic children show
minimal emotional attachment, absent or abnormal speech, retarded IQ, ritualistic behaviors, aggression, and self-injury. The prognosis is very poor, and medical therapies have not proven effective.
This article reports the results of behavior modification treatment for two groups of similarly constituted, young autistic children. Follow-up data from an intensive, long-term experimental treatment
group (n = 19) showed that 47% achieved normal intellectual and educational functioning, with
normal-range IQ scores and successful first grade performance in public schools. Another 40% were
mildly retarded and assigned to special classes for the language delayed, and only 10% were profoundly retarded and assigned to classes for the autistic/retarded. In contrast, only 2% of the controlgroup children (n = 40) achieved normal educational and intellectual functioning; 45% were mildly
retarded and placed in language-delayed classes, and 53% were severely retarded and placed in autistic/retarded classes.

Kanner (1943) defined autistic children as children who exhibit (a) serious failure to develop relationships with other people before 30 months of age, (b) problems in development of
normal language, (c) ritualistic and obsessional behaviors ("insistence on sameness"), and (d) potential for normal intelligence. A more complete behavioral definition has been provided elsewhere (Lovaas, Koegel, Simmons, & Long, 1973). The
etiology of autism is not known, and the outcome is very poor
In a follow-up study on young autistic children, Rutter (1970)
reported that only 1.5% of his group (n = 63) had achieved normal functioning. About 35% showed fair or good adjustment,
usually required some degree of supervision, experienced some
difficulties with people, had no personal friends, and showed
minor oddities of behavior. The majority (more than 60%) remained severely handicapped and were living in hospitals for
mentally retarded or psychotic individuals or in other protective
settings. Initial IQ scores appeared stable over time. Other studies (Brown, 1969; DeMyer et al., 1973; Eisenberg, 1956; Freeman, Ritvo, Needleman, & Yokota, 1985; Havelkova, 1968) re-

port similar data. Higher scores on IQ tests, communicative
speech, and appropriate play are considered to be prognostic of
better outcome (Lotter, 1967).
Medically and psychodynamically oriented therapies have
not proven effective in altering outcome (DeMyer, Hingtgen, &
Jackson, 1981). No abnormal environmental etiology has been
identified within the children's families (Lotter, 1967). At present, the most promising treatment for autistic persons is behavior modification as derived from modern learning theory (DeMyer et al., 1981). Empirical results from behavioral intervention with autistic children have been both positive and negative.
On the positive side, behavioral treatment can build complex
behaviors, such as language, and can help to suppress pathological behaviors, such as aggression and self-stimulatory behavior.
Clients vary widely in the amount of gains obtained but show
treatment gains in proportion to the time devoted to treatment.
On the negative side, treatment gains have been specific to the
particular environment in which the client was treated, substantial relapse has been observed at follow-up, and no client
has been reported as recovered (Lovaas et al., 1973).
The present article reports a behavioral-intervention project
(begun in 1970) that sought to maximize behavioral treatment
gains by treating autistic children during most of their waking
hours for many years. Treatment included all significant persons in all significant environments. Furthermore, the project
focused on very young autistic children (below the age of 4
years) because it was assumed that younger children would be
less likely to discriminate between environments and therefore
more likely to generalize and to maintain their treatment gains.
Finally, it was assumed that it would be easier to successfully
mainstream a very young autistic child into preschool than it
would be to mainstream an older autistic child into primary
school.
It may be helpful to hypothesize an outcome of the present
study from a developmental or learning point of view. One may
assume that normal children learn from their everyday environ-

This study was supported by Grant MH-11440 from the National
Institute of Mental Health. Aspects of this study were presented at the
1982 convention of the American Psychological Association, Washington, DC, by Andrea Ackerman, Paula Firestone, Gayle Goldstein, Ronald Leaf, John McEachin, and the author. The author expresses his deep
appreciation to the many undergraduate students at the University of
California, Los Angeles, who served as student therapists on the project,
to the many graduate students who served as clinic supervisors, and to
the many parents who trusted their children to our care. Special thanks
to Laura Schreibman and Robert Koegel, who collaborated in the early
stages of this research project. Donald Baer, Bruce Baker, Bradley
Bucher, Arthur Woodward, and Haikang Shen provided statistical advice and help in manuscript preparation. B. J. Freeman's help in arranging access to Control Group 2 data is also appreciated.
Correspondence concerning this article should be addressed to O. lvar
Lovaas, Psychology Department, University of California, 405 Hilgard
Avenue, Los Angeles, California 90024.

3

App 162
0. WAR LOVAAS

4

ments most of their waking hours. Autistic children, conversely,
do not learn from similar environments. We hypothesized that
construction of a special, intense, and comprehensive learning
environment for very young autistic children would allow some
of them to catch up with their normal peers by first grade.

Method
Subjects
Subjects were enrolled for treatment if they met three criteria: (a)
independent diagnosis of autism from a medical doctor or a licensed
PhD psychologist, (b) chronological age (CA) less than 40 months if
mute and less than 46 months if echolalic, and (c) prorated mental age
(PMA) of 1 I months or more at a CA of 30 months. The last criterion
excluded 15% of the referrals.
The clinical diagnosis of autism emphasized emotional detachment,
extreme interpersonal isolation, little if any toy or peer play, language
disturbance (mutism or echolalia), excessive rituals, and onset in infancy. The diagnosis was based on a structured psychiatric interview
with parents, on observations of the child's free-play behaviors, on psychological testing of intelligence, and on access to pediatric examinations. Over the 15 years of the project, the exact wording of the diagnosis
changed slightly in compliance with changes in the Diagnostic and Statistical Manual of Mental Disorders (DSM-III; American Psychiatric
Association, 1980). During the last years, the diagnosis was made in
compliance with DSM-III criteria (p. 87). In almost all cases, the diagnosis of autism had been made prior to family contact with the project.
Except for one case each in the experimental group and Control Group
1, all cases were diagnosed by staff of the Department of Child Psychiatry, University of California, Los Angeles (UCLA) School of Medicine.
Members of that staff have contributed to the writing of the DSM-III
and to the diagnosis of autism adopted by the National Society for Children and Adults with Autism. If the diagnosis of autism was not made,
the case was referred elsewhere. In other words, the project did not select
its cases. More than 90% of the subjects received two or more independent diagnoses, and agreement on the diagnosis of autism was 100%.
Similarly high agreement was not reached for subjects who scored
within the profoundly retarded range on intellectual functioning
(PMA < 11 months): these subjects were excluded from the study.

Treatment Conditions
Subjects were assigned to one of two groups: an intensive-treatment
experimental group (n = 19) that received more than 40 hours of oneto-one treatment per week, or the minimal-treatment Control Group 1
(n = 19) that received 10 hours or less of one-to-one treatment per week.
Control Group I was used to gain further information about the rate of
spontaneous improvement in very young autistic children, especially
those selected by the same agency that provided the diagnostic work-up
for the intensive-treatment experimental group. Both treatment groups
received treatment for 2 or more years. Strict random assignment (e.g.,
based on a coin flip) to these groups could not be used due to parent
protest and ethical considerations. Instead, subjects were assigned to
the experimental group unless there was an insufficient number of staff
members available to render treatment (an assessment made prior to
contact with the family). Two subjects were assigned to Control Group
1 because they lived further away from UCLA than a I-hr drive, which
made sufficient staffing unavailable to those clients. Because fluctuations in staff availability were not associated in any way with client characteristics, it was assumed that this assignment would produce unbiased
groups. A large number of pretreatment measures were collected to test
this assumption. Subjects did not change group assignment. Except for
two families who left the experimental group within the first 6 months

(this group began with 21 subjects), all families stayed with their groups
from beginning to end.

Assessments
Pretreatment mental age (MA) scores were based on the following
scales (in order of the frequency of their use): the Bayley Scales of Infant
Development (Bayley, 1955), the Cattell Infant Intelligence Scale (Cattell, 1960), the Stanford-Binet Intelligence Scale (Thorndike, 1972), and
the Gesell Infant Development Scale (Gesell. 1949). The first three
scales were administered to 90% of the subjects, and relative usage of
these scales was similar in each group. Testing was carried out by graduate students in psychology who worked under the supervision of clinical
psychologists at UCLA or licensed PhD psychologists at other agencies.
The examiner chose the test that would best accommodate each subject's developmental level, and this decision was reached independently
of the project staff. Five subjects were judged to be untestable (3 in the
experimental group and 2 in Control Group I ). Instead, the Vineland
Social Maturity Scale (Doll, 1953) was used to estimate their MAs (with
the mother as informant). To adjust for variations in MA scores as a
function of the subject's CA at the time of test administration, PMA
scores were calculated for a CA at 30 months (MA/CA x 30).
Behavioral observations were based on videotaped recordings of the
subject's free-play behavior in a playroom equipped with several simple
early-childhood toys. These videotaped recordings were subsequently
scored for amount of (a) self-stimulatory behaviors. defined as prolonged ritualistic, repetitive, and stereotyped behavior such as bodyrocking, prolonged gazing at lights, excessive hand-flapping, twirling the
body as a top, spinning or lining of objects, and licking or smelling of
objects or wall surfaces; (b) appropriate play behaviors, defined as those
limiting the use of toys in the playroom to their intended purposes, such
as pushing the truck on the floor, pushing buttons on the toy cash register, putting a record on the record player, and banging with the toy hammer; and (c) recognizable words defined to include any recognizable
word, independent of whether the subject used it in a meaningful context or for communicative purposes. One observer who was naive about
subjects' group placement scored all tapes after being trained to agree
with two experienced observers (using different training tapes from similar subjects). Interobserver reliability was scored on 20% of the tapes
(randomly selected) and was computed for each category of behavior
for each subject by dividing the sum of observer agreements by the sum
of agreements and disagreements. These scores were then summed and
averaged across subjects. The mean agreement (based both on occurrences and nonoccurrences) was 91% for self-stimulatory behavior, 85%
for appropriate play behavior; and 100% for recognizable words. A more
detailed description of these behavioral recordings has been provided
elsewhere (Lovaas et al., 1973).
A I-hr parent interview about the subjects' earlier history provided
some diagnostic and descriptive information. Subjects received a score
of 1 for each of the following variables parents reported: no recognizable
words; no toy play (failed to use toys for their intended function); lack of
emotional attachment (failed to respond to parents' affection); apparent
sensory deficit (parents had suspected their child to be blind or deaf
because the child exhibited no or minimal eye contact and showed an
unusually high pain threshold): no peer play (subject did not show interactive play with peers); self-stimulatory behavior; tantrums (aggression
toward family members or self); and no toilet training. These 8 measures from parents' intake interviews were summed to provide a sum
pathology score. The intake interview also provided information about
abnormal speech (0 = normal and meaningful language, however limited; 1 = echolalic language used meaningfully (e.g., to express needs];
2 = echolalia; and 3 = mute); age of walking; number of siblings in
the family; socioeconomic status of the father; sex; and neurological
examinations (including EEGs and CAT scans) that resulted in findings
of pathology. Finally, CA at first diagnosis and at the beginning of the

App 163
5

TREATMENT OF AUTISTIC CHILDREN
present treatment were recorded. This yielded a total of 20 pretreatment
measures, 8 of which were collapsed into 1 measure (sum pathology).
A brief clinical description of the experimental group at intake follows (identical to that for Control Group 1): Only 2 of the 19 subjects
obtained scores within the normal range of intellectual functioning; 7
scored in the moderately retarded range, and 10 scored in the severely
retarded range. No subject evidenced pretend or imaginary play, only 2
evidenced complex (several different or heterogeneous behaviors that
together formed one activity) play, and the remaining subjects showed
simple (the same elementary but appropriate response made repeatedly) play. One subject showed minimal appropriate speech, 7 were
echolalic, and 11 were mute. According to the literature that describes
the developmental delays of autistic children in general, the autistic subjects in the present study constituted an average (or below average) sample of such children.
Posttreatment measures were recorded as follows: Between the ages
of 6 and 7 years (when a subject would ordinarily have completed first
grade), information about the subjects' first-grade placement was sought
and validated; about the same time, an IQ score was obtained. Testing
was carried out by examiners who were naive about the subjects' group
placement. Different scales were administered to accommodate different developmental levels. For example, a subject with a regular educational placement received a Wechsler Intelligence Scale for ChildrenRevised (WISC-R; Wechsler, 1974) or a Stanford-Binet Intelligence
Scale (Thorndike, 1972), whereas a subject in an autistic/retarded class
received a nonverbal test like the Merrill-Palmer Pre-School Performance Test (Stutsman, 1948). In all instances of subjects having
achieved a normal IQ score, the testing was eventually replicated by
other examiners. The scales (in order of the frequency of usage) included the WISC-R (Wechsler, 1974), the Stanford-Binet (Thorndike,
1972), the Peabody Picture Vocabulary Test (Dunn, 1981), the Wechsler Pre-School Scale (Wechsler; 1967), the Bayley Scales of Infant Development (Bayley, 1955), the Cattell Infant Intelligence Scale (Cattell,
1960), and the Leiter International Performance Scale (Leiter, 1959).
Subjects received a score of 3 for normal functioning if they received a
score on the WISC-R or Stanford-Binet in the normal range, completed
first grade in a normal class in a school for normal children, and were
advanced to the second grade by the teacher. Subjects received a score
of 2 if they were placed in first-grade in a smaller aphasia (language
delayed, language handicapped, or learning disabled) class. Placement
in the aphasia class implied a higher level of functioning than placement
in classes for the autistic/retarded, but the diagnosis of autism was almost always retained. A score of I was given if the first-grade placement
was in a class for the autistic/retarded and if the child's IQ score fell
within the severely retarded range.

Treatment Procedure
Each subject in the experimental group was assigned several well
trained student therapists who worked (part-time) with the subject in
the subject's home, school, and community for an average of 40 hr per
week for 2 or more years. The parents worked as part of the treatment
team throughout the intervention; they were extensively trained in the
treatment procedures so that treatment could take place for almost all
of the subjects' waking hours, 365 days a year. A detailed presentation
of the treatment procedure has been presented in a teaching manual
(Lovaas et al., 1980). The conceptual basis of the treatment was reinforcement (operant) theory; treatment relied heavily on discriminationlearning data and methods. Various behavioral deficiencies were targeted, and separate programs were designed to accelerate development
for each behavior. High rates of aggressive and self-stimulatory behaviors were reduced by being ignored; by the use of time-out; by the shaping of alternate, more socially acceptable forms of behavior, and (as a
last resort) by the delivery of a loud "no" or a slap on the thigh contingent upon the presence of the undesirable behavior. Contingent physical
aversives were not used in the control group because inadequate staffing

in that group did not allow for adequate teaching of alternate, socially
appropriate behaviors.
During the first year, treatment goals consisted of reducing self-stimulatory and aggressive behaviors, building compliance to elementary verbal requests, teaching imitation, establishing the beginnings of appropriate toy play, and promoting the extension of the treatment into the
family. The second year of treatment emphasized teaching expressive
and early abstract language and interactive play with peers. Treatment
was also extended into the community to teach children to function
within a preschool group. The third year emphasized the teaching of
appropriate and varied expression of emotions; preacademic tasks like
reading, writing, and arithmetic; and observational learning (learning
by observing other children learn). Subjects were enrolled only in those
preschools where the teacher helped to carry out the treatment program. Considerable effort was exercised to mainstream subjects in a
normal (average and public) preschool placement and to avoid initial
placement in special education classes with the detrimental effects of
exposure to other autistic children. This occasionally entailed withholding the subject's diagnosis of autism. If the child became known as autistic (or as "a very difficult child") during the first year in preschool, the
child was encouraged to enroll in another, unfamiliar school (to start
fresh). After preschool, placement in public education classes was determined by school personnel. All children who successfully completed
normal kindergarten successfully completed first grade and subsequent
normal grades. Children who were observed to be experiencing educational and psychological problems received their school placement
through Individualized Educational Plan (IEP) staffings (attended by
educators and psychologists) in accordance with the Education For All
Handicapped Children Act of 1975.
All subjects who went on to a normal first grade were reduced in
treatment from the 40 hr per week characteristic of the first 2 years to
10 hr or less per week during kindergarten. After a subject had started
first grade, the project maintained a minimal (at most) consultant relationship with some families. In two cases, this consultation and the subsequent correction of problem behaviors were judged to be essential
in maintaining treatment gains. Subjects who did not recover in the
experimental group received 40 hr or more per week of one-to-one treatment for more than 6 years (more than 14,000 hr of one-to-one treatment), with some improvement shown each year but with only 1 subject
recovering.
Subjects in Control Group 1 received the same kind of treatment as
those in the experimental group but with less intensity (less than 10
hr of one-to-one treatment per week) and without systematic physical
aversives. In addition, these subjects received a variety of treatments
from other sources in the community such as those provided by small
special education classes.
Control Group 2 consisted of 21 subjects selected from a larger group
(N = 62) of young autistic children studied by Freeman et al. (1985).
These subjects came from the same agency that diagnosed 95% of our
other subjects. Data from Control Group 2 helped to guard against the
possibility that subjects who had been referred to us for treatment constituted a subgroup with particularly favorable or unfavorable outcomes. To provide a group of subjects similar to those in the experimental group and Control Group 1, subjects for Control Group 2 were selected if they were 42 months old or younger when first tested, had IQ
scores above 40 at intake, and had follow-up testing at 6 years of age.
These criteria resulted in the selection of 21 subjects. Subjects in Control Group 2 were treated like Control Group 1 subjects but were not
treated by the Young Autism Project described here.

Results
Pretreatment Comparisons
Eight pretreatment variables from the experimental group
and Control Group 1 (CA at first diagnosis, CA at onset of treat-

App 164
0. IVAR LOVAAS

6

Table 1
Means and F Ratios From Comparisons Between Groups on Intake Variables
Group

Diagnosis CA

Treatment CA

PMA

Recognizable
words

Toy
play

Selfstimulation

Sum
pathology

Abnormal
speech

Experimental
Control 1

32.0
35.3
1.58

34.6
40.9
4.02*

18.8
17.1
1.49

.42
.58
.92

28.2
20.2
2.76

12.1
19.6
3.37

6.9
6.4
.82

2.4
2.2
.36

Note. CA = chronological age; PMA = prorated mental app. Experimental group, n = 19; Control Group 1, n = 19.
df = 1; 36.
p <.05.

ment, PMA, sum pathology, abnormal speech, self-stimulatory
behavior, appropriate toy play, and recognizable words) were
subjected to a multivariate analysis of variance (MANOVA;
Brecht & Woodward, 1984). The means and F ratios from this
analysis are presented in Table 1. As can be seen, there were no
significant differences between the groups except for CA at onset of our treatment (p < .05). Control subjects were 6 months
older on the average than experimental subjects (mean CAs of
35 months vs. 41 months, respectively). These differences probably reflect the delay of control subjects in their initiation into
the treatment project because of staff shortages; analysis will
show that differential CAs are not significantly related to outcome. To ascertain whether another test would reveal a statistically significant difference between the groups on toy play, descriptions of the subjects' toy play (taken from the videotaped
recordings) were typed on cards and rated for their developmental level by psychology students who were naive about the purpose of the ratings and subject group assignment. The ratings
were reliable among students (r = .79, p < .001), and an F test
showed no significant difference in developmental levels of toy
play between the two groups:
The respective means from the experimental group and Control Group 1 on the eight variables from the parent interview
were .89 and .74 for sensory deficit, .63 and .42 for adult rejection, .58 and .47 for no recognizable words, .53 and .63 for no
toy play, 1.0 and 1.0 for no peer play, .95 and .89 for body selfstimulation, .89 and .79 for tantrums, and .68 and .63 for no
toilet training. The experimental group and Control Group 1
were also similar in onset of walking (6 vs. 8 early walkers; 1 vs.
2 late walkers), number of siblings in the family (1.26 in each
group), socioeconomic status of the father (Level 49 vs. Level
54 according to 1950 Bureau of the Census standards), boys to
girls (16:3 vs. 11:8); and number of subjects referred for neurological examinations (10 vs. 15) who showed signs of damage (0
vs. 1). The numbers of favorable versus unfavorable prognostic
signs (directions of differences) on the pretreatment variables
divide themselves equally between the groups. In short, the two
groups appear to have been comparable at intake.
Follow-Up Data
Subjects' PMA at intake, follow-up educational placement,
and IQ scores were subjected to a MANOVA that contrasted the
experimental group 'with Control Groups 1 and 2. At intake,
there were no signifiCant differences between the experimental
group and the control groups. At follow-up, the experimental
group was significantly higher than the control groups on educa-

tional placement (p < .001) and IQ (p < .01). The two control
groups did not differ significantly at intake or at follow-up. In
short, data from Control Group 2 replicate those from Control
Group 1 and further validate the effectiveness of our experimental treatment program. Data are given in Table 2 that show
the group means from pretreatment PMA and posttreatment
educational placement and IQ scores. The table also shows the
F ratios and significance levels of the three group comparisons.
In descriptive terms, the 19-subject experimental group
shows 9 children (47%) who successfully passed through nor. mal first grade in a public school and obtained an average or
above average score on IQ tests (M = 107, range = 94-120).
Eight subjects (42%) passed first grade in aphasia classes and
obtained a mean IQ score within the mildly retarded range of
intellectual functioning (M = 70, range = 56-95). Only two
children (10%) were placed in classes for autistic/retarded children and scored in the profoundly retarded range (IQ < 30).
There were substantial increases in the subjects' levels of intellectual functioning after treatment. The experimental group
subjects gained on the average of 30 IQ points over Control
Group 1 subjects. Thus the number of subjects who scored
within the normal range of intellectual functioning increased
from 2 to 12, whereas the number of subjects within the moderate-to-severe range of intellectual retardation dropped from 10
to 3. As of 1986, the achievements of experimental group subTable 2
Means and F Ratios for Measures at Pretreatment
and Posttreatment
Follow-up
Group
Experimental
Control 1
Control 2
Experimental X Control I
Experimental X Control 2
Control 1 X Control 2

Intake PMA

EDP

Means
18.8
17.1
17.6

2.37
1.42
1.57

F ratios"
1.47
0.77
0.14

23.6"
17.6"
0.63

IQ
83.3
52.2
57.5

14.4..
10.4•
0.45

Note. PMA = prorated mental age; EDP = educational placement. Experimental group, n = 19; Control Group 1, n = 19; Control Group 2,
n= 21.
" df= 1, 56.
p <.01. "p < .00i.

App 165
TREATMENT OF AUTISTIC CHILDREN
Table 3
Educational Placement and Mean
and Range of IQ at Follow- Up
Group
Experimental

N

M IQ
Range
Control Group 1
N

Recovered

Aphasic

Autistic/Retarded

9
107
94-120

8

70
56-95

2
30

0

M IQ
Range
Control Group 2
N
M IQ

Range

99

8
74
30-102

11
36
20-73

10
67
49-81

10
44
35-54

Note. Dashes indicate no score or no entry.
Both children received the same score.

jects have remained stable. Only 2 subjects have been reclassified: 1 subject (now 18 years old) was moved from an aphasia
to a normal classroom after the sixth grade; 1 subject (now 13
years old) was moved from an aphasia to an autistic/retarded
class placement.
The MA and IQ scores of the two control groups remained
virtually unchanged between intake and follow-up, consistent
with findings from other studies (Freeman et al., 1985; Rutter,
1970). The stability of the IQ scores of the young autistic children, as reported in the Freeman et al. study, is particularly
relevant for the present study because it reduces the possibility
of spontaneous recovery effects. In descriptive terms, the combined follow-up data from the control groups show that their
subjects fared poorly: Only 1 subject (2%) achieved normal
functioning as evidenced by normal first-grade placement and
an IQ of 99 on the WISC-R; 18 subjects (45%) were in aphasia
classes (mean IQ = 70, range = 30-101); and 21 subjects (53%)
were in classes for the autistic/retarded (mean IQ = 40, range =
20-73). Table 3 provides a convenient descriptive summary of
the main follow-up data from the three groups.
One final control procedure subjected 4 subjects in the experimental group (Ackerman, 1980) and 4 subjects in Control
Group t (McEachin & Leaf, 1984) to a treatment intervention
in which one component of treatment (the loud "no" and occasional slap on the thigh contingent on self-stimulatory, aggressive, and noncompliant behavior) was at first withheld and then
introduced experimentally. A within-subjects replication design was used across subjects, situations, and behaviors, with
baseline observations varying from 3 weeks to 2 years after
treatment had started (using contingent positive reinforcement
only). During baseline, when the contingent-aversive component was absEnt, small and unstable reductions were observed
in the large amount of inappropriate behaviors, and similar
small and unstable increases were observed in appropriate behaviors such as play and language. These changes were insufficient to allow for the subjects' successful mainstreaming. Introduction of contingent aversives resulted in a sudden and stable
reduction in the inappropriate behaviors and a sudden and stable increase in appropriate behaviors. This experimental intervention helps to establish two points: First, at least one compo-

7

nent in the treatment program functioned to produce change,
which helps to reduce the effect of placebo variables. Second,
this treatment component affected both the experimental and
control groups in a similar manner, supporting the assumption
that the two groups contained similar subjects.
Analyses of variance were carried out on the eight pretreatment variables to determine which variables, if any, were significantly related to outcome (gauged by educational placement
and IQ) in the experimental group and Control Group 1. Prorated mental age was significantly (p < .03) related to outcome
in both groups, a finding that is consistent with reports from
other investigators (DeMyer et al., 1981). In addition, abnormal
speech was significantly (p < .01) related to outcome in Control
Group 1. Chronological age at onset of our treatment was not
related to outcome, which is important because the two groups
differed significantly on this variable at intake (by 6 months).
The failure of CA to relate to outcome may be based on the very
young age of all subjects at onset of treatment.
Conceivably, a linear combination of pretreatment variables
could have predicted outcome in the experimental group. Using
a discriminant analysis (Ray, 1982) with the eight variables
used in the first multivariate analysis, it was possible to predict
perfectly the 9 subjects who did achieve normal functioning,
and no subject was predicted to achieve this outcome who did
not. In this analysis, PMA was the only variable that was significantly related to outcome. Finally, when this prediction
equation was applied to Control Group I subjects, 8 were predicted to achieve normal functioning with intensive treatment;
this further verifies the similarity between the experimental
group and Control Group 1 prior to treatment.

Discussion
This article reports the results of intensive behavioral treatment for young autistic children. Pretreatment measures revealed no significant differences between the intensively treated
experimental group and the minimally treated control groups.
At follow-up, experimental group subjects did significantly better than control group subjects. For example, 47% of the experimental group achieved normal intellectual and educational
functioning in contrast to only 2% of the control group subjects.
The study incorporated certain methodological features designed to increase confidence in the effectiveness of the experimental group treatment:
1. Pretreatment differences between the experimental and
control groups were minimized in four ways. First, the assignment of subjects to groups was as random as was ethically possible. The assignment apparently produced unbiased groups as
evidenced by similar scores on the 20 pretreatment measures
and by the prediction that an equal number of Control Group
I and experimental group subjects would have achieved normal
functioning had the former subjects received intensive treatment. Second, the experimental group was not biased by receiving subjects with a favorable diagnosis or biased IQ testing because both diagnosis and IQ tests were constant across groups.
Third, the referral process did not favor the project cases because there were no significant differences between Control
Groups I and 2 at intake or follow-up, even though Control
Group 2 subjects were referred to others by the same agency.

App 166
8

O. IVAR LOVAAS

Fourth, subjects stayed within their groups, which preserved the
original (unbiased) group assignment.
A favorable outcome could have been caused not by the
experimental treatment but by the attitudes and expectations
of the staff There are two findings that contradict this possibility of treatment agency (placebo) effects. First, because Control
Group 2 subjects had no contact with the project, and because
there was no difference between Control Groups 1 and 2 at follow-up, placebo effects appear implausible. Second, the withinsubjects study showed that at least one treatment component
contributed to the favorable outcome in the intensive treatment
(experimental) group.
It may be argued that the treatment worked because the
subjects were not truly autistic. This is counterindicated by the
high reliability of the independent diagnosis and by the outcome data from the control groups, which are consistent with
those reported by other investigators (Brown, 1969; DeMeyer
et al., 1973; Eisenberg, 1956; Freeman et al., 1985; Havelkova,
1968; Rutter 1970) for groups of young autistic children diagnosed by a variety of other agencies.
The spontaneous recovery rate among very young autistic
children is unknown, and without a control group the favorable
outcome in the experimental group could have been attributed
to spontaneous recovery. However, the poor outcome in the similarly constituted Control Groups 1 and 2 would seem to eliminate spontaneous recovery as a contributing factor to the favorable outcome in the experimental group. The stability of the IQ
test scores in the young autistic children examined by Freeman
et al. (1985) attests once again to the chronicity of autistic behaviors and serves to further negate the effects of spontaneous
recovery.
Posttreatment data showed that the effects of treatment
(a) were substantial and easily detected, (b) were apparent on
comprehensive, objective, and socially meaningful variables
(IQ and school placement), and (c) were consistent with a very
large body of prior research on the application of learning theory to the treatment and education of developmentally disabled
persons and with the very extensive (100-year-old) history of
psychology laboratory work on learning processes in man and
animals. In short, the favorable outcome reported for the intensive-treatment experimental group can in all likelihood be attributed to treatment.
A number of measurement problems remain to be solved.
For example, play, communicative speech, and IQ scores define
the characteristics of autistic children and are considered predictors of outcome. Yet the measurement of these variables is
no easy task. Consider play. First, play undoubtedly varies with
the kinds of toys provided. Second, it is difficult to distinguish
low levels of toy play (simple and repetitive play associated with
young, normal children) from high levels of self-stimulatory behavior (a psychotic attribute associated with autistic children).
Such problems introduce variability that needs immediate attention before research can proceed in a meaningful manner.
The term normal functioning has been used to describe children who successfully passed normal first grade and achieved an
average IQ on the WISC—R. But questions can be asked about
whether these children truly recovered from autism. On the one
hand, educational placement is a particularly valuable measure
of progress because it is sensitive to both educational accomplishments and social-emotional functions. Also, continual

promotion from grade to grade is made not by one particular
teacher but by several teachers. School personnel describe these
children as indistinguishable from their normal friends. On the
other hand, certain residual deficits may remain in the normal
functioning group that cannot be detected by teachers and parents and can only be isolated on closer psychological assessment, particularly as these children grow older. Answers to such
questions will soon be forthcoming in a more comprehensive
follow-up (McEachi n, 1987).
Several questions about treatment remain. It is unlikely that
a therapist or investigator could replicate our treatment program for the experimental group without prior extensive theoretical and supervised practical experience in one-to-one behavioral treatment with developmentally disabled clients as described here and without demonstrated effectiveness in teaching
complex behavioral repertoires as in imitative behavior and abstract language. In the within-subjects studies that were reported, contingent aversives were isolated as one significant
variable. It is therefore unlikely that treatment effects could be
replicated without this component. Many treatment variables
are left unexplored, such as the effect of normal peers. Furthermore, the successful mainstreaming of a 2-4-year-old into a
normal preschool group is much easier than the mainstreaming
of an older autistic child into the primary grades. This last point
underscores the importance of early intervention and places
limits on the generalization of our data to older autistic children.
Historically, psychodynamic theory has maintained a strong
influence on research and treatment with autistic children,
offering some hope for recovery through experiential manipulations. By the mid- 1960s, an increasing number of studies reported that psychodynamic practitioners were unable to deliver
on that promise (Rimland, 1964). One reaction to those failures
was an emphasis on organic theories of autism that offered little
or no hope for major improvements through psychological and
educational interventions. In a comprehensive review of research on autism, DeMyer et al. (1981) concluded that "[in the
past] psychotic children were believed to be potentially capable
of normal functioning in virtually all areas of development . . .
during the decade of the 1970s it was the rare investigator who
even gave lip-service to such previously held notions „ . infantile autism is a type of developmental disorder accompanied by
severe and, to a large extent, permanent intellectual/behavioral
deficits" (p. 432).
The following points can now be made. First, at least two
distinctively different groups emerged from the follow-up data
in the experimental group. Perhaps this finding implies different etiologies. If so, future theories of autism will have to identify these groups of children. Second, on the basis of testing to
date, the recovered children show no permanent intellectual or
behavioral deficits and their language appears normal, contrary
to the position that many have postulated (Rutter, 1974; Churchill, 1978) but consistent with Kanner's (1943) position that
autistic children possess potentially normal or superior intelligence. Third, at intake, all subjects evidenced deficiencies
across a wide range of behaviors, and during treatment they
showed a broad improvement across all observed behaviors.
The kind of (hypothesized) neural damage that mediates a particular kind of behavior, such as language (Rutter, 1974), is not
consistent with these data.

App 167
TREATMENT OF AUTISTIC CHILDREN

Although serious problems remain for exactly defining autism or identifying its etiology, one encouraging conclusion can
be stated: Given a group of children who show the kinds of behavioral deficits and excesses evident in our pretreatment measures, such children will continue to manifest similar severe
psychological handicaps later in life unless subjected to intensive behavioral treatment that can indeed significantly alter that
outcome.
These data promise a major reduction in the emotional hardships of families with autistic children. The treatment procedures described here may also prove equally effective with other
childhood disorders, such as childhood schizophrenia. Certain
important, practical implications in these findings may also be
noted. The treatment schedule of subjects who achieved normal
functioning could be reduced from 40 hr per week to infrequent
visits even after the first 2 years of treatment. The assignment
of one full-time special-education teacher for 2 years would cost
an estimated $40,000, in contrast to the nearly $2 million incurred (in direct costs alone) by each client requiring life-long
institutionalization.

References
Ackerman, A. B. (1980). The contribution of punishment to the treatment of preschool aged children. Unpublished doctoral dissertation,
University of California, Los Angeles.
American Psychiatric Association. (1980). Diagnostic and statistical
manual of mental disorders (3rd ed.). Washington, DC: Author.
Bayley, N. (1955). On the growth of intelligence. American Psychologist,

10. 805-818.
Brecht, M. L., & Woodward, J. A. (1984). GANOVA: A univariate/multivariate analysis of variance program for the personal computer. Educational and Psychological Measurement, 44.169-173.
Brown, J. (1969). Adolescent development of children with infantile
psychosis. Seminars in Psychiatry. 1, 79-89.

Cattell, P. (1960). The measurement of intelligence of infants and young
children, New York: Psychological Corporation.
Churchill, D. W. (1978). Language: The problem beyond conditioning.
In M. Rutter & E. Schopler (Eds.), Autism: A reappraisal of concepts
and treatment (pp. 71-85). New York: Plenum.
DeMyer, M. K., Barton, S., DeMyer, W. E., Norton, 1. A., Allen, J., &
Steele, R. (1973). Prognosis in autism: A follow-up study. Journal of
Autism and Childhood Schizophrenia, 3,199-246.
DeMyer, M. K., Hingtgen, J. N., & Jackson, R. K. (1981). Infantile
autism reviewed: A decade of research. Schizophrenia Bulletin. 7,
388-451.
Doll, E. A. (1953). The measurement of social competence. Minneapolis, MN: Minneapolis Educational Test Bureau.
Dunn, L. M. (1981). Peabody Picture Vocabulary Test. Circle River,
MI: American Guidance Service.

9

Education for All Handicapped Children Act of 1975. Washington, DC:

Congressional Record.
Eisenberg, L. (1956). The autistic child in adolescence. American Journal of Psychiatry: 112, 607-612.
Freeman, B. J., Ritvo, E. R., Needleman, R., & Yokota, A. (1985). The
stability of cognitive and linguistic parameters in autism: A 5-year
study. Journal ofthe American Academy of Child Psychiatry 24, 290311.
Gesell, A. (1949). Gesell Developmental Schedules. New York: Psychological Corporation.
Havelkova, M. (1968). Follow-up study of 71 children diagnosed as psychotic in preschool age. American Journal of Orthop.sychiatry 38,
846-857.
Kanner, L. (1943). Autistic disturbances of affective contact. Nervous
Child, 2, 217-250.
Leiter, R. G. (1959). Part I of the manual for the 1948 revision of the
Leiter International Performance Scale: Evidence of the reliability
and validity of the Leiter tests. Psychology Service Center Journal,
I1. 1-72.
Lotter, V. (1967). Epidemiology of autistic conditions in young children:
II. Some characteristics of the parents and children. Social Psychia-

try, 1,163-173.
Lovaas, O. 1., Ackerman, A. B., Alexander. D.. Firestone. P.. Perkins, J.,
& Young, D. (1980). Teaching developmentally disabled children:
The me hook. Austin, TX: Pro-Ed.
Lovaas, 0.1., Koegel, R. L.. Simmons, J. Q., & Long, J. (1973). Some
generalization and follow-up measures on autistic children in behavior therapy. Journal of Applied Behavior Analysis, 6, 131-166.
McEachin, J. J. (1987). Outcome of autistic children receiving intensive
behavioral treatment: Residual deficits. Unpublished doctoral dissertation, University of California, Los Angeles.
McEachin, J. J., & Leaf, R. 13. (1984, May). The role of punishment in
motivation of autistic children. Paper presented at the convention of
the Association for Behavior Analysis, Nashville, TN.
Ray, A. A. (1982). Statistical Analysis System user's guide: Statistics,
1982 edition. Cary, NC: SAS Institute.
Rimland, B. (1964). Infantile autism. New York: Appleton-CenturyCrofts.
Rutter, M. (1970). Autistic children: Infancy to adulthood. Seminars in
Psychiatry, 2, 435-450.
Rutter, M. (1974). The development of infantile autism. Psychological
Medicine, 4,147-161.
Stutsman. R. (1948). Guide for administering the Merrill-Palmer Scale
of Menial Tests. New York: Harcourt, Brace & World.
Thorndike, R. L. (1972). Manual for Stanford-Binet Intelligence Scale.
Boston: Houghton Mifflin.
Wechsler, D. (1967). Manual for the Wechsler Pre-School and Primary
Scale of Intelligence. New York: Psychological Corporation.
Wechsler, D. (1974). Manual for the Wechsler Intelligence Scale for
Children-Revised. New York: Psychological Corporation.

Received October 10, 1985
Revision received March 28, 1986 •

Case 1:17-cv-00501 I .EK-CFH Dnu m1e6rg 95 Filed 02/20/19 Page 1 of 28
p

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
A.S., et aL,
Plaintiffs,
-against-

1:17-CV-0501 (LEK/CFH)

BOARD OF EDUCATION
SHENENDEHOWA CENTRAL SCHOOL
DISTRICT, et al.,
Defendants.

MEMORANDUM-DECISION AND ORDER
I.

INTRODUCTION
Plaintiffs R.S. and E.S. and their minor son, A.S., bring this action, pro se, against the

Shenendehowa Central School District Board of Education ("District") and MaryEllen Elia,
Commissioner of the State University of New York. Dkt. Nos. 1 ("Complaint"), 10 ("First
Amended Complaint" or "FAC"), 76 ("Second Amended Complaint" or "SAC").' Plaintiffs
allege violations of the Individuals with Disabilities Act ("IDEA"),2 20 U.S.C. § 1400, et seq.;

1 Plaintiffs also initially named Chief State Review Officer ("SRO") Justyn Bates as a
defendant, but the Court has already dismissed with prejudice all claims against Bates. Dkt. No.
71 ("December 2017 Order") at 16.
2 Although the Court of Appeals for the Second Circuit has specifically held that
non-lawyer parents do not have the right to represent their children in proceedings before a
federal court, see Tindall v. Poultney High Sch. Dist., 414 F.3d 281, 284 (2d Cir. 2005), the
United States Supreme Court has held that parents have "independent, enforceable rights" under
IDEA, Winkelman ex rel. Winkelman v. Parma City Sch. Dist., 550 U.S. 516, 532 (2007).
Therefore, when parents file a complaint on their own behalf as well as on behalf of their minor
child, and the complaint asserts independent claims for reimbursement, as is the case here, they
are entitled to proceed in an action pro se. A.P. v. Woodstock Bd. of Educ., 370 F. App'x 202,
204 n.2 (2d Cir. 2010).

Case 1:17-cv-00501-I_EK-CFH Docueat
m 95 Filed 02/20/19 Page 2 of 28
pp

§ 504 of the Rehabilitation Act, 29 U.S.C. § 701, et seq.; the Fourteenth Amendment's vagueness

doctrine; and the Americans with Disabilities Act ("ADA"), 42 U.S.C. § 2000d-7. SAC. Now
before the Court are Defendants' motions for summary judgment. Dkt. Nos. 86 ("Elia SJ
Motion"), 86-1 ("Elia Statement of Material Facts" or "Elia SMF"), 86-2 ("Elia Memorandum"),
88 ("District SJ Motion"), 88-6 ("District SMF"), 88-7 ("District Memorandum"). For the
reasons that follow, Defendants' Summary Judgment Motions are granted, and the case is
dismissed.
II.

BACKGROUND
A. IDEA
IDEA's primary purpose is to ensure students with disabilities receive a free appropriate

public education ("FAPE"), that "emphasizes special education and related services designed to
meet students' unique needs and prepare them for further education, employment, and
independent living." § 1400(d)(1)(A); Frank G. v. Bd. of Educ. of Hyde Park, 459 F.3d 356, 371
(2d Cir. 2006). IDEA requires schools to maintain a written individualized education program
("IEP") for each student with a disability. § 1414(d). Each student's IEP is developed by the
relevant school district's Committee on Special Education ("CSE"), and must be "reasonably
calculated to enable the child to receive educational benefits." Bd. of Educ. of Hendrick Hudson
Cent. Sch. Dist. v. Rowley, 458 U.S. 176, 207 (1982).
A party may commence an administrative proceeding challenging an IEP as failing to
provide a FAPE by filing a written complaint with the relevant school district, which will require
an administrative hearing before an Impartial Hearing Officer ("1110") selected from a list of
approved IHOs maintained by the district. § 1415(f). Any party wishing to seek relief from the
2

Case 1:17-cv-00501-I_EK-CFH Docuent
m 95 Filed 02/20/19 Page 3 of 28
App 17U

IHO's decision may appeal the IHO's findings to the relevant state educational agency. §1415(g).

The agency's State Review Officer ("SRO") is then required to conduct an impartial review of
the IHO's decision. § 1415(g). If not appealed, the IHO's decision is final. § 1415(i)(1)(A).
Further, the SRO's decision is final unless a party to that decision commences, as Plaintiffs have
done here, an action in federal district court pursuant to § 1415(i)(2)(A). § 1415(i)(1)(B).
B. Factual Background
A.S. is a seven-year-old boy with Autism Spectrum Disorder ("ASD"). SAC ¶ 1; Dist.
SMF ¶¶ 1-2; Elia SMF ¶ 1. A.S. initially received special education services in late 2012, but
these services were terminated when Plaintiffs moved out of the country. Dkt. No. 35-2 ("SRO
Decision") at 2; Elia SMF ¶ 3. In June 2014, after returning to the United States, A.S. was
evaluated and found eligible for special education and related services. SRO Decision at 2-3;
Elia SMF. If 4. Over the next year, A.S.'s program was modified by the District CSE multiple
times. SRO Decision at 3-4; Elia SMF 455.
A.S. began the 2015-2016 school year as a kindergarten student attending the District's
elementary school. Dist. SMF ¶ 9; SAC ¶ 10. Pursuant to New York Education Law § 3202, A.S.
was not of compulsory school attendance age during the 2015-16 school year. Dist. SMF ¶10.
In October 2015, Plaintiffs expressed concerns to the school about A.S.'s placement.
SRO Decision at 4-5; SAC Tif 12-13; Elia SMF ¶ 6; Dist. SMF Tif 11-12. The District CSE
reconvened and, on October 22,2015, produced a revised IEP for the 2015-16 school year. IHO
Ex. 32. The parents then executed a first due process complaint notice challenging the IEP. SRO
Decision at 4-5; SAC iirri 12, 13; Elia SMF ¶ 6; Dist. SMF ¶ 11-12. They executed a second due
process complaint notice in November 2015. SRO Decision at 5; SAC ¶ 1; Elia SMF ¶ 7; Dist.

Case 1:17-cv-00501-LEK-CFH Dnument 95 Filed 02/20/19 Page 4 of 28
p i ii

SMF ¶ 13. In response to these complaints, Plaintiffs met with a subcommittee of the CSE on

November 23, 2015, and the parties reached a resolution agreement, signed on December 4,
2015, that withdrew the due process complaints regarding the 2015-16 IEP. SRO Decision at
5-6, 41; SAC ¶¶ 16-17; Elia SMF '03; IHO Ex. 39; IHO Tr. at 860-63.3 Pursuant to this
agreement, Plaintiffs withdrew A.S. from the District's schools and enrolled him in the
Newmeadow Preschool as a general education preschool student for the remainder of the
2015-16 school year, with a speCified schedule of speech and occupational therapy. SAC ¶ 16;
Dist. SMF ¶ 15; 1140 Ex. 39.
In spring 2016, the District held a CSE meeting to complete an annual review and
develop an IEP for A.S. for the 2016-17 school year, when he would be of compulsory
attendance age and required to attend kindergarten. SRO Decision at 6; SAC ¶ 77; Elia SMF ¶ 9;
Dist. SMF ¶ 19. A.S.'s IEP provided for him to attend the District's general education
kindergarten class for the half-day that students without a disability typically attend kindergarten;
in addition, it provided for A.S. to attend a special education class with a student to staff ratio not
to exceed 12:1:1 (twelve students, with one certified special education teacher and one teaching
assistant) for two hours per day (the District's "Connections" program). Dist. SMF ¶ 21; IHO
Exs. 45, 46. In addition, A.S. would receive occupational and speech therapy six times per
month. IHO Ex. 45 at 7. The IEP also recommended certain supplementary aids and services,
program modifications, and accommodations. Id. at 7-8. The IEP did not specify that A.S. would
be instructed pursuant to Applied Behavior Analysis ("ABA"), an instructional methodology

The IHO Hearing Exhibits and ITIO Hearing Transcript are included as files within the
administrative record filed with the Clerk's office as Docket Numbers 31 and 32.
3

4

Case 1:17-cv-00501-LEK-CFH DQCU MQM 95 Filed 02/20/19 Page 5 of 28
App 172

used with students with autism, as Plaintiffs had requested. SAC ¶ 24; Dist. SMF ¶ 22. However,
the IEP did specify that school personnel would be trained in ABA. IHO Ex. 45 at 8. Unsatisfied
with the IEP, Plaintiffs did not send A.S. to the District school for the 2016-17 school year until
February 17, 2017. SAC ¶ 40; Dist. SMF ¶ 24. Instead, they home-schooled A.S., and also placed
him in daycare part-time. SRO Decision at 42; SAC ¶ 40; IHO Tr. at 20-22.
On August 5, 2016, Plaintiffs filed a due process complaint regarding the 2016-17 IEP,
alleging that A.S. "could not take advantage of an education not grounded in the principles of
[ABA] [and] more specifically it was unconditionally clear that [A.S.] needed a comprehensive
ABA program in order to make progress." IHO Ex. 1 at 1; Elia SMF ¶ 10; SAC ¶ 31; Elia SMF
10; Dist. SMF ¶ 23. Plaintiffs requested that A.S. either be reclassified to return to the preschool
setting for 2016-17, or else that the District "establish an integrated ABA classroom." IHO Ex. 1
at 50-53. The parents indicated that the proposed ABA classroom must offer a full-day program,
and that all therapists, special education teachers, and the school principal must be trained in
function-based intervention and discrete trial training. Id. Further, the parents required that the
"lead teacher" of the proposed ABA classroom have, "at a minimum," Board Certified Behavior
Analyst ("BCBA") certification; that all assistants and therapists receive training in ABA
interventions; and that the District acquire, with a "guaranteed minimum budget of $25,000," "all
necessary items to set up an ABA classroom." Id.
A hearing before an IHO regarding the due process complaint was held in October 2016.
SRO Decision at 9; SAC ¶ 42; Elia SMF ¶ 11; Dist. SMF ¶ 6-7; IHO Tr. On December 30, 2016,
the IHO ruled that the District had provided A.S. with a FAPE as required by law. Dkt. No. 82-2
("IHO Decision"); SRO Decision at 9; SAC ¶ 42; Elia SMF ¶ 12.

Case 1:17-cv-00501-LEK-CFH DQCUMeat 95 Filed 02/20/19 Page 6 of 28
App 1.73

Plaintiffs appealed. On April 6, 2017, SRO Bates determined on April 6, 2017, that while
the IEP was otherwise upheld, the District had failed to satisfy its least restrictive environment
("LRE") requirement for the 2016-17 school year. SRO Decision at 43; Dist. SMF ¶ 27. SRO
Bates ordered the District to determine the extent to which A.S. should be placed with nondisabled peers in order to satisfy the LRE required under IDEA. Id. The SRO also found that the
IHO erred by sua sponte concluding that the District did not commit any procedural violations,
when the parties had not themselves raised that issue. SRO Decision at 19. The SRO also found
that Plaintiffs were not owed any tuition reimbursement for their home instruction, whether as a
pendency placement or unilateral placement. Id. at 41-42. The SRO also upheld the 1110's
evidentiary decisions. Id. at 14-16.
After the SRO Decision and commencement of this action, the District's CSE developed
a new IEP for A.S. for the 2017-18 school year, when he was in first grade; and his parents did
not appeal that IEP. Dist. SMF ¶ 40.
C. Procedural Background
Plaintiffs filed suit on May 9, 2017, seeking review of the SRO decision regarding A.S.'s
2016-17 IEP, and challenging the state regulations that implement IDEA. Compl. Plaintiffs
submitted the Amended Complaint on July 7, 2017. Am. Compl. On August 3, 2017, Plaintiffs
submitted an ex parte motion for a preliminary injunction, seeking payment for expenses related
to a proposed family move to a different school district, including "reasonable increases in cost
of living, all rent increases necessary . . . and income and benefits lost . . . as a result of
relocation." Dkt. No. 27 ("PI Motion") at 5.

6

Case 1:17-cv-00501-LEK-CFH DOCUMext 95 Filed 02/20/19 Page 7 of 28
App 174

The Court denied the PI Motion on August 7, 2017. Dkt. No. 29 ("August Order"). The
District answered the Amended Complaint on August 11, 2017, Dkt. No. 36 ("Answer"), and
SRO Bates and Elia jointly moved to dismiss, Dkt. No. 35 ("Motion to Dismiss").
On December 13, 2017, the Court granted in part and denied in part the Motion to
Dismiss. Dkt. No. 71 ("December 2017 Order") at 16. Specifically, the Court dismissed with
prejudice all claims against Bates, on the basis of absolute judicial immunity. Id. at 7-9, 16.
Further, the Court dismissed against Elia all state law claims, all claims under § 504 of the
Rehabilitation Act, and all claims under IDEA. Id. at 16. The Court granted Plaintiff leave to
amend. Id. at 15.
On January 22, 2018, Plaintiff filed a Second Amended Complaint, to which Defendants
filed answers. SAC; Dkt. Nos. 78 ("District Answer"), 79 ("Elia Answer"). After settlement talks
proved unfruitful, Dkt. Nos. 82, 84-85, 89, Defendants filed the Summary Judgment Motions
now before the court, District SJ Motion; Elia SJ Motion. Plaintiffs have not responded. Docket.
III. LEGAL STANDARD
A. Mootness
Defendants raise mootness as a defense against certain of Plaintiffs' claims regarding the
2016-17 IEP, since that school year has passed, and Plaintiffs have not contested the subsequent
IEP. Dist. Mem. at 13.
A party seeking to have a case dismissed as moot bears a heavy burden. Harrison &
Burrowes Bridge Constructors, Inc. v. Cuomo, 981 F.2d 50, 59 (2d Cir. 1992). There is no
question that "Article III of the Constitution limits federal 'judicial Power,' that is, federal-court
jurisdiction, to 'Cases' and 'Controversies.' " U.S. Parole Comm'n v. Geraghty, 445 U.S. 388,

Case 1:17-cv-00501-LEK-CFH DIOCUMut 95 Filed 02/20/19 Page 8 of 28
App 175

395 (1980). However, the Supreme Court has "recognized an exception to the general rule
[regarding mootness dismissals] in cases that are capable of repetition, yet evading review."
Murphy v. Hunt, 455 U.S. 478, 482 (1982).
Judicial review of IEP challenges "invariably takes more than nine months to complete,
not to mention the time consumed during the preceding state administrative hearings." Rowley,
458 U.S. at 186 n. 9. During the time of appeal and court review, a student has typically moved
on to the subsequent grade. Such advances in grade level during the slow machinations of an IEP
appeal should not eliminate the possibility of judicial review on mootness grounds. Here, the
controversy over A.S.'s special education services is reasonably likely to recur. A.S. has another
decade of schooling, during which he will continue to receive special education services, his
parents will likely continue to perceive ABA methodology as essential, and the district will likely
continue to resist imposing a fully integrated ABA program of the sort the parents have sought.
Plaintiff's issues with 2016-17 IEP are therefore "capable of repetition, yet evading review," and
are not moot. Independent of the Plaintiffs' claim for review of the SRO Decision on the merits,
this case presents a live controversy because Plaintiff seeks compensatory education benefits
arising out of A.S.'s statutory pendency entitlements.
B. IDEA claims
"IDEA actions generally are resolved on summary judgment." S.H. v. N.Y.C. Dep't of
Educ., No. 10-CV-1041, 2011 WL 666098, *2 (S.D.N.Y. Feb. 15, 2011). Summary judgment in
the IDEA context, however, is unique. "[T]he procedure is in substance an appeal from an
administrative determination, not a summary judgment motion." M.H. v. N.Y.C. Dep't of Educ.,
685 F.3d 217, 226 (2d Cir. 2012) (internal quotation marks and brackets omitted). It "involves
8

Case 1:17-cv-00501-LEK-CFH Dnumpig 95 Filed 02/20/19 Page 9 of 28
p

more than looking into disputed issues of fact; rather, it is a pragmatic procedural mechanism for
reviewing administrative decisions."A.C. ex rel. M.C. v. Bd. of Educ., 553 F.3d 165, 171 (2d
Cir. 2009) (internal quotation marks omitted). The inquiry is directed at "whether the
administrative record, together with any additional evidence, establishes that there has been
compliance with IDEA's processes and that the child's educational needs have been
appropriately addressed." D.C. ex rel. E.B. v. N.Y.C. Dep't of Educ., 950 F. Supp. 2d 494, 498
n.1 (S.D.N.Y. 2013) (internal quotation marks omitted).
When considering a summary judgment motion filed in connection with an IDEA action,
"a district court must conduct an independent review of the administrative record, along with any
additional evidence presented by the parties, and must determine by a preponderance of the
evidence whether the IDEA's provisions have been met." Id. at 498; 20 U.S.C. § 1415(i)(2)(c).
This independent review is "by no means an invitation to the courts to substitute their own
notions of sound educational policy for those of the school authorities which they review."
Rowley, 458 U.S. at 206. Rather, the review is "circumscribed;" a district court "must give due
weight to the administrative proceedings, mindful that the judiciary generally lacks the
specialized knowledge and experience necessary to resolve persistent and difficult questions of
educational policy." A.C. ex rel. M.C. 553 F.3d at 171 (internal quotation marks omitted). This
standard of review "requires a more critical appraisal of the agency determination than clear-error
review but nevertheless falls well short of complete de novo review." M.H. 685 F.3d at 244
(internal quotation marks and alterations omitted).
When "the decisions of an IHO and a SRO conflict, the Court should generally defer to
the SRO's decision, as the final decision of the state authorities." F.B. v. N.Y.C. Dep't of Educ.,

Case 1:17-cv-00501-LEK-CFH Document95 Filed 02/20/19 Page 10 of 28
App 177

923 F. Supp. 2d 570, 578 (S.D.N.Y.2013). This is particularly true "when the state officer's
review has been thorough and careful." Id. However, where the district court "appropriately
concludes that the SRO's determinations are insufficiently reasoned to merit that deference, and
in particular where the SRO rejects a more thorough and carefully considered decision of an
IHO, it is entirely appropriate for the court, having in its turn found the SRO's conclusions
unpersuasive even after appropriate deference is paid, to consider the IHO's analysis, which is
also informed by greater educational expertise than that of judges." Id. Further, "courts should
defer to the IHO's analysis when considering an issue not reached by the SRO." C.F. ex rel. R.F.
v. N.Y.C. Dep't of Educ., 746 F.3d 68, 77 (2d Cir. 2014).
The Second Circuit has provided guidance as to which administrative determinations are
due most deference. "[D]eterminations regarding the substantive adequacy of an IEP should be
afforded more weight than determinations concerning whether the IEP was developed according
to the proper procedures." M.H., 685 F.3d at 244. "Decisions involving a dispute over an
appropriate educational methodology should be afforded more deference than determinations
concerning whether there have been objective indications of progress." Id. Determinations that
are "grounded in thorough and logical reasoning" merit more deference than those that are not.
Id. Finally, "the district court should afford more deference when its review is based entirely on
the same evidence as that before the SRO"—the case here—"than when the district court has
before it additional evidence that was not considered by the state agency." Id.
In sum, "judicial review of administrative decisions under the IDEA requires the court
(1) to conduct an independent review of the administrative record, (2) to use a preponderance of
the evidence standard, and (3) to give deference to the administrative determinations, particularly
10

Case 1:17-cv-00501-LEK-CFH Document95 Filed 02/20/19 Page 11 of 28
App 178

that of the SRO." F.L. ex rel. F.L. v. N.Y.C. Dep't of Educ., No. 11-CV-5131, 2012 WL
4891748, at *5 (S.D.N.Y. Oct. 16, 2012), aff d, 553 F. App'x 2 (2d Cir. 2014) (summary order).
C. Non-IDEA claims
As to Defendants' Motions for Summary Judgment on non-IDEA claims, the standard
summary judgment standard of review applies. "[S]ummary judgment is proper 'if the pleadings,
depositions, answers to interrogatories, and admissions on file, together with the affidavits, if
any, show that there is no genuine issue as to any material fact and that the moving party is
entitled to a judgment as a matter of law.'" Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986)
(quoting Fed. R. Civ. P. 56(c)). A fact is "material" if it "might affect the outcome of the suit
under the governing law." Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). The Court
may ignore factual disputes that are "irrelevant" or "unnecessary." Id. "Summary judgment will
not lie if the dispute about a material fact is "genuine," that is, if the evidence is such that a
reasonable jury could return a verdict for the nonmoving party." Id. "In making that
determination, the court is to resolve all ambiguities and draw all permissible factual inferences
in favor of the party against whom summary judgment is sought." Patterson v. County of Oneida,
375 F.3d 206, 219 (2d Cir. 2004).
II. DISCUSSION
Plaintiffs list fifteen "causes of action." SAC ¶¶ 77-192. The first through seventh causes
of action are "in substance an appeal," M.H., 685 F.3d at 226, pursuant to IDEA, of the SRO
Decision regarding the District's 2016-17 IEP on the basis of various alleged errors. SAC
77-137, 189-92. Plaintiffs' ninth, tenth, and fifteenth causes of actions—asserted against the
District and Elia—assert that New York's regulations regarding students with disabilities,
11

Case 1:17-cv-00501-LEK-CFH Document 95 Filed 02/20/19 Page 12 of 28
App 17

codified at 8 N.Y.C.R.R. § 200, violate § 504 of the Rehabilitation Act, IDEA, and the
Fourteenth Amendment's vagueness doctrine. SAC ¶¶ 137-92. Plaintiffs' other claims (the
eighth and eleventh through fourteenth causes of action), raise placement and procedural issues
that were not raised in Plaintiffs' August 5,2016 due process complaint, id. TT 59-62,185-88.
and are therefore unexhausted and not properly before this Court. Cave v. E. Meadow Union Free
Sch. Dist., 514 F.3d 240,245 (2d Cir. 2008) (citing § 1415(i)(2)(A)).
A. IDEA Appeal
The SRO's 44—page decision reflects a comprehensive review of the record and
articulates clear explanations for each conclusion. It parses the parties' arguments in great detail
and contains ample citations to the record in support of each finding. The SRO recognized that
Plaintiffs' primary dispute was that the 2016-17 IEP did not specify "a full-day, integrated
intensive ABA program, modeled on the preschool program, and that provided the student with
40 hours per week of intensive ABA." SRO Decision at 33.
The SRO addressed the student's educational needs and whether those were such that
only instruction utilizing the ABA methodology would enable his educational progress. The SRO
properly noted that, generally, an lEP does not specify a methodology, but instead leaves that
decision to the school. Id. at 35; see F.L., 2012 WL 4891748, at *9 ("[P]arents are not entitled to
choose an educational methodology under the IDEA."). The SRO examined the hearing record
and concluded that there was no evidence in the record that the student "required—in other
words be exclusively limited to—an intensive ABA program." SRO Decision at 36-39.
The record, amply cited by the SRO, supports this conclusion, showing that the student
had already received instruction using both ABA and non-ABA methodologies, and made
12

Case 1:17-cv-00501-LEK-CFH Docume8u
nt 95 Filed 02/20/19 Page 13 of 28
App 1

progress in individual and small group settings, as well as in larger group settings with adult
support. Id. at 33-39. From September 2015 through November 2015, A.S. attended the
District's half-day, integrated kindergarten, and the Connections special education class for the
remainder of the day. IRO Tr. at 207-08, 211, 466; NO Ex. 28 at 1, 7. At the impartial hearing,
the special education teacher who taught the Connections class testified that when A.S. started
the Connections program in September 2015, he was "very quiet" and needed extensive support
to sit and attend the mainstream classroom. IHO Tr. at 207-14. However, the evidence in the
record shows that by mid-October, A.S. began performing his morning routine more
independently, including getting his own snack, sitting at the table and waiting for directions,
waiting to be called for lunch with no prompts, and following the calendar routine. NO Ex. 30,
IHO Tr. at 211-12. Further, A.S.'s November 2015 speech-language update showed "steady
progress," and indicated that he had increased his "use of English words" throughout the school
day, including by "labeling school items, a variety of animals, action words, and body parts, as
well as answering questions." IHO Ex. 33 at 3. A cognitive skills update also detailed A.S.'s
progress in following routines and acting independently. Id. at 4. And while Plaintiffs have
argued that A.S.'s behavior declined during that period, testimony by his special education
teacher as well as a language pathologist noted his progress in this area as of November 2015.
IHO Tr. at 236, 591, 597, 603, 605-07; IHO Ex. 35 at 4. Finally, the preschool speechpathologist testified that A.S. made progress in both ABA and non-ABA approaches. 1110 Tr.
660-63, NO Ex. 41.

13

Case 1:17-cv-00501-LEK-CFH Docume81
nt 95 Filed 02/20/19 Page 14 of 28
App 1

As to the appropriateness of the Corrections program, the record also included testimony
about the research-based strategies the Corrections program was based upon, and the training
required of the District's special education teachers. IHO Tr. at 489, 956-65; I110 Ex. 50.
At the I110 Hearing, the parents highlighted a doctor's report that the school "should
consider a comprehensive [ABA] approach." IHO Tr. at 529-30, 572; 1110 Ex. P-JJ at 1; IHO
Ex. 1 at 21. The parents indicated that the doctor believed that the ABA program was truly
essential for A.S., but had felt uncomfortable stating this explicitly in a report. 1110 Tr. 530-32.
Yet the doctor did not testify at the 1110 Hearing, and the SRO could reasonably discount the
parents' characterization of the doctor's stance given the doctor's report. SRO Decision at 36.
The Court finds that the SRO Decision was "thorough and careful" and therefore entitled
to deference. M.H., 685 F.3d at 241. With that due deference in mind, the Court will now review
each of the IDEA violations alleged by Plaintiff. In sum, though, after a review of the
administrative record and the parties' filings in this litigation, the Court finds, by a
preponderance of the evidence, that the requirements of IDEA "have been met" here. D.C. ex rel.
E.B., 950 F. Supp. 2d at 498.
1. Pendency Placement (First Cause of Action)
Plaintiffs allege that the SRO erred in his determination regarding A.S.'s "pendency
placement." SAC IN 77-81; SRO Decision at 41. Plaintiffs claim that A.S.'s pendency placement
was home-based instruction, and Plaintiffs are therefore due reimbursement for that home-based
instruction. Id.
IDEA requires that a student remain in his or her "then-current educational placement,"
unless the school and parents otherwise agree, during the pendency of an impartial hearing and
14

Case 1:17-cv-00501-LEK-CFH Document 95 Filed 02/20/19 Page 15 of 28
82

any subsequent appeals. § 1415(j). "[Section 1415(j) represents] Congress's policy choice that all
handicapped children, regardless of whether their case is meritorious or not, are to remain in their
current educational placement until the dispute with regard to their placement is ultimately
resolved." Mackey ex rel. Thomas M., 386 F.3d at 160-61 (internal quotation marks omitted).
The "current" program has been understood as that "described in the child's most recently
implemented IEP." Mackey ex rel. Thomas M. v. Bd. of Educ. for Arlington Sch. Dist., 386 F.3d
158, 163 (2d Cir. 2004). And the relevant "placement" has been interpreted to mean the "same
general level and type of services . . . [or] type of educational program" described in the last IEP,
not the right to placement at a particular school. T.M. ex rel. A.M. v. Cornwall Cent. Sch. Dist.,
752 F.3d 145, 171 (2d Cir. 2014) (internal quotation marks omitted). However, any pendency so
created will be superceded if there is an agreement between the parties on placement during the
course of a proceeding, whether or not it is reduced to a new IEP. Bd. of Educ. of Pawling Cent.
Sch. Dist. v. Schutz, 137 F. Supp. 2d 83 (N.D.N.Y.2001), aff d, 290 F.3d 476, 484 (2d Cir.
2002), cert denied, 537 U.S. 1227 (2003). Otherwise, if parents 'unilaterally change their child's
placement during the pendency of review proceedings, without the consent of state or local
officials, [they] do so at their own financial risk." Sch. Comm. of Town of Burlington v. Dep't of
Ed., 471 U.S. 359, 373-74 (1985).
Plaintiffs filed their due process complaint in early August 2016. SRO Decision at 5;
SAC ¶¶ 36, 77; IHO Ex. 1. The SRO Decision identified A.S.'s October 22, 2015 IEP as the
then-current educational placement as of the filing of the due process complaint. SRO Decision
at 41; IHO Ex. 33. The SRO had sufficient basis for such a finding. As the SRO explained, the
parents, in their IHO Hearing testimony, "essentially agreed" that this was the last agreed-upon
15

Case 1:17-cv-00501-LEK-CFH Document 95 Filed 02/20/19 Page 16 of 28
App 183

IEP. SRO Decision at 41; 1HO Tr. at 860-63. While the parents filed complaints regarding the
October 22, 2015 IEP, those complaints were withdrawn through a December 4, 2015 resolution
agreement, which amended the October 22, 2015 IEP by specifying New Meadow as the place of
instruction. SRO Decision at 41; IHO Ex. 39; HO Tr. at 860-63. In the IHO Hearing, A.S.'s
father referred to the resolution amending the IEP as the most recent IEP. IHO Tr. at 860-63. No
later IEP or agreement appears in the record, let alone one that suggests, as Plaintiffs assert, SAC
Til 77-81, that A.S.'s home-schooling was the student's pendency placement.
It is true that, as of the time of the August 2016 due process complaint, A.S. had aged out
of the New Meadow pre-school, meaning his IEP would have to continue at the District
kindergarten. However, that change in location did not nullify the status of A.S.'s October 22,
2015 IEP (as modified by the resolution agreement) as the "then-current educational placement,"
because an IEP does not grant the right to placement at a particular school, but rather the same
general level and type of services. T.M. ex rel. A.M., 752 F.3d at 171. Accordingly, the SRO had
sufficient basis to find that the modified October 2015 IEP was the then-current educational
placement.
Accordingly, the Court finds that the preponderance of the evidence in the administrative
record supports the SRO denial of Plaintiffs' request to reimbursement on a pendency basis for
the cost of home instruction. SRO Decision at 41. Plaintiff s first cause of action is therefore
dismissed.
2. Unilateral Placement (Second Cause of Action)
Plaintiffs also argue, in the alternative, that they should be reimbursed for A.S.'s homebased ABA instruction for the period August 29, 2016 through February 7, 2017, since that
16

Case 1:17-cv-00501-LEK-CFH Docume84
nt 95 Filed 02/20/19 Page 17 of 28
App 1

instruction qualified as a permissible unilateral placement. SAC TT 82-89; SRO Decision at
41-42.
A parent who believes that his or her disabled child has been denied a FAPE under IDEA
may unilaterally move that child to a private educational placement and then seek reimbursement
from the school district. § 1412(a)(10)(C)(ii); Hardison v. Bd. of Educ., 773 F.3d 372, 376 (2d
Cir. 2014); see also Sch. Comm. of Burlington v. Dep't of Educ., 471 U.S. 359, 369-70 (1985)
("Burlington" ); Florence Cnty. Sch. Dist. Four v. Carter ex rel. Carter, 510 U.S. 7, 12 (1993)
("Carter" ). To determine whether a parent is entitled to reimbursement for a unilateral
placement, a court applies the three-pronged Burlington/Carter test, "which looks to (1) whether
the school district's proposed plan will provide the child with a free appropriate public education;
(2) whether the parents' private placement is appropriate to the child's needs; and (3) a
consideration of the equities." C.F. ex rel. R.F., 746 F.3d at 73.
Parents bear the burden of demonstrating that the unilateral placement was appropriate
for the child's needs, even if the IEP was inappropriate. M.H., 685 F.3d at 246. Nevertheless,
"the standard applied to determine the appropriateness of parental placement is less restrictive
and subject to fewer constraints than that applied to the school authorities." C.B. v. N.Y.C. Dep't
of Educ., No. 02-CV-4620, 2005 WL 1388964, at *53 (E.D.N.Y. June 10, 2005). For instance,
"an appropriate private placement need not meet state education standards or requirements," and
parents "may not be subject to the same mainstreaming requirements as a school board." Frank
G., 459 F.3d at 364. Nonetheless, IDEA's "requirement that an appropriate education be in the
mainstream to the extent possible remains a consideration that bears upon a parent's choice of an
alternative placement." S.H. v. N.Y.C. Dep't of Educ., No. 09-CV-6072, 2011 WL 609885, at *9
17

Case 1:17-cv-00501-LEK-CFH Document 95 Filed 02/20/19 Page 18 of 28
App 185

(S.D.N.Y. Feb. 18, 2011). Subject to those limited exceptions, "the same considerations and

criteria that apply in determining whether the [s]chool [d]istrict's placement is appropriate should
be considered in determining the appropriateness of the parents' placement." Frank G., 459 F.3d
at 364. "Ultimately, the issue turns on whether a placement—public or private—is 'reasonably
calculated to enable the child to receive educational benefits.'" Id. (quoting Rowley, 458 U.S. at
207). Further, "a unilateral private placement cannot be regarded as proper under the IDEA when
it does not, at a minimum, provide some element of special education services in which the
public school placement was deficient." Frank G., 459 F.3d at 365 (internal quotation marks and
brackets omitted).
Here, the only deficiency with the LEP the SRO identified was the district's failure to
consider the extent to which its program constituted a removal from the general education setting
in a manner inconsistent with A.S.'s LRE. SRO Decision at 25-33,42-43. As the Court upholds
the SRO conclusion that the only deficiency in the IEP was the LRE issue, the unilateral
placement can only be regarded as proper, or appropriate, if the unilateral placement addressed
that LRE deficiency. See Frank G., 459 F.3d at 365.
The parents' unilateral placement did not address this deficiency. The parents did not
place A.S. in a more general education setting or in a plausibly less restrictive environment.
Rather, the parents provided A.S. home-based instruction that removed him even further from a
general education setting. SRO at 42-43. Since this unilateral placement did not provide the
element of special education services in which the District was deficient, it was not "proper."
Frank G., 459 F.3d at 365.

18

Case 1:17-cv-00501-LEK-CFH Document95 Filed 02/20/19 Page 19 of 28
App 186

Accordingly, the SRO had sufficient grounds to deny Plaintiffs' claim for reimbursement
for A.S.'s unilateral placement, and Plaintiff's second cause of action is dismissed.
Attorneys' Fees (Third Cause of Action)
Plaintiffs seek attorneys' fees to compensate them for their pro se legal work in this
action. SAC ¶¶ 90-95. Even where attorneys' fees are provided by statute, a pro se litigant who is
not an attorney is not entitled to an award of such fees. Heldman v. Sobol, 846 F. Supp. 285, 290
(S.D.N.Y. 1994). Plaintiffs are proceeding pro se and are not attorneys, and are therefore not due
any attorneys' fees. Therefore, this claim is dismissed.
SRO's Bias (Fourth Cause of Action)
In their fourth cause of action, Plaintiffs claim that the SRO "contort[ed] much of the
facts, tweaking them in a manner favorable for the Defendants." SAC § 96. Plaintiffs do not, as
part of this cause of action, specify what "facts" were "contorted." Id. Rather, Plaintiffs appear to
argue that the other alleged other errors cited in their papers—which form the basis for many of
their other causes of action—were made intentionally and reflect the SRO's bias against
Plaintiffs. Id. Such conclusory allegations of SRO bias have been uniformly rejected by courts.
See M.S. ex rel M.S. v. N.Y.C. Dep't of Educ., 734 F. Supp. 2d 271, 279 (E.D.N.Y. 2010)
(rejecting plaintiff's contention of SRO bias); E.Z.-L. ex rel. R.L. v. N.Y.0 Dep't of Educ., 763
F. Supp. 2d 584, 595 n.7 (S.D.N.Y. 2011), aff'd sub nom. R.E. v. N.Y.C. Dep't of Educ., 694
F.3d 167 (2d Cir. 2012) (same). The Court, having found the SRO Decision to be well supported
by the record, finds no indication in the record of any bias, and dismisses this claim.
Evidentiary Decisions (Fifth Cause of Action)

19

Case 1:17-cv-00501-LEK-CFH Document.95 Filed 02/20/19 Page 20 of 28
App 187

In their fifth cause of action, Plaintiffs claim that the SRO erred by upholding the [HO's
decision to not admit particular exhibits offered by Plaintiffs during the 1110 Hearing. SAC
In 97-106; SRO Decision at 14-16; 1110 Tr. at 56-108. Specifically, Plaintiffs claim that the
SRO improperly excluded as exhibits academic publications that detailed methodologies
including ABA. Id. ¶ 100. Plaintiffs further allege that the 1110's evidentiary decisions
demonstrated bias. Id. ¶ 98.
New York State regulations require that an I110 "exclude evidence that he or she
determines to be irrelevant, immaterial, unreliable, or unduly repetitious." 8 N.Y.C.R.R.
§ 200.5(j)(3)(xii)(c). IFIOs have "broad discretion" in how they conduct the impartial hearing.
M.M. v. N.Y.C. Dep't of Educ., No. 15-CV-5846, 2017 WL 1194685, at *7 (S.D.N.Y. Mar. 30,
2017).
The IHO did not exclude Plaintiff's academic publications categorically, but instead
advised A.S.'s parents that such publications might later be entered into the hearing record as
evidence, once proper foundation had been elicited from a witness. Id. at 56-60,64-67,71-72,
92,97-98. The parents neglected to offer such foundation through further testimony. Given the
lack of foundation proffered, as well as the redundant nature of some of the material, the SRO
had sufficient basis to uphold the IHO's discretionary evidentiary decisions. Accordingly,
Plaintiffs' evidentiary claim is dismissed.
6. The Right to a Particular Methodology (Sixth Cause of Action)
Plaintiffs contend that the SRO erred in finding that IDEA does not give A.S. a right to a
particular educational methodology—in this case ABA instruction—in his IEP. SAC TT
107-122.
20

Case 1:17-cv-00501-LEK-CFH Document 95 Filed 02/20/19 Page 21 of 28
App 188

An IEP need not "mention evaluative methods or a particular teaching methodology" to
be "substantively adequate." K.L. ex rel. M.L. v. N.Y.C. Dep't of Educ., 530 F. App'x 81,86 (2d
Cir. 2013). Further, "parents are not entitled to choose an educational methodology under the
IDEA." F.L., 2012 WL 4891748, at *9. Rather, "teaching methodologies are typically left to the
discretion of classroom teachers." S.B. v. N.Y.C. Dep't of Educ., 174 F. Supp. 3d 798,805
(S.D.N.Y. 2016).
Given the discretion afforded schools in choosing methodologies, and the record's
support for the adequacy of the special education methods used, the SRO did not err in finding
that A.S. had no right to an exclusively ABA-based IEP plan. This claim is therefore dismissed.
7. Annual Goals (Seventh Cause of Action)
Plaintiffs claim that the SRO erred in upholding the annual goals set by A.S.'s 2016-17
IEP, which relied on inaccurate representations of A.S.'s present level of performance provided
by the District. SAC ¶¶ 123-33.
An IEP must include "a statement of measureable annual goals, including academic and
functional goals." § 1414(d)(1)(A)(i)(II). These goals must be "designed to meet the child's
needs that result from the child's disability to enable the child to be involved in and make
progress in the general education curriculum; and to meet each of the child's other educational
needs that result from the child's disability." Id.
The SRO had sufficient basis to find that the present abilities detailed in the 1EP
accurately reflected A.S.'s abilities. The SRO Decision details at length the basis for the goals
included in A.S.'s 2016-17 IEP. SRO Decision at 21-25. The CSE convened on two dates to
develop the IEP. The first meeting included three staff members from A.S.'s then-current

21

Case 1:17-cv-00501-LEK-CFH

cument 95 Filed 02/20/19 Page 22 of 28
DoApp 1 89

preschool: the executive director, the student's speech-language pathologist, and the director of
ABA services. SRO Decision at 21; HO Tr. at 244,478-79,498-99,660,685-86,773-79,
1017,1151-52,1192-93. Several witnesses at the impartial hearing testified that preschool staff,
who would have observed A.S. in school, provided input regarding A.S.'s present levels of
performance for the draft IEP. SRO Decision at 21-22; IHO Tr. at 238,246,278-79,492,
498-502,677-80,779. And the hearing record includes evidence that the CSE discussed,
reviewed, and revised the annual goals ultimately included in the IEP, in consultation with the
parents. SRO Decision at 22. At the IHO Hearing, the special education teacher who attended the
June 2016 CSE meeting testified that, when the CSE "started going through the goals," the
parents indicated that A.S. could "already do these things," and that the CSE then rewrote the
goals to be more consistent with A.S.'s apparent capabilities. IHO Tr. at 244-45; HO Ex. 46 at
1,6. Similarly, the special education director testified that the CSE modified the IEP's present
levels of performance and goals to address parental concerns. SRO Decision at 22-23; IHO Tr. at
479-80. The SRO thoroughly explained the close alignment between the present levels of
performance and the goals in the IEP. SRO Decision at 23-25; IHO Ex. 45 at 2-8. Accordingly,
this claim is dismissed.
B. N.Y.C.R.R. Claims against Elia and the District
Plaintiffs' claim in their ninth, tenth, and fifteenth causes of action that the New York
regulations regarding students with disabilities, codified at 8 N.Y.C.R.R. § 200, et seq, violate
IDEA and the Fourteenth Amendment. SAC Tr 137-84,189-92. These claims do not involve
factual disputes, but rather questions of law regarding the text and interpretation of § 200 and
IDEA.
22

Case 1:17-cv-00501-LEK-CFH Document 95 Filed 02/20/19 Page 23 of 28
App 19u

LRE Requirement (Ninth Cause of Action)
Plaintiffs argue, in what they label the ninth cause of action, that § 200, which was
promulgated by Elia, and carried out by the District through A.S.'s IEP, improperly "segregates"
students with disabilities so that they are "likely to be permanently disabled," in violation of
IDEA. SAC In 137-152. Essentially, Plaintiffs claim that § 200 does not comply with IDEA's
LRE requirement that, to the maximum extent appropriate, disabled children be educated with
nondisabled children. § 1412(a)(5)(A).4
The Second Circuit has explained that New York "has set forth regulations to implement
the goals of the IDEA, which 'appear to track the IDEA closely.' Frank G., 459 F.3d at 363. In
fact, IDEA and § 200 both require that, to the "maximum extent appropriate," each child be
educated in the LRE, § 1412(a)(5)(A); § 200.6(a)(1), 200.1(cc), and IDEA's LRE requirement "is
embodied in both federal and state regulations." Jennifer D. v. N.Y.C. Dep't of Educ., 550 F.
Supp. 2d 420 (S.D.N.Y. 2008). Thus, Plaintiffs' claim that § 200 does not comply with IDEA's
LRE requirement fails as a matter of law, and is dismissed.
Void for Vagueness (Tenth Cause of Action)
Plaintiffs assert that § 200 is unconstitutionally vague, in violation of the Fourteenth
Amendment and IDEA. SAC ¶¶ 153-84. Plaintiffs point to a handful a phrases that they find
impermissibly vague. Plaintiffs complain that § 200.4(v)(b) directs that the "recommended
program and services shall, to the extent practicable, be based on peer-reviewed research," but
does not define "to the extent practicable" and "peer-reviewed research." SAC

Tri 165-66.

4 Plaintiffs also claim that by promulgating this regulation, Elia has violated § 504 of the
Rehabilitation Act. SAC ¶ 138. However, the Court already dismissed this Rehabilitation Act
claim against Elia. Dec. 2017 Order at 12-13.

23

Case 1:17-cv-00501-LEK-CFH DoPtcument 95 Filed 02/20/19 Page 24 of 28
pp 191

Likewise, according to Plaintiffs, § 200.1 (cc) fails to sufficiently define "LRE." SAC In
167-184. Plaintiffs also suggest that the regulations' failure to specify ABA as the one proper
methodology for instruction of students with autism makes the regulations void for vagueness.
SAC Irif 180-82.
Void for vagueness challenges "are usually directed at criminal statutes and civil
provisions which prohibit future individual conduct, particularly conduct protected by the First
Amendment." Does v. Mills, No. 04-CV-2919, 2005 WL 900620, at *10 (S.D.N.Y. Apr. 18,
2005) (citing Boutilier v. I.N.S., 363 F.2d 488, 495 (2d Cir. 1966), aff'd, 387 U.S. 118 (1967)).
However, New York's regulations implementing IDEA "are not criminal laws. They do not
proscribe conduct protected by the First Amendment. Nor do they impose civil sanctions for
certain types of conduct. Therefore the void-for-vagueness doctrine is not applicable." Id.
In any case, the phrases complained of are not vague. To the extent that the phrases are
not defined by the regulations themselves, they are to be read according to plain-language
meaning. See, e.g., Hobbs v. County of Westchester, 397 F.3d 133, 146 (2d Cir. 2005) (stating
that "it is a general rule of statutory construction that, absent a definition in the statute, courts
construe words in their plain and ordinary sense"). The fact that the regulations have been
interpreted by courts in hundreds of cases without any apparent suggestion of their
incomprehensibility suggests that they are not vague. Rather, the regulations, in keeping with
IDEA ensure that schools maintain some discretion over the choice of instructional
methodologies.
Plaintiffs' vagueness claim therefore fails as a matter of law and must be dismissed.

24

Case 1:17-cv-00501-LEK-CFH Document, 95 Filed 02/20/19 Page 25 of 28
App 192

3. IEP Goals (Fifteenth Cause of Action)
Plaintiffs argue in their fifteenth cause of action that § 200 violates IDEA by failing to
include "reducing prompt dependence" and "increasing conversation ability with neurotypical
peers" as guaranteed goals on IEPs. SAC In 189-192. In other words, Plaintiffs claim that § 200
does not comply with IDEA' s legislative purpose of "ensur[ing] that all children with disabilities
have available to them a free public education that emphasizes special education and related
services designed to meet their unique needs and prepare them for further education,
employment, and independent living." § 1400(d)(1)(A).
"IDEA's statutory scheme requires substantial deference to state administrative bodies on
matters of educational policy" and "the judiciary generally lacks the specialized knowledge and
experience necessary to resolve [such] persistent and difficult [issues]." Cerra v. Pawling Cent.
Sch. Dist., 427 F.3d 186, 191-92 (2d Cir. 2005) (internal quotation marks and citations omitted).
Again, New York "has set forth regulations to implement the goals of IDEA, which
`appear to track the IDEA closely.' Frank G., 459 F.3d at 363. And both IDEA and its state
regulations require that each IEP include academic and non-academic goals, as well as evaluative
procedures for measuring progress in achieving those goals. See § 1414(d)(1)(A)(i)(III) (directing
that IEP include "a description of how the child's progress toward meeting the annual goals . . .
will be measured"); § 200.4(d)(2).
The regulations represent a permissible educational policy choice by Defendants. They do
not detail cookie-cutter goals for each type of disability, but instead reflect a more flexible
standard for schools to work from, in keeping with IDEA's emphasis on "tailor[ing]" special
education "to the unique needs of a particular child." Endrew F. ex rel. Joseph F. v. Douglas Cty.

25

Case 1:17-cv-00501-LEK-CFH Do tzngh95 Filed 02/20/19 Page 26 of 28
i6i

Sch. Dist., 137 S. Ct. 988, 994 (2017). The Court will not upend that scheme by imposing a
particular set of goals for all students with A.S.D., as Plaintiffs seem to propose. Accordingly,
this claim is dismissed.
C. Unexhausted IDEA/Rehabilitation Act Claims (Eighth and Eleventh through
Fourteenth Causes of Action)
Only after exhausting IDEA claims via due process complaint, the impartial hearing, and
SRO appeal can an aggrieved party seek independent judicial review. Cave, 514 F.3d at 245.
This exhaustion requirement for IDEA claims applies equally to relief available under other
statutes such as the Rehabilitation Act. Id., at 244 n.2. Exhaustion is jurisdictional, and a court is
without jurisdiction to consider any claims not included in a plaintiff's initial due process
complaint. Id. at 243. The purpose of the exhaustion rule is to "channel disputes related to the
education of disabled children into an administrative process that could apply administrators'
expertise in the area and promptly resolve grievances." Id. at 246.
There are, though, three exceptions to the exhaustion requirement: "Congress specified
that exhaustion is not necessary if (1) it would be futile to resort to the IDEA's due process
procedures; (2) an agency has adopted a policy or pursued a practice of general applicability that
is contrary to the law; or (3) it is improbable that adequate relief can be obtained by pursuing
administrative remedies." Murphy v. Arlington Cent. Sch. Dist. Bd. of Educ., 297 F.3d 195, 199
(2d Cir. 2002).
Plaintiffs' eighth and eleventh through fourteenth "causes of action" were not raised in
their initial due process complaint. II-10 Ex. 1. The Eighth cause of action raises procedural
issues not included in the due process complaint. SAC igig 134-37; SRO Decision at 17. The
eleventh through fourteenth causes of action relate to A.S.'s placement during periods of time
26

Case 1:17-cv-00501-LEK-CFH Document 95 Filed 02/20/19 Page 27 of 28
194

other than the 2016-17 school year at issue here: the 2017-18 school year (eleventh cause of
action, which Plaintiffs also frame as a Rehabilitation Act claim); the 2014-15 school year
(twelfth cause of action); and the 2017 summer (fourteenth cause of action).5 SAC in 59-62,
185-88. Plaintiffs therefore failed to exhaust administrative remedies as required by IDEA and
the Rehabilitation Act as to those claims; Plaintiffs have not argued that any exceptions to the
exhaustion requirement exceptions apply. The Court is therefore without subject matter
jurisdiction as to those claims, and must dismiss them. Cave, 514 F.3d at 245,250.
D. ADA Claims
Plaintiffs further allege a generalized ADA claim, though they do not link it to any of
their specific "causes of action." SAC ¶ 1.
Even if the Court were to find a violation of IDEA, "such a violation, without more,
would be insufficient to support a claim of disability-based discrimination under the ADA or
Section 504 of the Rehabilitation Act." French v. N.Y. State Dep't of Educ., 476 F. App'x 468,
473 (2d Cir. 2011). Plaintiffs fail to show that the alleged discrimination is anything more than a
rehashing of their allegations that Defendants failed to provide A.S. with a FAPE. Accordingly,
Plaintiffs' ADA claim is dismissed.
III. CONCLUSION
Accordingly, it is hereby:
ORDERED, that Defendants' Motions for Summary Judgment (Dkt. Nos. 86, 88) are
GRANTED; and it is further
ORDERED, that Plaintiffs' claims are DISMISSED in their entirety; and it is further

s

The SAC includes no "thirteenth" cause of action.
27

Case 1:17-cv-00501-LEK-CFH Document 95 Filed 02/20/19 Page 28 of 28
App 195

ORDERED, that the Clerk of the Court shall serve a copy of this Memorandum-Decision
and Order upon the parties in this action.
IT IS SO ORDERED.
DATED:

February 20, 2019
Albany, New York

Lawre E. Kahn
U.S. District Judge

28

EArif2, PB6d Th£4172ge1Iztakft 1 of 1
App 196

N.D.N.Y.
17-cv-501
Kahn, J.
Hummel, M.J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second

Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 8th day of May, two thousand twenty.
Present:
Pierre N. Leval,
Raymond J. Lohier, Jr.,
Michael H. Park,

Circuit Judges.
R.S., individually and on behalf of their son, A.S., E.S.,
individually and on behalf of their son, A.S.,
Plaintiffs-Appellants,
v.

20-1153

Board of Education Shenendehowa Central School District,
MaryEllen Elia, Commissioner of the University of the State
of New York,
Defendants Appellees,
Justyne Bates, Chief State Reviewer, Office of State Review
New York State Education Department,
Defendant.

This Court has determined sua sponte that the notice of appeal was untimely because it was not
filed within 14 days from the date of entry of the order reopening the time to appeal. Upon due
consideration, it is hereby ORDERED that the appeal is DISMISSED for lack of jurisdiction. See
28 U.S.C. § 2107(c); Fed. R. App. P. 4(a)(6); Bowles v. Russell, 551 U.S. 205, 214 (2007).
A'True Copy
Catherine alla W
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk of Court
United States CO
ecand..Citctd

MANDATE ISSUED ON 06/01/2020

Case 1:17-cv-00501-LEK-CFH DoNITA76 Filed 01/22/18 Page 1 of 107
i6

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
A.S. a 7-year old child with Autism Spectrum Disorder (ASD) entitled
to Special Education and Related services per IDEA
represented by his parents R.S. Pro Se and E.S. Pro Se
Plaintiffs'

SECOND AMENDED
COMPLAINT:

-against-

Case No. 1:17-CV-501
(LEK/CFH)

Board of Education Shenendehowa Central School District,
Commissioner MaryEllen Elia, of The University of the State of New York
Defendants

Plaintiffs, R.S. and E.S., individually, and on behalf of their son A.S.
A.S. represented By R.S. Pro se and E.S. Pro se, allege the following:

The Parties
Plaintiff A.S. is a 7 year old boy with ASD and an Individualized Education Plan (IEP)
that is entitled to all rights, entitlements and procedural safeguards mandated by applicable
laws and statutes, including but not limited to IDEA (20 U.S.C. §§ 1400 — 1482), Article
89 of the New York Education Law, 34 CFR §§ 300 through 300.324, 8 NYCRR 200,
Section 504 of The Rehabilitation Act of 1973, the FOURTEENTH AMENDMENT
SECTION II, ELEVENTH AMENDMENT, Title II of the Americans with Disabilities
Act, 42 U.S.C. § 2000d-7 and the Vagueness Doctrine of the U.S. Constitution.
Plaintiffs R.S. and E.S. are A.S. parents

1 of 107

Case 1:17-cv-00501-LEK-CFH Document76 Filed 01/22/1
8 Page 2 of 107
App 198

Plaintiff A.S., E.S. and R.S. are all residents of the State of New York, residing at all
relevant times within the Shenendehowa Central School District, within the Northern
District of New York.
Plaintiffs are not expressly named herein by their given names because of the privacy
guarantees to minors Fed. R. Civ. P. P. 9(a)(2) and also provided in the IDEA statute.
Defendant, The Shenendehowa Central School District ("Shen") is a "local educational
agency" (LEA) and school district organized under the laws of the State of New York.
Both procedurally and substantively, defendant Shen is statutorily obligated under the
IDEA, Article 89 of the New York Education Law, 34 CFR § 300, 8 NYCRR 200, and
Section 504 of The Rehabilitation Act of 1973 the FOURTEENTH AMENDMENT
SECTION II, ELEVENTH AMENDMENT, Title II of the Americans with Disabilities
Act, 42 U.S.C. § 2000d-7 and the Vagueness Doctrine of the U.S. Constitution to provide
A.S. with a Free Appropriate Public Education (F APE)--that emphasizes special education
and related services designed to meet their unique needs and prepare them for further
education, employment, and independent living 20 U.S.C. § 1400(d)(1)(A)--in A.S.'s Least
Restrictive Environment (LRE). Shen Board of Education and administrative offices are
located within the Northern District of New York at 5 Chelsea Place Clifton Park, NY
12065 Phone: (518) 881-0600; Fax: (518) 371-9393.
Defendant MaryEllen Elia is the Commissioner of the New York State Education
Department, a State Educational Agency (SEA), organized under the laws of the State of
New York. Both procedurally and substantively, Defendant Elia is statutorily obligated
under the IDEA, 34 CFR § 300, and Section 504 of The Rehabilitation Act of 1973 the
FOURTEENTH AMENDMENT SECTION II, ELEVENTH AMENDMENT and Title II

2 of 107

Case 1:17-cv-00501-LEK-CFH Docume99
nt 76 Filed 01/22/18 Page 3 of 107
App 1

of the Americans with Disabilities Act, the Vagueness Doctrine of the U.S. Constitution,
42 U.S.C. § 2000d-7 to provide LEAs in New York State with laws, rules and regulations
to provide individuals with disabilities a FAPE--that emphasizes special education and
related services designed to meet their unique needs and prepare them for further
education, employment, and independent living 20 U.S.C. § 1400(d)(1)(A)--in said students
LRE to the maximum extent appropriate. Defendant Elia's office is located at the New
York State Education Department within the Northern District of New York at 89
Washington Avenue Albany, New York 12234 P: (518) 474-3852.

Jurisdiction and Venue
Pursuant to 20 U.S.C. § 1415(i)(2)(A), 28 U.S.C. §1331, §1367 and §1391(b)(2) this Court
has jurisdiction of this action without regard to amount in controversy 20 U.S.C. §
1415(i)(3) over all civil actions arising under the laws of the. United State, and upon the
fee-shifting provision of IDEA, 20 U.S.C. § 1415(i)(2)(A).
Venue is proper in that all Plaintiffs and defendants all reside or are situated within this
judicial district.

Exhaustion of Administrative Remedies and Prior History
R.S. called the Shenendehowa District Office on 10/8/2015 to again express concerns of

substantial regression observed in A.S., that occurred precipitously, since the first day of
school at Tesago Elementary School on 9/7/2015 where phone call was returned later that
day and R.S. expressed concerns and scheduled a meeting with the CSE regarding the

3 of 107

Case 1:17-cv-00501-LEK-CFH Doc ent 76 Filed 01/22/18 Page 4 of 107
App
um200

observed regression of A.S.1
On 10/22/2015 the CSE meeting did not appear to accomplish anything as educators
assured R.S. and E.S. that everything was fine regarding A.S. progress. Further, the notes
for the meeting prepared by Fall 2015 Kindergarten Connections Program Special
Education Teacher from Tesago demonstrated, and later testified to that extent, that the
skill level A.S. exhibited in the classroom (District Ex. 30), see (Tr. pp. 212 — 213; 476)
was below the skill level he had exhibited at home and also that he had regressed to exhibit
echolalia, a behavior that A.S. had previously extinguished at Newmeadow by extinction
procedures (Tr. pp. 1126), an applied behavior analysis technique/methodology. This
concerned the parents further: that participants at the CSE meeting claimed A.S. was
perfectly fine, that they did not notice signs of regression and that they could not get him
to demonstrate skills he had already achieved months earlier. Further, R.S. informed the
CSE that goals on the IEP had already been achieved at home and that A.S. did not
demonstrate in the class based on teacher observations.
Some days following that 10/22/2015 meeting R.S. demonstrated—by providing an
afterschool Discrete Trial Training (DTT) to A.S. where A.S. exhibited some skills that
teachers at Tesago could not get A.S. to demonstrate in the class using methods not
grounded in DTT--to Fall 2015 Special Education Teacher from Tesago that A.S.'s skill
level was beyond what his educational update demonstrated with use of ABA and Discrete
Trial Training. Fall 2015 Special Education Teacher from Tesago later applied the DTT
technique to get results that showed that A.S. (Tr. pp. 212 — 213; 476) skill level was
beyond what was recorded by that same teacher previously, notwithstanding they were not
1 A meeting notice dated 10/13/2015 was placed in the mail during the month of October for a
CSE meeting to occur on 10/22/2015 (District Ex. 34)
4 of 107

Case 1:17-cv-00501-LEK-CFH Doc ent 76 Filed 01/22/18 Page 5 of 107
App
um201

consistent with level A.S. demonstrated with parents delivered ABA intervention.
By 11/2/2015 the due process complaint IHO case# 93791 was hand delivered to the
Shenendehowa District Office (that was not District Ex. 31, the exhibit submitted by Shen
as the purported due process complaint) (Actual complaint was Parents New Ex. 19 that is
also identified as Joint Ex. 37). R.S. met with the Director of Special Education and
Elementary CSE Chairperson regarding the due process complaint minutes after dropping
off the due process complaint to the District Office.
However, A.S. had undergone further regression during the time between when the
complaint was written 10/20/2015 and 11/5/2015. Because A.S. regression had
substantially worsened on 11/10/2015 R.S. sent a follow up due process complaint (Joint
Ex. 37)2 that Shen agreed to absorb into the original complaint.
Around that time Susan T. Johns Esq. of Ferrara Fiorenza Shenendehowa's attorney for
that matter sent an initial correspondence that Tesago teacher's reported that A.S. was
progressing quite well, a matter that parents completely disagreed on with Shen on.
On 11/4/2015 A.S. completes and alumni visit to Newmeadow School where Newmeadow
Executive Director noted A.S. had an inability to make eye contact and a return to
stereotypical behavior for A.S. (Tr. pp. 730 — 735, 753 — 756, 759 — 761) in comparison to
where he was on 8/2015 during the ESY at Newmeadow.
On 11/30/2015 as a result of the resolution agreement for the due process complaint A.S.
returned to Newmeadow as a general education student (counted as a nondisabled peer
because it was the only way the state education laws would allow A.S. to return to

2 It that contained a greater amount of detail regarding A.S. regression and proposed solutions,
than what was provided in the prior submitted iteration of the due process complaint, and it
was accepted as an addition to the original complaint by Director of Special Education.

5 of 107

Case 1:17-cv-00501-LEK-CFH Document76 Filed 01/22/18 Page 6 of 107
App 202

Newmeadow) in the integrated intensive ABA setting.3
By 12/31/2015 no Procedural Safeguards notice was provided by the Shenendehowa
School District for the year of 2015.
In the initial days and weeks of A.S. return to Newmeadow, which was on 11/30/2015,
Director of ABA Programs, noted A.S.'s data demonstrated he had significantly regressed
compared to, the period of April 2015 — August 2015 that includes the prior 2015 summer
session and 2015 regular school year at Newmeadow (Tr. pp. 730.— 735, 753 — 756, 759 —
761, 1025 — 1026, 1127 — 1129; 1286 — 1295) and also noted by Newmeadow Executive
Director. A.S. data (District Ex. 40) suggested—by parents' assessment of the
Newmeadow data—that A.S. began to recover from the regression that occurred during his
Fall 2015 enrollment at Tesago by late January 2016.
R.S. had emailed Director of Special Education on 3/23/2016, more than one month prior
to the next IEP meeting to have a pre-meeting discussion. Consequently, R.S. had a phone
conference with Elementary on 4/4/2016. During the 4/4/2016 phone conference
Elementary, R.S. expressed how well A.S. was progressing at Newmeadow and how all
the regression that was noted at Tesago had extinguished for some time. R.S. expressed
that he wanted to ensure that modifications were made to A.S. IEP for the 2016 — 2017
school year and to the program being offered so that it was more consistent with the
classroom make up and ABA methodology offered at Newmeadow since it was the only

3

At 5 hours per day (25 hours/week) receiving 5 hours of special education services each
week and 25 hours of intensive ABA intervention at Newmeadow each week. Special
arrangements had to be made because A.S. was school age and Newmeadow was not approved
to deliver a Kindergarten curriculum.
6 of 107

Case 1:17-cv-00501-LEK-CFH Document76 Filed 01/22/18 Page 7 of 107
App 203

educational environment that A.S. had ever responded well to up to that point April 2016.4
Since that time parents have learned that A.S. can also progress in a full inclusion
classroom type setting with the appropriate supports.
On 4/19/2016 A.S. Fall 2015 Special Education Teacher from Tesago visits Newmeadow
for observations (District Ex. 44) of A.S. for 30 minutes (Tr. pp. 242 — 244; 304 — 309).5
During May 2016 an IEP meeting was held for A.S. that with Executive Director of
Newmeadow, Program Director of ABA program and A.S.'s Newmeadow Speech
Pathologist in attendance (Tr. pp. 774 — 778). During the spring 2016 CSE meeting the
SRO quotes directly from the hearing transcript it as "very contentious," and a "great deal
of disagreement" existed about the "direction of the IEP" between the parents and a district
representative at the meeting (Tr. pp. 776-79). This initial CSE meeting ended with a
"disagreement" with the management needs section of the IEP, which had been "discussed
at length" (Tr. pp. 780-82)." (SRO Decision 17-008 pp. 29).
On 5/21/2016 Parents meet with Dr. Anthony Malone of Captialcare Developmental
Pediatrics to discuss programming direction for A.S. and consequences6 if he does not

4

Elementary expressed that A.S.'s report showed he made very good progress at Tesago. R.S.
reiterated that A.S. had a significant regression at Tesago. Consequently, Elementary replied
that they would have to observe A.S. at Newmeadow and determine what the appropriate
placement. Elementary expressed that from that report it could be determined that an all day
self-contained environment could be the right placement for A.S. and left things at that. It is
worth mentioning that R.S. interpretation of the statement by Elementary along with taking her
tone of voice indicated that she was warning R.S. not to interfere with A.S. IEP or a negative
evaluation at Newmeadow by Shen would follow.
5
Notes were completely biased and misrepresented the actual observation per creators
testimony (Tr. pp. 242-244; 304 — 309) pertaining to negative observations of A.S rather than
providing a thorough account, the document—that was barely legible notes on a blank sheet
on ruled paper with no apparent organization--later found its way into the Defenses Exhibits
equating to another procedural error.
6
In this meeting Dr. Malone had verbally disclosed information that supported that the
progress of children on the spectrum that receive ABA intervention vs. mixed methoct(often
7 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 8 of 107
App 204

receive ABA and recommendations moving forward (Parent Ex. JJ).
R.S. followed up with Director of Special Education and a follow up IEP meeting was
scheduled with Elementary and Director of Special Education in early June 2016 a few
weeks following the prior IEP meeting. From this meeting no agreement could be made
on any section of the IEP. Further, from this meeting parents could not get agreement from
the CSE to place specific goals similar to the Kindergarten Curriculum into the IEP. The
rational for the goals was that A.S. was making a lot of academic progress in the ABA
intervention he was receiving one-on-one directly from parents and at Newmeadow. The
CSE rational for not allowing the goals proposed by parents was the IEP had to be
substandard from the standard Kindergarten Curriculum. Parents disagreed with this
rational and later learned that such rational is by law a denial of A.S. rights pursuant to
Section 504 of the Rehabilitation Act of 1973.
Also, what came out of the CSE meeting was a statement from the Director that NYSED
did not permit schools to put methodology in the IEP. She requested that parents try to
provide descriptions (parents attempted to provide descriptions however they were limited
at that time due to parents unfamiliarity with all the components of ABA at that time) of
ABA because her hands were more or less tied down with regard to this ambiguous rule.
What had also come out of the CSE meeting and numerous other discussions was that a
BCBA was not permitted to provide intervention in a public school (or possibly just at
Shen) if they did not have a Special Education Teaching License'.

referred to as eclectic) intervention have consistently faired better in their progress towards
recovery.
7
It was inferred that the rule eliminates the possibility that a sizable portion of BCBA
consultants could provide intervention in a public school setting because, most likely a sizable
percentage of them do not have a special education license. ,
8 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 9 of 107
App 205

During June and July weeks several emails were also exchanged with Director of Special
Education with regard to the Management Needs section of the IEP and also goals for A.S.
A follow up CSE meeting that occurred at Tesago Elementary School in June was not
fruitful in resolving any of these matters.8 In general CSE meetings were never fruitful in
making any progress in A.S. IEP as the CSE insisted on using the same failed Connections
Program for A.S. where goals and present levels were below A.S. abilities. In general
parents consistently had the feeling that the Elementary and the Director of Special
Education had the same consistent agenda to hold a position that A.S. placement in the
Connections Program was the only option. Essentially, taking time to give parents the
impression that they might have a voice but ultimately making decisions that completely
ignored the concerns parents had and the key points they made regarding A.S.
On 7/7/2016 the school district informed R.S. and E.S. that the CSE made
recommendations that were against parents request or that failed to acknowledge other
di sagreements.9
During June of 2016 Newmeadow made available to Shen a general education progress
report on A.S. (Tr. pp. 1135) that would show to the contrary that the Connections
Program was not an appropriate placement.
On early August 2016 R.S. calls Director of Special Education to express concerns about

8

No agreement on the Management Needs regarding ABA, no agreement to provide an all day
integrated program (now A.S. required a general education setting as an integrated setting is
too restrictive), no agreement could be made on IEP goals, no agreement on present levels.
However, Special Education Director incorporated some of the more trivial elements of the
requested changes of the management needs section while avoiding the most important
changes that was not a suitable solution nor compromise for the parents.
9 For example, the letter indicated that Goals were reviewed rather than indicating that there
was a disagreement on goals. Further, present levels were reviewed and parents insisted that
A.S. abilities displayed at home influence the present levels and the goals.
9 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 10 of 107
App 206

the IEP process and what has been accomplished. On 8/4/2016 E.S. and R.S. email Shen
Superintendent for Curriculum regarding the need for a comprehensive ABA classroom for
A.S. On 8/5/2016 Shen Superintendent for Curriculum replies to E.S.'s email explaining
that "parents do not influence methodology in the IEP." On 8/5/2016 R.S. hand delivers
Due Process Complaint obo A.S. (along with a DVD containing PDFs of all the reference
publications in the due process complaint) to Shenendehowa District office prior to
4:00pm and Superintendent for Curriculum signs for the due process complaint dating the
signature 8/5/2016 as received with no other modification.'°
On 8/5/2016 R.S. hand delivers Due Process Complaint obo A.S. (along with a DVD
containing PDFs of all the reference publications in the due process complaint) to
Shenendehowa District where Superintendent for Curriculum signs for and dates the
complaint as received on 8/5/2016.
On 8/19/2016 R.S. contacts IHO by phone that Shenendehowa School District Failed to
hold a Resolution Meeting by 15 calendar days following the receipt of the complaint
because no meeting was scheduled on 8/19/2016 and none had been scheduled for
8/20/2016. Pursuant to (CR Part 200.5(J)(2)(vi)(b)) R.S. requested the II-10 order that the
45-calendar-day due process hearing timeline for school-age students commence on
8/21/2016. However, the IHO still required the resolution session to occur citing it was a
Federal Law despite Shen fail to hold the meeting on time.
On 8/23/2016 the conference between parents and School District regarding the due
process complaint occurred via phone. Special Education Director claiming that A.S.
responded well to the Connection Program previously and introduced Connections
I°Several emails were exchanged in disagreement on the filing date of the due process
complaint (Parent Ex. M).
10 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 11 of 107
App 207

Program Fall 2016 Special Education Teacher at Tesago as a teacher heavily experience in

model ABA classrooms.
A letter was received in the mail from Shen attorney, Susan Johns, stating in writing that
new special education teacher was part of a model ABA program at prior school district.
Later Testimony by Fall 2016 Special Education Teacher at Tesago (Tr. pp. 157 - 159) on
10/5/2016 demonstrated that she had made an egregious misstatement to parents regarding
her experience with ABA.
On 8/29/2016 A.S. begins full time home based ABA therapy and intervention program
during most of his waking hours 6 days a week, with 5 hours of academic (math, phonics,
writing) and social skills (Expressive language, social skills and communication skills)
discrete trials per day." This was a transition from the program previously provided by
parents that occurred for a portion of the day after A.S. complete his day at Newmeadow
and during most hours of the weekend.
During early September 2016 R.S. requests Pendency placement for A.S. and Hearing
Officer declines to make any pendency decision even following numerous requests from
R.S. Not making a pendency decision left R.S. with no recourse to appeal no decision by
the IHO.
On 9/14/2016 the Principle of Tesago Elementary notified Child Protective services that
A.S. did not attend Tesago Elementary School for 6 consecutive days and that it was
considered educational neglect.
R.S. calls Tesago Principle that Day 9/14/2016 or following day to explain that A.S. would

11 The

remaining time focused on self-help skills, Lego building, a pii771e component, logical
reasoning, physical education that included soccer discrete trials, a dexterity component to
strengthen hand grip and fine motor control of fingers, an art component for drawing images
such as cars, people, animals and objects in a stepwise manner
11 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 12 of 107
Pipp 208

not attend Tesago because of the risk that it could cause irreparable harm to A.S., this was

said in so many words.
Parents declined to send A.S. to Tesago Elementary School and choose to educate A.S. at
home by providing intensive behavioral and education intervention to A.S. in a DTTheavy framework, during nearly all his waking hours because of severe regression from
the fall of 2015 and that the program offered to A.S. did not materially change in the way
parents requested.
On 10/5/2016 Educational Hearing Commences, 46 Calendar days following the initiation
of the due process hearing timeline, from 10/5/2016 - 10/7/2016 at which point hearing
has a 3 week recess and continues on 10/26/2016 — 10/27/2016. R.S. felt that he had
insufficient time at the hearing to give testimony at hearing and was also cut short time
wise.
On 12/30/2016 Decision is issued by Hearing Officer George Kandilakis and sent via mail
that was received on or about 1/2/2017. Hearing Officer dismissed the parents' case on
behalf A.S. entirely.'2
On 1/12/2017 Parents file an intention to homeschool with tuition reimbursement and Shen
replied sending a standard homeschooling packet not acknowledging the request for tuition
reimbursement
On 1/13/2017 Family Court Judge orders parents to get their homeschooling plan approved
by Shen.
On 2/7/2017 R.S. and E.S. submit appeal of Hearing Officer decision to State Review

12

An educational update on A.S. filled out in a similar matter to an educational update that a
home schooling provides a school district was sent to the Hearing Officer and the School
District on 12/25/2016 as part of parents reply to the defenses post hearing brief
12 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 13 of 107
A
9

Officer of the New York State Education Department.13
On 2/8/2017 Family court Judge Pelagalli orders parents to initiate process to enroll A.S.
in School
On Friday 2/17/2017 A.S. attends first day at Tesago Elementary School. Upon coming
home from the morning kindergarten setting that was an integrated classroom parents
observe A.S. had a slur in his language and loss in motivation. Shen was on spring break
for from Monday 2/20/2017 to Friday 2/24/2017.
On 2/27/2017 A.S. is enrolled in a Saratoga Academy for the Arts and sciences and attends
his first day of school. A.S. was very talkative and motivated after his first day of school.
Parents send notice of Unilateral Placement at Saratoga Academy to Shen on 2/28/2017
explaining that the Connections Program at Tesago Elementary School would result in
serious emotional harm to A.S.
The due date of the SRO decision was delayed because of requests for time extensions.
On 4/6/2017 SRO decision 17-008, dated 4/3/2017, is received by parents in the mail
where the appeal was sustained in part to the extent that the SRO found that Shen failed to
offer A.S. a FAPE in the LRE for the 2016 — 2017 school year. Also, SRO ordered that
the CSE reconvene within 30 days of the decision to do a Newington two-pronged analysis
for A.S. after the SRO had already completed one supporting the parents' contention.
New York State has implemented a two-tiered system of administrative review to address
disputed matters between parents and school districts regarding "any matter relating to the
identification, evaluation or educational placement of a student with a disability, or a

An educational update on A.S. filled out in a similar matter to an educational update that a
home schooling provides a school district was sent to the SRO and the School District on
2/7/2017 as part of parents appeal
13

13 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 14 of 107
A 210

student suspected of having a disability, or the provision of a free appropriate public
education to such student" (8 NYCRR 200.5(i)(1); see 20 U.S.C. §§ 1415(b)(6)-(7); 34
CFR §§ 300.503(a)(1)-(2), 300.507(a)(1)). First, after an opportunity to engage in a
resolution process, the parties appear at an impartial hearing conducted at the local level
before an IHO (Educ. Law § 4404(1)(a); 8 NYCRR 200.5(j)). An IHO typically conducts a
trial-type hearing regarding the matters in dispute in which the parties have the right to be
accompanied and advised by counsel and certain other individuals with special knowledge
or training; present evidence and confront, cross-examine, and compel the attendance of
witnesses; prohibit the introduction of any evidence at the hearing that has not been
disclosed five business days before the hearing; and obtain a verbatim record of the
proceeding (20 U.S.C. § 1415(0(2)(A), §§ (h)(1)-(3); 34 CFR §§ 300.512(a)(1)-(4); 8
NYCRR 200.5(j)(3)(v), (vii), (xii)). The IHO must render and transmit a final written
decision in the matter to the parties not later than 45 days after the expiration period or
adjusted period for the resolution process (34 CFR §§ 300.510(b)(2), (c), 300.515(a); 8
NYCRR 200.5(j)(5)). A party may seek a specific extension of time of the 45-day timeline,
which the IHO may grant in accordance with State and federal regulations (34 CFR §
300.515(c); 8 NYCRR 200.5(j)(5)). The decision of the IHO is binding upon both parties
unless appealed (Educ. Law § 4404(1)).
53. A party aggrieved by the decision of an IHO may subsequently appeal to a State Review
Officer (SRO) (Educ. Law § 4404(2); see 20 U.S.C. § 1415(g)(1); 34 CFR §
300.514(b)(1); 8 NYCRR 200.5(k)). The appealing party or parties must identify the
findings, conclusions, and orders of the IHO with which they disagree and indicate the
relief that they would like the SRO to grant (8 NYCRR 279.4(a)). The opposing party is

14 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 15 of 107
A 211

entitled to respond to an appeal or cross-appeal in an answer (8 NYCRR 279.5). The SRO
conducts an impartial review of the IHO's findings, conclusions, and decision and is
required to examine the entire hearing record; ensure that the procedures at the hearing
were consistent with the requirements of due process; seek additional evidence if
necessary; and render an independent decision based upon the hearing record (34 CFR §
300.514(b)(2); 8 NYCRR 279.12(a)). The SRO must ensure that a final decision is reached
in the review and that a copy of the decision is mailed to each of the parties not later than
30 days after the receipt of a request for a review, except that a party may seek a specific
extension of time of the 30-day timeline, which the SRO may grant in accordance with
State and federal regulations (34 CFR § 300.515(b), (c); 8 NYCRR 200.5(k)(2)).
The Chief SRO sustains the parents' appeal in part finding that "the evidence in the
hearing record establishes that, contrary to the IHO's determination, the district failed to
offer the student a FAPE in the LRE for the 2016-17 school year." (See NYSED SRO
Decision 17-008 pp. 43) but does almost nothing about it. While the SRO sustains the
appeal in part the SRO reduces this sustainment with no orders for action beyond ordering
the CSE to reconvene by May 5th, which is more or less to render the sustainment of the
appeal completely moot and is to the compromise of the well being of A.S. by delaying
this proceeding, by not issuing orders consistent with IDEA and the Second Federal
Circuit Legal Precedent. Despite finding that Shen failed to offer A.S. a FAPE in the LRE
for the 2016 — 2017 school year the SRO essentially dismissed the parents appeal.
In Plaintiffs opinion the actions of the SRO could allow for the further discrimination
against A.S. on the basis of his ASD, which is a violation of A.S. Section 504 Rights or the
Rehabilitation Act of 1973. This is so because the SRO has done her own

15 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 16 of 107
A212

Newington/Cornwall Analysis of A.S. that supports that his LRE at the time of the appeal
to the SRO that A.S. LRE was an all day-integrated setting without a self-contained
portion. Further, the SRO was also aware that A.S. began attending Saratoga Academy of
the Arts and Sciences (during February 2017 more than one month prior to reaching a
decision) a general education school with no special education component to it
demonstrating that A.S. LRE was a full inclusion environment, one where A.S. would be
educated for the entire school day is a classroom that was a normal classroom that was also
atleast average level classes.
In general the SRO did not use proper legal precedent or legal procedure to guide the
decision that he made to order that the district and parents conduct their own
Newington/Cornwall Analysis. The SRO knew for a fact that he could have compromised
the well being of A.S. by making this decision because he would seriously delay the
progress or this matter with these orders which would have the effect of requiring a new
due process complaint to address the unresolved issues that would again have to go before
a SRO.
A party aggrieved by the decision of an SRO may subsequently begin a Federal Action in
the appropriate United States District Court. Clifton Park New York is part of The
Shenendehowa School District and A.S. along with his parents are located in Clifton Park,
New York. Because Clifton Park, NY is located within Saratoga County and Saratoga
County is within the boundary of the Northern District of New York, the appropriate venue
for this appeal is the United States District Court for the Northern District of New York.

16 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 17 of 107
213

On May 9, 2017 E.S. Pro Se and R.S. Pro Se commenced this action with this court Dkt.
No. 1 ("Complaint")
On May 30, 2017 E.S. and R.S. send request to Shen to provide Request for Special
Education Services for A. S. 2017 — 2018 School Year with Extended School Year and
Summer 2017 Special Education Services. Some modifications and additions were made
to the request to ensure it was received with the intended message at highest clarity
resulting in a correction to the May 30th request submitted on June 2, 2017. As part of this
request R.S. signed a consent form during late May and Early June to conduct evaluations
to determine educational need and continued eligibility for special education.
During the week of 6/3/2017 A.S. undergoes several educational evaluations conducted by
Shen employees at Saratoga Academy as part. The psychoeducational evaluation
suggested that A.S. at the age of 6 years 6 months was atleast 2 years behind his peers in a
Vineland Adaptive Behavior Composite score. The evaluations suggested that A.S.
needed significant intervention (estimated to be on the order of several hours each day) to
improve his expressive language. The evaluations also suggested that the intervention
should begin immediately during the summer. The proposed intervention by evaluator was
to teach A.S. some scripts that he could use in typical situations and also assisting A.S. to
generalize those scripts while interacting with typically developing peers.
On 6/22/2017 an IEP meeting was held and the CSE offered--a dismally insufficient--one
hour of intervention per week to A.S. in his LRE. The LRE was a structured camp setting
run by a licensed teacher that offered available indoor space for intervention to be
provided both privately and in the presence of peers. The camp setting was within the
locale of the school district. Parents had requested several hours of intervention each day

17 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 18 of 107
A 214

in the camp setting to work on conversational skills with and without other peers, speech
and basic academics. However, Shen declined to increase the offer to greater than 1 hour
of intervention each week, broke into 2 30-minute sessions, citing staffing shortages and
funding limitations. The one-hour of intervention was never provided due to a
combination of scheduling conflicts and later A.S. enrolling in a camp outside the district
in late July 2017. The decision to enroll A.S. in a camp outside the district was made in
part by the rather insignificant offering of one hour of intervention per week during the
summer.
62. A.S. did not receive a single hour of intervention delivered by Shen or arranged by
Shen for the entire 2016 — 2017 school year, nor for the summer of 2017 totaling a
period of 12 months.

In parents opinion A.S. had experienced a significant regression

during the summer due to Shen lack of interest in providing A.S. with an extended school
year in his LRE. In parents observations and based on comparing prior skills assessments
A.S. did not fully recover from his summer regression until late October 2017 placing A.S.
developmentally at the same position he was in mid June 2017 with stronger reading and
reading comprehension skills over June 2017. From late October 2017 to January 2018
A.S. has shown further improvement in reading comprehension, use of typical peer-aged
language, improvements in math word problem solving, improvements in hand writing,
improvements in sentence construction when writing, improvement in understanding
abstract concepts and conversation initiation with a number of peers his age has also
improved. However, similar to late October A.S. change in conversational ability and
expressive language with same or similar aged peers has not improved. Likewise A.S.
prompt dependence has shown no improvement/reduction also of significant concern.

18 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 19 of 107
Pipp 215

During an October 10, 2017 IEP meeting the Elementary Committee for Special Education
Chairperson would not agree to place a peer aged conversational exchange goal on A.S.
2017 — 2018 IEP, would not agree to place a reduction in prompt dependence goal on A.S.
2017 — 2018 IEP and would not agree to arrange for A.S. to have a shadow assist him with
conversation during lunch and recess periods. A.S. needs a lot of improvement to be
caught up to peers as he is still atleast 2 and 1/2 years behind his peers in conversational
ability. That is to say that the gap in conversational ability has widened between June
2017 and January 2018. Parents hold opinion that the three reasons for this lack of
progress in conversational ability and prompt dependence are: 1) the combined summer
regression and early fall recovery that left A.S. with nearly no progress, in a most areas,
for 4 months and 1/2 months or more than 1/3 of the year 2) is the Elementary CSE
Chairperson Renee Young's unwillingness to place a conversation exchange nor reduction
in prompt dependence goal on A.S. IEP 3) Renee Young's unwillingness to have an
invisible shadow (not fully assigned to A.S. consistent with Parents New Ex. T p. 5146 —
5149) assist A.S. with peer-to-peer conversation during lunch and recess periods
On July 7, 2017 E.S. and R.S. filed amended complaint Dkt. No. 10 ("Amended
Complaint"). Also, on July 7, 2017 all Defendants were served Dkt. No. 10 ("Amended
Complaint")
The original Rule 26 conference scheduled for August 8, 2017 was moved to October 3
2017. Reply date to the complaint was moved to September 11, 2017. The court later on
August 7, 2017 required responsive pleadings by 8/14/2017 as a result of a sealed motion
Dkt. No. 27 ("Preliminary Injunction Motion") by Plaintiffs that was denied See Dkt. No.
29 ("Decision and Order") but there was a further order for all defendants to reply to the

19 of 107

Case 1:17-cv-00501-LEK-CFH Doxuzeg676' Filed 01/22/18 Page 20 of 107

amended complaint within 7 days. The School Board answered the Amended Complaint
on August 11, 2017, Dkt. No. 36 ("District Answer").
On August 11, 2017 Defendants Elia and Bates submitted a Motion to dismiss the claim
Dkt. Nos. 35 ("Motion"), 35-3 ("Memorandum").
On August 22, 2017 Plaintiffs relocate from address within Shen School District to New
Address again within Shen School District,
On August 29, 2017 Plaintiffs file opposition to Motion to Dismiss Dkt. No. 50
("Opposition").
On September 7, 2017 R.S. meets with Shen to enroll A.S. in first grade. A.S. is assigned
to a cotaught classroom with Special Education and related services on A.S. IEP and
attends first day at Arongen elementary school on 9/12/2017. The school day is from 8:05
am — 2:15pm.
Over, the course of 4 months Parents are of opinion that the cotaught classroom has the
elements to be an appropriate placement for the duration of the school day. Parents feel
the the general education and special education teachers of the cotaught classroom are
exceptionally well trained and effective with A.S. in a number of relevant areas. Parents
are of the opinion that other educators that work with A.S. are also very effective with A.S.
Parents feel A.S. does not get appropriate support to engage in language exchange or
interactive play during recess and lunch periods and does not get a sufficient number of
opportunities to engage in language exchange throughout the school day. Parents are of
the opinion that A.S. should have conversational exchange goal and a reduction in prompt
dependence goal added to his IEP and the appropriate resources allocated to enable these
goals to be achieved.

20 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 21 of 107
pp 217

On September 22, 2017 Defendants Elia and Bates request to be excused from filing a
Civil Case Management Plan (CCMP) and excusal from the Rule 26 conference in light of
their pending motion Dkt. Nos. 35 ("Motion"), 35-3 ("Memorandum"). This court granted
the excusal on September 26, 2017.
At the Rule 26 conference between Plaintiffs and Defendant Shen a date for dispositive
motions was set to December 8, 2017. The date was later moved to December 19, 2017.
On December 13, 2017 Senior United States Judge Lawrence Khan issues a decision on
Dkt. Nos. 35 ("Motion"), 35-3 ("Memorandum"), 50 ("Opposition") and 51 ("Reply").
The motion is denied in part and granted in part. The decision finds that the complaint
against Defendant Bates is dismissed entirely with prejudice because the appropriate legal
precedent in any U.S. District Court and any Federal Circuit Court supports that her quasijudicial role entitles her to an absolute judicial immunity notwithstanding the arguments
made by Plaintiffs that alleged SRO Bates failed to act within her capacity ignoring
pertinent facts to arrive at illogical conclusion, where Bates found that A.S. was not
offered a FAPE but effectively mooted the case via her decision that did not follow legal
precedent and that SRO Bates discriminated against A.S.
The decision finds that the motion to dismiss the complaint against Defendant Elia is
granted in part and denied in part. The decision finds that the complaint against Defendant
Elia is at the proper venue that that district court has subject matter jurisdiction eliminating
the possibility of an entire dismissal via a subject matter jurisdiction argument. Judge
Khan's decision further finds that the Section 504 Claim (§ 504 of the Rehabilitation Act)
against Defendant Elia is dismissed because "[s]uch a claim . . . requires proof of bad faith
or gross misjudgment," id. (citing Wenger v. Canastota Cent. Sch. Dist., 979 F. Supp. 147,

21 of 107

Case 1:17-cv-00501-LEK-CFH Document8 76 Filed 01/22/18 Page 22 of 107
A

152 (N.D.N.Y. 1997), aff d mem., 208 F.3d 204 (2d Cir. 2000))." Judge Khan's decision
finds that while Federal law claims against a state official are not barred in U.S. District
Courts and the Federal Circuit, State Law Claims are barred by the Eleventh Amendment
in U.S. District and Federal Circuit courts and dismisses all such state law claims. With
regard to IDEA claims Judge Khan finds that "Insofar as Plaintiffs seek review of the
SRO's decision, e.g., Am. Compl. ¶¶ 56-59, the Court agrees that the Commissioner is not
a proper party. However, when a plaintiff "makes particularized allegations regarding a
policy alleged to have been affirmatively promulgated by (the State Education
Department)," the Commissioner is a proper party. Andrew M., 827 F. Supp. 2d at 141 n.3
("NYSED is a proper defendant in this action, which challenges a NYSED policy that
allegedly interferes with the IEP development process for disabled students in a systemic
manner."). Plaintiffs allege in their eighth cause of action that, by not requiring schools to
list a specific methodology in the Management Needs section on a student's IEP, the State
Education Department failed to provide A.S. (and other children with ASD) a FAPE as
required by the IDEA. Am. Compl. ¶¶ 87-101. According to Plaintiffs, A.S. "benefits
significantly" from ABA, a specific methodology for teaching children with ASD, and
they have requested that it be included in the Management Needs section of his IEP. Id. ¶
87. However, the State does not require school districts to list specific teaching
methodologies on IEPs, and the School District has not included ABA in A.S.'s IEP. Id.
Plaintiffs claim that, by not requiring specific methodologies to be listed in IEPs, the State
is not providing a FAPE to all students. Id. ¶¶ 90,
75. To the extent the Amended Complaint "state[s] a plausible claim that (the State Education
Department's) interference with the IEP process has hampered the progress of A.S.,

22 of 107

Case 1:17-cv-00501-LEK-CFH Doument 76 Filed 01/22/1
8 Page 23 of 107
App 219

Andrew M., 827 F. Supp. 2d at 141, the IDEA claims against Commissioner Elia survive

dismissal." Judge Khan finds that "Plaintiffs raise a number of new and novel claims in
their Opposition" but decides that "Plaintiffs cannot use their Opposition to add new
claims to the Amended Complaint." However, Judge Khan cites "it is within the sound
discretion of the district court to grant or deny leave to amend." McCarthy v. Dun &
Bradstreet Corp., 482 F.3d 184, 200 (2d Cir. 2007) (citing Zahra v. Town of Southold, 48
F.3d 674, 686 (2d Cir. 1995)). "The Court should give leave to amend a complaint "when
justice so requires." Fed. R. Civ. P. 15(a)(2)."... "[W]hen addressing a pro se complaint,
generally a district court 'should not dismiss without granting leave at least once when a
liberal reading of the complaint gives any indication that a valid claim might be stated.'"
Cusamano v. Sobek, 604 F. Supp. 2d 416, 462 (N.D.N.Y. 2008). Judge Khan Ordered that
"the following claims against Elia are DISMISSED: all State Law claims, all claims under
§ 504 of the Rehabilitation Act, and all claims under the Individuals with disabilities
Education Act, insofar as the claims are requests for review of the SRO's decision" and
that regarding Pro Se Plaintiffs "the Court grants Plaintiffs thirty days to amend the
Amended Complaint as to their claims against the School District and the remaining
claims against Commissioner Elia." keeping in mind that "In dismissing SRO Bates as a
defendant and some of the claims against Commissioner Elia, the Court has dramatically
reduced the scope of the Amended Complaint. However, some of the dismissed claims
against Bates and Elia could be properly brought against the School District.
76. As a result of the order to grant leave to Amend the Amended Complaint, the Dispositive
Motion Date of December 18, 2017 was reset until after a second scheduled conference
that will follow the receipt of the second Amended Complaint.

23 of 107

Case 1:17-cv-00501-LEK-CFH Documeat 76 Filed 01/22/18 Page 24 of 107
Pipp 220

CAUSES OF ACTION

FIRST CAUSE OF ACTION: FOR THE 2016 — 2017 SCHOOL YEAR SHEN
OFFERED A.S. AN INADEQUATE AND INAPPROPRIATE PENDENCY THAT WAS
NOT REPRESENTATIVE OF THE THEN CURRENT IEP AND THEN CURRENT
PLACEMENT WHEN THE DUE PROCESS COMPLAINT COMMENCED AND
NEVER REIMBURSED PARENTS FOR PROVIDING A.S. WITH INTENSIVE
BEHAVIORAL INTERVENTION IN PLACE OF THE INADEQUATE PENDENCY
OFFERING BY SHEN.
77. The due process complaint (Parents New Ex. L (Joint Ex. 1)) rooted in this action

commenced on August 5, 2016 while A.S.- was completing a summer session at
Newmeadow in an all-day integrated classroom that provided intensive behavioral
intervention (IBI) at an intensity of 5 hours per day (Parents New Ex. L). This program
was coupled with the parent's efforts to provide ABA with a heavy emphasis on Discrete
Trial Training (DTT) at an additional 20 - 25 hours per week.

A prior due process

complaint that commenced in November of 2015 (Parents New Ex. S) against Shen
regarding the regression A.S. experienced in the Connections Program resulted in a
resolution agreement (District Ex. 39) during November of 2015 stipulated that A.S.
would return to Newmeadow for the 2015 — 2016 school year as a general education
student (paid for by parents at about $500 per month) receiving special education services
(paid for by Shen). It is an educational standard that when a student attends a program
during a school year that student has access to that same program in the summer if such a

24 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
merit 76 Filed 01/22/18 Page 25 of 107
A 221

program is offered—a students new school year begins at the start of the standard school
year generally the first day of classes in the fall. While A.S. remained at Newmeadow for
the summer of 2016 because A.S. was compulsory aged—turning 6 years old prior to
December 1, 2016 A.S. was not permitted by New York State law to remain at
Newmeadow for the 2016 — 2017 school year. The pendency placement offered by Shen
and the program placement offered was considered to be a failure of Shenendehowa
Central School District to offer A.S. a FAPE in the LRE in the SRO decision. From this
failure of Shenendehowa Central School District to offer A.S. a FAPE in the LRE one can
also conclude that if that same program was not considered to be a FAPE in the LRE it
neither could it have been the adequate pendency placement.
78. Shen failed to reimburse parents for pendency placement (if their actions is so defined by
this court as pendency) of A.S. as part of the ABA intervention parents provided to A.S.
from 8/29/2016 — 2/7/2016. Shen's Director of Special Education received a bill for the
services provided by parents on 6/29/2017: the break down of the relevant part of the bill
was $30,875 for intensive behavioral intervention provided during the period 8/29/2016 —
2/7/2016 and $14,625 for ABA intervention provided from 2/8/2017 — 6/24/2017 totaling
$45,500. In the SRO decision the SRO's rational was (SRO Decision pp. 41) "however,
the parents now argue that the student's home-based ABA services, which began on
August 29, 2016, constitute the student's pendency placement. In this case, focusing the
inquiry on the last agreed upon placement at the moment when the due process proceeding
was commenced—here, August 5, 2016—leads to the conclusion that the student's homebased ABA services, which began on August 29, 2016, cannot be the student's pendency
placement (see Murphy, 86 F. Supp. 2d at 359), and therefore, the parents are not entitled

25 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 26 of 107
App 222

to reimbursement for the ABA services they provided to the student on this basis. Instead,
it appears that the special education services set forth in the resolution agreement—and
thereafter, reduced to the IEP entered into the hearing record as District Exhibit 33—
represents the student's last agreed upon placement at the time the parents commenced the
due process proceeding. Consequently, the parents' request to be reimbursed for providing
the student's home-based ABA services must be dismissed." This is seriously erroneous
rational forwarded by the SRO. First, the SRO assumes that the home-based ABA
services began on 8/29/2016. This contention is not accurate A.S. was receiving home
based ABA services from the parents since late spring of 2015 (that evolved to be more
complex and strategic in nature over time as a consequence of practice combined with
study of the theory and methods used in ABA) after the parents received training from the
Preschool's BCBAs.

Rather it is argued that on 8/29/2016 A.S. began exclusively

receiving intervention from parents. Up to that point parents provided ABA and DTT
intervention to A.S. at 20 hours per week. That duration increased to 50 hours per week
for most weeks from the period 8/29/2016 to 2/7/2017.
79. For purposes of reference—in the event that this court reviews the SRO decision--this
court should be made aware of the abuse of discretion the SRO took to arrive at much of
her decision. Among the abuse in discretion the SRO erred in determining that the last
agreed upon IEP was District Exhibit 33 since that IEP was dated 10/22/2015 and two due
process complaints were filed during early November 2015 an IEP. This was a seriously
erroneous assumption that the SRO applied because District Exhibit 33 preceded the due
process complaints. A further, erroneous assumption by the SRO was that District Exhibit
33 could be extrapolated to be the last agreed upon IEP from district Exhibit 39, the

26 of 107

Case 1:17-cv-00501-LEK-CFH Documerit 76 Filed 01/22/18 Page 27 of 107
App 223

resolution agreement. How could the SRO possibly conclude with any legal or logical
argument that a contested IEP, especially (District Ex. 33) one that never gained the
parents approval that resulted in a due process complaint because of its substantial
inadequacy could ever be A.S.'s pendency especially when a resolution agreement
follows.
What is even more confounding about the SRO decision is that the SRO seems to be
disorganized in that the SRO in one instance attempts derail the parents pendency
argument by stating that the parents began the intensive intervention on 8/29/2016 after the
date of the due process complaint of 8/5/2016 and then attempts to extrapolate that a
contested IEP, District Ex. 33 that was never supported (it was never, not for a moment, an
agreed upon IEP) by the parents, would be the pendency. How can a last agreed upon IEP
not be the resolution agreement and its specific fine details--that were written to ensure
that A.S. received a FAPE.
A review of the resolution agreement (District Ex. 39) reveals that part of the resolution
agreement states that the services would be provided at Newmeadow. And that the District
would transport the student to Newmeadow in the morning and then pick him up in the
afternoon. The transportation dropped of the student each day at the ABA Preschool at
approximately 9:00am and then picked him up each day at approximately 2:00pm. Thus,
the district transported the student to be at Newmeadow, with a school bus designated to
take A.S. to and from Newmeadow where A.S. was the only student on the bus, for 5
hours each day at 5 days per week at Newmeadow or 25 hours each week. Further the
Director of Special Education contacted the Preschool to make arrangements for them to
take A.S. as a general education student while agreeing to pay the Preschool for 5 hours of

27 of 107

Case 1:17-cv-00501-LEK-CFH Doument 76 Filed 01/22/18 Page 28 of 107
App 224

direct services per week. Taking these two facts: 1) that the Director made arrangement
for A.S. to return to Newmeadow 2) that the Director made arrangements for A.S. to be
transported to and from Newmeadow to be there for a 5 hour day strongly supports that the
last agreed upon IEP was one that included 25 hours of the ABA per week in a classroom
setting that includes typical peers for the entire duration. In addition to the 25 hours of
ABA programming at the preschool each week the parents provided ABA intervention to
A.S. at about 15 - 20 hours per week, and also during nearly all of A.S. waking hours.

SECOND CAUSE OF ACTION: SHEN DID NOT REIMBURSE THE PARENTS FOR
UNILATERAL PLACEMENT (IF THEIR ACTIONS ARE SO DEFINED AS
UNILATERAL PLACEMENT)
Shen did not remit parents reimbursement for unilateral placement (if their actions are so
defined as unilateral placement) of A.S. as part of the ABA intervention parents provided
to A.S. from 8/29/2016 — 2/7/2016.
(IHO Decision pp. 1 - 17) The IHO did not acknowledge request for retroactive tuition
reimbursement (regardless of whether the placement was Pendency or Unilateral
placement) for parents delivering an ABA behavioral therapy and instruction program.
Similarly, Shen failed remit payment to parents despite the SRO_finding that (NYSED
SRO Decision 17-008) "the evidence in the hearing record establishes that, contrary to the
IHO's determination, the district failed to offer the student a FAPE in the LRE for the
2016-17 school year." If district fails to offer a student a FAPE in the LRE then the child
is entitled to have reasonable costs associated with receiving an education reimbursed if
the parents can demonstrate that their private placement was appropriate. The SRO states

28 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 29 of 107

225

"the evidence in the hearing record does not include any notification by the parents that
they intended to withdraw the student from the district and seek reimbursement for
services, such as the 10-day notice of unilateral placement.called for by the IDEA (20
U.S.C. § 1412(a)(10)(C)(iii)(I); see 34 CFR § 300.148(d)(1)). Thus, other than the parents
now requesting reimbursement for delivering the home-based ABA therapy and
educational program as a unilateral placement, the hearing record contains no evidence
that I find is an appropriate basis upon which to predicate an award of tuition
reimbursement as envisioned under Burlington/Carter."
The SRO in this case makes a decision on the basis that there may be a limitation on
reimbursement. However, careful inspection of the reference Procedural Safeguards
Document reveals the following guidelines for recompense (pg. 40 — 41 of the June 2016
version of the Procedural Safeguards Notice):
Reading into the Procedural Safeguards the cost of reimbursement "2. may, in the
discretion of the court or an IHO, not be reduced or denied for the parents' failure to
provide the required notice if: (a) the parent is not literate or cannot write in English; or (b)
compliance with the above requirement would likely result in serious emotional harm
to the child."

Again referencing the same exhibits and testimony in the transcript the

parents also argue that even 10 days in the connections program would have likely resulted
in serious emotional harm to A.S. The parents further state that on or about 9/14/2016
R.S. had a conversation with Principle Pace of the Tesago Elementary School Stating that
A.S. would not attend the Connections Program because it would endanger A.S. well
being.

The SRO should have reached this conclusion since the parents issued the

statement that the Connections Program would likely result in serious emotional harm to

29 of 107

Case 1:17-cv-00501-LEK-CFH Documenl 76 Filed 01/22/18 Page 30 of 107
App226

A.S. to Shen on 2/28/2017 the day after enrolling A.S. in Saratoga Academy and faxed a
copy of the unilateral placement to the SRO. It should also be noted that R.S. left Tesago
Elementary School a voicemail on Friday September 12, 2016 the 5th day school was in
session informing the school that he was not comfortable sending A.S. to the Connections
program this was because of concerns for A.S. emotional well being given his reaction
(that included a significant regression that took two months to recover from the
Connection Program in Fall 2015 (See Parents New Ex. L) and the inappropriateness of
the program for A.S.
In prior cases such as (Application of the..., Appeal NYSED SRO Decision No. 15-025)
SRO cites that "A board of education may be required to reimburse parents for their
expenditures for private educational services obtained for a student by his or her parents, if
the services offered by the board of education were inadequate or inappropriate, the
services selected by the parents were appropriate, and equitable considerations support the
parents' claim (Florence, 510 U.S. 7 (1993); Sch. Comm. Of Burlington v. Dep't of Educ.,
471 U.S. 359, 369-70 (1985); T.P. v. Mamaroneck Union Free Sch. Dist., 554 F.3d 247,
253 (2d Cir. 2009)).). In Burlington, the Court found that Congress intended retroactive
reimbursement to parents by school officials as an available remedy in a proper case under
the IDEA (471 U.S. at 370-71; see Gagliardo, 489 F.3d at 111; Cerra, 427 F.3d at 192).
"Reimbursement merely requires (a district) to belatedly pay expenses that it should have
paid all along and would have borne in the first instance" had it offered the student a FAPE
(Burlington, 471 U.S. at 370-71; see 20 U.S.C. § 1412(a)(10)(C)(ii)"
Further in (Application of a STUDENT WITH A DISABILITY, NYSED SRO Decision
No. 15-001) if a district fails to offer a student FAPE, it is next necessary to consider

30 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
8 Page 31 of 107
ment 76 Filed 01/22/1
A 227

whether the unilateral placement selected by the parent was appropriate. A.S. is provided
educational instruction specially designed to meet his unique needs at the correct intensity
of 50 hours per week targeted intervention in addition to nearly all his waking hours in a
active but untargeted sense. A private school placement" (in A.S.'s case a program
delivered by R.S. and E.S. designed to meet his unique needs) "must be "proper under the
Act" (Carter, 510 U.S. at 12, 15; Burlington, 471 U.S. at 370), i.e., the private school must
provide an educational program which meets the student's special education needs (see
Hardison v. Bd. of Educ., 773 F.3d 372, 386 (2d Cir. 2014)"... " A parent's failure to
select a program approved by the State in favor of an unapproved option is not itself a bar
to reimbursement (Carter, 510 U.S. at 14). The private school need not employ certified
special education teachers or have its own IEP for the student (id. at 14). Parents seeking
reimbursement "bear the burden of demonstrating that their private placement was
appropriate, even if the IEP was inappropriate" (Gagliardo, 489 F.3d at 112; see M.S. v.
Bd. Of Educ., 231 F.3d 96, 104 (2d Cir. 2000)"
88. In bearing the burden that the home based ABA intervention program was appropriate for
A.S. the parents first cite the SRO decision pertaining to the appropriateness of A.S. goals.
While the parents dispute the appropriateness of the goals laid out in the disputed IEP ((tab
128) District Exhibit 45 pp. 6). Astonishingly, the SRO ruled that the goals set fourth in
the disputed IEP were appropriate (See SRO Decision pp. 25)"As the discussion above
demonstrates, the evidence in the hearing record leads me to the overall conclusion that the
annual goals in the June 2016 aligned with and targeted the student's needs identified in
the present levels of performance, appropriately addressed the student's needs, and were
sufficiently specific and measurable to guide instruction and to evaluate the student's

31 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
ment 76 Filed 01/22/18 Page 32 of 107
228

progress over the course of the school year" In comparing A.S. progress in the January
27th, 2017 update provided on A.S.
89. These exhibits are educational updates that were provided to the Shenendehowa School
District despite no IHIP being filed. A.S. made quite substantial gains from the intensive
ABA intervention that we the parents provided. For example, compare A.S.'s educational
updated dated 1/27/2017 (Parents New Exhibit SSS) to the IEP goals ((tab 128) District
Exhibit 45 pp. 5) that CSE proposed for A.S. to achieve by 6/15/2017 and you will notice
that these achievements are far beyond the goals that CSE set in the last IEP that the CSE
generated (this was the IEP that was contested per the Due Process Complaint) in every
category. As another point to support the parents provided an appropriate program and a
program more appropriate than that of the Connections Program the parents cite the
testimony by the Fall 2015 Kindergarten Connections Program Teacher for A.S. during the
fall of 2015. She later applied an educational technique demonstrated by R.S. to get
results that showed that A.S. (Tr. pp. 212 — 213; 476) skill level was beyond what was
recorded in the Connections Classroom albeit still not consistent with level observed at
home. To this extent, the Parents had to provide a demonstration to the Tesago
Elementary schoolteacher to help demonstrate that A.S. level was beyond what she was
able to get him to demonstrate in the class. Again supporting the appropriateness of the
home based program provided to A.S. Another element of the home-based program was
exposure to typically developing peers. To this extent A.S. attended after school care 2 — 3
days a week and soccer two times each week totaling 5 opportunities per week for social
engagement in both conversational situations and competitive sport situations. At
afterschool care parents worked with the staff to create social opportunities that increased

32 of 107

Case 1:17-cv-00501-LEK-CFH Document9 76 Filed 01/22/18 Page 33 of 107
Pi

A.S. social participation within the classroom using a book Making a Difference by
Catherine Maurice proving exercises for increasing peer interaction in the classroom. R.S.
ensured that A.S. participated in an educational and social experience that was consistent
with kindergarten general education and his progress reflected that such a program was
appropriate and well thought out by R.S. and E.S.

THIRD CAUSE OF ACTION: THE DEFENDENTS FAILED TO OFFER AND
FAILED TO PROVIDE A.S. WITH A FAPE IN THE LRE FOR THE 2016 — 2017
SCHOOL YEAR BUT SHEN DOES NOT REIMBURSE LEGAL FEES TO PARENTS
While the SRO states that "the evidence in the hearing record establishes that, contrary to
the IHO's determination, the district failed to offer the student a FAPE in the LRE for the
2016-17 school year." No Pro se legal fees were reimbursed to parents as part of the feeshifting provision of IDEA, 20 U.S.C. § 1415(i)(2)(A) even though the fees were
reasonable and amounted to $50 per hour for 500 hours of effort and $1,500 in expenses.
One might argue that pro se litigants are not entitled to reimbursement in special education
proceedings citing (Rappaport v. Vance, 812 F. Supp. 609 (D. Md. 1993)).
Such an argument itself is without true merit because should prevailing parties under
IDEA only be entitled to reimbursement of legal representation fees by an attorney then
this provision is certainly a very special provision reserved for those who can afford
attorney fees for attorneys that have a strong enough background to navigate through such
complex cases. Legal fees for attorneys that have the requisite background to fully
understand the legal basis, be able to navigate through extensive special education
evaluations, IEPs, understanding the publications and knowing the specific evidence based

33 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 34 of 107
Pi 230

approaches in autism spectrum disorder, understand the nuances between a good_and bad
approach, understanding the classroom environment and being able to tie everything
together generally costs $250 - $750 per hour. Parents felt legal fees of 1/5 to 1/15 those
figures was very conservative. In general parents have been permitted to represent their
child pro se because of the excessive costs to litigate such intricately complex cases that
precluded most with such a valid educational dispute from appealing the disputes. The act
of representing one's child pro se is an effort that ultimately supports the education of the
child, if the parent is the prevailing party, as it lays a foundation for the future education of
the child and ultimately their ability to live independently in society.
Thus, prevailing pro se parents must be entitled to reimbursement because if they are
indeed prevailing then they must have navigated through the legal procedure in a
sufficiently adequate manner to prevail and legally demonstrate the merits of their child's
case.
Because of the relationship between time and money there is an obvious advantage given
special education cases where parents hire a lawyer. Should those parents that hire a
lawyer prevail they are awarded reimbursement. Thus, they are at break even with regards
to legal expenses. Their net cost is sufficiently less. On the other hand, if a parent is not is
a position to lay down the money and is strongly convinced their child has been denied
their educational rights then they must represent their child pro se and if they prevail the
time invested can not be recovered. This unfair burden to conveying to parents that their
time is of no recoverable value in pro se representation further erodes the special education
system in this country because it positions schools to engage in a greater number of
failures to offer a FAPE in the LRE. Further, it effectively reduces both the number of

34 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 35 of 107
App231

valid cases that are pursued by financially strained parents and effectively erodes the spirit
of pursuit knowing that they must invest such a great deal of time in a valid case where
they forgo earnings unrecoverable they could have made had they concentrated on their
job thereby jeopardizing their overall financial position even when they are the prevailing
partYThe merits of awarding parents reasonable pro se representation fees when they are the
prevailing party far outweigh the merits of not doing so.

FOURTH CAUSE OF ACTION: THE SRO CONTORTS MUCH OF THE FACTS
TWEAKING THEM IN A MANNER FAVORABLE FOR THE DEFENDANTS.
The SRO has written much of the decision with interpretation of information to
erroneously draw conclusions to "contort" information in a convenient manner to reach an
erroneous conclusion. However, here the number of times that the contortion occurred to
disfavor the parents and favor the district strongly suggests they must have been
knowingly done by the SRO. In one case the SRO could argue that the information was
sufficiently high and difficult to navigate through to warrant the errors. Next, the SRO
might argue that the SRO disfavored the parents because the SRO gives the district the
benefit of the doubt while denying parents such a privilege, creating a double standard,
which led to the numerous errors favoring the district. However, that would be unfair in
the face of the law. Finally, both parties were local to the SRO and the SRO could have
easily scheduled a conference with both parties to get clarity on the information that was
needed to aid in the interpretation of facts.

35 of 107

Case 1:17-cv-00501-LEK-CFH Documerg 76 Filed 01/22/18 Page 36 of 107
Pipp 232

FIFTH CAUSE OF ACTION: THE SRO ERRED BY NOT SUPPORING THE
PARENTS REQUEST THAT THEIR EXHIBITS SHOULD HAVE BEEN ACCEPTED
BY THE IHO AND THAT IS UNFAIRLY DISADVANTAGED A.S. CASE. THE SRO
RENDERED THIS DECISION WITH DISREGARD FOR THE USE OF PROPER
LEGAL PROCEDURE
"The IHO refused to accept nearly all of our exhibits into evidence (Tr. pp. 56 — 108),
preventing the IHO from considering them in his decision and preventing us from using
them to question witnesses and use them for our brief" "

The SRO Justyn Bates

wrongfully prevented admitting any of that evidence (that makes up 45 exhibits) in our
appeal.
The entire process of proffering exhibits was biased in favor of the Shenendehowa School
District and further nearly every exhibit that the parents proffered was not admitted into
evidence thus the parents cited the entire portion of the transcript as it relates to the
proffering of exhibits (Tr. pp. 56 — 108). The SRO goes on further to say: "Moreover,
while impartial hearing rights include the right of both a parent and a district to "present
evidence and confront, cross-examine, and compel the attendance of witnesses" (34 CFR §
300.512(a)(2); see 8 NYCRR 200.5(j)(3)(xii)), State regulation requires that an IHO
"exclude evidence that he or she determines to be irrelevant, immaterial, unreliable or
unduly repetitious" (8 NYCRR 200.5(j)(3)(xii)(c))."
The SRO fails to mention that the IHO determined the evidence to be beyond the scope of
the hearing (Tr. Pp. 58, 61, 67 - 68) instead citing a generalization from (8 NYCRR

We could spend many pages justifying the exhibits and were not permitted additional space to
do so based on correspondence with the Office of State Review. (Correspondence from Nicholas
Steinbock-Pratt on 1/20/2017.)

14

36 of 107

Case 1:17-cv-00501-LEK-CFH Dorea 76 Filed 01/22/18 Page 37 of 107
3

200.5(j)(3)(xii)(c)) rather than the specific course the IHO took to prevent admission of
evidence. The nature of the SRO's response is to the extent that the SRO criticizes of the
parents appeal only to so conveniently use the very same approach the SRO's own
response when the SRO does not have such a page limit.
100. The IHO's determination of the scope of evidence was that any shred of evidence provided
by the parents may only be admitted into evidence if it pertained directly to A.S. (Tr. pp.
65 — 67; 69 - 71) More specifically, the document itself must specifically mention A.S.'s
name to be admitted (Tr. pp. 65 - 71) or A.S. must be a subject of that specific study
referenced in the publication to that extent that he must be a data point or make up the
statistic. For example, the parents proffered publications on interventions (known as Early
Intensive Behavioral Intervention (EIBI) or Intensive Applied Behavior Analysis (ABA))
that A.S. had been subjected to at Newmeadow but the IHO sustained the defenses
objection where the IHO cited that A.S. was not a subject in the study. Where the IHO' s
position was that such exhibits were beyond the scope of the hearing. However, the IHO
so conveniently took in documentary evidence that did not pertain to A.S. (Tr. pp. 550 558) that are referred to as IHO Exhibits 1 - 4. The manner in which it was executed was
for the 1140 to persuade parents into initially making it a joint exhibit. These 2 documents,
related to the Developmental Approach by Barry Prizant known as IHO exhibit 1 (Tr. pp.
557) are documents related to an approach that the fall 2016 Tesago Special Education
Connections Kindergarten teacher was familiar with as a result of attending seminars given
by Barry Prizant, but which the fall 2016 Tesago Special Education Connections
Kindergarten Teacher was not credentialed in. However, there were two such witnesses

37 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 38 of 107
234

that had credentials in ABA, known as Board Certified Behavior Analysts (BCBA), but the
IHO still refused to admit parent's exhibits and publications on ABA.
The SRO goes on further to say that "Consistent with State regulation, a review of the
transcript cited by the parents reveals that the parents presented each and every exhibit for
the IHO's consideration, that in many instances the district's attorney voiced objections to
the exhibits, and the IHO explained the rationale underlying his decision to ultimately
sustain the district's objections to preclude the parents' evidence (see Tr. pp. 56-108)."
However, again the SRO faults the parents for not being specific in how the IHO
prevented evidence from being admitted but again cites the same exact section of the
transcript (Tr. pp. 56-108) that the parents cited in their appeal to the SRO. Further, there
is no single mention of the IHO's specific rational for not admitting evidence only a
reference to (Tr. pp. 56-108).
"A review of the same portions of the transcript also reveals that the IHO made
considerable efforts to assist the parents throughout their evidentiary submissions by
explaining the role of evidence and by indicating that, subject to a proper foundation
elicited from a witness, some of the parents' evidence (i.e., articles or publications) might
then be entered in the hearing record as evidence (see, e.g., Tr. pp. 56-60, 64-67, 71-72,
92, 97-98)." Here the SRO attempts to not only further justify the IHO's precluding of the
parents' evidence but also the SRO attempts to demonstrate that the IHO was assisting the
parents in evidentiary submissions rather than state what actually occurred--the IHO
created his own list of biased rules for the admission of evidence.
Careful examination of the record would reveal that the IHO would not allow admission of
the articles or publications proffered under no circumstance. Rather, what was allowed

38 of 107

Case 1:17-cv-00501-LEK-CFH Documerit 76 Filed 01/22/18 Page 39 of 107
pp 235

was that if a witness was familiar with an article or publication they may look at it and
prosecution may ask questions that pertain to the articles. But under no circumstance was
the witness or the parents allowed to read out loud for the record any information from the
publications, not admitted into the record see Generally (Tr. pp. 58 — 71) also see IHO
conduct towards R.S. questioning of witnesses with regard to specific proffered exhibits
not received into the record by the IHO.
Ultimately the IHO and SRO have unfairly disfavored the parents case with regards to
both the management needs section and programming section of A.S. IEP.
Specifically, A.S. benefits substantially from an intensive ABA (or EIBI, intensive ABA
and EIBI are one in the same) program in a full inclusion classroom environment15. This
precluding of exhibits on the intervention that A.S. received is no different than excluding
exhibits of publications on pharmaceuticals that a patient took, for the same ailment that
was the subject of study in the publication, citing that the patient was not a test subject in
the publication.
There is no rational for not admitting the exhibits. At the very least ailments are classified
so that proper intervention can be provided. To preclude evidence that shows intervention
efficacy is to legally preclude the needed intervention all together in the form of a decision
by both the IHO and SRO. I would imagine that when people with some ailment that are
denied a needed treatment engage in a legal pursuit that it would be necessary to prove that

15 To

clarify we will define full inclusion to be a typical classroom where the percentage of
students with an IEP would be essentially equivalent to the percentage of students at that grade
level with an IEP in the community the school district or school serves. Thus, if the IEP rate
for the community population of 1St graders is 5% then the number of students in a first grade
class of 25 with an IEP would be 1 student but would never exceed 2 students.
39 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/1
8 Page 40 of 107
App 236

some form of treatment has efficacy to establish that they needed it to begin with and also
to establish that the other treatments have not been effective.

SIXTH CAUSE OF ACTION: PRECLUDING THE USE OF METHODOLGY IN AN
IEP IS TO PRECLUDE A.S. AND OTHER CHILDREN WITH AUTISM THEIR
LEGAL RIGHT TO A FAPE—THAT IS PROVIDED BY INTENSIVE ABA
INTERVENTION—THAT IDEA IS SUPPOSED TO GUARANTEE.
COMMISSIONER ELIA'S PROMULGATES AND SUPPORTS THAT A STUDENT
DOES NOT HAVE A RIGHT TO METHODOLOGY ON THEIR IEP. THUS, THE
COMMISSIONER OF EDUCATION HAS INTERFERED WITH THE IEP PROCESS
OF A.S. AND HAS COMPROMISED HIS WELL BEING.
107. A.S. benefits significantly from an intensive ABA approach when provided in conjunction

with typically developing peers without an IEP in a full inclusion environment where the
full inclusion environment is delivered for the entire school day. However, Shen has
constantly hidden behind a rule where the CSE, including the director, generally claim that
schools are not required to list methodology on an IEP' s Management Needs Section.
Both the IHO and the SRO supported that methodology was not a component of A FAPE.
(See SRO Decision pp. 10) "Finally, the IHO conveyed that while "much of the parents'
testimony and argument focused on ABA as being the only method to instruct their son,
there [was] strong judicial authority in support of the legal proposition that IDEA d[id] not
guarantee a right to a particular methodology or personnel" (IHO Decision at p. 16). As
such, these matters were "appropriately left within the discretion of the local school
authorities provided the method selected provide[d] FAPE" (id.)." Leaving LEAs with

40 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 41 of 107
A P 237

broad methodological latitude or a right to not put methodology at all in the delivering of
an IEP to students with ASD would not survive the Daubert Standard in court. That is
according to https://www.law.cornell.edu/wex/daubert_standard the Daubert Standard is
defined as follows "Standard used by a trial judge to make a preliminary assessment of
whether an expert's scientific testimony is based on reasoning or methodology that is
scientifically valid and can properly be applied to the facts at issue. Under this standard,
the factors that may be considered in determining whether the methodology is valid are:
(1) whether the theory or technique in question can be and has been tested; (2) whether it
has been subjected to peer review and publication; (3) its known or potential error rate; (4)
the existence and maintenance of standards controlling its operation; and (5) whether it has
attracted widespread acceptance within a relevant scientific community." How can
Defendant Elia Defend a position that intervention for students with ASD at respective
LEAs does not have to be subjected to the Daubert Standard.
108. The SRO upholds the IHO decision that methodology is not required but later on page 13
of the decision states "Two purposes of the IDEA (20 U.S.C. §s 1400-1482) are (1) to
ensure that students with disabilities have available to them a FAPE that emphasizes
special education and related services designed to meet their unique needs and prepare
them for further education, employment, and independent living; and (2) to ensure that the
rights of students with disabilities and parents of such students are protected (20 U.S.0
1400(d)(1)(A)-(B))" The SRO goes on further to say "A FAPE is offered to a student
when (a) the board of education complies with the procedural requirements set forth in the
IDEA, and (b) the IEP developed by its CSE through the IDEA's procedures is reasonably
calculated to enable the student to receive educational benefits" However, there are no

41 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
menl 76 Filed 01/22/18 Page 42 of 107
A 238

known programs, not grounded in ABA, that consistently confer (by universal measures)
educational benefits. And while some people might claim there they do confer educational
benefits they always fail to provide standardized statistical information on IQ and
Vineland Adaptive Behavior scales (VABS) or similar measures of adaptive behavior
(measures would include: expressive language, receptive language, communicative skills,
self-help skills and social skills). The two measures of intelligence and adaptive behavior
are among most important measures of a child with autism. The most important measure
to gauge ones ability to be independent in society and their progress in autism is surely a
standardized measure of expressive language, an assessment of conversational skills with
their typical developing peers and the degree of prompt independence of the student. The
ability to independently engage in conversational exchange and apply reason through the
use of expressive language is surly the most important measure of a child's future
independence in society. This measure is so important because conversational skills is
also a general measure of conceptual understanding of a large enough variety of subject
areas that are necessary in order to consistently carry out conversational exchanges with
ones typically developing peers. There are no guarantees to methodology, such as ABA
methodology that could be used to develop these skills and further no guarantees nor
accountability of the LEAs to address these areas of development on the IEP decreasing
the likelihood that a child with ASD will be able to participate in society as an adult.
Further, there are no measures of LEA specific program efficacy on the comprehensive
individual or specific programs offered at the schools and thus there is no accountability
whatsoever.

42 of 107

Case 1:17-cv-00501-LEK-CFH Dooupp
meM 76 Filed 01/22/18 Page 43 of 107
239

Consequently, there are sizable portion (more than 70%) of students with ASD that are
seriously shortchanged by IDEA where IDEA does not ensure that students with ASD
"have available to them a FAPE that emphasizes special education and related services
designed to meet their unique needs and prepare them for further education, employment,
and independent living"
Here we argue that this that is set by the Commissioner of Education causes undue and
irreparable harm on students with ASD that substantially benefit (typically > 92%) from
ABA by not requiring ABA be provided to them in the environment desired if parents so
request it. The SRO states (SRO Decision pp. 33) "State regulation and guidance
documents define management needs as the "nature and degree to which environmental
modifications and human or material resources are required to enable the student to benefit
from instruction" (8 NYCRR 200.1(ww)(3)(i)(d); see "Guide to Quality Individualized
Education Program. (IEP) Development and Implementation," at p. 20, Office of Special
Educ.

(Dec.

2010),

available

at

http://www.p12.nysed.gov/specialed/publicationshepguidance/IEPguideDec2010.pdf
(providing examples of environmental modifications (i.e., consistency in routine, limited
visual or auditory distractions, adaptive furniture), human resources (i.e., assistance in
locating classes, following schedules, and note taking), and material resources (i.e.,
instructional materials in alternative formats)))"... "A student's management needs must
be developed in accordance with the factors identified in the areas of academic or
educational achievement and learning characteristics, social development, and physical
development, and reported in the student's IEP (see 8 NYCRR 200.1(ww)(3)(i)(d),
200.4(d)(2)(i))." While the SRO cites these specifics neither the SRO nor the

43 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 44 of 107
.Pipp 240

Commissioner of Education make any effort to establish how they can be accomplished
without the use of proven evidence-based methodologies. Rather, these appear to be just
objectives with no guidelines for how they are accomplished for specific ailments. This
ill-informed approach to not require specific proven approaches to treat students whose
educational needs can result in serious future consequences if not addressed renders the
tenets in IDEA related to IEP management needs to nothingness leaving too great a
latitude to the school districts.
111. Further the SRO goes on to say (SRO Decision pp. 35) "Turning specifically to the
question of methodology, the director initially stated that "[w]e do not include
methodology in the IEP" (Tr. p. 508).16 The director also testified that placing a
methodology on an IEP "pigeonhole[d] a staff member into only utilizing one very specific
tool that may or may not work for the student" and it provides the teacher with "no
flexibility to access their professional knowledge" (Tr. pp. 508-09)." The statement from
the director should have received criticism from the SRO rather the SRO condones the
decision of the director to not include methodology siding with the district that the teachers
have sufficient background to help a student with ASD make progress but offers no such
proof that they are qualified to do so. Perhaps part of the issue lies in the fact that a degree
in special education is not a proof that the teacher can effective educate a child with ASD
despite that the SRO does not question how the special education teachers at Shen will be
effective in education children with ASD. To accomplish this Shen would have to prove
that they are increasing student's IQs, Adaptive Behavior and Expressive Language DQ

16 She

explained that it was not included for a "number of reasons," most significantly because
when hiring "professionals to teach and provide services to students, we rely on their expertise
and their ability to carry out an IEP" (id.).
44 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01122/18 Page 45 of 107
ipp 241

(Developmental Quotient), ability to engage in conversational exchange and reduce their
prompt dependence consistent with proven methodologies.
112. The SRO goes on further to say (SRO Decision pp. 36) "Generally, a CSE is not required
to specify methodology on an IEP, and the precise teaching methodology to be used by a
student's teacher is usually a matter to be left to the teacher's discretion—absent evidence
that a specific methodology is necessary (Rowley, 458 U.S. at 204; R.B. v. New York City
Dep't of Educ., 589 Fed. App'x 572, 575-76 (2d Cir. Oct. 29, 2014); A.S. v. New York
City Dep't of Educ., 573 Fed. App'x 63, 66 (2d Cir. July 29, 2014), aff g 2011 WL
12882793, at *16 (E.D.N.Y. May 26, 2011) (noting the "broad methodological latitude"
conferred by the IDEA); K.L. v. New York City Dep't of Educ., 530 Fed. App'x 81, 86 (2d
Cir. July 24, 2013); R.E., 694 F.3d at 192-94; M.H., 685 F.3d at 257 (indicating the
district's "broad discretion to adopt programs that, in its educational judgment, are most
pedagogically effective"); see M.L. v. New York City Dep't of Educ., 2014 WL 1301957,
at *12 (S.D.N.Y. Mar. 31, 2014) (finding in favor of a district where the hearing record did
not "demonstrate) that [the student] would not be responsive to a different methodology");
but see A.M. v. New York City Dep't of Educ., 845 F.3d 523, 541-45 (2d Cir. 2017)
(holding that "when the reports and evaluative materials present at the CSE meeting yield a
clear consensus" regarding methodology, absent evidence to the contrary a program that
does not recommend the use of that methodology will not be reasonably calculated to
enable the student to receive educational benefits))." This statement by the SRO that
hearing record did not demonstrate that the student would not be responsive to a different
methodology is a fallacy: How can one prove this where there are an infinite number of
possible approaches to intervention by virtue of the exponentially increasing number of

45 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 46 of 107
Pi 242

combinations one could develop with all the approaches listed. The term coined eclectic
intervention or mixed method approach allows for this exponential increase. Further,
should a district first try every possible approach on a student that the district has
qualifications in for several years only to find out that none were effective and so much
time has passed that it may not be possible for the child with ASD to catch up. The more
appropriate statement should have been to state that it must be proven that students with
the condition of said student do respond well to the methodology provided. Here we argue
that it was the case that on August 5, 2016 it was established that A.S. only responded well
to ABA through his own experiences and regressed substantially from the Connections
Program see (Joint Ex. 1 and Joint Ex. 37), that A.S. incidentally underwent an ABAB
reversal " See the Wikipedia Article on single Subject Research
(https://en.wikipedia.org/wiki/Single-subject_design): The reversal design is the most
powerful of the single-subject research designs showing a strong reversal from baseline
("A") to treatment ("B") and back again." by virtue of the fact that "A" he did not receive
ABA with neurotypical peers for the entire school day (did not make much progress) then
"B" received ABA with neurotypical peers (made much progress) then "A" ABA was
removed and neurotypical peers were removed for the entire school day where A.S. was
placed in Tesago Connections Program (substantially regressed) and then "B" went back
to ABA with neurotypical peers for the entire school day and again made much progress
(See Joint Exhibit 1 and Joint Exhibit 37). Second we argue that when the director was
asked to provide proof that the Connections Program helped students make gains in
cognition or adaptive behavior she could not provide a single statistic stating the she
neither had the data nor conducted the tests on the students to get the data (Tr. Pp. 530 -

46 of 107

Case 1:17-cv-00501-LEK-CFH Doc
Document
pp
76 Filed 01/22/18 Page 47 of 107
A 243

550)17. We find that amusing given that she has been the director for a number of years.
Finally, we argue that we have proffered a number of exhibits containing published data on
ABA and that it has been shown that ABA is the only methodology proven to be effective
for Autism by the American Psychological Association. According to the American
Psychological Association (APA) in order to validate a treatment approach to autism it is
required to have at least 9 studies involving at least 20 persons from six different sites.
EIBI also referred to as Intensive ABA has 22 different studies published over the last 20
years.18
Limiting the use of an effective technique by preventing the use of any term that is defined
to be a methodology is like to deny a patient with many difficulties the very treatment that
will enable them to be a productive member of society
Why would the Commissioner of Education want to prevent children with ASD access to
the intervention that is proven to both increase their IQ and adaptive behavior scale
(placing a heavy emphasis on expressive language and conversational skills derived from
adaptive behavior which is the demonstration of conversational skills in a variety of
settings): the only two measures that indicate whether one can expect to fully recover from
their autism. And why would she want to remove the responsibility of the school districts
to be required to provide an intervention that would help the ASD students make real
progress.

17 The

director of special education stated to parent during a phone call that she did have much
of the individual data (by universal measures of cognition and adaptive behavior) on the
students.
18EIBI or Intensive ABA is the only validated approach to treating autism that meets the
APA's treatment validation definition. See (Parent New Ex. PP time 1:15:00 — 1:16:25).
47 of 107

Case 1:17-cv-00501-LEK-CFH Doc
Pp
Document
76 Filed 01/22/18 Page 48 of 107
Pi 244

In this sense it can be argued (but certainly not required nor a necessary requirement to
validate this cause of action) that the United States Government should be a Plaintiff in
this complaint as well, given that is the. U.S. Government that ultimately foots the bill for
the people with ASD that never become fully independent. Exhibit 14 (N): Are Autism
Facts and Statistics Taken from the autism society website at http://www.autismsociety.org/what-is/facts-and-statistics/ (8/26/2015). Strikingly you will notice that the
United States spends $236 — 262 Billion annually on Autism Services where much of that
cost $175 - $196 Billion are in adult services. (Compare this number to the national
military budget and you will notice it is nearly half of the $610 billion total annual budget
for

every

aspect

of

the

military.

(Ref:

https://en.wikipedia.org/wiki/Military_budget_of the United States ). The failure of the
public school system to adequately address ASD can have a financially devastating impact
on the U.S. Government, local governments and state governments.
It is necessary to turn students with ASD from consumers of government dollars to earners
that can financially contribute to the U.S. Government, local governments and state
governments through paying taxes that they otherwise may be unable to pay if they do not
get the intervention they need from the public schools.
By the NYSED robbing many children with ASD of an appropriate education they are
thereby robbing the citizens of this country because providing students with the needed
ABA intervention will more likely ensure that they will be independent taxpaying citizens
rather than resulting in a serious capital expenditure for the U.S. Government, local
governments and state governments because a number of individuals with autism that
could have recovered with the needed ABA intervention along with their typically

48 of 107

Case 1:17-cv-00501-LEK-CFH Doc
Document
pp
76 Filed 01/22/18 Page 49 of 107
Pi 245

developing peers effectively functioning as part of the intervention through model
behavior. It is well established that early intervention is the most effective approach and it
can be reasonably be concluded that if all children with ASD are offered the option ABA
until they are recovered as a matter of right will save the U.S. government, local
governments and state governments $100 billion annually in the long run despite that more
dollars would be invested at the school age level less will have to be funded for their adult
lives.
In the case A.S. has substantially benefitted from ABA where no other intervention has
proven effective for him in learning concepts, acquiring new skills and improving his
language and communication skills.
A point of confusion also arises when determining what the make up of an ABA
methodology entails. Every evidence-based approach in ABA has shown that ABA
intervention occurs in two setting and two setting only. One-on-one between student and
therapist and the other environment involves the ASD child in normal classroom
placements that are mainly made up of other typically developing peers. Nowhere in the
literature is a self-contained environment found be an environment where true ABA
intervention is provided and further nowhere in the literature is even integrated
environment found to be an environment where ABA intervention is provided. The only
environment that involves more that one child where ABA is provided is a full inclusion
one. Weather a classroom setting or other the true ABA methodology is intended to be
provided in an environment that is predominately typically developing children. Thus that
environment would have students with an IEP at a percentage that is consistent with the
population.

49 of 107

Case 1:17-cv-00501-LEK-CFH Docupp nt6 76 Filed 01/22/18 Page 50 of 107
me24

The reason is that the typically developing peers are part of the generalization intervention
they provide the model behavior only reinforcing appropriate behavior and extinguish
inappropriate behavior in a very effective way when supports are provided.
There are no full inclusion classrooms that offer ABA in the entire capital region. Rather a
child with autism must resort to receive their intervention that might have components of
ABA or DTT with several other peers with the same problem in one classroom that also
includes typically developing peers. If a child with autism can be educated with their
nondisabled peers why is this option of receiving ABA in a full inclusion environment not
available.
122.1n her Rules and Regulations 8 N.Y.C.R.R. § 200.4(d)(2)(v)(b) the Commissioner of
Education engages in on the usage of vague terms e.g. "to the extent practicable", "peer
reviewed" and "as appropriate" which allow for broad abuse by LEAs and the SRO to take
advantage of the rules and regulations because of their vagueness allowing LEAs to offer
unproven models of education to A.S. on his IEP and other children with ASD. Such rules
and regulations have permitted Shen to create the failed Connections Program that offer
nothing more than an eclectic intervention or mixed method intervention with no proof of
efficacy that measures student progress by progress towards lowly set goals rather than
universal measures. Much of the rules and regulations regarding the way children with
ASD are educated are effectively "Void for Vagueness" as they are not intelligible, cannot
be understood by a person of average intelligence, but are rather purposefully unclear to
give too great or latitude to LEAs and the SRO. In effect the rules and regulations of the
commissioner of education effectively permit LEAs to create unproven programs and is
then enforced by the SRO. Using a vague term such as "to the extent practicable" gives

50 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 51 of 107
Pi

LEAs broad discretion to decide what is practicable and what is not. Whereas one LEA
may decide to hire an expert another may decide to use a reductionist approach to argue
that they have provided a peer reviewed approach "to the extent practicable". It a term that
allows for broad abuse and a lack of quality control in the provision of special education.
Invalid state laws give rise to broad disorder within the state with the existence of small
local areas of order only allowed by a local standard.

SEVENTH CAUSE OF ACTION: SHEN INTENTIONALLY UNDERREPORTED A.S.
ACTUAL PRESENT LEVELS OF PERFORMANCE ON HIS 2016 — 2017 IEP TO
JUSTIFY GOALS ON A.S. IEP WHICH A.S. HAD ALREADY ACCMOPLISHED.
The SRO erroneously finds that the Present Levels of Performance in A.S. IEP for the
2016 — 2017 school year was not an issue raised in the due process complaint. However,
the SRO does acknowledge that "With respect to the annual goals, as noted above, I find
that the parents did raise this as an issue in the due process complaint notice"
Here the parents argue that if issues are reasonably raised with regards to IEP goals that
those issues must be dependent on lower level arguments such as Present Levels. One
cannot have a valid argument that IEP goals are inaccurate unless present levels are also
invalid.
The parents argue that the issues raised with regard to present levels are implied in their
raising of issues with the appropriateness of goals. For example, in order to access the
appropriateness of goals one would first look to the present levels to make predictions
about what goals are appropriate. Review of present levels is the standard used by the
Commissioner's Rules and Regulations 8 N.Y.C.R.R. § 200.1(ww)(3)(i) to set IEP goals.

51 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 52 of 107
App 248

Integral to this question of raising issue with the present levels the SRO, like the IHO,
erroneously found that the goals set by the district were appropriate. The SRO's initial
rational was to simply quote the (II-10 Decision pp. 11, 15). But the SRO recognized that
it would require further discussion (SRO Decision pp. 18). Inspection of the SRO's
referenced section of the IHO Decision reveals that there was nothing in the IHO sections
related to goals that even referenced present levels. However, the SRO Decision (SRO
Decision pp. 21 — 25) has a rather large section on goals with detailed discussion where
there was little the SRO was able to conclude because of the districts meddling in the
Preschools input into the IEP.
Ultimately, in order to determine if the goals were accurate the SRO necessitated the use
of the present levels of performance to make a determination on reasonable goals. The
SRO decided in favor of the district that the goals were accurate because the SRO
erroneously relied on the Present Levels, while being aware that the parents took issue
with the present levels in their request for review, but belligerently ignoring that fact when
doing an analysis of the present levels to determine if goals were appropriate. It is surely
here, at that moment in the analysis, that the SRO should have recognized that the parents
issue with present levels, even though not mentioned specifically in the due process
complaint, was validated by the SRO's own approach.
How can an SRO consider the decision regarding IEP goals valid and fair when the SRO
must use information (present levels) seriously disputed by the parents (by finding a weak
legal argument to try and dismiss the complaint about present levels) to make a
determination about goals. The SRO recognized the two (goals and present levels) were
interdependent measures and surly should have found that such an argument necessitated a

52 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/1
8 Page 53 of 107
App 249

review of the present levels. And even if the SRO neglected to do so it was a seriously
unfair approach to use them to reach a decision about the appropriateness of goals.
Further, the parents mention in their Memorandum of Law that (See Parents New Exhibit
IIII pp. 28) "The Connections Program fails to offer FAPE to A.S: that the goals are not
appropriate because the present levels were not appropriate" establishing the link between
the goals and the present levels that the SRO should have followed.
It is a simple argument that if one reaches a decision on invalid data then their decision
must be called into question. It is worth mentioning that the SRO was provided two
educational updates on A.S. dated 12/19/2016 and 1/27/2017 (Parents New Ex. QQQ and
SSS) in the Parents Request for Review. These educational updates could not have been
available during the IHO hearing since the hearing took place during October 2016.
And further the SRO states (See SRO Decision pp. 19) "Generally, documentary evidence
not presented at an impartial hearing may be considered in an appeal from an IHO's
decision only if such additional evidence could not have been offered at the time of the
impartial hearing and the evidence is necessary in order to render a decision (see, e.g.,
Application of a Student with a Disability, Appeal No. 08-030; Application of a Student
with a Disability, Appeal No. 08-003; see also 8 NYCRR 279.10(b); L.K. v. Ne. Sch.
Dist., 932 F. Supp. 2d 467, 488-89 (S.D.N.Y. 2013) (holding that additional evidence is
necessary only if, without such evidence, the SRO is unable to render a decision))." The
SRO goes on further to acknowledge the educational updates (evidence that could not have
not been offered at the time of the impartial hearing) Parents New Ex. QQQ and SSS
(SRO Decision pp. 20) but declines to lead any value to them stating in the footnote 28
"The progress during a period post-dating both the June 2016 CSE meeting and the filing

53 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 54 of 107
250

of the due process complaint notice is irrelevant to a prospective determination of whether
the goals were appropriate to meet the student's needs as of the time they were developed."
The SRO further states (SRO Decision pp. 20) "(the probative value and context of which
is unclear) for consideration on appeal (see Req. for Rev. Exs. JJJ; QQQ; SSS; UUU).
Although, these proffered documents may not have been available at the time of the
impartial hearing, the parents offer no rationale as to why the documents are now
necessary to consider to render a decision in this matter"
131. However, the parents would argue that the SRO again forwards an illogical line of
reasoning in that the SRO would have been able to ascertain some information about A.S.
abilities up to the date of the last disputed IEP because there are limits on the rate of
progress that a person can make. For example, research in Autism has shown that the
maximum rate of learning that a child with ASD can demonstrate during Early Intensive
Behavior Intervention is about 2.2 years (2.2 years is the maximum and 1.7 years is the
average for higher functioning children with autism during the first year of 40 hours per
week of professional intervention) of progress per year of time when compared to the
normal rate of learning for typically developing children over one year (Compare Parents
New Ex. F pp. 16 to Parents New Ex. X pp. 5 - 7). Generally, this high learning rate
occurs only during the first year of learning when a child with autism is exposed to ABA
intervention for the first time at an intensity of 40 hours per week (Compare Parents New
Exhibit J pp. 7 with Parents New Ex. R, Parents New Exhibit E pp. 7 - 8) from a
professional therapist and then intervention during the remainder of all their waking hours
by the parents.

54 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 55 of 107
App 251

Given that A.S. was exposed to ABA for 2 years prior to the parent based intervention the
reasonable learning rate to have expected would have been closer to a maximum of 1.8
years of cognitive progress per year.
Retrospectively, we could take A.S. 1/27/2017 educational update and make some
predictions on where A.S. present levels were on 6/14/2017 227 days or 0.623 years prior.
From this data it would be reasonable to conclude that the maximum gain that A.S. would
have made over 0.623 years is about ((1.8 age equivalents of learning / year of learning) X
0.623 years = 1.12 years of progress). From this we can conclude that the 1/27/2017
educational update would represent an accurate list of goals for A.S. to achieve by the
conclusion of the 2017 school year supporting the both the goals set by the district were
not accurate. To place into perspective the difference between the goals set by the school
district and the 1/27/2017 educational update represent 2 - 3 years of educational progress
(Compare District Ex. 45 pp. 5 to Parents New Exhibit SSS). Despite, the parents allude
to this drastic difference in their Request for Review (Parents New Exhibit JJJJ pp. 4)
"A.S. has substantially surpassed (Parent New Ex. QQQ; SSS) all the annual goals in his
IEP (District Ex. 47) and listed in the decision OHO Decision pp. 11) and had surpassed
them before (Joint Ex.1, Tr. pp. 212 — 213) they were written; they are inappropriate.

55 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 56 of 107
A
252

EIGHTH CAUSE OF ACTION: THE SHENENDEHOWA CENTRAL SCHOOL
DISTRICT COMMITTED A NUMBER OF PROCEDURAL VIOLATIONS IN THE
DEVELOPMENT OF A.S. IEP FOR THE 2016 — 2017 SCHOOL YEAR.
The SRO dismissed the parents' complaint that the district committed an excessive number

of procedural violations that impeded A.S. access to a FAPE in the LRE because the SRO
claims that the issue of procedural violations was not raised by the parents in the due
process complaint and thus cannot now raise this as an issue (See SRO Decision pp. 17).
Here the parents argue first that it is not necessary to use the term procedural violation if
the elements of complaint itself are predicated on procedural violations. And second that
some of the procedural violations raised in the Request for Review they were not made
aware of until after carefully reviewing the material in the hearing. Further, in general it
can be argued that no due process complaint can even pass the test of validity if there are
no procedural violations that take place during the development of the IEP. How can a
parent of any valid due process complaint validly file one that does not depend on
procedural violations also occurring?
The obvious first argument in any due process complaint is that a parent files one if they
truly feel they have no voice with the CSE or CPSE. That in itself is a procedural
violation.
Every matter brought up in the due process complaint was related to Management Needs
Section of the IEP, the LRE placement and the goals. Generally, inaccurate goals and
LRE placement require a procedural violation to be valid. Goals are inaccurate because a
procedural violation occurred with regards to collecting present level data or in the setting
of unusually low goals for a students present levels so Shen can show that the students

56 of 107

Case 1:17-cv-00501-LEK-CFH Doc
Document
pp
76 Filed 01/22/18 Page 57 of 107
A 253

achieved the IEP goals as a means to prove the efficacy of a program. LRE placements are
inaccurate because procedural violations occurred with regard to filling out forms and also
with regard to matching the present LRE of the student.

NINTH CAUSE OF ACTION: THE RULES AND REGULATIONS OF THE
COMMISSIONER OF EDUCATION GOVERNING SPECIAL EDUCATION (8
N.Y.C.R.R. § 200) ARE EFFECTIVELY A SET OF RULES AND REGULATIONS
THAT THE CALLS FOR "SYSTEMATIC PLANNING OF SEGREGATION OF
STUDENTS WITH DISABILITIES--AS THE TERM DISABILITY IS DEFINED BY
THE COMMISSIONER OF EDUCATION--INTO SPECIAL CLASSES AWAY FROM
THE GENERAL POPULATION OF STUDENTS SO THAT THEY ARE LIKELY TO
BE PERMANENTLY DISABLED"
137.Here is it alleged that the rules and regulations of the commissioner of education position
schools to place students in a classroom environment that is more restrictive than their
Least Restrictive Environment. The rules and regulations are further void for vagueness
with regard to both the LRE placement and also the LRE placement to the maximum
extent appropriate. As such the Shenendehowa Central School District had denied A.S. a
placement in his LRE for the 2016 — 2017 school and denied A.S. a FAPE for the 2016 2017 school year. Below are some examples of the language of the Rules and Regulations
of the Defendant Elia and the issues behind the language that allow for the segregation of
students:

57 of 107

Case 1:17-cv-00501-LEK-CFH Documen t4 76 Filed 01/22/18 Page 58 of 107
App 25

8 N.Y.C.R.R. § 200.6(h),
(h) "Special classes. The following standards shall be used in the provision of special classes
for students with disabilities:
(1) A student with a disability shall be placed in a special class for instruction on a daily
basis to the extent indicated in the student's individualized education program.
(2) In all cases the size and composition of a class shall be based on the similarity of the
individual needs of the students according to:
levels of academic or educational achievement and learning characteristics;
levels of social development;
levels of physical development; and
the management needs of the students in the classroom.
(3) A special class shall be composed of students with disabilities with similar individual
needs."

138.Here the Plaintiffs argue that the Commissioner of Education is violating IDEA LRE laws
and also Section 504 of the Rehabilitation Act by restricting composition of a class by any
factor other than when "nature or severity of the disability is such that education in regular
classes with the use of supplementary aids and services cannot be achieved satisfactorily"
However, Commissioner Elia's rules and regulations 8 N.Y.C.R.R. §§ 200(h)(1 - 3)
oppose this explicit rule. These regulations speak to the separation of students with a
disability from the general education setting by categorizations. This appears to be a clear
application of discrimination by segregation into disability class. These statements are

58 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
meni 76 Filed 01/22/18 Page 59 of 107
255

made in light of the fact that 8 N.Y.C.R.R. § 200.1(cc) provides a definition to the term
"least restrictive environment"

8 N.Y.C.R.R. § 200.1 (cc)
"(cc) Least restrictive environment means that placement of students with disabilities in
special classes, separate schools or other removal from the regular educational
environment occurs only when the nature or severity of the disability is such that even with
the use of supplementary aids and services, education cannot be satisfactorily achieved.
The placement of an individual student with a disability in the least restrictive environment
shall:
provide the special education needed by the student;
provide for education of the student to the maximum extent appropriate to the
needs of the student with other students who do not have disabilities; and
be as close as possible to the student's home"

139. In writing 8 N.Y.C.R.R. § 200.1 (cc)(2) the commissioner of education has positioned
LEAs to potentially engage in "discrimination by segregation" by using a vague phrase
"to the maximum extent appropriate" that allow for broad interpretation of the phrase and
for the LEAs to set their own local guidelines (whether internal or publicized) to
determine when a more restrictive placement is warranted and when it is not. It further
permits LEAs to determine if a portion of the school day may be delivered in a more
restrictive placement. Because the Commissioner of education has created the opportunity
for LEAs to engage in "discrimination by segregation" in determining the LRE placement

59 of 107

Case 1:17-cv-00501-LEK-CFH Document 6 76 Filed 01/22/18 Page 60 of 107

the Commissioner is responsible for all acts of "discrimination by segregation" that result
directly from 8 N.Y.C.R.R. § 200.1 (cc)(2).
The purpose of the IDEA (20 U.S.C. §§ 1400-1482) are (1) to ensure that students with
disabilities have available to them a FAPE in the LRE to the maximum extent appropriate
that emphasizes special education and related services designed to meet their unique needs
and prepare them for further education, employment, and independent living; and (2) to
ensure that the rights of students with disabilities and parents of such students are
protected (20 U.S.C. §§ 1400(d)(1)(A)-(B))
It is the rules and the language of the Rules and Regulations (8 N.Y.C.R.R. § 200) that
allows so many children with ASD to also suffer "discrimination by segregation" and
have their 14th Amendment rights violated. How can a child with ASD expect to be an
effective contributor of society and secure "property" when they reach adulthood if they
are denied much of their 14th Amendment rights, as .a child.

The 14th Amendment states in Section II:
"No state shall make or enforce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any state deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal protection
of the laws."

The laws of the Commissioner of Education are made or written in such as way to abridge
or deny A.S. with "liberty" now and "property" in the future retrospectively for the 2016 —
2017 school year. where due process of the law is to be governed by the flawed and vague

60 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 61 of 107

rules and regulations (8 N.Y.C.R.R. § 200) of the Commissioner of Education make the
due process itself systematically flawed if the rules and regulations of the commissioner
of education bear any influence on them.
Shen denying A.S. with a right to his LRE for the 2016 — 2017 school year and extended
school year with the right level of support and the right goals was a denial of A.S. 14th
Amendment Rights. If a student with ASD such as A.S. is not educated in a general
education classroom with mostly typically developing peers with the right level of support
and the right goals then they will not be able to develop basic skills and abilities that are
necessary to achieve independence and in turn secure employment and acquire property.
Perhaps the most central skills that an ASD student will learn in a general education
classroom are "conversational skills" and "adaptability" that can be construed to be
inversely related to "prompt dependence" (the more adaptable you are the less prompts
you need in general. The more adaptable an individual is the less an external input e.g.
prompt will be needed to keep that individual on track. These are the two cornerstones of
being able to function in society. It is a self-evident truth that in order to participate in
society independently one must be adaptable and conversational. When ones opportunity
to develop these two skills effectively are taken away through no action of their own and
due process of the law does not support them obtaining the opportunity to do so their
"liberty" has been abridged and consequently their "property" has been abridged because
of the codependence between liberty and property.
For example, an ASD student is known to have a need and opportunity to "generalize"
their abilities that is to demonstrate them in a naturalistic setting with the general
population of students. By doing so they not only develop conversational skills

61 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/1
8 Page 62 of 107

App 258

(conversational skills are a manifestation of improving communicative (DQ), social skills
(DQ), expressive language (DQ) and receptive language (DQ) to a level that allows for
independence -in society) For an ASD student there is no effective way to develop these
skills together when natural opportunities for socializing are not constantly provided and
when a facilitator is not provided to assist with the process during those periods when
opportunities are more prevalent such as recess and lunch periods. Further there is no
effective way to develop conversational skills if an extensive (45 minutes to 1 hour) oneon-one conversational opportunity with a neurotypical peer with facilitator to provide A.S.
with scripts and then fade those scripts over time is not provided on a daily basis.
In J.T. ON BEHALF OF I.T., Petitioner, v. DUMONT BOARD..., 2009 WL 6435398
"Generalize is defined as "the ability to identify a skill, to perform a skill and to use it
across settings. For a skill to be meaningful a student must be able to generalize it and to
maintain it."
Further, being educated within the general population of students for the entire school day
ensures that ASD students will constantly adapt their approach to make progress and be
effective enough in a variety of activities that it will allow for their independence and full
participation in society and later in the work force when they are of age. ASD students
will maintain a desire to be more effective in all that they do by observing and interacting
with their peers that are representative the general population of students.
It is argued that in order to be an independent participating member of society that a
person would need to be able to generalize skills and be versatile in a large enough variety
of activities (consistent with the general population of students) that they could be

62 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 63 of 107
A 259

independent in their participation within society and be able to acquire property through
their own income producing efforts.
A necessary bridge to accomplish this end would require the effort of a specialist that
serves as a therapist in a "normal class" to the child while appearing as an aid to the entire
class but would spend a greater amount of time with A.S. and would also help create an
environment where the students would be more patient and more willing to socialize with
A.S. to help him overcome his social difficulties. See L.B. L.B. and J.B. on behalf of K.B.
v. Nebo Sch. Dist., 379 F.3d 966 (10th Cir. 2004)) However, at the kindergarten, first
grade and second grade levels the duration should be increased consistent with peerreviewed approaches 20U.S.C. §§ 1412(a)(1)(A), 1414(d)(1)(A)(i)(II)(aa),
1400(d)(1)(A)).
It is further argued that the rules and regulations (8 N.Y.C.R.R. § 200) of the
commissioner of education that states that students with similar disabilities are to be
educated together further abridges an ASD students right to "liberty" and "property"
because they would unquestionably experience reinforcement of inappropriate behavior
and learning new inappropriate behaviors from other children with ASD or other
behavioral disorders.
That a rules or regulation is written that states that ASD students are to be educated
together is a rule that does not take into consideration the underlying causes of regression
in ASD. It is well documented that children with autism reinforce inappropriate behavior
of other children with autism and also teach new inappropriate behaviors to each other.
(see L.B., 379 F.3d 966 (10th Cir. 2004) The issue lies in that even having two children
with autism in the same classroom provides too many opportunities to engage in

63 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 64 of 107
Pi
0

maladaptive and stereotypical behavior. The students themselves both provide positive
reinforcement for inappropriate behavior and also teach each other inappropriate behavior
that they had not previously learned (See pp. 3 (5th page of report: "Lovaas I.; Journal of
Consulting and Clinical Psychology, 1987, 55, 1, 3 - 9"; and generally see L.B., 379 F.3d
966 (10th Cir. 2004)). Consequently, these classrooms both limit the gains a student is
capable of and also can serve as a source of further debilitation. Any student that can be
educated in a full inclusion or (same as) fully mainstreaming classroom, (where the class
make up at all moments of the day is representative of the general population of students
in the school district) with the provision of supports has a right to do so under the IDEA.
In (L.B., 379 F.3d 966 (10th Cir. 2004)); ("K.B. made very good academic progress at
her mainstream preschool with the assistance of her supplementary aide and intensive athome ABA program. 8 Academically, K.B. was the most advanced child at her private,
mainstream preschool, although she still had social deficits. The combination of an
intensive ABA program and supplementary aide worked to treat K.B.'s behavioral, social,
and linguistic problems, 9 and according to her expert, she was making "impressive
gains." Evidence shows that treating these problems *972 was necessary to K.B.'s ability
to function in a mainstream school environment.")... ("Evidence presented at the due
process hearing shows that autistic children who are not integrated with typical children
do not progress. Experts testified that the nature of autism generally, and K.B.'s
weaknesses in particular, render a mainstream environment particularly well-suited
because such an environment is more likely to increase independence, improve social
skills, and increase the chances of future normal functioning."... "In contrast, experts
testified that K.B. would not have benefitted from a special education program. Park

64 of 107

Case 1:17-cv-00501-LEK-CFH Dov rvend 76 Filed 01/22/18 Page 65 of 107
p 2 1

View's predominantly disabled student body could have caused K.B. to regress because of
the risk that K.B. would have emulated the disabled children's maladaptive behaviors and
received insufficient intervention for her own inappropriate behaviors."
It is why Ivar Lovaas himself stated in his seminal publication (Lovaas I.; Journal of
Consulting and Clinical Psychology, 1987, 55, 1, 3 — 9 pp. 5 (3rd page of publication))
regarding intensive Applied Behavior Analysis ABA also referred to as early intensive
behavioral intervention "EIBI" that "Considerable effort was exercised to mainstream
subjects in a normal (average and public) preschool placement and to avoid initial
placement in special education classes with the detrimental effects of exposure to other
autistic children."
That was Dr. Ivar Lovaas speaking of placements of autistic children in normal schooling
after receiving intensive behavioral intervention in a one-on-one setting in an environment
where no other children with autism were present.

TENTH CAUSE OF ACTION: COMMISSIONER ELIA DENYS A.S. A FAPE IN THE
LRE FOR THE 2016 — 2017 SCHOOL BY POSITIONING ALL LEAS INCLUDING
SHEN TO TAKE ADVANTAGE OF THE VAGUENESS OF THE RULES AND
REGULATIONS GOVERNING STUDENTS WITH AN IEP VIA "BROAD
INTERPRETATION" OF HER "UNCONSTITUTIONALLY VAGUE" RULES AND
REGULATION GOVERNING SPECIAL EDUCATION (8 N.Y.C.R.R. § 200). THE
COMMISSIONER OF EDUCATION HAS WRITTEN RULES AND REGULATIONS
REGARDING THE PROVISION OF EDUCATION TO STUDENTS WITH AN IEP
TO BE SO "VAUGE" AND LACKING OF "EXPLICIT STANDARDS" THAT IT

65 of 107

ment 76 Filed 01/22/18 Page 66 of 107
Case 1:17-cv-00501-LEK-CFH Docupp
A 262

PERMITTS BROAD INTERPRETATION AND ENABLED SHEN TO DENY A.S. A
FAPE IN THE LRE FOR THE 2016 — 2017 SCHOOL YER WHERE A.S. HAS LITTLE
IF ANY PROTECTION FROM DUE PROCESS OF THE LAW BECAUSE DUE
PROCESS OF THE LAW RELIES ON RULES AND REGULATIONS THAT ARE
EFFECTIVELY VOID FOR VAGUENESS AND ARE THEREFORE
UNENFORCEABLE BY THE VAGUENESS DOCTRICNE OF THE U.S.
CONSTITUTION AND ARE A VIOLATION OF THE IDEA. AS 8 N.Y.C.R.R. § 200 IS
A PROOF THAT THERE IS NO LAW, BUT RATHER SUGGESTIONS,
GOVERNING THE ASSESSMENT, PLACEMENT, GOALS, USE OF
SUPPLEMENTARY AIDS AND SERVICES AND PROVISION OF A FAPE AND
ACCOUNTABILITY FOR A STUDENT WITH AN IEP.
Indeed, 8 N.Y.C.R.R. § 200 consistently "fails to provide sufficiently explicit standards
for those who apply it," and "impermissibly delegates basic policy matters ... for
resolution on an ad hoc and subjective basis." For the most pertinent components of
special education including: LRE considerations, methodology, peer reviewed
approaches, Goals and specifications with regard to the education of persons with Autism.
The purpose of the IDEA is to guarantee children with disabilities a free appropriate
public education ("FAPE") in the least restrictive environment ("LRE")" and "To ensure
that all children with disabilities have available to them a free appropriate public
education that emphasizes special education and related services designed to meet their
unique needs and prepare them for further education, employment, and independent
living." 20 U.S.C.§1400(d)(1)(A). Nothing in rules and regulations (8 N.Y.C.R.R. § 200)
of the Commissioner explicitly discusses or provides explicit standards for the

66 of 107

Case 1:17-cv-00501-LEK-CFH Document 3 76 Filed 01/22/18 Page 67 of 107

components of recovery and accountability that are necessary to assure students with ASD
become both independent and engage in active participation within society. The elements
of Commissioner Elia's Rules and Regulations are lacking the following 5 elements of
accountability and goal setting on the part of the LEAs:
A) Assuring that students are educated with the general population of students by making
it a standard where only by the student being excessively disruptive to the general
population to such an extent that learning would not be feasible within the general
population. However, disruptive behavior within the general population of students would
have to be the case when a therapist is provided as a behavioral support providing the
proven methodology and there are no limitations on the services that can be provided in
any LRE placement.
B) Assuring that universal measures of ability including adaptive behavior (measured by
DQ) and IQ are the primary means to measure overall progress of a student. And that
progress in the general education curriculum is the second means to measure academic
progress.
C) Assuring that methodology that is proven to yield results by universal measures of IQ
and Adaptive Behavior (measured in DQ) is guaranteed.
D) Assuring the public that these standards are in place by reporting on LRE
classifications of the population of students with an IEP by disability area and broken out
by IQ and DQ gains. Showing LRE change rates for every LRE class on the continuum of
services and LRE declassification rates for each LRE category. A system of
accountability showing when schools are failing in any of the above categories and a
system to ensure reports are accurate and real rather than a reductionist approach.

67 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/1
8 Page 68 of 107
Pi 264

E) Making all three of 1) expressive language, 2) conversational ability (measured in the
number of peer aged exchanges that a student can consistently demonstrate) and 3) a
reduction in prompt dependence to be guaranteed goals on the IEP for a student with
ASD.
This suit challenges the validity of a State statute on the basis that the rules and
regulations (8 N.Y.C.R.R. § 200) fundamentally denies children with ASD a right to
access their LRE by use of systematically flawed and vague language that gives school
districts so much liberty to decide how to provide special education that taking that liberty
not only consistently results in a denial of a FAPE but also the denial of access to the
students LRE to the maximum extent appropriate.
"Due process vagueness doctrine requires crafting both civil and criminal laws with
sufficient clarity to give the person of ordinary intelligence a reasonable opportunity to
know what is prohibited and to provide explicit standards for those who apply them."
U.S.C.A. Const. Amend. 14.
In Kramer v. New York City Bd. of Educ., 715 F.Supp.2d 335 (2010) The District Court,
Jack B. Weinstein, Senior District Judge, held that:
"The vagueness doctrine requires crafting both civil and criminal laws "with sufficient
clarity to give the person of ordinary intelligence a reasonable opportunity to know what
is prohibited and to provide explicit standards for those who apply them." Thibodeau, 486
F.3d at 65 (quotation marks omitted); see also, e.g., Interstate Circuit, Inc. v. City of
Dallas, "390 U.S. 676, 88 S.Ct. 1298, 20 L.Ed.2d 225 (1968) (invalidating on vagueness
grounds civil municipal film licensing ordinance)."

68 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 69 of 107
Pipp 265

"A punitive enactment is unconstitutionally vague when it (1) does not allow a person of
ordinary intelligence a reasonable opportunity to know what is prohibited, or (2) lacks
explicit standards, thus permitting arbitrary or discriminatory enforcement. See Grayned,
408 U.S. at 108-09, 92 S. \Ct. 2294; see also Farid v. Ellen, 593 F.3d 233, 240 (2d
Cir.2010). A statute or rule is inadequate under the second criterion when it "fails to
provide sufficiently explicit standards for those who apply it," and "impermissibly
delegates basic policy matters ... for resolution on an ad hoc and subjective basis."
In her definitions in 8 N.Y.C.R.R. § 200 the Commissioner does not define the term "to
the extent practicable" nor the term "peer reviewed" in the context of 8 N.Y.C.R.R. §
200.4(v)(b). In this context these terms are specifically discussed regarding the Special
education program and services (8 N.Y.C.R.R. § 200.4)(v)(b) this section speaks to the
recommended program stating at:

(8 N.Y.C.R.R. § 200.4)(v)(b)
"The recommended program and services shall, to the extent practicable, be based on peerreviewed research, and as appropriate indicate:"
In her Rules and Regulations 8 N.Y.C.R.R. § 200 the Commissioner of Education relies
on the usage of terms such as "to the extent practicable" (Reference) and "peer reviewed"
(Reference) allows for broad abuse by LEAs and the SRO to take advantage of the rules
and regulations because of their vagueness allowing LEAs to offer unproven models of
education to A.S. on his IEP and other children with ASD. Much of the rules and
regulations regarding the way children with ASD are educated are effectively "Void for
Vagueness" as they are not intelligible, cannot be understood by a person of average

69 of 107

Case 1:17-cv-00501-LEK-CFH Document 6 76 Filed 01/22/18 Page 70 of 107

intelligence, but are rather purposefully unclear to give too great a latitude to LEAs and
the SRO. In effect the rules and regulations of the commissioner of education effectively
permit LEAs to create unproven programs, set improper goals and is then enforced by the
SRO. Using a term such as "to the extent practicable" gives LEAs broad discretion to
decide what is practicable and what is not. Surely, it can be understood that "to the extent
practicable" will depend on the training, qualifications, attention to detail and ability of
special education personnel and special education leadership to decide where a line is
drawn. Whereas one LEA may decide to hire an expert another with use a reductionist
approach to provide a peer reviewed approach. It a term that allows for broad abuse and a
lack of quality control in the provision of special education.
Because no explicit standard is set for a peer reviewed approach (such as meeting the
requirements of the Daubert Standard, or showing a specific IQ or Adaptive behavior
improvement these rules are in effect meaningless) and the extent that it should be
followed there is in fact no almost no guideline at all here other that giving LEAs full
flexibility.
Another term that is not clearly defined is the breakdown of "Least restrictive
environment" that is the Commissioner Defines "Least restrictive environment" but the
provides guidelines that are both vague and inconsistent with the total definition of "Least
restrictive environment"

8 N.Y.C.R.R. § 200.1 (cc)
"(cc) Least restrictive environment means that placement of students with disabilities in
special classes, separate schools or other removal from the regular educational environment

70 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/1
8 Page 71 of 107
A
7

occurs only when the nature or severity of the disability is such that even with the use of
supplementary aids and services, education cannot be satisfactorily achieved. The placement
of an individual student with a disability in the least restrictive environment shall:
provide the special education needed by the student;
provide for education of the student to the maximum extent appropriate to the needs of the
student with other students who do not have disabilities; and
be as close as possible to the student's home"

169. A careful inspection of this defmition yields the following interpretation a "Least
restrictive environment" receives the correct definition up to the word "achieved".
However, when the Commissioner states "The placement of an individual student with a
disability in the least restrictive environment shall:" the rule that follows is not
comprehensive enough to ensure the LRE is provided. However, an LEA can follow
terms 8 N.Y.C.R.R. §§ 200.1(cc) (1 — 3) but still violate that LRE definition. In fact these
requirements even undermine the definition because it does not speak to the explicit
standard to ensure the appropriateness of "supplementary aids and services" and does not
provide the explicit standard for how to determine "to the maximum extent appropriate"
with appropriate being emphasized as the key vague term. By not clearly providing the
explicit standard for the term to the "maximum extent appropriate" and the explicit
standard for "supplementary aids and services" the LEA has full flexibility to make that
decision themselves. This undermines the special education system in this state of New
York especially since nowhere else in the entire 200 pages of N.Y.C.R.R. § 200 is any
explicit standard provided. Due process complaints are generally regarding FAPE, the

71 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
ment 76 Filed 01/22/18 Page 72 of 107
268

LRE or both. Here the LRE term has sufficient vagueness to support that an LEA has full
flexibility without oversight from the SEA to make these decisions of placement
themselves.
170. The Commissioner does not provide explicit standards for 8 N.Y.C.R.R. § 200.1(ww):

8 N. Y.0 .R.R. § 200.1(ww)
"Special education means specially designed individualized or group instruction or special
services or programs, as defined in subdivision 2 of section 4401 of the Education Law, and
special transportation, provided at no cost to the parent, to meet the unique needs of students
with disabilities.
Such instruction includes but is not limited to that conducted in classrooms, homes,
hospitals, institutions and in other settings.
Such instruction includes specially designed instruction in physical education, including
adapted physical education.
For the purposes of this definition:
(i) The individual needs of a student shall be determined by a committee on special education
in accordance with the provisions of section 200.4 of this Part upon consideration of the
present levels of performance and expected learning outcomes of the student. Such individualneed determinations shall provide the basis for written annual goals, direction for the provision
of appropriate educational programs and services and development of an individualized
education program for the student. The areas to be considered shall include:
(a) academic achievement, functional performance and learning characteristics which shall
mean the levels of knowledge and development in subject and skill areas, including activities

72 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 73 of 107
App 269

of daily living, level of intellectual functioning, adaptive behavior, expected rate of progress in
acquiring skills and information, and learning style;
social development which shall mean the degree and quality of the student's relationships
with peers and adults, feelings about self, and social adjustment to school and community
environments;
physical development which shall mean the degree or quality of the student's motor and
sensory development, health, vitality, and physical skills or limitations which pertain to the
learning process; and
management needs which shall mean the nature of and degree to which environmental
modifications and human or material resources are required to enable the student to benefit
from instruction. Management needs shall be determined in accordance with the factors
identified in each of the three areas described in clauses (a)-(c) of this subparagraph."

171. It is surly in this section 8 N.Y.C.R.R. § 200.1(ww)(3)(i) where both the process of setting
and selecting goals and is completely undermined by the Commissioner of Education.
The Commissioner has left it up to the CSE to determine which areas are appropriate for
goals and what the goals should be. The lack of guaranteed explicit standards results in
broad interpretation of this section. The social development section does not have a
measurable attribute. That is there is no attribute mentioned in the social development
section of 8 N.Y.C.R.R. § 200.1(ww)(3)(i)(b) that can be measured thus it is not possible
to construct a social development goal from reading this section. What is of greater
concern is that the Commissioner fails to have a requirement for a social development
goal for persons with ASD. Since ASD is considered to be primarily a social disorder why

73 of 107

Case 1:17-cv-00501-LEK-CFH Docu ment 76 Filed 01/22/18 Page 74 of 107
App270

would the Commissioner not provide explicit standards that a social development goals
are required and that the goals must meet specific criteria based on a benchmark that is
measured by a technically sound instrument that also guarantees setting goals associated
with peer relationships. Another goal that must also be required with explicit standards
for ASD students in a prompt dependence goal. Every student with ASD must be required
to have a goal related to reducing their prompt dependence.
172. Perhaps the most central skills that an ASD student will have an opportunity to learn—
especially if the right supports are provided—amongst their neurotypical peers are
"conversational skills" and "adaptability" that can be construed to be inversely related to
"prompt dependence" (the more adaptable you are the less prompts you need in general.
The more adaptable an individual is the less of an external input e.g. prompt will be
needed to keep that individual on track.) Conversational ability and a low prompt
dependence are the two cornerstones of being able to function independently in society. It
is a self-evident truth that in order to participate in society independently one must be
adaptable and conversational. When a person with ASD opportunity to develop these two
skills effectively are undermined where due process of the law does not guarantee to
support their acquisition with explicit standards they are less likely to be independent in
society and thus their "liberty" has been abridged and consequently their "property" has
been abridged because of the codependence between liberty and property

74 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
ment 76 Filed 01/22/18 Page 75 of 107
A 271

8 N.Y.C.R.R. § 200.6(K)
"(K) Twelve-month special service and/or program. (1) Eligibility of students for 12-month
special services and/or programs. Students shall be considered for 12-month special services
and/or programs in accordance with their need to prevent substantial regression, if they are:
students whose management needs are determined to be highly intensive and require a high
degree of individualized attention and intervention who are placed in classes in accordance
with subparagraph (h)(4)(ii) of this section;
students with severe multiple disabilities, whose programs consist primarily of habilitation
and treatment and are placed in special classes in accordance with subparagraph (h)(4)(iii) of
this section;
students who are recommended for home and hospital instruction whose special education
needs are determined to be highly intensive and require a high degree of individualized
attention and intervention or who have severe multiple disabilities and require primarily
habilitation and treatment;
students whose needs are so severe that they can be met only in a seven-day residential
program; or
students who are not in programs as described in subparagraphs (i) through (iv) of this
paragraph during the period from September through June and who, because of their
disabilities, exhibit the need for a 12-month special service and/or program provided in a
structured learning environment of up to 12 months duration in order to prevent substantial
regression as determined by the committee on special education."

75 of 107

ment 76 Filed 01/22/18 Page 76 of 107
Case 1:17-cv-00501-LEK-CFH Docupp
272

173. It is well established that school aged persons with ASD especially children require an
extended school year of 12-month special to prevent regression. In 8 N.Y.C.R.R. §
200.6(K) below Defendant Elia does not define substantial regression nor provide an
explicit standard to determine if a student is at risk of a substantial regression. Further,
there is no specific guidance on twelve-month special services for students with ASD as
concluded by examining 8 N.Y.C.R.R. § 200.13 leaving it open to interpretation. There is
no explicit standard to ensure the LRE placement in the summer is consistent with the
LRE placement during the normal school year. The position LEAs have consistently
taken is that the summer placement includes an LRE based on the make up of the student
body during the summer that is all disabled persons however, this has already been
determined to be a self-contained environment. The LEAs next attempt to state that there
are no typically developing peers in the summer so they do not have access to them.
However, this statement is false because the LEA could offer a free summer program to
typically developing students until it reaches numbers that are sufficient to meet an LRE
requirement. Thirdly, there are some parents that place their children in local camp that
has planned activities (structured) that generally have a large percentage of typically
developing peers. Here the parents ask the school to provide special services to the
student at the local camp and the school district generally provide a substantially
inadequate duration of services each week because there is no explicit standard by
Defendant Elia for them to provide a level of service consistent with the needs of the
student. Leaving the twelve-month school year to broad interpretation has resulted in
LEAs typically only offering a level of service that is consistent with the school year in a
self-contained environment, which is established to cause a regression in any student with

76 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
ment 76 Filed 01/22/18 Page 77 of 107
273

a disability that has an LRE placement that is less restrictive than the LEA's proposed
summer placement. The lack of explicit standards for a "twelve-month special service"
by the Defendant Eli is a further violation of the "void for vagueness" doctrine in the U.S.
constitution unenforceable because it lacks explicit standards and permits broad
interpretation.

8 N.Y.C.R.R. § 200.13
200.13 Educational programs for students with autism.
(a) The functioning levels of students with autism, based upon the criteria set forth in
section 200.6(h)(2) of this Part, shall govern their individual or small group instruction.
The continuum of special education programs and services as described in section
200.6 of this Part shall be available to students with autism as needed.
The chronological age range of instructional groups serving students with autism
shall not exceed 36 months for students under age 16 and shall not be limited for
students 16 years of age or older.
The class size for such students shall be determined in accordance with section
200.6(f) and (h) of this Part, provided that the class size of special classrooms
composed entirely of students with autism shall be in accordance with section
200.6(h)(4)(ii)(a) of this Part.
Instructional services shall be provided to meet the individual language needs of a
student with autism.

77 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
merit 76 Filed 01/22/18 Page 78 of 107
Pi 2'i4

To the maximum extent appropriate, instructional provisions shall be instituted for
eventual inclusion of students with autism into resource room programs for students
with combined disabilities or placement in a regular classroom.
In those instances where a student has been placed in programs containing
students with other disabilities, or in a regular class placement, a special education
teacher with a background in teaching students with autism shall provide transitional
support services in order to assure that the student's special education needs are being
met.
The length of the school day for students with autism shall be that set forth in section
175.5 of this Title.
All school districts are required to furnish appropriate educational programs for
students with autism from the date they become eligible for a free appropriate public
education until they obtain a high school diploma, or until the end of the school year in
which they attain their 21st birthday, whichever occurs first.
Provision shall be made for parent counseling and training as defined in section 200.1
(kk) of this Part for the purpose of enabling parents to perform appropriate follow-up
intervention activities at home.
Upon application and justification to the commissioner, approval may be granted for
variance from special class sizes and the chronological age ranges specified in
subdivision (a) of this section.

174.In 8 N.Y.C.R.R. § 200.13 there is no clear standard to apply to the education of persons
with autism. The section is written so vaguely one would wonder if the section has any

78 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 79 of 107
Pipp 275

purpose other than a purpose related to segregation. There is no explicit standard for how
to measure their progress for example there is no explicit standard to require 8 N.Y.C.R.R.
§ 200.6(6)(ii)(x) technically sound instruments such as cognitive tests and behavioral
tests, there is no explicit standard to explain what is required of an "appropriate
educational program" in 8 N.Y.C.R.R. § 200.13(c) thus positioning and permitting LEAs
to create whatever eclectic "mix method" program they desire.
IDEA laws regarding providing a FAPE in the LRE to the maximum extent appropriate
are highly interdependent on each other. The law has made clear what constitutes the
LRE. See Murray v. Montrose County Sch. Dist., 51 F.3d 921, 925-26 (10th Cir.1995).
"To that end, 20 U.S.C. § 1412(5)(B) provides a pertinent part:"
"To the maximum extent appropriate, children with disabilities ... [must be] educated with
children who are not disabled, and ... special classes, separate schooling, or other removal
of children with disabilities from the regular educational environment [shall] occur[s] only
when the nature or severity of the disability is such that education in regular classes with
the use of supplementary aids and services cannot be achieved satisfactorily...."
However, all too often educators and administrators and state law attempt to distort the
true meaning of this law in a version that permits schools to place ASD students with an
IEP into an environment that is more restrictive than their true LRE while providing
nothing that remotely resembles a FAPE.
The Rules and Regulations of the Defendant Elia are in violation of the "Vagueness
Doctrine" In American constitutional law, a statute is void for vagueness and
unenforceable if it is too vague for the average citizen to understand. There are several
reasons a statute may be considered vague; in general, a statute might be called void for

79 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
meat 76 Filed 01/22/1
8 Page 80 of 107
276

vagueness reasons when an average citizen cannot generally determine what persons are
regulated, what conduct is prohibited, or what punishment may be imposed.
To summarize the contents of the doctrine, it establishes specific criteria all laws, or any
legislation must meet, to qualify as constitutional. Such criteria includes the following:
Law must state explicitly what it mandates, and what is enforceable.
Definitions of potentially vague terms are to be provided
The vagueness of the rules and regulations (8 N.Y.C.R.R. § 200) enable LEAs to interpret
vague rules and regulations in a variety of ways so as to deny a student with an IEP their
LRE and also deny them their FAPE.
The LEAs further accomplish this by making false statements and records with no valid
evidence of why the student cannot be educated in "regular classes with the use of
supplementary aids and services" and why "it cannot be achieved satisfactorily" excepting
the manufactured document prepared by the LEA that states this fact. Further the rules
and regulations (8 N.Y.C.R.R. § 200) provide no timely assurances to enable a student to
be educated in their LRE with the use of supplementary aids and services.
Similarly, the rules and regulations of the Commissioner do nothing to ensure a student
with ASD receives an appropriate FAPE that would encompass the use of a proven
methodology of Applied Behavior Analysis (ABA) that is necessary because there are no
other proven methodologies to ensure a student with ASD makes progress.)
The central issue of accountability with regards to showing progress by both LRE
progression and universal measures of ability including IQ and Adaptive Behavior
measured with DQs are necessary to show progress is made otherwise there is no
accountability to show that LEAs are making any progress at all because their will be no

80 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 81 of 107
Pipp 277

way to validate actual progress was made. It is easily feasible for a school district to
falsely report that a student has made progress when in reality the student has regressed
when not using a universal measure.
Indeed, 8 N.Y.C.R.R. § 200 consistently "fails to provide sufficiently explicit standards
for those who apply it," and "impermissibly delegates basic policy matters ... for
resolution on an ad hoc and subjective basis." For the most pertinent components of
special education including: LRE considerations, methodology, peer reviewed
approaches, Goals and specifics with regard to the education of persons with Autism.

ELEVENTH CAUSE OF ACTION: SHEN WOULD NOT PLACE
CONVERSATIONAL EXCHANGE GOALS NOR GOALS TO A REDUCE A.S.
PROMPT DEPENDENCE ON A.S. IEP FOR THE 2017 — 2018 SCHOOL YEAR.
RENEE YOUNG'S DENIAL OF THESE SPECIFIC GOALS TO A.S. IS A DENIAL OF
A.S. SECTION 504 RIGHTS OF THE REHABILITATION ACT OF 1973. DESPITE
A.S. HAVING AN ASD DIAGNOSIS NO USEFUL SOCIAL DEVELOPMENT GOAL
WAS PLACED ON A.S. IEP. MANY GOALS FOR THE 2017 — 2018 SCHOOL YEAR
ARE INAPPROPRIATE OR NOT BASED ON PRESENT LEVELS OF
PERFORMANCE. FURTHER, ALMOST EVERY GOAL IS ACCOMPLISHED
WITH THE USE OF A PROMPT—AS THE GOAL IS STATED ON THE IEP-DRAMATICALLY REDICING THE VALUE OF SUCH A GOAL BECAUSE THE
GOAL IS NOT INDEPENDENT OF A PROMPT.
When parents met with teachers and staff in a pre IEP meeting it was determined that two
relevant goals would be goals to reduce prompt dependence and goals to increase

81 of 107

ment
28 76 Filed 01/22/18 Page 82 of 107
Case 1:17-cv-00501-LEK-CFH Docupp

Pi

Conversational Ability. The reduction in prompt dependence goal was thought to increase
A.S. independence in difference activities reducing the need for staff input. The
conversational goal would accomplish multiple goals including a social development goal
helping A.S. build relationships with his peers, improve his expressive language and
improve his social skills. Naturally, this goal would likely reduce A.S. prompt
dependence because conversational ability would enable adults and peers to better use
reason with A.S. to explain rules, approaches, concepts and ideas to A.S. Thus, he would
better apply reasoning in the appropriate situation reducing the need for a prompt. In a
pre IEP meeting that the Elementary CSE Chairperson did not attend the Conversational
exchange goal for A.S. was set to 5 conversational exchanges with a peer in A.S.
grade/class.

A.S. had already been able to engage in 2 conversational exchanges

consistently and A.S. had already exceeded 5 conversational exchanges with parents at
home on a daily basis so the goal was a reasonable goal to add 2 — 3 more exchanges with
A.S. peers.
186. However, Renee Young the Elementary CSE Chairperson refused to place any such goal
relating to conversational exchange A.S. IEP. Rather she placed a goal that reads "When
given a topic," A.S. (name omitted) "will independently make a comment or ask a
question relating to that topic on 3 out of 5 occasions" There are two issues with this goal.
First, parents explained that A.S. had already exhibited this goal for about one year it was
completely outdated so they are not based on present levels. Secondly, there is no social
development associated with this goal because social exchanges are not required.

82 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 83 of 107
Pip p 279

TWELTH CAUSE OF ACTION: FOR THE 2014 — 2015 SCHOOL YEAR SHEN
PLACED A.S. AS A PRESCHOOLER AT NEWMEADOW IN AN LRE MORE
RESTRICTIVE PLACEMENT THAN HIS ACTUAL LRE FOR MORE THAN 5
MONTHS. SHEN MADE THE PLACEMENT DECISION WITHOUT HAVING
INFORMATION ON HOW A.S. WOULD RESPOND TO THE INTEGRATED
ENVIRONMENT AT NEWMEADOW. THE PLACEMENT CAUSED
DEVELOPMENTAL DAMAGES TO A.S. BECAUSE HE WOULD HAVE SEEN
GREATER GAINS IN THE INTEGRATED ENVIRONMENT AND THE EFFECT IS
COMPOUNDED DUE. TO HIS VERY YOUNG AGE OF LESS THAN 4 AT THE
TIME OF THE INITIAL PLACEMENT.
187. A.S. was enrolled full time at Childtime Daycare in Clifton Park since March 2014 and
then later enrolled at Newrneadow during the month of October 2014. How could A.S. go
from a typical environment to one more restrictive than an integrated environment at
Newmeadow without ever being placed in an integrated environment first. This
placement decision by Shen was a clear denial of A.S.'s LRE and had early intervention
developmental costs to A.S. A.S. had to wait more than 5 months, until he was 4 years
and 3 months old, before he could receive ABA intervention with typically developing
peers.

THIRTEENTH CAUSE OF ACTION:

83 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
76 Filed 01/22/18 Page 84 of 107
A me28
M0

FOURTEENTH CAUSE OF ACTION: SHEN FAILED TO OFFER A.S. A FAPE IN
HIS LRE BY NOT OFFERING A 2017 SUMMER PROGRAM WITH
NEUROTYPICAL PEERS AND SHEN VIOLATED THE IDEA BY OFFERING A.S. A
SUBSTANTIALLY INSUFFICIENT AMOUNT OF SPECIAL EDUCATION
SUPPORT IN A.S. CAMP SETTING FOR SUMMER 2017. OFFERED SUPPORT
TOTALED ONE HOUR EACH WEEK OF SPECIAL EDUCATION SUPPORT IN A.S.
CAMP SETTING THAT WAS LOCATED WITHIN THE SCHOOL DISTRICT
DURING THE EXTENDED SCHOOL YEAR (ESY) WHERE A.S. QUALIFIED FOR
AN ESY. THE OFFERED LEVEL OF SUPPORT OF 1-HOUR PER WEEK IN THE
CAMP SETTING COULD NOT HAVE MITIGATED THE RISK OF SUBSTANTIAL
REGRESSION AND THUS VIOLATES IDEA.
188.See paragraphs 59 — 62 of this Second Amended Complaint for a detailed history.

FIFTEENTH CAUSE OF ACTION: THE COMMISSIONER OF EDUCATION AND
SHEN BOTH DENY A.S. A FAPE WHEN GOALS OF REDUCING PROMPT
DEPENDENCE AND INCREASING CONVERSATION ABILITY WITH
NEUROTYPICAL PEERS ARE NOT GUARANTEED GOALS ON A.S. IEP OR ANY
ASD CHILD'S IEP FOR THAT MATTER. FAILURE TO STATE A NECESSARY
GOAL OF A DISABILITY CLASS—EVEN IF TILE DEFICIT OF THE DISABILITY
CLASS IS IDENTIFIED--IS A FAILURE TO OFFER THAT DISABILITY CLASS A
FAPE.
189.The point of the IDEA 20 U.S.C. § 1400(d)(1)(A) is "to ensure that all children with
disabilities have available to them a free appropriate public education that emphasizes

84 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 85 of 107
A81

special education and related services designed to meet their unique needs and prepare
them for further education, employment, and independent living" In paragraph 172 of this
Second Amended Complaint Plaintiffs demonstrate that social development goals are not
required goals by the NYSED on an IEP for a student with ASD. This paragraph further
argues that "to be primarily a social disorder why would the Commissioner not provide
explicit standards that a social development goals are required and that the goals must
meet specific criteria based on a benchmark that is measured by a technically sound
instrument that also guarantees setting goals associated with peer relationships. Another
goal that must also be required with explicit standards for ASD students in a prompt
independence goal."
190.Perhaps the most central skills that an ASD student will have an opportunity to learn—
especially if the right supports are provided—amongst their neurotypical peers are
"conversational skills" and "adaptability" that can be construed to be inversely related to
"prompt dependence" (the more adaptable you are the less prompts you need in general.
The more adaptable an individual is the less an external input e.g. prompt will be needed
to keep that individual on track.) Conversational ability and a low prompt dependence are
the two cornerstones of being able to function in society. It is a self-evident truth that in
order to participate in society independently one must be adaptable and conversational.
191.By not having required goals related increasing "conversational exchange", "expressive
language" and "reducing prompt dependence" a FAPE is not being provided. The
commissioner is in violation of the IDEA when she writes rules and regulations that
permit LEAs to violate the Individuals with Disabilities Education Act.

85 of 107

Case 1:17-cv-00501-LEK-CFH DocAumen1 76 Filed 01/22/18 Page 86 of 107
pp282

192.Further, by not making such goals required goals the Commissioner of Education violates
20 U.S.C. § 1400(d)(1)(A). Since there are no guaranteed goals related to increasing an
ASD child's ability to engage in Conversational exchange and to reduce prompt
dependence a FAPE is not provided to A.S. even though the IEP meets the dubious Rules
and Regulations of the Defendant Elia (8 N.Y.C.R.R. § 200) it is a violation of IDEA.

SPECIFIC RELIEF SOUGHT
193.Assume jurisdiction over this complaint
194.Order that the Shenendehowa School District is to offer A.S. ABA in a full inclusion
classroom that includes one-on-one Discrete Trial Training. The full inclusion classroom
will have an IEP rate or percentage consistent with the IEP rate of the first grade student
body. If there is another student with an IEP in the classroom the IEP must be of a mild
nature unless the percentage of students in the student population with a IEP of more
severe nature necessitates more than one such student per class.19

19 Many psychologists and doctors have noted some overlap in the behaviors observed from
students with Down Syndrone, Autism, PDD-NOS, PDD, and Fragile-X. The occurrence of
autism, PDD and PDD-NOS combined is less than 2%, Down syndrome 0.15% and Fragile-X
0.2%. The sum of all these disorders adds up to less than 2.5%. Thus, there should be no full
inclusion class of 25 students that has more than one student with any of the above disorders.
Additionally, Attention Deficit Hyperactivity Disorder (ADHD) a behavioral disorder that
requires less intervention and has a lower incidence of maladaptive behavior occurs at a rate of
5 — 7% of the population. Thus, no full inclusion classroom of 25 students should have greater
than 2 students with ADHD. Further, there is a population of students in any school that have
a record of delinquency and a population of students that have a cognitive or language delay.
Those students too should not occur at a rate greater than their percentage of the student body
for that grade in the full inclusion classroom. The central argument behind full inclusion
would be to equally distribute students with behavioral disorders and other students with an
IEP throughout the student body to minimize their ability to receive reinforcement for their
own inappropriate behavior and maximizing their exposure to model peers.

86 of 107

Case 1:17-cv-00501-LEK-CFH Documenl 76 Filed 01/22/18 Page 87 of 107
App283

195.Order that a major component of A.S. intervention will include therapy designed to
increase A.S. conversational abilities as A.S. ability to engage in conversation with
neurotypical peers. Order that to achieve this end that A.S. engage in conversation play
with neurotypical developing peers in a mix of pull-out and push in sessions with a
facilitator in a manner described in (see Parents new Exhibit T pp. 4 para. 3 — 4),
Specifically, this method employed that the identified child would work one-on-one with
typical peers (peers without an IEP generally of similar age (+/- 1 years) or same grade)
that are patient and have clear language, one hour per day at five days per week, until A.S.
demonstrates sufficient mastery where a second typical peer can be incorporated. The
central idea here is that once A.S. can master conversational skills with one other typical
peers he will be able to then work on conversational skills with 2 — 4 additional typical
peers on an increasing gradient with time/progress be implemented (up to 4 typical peers
and A.S., with no atypical peers present) at 5x one-hour per week (see Parents new
Exhibit T pp. 4 para. 3 — 4). Generally, it has been shown that it can take 18 months of
one-on-one conversational opportunities at while point the child will be able to rapidly
engage in conversation with an increasing number of typical peers.
196.Given equitable considerations and the appropriateness of the program Parents have
provided to A.S., approve pendency for time R.S. and E.S. spent to deliver an ABA a
home-based therapy and educational program to A.S. at a rate of $32.50 per hour
approved for 50 hours per week at the expense of the school district. Inflation adjusted to
$32.50 per hour for 2016. Order this pendency at the reduced duration if the A.S. attends a
private school program where he received an inadequate amount of intervention.

87 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
meat 76 Filed 01/22/18 Page 88 of 107
284

197.If the ABA therapy and educational program delivered to A.S. by R.S. and E.S. is
unilateral placement then given equitable considerations retroactively reimburse R.S. and
E.S. at a rate of $32.50 per hour, for time spent delivering an intensive ABA a therapy and
educational program to A.S., for 50 hours per week at expense of the school district for
the failure to provide a FAPE in the LRE.
198.With equitable considerations of Tuition Reimbursement for effort of parents to provide a
program to A.S. with No adequate pendency offered by Shen, order Shen or NYSED to
retroactively reimburse R.S. and E.S. for delivered home based ABA therapy and
educational intervention to A.S. at a rate of $32.50 per hour based on a 50-hour week (less
scheduled breaks) totaling 950 hours for the period 8/29/2016 to 2/4/2017 totaling
$30,875. See (Parents New Exhibit IIII pp. 17 - 22).
199.With equitable considerations of tuition reimbursement for effort of parents to provide
intervention order Shen or the NYSED to reimburse parents for providing A.S. with ABA
intervention to supplement his private school where Shen provided no special education
services at the rate of $32.50 per hour at 450 hours (for the period 2/8/2017 — 6/24/2017)
totaling $14,625.
200.The parents seek that the court overturn the order by the SRO for the CSE to convene
within 30 days of the SRO decision dated 4/3/2017 and received in the mail on 4/6/2017.
201.Order that the exhibits proffered by the parents be admitted into evidence. Order that the
record is to be reopened.
202.The parents request that the court order the school to provide a supplementary aid that
receives ongoing consultant based guidance from a BCBA or is a BCBA) to work with
A.S. to apply ABA principles, where that aid would serve as an invisible shadow to the

88 of 107

Case 1:17-cv-00501-LEK-CFH Documeni 76 Filed 01/22/18 Page 89 of 107
Pipp 285

extent that the aid works with other students in the classroom 50% of the time to help
create an environment where A.S. feels more confident to express himself to improve his
conversational skills and expressive language as a means to enable A.S. social
development. (See Parents new Exhibit T pp. S146 — S149 for a model of how
intervention can be provide within the classroom and in pull out therapy sessions that
would involve only other neurotypical peers) Here the authors used an intensive ABA
program at 35 — 40 hours per week.
203.Similarly, order the Shen to provide A.S. with a program that is 40 hours per week in
duration while maintaining his placement in his present classroom that extends the school
day (ending the school day at 5:15pm rather than 2:15pm) on each of Monday,
Wednesday and Friday) Where discrete trials and social skills training (no other atypical
peers present in the same room) would make up 20 of the hours of the 40 hours per week
of intervention) Order the following DTT and ABA group therapy be on A.S.'s IEP: small
group (2 - 4 students on an increasing gradient with time/progress) conversational
exchange intervention at 4 hours per week. Order that remaining 16 hours of discrete trial
training periods focus on conversational skills in a one-on-one setting, writing,
vocabulary, reading comprehension, math and math word problem aptitude.
204.Order changes in the IEP Management Needs Section and order that an intensive ABA or
an EIBI2° (Early Intensive Behavioral Intervention Program21) be provided to A.S. in a

20

EIBI is a term that is equivalent to intensive ABA so long as child is less than 8 years old.
Include the provision of an intensive ABA program will be provided to A.S. with a Board
Certified Behavior Analyst (BCBA) provided by Educational Models, or at a minimum
agreeable by the parents, to create a program modeled after Newmeadow for the intensive
ABA program (25 hours per week) but in a general education setting and then an additional
DTT program (25 hours per week, that will include 10 hours of push in and pull out sessions
per week). And that at all times Teachers, aids, therapists and any adults must interact with
21

89 of 107

Case 1:17-cv-00501-LEK-CFH Docume26
nt 76 Filed 01/22/18 Page 90 of 107
Pipp

general education classroom at an intensity of 40 hours per week, while A.S. maintains his
present classroom placement at Arongen but where an afterschool program is incorporated
at Arongen as described in paragraph 203.
205.Order that these changes sustain until A.S. has reached an IQ and VABS (or equivalent)
both22 exceeding a standard score of 90 in the IQ and 85 in the VABS. The discrete-trialroom should ensure the privacy of the students receiving the discrete trial from other
students unless they are receiving discrete trials concurrently in the same room.23
Order that all exhibits provided by petitioners be accepted into evidence and be
admissible.
Order formal measures of IEP success for A.S. by 8 means all at District Expense: 1. The
attainment of goals in the standard curriculum or first grade curriculum as based on A.S.
newly established present levels of performance. 2. A.S.'s VABS composite score with
maladaptive behavior option 3. A.S.'s IQ test with a performance IQ and verbal IQ
breakout.24 4. By reducing A.S. prompt dependence 5. By A.S. expressive language 6. By
the number of conversational exchanges A.S. can engage in with neurotypical peers that

A.S. in the same way as typical peers, so an not to segregate nor draw attention, nor treat
differently A.S. from any other child other than the distribution of time spent with him. Thus,
execution must be done so A.S. cannot be distinguished from a typical peer based on the
manner the adult interacts with A.S. see (Parent New Ex. T pp. 4 par. 4; Tr. pp. 1072 — 1076)
22
The organization administering any IQ and VABS tests will be selected by the parents at the
District's expense.
23
There shall be no moment in time where A.S. will be in a room or in a sectioned off space or
working in a group or sitting at a table, or receiving any intervention or therapy that is not
atleast 50% typically developing peers excepting when he is the only child in the room.
24
The person administering the VABS and IQ test must have a crystal clear voice that is to be
1 SD above average (as determihed by a technically sound instrument and independent
evaluation) in articulation and expressive language. An independent organization agreed to by
the parent will execute the evaluations
90 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
merit 76 Filed 01/22/18 Page 91 of 107
287

never had an IEP in his grade 7. By duration of sustained language exchange with
typically developing peers 8. By duration of direct play with typically developing peers.
208.Order that the parents be reimbursed for legal efforts and expenses as a prevailing party
for $29,500 (up to 5/2/2017) based on 560 hours at $50 per hour of effort and expenses.
Further, order that parents be reimbursed for legal efforts and expenses associated with
legal efforts since 5/2/2017 at the same rate of $50 per hour approximating at an
additional 200 hours.
209.Further Order that the district's placement of A.S. in a self contained classroom at
Newmeadow from the period October 2014 — March 2015 and it's failure to initially
provide A.S. with a placement in an integrated classroom when there was no data to
support that A.S. could not be successful with an initial placement in the integrated
classroom at Newrneadow for the 2014 — 2015 school year was a failure to provide A.S.
with a FAPE for the period in the self-contained classroom placement and that the
placement caused developmental damages because of the earlyLaged opportunities for
developmental gains A.S. lost out on had he been initially placed in an integrated
environment.
210.Order to that Methodology is now permissible to be written in a student's IEP in the State
of New York. Further, order Defendant Elia to modify her rules and regulations (8
N.Y.C.R.R. § 200)
211.Order that a comprehensive intensive ABA methodology in a student's LRE is now a
matter of right for children in the State of New York with ASD (based on the criteria of
ASD classification on this date 5/9/2017) to have on their IEP.

91 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 92 of 107
8

212.Order that when there is an IEP dispute that has an open due process complaint
proceeding or associated appeal a parent has the right to deliver a parent based education
and intervention that will be considered unilateral placement where parents are not
required to sign any document that forfeits their right to reimbursement for their efforts
(where reimbursement is warranted in situations where it is proven that the schools
placement was a failure to offer a FAPE in the LRE and the parent based placement was
resulted in gains). Order that parents will not be required to fill out an IHIP. Further
Order Defendant Elia to create a plan, form and set of guidelines called the IEP Parentdelivered Unilateral Placement (IEPPUP) that is an option for any Parent engaged in a due
process proceeding or subsequent appeals. Required that this plan will be considered a
unilateral placement where the parent is required to provide quarterly updates as part of
the proceedings. The guidelines would be similar to an IHIP but will be different in that
the school district is no longer involved in the approval of the plan and the parents no
longer forfeit their right for reimbursement for their efforts, but the school district is still
entitled to receive quarterly updates.
213.Order that a BCBA can provide intervention in any public school setting to A.S. even if
the BCBA does not have a teaching license but passes a background check.
214.Order the Shenendehowa Central School District be required to disclose to the public IQ
(as a Cognitive Standard Score (SS) and VABS (As a composite score and by
subcategories of Communication, Expressive Language, Receptive Language, Social,
statistical data (as a 4 year average encompassing the 3 prior years) for students with
autism at Pre K, K, and the most recent 3 years (for all students in 10th grade this would
yield statistics for their 8th through 10th grade and then also their Kindergarten and Pre K

92 of 107

Case 1:17-ov-00501-LEK-CFH Docu ment 76 Filed 01/22/18 Page 93 of 107
App 289

data) providing data (providing n = number students, M the mean and SD the standard
deviation) in a manner consistent with the publication (Parents New Ex. E Table 2 and
Table 3). Require both aggregate data and data and by grouping LRE classifications
according to, Self Contained All Day, Self Contained Part Day, Integrated All Day,
regular classroom (includes Cotaught Class) Also require a 4 year average encompassing
the 3 prior years (for an LRE placement at a grade level e.g. such as the IQ, IQ change and
SD displayed as a 4 year average for the LRE placement at each grade) statistical gains of
IQ and VABS for children with Autism at Shen by program and also the declassification
rates and LRE placement shift rates (for every LRE classification Shen has e.g. 3/10 shift
one LRE placement up or down each year,; after 2 years, afterl years, after 5 years and
after 10 years as this will inform parents on the likelihood of an LRE shift after 1 year, 2
years, 3 years 5 years and 10 years for a starting at a particular LRE placement) on a
yearly basis and for a 4 year average for students with autism. Similarly, Order Defendant
Elia to require all school districts in the state of New York to publish the same data. The
First Table is an example for how to report the IQ and VABS (broken out by subcategory
with 4 year average reported)
I. Cognitive and VABS Data
Aggregate
By Grouping LRE Classification breakout
For Students whose initial Kindergarten placement was Separate Schooling
For Students whose initial Kindergarten placement was Self-Contained (Full Day)
For Students whose initial Kindergarten placement was Self-Contained (Part Day)
For Students whose initial Kindergarten placement was Integrated Class

93 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 94 of 107
App 20

For Students whose initial Kindergarten placement was Cotaught Full Sized Class
For Students whose initial Kindergarten placement was Normal placement with
services

Table 1
Measure

PreK2 - Grade 3 I Grade 4 - 6 I Grade 7 — 9 I Grade 10 -12
Assessment n M SD I n M SD I n M SD I n M SD

Cognitive (SS)

PreK2
K
Gx - 2
Gx - 1

Current year - Gx
Communication (DQ) PreK2
K
Gx-1
Gx-2
Gx
Social (DQ)

PreK2

94 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 95 of 107

A 291

Composite (DQ)

PreK2
K
Gx - 2
Gx - 1

Current year — Gx
PreK2 — Year of Preschool that precedes Kindergarten

II. LRE Placements Reported for
Aggregate
By Grouping LRE Classification breakout
For Students whose initial Kindergarten placement was Separate Schooling
For Students whose initial Kindergarten placement was Self-Contained (Full Day)
For Students whose initial Kindergarten placement was Self-Contained (Part Day)
For Students whose initial Kindergarten placement was Integrated Class
For Students whose initial Kindergarten Placement was Cotaught Full Sized Class
For Students whose initial Kindergarten placement was Normal placement with
services

Table 2
9th —12th Grade (4 year average) (n = )
LRE Placement ASD Pre K1 PreK2 K 1 2 3 4 5 6 7 8 9 10 11 12
Separate Schooling
Self-Contained (Full Day)

95 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 96 of 107
App 292

Self-Contained (Part Day)
Integrated (< 50% of students with an IEP)
Cotaught Full Sized Class (< 20% students with an IEP; < 2 ASD students)
Normal Placement with services
Unilateral Placement
Parent Based Education
o

8th Grade (3 year average) (n = )

LRE Placement Pre K1 PreK2 K 1 2 3 4 5 6 7 8
Separate Schooling
Self-Contained (Full Day)
Self-Contained (Part Day)
Integrated (< 50% of students with an IEP)
Cotaught Full Sized Class (.< 20% students with an IEP; < 2 ASD students)
Normal Placement with services
Unilateral Placement
Parent Based Education

3`a

5th Grade (3 year average) (n = )

LRE Placement ASD PreK1 PreK2 K 1 2 3 4 5
Separate Schooling
Self-Contained (Full Day)
Self-Contained (Part Day)
Integrated (< 50% of students with an IEP)

96 of 107

Case 1:17-cv-00501-LEK-CFH DocA.umenl 76 Filed 01/22/18 Page 97 of 107
pp 293

Cotaught Full Sized Class 20% students with an IEP; < 2 ASD students)
Normal Placement with services
Unilateral Placement
Parent Based Education

PreK — 2'd Grade (4 year average) (n = )
LRE Placement ASD Pre K1 PreK2 K 1 2 3 4
Separate Schooling
Self-Contained (Full Day)
Self-Contained (Part Day)
Integrated L 50% of students with an IEP)
Cotaught Full Sized Class 20% students with an IEP; < 2 ASD students)
Normal Placement with services
Unilateral Placement
Parent Based Education

215.Order Shen Director of Special Education to provide data to public and continue to collect
data on IQ gains, Adaptive Behavior Gains (through universal measure), LRE placement
changes, and declassification gains for the entire Shenendehowa Central School District
Broken Down by School, Grade Level and program.
216.Order Defendant Elia to rewrite and promulgate 8 N.Y.C.R.R. § 200 within 30 days to
address the following matters where the new law below shall supersede all other state
laws and where the modification of the specific sections within 8 N.Y.C.R.R. § 200 that

97 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
ment 76 Filed 01/22/18 Page 98 of 107
A 294

are stated below will also result in an internally consistent 8 N.Y.C.R.R. § 200 such that
the changes incorporated into one section of 8 N.Y.C.R.R. § 200 will have the effect of
resulting in the modification of any related section within 8 N.Y.C.R.R. § 200 even if they
are not stated herein. As an example, much of the proposed changes reference 8
N.Y.C.R.R. § 200.1. However, it all cases it will also require a change to 8 N.Y.C.R.R. §
200.4 or other subsection to achieve an internally consistent 8 N.Y.C.R.R. § 200:

Regarding Placement and the Least Restrictive Environment
217. Order Defendant Elia to delete 8 N.Y.C.R.R. §§ 200.1 (cc)(1 - 2) and replace as follows:
(cc)(1) "guarantee ASD students supplementary aids and services that are trained in the
principles of ABA and are overseen by a Board Certified Behavioral Analyst and that
there are no limitations on the services that can be provided in any LRE placement";
(cc)(2) "guarantee that ASD are placed in a classroom that is primarily (atleast 80%)
neurotypical peers unless learning is not feasible in said classroom where feasibility
challenges must meet the guidelines set below."
"If an ASD student has been excessively disruptive for 6 consecutive weeks the required
standard to determine if learning is not feasible in the classroom is as follows: First It must
be demonstrated that the following 6 guidelines were met where an impartial BCBA—at
School District Expense--may monitor the child for an entire school days to both establish
that the guidelines were met and learning was not feasible in the classroom 1) The ASD
student received ABA intervention in the classroom and received Discrete Trial Training
towards relevant classroom material or social skills (overseen by a BCBA) for atleast 1.5
hours each day 2) All classroom personnel had received ABA training 3) Lunch AIDS,

98 of 107

Case 1:17-cv-00501-LEK-CFH Docupp
ment 76 Filed 01/22/18 Page 99 of 107
Pi 295

Recess AIDS and Monitors that have any interaction with the ASD child received ABA
training, from a BCBA, related to effectively communicating with the ASD child and
effectively facilitating communication between the ASD child and other children in recess
areas and lunch areas 4) the ASD child is not being bullied, is bing treated fairly and
communicated with by ABA principles by all staff 5) when a substitute teacher is present
or if a new teacher or staff member joins the class there is a probationary period of atleast
1 month where LRE placement change cannot be considered. 6) An IEP meeting has
occurred with the parents present, BCBA present and all other classroom staff present to
discuss any recent changes to the student's program, classroom, and relationship with
peers."

Regarding the Provision of the Recommended Program
218.Order Defendant Elia to rewrite (8 N.Y.C.R.R. § 200.4)(d)(2)(v)(b) by replacing it with
"The recommended program and services shall be consistent with a single peer reviewed
evidence-based research and further, the recommended program for children with ASD
must be Applied Behavior Analysis (ABA) that included Discrete Trial Training (DTT)
and as appropriate indicate:"

Regarding the setting of Goals on an IEP
219.Order Defendant Elia to rewrite: 8 N.Y.C.R.R. § 200.1(ww)(3)(i)(b) as follows: "social
development which shall mean the i) the ability of the student to engage in a one-on-one
and group conversation--measured by number of conversational exchanges (where a
conversational exchange must meet four requirements to be counted: A. Each student on,

99 of 107

Case 1:17-cv-00501-LEK-CFH Document 76 Filed 01/22/18 Page 100 of 107
App 296

both sides of the conversation must state atleast 5 words in a back and fourth exchange
directly with the student to be counted as one exchange B. The exchanges on both sides are
evaluated to be comprehensible C. there is no change in conversation partner and the
conversation must stay on topic D. The conversation must be generalized across a variety
of conversation topics and variety of specific conversation content25)—exclusively with
neurotypical peers that do not have an IEP both with and without prompts ii) the ability of
the student to participate in all aspects of the school day in the same manner as students
without an IEP in the absence of prompts as measured by both the reduction in the number
of prompts and percent reduction of prompts the student receives to participate in all
aspects of the school day including in class assignments and tests where both measures are
required. Because ASD is a neurodevelopmental disorder characterized by deficits in
social communication and social interaction an ASD student must have social development
goals related to conversational ability and prompt dependence. The conversational ability
goal must have two measures the ability to engage in conversation exchange with
neurotypical peers that do not have an IEP both with scripting and prompts and without
scripting nor prompts both measures must be established. Further, the ASD student will
have the option of having goals in every section
Regarding the Management Needs Section on an IEP
220.Order Defendant Elia to rewrite: 8 N.Y.C.R.R. § 200.1(ww)(3)(i)(d) as follows
"management needs which shall mean the nature of and degree to which environmental
Conversation content refers to the types of statements made in conversation and includes:
likes, dislikes, relations to past experiences, relations to past events, relations to immediate
experiences, descriptions, opinions, requests, suggestions, spontaneous comments,
compliments, encouragement, responses to refusal statements, invitations, requests to
participate, appropriate initiating statements, appropriate topic change statements and
informational statements.
25

100 of 107

Case 1:17-cv-00501-LEK-CFH Document/6 Filed 01/22/18 Page 101 of 107
Pi
pp297

modifications and human or material resources are required to enable the student to benefit
from instruction. Management needs shall be determined in accordance with the factors
identified in each of the three areas described in clauses (a)-(c) of this subparagraph.
Because ABA and DTT is an established methodology to improve the adaptive behavior
and intellectual functioning of persons with ASD all persons with ASD must have ABA
and DTT placed in their management needs section of their IEP"

Regarding Substantial Regression
221.Order Defendant Elia to rewrite: 8 N.Y.C.R.R. § 200.1(aaa) as follows: "Substantial
regression means a student's inability to maintain' two or more developmental levels, as
they are defined in this section, due to a loss of skill or knowledge that occurs during the
75 day period between the last day of the prior school year (typically about June 20) and
the first day of the current normal school year (typically about September 5) of such
severity as to require a period of review of greater than 15 days of school (3 calendar
weeks) at the beginning of the school year to reestablish and maintain IEP goals and
objectives mastered at the end of the previous school year. Developmental levels shall
include: 1) Expressive language 2) conversational ability 3) Vocabulary 4) Mathematics 5)
Math word problems aptitude 6) reading comprehension 7) hand writing 8) writing 9)
Prompt dependence 10) Receptive language 11) Appropriate Group Behavior 12)
Independent (Free of Prompts) Completion of Assignments 13) Completion of
Assignments with Prompts 14) Ability to follow directions 15) Cognition 16)
Communication Skills

101 of 107

Case 1:17-ov-00501-LEK-CFI-I Document 76 Filed 01/22/18 Page 102 of 107
App 298

Regarding twelve-month school year
222.Order Defendant Elia to incorporate following sections into: 8 N.Y.C.R.R. § 200.6(K) as
follows add 8 N.Y.C.R.R. § 200.6(K)(vi) "Any student that meets the definition of
substantial regression in 8 N.Y.C.R.R. § 200.1(aaa) on the conclusion of the 20th school
day of the current or the prior school year or shall be guaranteed a twelve-month school
year"; add 8 N.Y.C.R.R. § 200.6(K)(vii) "If the parent had requested a twelve-month
school year in the prior year and it is established that on the 20th school day of the school
year that the student had a substantial regression by the definition of substantial regression
in 8 N.Y.C.R.R. § 200.1(aaa) that student is automatically eligible for an after school
program during the present school year in the student's LRE or in a one-on-one capacity if
the student had an ASD classification. In the case for an ASD student the after school
program must be one-on-one. The student shall be offered two hours of after school
program each week for each developmental level in substantial regression up to a
maximum of 14 hours of after school program each week" add 8 N.Y.C.R.R. §
200.6(K)(viii) "The twelve-month school year must be offered in the students LRE for the
prior school year. If the ASD student is not guaranteed the same LRE placement (same
ratio of neurotypical peers to atypical peers) in the summer months of the twelve-month
program the parent may also elect to enroll their child in a local camp that is primarily
located within the boundaries of the school district of attendance where the school district
shall be responsible to provide IEP services at the camp that are consistent with the IEP
services provided in the summer program at the school"

102 of 107

Case 1:17-cv-00501-LEK-CFH Docpei2V6 Filed 01/22/18 Page 103 of 107
p

Regarding Present Levels of Performance
223.Order Defendant Elia to incorporate into: 8 N.Y.C.R.R. § 200.1(ww)(3)(i) the following
definition for present levels of performance "present levels of performance means the
measurable elements of a students performance that may include measures of the
following 1) Expressive language measured as part of a Vineland Adaptive Behavior Scale
2) conversational ability measured by the number of conversational exchanges a student
can consistently engage in with a atleast 3 neurotypical peers with out an IEP in their grade
where conversational exchange meets four requirements (A. Each student on both sides of
the conversation must state atleast 5 words in a back and fourth exchange directly with the
student to be counted as one exchange B. The exchanges on both sides are evaluated to be
comprehensible C. there is no change in conversation partner and the conversation must
stay on topic D. The conversation must be generalized across a variety of conversation
topics and variety of specific conversation content) 3) Vocabulary measured to the New
York State general education standard for the relevant grade 4) Mathematics measured to
the New York State general education standard for the relevant grade 5) Math word
problems aptitude measured to the New York State general education standard for the
relevant grade 6) reading comprehension measured to the New York State general
education standard for the relevant grade 7) hand writing measured by nationally used
method 8) writing measured to the New York State general education standard for the
relevant grade 9) Prompt dependence — measured by the number of prompts necessary to
enable a students active participation in respective school periods such as gym, art,
computer lab, one time events and activities and the completion of in class assignments.
Prompts are not counted in instances when a student asks for specific assistance for

103 of 107

Case 1:17-cv-00501-LEK-CFH Dock rriegbp Filed 01/22/18 Page 104 of 107
3i3
i

material the student does not understand. But if the teacher walks away and the student
asks for the same help twice for the same problem during the same assignment that will
consider a prompt albeit, requested by the student. Further prompts are not counted in
instances that a student is engaged in an activity or assignment but fails to make progress
or is slowly making progress and direction is successfully provided (should the same
directions need to be provided again for the same issue in the same assignment or activity
that will be considered a prompt because it represents a specific instance where a student
could make progress but relapsed shortly thereafter) to improve progress. Additionally,
for routine activities and assignments if a student consistently needs an additional direction
to complete assignments or carry out activities because of not knowing protocols that are
used 3 or more times a week that will be considered a prompt. Also, the prompt is
factored when it is used for a student that has gotten confused on which problem or part of
the assignment they are working on, or when it is used to keep the student on track and
engaged in an activity or to make a transition from one activity to another when atleast
80% of students have begun to make a transition. 10) Receptive language measured as part
of a Vineland Adaptive Behavior Scale 11) Appropriate Group Behavior — measured by
teacher assessment of student workings in groups consisting of 4 — 7 12) Independent
(Free of Prompts) Completion of Assignments 13) Completion of Assignments with
Prompts 14) Ability to follow directions — measured by the number of times directions are
provided on average to complete individual tasks 15) Cognition measured as part of an IQ
test 16) Communication Skills measured as part of a Vineland Adaptive Behavior Scale.
Present levels of performance must incorporate the abilities the student exhibits at home.
In instances where parents claim the students progress at home is significantly advanced to

104 of 107

Case 1:17-cv-00501-LEK-CFH Document76 Filed 01/22/18 Page 105 of 107
PiU1
pp3

the progress and abilities the student demonstrates at their school the parent will have the
opportunity to demonstrate the student's present levels are consistent with the parent
progress report. In those cases where the student's present levels are demonstrated to be
more advanced at home than the school the school must use the parent progress report.
Similarly, the parent may challenge the present levels reported at the school if the student
fails to demonstrate a similar ability at home. In those instances the school must also
demonstrate to the parent that the student's present levels are consistent with what the
school has reported. Both parents and school personnel get two attempts on different days
to demonstrate the student's present levels are different than reported. The same will be
said of the progress towards goals as the student's present levels for the IEP of one school
year should be equivalent to the student's progress towards goals in the prior school year."

Regarding the Setting and Attainment of IEP Goals
224.Order Defendant Elia to incorporate into: 8 N.Y.C.R.R. § 200.4(d)(2)(iii) the following
"The IEP for students with ASD must incorporate goals in every measurable
developmental level area where levels are measured according to paragraph 223 of this
Second Amended Complaint. The developmental levels include: 1) Expressive language 2)
conversational ability 3) Vocabulary 4) Mathematics 5) Math word problems aptitude 6)
reading comprehension 7) hand writing 8) writing 9) Prompt dependence 10) Receptive
language 11) Appropriate Group Behavior 12) Independent (Free of Prompts) Completion
of Assignments 13) Completion of Assignments with Prompts 14) Ability to follow
directions 15) Cognition 16) Communication Skills. In cases where the student does not
show a deficit the goal will be consistent with the expectations of the general education

105 of 107

Case 1:17-cv-00501-LEK-CFH Document76 Filed 01/22/18 Page 106 of 107
Pir
ppa 2

curriculum for that developmental area. Further, there must be two measures of every goal
one that does not allow for prompts and one that does. The caveat being goals related to
the reduction of prompt dependence. Further, goals must provide definitions for any term,
word or group of words that can be perceived to be subjective. For example, if a goal uses
the term "adult support" it must have a definition to understand the context of adult
support in the establishment of the goal, as this will ensure that there is no subjective
conjecturing into the degree of assistance the adult support provides to achieve the goals. "
225.Order Shen to immediately add conversational goals and prompt independence goals A.S.
IEP to read as follows:

Annual Goal: Conversational Exchange: A.S. will engage in 5 back and fourth
conversational exchanges (without adult participation nor assistance) in a one-on-one
context with atleast 3 different neurotypical peers without an IEP in the first grade. 100%
success in 3 out of 5 sessions.
Annual Goal: Prompt Independence: "A.S. will independently complete in class
assignments with a 75% reduction in prompts in every setting. Appropriate Prompt fading
techniques will be used to achieve this goal 80% success in 4 out of 5 occasions"
226.Order Shen to have a second set of identical goals for A.S. as shown in his current IEP but
the goals must be measured in the absence of prompts.
227.Order Shen to incorporate the following Related Services into A.S. IEP for the 2017 —
2018 school year and extended school year: Conversational Exchange: Small Group (2:1)
4X Weekly, 45 min. The makeup of the group shall be 1 facilitator that is trained by a
BCBA or is a BCBA and a neurotypical peer never having an IEP that has the qualities of
a clear voice, being patient for A.S. to speak, respectful of A.S. where 3 different peers

106 of 107

Case 1:17-cv-00501-LEK-CFH Docpmept.76 Filed 01/22/18 Page 107 of 107
AN) 6U6

should be used at similar frequencies. 3 of 4 sessions must be completed prior to the start
of the first recess. All sessions must occur on different days of the week. There must be a
Monday, Tuesday, and Friday session.
228.Order Shen to deliver A.S. additional support of an additional 1 hour per day during the
2018 and 2019 extended schools year for failing to deliver intervention to A.S. during the
summer of 2017.
229.Order Shen to deliver additional support of 3 additional hours per day at 3 days per week
on. Monday, Wednesday and Friday to A.S. after school hours from 2:15pm — 5:15pm
Discrete Trail Training (DTT) one-on-one by a certified teacher that can establish
excellent rapport with A.S. as judged by parent for 2 full school years to make up for the
substantial regression that A.S. experienced from the lack of requested intervention this
summer.
230.Declare that Elementary CSE Chairperson Renee Young denying A.S. conversation related
goals was breaking NYS laws and is a section 504 of the rehabilitation act violation
231.0rder Shen to immediately incorporate "Applied Behavior Analysis" and "Discrete Trial
Training" into the management needs section of A.S. IEP.
232.Order that all requested changes to 8 N.Y.C.R.R. § 200 in this submission immediately
apply to Shen.

Respectfully Submitted
Second Amended Submission January 22, 2018
s/ E.S. Pro Se and R.S. Pro Se on behalf of A.S.
Motherandfatherobochild@gmail.com

107 of 107

App 304

SHENENDEHOWA CENTRAL SCHOOL DISTRICT
STATE OF NEW YORK .: COUNTY OF SARATOGA

IN THE MATTER OF THE IMPARTIAL HEARING BY E
E.S.
S & R,S. FOR A.S:

PETITIONER,

AGAINST

SHENENDEHOWA 'OENTRAL. :SCHOOL DISTRICT,,
REPRESENTED BY MS SUSAN. T..AOHNS, ESQ.
FERRARA..FIORENZA PC

RESPONDENT,

BEFORE
GEORGE KA-NOLA:KIS
IIVIPAITIAL HEARING OFFICER.
Dece-mber'p0,:?ple

App 305

Preliminary Statement
Petitioner [the parent] appeal the decision of the Committee on
Special Education [CSE] of the Shenendehowa Central School District for
the 2016-2017 School year.
The parents believe that their child benefits from an applied
behavioral analysis [ABA] environment provided by a Board Certified
analyst with a special education degree. The parents also believe, that
without providing their child with that environment, 'there is a high
likelihood of he would not be successful nor be able to recover from his
autism disorder. [1. pp 17-19]
The District believes that the Individual educational program [IEP]
developed on June 14, 2016, was reasonably calculated for the child to
make educational progress within the CSE's recommended placement.
The child is turning six years of age and is now compulsory age for
kindergarten. The child is not attending any school program at the
moment. [T pp 15-17]

Prior History
While the parents were'living lin Pennsylvania, the family pediatrician
recommended that a referral be made for special education services. The
Early Intervention Program of Delayvare County, Bryn Mar, PA conducted
an evaluation on or about August 2012 when he was diagnosed as a
child with developmental delays and tqualified for special education
services. [0-3] According to the parents, their child never received
services in Pennsylvania because they moved to the Albany area. The
Albany County Early Intervention Services reevaluated the child and
determined that speech/language therapy and early intervention teacher
[SEIT] would to be provided. The child received services from October to
November 2012. The services were discontinued when the child moved
to his grandparents home in the Ukraine. On February 25, 2014, the
parents requested special education services through the Committee on
Preschool Special Education. Consent to evaluate was given on May 14,
2

App 306

2014. The child was three years three months old at the time. [D-3 D-4]
Access Therapy Group conducted an occupational therapy
evaluation [5-16-14] and a psychological evaluation [5-23-14]. A medical
statement of child in childcare was completed on [2-29-14]. The evaluation
summarized that the child's cognitive ability was mildly delayed; his
attention span was short and he required frequent repetition and visual
clues. His adaptive skills were mildly to moderately delayed and he
required adult support with self care tasks. Significant social emotional
delays were noted especially in initiating and reciprocating social
interactions. He made minimal eye contact and was self directed and
easily agitated in public places, throwing himself on the ground when
frustrated. [D-6]
The occupational therapy evaluation suggested that he may have
some sensory issues, difficulty focusing and interacting with peers. A
followup evaluation was recommended due to his inability to communicate
with the evaluator in the English language. [D-8]
In the preschool summary report, it was noted that the child required
frequent prompts to complete tasks and required a great deal of structure.
Improvement was noted in his ADL skills. The parents reported two
languages are spoken in the home. [D-7]
On June 11, 2014, the parent attended a CPSE meeting which was
to make its initial eligibility determination and the provisions for special
education services for the 2014-2015 year, The child was identified as a
preschool student with a disability and provided with SETT for 2 [60 min.]
sessions per week and occupational therapy for 2 [30 min.] sessions per
week. The goals were to focus on: improving his attention span and
following directions; to calm and organize his body in order to participate
in activities; to respond to the presence of others through verbal and non
verbal means; to use toys in a purposeful and appropriate manner; to
participate in associative play. [D-11]
On June 17, 2014, the parents brought their child to the
Developmental Behavioral Pediatrics Unit. In the letter, it was
recommended that the CPSE consider a diagnosis of autism spectrum
3

App 307
disorder in their planning for the child. They recommended intensive
intervention of 25 hours per week, low student/teacher ratio, a family
component and opportunities for interaction with typically developing
peers, data collection and a highly structured program with limited
distractions. It was also recommended the use of ABA intervention that
focuses on developmental, social and language skills and a component of
functional communications training to improve communication skills.
Examples of different model programs were the Denner model, TEACCH,
SCERTS and the DIR model Each approach would focus on the child's
social communication, developmental skills curriculum skills. [D-12]
On August 5, 2014, an IEP program report indicated that the child
could: label objects [inconsistently]; complete the bathroom routine with
less assistance; make eye contact [limited]; point to an object; follow
directions 25% of the time, was independent transitioning between
activities; respond to his name 10% of the time; follow classroom routines
with the use of modeling, verbal, visual and physical prompts. His
behavior in the daycare setting where he received his special education
support was described as his having difficulty sitting and attending to
group type of activities. [0-13, D-14]
The CPSE conducted its annual review on August 13, 2014, where a
continuation of his current program and placement was agreed upon by
the parties '{SETT 1-1, 5 [60] min. sessions weekly, occupational therapy 11, 2 [30 min.] sessions per week]. Goals would continue as,stated in the
June 11, 2014 IEP. [D-15, D-16]
A speech and language evaluation was conducted on September
20, 2014 and noted that Russian was the primary language spoken at
home. The evaluator concluded that though the child's voice and oral
motor skills were within normal limits, his articulation and intelligibility skills
were significantly delayed. [D-17, D-18]
A CPSE meeting was reconvened on September 24, 2014 to
consider a change of placement and program. The New Meadow
Preschool program was selected and was to begin on October 1, 2014 in
a special class [12:1+2] with occupational therapy ind. 2 [30 min.] sessions
4

App 308
per week, speech and language therapy ind. 4 [30 min.] session per week.
The ESY services would be implemented in the daycare setting. The
rationale for the change was that the child's ability to communicate was
well below average; he lacked communication intent; exhibited articulation
errors and appears to be disengaged in the classroom setting and
required multiple verbal and physical prompts to participate throughout his
day. Goals in his new setting were: improve his attention span and
following directions; improve articulation and phonological speech;
improve listening, understanding, expression language skills; calm and
organize his body to participate in activities; respond to others using
verbal and non verbal behavior; use toys in a purposeful and appropriate
manner; participate in associative play. [D-79, D-20, D-21]
An amendment was made to the IEP on January 7, 2015 to include
standardized assessments to collect.information regarding their child's
progress. [D-22]
The CPSE met again on March 25, .2015 and continued the existing
classification, .but changed the program from the self contained classroom
where he received ABA training to an integrated setting at New Meadow.
His special education program would be integrated into the general
education class. Special education services would continue. The
rationale for the move was a noticeable change in his attention span,
language skills, fine motor and play skills. He appeared to produce more
language and enjoyed interacting with other students. However, he would
require adult support in the transition from the self contained placement to
the general education class. Goals essentially continued from his
previous IEP. [D-24, 0-25, 0-26]
On May 8, 2015, the parents were provided with notice that a CPSE
to CSE meeting would be held on May 19, 2015 for the purpose of
transitioning from preschool to a school age program. A draft IEP was
provided to the parents for the 2015-2016 school with a provision for an
ESY [7-6-15 to 8-14-15]. [0-27]
The classification was changed to Autism. The child would continue
to require extra support to remain on task and would need repetition.
5

App 309
Expressive and receptive language continue to be areas of deficit. It was
believed that he would benefit from a small structured setting. The draft IEP
amended the speech and language services to 3 ind. [30 min.] sessions
per month and 6 group [30 min.] session per months, occupational therapy
would be provided individually 3 [30 min.] sessions per month. The new
placement would be the Connections program at the Tesago Elementary
school. His program would be a special education class [12:1+1] and a
consultant teacher for direct and indirect services in the kindergarten class.
Goals would focus on: improving his attention span; answer yes, no and
what questions; increase his vocabulary; use scissors correctly; identify
letters in the alphabet; identify numbers 1-10 and write his name.
The parent testified that she attended an open house at Tesago
Elementary School on or about September 1st or 3rd and met with Ms.
Paradise, iher son's classroom teacher. The parent also testified that her
son was a very young kindergarten student. I[T pp 224, 1398-1399]
The parent testified that she began to see that her son was having
difficulty transitioning during the second week of school. He refused to get
on the bus and when in the school office, he would fall to the floor.
Around early October, her son's resistance to going to school became
more frequent. He became more aggressive at home and to manage his
behavior in public. [T pp 1401-1403]
Ms. Paradise, the special education teacher testified that the child
was one of four students in her self contained class. He received his ELA
and mathematics instruction in the Connections program. Social skills
training were also part of his special education program. By mid October,
the child could walk independently in the halls; hang up his backpack in
his bin space, place his binder in his bin space and follow his daily
schedule. Where he did not interact with his peers in September, he
began to interact with them during choice time [free time]. His tardiness,
she believed iimpacted his classroom performance because iit disrupted his
routine. His Behavioral Progress Chart for the period September 7 to
November 16, 2015 indicated that the dhild attended 39 out of 47 possible
days. Behaviors noted during that period indicate he was not following
6
.

App 310
directions [3], producing little work [3], needing 1-1 [2] staying in his seat [1]
[and throwing a toy [1]. [D-38, T pp 215-216]
The parents filed a'ue Process Complaint dated October 20, 2015.
The nature of the problem stated was a decline in his level of engagement
for activities, eye contact with peers, his clarity of speech and more
resistant at home and poor'behavior in public. Their solution was to
reclassify their son as a preschooler because he lacked the readiness for
kindergarten. He would return to New Meadow for the remainder of the
2015-2016 school year where he had attended through the CPSE. [D-31]
On October 13, 2015, the parents received notice of CSE meeting to
be held on October 22, 2015. [D-34]
Ms. Paradise prepared a summary of her observations and
assessments. She described his progress as his being independent to
follow the routines of his class; sit appropriately for a story in library; trace
letters using dotted lines; sit at a table and wait for directions; echo sounds
and words in reading class; transition from one activity to another; count
to 5; choose the appropriate picture on the daily weather chart and select
the proper clothing for the daily weather. She believed that his being
bilingual was a barrier to his making greater progress. It was determined
that the staff would visit New Meadow and observe the program and
consult with the New iMeadow staff. [D-30, D-34, T pp 220-224]
A CSE meeting was requested by the parents and was held on
October 22, 2015. The CSE again recommended the Connection
program and kindergarten with consultant teacher services, speech and
language therapy both group and individual, and occupational therapy
both individual and group. [D-32]
The parents submitted a Due Process Complaint on NoVember 10,
2015. They described the nature of the problem as being similar to the
previous Due Process. Complaint. The tardiness reported by Ms. Paradise
was reiterated by the parent. The parent explained that her son's tardiness
was do to his resistance at home with his ADL skills. The parent believed
because the environment at Tesago Elementary School not "totally
inclusive" it was a factor in his inappropriate behaviors. She also believed
7

App 311
that the staff's lack of reaction to his "breakdowns demonstrate there is no
procedure to respond to such a [situationr. [0-37] Ms. Paradise testified
that the child was adjusting to his new school, new teachers and new
students. She did not observe any decline in his level of engagement; his
level of frustration; his completing of his assignments nor was there any
significant change in his behavior from September to November.
[T pp 230-333, 336]
The !EP was revised to reflect a change of placement to the New
Meadow Preschool Program. The starting date was November 20, 2016.
The parents would withhold their son from a kindergarten enrollment. This
would be a unilateral placement on the part of the parents, however, he
would receive special education in the form of a daily resource room for
[30 min.] per week and the services of speech and language therapy
ind./group for 3/2 [30 min.] sessions per week land occupational therapy
both indlgroup 1-1 for [30 min.] sessions per week. The child's special
education goals would focus on: recognizing the upper/lower case
letters of the alphabet; will identify numbers 1-10; will count to 10 with a 1-1
correspondence; will follow a one step directive; will answer yes, no and
what questions; will increase vocabulary knowledge; will use scissors
correctly and will correctly write his name. [D-33]
Upon the child's return to New Meadow, his behavior indicated he
had difficulty with the transition to his new environment. He was placed in
the Bridge program on or about December 4, 2015. His discrete trial
teaching were presented by Ms. J. Yanazzo, an ABA provider.
Observation and recorded data was maintained from December 17, 2015
to June 22, 2016. Various behaviors were noted during that period.
There were at least 17 instances where he was diStracted or showed
poor attention span during the activity for some of the time. Echololia was
noted approximately 7 times. His being over stimulated was noted
approximately 10 times. [D-40]
Speech therapy data collection from December 2, 2015 to June. 23,
2016 was collected by Ms. Posporelis, New Meadow speech/language
therapist. His goals were: to answer yes, no and what questions with 80
8

App 312
% accuracy; to increase vocabulary using pictures in ten different
categories with. 80 % accuracy. Her data indicated that the child had great
difficulty with the goal for answering yes, no and what questions. He
achieved 80% on 7 of 42 trials; he achieved 70% 7 out of 42 trials; he
achieved 60% 5 times and the remainder ranged from 0-50%. He was
more successful with the concept of using pictures to label different
categories. On a range of 80 % to 100% correct responses, he achieved
13 correct responses out of 33 opportunities. In 6 instances, he achieved
70% accuracy. In 60 instances, he achieved 60% accuracy. [D-41]
The occupational therapist provided individual and group services
both in the classroom and in the therapy room. Data was collected from
December 13, 2015 to June 23, 2016. Goals were: to use the scissors
correctly and to write his name. Over the course of the abbreviated
school year, the child attended approximately 48 sessions. The activities
included the use of both fine and gross motor skills. The progress the
child made was depended on his ability to follow directions; the number of
visual and verbal prompts required to complete the task; his impulsive
behavior and his physical motor strength. The data revealed that there
was no progressive pattern of improvement in the previous identified
areas, rather he was inconsistent during his occupational therapy
sessions. The data indicated that the child was impulsive in approaching a
task approximately 7 times; he required prompts approximately 13 times
and demonstrated gross or fine motor weakness in his writing task and in
body movement activities approximately 15 times. However, he did better
tracing letters, but he was not able to write them independently. [D-42]
The child's attendance was generally satisfactory. [D-43]
The parents were sent notice on May 26, 2016 CSE meeting for the
purpose of conducting its annual review. A draft IEP was provided.
Attendance for the June 14, 2016 meeting would include: Ms. Mylod,
chairperson, Ms. Young, academic administrator, Ms. Reynolds,
psychologist, Ms. Paradise, special education teacher, Ms. Fuschino,
occupational therapist, Ms. Warren, New Meadow general education
teacher, Ms. Capel, New Meadow occupational therapist and
9

App 313

Ms. Posporelis, New Meadow speech and language therapist.
Findings and Facts
The CSE met on June 14, 2016 and developed an IEP for the 20162017 school year. The classification of a child with autism is not in dispute
nor is the child's placement in the general education kindergarten class. [T
p 1208]. The child's placement in the self contained program [Connections]
is being contested by the parents who preferred an AM and PM
kindergarten program with. special education services [ABA]. [T pp 1260,
1315]
The CSE recommended the child be placed in the Tesago
Elementary School as a kindergarten eligible student His placement
would be in the general education kindergarten in the morning with his
special education program in the afternoon. The placement in the special
education class [12:1] also included support services of speech/language
therapy 6 [30 min.] session per month in the therapy room and 3 [ 30 min.]
session per month in the classroom. Occupational therapy
individual/group 6 [30 min.] sessions per month would be provided.
Provisions were made for parent training as well.
The IEP's present level of performance for academic,
functional. and learning characteristics were developed by the New
Meadow Preschool staff where he had previously attended. Through the
use of staff observations, data collection and assessments, the child's
strengths/needs were noted as: significant delays in articulation and
receptive/expressive language; a short attention span; could produce 1-4
word phrases; using pictures was able to label an activity; peer interaction
and pragmatic language were limited. Due to his very limited language
use, any formal cognitive assessment previously administered should be
viewed with caution.
His social development has been hampered by his limited
expressive language skills. He requires adult support and modeling to
initiate social interactions with peers. His social skills are delayed,
10

App 314

though he has shown an interest in interacting with peers.
His physical development shows a delay in both fine and gross
motor areas, which hamper his ability to use writing tools and maintain a
stable position. He continues to require repetition and a multi sensory
approach to write his letters. He is easily distracted and lacks the
organization ability to stabilize his immediate environment to complete a
task.
His management needs can best be addressed by modeling an
appropriate interaction; use prompting and modeling to support
expressive language and general learning activities; provide a structured
environment and routines to create a predicable learning space; provide
for individual instruction and the use of the 3 step compliance approach
[request, model and assist]. Instructions in all areas will need to be
modified in order to address his academic, social and physical needs.
To achieve this child's ability to progress in both the kindergarten
and Connections special education program, annual goals were
developed. They included; following one step direction; identify numbers
i
1-20 in random order; describe the action in a presented picture; will
repeat 3-4 word sentences using intelligible speech; when shown different
emotions, will identify the correct emotion; will engage in cooperative play;
will legibly form 20/26 letters and will complete a 3 step motor activity.
Statutory Background
A FAPE is offered to a student when [a] the board of education
complies with the procedural requirement set forth in the IDEA, and [b] the
IEP developed by the CSE through the IDEA's procedures is reasonably
calculated to enable the student to receive educational benefits
[Rowley, 458 U.S. at 206-07; Cerra v. Pawling Cent. Sch: Dist., 427 F. 3rd
186,192 [2nd C.ir. 2005] ] While school districts are required to comply
with all IDEA procedures, not all procedural errors render an IEP legally
inadequate under the IDEA [A.C. v. Bd. of Education., 553 F. 3rd. 165, 172
11

App 315

[2nd Cir. 2009; Grim v. Rhinebeck Cent. Sch. Dist., 346 F. 3d 377, 381[2nd
Cir. 2003; Perricelli v. Carmel Cent. Sch. Dist., 2007 MILL 465211, at *10
[S.D.N.Y. Feb 9, 2007]1 Under IDEA, if a procedural violation is alleged, an
administrative officer may find that a student did not receive FAPE only if
the procedural inadequacies [a] impeded the student's right to a
significantly impede the parents' opportunity to
FAPE.
participate in the decision making process regarding the
provision of a FARE to the student, or [c] caused a deprivation of
educational benefits [20 U.S.C. 1415 [f] [3] [E] [iii]; 34 C.F.R. 300.513 [a]
[2]; 8 NYCRR 200.5 DI 141 [iii]; E.H. v. Bd. of Educ., 2008 VVL 3930028, at *7
[N.D.N.Y. Aug. 21, 2008; Matrejek v. Brewster Cent. Sch. Dist., 471 F. Supp.
2d 415, 419 [S.D.N.Y. 2007]
The IDEA directs that in general, an impartial hearing officer's
decision must be made on substantive grounds based on a determination
of whether the student-received a FAPE [20 U.S. C. 1415 [f] [3] [E] [I]. A
school district offers a FAPE "by providing personalized instruction
with sufficient support services to permit the child to benefit
educationally from that instruction" [Rowley, 458 U.S. at 203].
However, the "IDEA does not itself articulate any specific level Of
educational benefits that must be provided through the IEP"
[Walczak v. Florida Union Free Sch.:Dist. 142 F. 3d 119, 130 [2d Cir.
1998]; see Rowley, 458 U.S. at 189]. The Statue ensures and
"appropriate" education, "not one that provides everything that
might be thought desirable by loving parents" [Walczak, 142 F.3d at
132, quoting Tucker v. Bay Shore, 873 F.2d 563,567 [2d Cir. 1989]; see
Grim 346 F.3d at 379. Additionally, school districts are not
required to "maximize" the potential of students with disabilities
[Rowley, 458 U.S. at 189, 199;Grim, 346 F.3d at 379; Walczak, 142 F.3d.
at 132]. Nonetheless, a school district must_provide "an IEP that
is "likely to produce progress, not regression", and....affords the
student with an opportunity greater than mere trivial
advancement" [Cerra, 427 F.3d at 195, quoting Walczak, 142 F.3d at
130; see P. v. Newington Bd. of Education, 546 F.3d 111,118-119 [2d Cir.
12

App 316

2008]; Perricelli, 2007 WL 465211,at * 15]. The IEP must "reasonably
calculated to provide some "meaningful-benefit" [Mrs_ B. v_ Milford Bd. of
Educ.. 103 F.3d 1114. 1120 F2d Cir. 1997]; see Rowley, 458 U.S. at 1921:
The student's recommended program must also be provided in the least
restrictive environment [LRE] [20 U.S.C. 1412 [a] [5] [A]; 34 C.F.R. 300.114
[a] [2] [i], 300.116 [a] [2]; 8 NYCRR 200.1 [cc], 200.6 [a] [1]; see Newington,
546 F. 3d at 114; Gagliardo v. Arlington Cent. Sch. Dist., 489 F.3d 105,
108 [2d Cir. 2007]; WalczaK 142 F.3d at 132; E.G. v. City Sch. Dist. of New
Rochelle, 606 F. Supp. 2d 384, 388 [S.D.N.Y. 2009]; Patskin v. Bd. of
Educ., 583 F. Supp. 2d 422, 428 [VV.D.N.Y. 2008]
An appropriate educational program begins with an IEP that
accurately reflects the result0 of evaluations to identify the student's needs
[34 C.F.R. 300.220 [a] [1]; 8 NYCRR 200.4 [d] [2] [i], establishes annual
goals related to those needs134 C.F.R. 300.320 [a] [2]; 8 NYCRR 200.4 [d]
[2] [iii], and provides for the use of appropriate special education services
[34 C.F.R. 300.320 [a] [4]: 8 NYCRR 200.4 [d] [2] [v]; see Application of the
Dep't of Edut., Appeal No. 07-018; Application of a Child with a Disability,
Appeal No. 06-059. Subsequent to its development, an IEP must be
properly implemented [8 NYCRR 200.4 [e] [7]
Discussion and Decision
First and foremost, I find no procedural violations on part of the
District. Under IDEA, if a procedural- violation is alleged; a hearing officer
may find a student did not receive FAPE. The parents were given ongoing
"opportunities to participate in the decision making process' regarding the
provisions of a FAPE" for their child. They attended all CPSE and CSE
meetings, contributed to the development of the IEP. [T p 416] Had an
opportunity to visit Tesago Elementary School and meet 'with their child's
special education teacher prior to his attending the Connections program.
[T p 2241] They attended a parent teacher conference. [T p 228] They
influenced the. CSE in adding an ABA specialist to provide training and
support to the Connections program. it pp 23-24, 342-342, 485, D-49]
13

App 317

To address the matter of personalized instruction with sufficient
support services to benefit educationally from that instruction, I reviewed
the information provided the CSE to develop an IEP that was "reasonably
calculated to enable the student to receive educational benefits".
The child's dual placement in the general education kindergarten and
the Connections program satisfies the Rowley requirement. The
kindergarten program offers the child with an opportunity to participate in a
program with his general education peers. The kindergarten class
consisted of 14 students, 5 of whom were students with disabilities. To
support the integration of students with disabilities, two teacher aides were
provided. [T p 115]. The teacher aides would assist the students with
disabilities generalize the academic and social skills taught in the
Connection Program. The placement in the kindergarten class provides
the child with exposure to peers who demonstrate appropriate behavior.
This placement satisfies the least restrictive requirement [LRE] of IDEA.
An appropriate educational program begins with an IEP which
accurately reflects the result of evaluation to identify the student's needs,
establishes annual goals and short term instructional objectives related to
those needs and provides for the use of appropriate special education
services. [Application of a Child with a Disability, Appeal no 04-046],
[Application of a Child with a disability, Appeal no 02-014] School districts
may use a variety of assessment techniques such as criterion-referenced
tests, other test, or any combination thereof to determine the student's
present level of performance and areas of need. [34 CFI Part 300,
appendix A, Section 1, Question 1]
Standardized evaluations, in this instance, provided limited
information. [T1033-1034] The CSE relied on the New Meadow
assessments which included but were not limited to data collection and
analysis, observations and other assessments, all which provided input
into the present level of performance and the development of the IEP
goals. [T pp 479, 775-776, 850, 1049-1050, 1151]
School districts are not required to "maximize" the potential of
students with disabilities, nonetheless, a school district must.provide an
14

App 318
IEP that is likely to produce progress, not regression and affords the
student with an opportunity greater than mere trivial advancement.
To address the above mentioned objective, the child would receive
specialized instruction in the Connections program. The child's short
attention span and distractibility interferes with his ability to learn, thereby
the Connections program provides the best environment for direct
instruction. [I pp 593-596, 609-610] The core academic subjects of math,
reading and writing would be addressed in that setting. Discrete trial
training would be implemented using the child's goals as the focal point.
[T p 125] ABA techniques would be utilized in the classroom as well as
strategies from the National Autism Center. [T pp 140, 158, 183]
The parents concerns with the use of ABA in the classroom should
be alleviated by the use of an ABA specialist, who holds BCBA credentials
as well as the special education teacher holding a certificate for discrete
trial training. [T p 164-165] Ms. Yanazzo, New Meadow BCBA
specialist testified that the child's greatest gains were made in his use of
pragmatic language and social skills. [1 pp 1037, 1129] She testified that
the child's progress would take a long time because of the nature of his
disability. [T p 1081] Cognitively, he is a slow learner [1' pp 1129, 1133]
He had yet to show consistency in his acquisition of reading skills.
pp 1137-1138] The IEP goals are related to his needs and address
them specifically, I believe they are "reasonably calculated" to produce
progress.
Personalized instruction must be provided with sufficient support
services to address his articulation, receptive and expreSsive deficits.
[T pp 593-596] The general goal for therapy is to increase the child's
functional communication skills. _Therapy would be provided in the therapy
room and in his classroom. [T pp 593-596, 1158-1159] The speech
therapist is also part of the social skills training program, offered to student
in the Connections program. ET pp 925-926] The social skills training
focuses on feelings, coping skills and social problem solving. All of which
the child has needs in these areas. [T pp 1070-1071, 1120, 1128]

ri

"

15

App 319

Occupational therapy services are necessary because of this child's
fine and gross motor deficits. These deficits impact his writing skills and
activities involving gross motor skills. [D-42]
As previously stated, the child is now of compulsory school age. His
parents testified that they are home schooling him. [T pp 1172-1173] Their
first request was to continue their son at New Meadow as a school age
student. Mr. McKenzie, New Meadow administrator testified that they are
not licensed to offer a school ,acieltosooram. [T p 851] So that option
cannot be considered: The second reouest was to replicate the New
Meadows program at Tesago Elementary School. [T pp 1315-1316]
I can only conclude that the CSE has integrated man of the requests into
the kindergarten and Connections program. As a CSE in developing the
1EP is not required to "maximize" In
!al of stialetittt-1 find that the
appropriate because
IEP developed for the 2016-2017 ar
of the likelihood it will produce progress=`
Finally, much of the parents' tatimonv and :erg-melt focused on
ABA as being the only method to irr4fruct their SOIT,Inere is strong judicial
authority in support of the legal pr4osition that IDEA does not guarantee
a right to a particular rnethodologY•or personnel and this is a matter
appropriately left within the discretion of the local school authorities
provided the method selected provides FAPE. [Wall v. MattituckCutchogue Sch_ Dist, 24,IDEUI 1162 [E.D.N.Y. 1996] 'Joshua A. by Jorge
A. v. Rocklin Unified Sch. Dist, 49 IDELR 249 [E.D. Cal. 2008], aff'd, 52
IDELR 64 [9th Cir. 2009] [New York City Dep't of Educ. v. V.S. by D.S., 57
IDELR 77 [E.D.N.Y. 2011] [Board of Educ. of the E. Islip Union Free Sch.
Dist., 5 ECLRP 30 [SEA NY 2007] [Board of Educ. of Nev York City, 5
-ECLRP 71 [SEA NY 2007]

The parent's appeal is dismissed.

16

App 320
it is further ordered, that shOuld the parents choose not to appeal
this decision to the State Education Department's State review officer, that
the District and the parents develop a plan with the necessary supports to
allow for the. child's smooth transition to the program as outline in the .IEP.
Appeal to a State review officer [SRO] of the State
Education Department, [1] Any party aggrieved by the findings of
fact and the decisions of the impartial hearing officer rendered in
accordance with subdivision [j] of [CR Part 200.5] may appeal to
the State review officer of the State Education Department. Such
a review shall be initiated and conducted in accordance with the
provisions of Part 279 of this Title. [2] The State review officer
must ensure that, no later than 30 days after the receipt of a
request for a review, a final decision is reached and a copy of
the written decision
is mailed to each of the parties,
except that the SRO may grant specific extensions of time
beyond the periods set out in this paragraph at the request of
either party. [3] The written decision of the SRO shall be final,
provided that either party may seek judicial review by means of a
proceeding pursuant to article 4 of the Civil Practice Law and
Rules or 20 U.S.C. section 1415. [CR Part 200.5 [k]
The pendency status of the child during these proceedings
is the last agreed upon !EP or if applying for initial admission to a
public school, shall be placed in the public school program until
all such proceedings have been completed. [CR Part 200.5 [m]

Kandilakis,
Impa
earing Officer
December 30, 2015
17

App 321

Rule 4(a)(6) of the Federal Rules of Appellate
Procedure States
"(6) Reopening the Time to File an
Appeal. The district court may reopen the
time to file an appeal for a period of 14 days
after the date when its order to reopen is
entered, but only if all the following
conditions are satisfied:
the court finds that the moving party did
not receive notice under Federal Rule of
Civil Procedure 77(d) of the entry of the
judgment or order sought to be appealed
within 21 days after entry;
the motion is filed within 180 days after
the judgment or order is entered or within
14 days after the moving party receives
notice. under Federal Rule of Civil
Procedure 77(d) of the entry, whichever is
earlier; and
the court finds that no party would be
prejudiced."
Rule 26(c) of the Federal Rules of Appellate
Procedure States
"(c) Additional Time after Certain
Kinds of Service. When a party may or
must act within a specified time after
being served, 3 days are added after the
period would otherwise expire under
Rule 26(a), unless the paper is delivered
on the date of service stated in the proof
of service. For purposes of this Rule
26(c), a paper that is served

„*BOTAJOS

jooid auk ut polvls 8OIAIOS Jo opp etp
uo paiomiep sp polval4 Si AIIPOTTIO.11.30j0

JO

ggg ddV

App 323

American Journal on Mental Retardation
1993, Vol. 97, No. 4, 339-372
0 1993 American Association on Mental Retardation

Long-Term Outcome for
Children With Autism Who
Received Early Intensive
Behavioral Treatment
L .1171.71117n1111311—V._

__:11

.

John J. McEachin, Tristram Smith, and 0. ivar
Lovaas
University of California, Los Angeles

At

;4'-14

_

'LAP

After a very intensive behavioral intervention, an experimental group of 19
preschool-age children with autism achieved less restrictive school placements and
higher IQs than did a control group of 19 similar children by age 7 (Lovaas,
1987). The present study followed-up this finding by assessing subjects at a mean
age of 11.5 years. Results showed that the experimental group preserved its gains
over the control group. The 9 experimental subjects who had achieved the best
outcomes at age 7 received particularly extensive evaluations indicating that 8 of
them were indistinguishable from average children on tests of intelligence and
adaptive behavior. Thus, behavioral treatment may produce long-lasting and
significant gains for many young children with autism.

Infantile autism is a condition
marked by severe impairment in intellectual,
social, and emotional functioning. Its onset
occurs in infancy, and the prognosis appears
This study was supported by Grant No. MH11440 from the National Institute of Mental Health.
The study was based on a dissertation submitted
to the University of California, Los Angeles,
Department of Psychology, in partial fulfillment
of the requirements for the doctoral degree. The
authors express their deep appreciation to the
many students at UCLA who served as therapists
and helped to make this study possible. Special
thanks to Bruce Baker and Duane BUlumester,
who helped in the design of this study. Requests
for reprints of this article, copies of the Clinical
Rating Scale, or additional information about this
study should be sent to 0. Ivar Lovaas, 405
Hilgard Ave., UCLA, Department of Psychology,
Los Angeles, CA 90024-1563.

McEachin, Smith, and Lovaas

to be extremely poor (Lotter, 1978). For
example, in the longest prospective followup study with a sound methodological design, Rutter (1970) found that only 1 of 64
subjects with autism (fewer than 2%) could
be considered free of clinically significant
problems by adulthood, as evidenced by
holding a job, living independently, and
maintaining an active and age-appropriate
social life. The remaining subjects showed
numerous dysfunctions, such as marked
oddities in behavior, social isolation, and
florid psychopathology. The majority of subjects required supervised living conditions.
Professionals have attempted a wide
variety of interventions in an effort to help
children with autism. For many years, no
scientific evidence showed that any of these
interventions brightened the children's longterm prognosis (DeMyer et al., 1981). How-

359

App 324

ever, since the 1960s, one of these interventions, behavioral treatment, has appeared
promising. Behavioral treatment has been
found to increase adaptive behaviors such as
language and social skills, while decreasing
disruptive behaviors such as aggression
(DeMyer, Hingtgen, & Jackson, 1981; Newsom
& Rincover, 1989; Rutter, 1985). Furthermore, behavioral treatment has been continuously refined and improved as a result of
ongoing research efforts at a number of sites
(Lovaas & Smith, 1988).
Some recent evidence has indicated
that behavioral treatment has developed to
the point that it can produce substantial
improvements in the overall functioning of
young children with autism (Simeonnson,
011ey, & Rosenthal, 1987). Lovaas (1987)
provided approximately 40 hours per week
of one-on-one behavioral treatment for a
period of 2 years or more to an experimental
group of 19 children with autism who were
under 4 years of age. This intervention also
included parent training and mainstreaming
into regular preschool environments. When
re-evaluated at a mean age of 7 years, subjects in the experimental group had gained
an average of 20 IQ points and had made.
major advances in educational achievement.
Nine of the 19 subjects completed first grade
in regular (nonspecial education) dasses
entirely on their own and had IQs that
increased to the average range. By contrast,
two control groups totalling 40 children, also
diagnosed as autistic and comparable to the
experimental group at intake, did not fare
nearly as well. Only one of the control
subjects (2.5%) attained normal levels of
intellectual and educational functioning.
These data suggest that behavioral treatment is effective. However, the durability of
treatment gains is uncertain. In one prior
major study, Lovaas, Koegel, Simmons, and
Long (1973) found that children with autism
regressed following the termination of treatment. Other studies have shown that children with autism may display increased difficulties when they enter adolescence
(Kanner, 1971; Waterhouse & Fein, 1984).

360

Also, as was stated in the first follow-up
(Lovaas, 1987), 'Certain residual deficits may
remain in the normal-functioning group that
cannot be detected by teachers and parents
and can only be isolated on closer psychological assessment, particularly as these children grow older* (p. 8). This possibility
points to the need for a more detailed assessment and for continued follow-ups of the
group over time.
The present investigation contained two
parts: In the first part we examined whether
several years after the evaluation at age 7, the
experimental group in Lovaas's (1987) study
had maintained its treatment gains. Subjects
in the experimental group and one of the
control groups completed standardized tests
of intellectual and adaptive functioning. The
groups were then contrasted with each other,
and their current performance was compared to their performance on previous assessments. The second part of the investigation focused on those subjects who had
achieved the best outcome at the end of first
grade in the Lovaas (1987) study (i.e., the 9
subjects who were classified as normal functioning out of the 19 in the experimental
group). We examined the extent to which
these best-outcome subjects could be considered free of autistic symptomatology. A
test battery was constructed to assess a
variety of possible deficits: for example,
idiosyncratic thought patterns, mannerisms,
and interests; lack of dose relationships with
family and friends; difficulty in getting along
with people; relative weaknesses in certain
areas of cognitive functioning, such as abstract reasoning; not working up to ability in
school; flatness of affect; absence or peculiarity in sense of humor. Possible strengths
to be identified included normal intellectual
functioning, good relationships with family
members, ability to function independently,
appropriate use of leisure time, and adequate socialization with peers. Numerous
methodological precautions were taken to
ensure objectivity of the follow-up examination.

Autism and Ea►ly Intervention

App 325

Method
Subjects and Background

Characteristics of the subjects and their
treatment have been described elsewhere
(Lovaas, 1987) and will only be summarized
here. The initial treatment study contained
38 children who, at the time of intake, were
very young (less than 40 months if mute, less
than 46 months if echolalic) and had received a diagnosis of autism from a licensed
clinical psychologist or psychiatrist not involved in the study. These 38 subjects were
divided into an experimental group and a
control group. The assignment to groups
was made on the basis of staff availability. At
the beginning of each academic quarter,
treatment teams were formed. The clinic
director and staff members then determined
whether any opening existed for intensive
treatment. If so, the next referral received
would enter the experimental group; otherwise, the subject entered the control group.
The experimental group contained 19 children who received 40 or more hours per
week of one-to-one behavioral treatment for
2 or more years. The control group was
comprised of 19 children who received a
much less intensive intervention (10 hours a
week or less of one-to-one behavioral treatment in addition to a variety of treatments
provided by community agencies, such as
parent training or special education classes).
The initial study also. induded a second
control group, consisting of 21 children with
autism who were followed over time by a
nearby agency but who were never referred
for this study. However, these 21 subjects
were not available for the present investigation. On standardized measures of intelligence, the second control group did not
differ from either the experimental group or
the first control group at intake, nor did it
differ from the first control group when
evaluated again when the subjects were 7
years old. These findings suggest that, as
measured by standardized tests, (a) the children with autism who were referred to us for

Mcfachin, Smith, and lovaas

treatment were comparable to children with
autism seen elsewhere and (b) the minimal
treatment provided to the first control group
did not alter intellectual functioning.
Statistical analysis of an extensive range
of pretreatment measures confirmed that the
experimental group and control group were
comparable at intake and dosely matched on
such important variables as IQ and severity
of disturbance. The mean chronological age
(CA) at diagnosis for subjects in the experimental group was 32 months. Their mean IQ
was 53 (range 30 to 82; all IQs are given as
deviation scores). The mean CA of subjects
in the control group was 35 months; their
mean IQ was 46 (range 30 to 80). Most of the
subjects were mute, all had gross deficiencies in receptive language, none played with
peers or showed age-appropriate toy play,
all were emotionally withdrawn, most had
severe tantrums, and all showed extensive
ritualistic and stereotyped (self-stimulatory)
behaviors. Thus, they appeared to be a
representative sample of children with autism (Lovaas, Smith, & McEachin, 1989). A
more complete presentation of the intake
data was reported by Lovaas (1987).
The children in the experimental group
and control group received their respective
treatments from trained student therapists
who worked in the child's home. The parents
also worked with their child, and they received extensive instruction and supervision
on appropriate treatment techniques. Whenever possible, the children were integrated
into regular preschools. The treatment focused primarily on developing language,
increasing social behavior, and promoting
cooperative play with peers along with independent and appropriate toy play. Concurrently, substantial efforts were directed at
decreasing excessive rituals, tantrums, and
aggressive behavior. (For a more detailed
description of the intervention program, see
the treatment manual ILovaas et al., 19801and
instructional videotapes that supplement the
manual (Lovaas & Leaf, 19811.)
At the time of the present follow-up
(1984-1985), the mean CA of the experimen-

361

App 326

tal group children was 13 years (range = 9 to
19 years). All children who had achieved
normal functioning by the age of 7 years had
ended treatment by that point. (Norrnalfunc:toning was operationally defined as scoring
within the normal range on standardized
intelligence tests and successfully completing first grade in a regular, nonspecial education class entirely on one's own.) On the
other hand, some of the children who had
not achieved normal functioning at 7 years of
age had, at the request of their parents,
remained in treatment. The length of time
that experimental subjects had been out of
treatment ranged from 0 to 12 years (mean
5), with the normal-functioning children
having been out for 3 to 9 years (mean = 5).
The mean age of subjects.in the control
group was 10 years (range 6 .to 14). The
length of time that these children had been
out of treatment ranged from 0 to 9 years
(mean = 3). Thus, experimental subjects
tended to be older and had been out of
treatment longer than had control subjects.
This difference in age occurred because the
first referrals for the study were all assigned
to the experimental group due to the fact that
referrals came slowly (7 in the first 3.5 years)
and therapists were available to treat all of
them. (As noted earlier, subjects were assigned to the experimental group if therapists were available to treat them; otherwise,
they entered the control group.)
Statistical analyses were conducted to
test whether a bias resulted from the tendency for the first referrals 'to go into the
experimental group. For example, it is conceivable that the first referrals could have
been higher functioning at intake or could
have had a better prognosis than subsequent
referrals. If so, the subject assignment procedure could have favored the experimental
group. To assess this possibility, we correlated the order of referral with intake IQ and
with IQ at the first follow-up (age 7 years).
Pearson correlations were computed across
both groups and within each group. These
analyses indicated that the order in which
subjects were referred was not associated

362

with intake IQ or outcome IQ. Conseque
although the tendency for the first referrs
enter the experimental group created a
tential bias, the data indicate that this
Procedure
The assessment procedure inclu
ascertaining school placement and adm
tering three standardized tests. Informa
on school placement was obtained
subjects' parents, who classified then
being in either a regular or a special ed
tion dass (e.g., a class for children •
autism or mental retardation, language
lays, multihandicaps, or learning disa
ties). The three standardized tests wer
follows:
1. Intelligence lest. The Wechsler Ii
ligence Scale for Children-Revised (Wech
1974) was administered when subjects a
able to provide verbal responses. This
duded all 9 best-outcome experimental
jects plus 8 of the remaining 10 experime
subjects and 6 of the 19 control subjects.
subjects who were not able to provide ye
responses, the Leiter International Pe►
mance Scale (Leiter; 1959) and the Peab
Picture Vocabulary Text-Revised (Dunn, 1.!
were administered. All of these tests Ibeen widely used for the assessmen'
intellectual functioning in children with
tism (Short & Marcus, 1986).
. 2. The Vineland Adaptive Beba
Scales (Sparrow, Balla; & Cicchetti, 19
The Vineland is a structured interview
ministered to parents assessing the ex
to which their child exhibits behaviors
are needed to cope effectively with
everyday environment. •
3. The Personality Inventory for C
dren (Wirt, Lachar, Klinedinst, & Seat, 19
This measure is a 600-item true—false qi
tionnaire filled out by parents that asset
the extent to which their children st
various forms of psychological disturba
(e.g., anxiety, depression, hyperactivity,
psychotic behavior).

Autism and Early Interval

App 327

These three tests were intended to provide a comprehensive evaluation of intellectual, social, and emotional functioning. All of
the tests have been standardized on average
populations. Hence, they provide an objective basis for comparing subjectsto children
without handicaps across the various areas
that they assess.
Data were obtained on all subjects except one girl in the control group, who was
known to be institutionalized and functioning very poorly. The 9 best-outcome subjects
(those who had been classified as normal
functioning at age 7) received .particularly
extensive evaluations, as outlined later. Of
the 28 remaining subjects, 17 were evaluated
by staff members in our treatment program,
and 11 received evaluations from outside
agencies such as schools or psychology
clinics. (In some cases, the outside agencies
did not administer all of the measures in this
battery.)
Evaluation of Best-Outcome Subjects.
To ensure objectivity in the evaluation of the
best-outcome subjects, we arranged for blind
administration and scoring of all tests for
these subjects as follows. A psychologist not
associated with the study recruited advanced
graduate students in clinical psychology to
administer the tests. The examiners were not
familiar with the history of the children, and
the psychologist told them simply that the
testing was part of a research study on
assessment of children. The psychologist
advised them that the nature of the study
necessitated providing only certain standard
background information: age, school placement and grade, and parent's name and
phone number. To increase the heterogeneity of the sample and to control for any
examiner bias, each examiner also tested
one or more subjects who were matched in
age to the experimental subjects and had no
history of behavioral disturbance. The examiners were randomly assigned an approximately equal number of subjects for testing
in the experimental group and the comparison group. Two experimental subjects were
not living in the local area. Therefore, for

McEachin, Smith, and Lovaas

each of them, the psychologist recruited a
tester from the subject's hometown area as,
well as an age-matched control subject, and
data were collected as just described. In
addition, the child's examiner filled out a
dinical rating scale following a structured
interview that covered a list of standard
topics, including friendships, family relations, and school and community activities.
The interview was designed both for eliciting content and for sampling interpersonal
style. The rating scale consisted of 22 items,
each scored 0 (best clinical status) to 3
(marked deviance) points. The items were
designed to include likely areas of difficulty
for children with autism of average intelligence (e.g., compulsive or ritualistic behavior, empathy for and interest in others, a
sense of humor) as well as areas of potential
difficulty for the general child population
(e.g., depressed mood, anxiety, hyperactivity). (The complete scale and a copy of
instructions for the dinical interview can be
obtained by writing to the third author).
Results
Experimental Versus Control Gioup

This first section examines the overall
effects of treatment through comparison of
the follow-up data.from the 19 subjects who
received the intensive (experimental) treatment to the data from those who received the
minimal.(control) treatment. Data were obtained from all subjects on school placement
and from all but one subject in the control
group on IQ. On the Vineland, scores were
obtained for 18 of 19 experimental subjects
and 15 of 19 control subjects. The lowest
availability of follow-up scores was on the
Personality Inventory for Children, with scores
for 15 experimental subjects and 12 control
subjects.
The subjects in the control group who
had Personality Inventory for Children scores
did not appear to differ from subjects who
were missing these scores, as compared on

363

App 328

itrr—Itt

t tests for differences in intake IQ, IQ
at 7 trol group at age 7 (mean IQsnf-81 and_
years old, or IQ in the present study.
respectively), indicating ,thit the-eXped
As noted earlier, 17 of the 29 subjects
01
group h a riniiin rt-d gabs me
'frac
who were not in the best-outcome group
tuail.f
between -age 7 and the
were evaluated by Project staff members, 11
of the current evaluation.
were evaluated by outside agencies, and 1
was not evaluated. To check whether Project Table 1
staff members were biased in their evalua- MeattGconwand,SDa by Group and Measu
tions or in their selection of which subjects
to evaluate, we used t tests to compare
subjects they evaluated to those evaluated
Experimental
by outside agencies on intake IQ, IQ at age Measure
Mean SO Mean
7 years, and IQ in the present study. No 10
84.5 32.4
significant differences between subjects Vineland°
Communication
5.1
28.4
evaluated by Project staff members and those
Daily Living Skills
73.1
26.9
evaluated by outside agencies were found.
Socialization
75.5
28.8
Adaptive Behavior
School Placement. In the experimental
Composite
71.8
26.8
group, 1 of the 9 subjects from the bestMaladaptive Behavior
10.8
8.2
outcome group who had attended a regular PIC° Scales
Mean
elevati
on
61.8
10.2
dass at age 7 (J. L.) was now in a special
Scales > 70 .
4.0
3.9
education dass. However, 1 of the other 10
'Vineland Adaptive Behavior Scale. nOitrienn t)
kW
subjects had gone from a special education for Children.
class to a regular class and was enrolled in a
junior college at the time of this follow-up.
Adaptive and .Maladaptive 130a
The remaining experimental subjects had
not changed their classification. Overall, then, On the Vineland, the mean overall qe.c'
the proportion of experimental subjects in posite score- was 72 in the experim
regular classes did not change from the age group and 48 . in the control group.
7 evaluation (9 of 19, or 47%). In the control aye= goscorefor the general pop4iation
group, none of the 19 children were in a this test is 100, with-kgtandar;i1 .deVlation I
regular class, as had been true at the age 7 of'15.):On thethreesubseale.Orrintini
evaluation. The difference in riaAsroom place- tion, Daily Living, and Socialization
ment between the experimental group and ,c,i?rc4o.wiy..pAraildted..thecompositc.s
and
the control group was statistically significant, Theintetien.bet*een die
x2 (1, N = 38) = 19.05, p < .05.
'§trhSca.1%,..'the.,eXpefilnerig
IntellectualFunctioning.The test scores across the
for the experimental group and control group group consistently scored higher than
on intellectual functioning, adaptive and the'con urnt-grnup:Assan spen in"Tabli
maladaptive behaviors, and personality func- MgWaptive.Bth,KiNtusigritficintif h
tioning are summarized in Table 1. As can be in the control group, 1(31) = 2.39,P < .05.
seen in the table, the experimental group at mean score for the control group was in
follow-up had a significantly higher mean IQ clinically significant range whereas that
than did the control group. This difference the experimental group was not.. (Scores
was significant, 1(35) 2.97,p< .01. Eleven 13aridabove are considered tobtlii di can
subjects (58%) in the experimental group of clinically significant levels ofinalasilapti
obtained Full-Scale IQs of at least 80; only 3 behavior at ages 6 to 9 years; 12 nr,abcn(e'e
subjects (17%) in the control group did as 12 to 13 years; and 10 or above, at 1.4..y
well. The scores were similar to those ob- and older.) Thus, the findings indicate tl
• morp;ad4
tained by the experimental group and con- the experiMentat groups ho
tiv :behaviors snit reSsiettnitidiritiOebeif
364

Autiant and --arlyinteNenti5

App 329

fors than did the control group.
Personality Functioning Scores for the
experimental group and control group did
not differ on overall scale elevation, with
mean tscores of 62 and 65, respectively. (On
this test, the mean t score for the general
population is approximately 50 [SD = 101.) T
scores above 60 are considered indicative of
possible or mild deviance, whereas tscores
above 70 are viewed as suggesting a clinically significant problem, namely, one that
may require professional attention. There
was a significant interaction between the
groups and the individual scales on this test,
F(15, 390) = 2.36, p < .01. Results of the
Tukey test indicated that the most reliable
difference between groups occurred on the
Psychosis scale, on which the experimental
subjects had a mean of 78 and the control
subjects had a mean of 104, F(1, 26) = 8.53.
p < .01. Seven subjects in the experimental
group scored in the dinically preferred range
(below 70), whereas no subjects in the control group scored that low. Only one other
scale showed a significant difference, Somatic Concerns, FCI, 26) = 4.60,p < .05. The
control subjects tended to display a below
average level of somatic complaints (mean of
45 as compared to 54 for the experimental
subjects).
Best-Outcome Versus Nonclinical
Comparison Group
A t test indicated no significant difference in age between the best-outcome group
and the comparison group of children without a history of clinically significant behavioral disturbance. Subjects in the best-outcome group had a mean age of 12.42 years
(range 10.0 to 16.25) versus 12.92 years
(range 9.0 to 15.17) for the nonclinical comparison group. Scores on the WISC-R and
clinical rating scale were obtained for all
subjects; 1 experimental subject and 2
nondinical comparison subjects were missing Vineland scores, and 2 experimental
subjects and 1 nondinical comparison subject were missing Personality Inventory for

McEachin, Smith, and Lovaas

Children scores. Both the Vineland and Personality Inventory for Children were completed by parents. In cases where these
scores were not obtained, the parents had
declined to participate.
On the measures that provide standardized scores, the functioning of the bestoutcome subjects was measured most precisely by comparing the best-outcome group
against the test norms. Therefore, this analysis is of primary interest. Data for the
nonclinical comparison group are mainly
useful in confirming that the assessment
procedures were valid and in providing a
contrast group for the one measure without
norms, the Clinical Rating Scale. For the
nonclinical comparison group, it will suffice
to summarize the results as follows: On the
WISC-R this group had mean IQs of 116
Verbal, 118 Performance, and 119 Full-Scale.
On the Vineland the group obtained mean
standard scores of 202 Communication, 100
Daily Living Skills, 102 Socialization, and 101
Composite. The mean scale score on the
Personality Inventory for Children was 49.
Thus, the nondinical comparison group displayed above-average or average functioning across all areas that were assessed.
The next section is focused on the
functioning of the best-outcome group on
IQ, adaptive and maladaptive behavior, and
personality measures and contrasts the bestoutcome subjects with the comparison subjects on the Clinical Rating Scale.
Intellectual Functioning. Table 2 presents the IQ data for each subject in the bestoutcome group and the mean scores for the
group. This table shows that, as a whole, the
9 best-outcome subjects performed well on
the WISC-R. Their ilQs placed them in the
high end of the normal range, about two
thirds of an SD above the mean. Their FullScale IQs ranged from 99 to 136.
Subjects' scores were evenly distributed
across a range from 80 to 125 on Verbal IQ
and from 88 to 138 on Performance IQ. The
subjects averaged 3 points higher on Performance IQ than Verbal IQ. Two of them (J. L.
and A. G.) had at least a 20-point difference

365

App 330

Table 2
WISC-R Scores of the Best-Outcome Subjects
Subiect
R.S.
M.C.
M.M.
J.L
D.E.
A.G.
B.R.
Mean

'Nun

Simll

12
17
14
12
6
9
7
12
11
11.1

12
19
13
16
9
17
14
11
14
12.0

Verbal
Adth Vocab
13
11
10
11
7
6
12
10
11

9
14
14
13
4
10
11
10
13

Compr

Roe

11
10
11
15
8
15
13
9
16

10
12
12
7
16
13
9
7
12

Performance
PicA BbDObiA

Cod

9
16
i1
12
11
9
4
10
10

11
11
8
19
7
17
10
10
10

13
19
11
17
16
12
8
9
12

12
19
11
17
14
9
11
11
11

WISC-R 10
VIO P10
Full
106
125
114
119
80
98
108
102
118

106
138
102
131
123
114
88
95

106
136
109
128
100
105
99
99

114
111
Note. Infrm = Information, Simil = Similarities, Arith = Arithmetic, Vocab = Vocabulary. Comer= Comprehension.
PicC = Picture Completion, PicA = Picture Arrangement, BIkD = Block Design, ObjA = Object Assembly, Cod
= Coding, VIQ = Verbal IQ, PIO = Performance 10, and Full = Full-Scale 10.
fns

.

... .

.- .

inn

between Verbal and Performance IQ.
sonality Inventory for Children, as measured
On each subtest of the WISC-R, the by the three validity scales (Lie, Frequency,
mean for the general population is 10 (SD= and Defensiveness). As can be seen from the
3). It can be seen from Table 2 that the best- table, the subjects scored in the normal range
outcome subjects scored highest on Similari- across all scales. They tended to score highties, Block Design, and Object Assembly. est on Intellectual-Screening, Psychosis, and
They scored lowest on Picture Arrangement Frequency. Intellectual-Screening assesses
and Arithmetic. Thus, the subjects consis- slow intellectual development, and Psychotently scored at or above average.
sis and Frequency assess unusual or strange
Adaptive and Maladaptive Behavior. behaviors. Only Intellectual-Screening was
Table 3 presents the data for the best-out- above the normal range, and this scale is
come group on the Vineland Adaptive Be- affected by subjects' early history. For exhavior Scales. It can be seen that the best- ample, the scale contains statements such as
outcome group scored about average on the "My child first talked before he (she) was two
Composite Scale and on the subscales for years old," which would be false for the bestCommunication, Daily Living, and Socializa- outcome subjects regardless of their current
tion. However, Table 3 shows that some of level of functioning.
the best-outcome subjects had marginal
As Table 4 indicates, 4 best-outcome
scores, including J. L, B. W., and M. M. Even subjects had a single scale elevated beyond
so, all of the best-outcome subjects had
Composite scores within the normal range. Table 3
As can be seen in Table 3, on the Scores on the Vineland Adaptive Behavior Scale
Maladaptive Behavior Scale (Parts I and II), for the Best-Outcome Subjects
Adaptive behavior
Maladaptive
the mean score for the best-outcome group
Subject_ Corn DLS Soc Comp
behavior
indicated that, on average, these subjects did
RS.
83
98
102
6
92
not display clinically significant levels of M.C.
93
119
98
86
16
maladaptive behavior. Three of them scored M.M.
119
79
114
105
2
107 108
4
112
108
in the clinically significant range versus one L.B.
J.L
77 103
94
88
13
subject in the nonclinical comparison group, D.E.
93
81
80
82
15
101
A.G.
which had a mean of 7.7 on this scale.
97
99
98
5
83
74
9
105
83
Personality Functioning. The results of B.W.
B.R.
the Personality Inventory for Children are Mean
98
92
99
94
8.8
summarized in Table 4. The best-outcome Note. Corn = Communication, DLS = Daily Living Skills, Soc
subjects obtained valid profiles on the Per- = Socialization, Comp = Adaptive Behavior Composite.

366

Autism end Early Intervention

App 331

Table 4
T Scores on the Personality Inventory for Children for the Best-Outcome Subjects
T score
Subject Mean <70 L

F Del Adj Ach I-S

54 43 61 53 75
1
49
56
R.S.
52 1 48 63 37 43 39 54
M.C.
M.M. 49 0 42 54 43 50 42 64
50 49 49 37 70
51
1
60
L.S.
70 9 42 84 37 85 77 94
0.E.
A.G. 51 0 38 45 49 57 48 39
S.W. 54 1 45 63 SO 59 64 48
B.A.
Mean 55 2 46 56 44 58 Si 64

Dv! Som Dep Fern Gig Wdr Anx Psy Hyp Soc
49
38
48
39
65

44
64
58
55
78

69
55
48
49
88

47
54
55
48
65

46 69
46 65
46 47
Si 45
61 69

'60 65
51 75
53 46
60 51
78 76

46
40
54
49
52

64
55
36
51
72

53 51 49 69
55 47 44 57

40 55 55 55 49 63
90 44 45 46 62 44

49 57 57 56

54 56 57 59 SO 55

Note. Mean = mean elevation across all scabs. l = Lie scale, F = Frequency, Del = Defensiveness. Adj = Adjustment. Ach
=Achievement, I-S =intellectual-Screening, 'Dvl = Development, Sam = Somatic Concern, Dep = Depression, Fern = Family
Relations, Dig = Delinquency, Wdr = Withdrawal. Mx = Anxiety. Psy Psychosis. Hyp = 'Hyperactivity. Soc = Social Skills.

the clinically significant range and a 5th (I. L.)
had nine scales elevated, including the highest scores in the best-outcome group on
Intellectual-Screening, Psychosis, and Frequency. Thus, this subject appeared to account for much of the elevation in scores on
these scales. By comparison, there were 3
subjects in the nonclinical comparison group
with at least one scale elevated.
Clinical Rating Scale. On this scale, 8 of
the best-outcome subjects scored between 0
and 10, and the 9th (J. L) scored 42. The
mean was 8.8, with a standard deviation of
3219. The nonclinical comparison subjects all
scored between 0 and 5 (mean = 1.7, SD =
2.1). Because these SL are unequal, we
used a nonparametric statistic, a MannWhitney Utest, revealing a significant -difference between groups, U= 19, p < .05. Thus,
the best-outcome subjects displayed more
deviance than did the comparison subjects,
but most of the deviance appeared to come
from one subject, J. L.

Discussion
s) This study is a later and more extensive
follow-up of two groups of young subjects
with autism who were previously studied by
Lovaas (1987): (a) an experimental group (n
= 19) that had received very intensive behavioral treatment and (b) a control group (n =
19) that had received minimal behavioral

McEachin, Smith, and Lovaae

treatment. In the present study we have
reported data on these children at a mean age
of 13 years for subjects in the experimental
group and 10 years for those in the control
group. The data were obtained from a comprehensive assessment battery.
The main findings from the test battery
were as follows: First, subjects in the experimental group had maintained their level of
intellectual functioning between their previous assessment at age 7 and the present
evaluation at a mean age of 13, as measured
by standardized intelligence tests. Their mean
IQ was about 30 points higher than that of
control subjects. Second, experimental subjects also displayed significantly higher levels of functioning than did control subjects
on measures of adaptive behavior and personality. Third, in a particularly rigorous
evaluation of the 9 subjects in the experimental group who had been classified as
best-outcome (normal-functioning) in the
earlier study (Lovaas, 1987), the test results
consistently indicated that the subjects exhibited average intelligence and average
levels of adaptive functioning. Some deviance from average was found on the personality test and the clinical ratings. However,
this deviance appeared to derive from the
extreme scores of one subject, J. L (see Table
2, 3, and 4). This subject also had been
removed from nonspecial education classes
and placed in a class for children with
language delays, and he obtained relatively

367

App 332

low scores (about 80) on the Verbal section
of the intelligence test and the Communication section of the measure of adaptive
behavior. Thus, he no longer appeared to be
normal-functioning. However, the remaining 8 subjects who had previously been
classified as normal-functioning demonstrated
average IQ, with intellectual performance
evenly distributed across subtests, were able
to hold their own in regular classes, did not
show signs of emotional disturbance, and
demonstrated adequate development of adaptive and social skills within the normal range.
In addition, subjective clinical impressions
of blind examiners did not discriminate them
from children with no history of behavioral
disturbance. These 8 subjects (42% of the
experimental group) may be judged to have
made major and enduring gains and may be
described as 'normal-functioning." By contrast, none of the control group subjects
achieved such a favorable outcome, consistent with the poor prognosis for children
with autism reported by other investigators
(Freeman, Ritvo, Needleman, &Yokota, 1985).
In order to evaluate this outcome, we
must pay close attention to whether or not
our methodology was sound. The adequacy
of our methodology is crucial because the
outcome in the present study represents a
major improvement over outcomes obtained
in previous experimental studies on the
treatment of children with autism (Rutter,
1985). The only reports of comparable outcomes have come from uncontrolled case
studies (e.g., Bettelheim, 1967), and subsequent investigations have indicated that these
case studies grossly overestimated the outcomes obtainable with the treatment that
was provided. Similarly, reports of major
gains in other populations, such as large IQ
increases in children from impoverished
backgrounds, also have been based on highly
questionable evidence (Kamin, 1974; Spitz,
1986). Such reports have the potential to
cause a great deal of harm by misleading
consumers and professionals.
A detailed description of all the methodological safeguards that should be built

368

into a treatment study is beyond the scop
the present report (see Kazdin, 1980; Ken•
& Norton-Ford, 1982; Spitz, 1986). Howe•
we note that we incorporated a large num
of methodological safeguards in both
original study (Lovaas, 1987) and the pies
investigation:
The experimental group and
control group received equivalent ass(
ment batteries at intake and were found tc
very similar on a multitude of import
variables. Moreover, the number of coo
group subjects who were predicted to achii
normal functioning, had they received int
sive treatment, was approximately equal
the number of experimental subjects v,
actually did achieve normal functioning c%
intensive treatment (Lovaas & Smith, 19E
Thus, the subject assignment procedi
yielded groups that were comparable pt
to treatment. This provided a strong indi
tion that the superior functioning of i
experimental group after treatment wa:
result of the treatment itself rather that
biased procedure for assigning subjects
the experimental group.
All subjects remained in the groups
which they were assigned at intake. Only
subjects dropped out, and they were r
replaced. Therefore, the original compc
tion of the groups was essentially preservt
All subjects were independently
agnosed as autistic by PhD or MD clinicia
and there was high agreement on the di:
nosis between the independent clinida
This provided evidence that subjects ti
criteria for a diagnosis of autism.
Prior to treatment, these subje
appeared to be comparable to those di;
nosed as having autism in other reseal
investigations. Evidence for this comes fri
the second control group that was incoq
rated into the initial treatment study. T
group was evaluated by another reseal
team (independent of ours), had similar I
at intake based on the same measures
intelligence that we used, yet showed sir
outcome data to those reported by oti
investigators. Additional evidence can

Autism and Early Interven

App 333

derived from the similarity of our intake data
to data reported by other investigators (Lovaas
et al., 1989). For example, although Schopler
and his associates (Schopler, Short, & Mesibov,
1989) suggested that our sample had a higher
mean IQ than did other samples of children
with autism, their own data do not appear to
differ from ours (Lord & Schopler, 1989).
Thus, there is evidence that our subjects
were a typical group of preschool-age children with autism rather than a select group
of high-level children with autism who would
have been expected to achieve normal functioning with little or no treatment.
The first control group, which re,. ceived up to 10 hours a week of one-to-one
behavioral treatment, did not differ at posttreatment from the second control group,
which received no treatment from us. Both
groups achieved substantially less favorable
outcomes than did the experimental group.
Because all groups were similar at pretreat,
mem, this result confirms that our subjects
had problems that responded only to intensive treatment rather than problems such as
being noncompliant or holding back (masking an underlying, essentially average intellectual functioning that would respond to
smaller-scale interventions).
Subjects' families ranged from high to
low socioeconomic status, and, on average,
they did not differ from the general popula'tion (Lovaas, 1987). Thus, although our treat) ment required extensive family participation, a diverse group of families was
apparently able to meet this requirement.
—
7. The treatment has been described in
detail (Lovaas et al., 1980; Lovaas & Leaf,
1981), and the effectiveness of many components of the treatment has been demonstrated experimentally by a large number of
investigators over the past 30 years (cf.
Newsom & Rincover, 1989). Hence, our treatment may be replicable, a point that is
discussed in greater detail later.
8. The results of the present follow-up,
which extended several years beyond discharge from treatment for most subjects, are
an encouraging sign that treatment gains

have been maintained for an extended period of time.
A wide range of measures was administered, avoiding overreliance on intelligence
tests, which have limitations if used in isolation (e.g., bias resulting from teaching to the
test, selecting a test that would yield especially favorable results, failing to assess other
aspects of functioning such as social competence or. school performance) (Spitz, 1986;
Zigler & Trickett, 1978).
The use at follow-up of a normal
comparison group, standardized testing, and
blind rating allowed for an objective, detailed, and quantifiable assessment of treatment effectiveness. A particularly rigorous
assessment was given to those subjects who
showed the most improvement.
Taken together, these safeguards provide considerable assurance that the favorable outcome of the experimental subjects
can be attributed to the treatment they received rather than to extraneous factors such
as improvement that would have occurred
regardless of treatment, biased procedures
for selecting subjects or assigning them to
groups, or narrow or inappropriate assessment batteries.
Despite the numerous precautions that
we have taken, several concerns may be
raised about the validity of the results. Perhaps the most important is that the assignment to the experimental or control group
was made on the basis of therapist availability rather than a more arbitrary procedure
such as alternating referrals (assigning the
first referral to the experimental group, the
second to the control group, the third to the
experimental group, and so forth).. However,
it seems unlikely that the assignment was
biased in view of the pretreatment data we
have presented on the similarity between the
experimental and control groups. On the
other hand, we do not know as yet whether
there exists a pretreatment variable that does
predict outcome but was not among the 19
we chose, yet could have discriminated between groups. In an earlier publication
(Lovaas et al., 1989), we responded in some

369

App 334

detail to the concern about subject assignment as well as other possible problems
associated with the original study. There are
certain additional questions that may be
raised by this follow-up investigation:
The experimental group was older
than the control group at the time of this
follow-up evaluation. We explained this finding earlier and noted that data analyses
indicated that it was unlikely that this age
difference reflected a bias in subject assignments.
The follow-up assessments for 17 of
the lower functioning subjects in this study
were conducted by staff members from our
Project, who could have biased the test
results. However, as noted previously, a
check revealed no evidence of such a bias.
The Clinical Rating Scale, based on an
interview with subjects who had been classified as normal-functioning in the original
study, has no norms or data on reliability and
validity. However, we regard the interview
simply as an extra check on whether the
examiners detected residual signs of autism
or other behavior problems that were somehow overlooked in the three other (wellstandardized) measures in the study and
their 30 subscales. We do not regard the
interview as an instrument that by itself
yields conclusive results. No other interview
that suited our purposes currently exists. In
future investigations, we plan to use an
interview that Michael Rutter and his associates are now developing for the purpose of
detecting of residual signs of autism in individuals with average intelligence.
As in most long-term follow-up studies, we had some missing data. However,
there is no evidence that the missing data
would have changed the overall results.
In our analysis of the best-outcome
group, we noted that the group averages
deviated from "normal' on one subscale of
the Personality Inventory for Children and
on the Clinical Rating Scale. We then attributed this deviance to the extreme scores of
one subject rather than to general problems
within this group. We recognize that group

averages are seldom interpreted this way.
However, as statisticians and methodologists have pointed out (e.g., Barlow & Hersen,
1984), there are many times when group
averages represent the performance of few
or no subjects within the group. This was one
of those times, as is dearly shown by the data
on individual subjects (Tables 2, 3, and 4).
Deviance was found almost exclusively in
one subject, not evenly distributed across all
subjects, and we have presented the results
accordingly.
The most important void for research to
fill at this time is replication by independent
investigators who employ sound methodologies. Given the objective assessment instruments that we used and the detailed
description that we have provided of the
treatment (Lovaas et al., 1980), such a replication should be possible. However, the
treatment is complex and to replicate it
properly, an investigator probably needs to
possess (a) a strong foundation in learning
theory research; (b) a detailed knowledge of
the treatment manual we used; (c) a supervised practicum of at least 6 months in oneto-one work with clients who have developmental delays, emphasizing discrimination
learning and building complex language;
and (d) a commitment to provide 40 hours of
one-to-one treatment to client per week, 50
weeks per year, for at least 2 years. Our bestoutcome subjects all required a minimum of
2 years of intensive treatment to achieve
average levels of functioning (another indication that those subjects had pervasive
disabilities and were not merely noncompliant).
A second void to fill concerns the majority of children who did not benefit to the
point of achieving normal functioning with
intensive treatment. Perhaps an earlier start
in treatment would have been all that was
needed to obtain favorable outcomes with
many of these children. More pessimistically,
perhaps such children require new and different interventions that have yet to be
discovered and implemented. In any case, it
is essential to develop more appropriate

Autism and Early Intervention

App 335

services for these children.
388-451.
Finally, a rather speculative but promis- Dunn, L M. (1981). Peabody Picture Vocabulary Test-Revised. Circle River, MN: American
ing area for research is to determine the
Guidance Service.
extent to which early intervention alters
neurological structures in young children Freeman, B.J., Rltvo, E. R., Needleman, IL, &
Yokota, A. (1985). The stability of cognitive
with autism. Autism is almost certainly the
and linguistic parameters in autism: A 5-year
result of deficits in such neurological strucstudy. Journal of the American Academy of
tures (Rutter & Schopler, 1987). However,
Child Psychiatry, 24,290-311.
laboratory studies on animals have shown Huttenlocher, P. R. (1984). Synapse eliminathat alterations in neurological structure are
tion and plasticity in developing human cerequite possible as a result of changes in the
bral cortex. American Journal ofMental Deficiency, ag, 488-496.
environment in the first years of life (Sirevaag
& Greenough, 1988), and there is reason to Kainin, L.J. (1974). The science and politics of
I.Q. New York: Wiley.
believe that alterations are also possible in
Kanner,
L. (1971). Follow-up study of 11 autisyoung children. For example, children under
tic children originally reported in 1943. Jour3 years of age overproduce neurons, dennal of Autism and Childhood Schizophrenia,
drites, axons, and synapses. Huttenlocher
I, 119-145.
(1984) hypothesized that, with appropriate 1Caxdin, A. (1980). Research design
in clinical
stimulation from the environment, this overpsychology. New York: Harper & Row.
production might allow infants and Kendall, P. C., & Norton-Ford, J. D. (1982).
preschoolers to compensate for neurological
Therapy outcome research methods. In P. C.
anomalies much more completely than do
Kendall & J. N. Butcher (Eds.), Handbook of
research methods in clinical psychology (pp.
older children. Caution is needed in gener429-460). New York: Wiley.
alizing from these findings on average children to early intervention with children with Leiter, R. G. (1959). Part I of the manual for the
1948 revision of the Leiter International Perforautism, particularly because the exact nature
mance
Scale: Evidence of the reliability and
of the neurological anomalies of children
validity of the Leiter tests. Psychology Service
with autism is unclear at present (e.g., Rutter
CenterJournal, 11+ 1-72.
& Schopler, 1987). Nevertheless, the findings Lord, C., & Schopler, E. (1989). The role of age
suggest that intensive early intervention could
at assessment, developmental level, and test in
compensate for neurological anomalies in
the stability of intelligence scores in young
such children. Finding evidence for such
autistic children. Journal ofAutism and Developmental Disorders, /9,483-499.
compensation would help explain why the
treatment in this study was effective. More Lotter, V. (1978). Follow-up studies. In M.
Rutter & E. Schopler (Eds.), Autism: A reapgenerally, it might contribute to an underpraisal of concepts and treatment. London:
standing of brain-behavior relations in young
Plenum Press.
children.
Lovaas, O.1. (1987). Behavioral treatment and
normal educational and intellectual functioning in young autistic children. Journal of ConReferences
sulting and Clinical Psychology, 55, 3-9.
Lovaas, 0.1., Ackerman,A. B., Alexander, D.,
Barlow, D. H., & Hersen, M. (1984). Single case
Firestone, P., Perkins, J., & Young, D.
experimental design: Strategies for studying
(1980). Teaching developmentally disabled
behavior change (2nd ed.). New York: Perchildren: The me book. Austin, TX: Pro-Ed.
gamon Press.
Lovaas, 0.1., Koegel, R. L, Simmons, J. Q., &
Bettelheim, B. (1967). The empvfortress. New
Long, J. S. (1973). Some generalization and
York: The Free Press.
follow-up measures on autistic children in
DeMyer, M. K., Hingtgen,J. N., &Jackson, R.
behavior therapy. Journal of Applied Behavior
K.. (1981). Infantile autism reviewed: A deAnalysis, 6, 131-166.
cade of research. Schizophrenia Bulletin, 7, Lovaas, 0. I., & Leaf, R. L (1981). Five video
McEachin, Smith, and Lovaaa

371

App 336

tapes for teaching developmentally disabled

children. Baltimore: University Park Press.
Lovaas, 0. I., & Smith, T. (1988). Intensive
behavioral treatment with young autistic children. In B. B. Lahey & A. E. Kazdin (Eds.),
Advances in clinical child psycholo,gy(Vol. 11,
pp. 285-324). New York: Plenum Press.
Lovaas, 0. 1., Smith, T., & McEachln, J. J.
(1989). Clarifying comments on the young
autism study: Reply to Schopler, Short and
Mesibov. Journal of Consulting and Clinical
Psychology, 57, 165-167.
McEachin, J. J. (1987). Outcome of autistic
children receiving intensive behavioral treatment• Psychological status 3 to 12 years later.

Unpublished doctoral dissertation, University
of California, Los Angeles.
Newsom, C, & Rincover, A. (1989). Autism. In
E. J. Mash & R. A. Barkley (Eds.), Treatment of
childhood disorders(pp. 286-346). New York:
Guilford Press.
Rutter, M. (1970). Autistic children: Infancy to
adulthood. Seminars in Psycbiahy, 2, 435-450.
Rutter, M. (1985). The treatment of autistic
children. Journal of Child Psychology & Psychiatry, 26, 193-214.
Rutter, M., & Schopler, E. (1987). Autism and
pervasive developmental disorders: Concepts
and diagnostic issues. Journal of Autism and
Developmental Disorders, 17, 159-186.
Schopler, E., Short, A., & Mesibov, G. (1989).
Relation of behavioral treatment to "normal
functioning": Comment on Lovaas. Journal of
Consulting and Clinical Psychology, 57,

162-164.
Short, A., & Marcus, L. (1986). Psychoeducational evaluation of autistic children and adolescents. In S. S. Strichart & P. Lazarus (Eds.),

372

Psychoeducational evaluation of school-aged
children with low-incidence disorders (pp.

155-180). Orlando, FL: Grune & Stratton.
Sirneonnson, R. J., Olky, J. G., & Rosenthal,
S. L. (1987). Early Intervention for children
with autism. In M. J. Guralnick & F. C. Bennett
(Eds.), The effectiveness of early intervention
for at-risk and handicapped children (pp.
275-296). Orlando, FL: Academic Press.
Sirevaag, A.M., & Greenough, W. T. (1988). A
multivariate statistical summary of synaptic
plasticity measures in rats exposed to complex, social and individual environments. Brain
Research, 441, 386-392.
Sparrow, S. S., Balla, D. A., & Cicchetti, D. V.
(1984). IntennewEditionSurveyFormManual.
Circle Pines, MN: American Guidance Service.
Spitz, H. H. (1986). The raising of intelligence.
Hillsdale, NJ: Erlbaum.
Waterhouse, L., & Fein, D. (1984). Developmental trends in cognitive skills for children
diagnosed as autistic and schizophrenic. Child
Development, 55, 236-248.
Wechsler, D. (1974). Manual for the Wechsler
Intelligence Scale for Children-Revised. New
York: Psychological Corp.
Wirt, R. D., Lachar, D., Klinedinst, J. K., &
Seat, P. D. (1977). Multidimensional descriptions of child personality: A manual for the
Personality Inventory for Children. Los Ange-

les: Western Psychological Services.
Zigler, E., & Tricketi, P. K. (1978). 1Q, social
competence, and evaluation of early childhood intervention programs. American Psychologist, 33,789-798.
Received: 5/15/91; first decision: 10/16/91; accepted:
1/23/92.

Case 1:17-cv-00501-LEK-CFH Document 114 Filed 10/20/20 Page 1 of 2
App 337

* * * * * UNITED STATES DISTRICT COURT * * * * *
NORTHERN

DISTRICT OF

NEW YORK
JUDGMENT IN A CIVIL CASE
DOCKET NO: 1:17-CV-0501 (LEK/CFH)

R.S. & E.S.
individually, and on behalf of their son, A.S.,
Plaintiffs,
-against-

Board of Education Shenendehowa Central
School District, et al.,
Defendants.

JURY VERDICT. This action came before the Court for a trial by jury. The issues have been tried and
the jury has rendered its verdict.

XX

DECISION by COURT. This action came to trial or hearing before the Court. The issues have been tried
and a decision has been rendered.

IT IS ORDERED AND ADJUDGED that in the above entitled action, the case is DISMISSED and judgment is entered in favor
of the Defendants as against the Plaintiffs, in accordance with the MEMORANDUM-DECISION and ORDER of the Honorable
Lawrence E. Kahn, U. S. District Judge, dated February 20, 2019 and TEXT ORDER of the Honorable Lawrence E. Kahn, U. S.
District Judge, dated. October 20, 2020.

DATE: October 20, 2020

John 1W. Domurad
CLERK OF THE COURT

Courtroom Deputy to the
Honorable Lawrence E. Kahn

Case 1:17-cv-00501-LEK-CFH Document 114 Filed 10/20/20 Page 2 of 2
App 338

Federal Rules of Appellate Procedure
Rule 4. Appeal as of Right
(a) Appeal in a Civil Case.
1. (1) Time for Filing a Notice of Appeal.
(A) In a civil case, except as provided in Rules 4(a)(1)(B), 4(a)(4), and
4(c), the notice of appeal required by Rule 3 must be filed with the
district clerk within 30 days after entry of the judgment or order
appealed from.
(B) The notice of appeal may be filed by any party within 60 days after
entry of the judgment or order appealed from if one of the parties is:
the United States;
a United States agency;
a United States officer or employee sued in an official capacity; or
a current or former United States officer or employee sued in an
individual capacity for an act or omission occurring in connection with
duties performed on the United States' behalf— including all instances
in which the United States represents that person when the judgment
or order is entered or files the appeal for that person.
(C) An appeal from an order granting or denying an application for a
writ of error coram nobis is an appeal in a civil case for purposes of
Rule 4(a).
Filing Before Entry of Judgment. A notice of appeal filed after the
court announces a decision or order—but before the entry of the
judgment or order—is treated as filed on the date of and after the entry.
Multiple Appeals. If one party timely files a notice of appeal, any
other party may file a notice of appeal within 14 days after the date
when the first notice was filed, or within the time otherwise prescribed
by this Rule 4(a), whichever period ends later.
Effect of a Motion on a Notice of Appeal.
(A) If a party timely files in the district court any of the following
motions under the Federal Rules of Civil Procedure, the time to file an
appeal runs for all parties from the entry of the order disposing of the
last such remaining motion:
for judgment under Rule 50(b);
to amend or make additional factual findings under Rule 52(b),
whether or not granting the motion would alter the judgment;
for attorney's fees under Rule 54 if the district court extends the
time to appeal under Rule 58;
to alter or amend the judgment under Rule 59;
for a new trial under Rule 59; or
for relief under Rule 60 if the motion is filed no later than 28 days
after the judgment is entered.
(B)(i) If a party files a notice of appeal after the court announces or
enters a judgment—but before it disposes of any motion listed in Rule
4(a)(4)(A)—the notice becomes effective to appeal a judgment or
order, in whole or in part, when the order disposing of the last such
remaining motion is entered.
(ii) A party intending to challenge an order disposing of any motion
listed in Rule 4(a)(4)(A), or a judgment's alteration or amendment
upon such a motion, must file a notice of appeal, or an amended notice

of appeal—in compliance with Rule 3(c)—within the time prescribed
by this Rule measured from the entry of the order disposing of the last
such remaining motion.
(5) Motion for Extension of Time.
(A) The district court may extend the time to file a notice of appeal
if:
a party so moves no later than 30 days after the time prescribed by
this Rule 4(a) expires; and
regardless of whether its motion is filed before or during the 30
days after the time prescribed by this Rule 4(a) expires, that party
shows excusable neglect or good cause.
(B) A motion filed before the expiration of the time prescribed in
Rule 4(a)(1) or (3) may be ex parte unless the court requires
otherwise. If the motion is filed after the expiration of the prescribed
time, notice must be given to the other parties in accordance with
local rules.
(C) No extension under this Rule 4(a)(5) may exceed 30 days after
the prescribed time or 14 days after the date when the order granting
the motion is entered, whichever is later.
(6) Reopening the Time to File an Appeal. The district court may
reopen the time to file an appeal for a period of 14 days after the date
when its order to reopen is entered, but only if all the following
conditions are satisfied:
the court finds that the moving party did not receive notice under
Federal Rule of Civil Procedure 77 (d) of the entry of the judgment
or order sought to be appealed within 21 days after entry;
the motion is filed within 180 days after the judgment or order is
entered or within 14 days after the moving party receives notice under
Federal Rule of Civil Procedure 77 (d) of the entry, whichever is
earlier; and
the court finds that no party would be prejudiced.
(7) Entry Defined.
(A) A judgment or order is entered for purposes of this Rule 4(a):
if Federal Rule of Civil Procedure 58 (a) does not require a
separate document, when the judgment or order is entered in the civil
docket under Federal Rule of Civil Procedure 79 (a); or
if Federal Rule of Civil Procedure 58 (a) requires a separate
document, when the judgment or order is entered in the civil docket
under Federal. Rule of Civil Procedure 79(a) and when the earlier of
these events occurs:
the judgment or order is set forth on a separate document, or
150 days have run from entry of the judgment or order in the civil
docket under Federal Rule of Civil Procedure 79 (a).
(B) A failure to set forth a judgment or order on a separate document
when required by Federal Rule of Civil Procedure 58 (a) does not
affect the validity of an appeal from that judgment or order.

Case 1:17-cv-00501-LEK-CFH Document 115 Filed 10/27/20 Page 1 of 1
App 339

Tuesday October 27, 2020
E.S. Pro Se and R.S. Pro Se on behalf of A.S
Motherandfatherobochild@gmail.com

Hon. Lawrence E. Kahn
Senior United States District Court Judge
U.S. District Court
Northern District of New York
Re: R.S., et al. v. Board of Education Shenendehowa Central School District, et al.,
No. 1:17-C17-501 (LEK/CFH)
Re: Resubmittal of Reply to Response Dkt. Nos. 113 and 114
Dear Judge Khan,
This case is currently under the jurisdiction of The Supreme Court of the United States.
Please see the enclosed attachment that acknowledges receipt of out Petition for a Writ of
Certiorari and request to correct the petition within 60 day of October 15, 2020 consistent
with Rule 14.5 or the Rules, of the United States Supreme. Court.
Dated: County of Saratoga
October 27, 2020
s/ E.S. Pro Se and R.S. Pro Se on behalf of A.S.
Motherandfatherobochild@gmail.com

1

Case 1:17-cv-00501-LEK-CFH Document 115-1 Filed 10/27/20 Page 1 of 1
App 340
SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
October 15, 2020

Ne•

RE: R.S., et ux. v. Board of Education Shenendebowa Central School
USCA2 No. 20-1153
No: 20A59
Dear Mr. S
Returned is the original copy of the,petition and appendix in the above-entitled case
postmarked on. October 5, 2020 and received on October 15, 2020, which fails to comply
with the Rules of this Court.
The application (#20A59) to exceed the ord limit was denied an-October 5,
2020 by Justice Breyer.
The word limit of the text of a petition is 9,000 words. Please revise the petition
to the correct word limit of 9,000 words or less in order for this Court to docket
the petition for a writ of certiorari. Rule 33.1(g)(i).
Your petition and chedk in the amount of $300.00 are "herewith returned.
Kindly correct the petition and appendix so that it complies in all respects with the
kules of this Court and return it to this Office promptly,so that it may be docketed. Unless the petition is submitted to this Office in corrected form within 60 days of the
date of this letter, the petition will not be filed. Rule 14.5.
A copy of the corrected petition must be served on opposing counsel. Rule 29.3.

Sincerely,
Scott S. H.: iris, Clerk
By:
Su
pong
(202) 479-3039
Enclosures

